<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   

 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA                         


                                     
                            ANNUAL REPORT

                             

                               2018                                     


                                  

=======================================================================





                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2018

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

 


         Available via the World Wide Web: https://www.cecc.gov
         
         
         
         
         
                            _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-388 PDF              WASHINGTON : 2018               
         
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



    Senate                                House

MARCO RUBIO, Florida, Chairman       CHRISTOPHER H. SMITH, New Jersey, 
JAMES LANKFORD, Oklahoma             Cochairman
TOM COTTON, Arkansas                 ROBERT PITTENGER, North Carolina
STEVE DAINES, Montana                RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIMOTHY J. WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director
                 

                                  (ii)
                                  
                                  
                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Statement From the Chairs....................................     1
    Introduction.................................................     3
    Overview.....................................................     7
    Recommendations to Congress and the Administration...........    13
    Political Prisoner Cases of Concern..........................    19
    Political Prisoner Database..................................    22
    Specific Findings and Recommendations........................    25

II. Human Rights.................................................    66

    Freedom of Expression........................................    66
    Worker Rights................................................    86
    Criminal Justice.............................................   101
    Freedom of Religion..........................................   121
    Ethnic Minority Rights.......................................   137
    Population Control...........................................   143
    Special Topic: Forced Evictions in Beijing Municipality......   158
    Status of Women..............................................   169
    Human Trafficking............................................   178
    North Korean Refugees in China...............................   191
    Public Health................................................   197
    The Environment..............................................   205

III. Development of the Rule of Law..............................   214

    Civil Society................................................   214
    Institutions of Democratic Governance........................   225
    Commercial Rule of Law and Human Rights......................   244
    Access to Justice............................................   260

IV. Xinjiang.....................................................   273

V. Tibet.........................................................   292

VI. Developments in Hong Kong and Macau..........................   308


                                                     

                          I. Executive Summary


                       Statement From the Chairs

    When the Congressional-Executive Commission on China 
(Commission) was established in 2000, the prevailing wisdom 
underpinning U.S.-China relations maintained that increased 
trade and economic interconnectivity, as well as diplomacy and 
robust cultural exchange, would lead to greater openness and 
political liberalization within China.
    In the years that followed, the Chinese economy grew 
dramatically, while the Chinese Communist Party became even 
more deeply entrenched in the political power structure and 
deeply committed to preserving its monopoly on power through 
state-sponsored repression, surveillance, and indoctrination. 
In the aftermath of the violent suppression of the 1989 
Tiananmen protests and the fall of the Berlin Wall later that 
same year, the late Chinese leader Deng Xiaoping articulated a 
foreign policy strategy in which China would not try to assume 
a leadership role in international affairs, but rather ``hide 
its capabilities and bide its time'' (taoguang yanghui). Now, 
under the leadership of current Chinese President and Party 
General Secretary Xi Jinping, however, we see an ascendant and 
increasingly aggressive China, seeking to take center stage in 
the world, and in so doing, determined to shape new global 
norms on development, trade, the internet, and even human 
rights. All the while, the fundamental authoritarian character 
of China's political system remains the same.
    The Chinese government's disregard for human rights and the 
rule of law most directly affects the Chinese people--as 
evidenced by the more than 1,300 active cases of political and 
religious prisoners contained in the Commission's far from 
exhaustive Political Prisoner Database. The Commission's Annual 
Report painstakingly documents rights violations in ethnic 
minority regions, religious freedom violations, harassment of 
rights defenders and lawyers, suppression of free speech, 
large-scale forced evictions, onerous restrictions on civil 
society and more--all of which are the markings of a 
repressive, one-party state.
    The report that follows highlights the dire human rights 
situation inside China and the continued downward trajectory, 
by virtually every measure, since Xi Jinping became Communist 
Party General Secretary in 2012 and President in 2013--the 
latter post likely to be his beyond 2023. Of particular concern 
is the mass, arbitrary, internment of as many as 1 million or 
more Uyghurs and other Muslim ethnic minorities in ``political 
reeducation'' camps in western China. Reports indicate that 
this may be the largest incarceration of an ethnic minority 
population since World War II, and that it may constitute 
crimes against humanity. Local officials in the Xinjiang Uyghur 
Autonomous Region (XUAR) have used alarming political rhetoric 
to describe the purpose of this government policy, including 
``eradicating tumors'' and ``spray[ing] chemicals'' on crops to 
kill the ``weeds.'' In response to these developments, an 
international expert described the XUAR as ``a police state to 
rival North Korea, with a formalized racism on the order of 
South African apartheid.'' \1\                          

    China's authoritarianism at home directly threatens our 
freedoms as well as our most deeply held values and national 
interests. Inside China, American citizens are targeted with 
exit bans preventing them from leaving China, often in order to 
resolve business disputes or pressure their family members or 
colleagues to cooperate with Chinese courts; American citizens 
are detained or deported for sending private electronic 
messages critical of the Chinese government; American 
journalists are harassed and intimidated; and American business 
interests are threatened by rampant intellectual property theft 
and forced technology transfers.
    Additionally, the ``long arm'' of the Chinese Communist 
Party extends beyond China's borders and is increasingly 
pervasive and multifaceted under the direction of an enhanced 
United Front Work Department, a Party institution used to 
influence Chinese individuals at home and abroad to neutralize 
possible challenges to its ideological and policy agenda. The 
Party's efforts to export its authoritarianism abroad takes a 
multitude of forms, including but not limited to the following: 
interference in multilateral institutions; threatening and 
intimidating rights defenders and their families; imposing 
censorship mechanisms on foreign publishers and social media 
companies; asserting ``cyber-sovereignty'' and ``national 
internets''; influencing academic institutions and critical 
analysis of China's past history and present policies; and 
threatening American companies who do not conform with China's 
narrative on ``sensitive topics'' like Tibet, Hong Kong, and 
Taiwan. So, too, Chinese government foreign investment and 
development, which will likely reach record levels with its 
ambitious and far-reaching Belt and Road Initiative, is 
accompanied by a robust non-democratic political agenda as are 
other manifestations of what some experts are calling Chinese 
``sharp power.'' The Chinese government is actively seeking to 
leverage its economic power to extend the influence of its 
political model.
    The ever-expanding scope of domestic repression documented 
in the pages that follow directly affects an increasing number 
of Chinese citizens, stirring resentment, dissent, and even 
activism in unlikely places. As American policymakers revisit 
the assumptions that previously informed U.S.-China relations, 
and seek to chart a new path forward, it is vital that our 
foreign policy prioritizes the promotion of universal human 
rights and the protection of basic human dignity, principles 
the Chinese Communist Party is actively trying to redefine. 
Such pursuits have merit on their own accord, and they are also 
inextricably linked to vital U.S. national interests, including 
regional stability in the Indo-Pacific, the future of young and 
emerging democracies in our hemisphere, and the strength of our 
own civic institutions domestically. It is in this context that 
we, as Chairman and Cochairman of the Congressional-Executive 
Commission on China, submit the Commission's 2018 Annual 
Report.

    Senator Marco Rubio            Representative Chris Smith
    Chair                          Cochair

                     Introduction

    In recent years the Congressional-Executive Commission on 
China (Commission) has reported on Chinese President and 
Communist Party General Secretary Xi Jinping's consolidation 
and personalization of political power--a trend which reached 
new heights at the 19th National Congress of the Chinese 
Communist Party in October 2017, and the March 2018 meetings 
(Two Sessions) of the National People's Congress (NPC) and the 
Chinese People's Political Consultative Conference in Beijing. 
The political sensitivity of these events was underscored by 
the control and censorship of news and online discussion, and 
the implementation of ``stability maintenance'' activities to 
quash citizen advocacy and petitioning. No clear successor for 
Party General Secretary emerged during the 19th Party Congress 
in October, an omission that presaged the passage of amendments 
to the Party constitution confirming Xi Jinping's paramount 
authority. The March 2018 amendments enshrining the principle 
of ``Xi Jinping Thought on Socialism With Chinese 
Characteristics for a New Era'' in China's Constitution and 
removing the two-term limit on the presidency signaled Xi's 
intention to retain leadership of China beyond the end of his 
second term as president in 2023, a distinct break with China's 
decades-long model of authoritarian governance grounded in 
``collective leadership'' and orderly succession.
    Another key development at the Two Sessions was the 
establishment of an anticorruption agency, the National 
Supervisory Commission (NSC). The investigatory and supervisory 
functions of the NSC appear to extend Xi Jinping's signature 
anticorruption campaign against Party officials to a much 
broader swath of public sector personnel of over 100 million 
people, including state-owned enterprise employees, public 
hospital staff, and public educators. Moreover, the NSC is 
authorized to use ``confinement'' (liuzhi), a new form of 
extrajudicial detention, for at least three months without a 
guarantee of access to counsel. The NSC is also authorized to 
place any private citizen, regardless of their profession or 
party membership status, under liuzhi if they are suspected of 
involvement in official misconduct. The structure of the NSC 
further blurs the line between the Party and government, as 
does the far-reaching reorganization of Party and government 
agencies approved at the Two Sessions.
    These developments effectively remove many of the 
protections put in place in the late 1970s and during the 1980s 
in the wake of the violent and chaotic Cultural Revolution. 
Deng Xiaoping and Party leadership at that time established 
these institutional measures, warning China to protect against 
``the excessive concentration of power . . . particularly the 
first secretary, who takes command and sets the tune for 
everything . . ..'' \2\ As Xi emerged this year with near total 
policymaking authority, many experts drew comparisons to the 
cult-of-personality era of former Party Chairman Mao Zedong. 
One commentator deemed it the ``end of China's 40-year-long 
reform era.'' \3\
    While Xi consolidated his political power at central and 
sub-national levels, the Party and government further tightened 
the space for civil society and rights advocacy. Many 
international non-governmental organizations (NGOs) submitted 
reports in advance of the November 2018 session of the UN Human 
Rights Council's Universal Periodic Review (UPR) of the Chinese 
government's compliance with international human rights 
standards. The NGOs documented multiple violations of 
international legal standards and worsening conditions for 
civil society, rights defense, religious freedom, ethnic 
minority rights, and freedom of expression. Several submissions 
also highlighted the July 2017 death in custody of writer and 
Nobel Peace Prize laureate Liu Xiaobo for whom authorities 
failed to provide adequate medical care. Rights groups also 
censured the Chinese government for the illegal home 
confinement of his widow Liu Xia for eight years, despite the 
absence of any criminal charge or judicial proceeding against 
her. She was finally released and permitted to travel to 
Germany in July 2018, mere days before the one-year anniversary 
of her husband's death in state custody.
    Authorities maintained tight restrictions in many spheres 
of civil society advocacy, often giving priority to the 
suppression of grassroots mobilization and the sharing of 
information online. Chinese authorities continued to severely 
restrict the ability of civil society organizations to work on 
labor issues, in keeping with a national crackdown on labor 
NGOs that began in 2015. Strikes continued, however, with the 
vast majority of strikes this reporting year relating to non-
payment of wages. Additionally, the Commission observed 
continuing restrictions on individuals and groups working on 
women's rights, the environment, and public health advocacy. 
Civil society groups' social media accounts were censored or 
shut down this past year, reflecting the government's awareness 
of the power of online communications. Moreover, in a related 
regulatory development, administrators of social media groups 
(e.g., WeChat, QQ, and other group messaging platforms) may now 
be held liable for the views expressed by members of their 
respective chat groups.
    Authorities continued to harass, abuse, and detain 
individuals by means including extralegal ``black jails,'' 
forced psychiatric commitment of individuals without mental 
illness, and ``political reeducation'' centers, the latter 
specifically used to detain members of ethnic minority groups 
in the Xinjiang Uyghur Autonomous Region (XUAR). Authorities 
apply broadly defined provisions in the PRC Criminal Law, such 
as crimes of ``endangering state security'' and ``picking 
quarrels and provoking trouble,'' for a range of activities 
that are protected under international human rights standards. 
The government violated detainees' rights under the PRC 
Criminal Procedure Law, including through what appeared to be 
coerced confessions in the cases of Swedish citizen Gui Minhai 
and Taiwan NGO volunteer Lee Ming-cheh. Reports showed that 
authorities continued to deny or failed to provide adequate 
medical care to detainees, a violation of international human 
rights standards that may amount to torture. There were also 
reports of detainees being forced to ingest unknown 
``medications.'' The sudden and unexpected death in February 
2018 of prominent human rights lawyer Li Baiguang, just weeks 
after he visited Washington, D.C., led some observers to claim 
that he was the latest victim in Xi's sweeping crackdown on 
rights lawyers and advocates. In the more than three years 
since the July 2015 crackdown on human rights lawyers and 
defenders, which has affected over 300 individuals and led to 
14 criminal convictions, authorities continued to target 
prominent rights defenders and lawyers with torture (Yu 
Wensheng), imprisonment (Wu Gan, Jiang Tianyong), cancellation 
of law licenses (Li Heping, Xie Yanyi) and other forms of 
harassment. Authorities stopped Li Wenzu, the wife of detained 
lawyer Wang Quanzhang, from completing a 100-kilometer walk 
from her home in Beijing municipality to Tianjin municipality, 
where Wang reportedly is being held, to mark Wang's 1,000th day 
in incommunicado detention.
    The Chinese government remained one of the worst jailers of 
journalists, with estimates of individuals in detention or 
imprisoned in connection with their reporting ranging from 41 
to more than 50, including the founders of human rights 
monitoring websites and citizen journalists. Lu Yuyu, founder 
of an initiative to track labor protests and strikes called 
``Not-the-News,'' is serving a four-year sentence in Yunnan 
province. The cases of Liu Feiyue, founder of the human rights 
monitoring website Civil Rights & Livelihood Watch; Huang Qi, 
founder of another rights monitoring website, 64 Tianwang; and 
Zhen Jianghua, executive director of Human Rights Campaign in 
China, an online platform that campaigns for human rights 
advocates and victims of rights abuses, are pending. According 
to the Foreign Correspondents' Club of China's 2017 survey, 
working conditions for foreign reporters in China deteriorated 
in 2017, demonstrated by accounts of official harassment of 
reporters, news assistants, and sources; attempts to interfere 
with coverage of issues that authorities deemed ``sensitive''; 
restrictions on travel to areas along China's borders and 
ethnic minority regions; and visa renewal delays and denials.
    The Party and government continued implementing repressive 
policies in Tibetan autonomous areas, including extensive and 
intrusive surveillance, strict regulations and rules to 
restrict Tibetans' religious and cultural rights, and pervasive 
displays of police and military force. The Chinese government 
persists in regarding Tibetans' spiritual leader, the 83-year 
old Dalai Lama, as a ``mastermind'' of ``separatist forces'' 
and maintains that only it has the right to decide the Dalai 
Lama's successor, attempting to exert state control over a 
venerated and sacred religious process. In a case that drew 
widespread international condemnation, in May 2018, Chinese 
authorities in Qinghai province sentenced Tashi Wangchug to 
five years in prison for ``inciting separatism'' in connection 
with his interview with the New York Times about his Tibetan 
language advocacy. In August, the Qinghai High People's Court 
rejected Tashi Wangchug's appeal.
    Official control and scrutiny over religious activity 
increased as revisions to the Regulations on Religious Affairs 
took effect in February 2018, national state-sanctioned 
religious organizations announced major plans to ``sinicize'' 
religion in China, and the Party's United Front Work Department 
took over responsibility for direct oversight of religious 
affairs. In Henan province, authorities reportedly banned at 
least 100 Protestant churches from meeting after the revised 
regulations went into effect in February, and also destroyed 
religious iconography in believers' homes. In September, set 
against the backdrop of a broader crackdown on Chinese 
Christians, reports emerged that a deal was imminent between 
the Holy See and the Chinese government. Under the reported 
deal, the Holy See would recognize seven ``illegitimate 
bishops'' approved by the government, and Chinese authorities 
would nominate future Chinese bishops that the Holy See would 
be able to veto. Both sides reportedly agreed not to publish 
the agreement after its signing. As of mid-September the deal 
was not yet finalized, but Chinese Catholics had expressed 
concerns in reaction to earlier reports of an impending 
agreement that the Holy See would make concessions that would 
weaken and further divide the Chinese Catholic community. 
Official repression of Hui Muslim believers also intensified, 
with local governments in some areas removing ``Arabic style'' 
architecture, banning children and youth from participating in 
religious activities, and prohibiting calls to prayer and the 
sale of the Quran. Authorities also persisted in their 
crackdown on Falun Gong practitioners, subjecting them to 
abusive treatment, especially when in custody.
    Chinese authorities continued to implement coercive 
population control policies that violate international 
standards, despite the shift to a ``universal two-child 
policy.'' Now in its third consecutive year, the new policy has 
not been effective in spurring population growth, reportedly 
prompting the government to commission research on removing 
birth restrictions completely. Decades of coercive population 
control policies have exacerbated China's demographic 
challenges, which include a rapidly aging population, shrinking 
workforce, and sex ratio imbalance. A lack of economic 
opportunity and China's sex ratio imbalance contributed to the 
risk of individuals in Southeast Asian countries being 
trafficked into China for forced labor and forced marriage. In 
addition, the Chinese government continued to treat North 
Korean refugees as illegal economic migrants and maintained a 
policy of repatriating undocumented North Koreans, leaving the 
refugees vulnerable to human trafficking within China and 
imprisonment, torture, or death upon return to North Korea.
    The long-term viability of Hong Kong's ``one country, two 
systems'' framework remained tenuous given the continued 
erosion of Hong Kong's autonomy, as guaranteed under the ``one 
country, two systems'' policy enshrined in Hong Kong's Basic 
Law. The ``political screening'' and ultimate disqualification 
prior to the March 2018 by-election of several prospective 
candidates for the Legislative Council based on their political 
beliefs, marked a significant setback for pro-democracy forces 
and called into question their ability to effectively use the 
existing political system to secure democratic reforms. 
Mainland officials used threats and intimidation against 
individuals based on their political association and beliefs; 
members of pro-democracy group Demosisto were reportedly 
detained and extensively questioned when they attempted to 
leave the mainland and return to Hong Kong. Also, this past 
year, Hong Kong and mainland officials continued negotiations 
and finalized ``co-location'' plans for the Hong Kong section 
of the Guangzhou-Shenzhen-Hong Kong Express Rail Link. 
Activists, politicians, and lawyers criticized the co-location 
plan, which permits mainland law enforcement to operate in a 
designated ``Mainland Port Area'' in the Hong Kong train 
station, in apparent violation of Hong Kong's Basic Law.
    The subsequent chapters of this report document these and 
other human rights and rule of law developments in China during 
the Commission's 2018 reporting year that spans, roughly, 
September 2017 through September 2018. General themes and key 
developments covered in the body of this report are outlined 
below.

                                Overview

    Over the Commission's 2018 reporting year, the following 
general themes and key developments emerged:

        1. Unprecedented Repression of Ethnic Minorities in the 
        Xinjiang Uyghur Autonomous Region
        2. Party Control Over Government, Society, and Business 
        Dramatically Increases
        3. Increasing Use of Technology as a Tool of Repression

 Unprecedented Repression of Ethnic Minorities in the Xinjiang Uyghur 
                           Autonomous Region

    The Xinjiang Uyghur Autonomous Region (XUAR), the area in 
western China that Chinese officials have promoted as an 
important hub for Belt and Road Initiative development 
projects, witnessed a severe deterioration with respect to 
human rights. Authorities have targeted members of the region's 
predominantly Muslim ethnic minority populations, including 
Uyghurs, Kazakhs, Kyrgyz, and Hui, with reports of mass 
internment in harsh ``political reeducation'' centers or camps 
and restrictions on religious practice and ethnic cultural and 
linguistic traditions. Several leading experts characterized 
the region as a ``digital police'' or ``surveillance'' state, 
and a potential incubator for high-tech social controls that 
the government may soon employ more broadly.
    Since Chen Quanguo's appointment as XUAR Party Secretary in 
August 2016, reports have documented the escalation of rights 
abuses against local ethnic minority populations. Chen 
previously served in the same position in the Tibet Autonomous 
Region (TAR), where he imposed similarly onerous restrictions. 
This past year the mass surveillance and securitization of the 
XUAR was starkly illustrated by the extrajudicial detention of 
1 million or more individuals in ``political reeducation'' 
centers or camps--making it the largest mass internment of an 
ethnic minority population in the world today. Individuals may 
be detained for a number of reasons, including frequency of 
prayer, expression of ``politically incorrect'' views, history 
of travel abroad, and connections with people outside of China. 
Detentions appear to be indefinite in most cases. Regional 
government authorities reportedly ordered officials in some 
XUAR jurisdictions to meet detention quotas, and local 
orphanages were reportedly overcrowded due to the number of 
children requiring care while both parents are held in the 
camps. A May 2018 Associated Press report documented 
propagandistic slogans that detainees were required to chant--
``Thank the Party! Thank the Motherland! Thank President 
Xi!''--before being permitted to eat.\4\ The ``political 
reeducation'' centers are reportedly fortified with barbed 
wire, reinforced doors, and bombproof surfaces. Security 
personnel have subjected detainees to torture (including the 
use of interrogation chairs called ``tiger chairs''), medical 
neglect and maltreatment, solitary confinement, sleep 
deprivation, lack of adequate clothing in cold temperatures, 
and other forms of abuse. Reports have also emerged of a number 
of deaths in the camps. Reports in May 2018 indicated that 
Chinese authorities were soliciting public bids for the 
construction of more camps and additional security features for 
existing ones. In addition to those detained in ``political 
reeducation'' centers, rights groups reported that as of June 
2018, authorities may have forced an additional 2.2 million 
XUAR residents to attend day or evening ``education sessions.''
    Analysis of Chinese government data published by the 
organization Chinese Human Rights Defenders (CHRD) in July 2018 
showed that 21 percent of all criminal arrests in China in 2017 
took place in the XUAR, which has 1.5 percent of China's 
population. These figures do not include detentions in 
``reeducation'' camps, which are carried out extrajudicially, 
though authorities reportedly transferred some ``reeducation'' 
camp detainees to prison after a period of time. It remained 
difficult for foreign journalists, NGO representatives, or 
senior diplomats to travel or work freely in the region, making 
precise reporting on the numbers of those detained in the camps 
difficult to ascertain. Figures ranged anywhere from hundreds 
of thousands to upwards of a million, according to rights 
groups, scholars, and media organizations. Authorities in the 
XUAR show no indication of slowing or halting the detentions, 
and in fact government procurement documents indicate plans to 
build additional detention facilities, underscoring the ongoing 
nature of the crisis.
    Those not subject to ``transformation through education'' 
in detention still faced daily intrusions in their home life, 
including compulsory homestays whereby Communist Party 
officials are sent to live with local Uyghur and Kazakh 
families, including families with no adult male present because 
the men in the family have been detained in ``reeducation'' 
camps. Families are required to provide information regarding 
their daily prayer habits and political views and are subjected 
to ``political education'' administered by the live-in Party 
official.
    The data-driven surveillance in the XUAR is facilitated by 
iris and body scanners, voice pattern analyzers, DNA 
sequencers, and facial recognition cameras in neighborhoods, on 
roads, and in train stations. Two large Chinese firms, 
Hikvision and Dahua Technology, have profited greatly from the 
surge in security spending, reportedly winning upwards of 
US$1.2 billion in government contracts for large-scale 
surveillance projects in the XUAR. Authorities employ hand-held 
devices to search smart phones for encrypted chat applications 
(apps) and require residents to install monitoring apps on 
their cell phones. More traditional security measures are also 
employed, including extensive police checkpoints. The rise in 
security personnel has accompanied the proliferation of 
``convenience police stations,'' a dense network of street 
corner, village, and neighborhood police stations that enhance 
authorities' ability to closely surveil and police local 
communities.
    Developments in the XUAR had a direct impact on U.S. 
interests, most notably the detention of dozens of family 
members of at least six U.S.-based Uyghur journalists employed 
by Radio Free Asia, as well as the detention of dozens of 
family members of prominent U.S.-based Uyghur rights activist, 
Rebiya Kadeer, in an apparent attempt by the Chinese government 
to silence effective reporting on human rights conditions in 
the XUAR and Uyghur rights advocacy. Additionally, reports 
emerged of Chinese authorities attempting to influence, 
intimidate, and otherwise harass other Uyghurs living abroad, 
including in the United States, to get them to return to China, 
or monitor and silence them while abroad.

   Party Control Over Government, Society, and Business Dramatically 
                               Increases

    This past year, the purview of the Party continued to 
expand into many sectors of public life, eliminating the 
tenuous separation that previously existed between the Party 
and government agencies. In previous decades, the Party had 
allowed experimentation and varying degrees of autonomy in 
local- and provincial-level implementation of central policy 
decisions. Under Party General Secretary Xi Jinping, that 
modicum of autonomy continues to shrink with the Party 
apparatus reasserting itself over the government. In September 
2017, senior Party officials began a process of amending 
China's Constitution, which was finalized in the March 2018 
meeting of the National People's Congress. A new sentence was 
added to Article 1 in China's Constitution after ``[t]he 
socialist system is the basic system of the People's Republic 
of China'' that reads, ``The defining feature of socialism with 
Chinese characteristics is the leadership of the Communist 
Party of China.'' More significantly for Xi Jinping's 
personalization of power, ``Xi Jinping Thought on Socialism 
With Chinese Characteristics for a New Era'' was added to both 
the Party Constitution and China's Constitution, joining Mao 
Zedong Thought and Deng Xiaoping Theory as the three principles 
guiding Chinese political life. Central to the doctrine, and 
Xi's aspirational promise of the ``Chinese dream,'' is the 
supremacy of the Chinese Communist Party and one-party rule.
    In another major move to elevate and consolidate the 
Party's control over government work, at the end of March, the 
Party Central Committee issued a massive restructuring plan for 
Party and government agencies to be completed by the end of 
2018. This process has been described by expert Carl Minzner as 
the ``re-Partyization of the bureaucracy.'' One of the key 
changes in this sweeping reorganization plan was the rise of 
the United Front Work Department (UFWD), a Party institution 
used to influence and neutralize possible challenges to its 
ideological and policy agenda. The functions of the State 
Administration for Religious Affairs (SARA), which previously 
oversaw religious affairs, are now subsumed by the UFWD. Some 
commentators noted that the change was evidence that the Party 
views control of religious affairs as central to maintaining 
its power. The stated rationale for the restructuring of SARA 
was to unify and strengthen the Party's control over 
``religious work.'' In addition to religious affairs work, the 
UFWD has also taken over management of ethnic affairs, 
including the management of regions with sizeable ethnic 
minority populations like the Xinjiang Uyghur Autonomous Region 
and Tibet Autonomous Region--consistent with Xi Jinping's 
emphasis on the importance of ``sinicizing'' ethnic and 
religious minorities. The UFWD also absorbed the Overseas 
Chinese Affairs Office, giving the Party much clearer authority 
to monitor and manage the affairs of Chinese citizens who are 
living outside of China. One analyst voiced concern that this 
was an ``unprecedented extension of Party influence abroad.''
    The reorganization plan also restructured authority and 
managerial responsibilities of Party entities and Chinese 
government agencies in the area of the press and media. The 
plan positioned the Party's Central Propaganda Department (CPD) 
in a ``leadership'' role with direct management 
responsibilities for news media, publishing, and film. While 
the CPD and its lower level bureaus have long coordinated 
ideological messaging, the CPD's enhanced managerial role 
reportedly reflects Party efforts to rein in increasingly 
complex digital news, communications, and entertainment 
platforms and ensure dissemination of a unified message about 
China within and outside of China. Among the key provisions 
addressing managerial structures and authority was the merger 
of three major broadcast entities--China Central Television, 
China National Radio, and China Radio International--into China 
Media Group domestically and Voice of China internationally. 
Official explanations of the broadcasting agency's global name 
of Voice of China emphasize its role in ``telling China's story 
well'' to an international audience in polished and innovative 
ways.
    The Party also sought to expand its role in commercial 
enterprises. In October 2017, the Party amended its 
constitution to stipulate that Party committees play a 
``leading role'' in the decisionmaking of state-owned 
enterprises (SOEs). Multiple SOEs also reportedly proposed 
granting internal Party groups a greater decisionmaking role in 
joint ventures with foreign companies. The government is also 
reportedly exploring purchasing stakes in major technology 
firms including Alibaba and Tencent.

          Increasing Use of Technology as a Tool of Repression

    This reporting year, consistent with the trend regarding 
the Party's expanding reach, the Commission observed the Party 
and government re-inserting itself into the private lives of 
Chinese citizens through expanded collection of biometric data, 
growing surveillance networks, and continued development of the 
social credit system. Reports show that social and political 
management of the Chinese people was aided by smart technology 
and advances in artificial intelligence (AI) in new ways this 
past year, including efforts to create ``a pervasive system of 
algorithmic surveillance.'' \5\ The Chinese government 
continued to expand its video surveillance system this past 
year, with the primary aim of ``maintaining social stability.'' 
Also known as Skynet, the system included over 27 million 
surveillance cameras nationwide as of September 2017. The 
effort was buttressed by the creation of biometric databases to 
contain information gathered from saliva and blood samples from 
individuals, in some cases collected without their informed 
consent, amplifying privacy concerns. As of December 2017, the 
government had also reportedly spent 3.1 billion yuan 
(approximately US$500 million) on ``Sharp Eyes,'' considered 
the rural version of China's Skynet surveillance project. By 
2020, China aims to complete a nationwide facial recognition 
and surveillance network, with ``100 percent surveillance and 
facial recognition coverage and total unification of its 
existing databases across the country.'' \6\
    Chinese companies like Alibaba (and its affiliate Ant 
Financial) and Tencent (which owns the popular messaging 
platform WeChat) can be required to hand over data on Chinese 
citizens. Ant Financial, which has pioneered the commercial 
credit rating product Sesame Credit, has indicated its 
intention to ``share information collected on trustworthiness 
and untrustworthiness with the State Credit Information-Sharing 
Platform in a timely manner.'' \7\ The PRC Cybersecurity Law, 
which took effect in June 2017, requires companies to store 
user data inside mainland China, resulting in growing privacy 
concerns. American companies, including Apple, which 
transferred operations of iCloud services for mainland Chinese 
accounts to a state-owned firm in February 2018, will likely be 
compelled to disclose users' information to authorities, a 
particular concern for users who may be targeted because they 
are perceived as a threat to the Party.
    As of March 31, 2018, access to non-licensed virtual 
private networks (or VPNs)--previously used to send secure 
emails or data or to access websites blocked by Chinese 
authorities--is no longer permitted. While most analyses of 
this development centered around the far-reaching censorship 
implications, a secondary impact is the strengthening of the 
state's surveillance apparatus as it relates to foreign 
companies whose electronic communications and data 
transmissions are increasingly vulnerable.
    The government continued to work with Chinese companies to 
develop and implement a social credit system based on the 
governing principle, ``once untrustworthy, always restricted.'' 
\8\ Pilot projects of the nascent social credit system have 
begun to aggregate vast amounts of data on citizens, with a 
view toward shaping and even engineering citizens' behavior. 
The social credit system is grounded in a broader political 
control framework known as ``social management'' or ``social 
governance,'' which the Party views as vital to maintaining 
power. The system does not simply rate financial activities, 
rather it aims to reward or punish a variety of actions 
pertaining to economic as well as social and political 
conduct.\9\ According to media reports, at least 9 million 
Chinese have been banned from travelling domestically in 
connection to the social credit system, though the system is 
still in its pilot stages. One observer described the Party's 
plans for the social credit system as ``Orwellian'' and ``a 
preemptive way of shaping the way people think and shaping the 
way people act.'' \10\


    Notes to Section I--Executive Summary

    \1\ Rian Thum, ``What Really Happens in China's `Re-Education' 
Camps,'' New York Times, 15 May 18.
    \2\ Evan Osnos, ``Xi Jinping May Be President for Life. What Will 
Happen to China?'' New Yorker, 26 February 18.
    \3\ James Doubek, ``China Removes Presidential Term Limits, 
Enabling Xi Jinping To Rule Indefinitely,'' NPR, 11 March 18.
    \4\ Gerry Shih, ``China's Mass Indoctrination Camps Evoke Cultural 
Revolution,'' Associated Press, 18 May 18.
    \5\ Anna Mitchell and Larry Diamond, ``China's Surveillance State 
Should Scare Everyone,'' Atlantic, 2 February 18.
    \6\ ``China Aims for Near-Total Surveillance, Including in People's 
Homes,'' Radio Free Asia, 30 March 18.
    \7\ National Development and Reform Commission, ``Commission Signs 
Memorandum of Understanding on Rewards and Punishments With Ant 
Financial Services Group'' [Wowei yu mayi jinrong fuwu jituan lianhe 
jiangcheng beiwanglu], 3 August 16.
    \8\ Jamie Fullerton, ``China's `Social Credit' System Bans Millions 
From Travelling,'' Telegraph, 24 March 18.
    \9\ Shazeda Ahmed, ``Who's Really Responsible for Digital Privacy 
in China?'' Asia Society, ChinaFile, 30 May 18.
    \10\ Simina Mistreanu, ``Life Inside China's Social Credit 
Laboratory,'' Foreign Policy, 3 April 18.


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

           Recommendations to Congress and the Administration

    As mentioned earlier in the Executive Summary, there is a 
growing consensus that U.S.-China policy is in need of a 
readjustment. In December 2017, the Administration released the 
``National Security Strategy of the United States of America'' 
(NSS), which identified the current Chinese government as a 
``revisionist power'' seeking to ``shape a world antithetical 
to U.S. values and interests'' and engaged in efforts to 
``repress'' its society. There has long been the temptation to 
view human rights and the rule of law as tangential issues in 
bilateral relations, sidelined from economic and security 
interests, but the NSS concluded by saying that the U.S. 
Government must ``raise our competitive game'' and employ all 
of the ``tools of national power'' to deal with the challenges 
coming from illiberal and authoritarian states, including 
China. In this vein, the Commission makes the following 
recommendations for consideration by Congress and the 
Administration, recognizing that, since the end of World War 
II, a shared commitment to universal principles and the rule of 
law are the foundation upon which cooperative alliances and 
security partnerships, multilateral consultative mechanisms, 
and the free flow of trade and investment depend. Any effort to 
rethink U.S. Government approaches to the current Chinese 
government should recognize that pressing for adherence to 
universal standards and insistence on greater reciprocity 
advance American economic and security interests and the 
interests of Chinese citizens eager for peace, rights 
protections, and genuine political reform.
    <bullet> Advocate for Political Prisoners. In meetings with 
Chinese government officials, Administration officials at the 
highest levels and Members of Congress should raise cases of 
human rights abuse and publicly articulate why China's 
continued detention of political and religious prisoners harms 
U.S.-China relations. Experience demonstrates that raising 
individual prisoner cases, publicly and privately, can result 
in improved treatment, lighter sentences or, in some cases, 
release from custody, detention, or imprisonment. As 
demonstrated by the case of Liu Xia, who left China in July 
2018 and is now living in Germany, sustained and consistent 
international advocacy on behalf of prisoners can bring 
results. The Administration should consider creating a Special 
Advisor for Religious and Political Prisoners to coordinate 
interagency efforts on behalf of political and religious 
prisoners in China and globally. Members of Congress are 
encouraged to ``adopt'' individual prisoners and advocate on 
their behalf, including through the Tom Lantos Human Rights 
Commission's ``Defending Freedoms Project'' or the Commission's 
#FreeChinasHeroes initiative.
    <bullet> Embed Human Rights Throughout Bilateral Relations. 
The Administration should develop a comprehensive strategy to 
advance human rights through other issues on the U.S.-China 
agenda. Working with Congress, the Administration should 
develop an action plan and implementation guidelines to embed 
human rights, rule of law, and democratic accountability goals 
into the critical mission strategies of all U.S. Government 
entities interacting with the Chinese government. Isolating 
human rights discussions only to State Department-led bilateral 
human rights dialogue implies that human rights concerns are 
unconnected to other bilateral interests. The Administration 
should consider creating an Interagency Policy Committee (IPC) 
to coordinate human rights policy on China throughout the U.S. 
Government.
    <bullet> Prioritize Reciprocity. The Administration should 
seek a rules-of-the-road agreement that will correct long-
standing diplomatic, trade, investment, media, and cultural and 
academic exchange imbalances in U.S.-China relations. The 
Administration should take appropriate actions to ensure that 
U.S.-based news and social media outlets and academic and non-
governmental organizations (NGOs) have the same freedom to 
operate, publish, and broadcast afforded to a growing number of 
Chinese government-sponsored and funded think tanks, academic 
institutions, and media entities in the United States. The 
Administration should take steps to limit the growth of Chinese 
government-funded Confucius Institutes and Confucius Classrooms 
on U.S. college campuses and in primary and secondary schools, 
and seek greater transparency and faculty oversight over those 
that continue to operate as part of U.S. academic institutions.
    <bullet> Focus on Commercial Rule of Law. Working with 
Congress, the Administration should press the Chinese 
government to discontinue harmful practices and policies that 
have the effect of restricting or limiting U.S. trade and 
investment in China to address the lack of reciprocity between 
the United States and China and strengthen existing laws and 
regulations to scrutinize Chinese investments in various U.S. 
business sectors, including by bolstering the capacity of the 
Committee on Foreign Investment in the United States (CFIUS) as 
required by the John McCain National Defense Authorization Act 
(Public Law No. 115-232). The Administration should publish 
information collected from U.S. businesses about requests from 
the Chinese government regarding censorship, data and forced 
technology transfers, and surveillance, and work with like-
minded World Trade Organization members to pursue negotiations 
on restriction of cross-border data transfers and to develop 
meaningful rules to address restrictions on digital trade.
    <bullet> Hold Officials Accountable for Abuses. The 
Administration should use the powers granted in Executive Order 
13818 to hold accountable individuals complicit in ``serious 
human rights abuse and corruption'' in China and also use the 
list-based sanctions available in the Global Magnitsky Human 
Rights Accountability Act (Global Magnitsky) (Public Law No. 
114-328), the International Religious Freedom Act of 1998 (22 
U.S.C. 6401 et seq.) and the Foreign Relations Authorization 
Act of 2000 (Public Law No. 106-113) to levy financial 
sanctions or deny U.S. entry visas to Chinese officials 
complicit in torture and arbitrary detentions; severe religious 
freedom restrictions; and forced abortions, sterilizations, or 
human trafficking, including human trafficking for the purpose 
of organ removal.
    <bullet> Condition Law Enforcement Cooperation. The U.S. 
Government should stop all cooperation on the extradition of 
Chinese nationals who have fled to avoid pending corruption 
charges until a law enforcement agreement can be signed that 
guarantees verifiable due process protections and an end to 
torture in detention and all forms of arbitrary detention, 
including the Chinese Communist Party's and National 
Supervisory Commission's extrajudicial forms of detention 
called shuanggui and liuzhi, respectively, and Chinese public 
security officials' use of ``residential surveillance at a 
designated location.''
    <bullet> Promote Internet Freedom and Counter Foreign 
Disinformation. The Administration should view ideological 
competition as a critical strategic challenge as the Chinese 
government has intensified the use of disinformation, 
propaganda, economic intimidation, and political influence 
operations to weaken commitments to universal human rights and 
promote the Chinese political-economic model globally. The 
Administration should develop a comprehensive interagency 
action plan to counter disinformation emanating from 
authoritarian countries, including by actively opposing the 
Chinese government's efforts to establish a new international 
norm in ``internet sovereignty,'' expanding digital security 
training for civil society advocates, and prioritizing a robust 
internet freedom agenda that transparently uses 
congressionally-appropriated funds to circumvent China's 
``Great Firewall'' and other ``smart technologies'' through the 
funding and wide distribution of effective technologies that 
provide the greatest possible access to the internet in China 
and globally. The Senate should move swiftly to consider the 
Administration's choice as CEO of the U.S. Agency for Global 
Media (formerly the Broadcasting Board of Governors or BBG) and 
to work with the nominee to strengthen U.S. public diplomacy 
efforts.
    <bullet> Expand Vital Global Alliances. International 
responses to gross violations of human rights have the greatest 
impact when the United States exercises leadership. The 
Administration should develop a multilateral strategy on China 
with other countries, as the Chinese government has used 
multilateral institutions to undermine human rights norms and 
close off discussion of its failures to uphold its 
international obligations. The Administration should also 
continue coordination with businesses and NGOs to develop 
unified messages about unfair industrial policies, digital 
protectionism, and about the harm to U.S. and global interests 
from legislation such as the PRC Law on the Management of 
Overseas Non-Governmental Organizations' Activities in Mainland 
China, the PRC Cybersecurity Law, and the recently revised 
Regulations on Religious Affairs.
    <bullet> Help Address the ``Missing Girl'' Problem. The 
Administration should integrate the provisions of the Girls 
Count Act (Public Law No. 114-24) into foreign assistance 
programs to help address the social and economic issues created 
by the Chinese government's population control policies. In 
addition, Congress should continue to link U.S. contributions 
to the UN Population Fund (UNFPA) for use in China with the end 
of all birth limitation and coercive population control 
policies in China.
    <bullet> Prioritize Religious Freedom Diplomacy. Religious 
groups continue to be the largest segment of China's civil 
society and there is academic research that shows that 
countries respecting and protecting religious freedom are often 
more politically stable, prosperous, and suffer from fewer 
incidents of domestic terrorism. Therefore, the U.S. and China 
share mutual interests in advancing this fundamental freedom. 
The Administration should issue a presidential policy directive 
to implement a global strategy on international religious 
freedom reflecting the priority placed on this issue in the 
``National Security Strategy of the United States of America.'' 
The Administration should use all the tools available in the 
International Religious Freedom Act (22 U.S.C. 6401 et seq.) 
and the Frank Wolf International Religious Freedom Act (Public 
Law No. 114-281) to make targeted responses to escalating 
religious freedom abuses in China and hold officials 
accountable for abuses.
    <bullet> Address Abuses in the Xinjiang Uyghur Autonomous 
Region (XUAR). In addition to employing Global Magnitsky 
sanctions targeting officials responsible for or complicit in 
the mass detentions, severe religious restrictions, and 
intrusive surveillance targeting Uyghurs and other ethnic 
minority Muslims in the XUAR, the Administration should 
consider initiating a joint statement with other nations at the 
UN Human Rights Council or, if appropriate, consider requesting 
an open debate or briefing at the UN Security Council. The 
Administration should calibrate the nature and scope of its 
counterterrorism and law enforcement cooperation and, through 
the Office of the Director of National Intelligence and the 
Justice Department, create guidelines for such cooperation to 
ensure that the United States does not condone or assist in 
Chinese authorities' crackdown on domestic political dissent or 
restrictions on the freedoms of expression or religion.
    <bullet> Revamp Export Controls. The Administration should 
consider restarting an interagency process to determine if new 
technologies should be added to the United States Munitions 
List (USML) at the State Department's Directorate of Defense 
Trade Controls (DDTC), because of their ability to enhance 
surveillance and the ability of security forces to repress 
universally recognized human rights. Additionally, the End-User 
Review Committee (ERC), composed of representatives of the 
Departments of Commerce, State, Defense, Energy and, where 
appropriate, the Treasury, should add XUAR police and 
government entities to the ``Entity List'' of prohibited end-
users and the Commerce Department Bureau of Industry and 
Security should increase scrutiny of any purchase of technology 
or equipment that may expand efforts to deny the right to life, 
liberty, or the security of person of ethnic minority 
populations in the XUAR.
    <bullet> Reiterate U.S. Interest in Hong Kong's Autonomy. 
The Administration should continue to issue annually the report 
outlined in Section 301 of the United States-Hong Kong Policy 
Act of 1992 (Public Law No. 102-383), subject to congressional 
directives, and provide clear assessments of the overall 
trajectory in Hong Kong, as understanding threats to the city's 
autonomy and the rule of law are critical for appraising 
whether the special status granted to Hong Kong under U.S. law 
is warranted. Members of the Administration and Congress should 
express through public statements, official visits, and 
resolutions the important connection between a free press, a 
vibrant civil society, an independent judiciary, and expanded 
democratic governance in Hong Kong and the mutual interests 
shared by the United States and China in maintaining Hong Kong 
as a center of business and finance in Asia.
    <bullet> Expand Mandate of Foreign Agents Registration Act 
(FARA). The Administration and Congress should work together to 
expand the mandate of FARA to encompass individuals working for 
foreign state-owned media and government-backed or Party-
affiliated think tanks or non-profit organizations operating in 
the United States. Congress should consider legislation that 
increases reporting requirements for universities and other 
NGOs that receive financial or in-kind contributions from 
entities affiliated with the Chinese Communist Party or 
government.
    <bullet> Protect Civil Society From Political Influence 
Operations. The Administration should work with U.S. 
businesses, non-governmental organizations, and academic 
institutions to formulate a code of conduct for interacting 
with Chinese government-affiliated entities to counter 
influence operations that are manipulative, coercive, or 
corrupting of democratic institutions, and to help protect 
human rights and academic freedom. In addition, the State 
Department should collect and disseminate information about 
best practices for monitoring and controlling foreign influence 
operations and provide information about the Chinese 
ministries, entities, and individuals engaged in foreign 
influence operations and their connections with agencies of the 
Chinese Communist Party or government. As the Administration 
develops new strategies to deal with existing threats, new 
messaging and policies should also be created to avoid 
fostering an atmosphere of suspicion of Chinese Americans and 
Chinese nationals living and studying in the United States, as 
they are potentially victims and targets of influence 
operations.
    <bullet> Promote Dialogue Regarding Tibet. The 
Administration and Congress should work together to press for 
unrestricted access to Tibetan autonomous areas in China, 
facilitate the full implementation of the Tibetan Policy Act of 
2002 (Public Law No. 107-228), and urge renewed dialogue 
between Chinese government officials and the Dalai Lama's 
representatives. Administration officials, including the 
President, should meet with the Dalai Lama in his capacity as a 
spiritual leader, and with the leaders of the Central Tibetan 
Administration.
    <bullet> Congressional Action To ``Raise Our Competitive 
Game.'' As part of the Administration's efforts to ``raise our 
competitive game'' in the face of challenges by a growing 
global authoritarianism, the Congress should be seeking to 
provide new authorities, resources, and ideas to counter 
China's mercantilist economic policies and Belt and Road 
Initiative; harden America's abilities to counter 
disinformation and political subversion; prioritize internet 
freedom, digital security, and circumvention of China's ``Great 
Firewall''; and place reciprocity at the core of U.S. 
diplomatic engagement with China, including by considering 
passage of the Fair Trade with China Enforcement Act (S. 2826/
H.R. 6001, 115th Cong., 2nd Sess.); the National Economic 
Security Strategy Act of 2018 (S. 2757, 115th Cong., 2nd 
Sess.); the Countering the Chinese Government and Communist 
Party's Political Influence Operations Act (H.R. 6010/S. 3171, 
115th Cong., 2nd Sess.); the Hong Kong Human Rights and 
Democracy Act of 2017 (S. 417/H.R. 3856, 115th Cong., 1st 
Sess.); the Reciprocal Access to Tibet Act (S. 821/H.R.1872, 
115th Cong., 1st Sess.); and the Stop Higher Education 
Espionage and Theft Act (S. 2903, 115th Cong., 2nd Sess.).

                        ------------------------


    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, legal 
determinations, and recommendations, does not necessarily 
reflect the views of individual Executive Branch members or the 
policies of the Administration.
    The Commission adopted this report by a vote of 15 to 
0.<dagger>




     <dagger> Voted to adopt: Senators Rubio, Lankford, Cotton, Daines, 
Young, Feinstein, Merkley, Peters, and King; Representatives Smith, 
Pittenger, Hultgren, Kaptur, Walz, and Lieu.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

          Check the Political Prisoner Database (PPD) (http://
        ppdcecc.gov) for reliable, up-to-date information on a 
        prisoner or groups of prisoners. Consult a prisoner's 
        database record for more detailed information about the 
        prisoner's case, including his or her alleged crime, 
        specific human rights that officials have violated, 
        stage in the legal process, and location of detention 
        or imprisonment, if known.
          Advise official and private delegations traveling to 
        China to present Chinese officials with lists of 
        political and religious prisoners compiled from 
        database records.
          Urge U.S. state and local officials and private 
        citizens involved in sister-state and sister-city 
        relationships with China to explore the database, and 
        to advocate for the release of political and religious 
        prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's 2018 Annual Report provides information 
about Chinese political and religious prisoners\1\ in the 
context of specific human rights and rule-of-law abuses. Many 
of the abuses result from the Chinese Communist Party and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the PPD at http://
ppdcecc.gov. (Information about the PPD is available at https:/
/www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 502,900 online requests for 
prisoner information during the 12-month period ending July 31, 
2018--a change of approximately 27.96 percent over the 393,000 
requests reported in the Commission's 2017 Annual Report for 
the 12-month period ending July 31, 2017.\2\ During the 12-
month period ending in July 2018, the United States remained 
the country of origin for the largest share of requests for 
information, with approximately 23.7 percent of such requests. 
India was in the second position, with approximately 5.9 
percent of such requests, followed by France (3.3 percent), 
Brazil (3.0 percent), China (2.8 percent), Japan (2.8 percent), 
the Philippines (2.7 percent), Italy (2.6 percent), Germany 
(2.6 percent), the United Kingdom (2.1 percent), and Hong Kong 
(2.0 percent).
    Internet Protocol addresses that do not provide information 
about the name of the registrant or the type of domain were the 
source of the largest share of online requests for information 
during the Commission's 2018 reporting year, accounting for 
approximately 37.0 percent of the 502,900 requests for 
information in the 12-month period ending in July 2018. The 
approximate number of requests from other sources are as 
follows: Domains ending in .net were second, with 15.5 percent 
of requests for PPD information. Domains ending in .com were 
third, with 15.4 percent of online requests for information, 
followed by Brazil (.br) with 2.7 percent, then by domains for 
Italy (.it), India (.in), and Japan (.jp) with 2.2 percent 
each, for Germany (.de) with 1.9 percent, for France (.fr) with 
1.5 percent, for Poland (.pl) with 1.1 percent, for the 
European Union (.eu) with 1.0 percent, and Australia (.au) with 
0.9 percent. U.S. Government (.gov) domains accounted for 0.7 
percent of requests for information, educational domains ending 
in .edu with 0.2 percent, and domains ending in .org with 0.1 
percent of requests. Domains for China (.cn) accounted for 0.1 
percent of such requests.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up-to-date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. Staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2018, the PPD contained information on 
9,345 cases of political or religious imprisonment in China. Of 
those, 1,392 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
7,953 are cases of prisoners who are known or believed to have 
been released, who were executed, who died while imprisoned or 
soon after release, or who escaped. The Commission notes that 
there are considerably more than 1,392 cases of current 
political and religious imprisonment in China. Commission staff 
work on an ongoing basis to add cases of political and 
religious imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                   MORE POWERFUL DATABASE TECHNOLOGY

    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    In 2015, the Commission enhanced the functionality of the 
PPD to empower the Commission, the U.S. Congress and 
Administration, other governments, NGOs, and individuals to 
strengthen reporting on political and religious imprisonment in 
China and advocacy undertaken on behalf of Chinese political 
prisoners. The upgrade allows the PPD full text search and the 
basic search both to provide an option to return only records 
that either include or do not include an image of the prisoner. 
In addition, the 2015 enhancement allowed PPD record short 
summaries to accommodate more text as well as greater capacity 
to link to external websites.
    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and freedom of expression, including the freedom to advocate 
peaceful social or political change and to criticize government 
policy or government officials.
    The design of the PPD allows anyone with access to the 
internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.

    Notes to Section I--Political Prisoner Database

    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, and freedom of expression, including the 
freedom to advocate peaceful social or political change, and to 
criticize government policy or government officials. (This list is 
illustrative, not exhaustive.) In most cases, prisoners in the PPD were 
detained or imprisoned for attempting to exercise rights guaranteed to 
them by China's Constitution and law, or by international law, or both. 
Chinese security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases, 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as the PRC Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    \2\ CECC, 2017 Annual Report, 5 October 17, 63.


                                                     Executive 
                                                        Summary
                                                 Executive 
                                                Summary

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression


                                Findings

        <bullet> In March 2018, the Chinese Communist Party 
        Central Committee issued a large-scale plan to 
        restructure the functional authority and managerial 
        responsibilities of Party entities and Chinese 
        government agencies, provisions of which reinforced the 
        Party's ideological control by assigning to the Party 
        Central Propaganda Department functional control of the 
        press, publishing, and film. The plan also brought 
        together China's three major broadcast news entities--
        China Central Television, China National Radio, and 
        China Radio International--under a newly formed 
        ``mega'' agency called China Media Group, to be known 
        as Voice of China internationally.
        <bullet> International press freedom advocacy 
        organizations again ranked China as among the most 
        restrictive for press freedoms throughout the world. 
        The Chinese government continued to be one of the worst 
        jailers of journalists in the world, with estimates of 
        individuals in detention or imprisoned ranging from 41 
        to more than 50. Authorities detained and held a closed 
        trial for Zhen Jianghua, the executive director of 
        human rights monitoring website Human Rights Campaign 
        in China. Other citizen journalists in detention 
        included Huang Qi, Jiang Chengfen, Wang Jing, Chen 
        Tianmao, and Yang Xiuqiong of the website 64 Tianwang, 
        and Liu Feiyue and Ding Lingjie of the website Civil 
        Rights & Livelihood Watch.
        <bullet> Working conditions for foreign reporters in 
        China generally deteriorated in 2017, according to the 
        Foreign Correspondents' Club of China (FCCC). An FCCC 
        survey noted official harassment of foreign reporters, 
        news assistants, and sources; attempts to interfere 
        with the coverage of issues that authorities deemed 
        ``sensitive''; restrictions on travel to areas along 
        China's border and ethnic minority autonomous regions; 
        and visa renewal delays and denials. Chinese officials 
        rejected the FCCC survey findings, with one who 
        questioned the legitimacy of the FCCC by alleging it is 
        an ``unregistered, illegal organization.''
        <bullet> This past year, authorities continued to 
        formulate new regulations to control and censor online 
        news and media outlets, technology companies, and users 
        of social media, and in the process, operationalize the 
        PRC Cybersecurity Law.
        <bullet> The Commission observed reports about 
        censorship of topics relating to areas with large 
        ethnic minority populations, such as the Tibet 
        Autonomous Region and the Xinjiang Uyghur Autonomous 
        Region; Taiwan and Hong Kong; the spiritual movement 
        Falun Gong; and anniversaries of past events and 
        persons. Censorship of the news and social media 
        commentary on the news was particularly intense this 
        reporting year in connection with two major political 
        events--the 19th National Congress of the Chinese 
        Communist Party in October 2017 and the annual meetings 
        of the National People's Congress and its advisory 
        body, the Chinese People's Political Consultative 
        Conference, in March 2018.
        <bullet> Despite heavy and pervasive censorship, social 
        media platforms continued to be an everyday channel of 
        expression for Chinese citizens to discuss concerns 
        about a range of news events and public interest 
        issues. This past year, these concerns included sexual 
        harassment on Chinese university campuses; racism on 
        television; the forced eviction of thousands of non-
        local residents from Beijing municipality; and the 
        removal of presidential term limits from China's 
        Constitution, with many posts in protest of Chinese 
        President and Party General Secretary Xi Jinping's 
        consolidation of power.
        <bullet> The Commission observed a wide range of cases 
        that illustrated the Chinese government and Communist 
        Party's violations of international human rights 
        standards and provisions in China's Constitution on the 
        right to freedom of expression, such as preventing 
        author Jia Pingwa from traveling to an international 
        literary scholarship conference in New York City in 
        January 2018; detentions--and arrest in the case of Guo 
        Qingjun--of administrators of a social media group who 
        provided humanitarian assistance to the families of 
        political prisoners; the announcement of a five-year 
        prison sentence for Tibetan language rights advocate 
        Tashi Wangchug; and the death of writer and democracy 
        advocate Yang Tongyan (pen name Yang Tianshui) while on 
        medical parole. Although the Chinese government 
        permitted Liu Xia, the widow of writer and Nobel Peace 
        Prize laureate Liu Xiaobo, to travel to Germany in July 
        2018 after holding her in arbitrary detention for 
        nearly eight years, rights advocates raised concerns 
        that her freedom of speech would be compromised since 
        the Chinese government did not allow her brother Liu 
        Hui to leave China with her.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Give greater public expression, including at the 
        highest levels of the U.S. Government, to the issue of 
        press freedom in China, condemning the harassment and 
        detention of both domestic and foreign journalists; the 
        denial, threat of denial, or delay of visas for foreign 
        journalists; and the censoring or blockage of foreign 
        media websites. Consistently link press freedoms to 
        U.S. interests, noting how censorship and restrictions 
        on journalists and media websites prevent the free flow 
        of information on issues of public concern, including 
        public health and environmental crises, food safety 
        problems, and corruption, and act as a trade barrier 
        for foreign media and companies attempting to access 
        the Chinese market. Raise these issues with Chinese 
        officials during bilateral dialogues. Assess the extent 
        to which China's treatment of foreign journalists 
        contravenes its World Trade Organization or other 
        obligations.
          Sustain, and where appropriate expand, programs that 
        develop and widely distribute technologies that will 
        assist Chinese human rights advocates and civil society 
        organizations in circumventing internet restrictions, 
        in order to access and share content protected under 
        international human rights standards. Continue to 
        maintain internet freedom programs for China at the 
        U.S. Department of State and the U.S. Agency for Global 
        Media (formerly the Broadcasting Board of Governors) to 
        provide digital security training and capacity-building 
        efforts for bloggers, journalists, civil society 
        organizations, and human rights and internet freedom 
        advocates in China.
          Raise with Chinese officials, during all appropriate 
        bilateral discussions, the costs to U.S.-China 
        relations and to the Chinese public's confidence in 
        government institutions that are incurred when the 
        Chinese government restricts political debate, advocacy 
        for democracy or human rights, and other forms of 
        peaceful political expression. Emphasize that such 
        restrictions violate international standards for the 
        restrictions on free expression, particularly those 
        contained in Article 19 of the International Covenant 
        on Civil and Political Rights and Article 19 of the 
        Universal Declaration of Human Rights. Emphasize that 
        such restrictions erode confidence in media and 
        government institutions. Submit questions for China's 
        next UN Human Rights Council Universal Periodic Review 
        in November 2018, asking China to explain what steps it 
        will take to ensure its restrictions on free expression 
        conform to international standards.
          Urge Chinese officials to end unlawful detention and 
        official harassment of Chinese rights advocates, 
        lawyers, and journalists subject to reprisal for 
        exercising their right to freedom of expression. Call 
        on officials to release or confirm the release of 
        individuals detained or imprisoned for exercising 
        freedom of expression, such as Zhen Jianghua, Liu 
        Feiyue, Huang Qi, Ding Lingjie, Jiang Chengfen, Wang 
        Jing, Chen Tianmao, Yang Xiuqiong, Guo Qingjun, Tashi 
        Wangchug, and other political prisoners raised in this 
        report and in the Commission's Political Prisoner 
        Database. Raise this issue in bilateral dialogues as 
        well as through multilateral institutions, such as at 
        China's UN Human Rights Council Universal Periodic 
        Review scheduled to take place in November 2018, and at 
        the UN Human Rights Council Working Group on Arbitrary 
        Detention.

                             Worker Rights


                                Findings

        <bullet> The All-China Federation of Trade Unions 
        (ACFTU) remains the only trade union organization 
        permitted under Chinese law. In January 2018, the 
        state-run news agency Xinhua reported that the ACFTU 
        had 303 million members in 2017. The U.S. Government 
        and international observers noted that the ACFTU 
        typically prioritized Chinese Communist Party interests 
        over the interests of workers and did not effectively 
        represent workers.
        <bullet> Workers' right to collective bargaining 
        remained limited in law and in practice. Observers 
        noted the need for workers to establish trade unions 
        that are truly independent from government and 
        enterprise interests. In addition to curbing effective 
        union representation, authorities have also restricted 
        the ability of Chinese labor non-governmental 
        organizations (NGOs) to train workers in collective 
        bargaining.
        <bullet> During this reporting year, Chinese 
        authorities continued to severely restrict the ability 
        of civil society organizations to work on labor issues, 
        including domestic organizations that received foreign 
        funding and international civil society organizations. 
        The situation for civil society organizations has not 
        improved since a crackdown on labor NGOs began in 
        December 2015, and has deteriorated further during the 
        first year of implementation of the PRC Law on the 
        Management of Overseas NGOs' Activities in Mainland 
        China.
        <bullet> The Chinese government did not publicly report 
        on the number of worker strikes and protests, and NGOs 
        and citizen journalists continued to face difficulties 
        in obtaining comprehensive information on worker 
        actions. The Hong Kong-based NGO China Labour Bulletin 
        (CLB), which compiles data on worker actions collected 
        from traditional news and social media, recorded 1,257 
        strikes in 2017. The CLB communications director 
        estimated that CLB was able to document between 5 and 
        10 percent of the total number of worker actions in 
        China between 2013 and 2017.
        <bullet> Major worker actions were reported, including 
        in March 2018, when an estimated 3,000 sanitation 
        workers protested wage cuts in Changning district, 
        Shanghai municipality. Also in March 2018, 6,000 
        workers from five factories in Zhuhai municipality, 
        Guangdong province, protested a plan to sell the 
        factories. In April 2018, crane operators went on 
        strike across 19 provinces in China to protest low pay.
        <bullet> Against the backdrop of the ongoing, and in 
        some sectors worsening, problem of wage arrears this 
        past year, central authorities reiterated goals from 
        2016 to resolve the problem of migrant worker wage 
        arrears. In December 2017, the State Council General 
        Office released new measures on wage arrears, 
        reiterating the goal of a 2016 State Council opinion to 
        resolve the issue.
        <bullet> During this reporting year, government data 
        showed a continued decline in workplace deaths, though 
        the Commission continued to observe reports of lax 
        enforcement of work safety laws and regulations. 
        According to the National Bureau of Statistics of 
        China, in 2017, a total of 37,852 people died in 
        workplace accidents, down from 43,062 deaths in 2016, 
        and 66,182 deaths in 2015. Coal mine deaths have 
        reportedly declined steadily and significantly over the 
        past fifteen years, down to 375 in 2017, compared to 
        7,000 in 2002.
        <bullet> In March 2018, as part of a sweeping 
        government restructuring plan, central authorities 
        announced plans to dismantle the State Administration 
        of Work Safety, transferring responsibility for work 
        safety to a new Ministry of Emergency Management. CLB 
        criticized the bureaucratic changes as highlighting how 
        ``the Chinese government is more concerned with 
        disaster management and control rather than in 
        preventing workplace accidents in the first place.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Press the Chinese government to immediately release 
        labor advocates who are in prison or detention for the 
        exercise of their lawful rights. Specifically raise the 
        cases of Lu Yuyu and Fu Tianbo.
          Call on the Chinese government to respect 
        internationally recognized rights to freedom of 
        association and collective bargaining, and allow 
        workers to organize and establish independent labor 
        unions. Raise concern in all appropriate trade 
        negotiations and bilateral and multilateral dialogues 
        about the Chinese Communist Party's role in collective 
        bargaining and elections of trade union 
        representatives, emphasizing that in a market economy 
        wage rates should be determined by free bargaining 
        between labor and management.
          Promote and support bilateral and multilateral 
        exchanges among government officials, academics, legal 
        experts, and civil society groups to focus on labor 
        issues such as freedom of expression, collective 
        bargaining, employment discrimination, and occupational 
        health and safety. Seek opportunities to support 
        capacity-building programs to strengthen Chinese labor 
        and legal aid organizations involved in defending the 
        rights of workers.
          When appropriate, integrate meaningful civil society 
        participation into bilateral and multilateral 
        dialogues, meetings, and exchanges. Invite 
        international unions and labor NGOs as well as domestic 
        civil society groups from all participating countries 
        to observe relevant government-to-government dialogues.
          Support China's increased engagement and cooperation 
        with the International Labour Organization (ILO) 
        through funding for ILO technical cooperation projects 
        with China. Request that the ILO increase its work with 
        China on observing core labor standards, including 
        freedom of association and the right to organize.

                            Criminal Justice


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        authorities continued to use various forms of arbitrary 
        detention--such as extralegal ``black jails'' and 
        forced psychiatric commitment of individuals without 
        mental illness--to deprive individuals of their 
        liberty, contravening international human rights 
        standards. Authorities also continued to use 
        administrative forms of detention that circumvented 
        judicial oversight and protections for detainees' 
        rights under the PRC Criminal Procedure Law (CPL).
        <bullet> In March 2018, the National People's Congress 
        passed the PRC Supervision Law, authorizing the 
        National Supervisory Commission (NSC) to investigate 
        suspected official misconduct using methods including 
        ``confinement'' (liuzhi), an extrajudicial form of 
        detention that allows NSC officials to hold individuals 
        without a guarantee of access to counsel. In May 2018, 
        the first reported death in ``confinement'' occurred, 
        that of Chen Yong. Chen's body reportedly showed signs 
        of abuse, and officials said Chen ``collapsed'' during 
        interrogation but did not specify a cause of death.
        <bullet> Authorities continued to detain individuals 
        under broad provisions in the PRC Criminal Law--such as 
        crimes of ``endangering state security'' and ``picking 
        quarrels and provoking trouble''--to suppress rights 
        advocacy and other activities protected under 
        international human rights standards.
        <bullet> Authorities continued to abuse detainees' 
        rights under the CPL. Some detainees gave what appeared 
        to be scripted, coerced confessions, in some cases on 
        camera. For example, Swedish citizen Gui Minhai gave a 
        televised confession for allegedly cooperating with 
        Swedish authorities to attempt to leave China, after 
        Chinese authorities detained him as he traveled to 
        Beijing municipality with Swedish diplomats for a 
        medical exam. In another case, Taiwan college employee 
        and non-governmental organization (NGO) volunteer Lee 
        Ming-cheh gave what appeared to be a coerced confession 
        in court for ``subversion of state power.'' Officials 
        denied some detainees access to counsel, such as human 
        rights website editor Ding Lingjie and internet 
        commentator Chen Jieren.
        <bullet> Authorities held some rights advocates, 
        lawyers, petitioners, and others in prolonged pretrial 
        detention, including under ``residential surveillance 
        at a designated location'' (RSDL), a form of 
        incommunicado detention that can last up to six months, 
        restricts access to counsel, and places detainees at 
        risk of abuse by authorities. Observers reportedly were 
        unable to contact rights lawyer Wang Quanzhang since 
        authorities detained him on July 10, 2015. Wang's wife 
        reported in July 2018 that another lawyer reported 
        seeing Wang in a Tianjin municipality detention center. 
        Authorities reportedly postponed the June 20, 2018, 
        trial of 64 Tianwang website founder Huang Qi, whom 
        authorities detained on November 28, 2016. According to 
        an August 18, 2018, Radio Free Asia report, authorities 
        had not set a new trial date. Authorities also placed 
        rights lawyer Yu Wensheng and environmental petitioner 
        Ji Shulong under RSDL.
        <bullet> Authorities continued to torture and otherwise 
        abuse detainees in some cases. Officials in Shenyang 
        municipality, Liaoning province, reportedly detained 
        rights lawyer Li Yuhan and allowed other detainees to 
        throw her food on the floor, urinate on her food, and 
        throw cold water on her. Officials in Yu county, 
        Zhangjiakou municipality, Hebei province, reportedly 
        placed a hood over lawyer Wu Quan; took him to a 
        basement; bound him to an interrogation chair for 48 
        hours; and deprived him of water, sleep, and sufficient 
        clothing for the first 24 hours.
        <bullet> Authorities continued to develop technology-
        based means to help public security officials track 
        persons of interest--based in part on large-scale, 
        sometimes involuntary collection of personal data--
        raising concerns about privacy and public security 
        officials' capacity to crack down on rights advocates 
        and other targeted persons. The manner in which 
        authorities collected personal data, including 
        biometric data, appeared to violate privacy protections 
        in international human rights instruments, and the 
        Commission did not observe any efforts by the Chinese 
        government to bring the collection or use of such 
        information in line with international standards.
        <bullet> The Chinese government continued to claim that 
        it reserved the death penalty for a small number of 
        crimes and only the most serious offenders, while 
        Amnesty International estimated that China carried out 
        more executions than all other countries combined. 
        China continued to classify statistics on its use of 
        the death penalty as a state secret, and the Commission 
        did not observe official reports on overall death 
        penalty numbers. In December 2017, authorities in 
        Lufeng city, Shanwei municipality, Guangdong province, 
        sentenced to death 10 people variously for murder, 
        robbery, and drug-related crimes--in a public trial in 
        a stadium--and then immediately executed them. This 
        past year, the Commission did not observe any 
        rulemaking efforts to ban harvesting organs from 
        executed prisoners. At a trafficking conference at the 
        Vatican in 2018, the head of the China Organ Transplant 
        Response System reported that authorities made 220 
        arrests over the previous 10 years in connection to 
        illegal organ transplants and noted that authorities 
        continued to combat the practice.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to publicly commit to 
        a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights, 
        which the Chinese government signed in 1998 but has not 
        yet ratified.
          Include discussion of rights protections for 
        government critics and rights advocates in a wide range 
        of bilateral and multilateral discussions with Chinese 
        officials. Stress to the Chinese government the 
        importance of procedural compliance and effective legal 
        representation in criminal cases in relation to the 
        goal of rule-based governance. Publicly convey support 
        for human rights advocates whom officials have deprived 
        of liberty on unsubstantiated criminal charges and for 
        apparent political or religious reasons.
          Urge Chinese officials to end all forms of arbitrary 
        detention, as well as forms of extrajudicial detention 
        that are imposed without meeting the standards for a 
        fair trial as set forth in the International Covenant 
        on Civil and Political Rights and other international 
        human rights instruments.
          Consult with Chinese officials regarding progress 
        toward adopting the recommendations made in February 
        2016 by the UN Committee against Torture in relation to 
        China's compliance with the Convention against Torture 
        and Other Cruel, Inhuman or Degrading Treatment or 
        Punishment, such as the call to repeal the provisions 
        in Chinese law allowing for ``residential surveillance 
        at a designated location.'' Further, encourage Chinese 
        officials to extend invitations to all UN special 
        rapporteurs and other special procedures that have 
        requested visits to China.
          Urge Chinese officials to adopt a legal and 
        regulatory framework for information technology-based 
        policing practices that meets international human 
        rights standards. Such a framework should include, for 
        example, privacy protections, restrictions on police 
        authority to collect personal information without 
        consent, and protections against discriminatory 
        practices, including profiling of ethnic and religious 
        minorities. Encourage Chinese officials to require 
        police who use information technology to complete 
        appropriate human rights training, and impose strict 
        penalties for officials who authorize or carry out 
        preemptive detentions.
          Stress to the Chinese government the need for greater 
        transparency on the number and circumstances of 
        executions, and urge Chinese officials to further limit 
        the crimes for which the death penalty is applicable. 
        Urge the Chinese government to ban explicitly in 
        national legislation the harvesting of organs from 
        executed prisoners.
          Continue and, where appropriate, expand support for 
        programs involving U.S. entities engaging with reform-
        minded Chinese organizations and individuals (both 
        within and outside the government) that draw on 
        comparative experience to improve the criminal justice 
        process. For example, the experience of the United 
        States and other jurisdictions can inform China as it 
        charts a path toward reducing reliance on confessions, 
        enhancing the role of witnesses at trials, and creating 
        more reliable procedures for reviewing death penalty 
        cases.

                          Freedom of Religion


                                Findings

        <bullet> Both Chinese and international law provide 
        guarantees of religious freedom. Despite these 
        guarantees, the Commission continued to observe 
        widespread and systematic violation of the principles 
        of religious freedom, as Chinese authorities exercised 
        broad discretion over the religious practice of Chinese 
        citizens.
        <bullet> The importance of ``religious work'' to the 
        Chinese Communist Party agenda has undergone an 
        ``unprecedented increase'' with ``major innovations'' 
        under Party General Secretary Xi Jinping. Party and 
        government officials continued to emphasize several key 
        policy principles in religious affairs during this 
        reporting year. These included ``guiding'' religious 
        groups to support Party leadership and the political 
        system; shaping religious practice in China to promote 
        and assimilate to a Chinese cultural identity 
        (``sinicization''); and using Chinese religious groups 
        to facilitate connections with other countries, 
        particularly those hosting Belt and Road Initiative 
        projects.
        <bullet> In March 2018, the Party's sweeping 
        reorganization plan for Party and government 
        institutions included a provision directing the Party's 
        United Front Work Department (UFWD) to take over the 
        government agency responsible for religious affairs at 
        the national level, making the national-level UFWD 
        directly responsible for administering policies 
        pertaining to religion in China.
        <bullet> The Chinese government's regulatory framework 
        for religion imposed increased restrictions on 
        religious freedom after revisions to the Regulations on 
        Religious Affairs took effect on February 1, 2018. The 
        revisions increased official control and scrutiny over 
        religious activity. The revisions also established new 
        legal responsibilities and penalties for violations of 
        the regulations. Religious believers and academic 
        experts predicted that the restrictions would increase 
        official pressure on religious groups, particularly 
        those not registered with the government. Many groups 
        refuse to register because registration requires 
        submitting to the direction of a state-sanctioned 
        patriotic religious association. Other laws and Party 
        policies also continued to restrict citizens' freedom 
        to hold religious beliefs and practice religion.
        <bullet> While government and Party officials rarely 
        targeted Chinese Buddhist and Taoist communities with 
        direct suppression, they nonetheless continued to 
        subject these religions to extensive regulation and 
        control. Official regulation also included restrictions 
        aimed at stemming the perception of commercialization 
        of Buddhist and Taoist religious practices.
        <bullet> The government maintained measures that impede 
        the freedom of Chinese Catholic congregations to be led 
        by clergy who are selected and who conduct their 
        ministry according to the standards called for by 
        Catholic religious beliefs. The government also 
        continued to harass, detain, or hold incommunicado 
        certain leading Catholic clergy. In May 2018, the 
        national religious organizations for Catholics passed a 
        five-year plan for the ``sinicization'' of Catholicism 
        in China.
        <bullet> Party and government officials maintained 
        restrictions on the religious activities of Chinese 
        Protestants, with some believers facing harassment, 
        surveillance, detention, imprisonment, and other abuse 
        because of their religious activities. A U.S.-based 
        organization that advocates for religious freedom, 
        ChinaAid Association, reported that both instances of 
        official persecution and the number of believers 
        affected had increased in 2017 from the prior year. 
        Academic experts on Chinese religion and society stated 
        that the continued escalation of repression was due in 
        part to Party officials' concern that Christian 
        communities pose a challenge to the Party's monopoly on 
        political power. In several instances, authorities 
        detained house church members on the charge of 
        ``organizing and using a cult to undermine 
        implementation of the law'' under Article 300 of the 
        PRC Criminal Law.
        <bullet> The Commission noted reports of continued 
        repression of Falun Gong practitioners, by means of 
        harassment, arbitrary detention, and prosecution. 
        International organizations continued to express 
        concern over reports that organs of detained prisoners 
        have been used in numerous organ transplant operations 
        in China, including those of Falun Gong practitioners. 
        Medical professionals and international advocacy 
        organizations disputed Chinese health officials' claims 
        that organ procurement systems have been reformed in 
        compliance with international standards, citing ethical 
        concerns about organ sourcing raised by short wait 
        times for organ transplants and discrepancies in data 
        on organ transplants.
        <bullet> During this reporting year, official 
        restrictions on the religious freedom of Hui Muslim 
        believers increased. The local government in Ningxia 
        Hui Autonomous Region, a region in which Hui Muslims 
        are concentrated, launched a ``rectification campaign'' 
        that included the removal of ``Arabic style'' domes and 
        decor from mosques and other buildings, prohibitions on 
        calls to prayer, removal of the Quran and books on 
        Islam from retail shops, and the closure of schools 
        teaching Arabic. Hui Muslim believers in the Xinjiang 
        Uyghur Autonomous Region have also been sentenced for 
        ``cult'' or other offenses for ``privately preaching 
        the Quran.''
        <bullet> Religious communities outside of the five 
        religions that are the main objects of official 
        regulation continued to exist in China, with some 
        continuing to enjoy tacit recognition and support, 
        while others faced suppression from authorities.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to guarantee to all 
        citizens freedom of religion in accordance with its 
        international human rights obligations. Stress to 
        Chinese authorities that freedom of religion includes 
        the right to freely adopt beliefs and practice 
        religious activities without government interference, 
        particularly those based on political goals.
          Stress to the Chinese government that the right to 
        freedom of religion includes: the right of Buddhists 
        and Taoists to carry out activities in temples and 
        select monastic teachers independent of state controls; 
        the right of Catholics to be led by clergy who are 
        selected and who conduct their ministry according to 
        the standard called for by Catholic religious beliefs; 
        the right of Falun Gong practitioners to freely 
        practice Falun Gong inside China; the right of Muslims 
        to freely preach, undertake overseas pilgrimage, select 
        and train religious leaders, and wear clothing with 
        religious significance; the right of Protestants to 
        exercise their faith free from state controls over 
        doctrine and worship, and free from harassment, 
        detention, and other abuses for public and private 
        manifestations of their faith, including the display of 
        crosses; and the right of members of other religious 
        communities to be free from state control and 
        harassment.
          Call for the release of persons confined, detained, 
        or imprisoned for peacefully pursuing their religious 
        beliefs, as well as those confined, detained, or 
        imprisoned in connection to their association with 
        them. The Administration should use existing laws to 
        hold accountable Chinese government officials and 
        others complicit in severe religious freedom 
        restrictions, including by using the sanctions 
        available in the Global Magnitsky Human Rights 
        Accountability Act (Public Law No. 114-328) and the 
        International Religious Freedom Act of 1998. Ensure 
        that conditions related to religious freedom are taken 
        into account when negotiating any applicable trade 
        agreement as mandated by the Bipartisan Congressional 
        Trade Priorities and Accountability Act of 2015 (Public 
        Law No. 114-26).
          Publicly and privately advocate on behalf of persons 
        whom Chinese authorities continue to severely harass or 
        have detained for exercising their freedom of religion 
        or belief. Some of the many cases in need of legal, 
        humanitarian, and other forms of advocacy include 
        Catholic clergy pressured by Chinese authorities to 
        join the Catholic Patriotic Association, such as 
        Coadjutor Bishop Augustine Cui Tai of Xuanhua district, 
        Zhangjiakou municipality, Hebei province; Bishop James 
        Su Zhimin of Baoding municipality, Hebei province; 
        Father Lu Danhua of Qingtian county, Zhejiang province; 
        and Bishop Thaddeus Ma Daqin of Shanghai municipality, 
        whose movement reportedly remains restricted within 
        Sheshan Seminary in Shanghai. A number of leaders of 
        officially sanctioned Protestant groups have been 
        prosecuted and sentenced after protesting official 
        measures against their churches in recent years, 
        including Zhang Shaojie of Nanle county, Puyang 
        municipality, Henan province, as well as Bao Guohua and 
        Xing Wenxiang, both of Jinhua municipality, Zhejiang 
        province. Members of unofficial Protestant groups 
        (``house churches''), including 27 Protestant believers 
        across six different localities within Yunnan province, 
        have received criminal sentences for ``organizing and 
        using a cult to undermine implementation of the law'' 
        under Article 300 of the PRC Criminal Law. The U.S.-
        based non-governmental organization Dui Hua Foundation 
        reportedly found 800 official records of persons 
        sentenced in 2017 under Article 300 in Chinese judicial 
        databases, a majority of whom apparently are Falun Gong 
        practitioners. Representative cases of Falun Gong 
        practitioners in the Commission's Political Prisoner 
        Database include Deng Cuiping of Yuxi municipality, 
        Yunnan, who is currently serving a six-year prison 
        sentence; Bian Lichao of Tangshan municipality, Hebei, 
        who is serving a 12-year prison sentence; and Zhang 
        Ming and Li Quanchen of Dandong municipality, Liaoning 
        province. Members of Congress and Administration 
        officials are encouraged to consult the Commission's 
        Political Prisoner Database for information on 
        political and religious prisoners.
          Encourage U.S. political leaders to visit religious 
        sites in China to raise awareness of and promote 
        freedom of religion.

                         Ethnic Minority Rights


                                Findings

        <bullet> At the March 2018 meetings of the National 
        People's Congress and the Chinese People's Political 
        Consultative Conference in Beijing (Two Sessions), 
        Chinese Communist Party and government authorities 
        changed the mechanisms they use to implement policies 
        toward ethnic minorities, as the Party's United Front 
        Work Department (UFWD) assumed control of the work of 
        the government departments overseeing ethnic affairs 
        (the State Ethnic Affairs Commission) and religion (the 
        State Administration for Religious Affairs). A number 
        of observers expressed the view that the UFWD's newly 
        expanded powers represented an official move toward 
        tighter Party control over ethnic affairs and policies 
        promoting ethnic assimilation over ethnic pluralism.
        <bullet> Authorities targeted ethnic Hui communities 
        with policies and restrictions limiting Hui Muslims' 
        religious practices. During the Two Sessions, Yang 
        Faming, Chairman of the China Islamic Association, 
        stressed that Muslims in China should incorporate 
        Chinese characteristics into Islamic religious rituals, 
        culture, and architecture, avoid the expansion of the 
        concept of ``halal'' into secular life, and adhere to 
        ``socialist core values.'' According to an American 
        historian, Yang's speech reflected a formal declaration 
        of a policy trend that officials had begun implementing 
        in regions with significant Hui populations beginning 
        in fall 2016.
        <bullet> Government and Party officials implemented 
        policies limiting ethnic minorities' freedom to engage 
        in cultural practices and speak or learn their 
        languages. In December 2017, international media and 
        rights advocates reported that in a policy implemented 
        in September, Xinjiang Uyghur Autonomous Region (XUAR) 
        education authorities had ended the use of Mongolian as 
        a language of instruction in elementary and lower 
        middle schools in Bayangol (Bayinguoleng) Mongol 
        Autonomous Prefecture, XUAR.
        <bullet> Mongol herders in the Inner Mongolia 
        Autonomous Region (IMAR) demonstrated and petitioned 
        authorities over the government's role in the loss of 
        their traditional grazing lands, the harmful ecological 
        effect of state development on grassland and livestock, 
        and the government's failure to provide herders with 
        adequate compensation for their land. As in past 
        reporting years, authorities detained some of the 
        Mongol herders who peacefully protested.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to build the capacity of Mongol, Uyghur, and 
        Tibetan groups working to advance human rights, 
        environmental protection, economic development, and 
        rule of law in China through U.S. foreign assistance 
        funding and by encouraging additional support from both 
        UN and non-governmental sources.
          Convey to the Chinese government the importance of 
        respecting and protecting ethnic minority cultures and 
        languages. Urge Chinese officials to provide ethnic 
        minority students and parents a choice of what language 
        or languages of instruction should be used at schools 
        they attend in accordance with the PRC Regional Ethnic 
        Autonomy Law and the UN Declaration on the Rights of 
        Persons Belonging to National or Ethnic, Religious and 
        Linguistic Minorities. Call on Chinese officials to 
        establish mechanisms that preserve and expand existing 
        instruction in ethnic minority languages from preschool 
        through the university level.
          Call on the Chinese government to allow Mongol 
        herders to exercise their fundamental rights of freedom 
        of expression, association, and peaceful assembly, as 
        well as the right to be free from arbitrary detention. 
        Convey to Chinese officials the importance of 
        consulting with ethnic minority communities regarding 
        the impact of proposed development on their traditional 
        grazing lands.
          Urge Chinese authorities to allow Hui and other 
        predominantly Muslim ethnic minority populations to 
        freely engage in Islamic religious rituals, as a matter 
        of the right of religious freedom, and in accordance 
        with the Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights, 
        as well as China's Constitution, which prohibits 
        discrimination based on religion.

                           Population Control


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        Chinese government authorities continued to promote and 
        implement coercive population control policies that 
        violate international standards, including the 1995 
        Beijing Declaration, the 1994 Programme of Action of 
        the Cairo International Conference on Population and 
        Development, and the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment. The amended PRC Population and Family 
        Planning Law and provincial-level regulations limit 
        couples' freedom to build their families as they see 
        fit.
        <bullet> The Chinese Communist Party and government 
        implemented the ``universal two-child policy'' for a 
        third consecutive year in 2018, and government 
        statistics showed that the policy was not effective in 
        spurring population growth. The National Bureau of 
        Statistics of China (NBS) reported that the number of 
        total births in 2017 was 17.23 million, 630,000 less 
        than the 2016 NBS figure. The National Health and 
        Family Planning Commission (NHFPC) had predicted in 
        2016 that the universal two-child policy would result 
        in 3 million additional births per year.
        <bullet> During this reporting year, central Party and 
        government officials pledged to strengthen supporting 
        policies that facilitate implementation of family 
        planning policies. Some local governments introduced 
        supporting policies--including longer paid maternity 
        leave, financial incentives and subsidies, and other 
        benefits--to encourage couples to have a second child.
        <bullet> During this reporting year, central 
        authorities issued a plan to restructure Party and 
        government agencies, including merging the NHFPC and 
        several other agencies to create a new National Health 
        Commission (NHC) under the State Council. The NHC will 
        assume oversight of responsibilities related to family 
        planning management and services, in addition to 
        managing an aging population and other health-related 
        matters. Some observers saw the restructuring plan as 
        an indication that authorities plan to eventually 
        eliminate birth limit policies. Experts from academic 
        institutions affiliated with the Party and government, 
        as well as a provincial government report on population 
        development, called for ending the birth limit 
        policies. The NHC reportedly stated that authorities 
        were considering ending the two-child birth limit.
        <bullet> According to a May 2018 Bloomberg News report, 
        central government authorities reportedly were 
        considering and may have reached a decision to end 
        birth limit policies due to demographic concerns, such 
        as the declining birth rate, aging population, and 
        shrinking workforce. The report also cited 
        international criticism of the policies as a factor in 
        the decision.
        <bullet> The amended PRC Population and Family Planning 
        Law contains provisions that prohibit officials from 
        infringing upon the ``legitimate rights and interests'' 
        of citizens while implementing family planning 
        policies. Some provincial population planning 
        regulations and local government authorities, however, 
        continued to explicitly instruct officials to carry out 
        abortions, often referred to as ``remedial measures,'' 
        for illegal pregnancies. Local authorities continued to 
        promote the implementation of harsh and invasive family 
        planning measures. Officials imposed or threatened 
        various punishments to enforce family planning 
        policies, including heavy fines, job termination, 
        detention, and abortion.
        <bullet> Decades of population control policies have 
        exacerbated China's demographic challenges, which 
        include a rapidly aging population, shrinking 
        workforce, and sex ratio imbalance. China's total 
        fertility rate has dropped from approximately 3 births 
        per woman in the late 1970s to an estimated 1.6 births 
        per woman in 2017, below the replacement rate of 2.1 
        births per woman necessary to maintain a stable 
        population. The National Bureau of Statistics of China 
        reported that from 2016 to 2017, China's working-age 
        population (persons between the ages of 16 and 59) 
        declined by 5.48 million people to 901.99 million, 
        while the elderly population (persons aged 60 or older) 
        increased by 10.04 million in 2017 to 240.90 million 
        people, or 17.3 percent of the total population. The 
        overall sex ratio in 2017 was 104.81 males to 100 
        females, and there were approximately 32.66 million 
        more males than females in China.
        <bullet> International media reports continued to 
        suggest a link between China's sex ratio imbalance and 
        the trafficking of foreign women into China for forced 
        marriage or commercial sexual exploitation. Reports 
        also indicated that decades of birth limits under 
        China's population control policies combined with a 
        traditional preference for sons may have encouraged a 
        black market for illegal adoptions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Press Chinese government officials to bring the PRC 
        Population and Family Planning Law into conformance 
        with international standards set forth in international 
        agreements, including the 1995 Beijing Declaration, the 
        1994 Programme of Action of the Cairo International 
        Conference on Population and Development, the 
        Convention on the Rights of the Child, and the 
        International Covenant on Economic, Social and Cultural 
        Rights.
          Highlight the looming demographic challenges 
        currently facing China in bilateral meetings with 
        Chinese government officials--including a rapidly aging 
        population, shrinking workforce, and sex ratio 
        imbalance. As the universal two-child policy may not 
        adequately address these demographic challenges, urge 
        the Chinese government to heed the recommendations of 
        domestic and international demographic experts by 
        ending, as soon as possible, all birth restrictions on 
        families and abolishing ``social compensation fees.''
          Use authorities provided in the Foreign Relations 
        Authorization Act of 2000 (Public Law No. 106-113) and 
        the Global Magnitsky Human Rights Accountability Act 
        (Public Law No. 114-328) to deny entry into the United 
        States of and impose sanctions against Chinese 
        officials who have been directly involved in the 
        formulation, implementation, or enforcement of China's 
        coercive family planning policies, including those who 
        have forced men and women to undergo sterilizations and 
        abortions.
          Call on China's central and local governments to 
        vigorously enforce provisions of Chinese laws that 
        provide for punishment of officials and other 
        individuals who engage in these abuses.
          Publicly link, with supporting evidence, the sex 
        ratio imbalance exacerbated by China's population 
        control policies with potential regional humanitarian 
        and security concerns--human trafficking, crime, 
        increased internal and external migration, and other 
        possible serious social, economic, and political 
        problems--and discuss and address these issues in 
        bilateral and multilateral dialogues.

        Special Topic: Forced Evictions in Beijing Municipality


                                Findings

        <bullet> In November 2017, Beijing municipal 
        authorities responded to a fire in a migrant 
        neighborhood with a campaign of forced evictions. On 
        November 18, a fire broke out in an apartment building, 
        killing 19 people. Of the 19 victims, 17 were migrants, 
        meaning they were registered in localities outside of 
        Beijing under the Chinese government's household 
        registration (hukou) system.
        <bullet> Following the fire, the Beijing government 
        launched a campaign to inspect buildings for fire 
        hazards, which resulted in large-scale forced evictions 
        and demolitions in migrant neighborhoods across 
        Beijing. Some affected residents reported being forced 
        to leave their homes within three days, with some given 
        a few hours' notice or less. The Commission did not 
        observe official reports on the number of people 
        evicted in Beijing, but international media estimated 
        that tens of thousands were affected. The number of 
        migrants in Beijing reportedly fell by 132,000 from the 
        end of 2016 to the end of 2017.
        <bullet> As events unfolded, some migrants and locals 
        attempted to confront government officials over their 
        evictions. Non-governmental organizations, companies, 
        and individuals offered assistance to displaced 
        migrants. Internet users engaged in online debates and 
        criticized the eviction campaign as videos showing 
        evictions, demolitions, and displaced migrant workers 
        spread quickly on Chinese social media.
        <bullet> The government responded by restricting 
        domestic reporting on the evictions, and censoring 
        online discussion and civil society groups. Authorities 
        also detained an artist for sharing videos of the 
        evictions and detained six others, reportedly for 
        helping the artist flee. Authorities released the seven 
        on bail and forced the artist to leave Beijing and 
        return to his hometown in another province.
        <bullet> Some observers viewed the eviction campaign 
        that began in November 2017 as part of the Beijing 
        government's long-term plan to limit the population of 
        Beijing. In September 2017, central authorities 
        approved Beijing municipal authorities' plan to cap 
        Beijing's population at 23 million by 2020. In December 
        2017, central authorities also approved a plan to cap 
        Shanghai's population at 25 million by 2035.
        <bullet> Actions taken by Chinese government officials 
        enforcing the eviction campaign in Beijing contravene 
        both international standards and Chinese law, and 
        restrictions arising from the hukou system contravene 
        international human rights standards guaranteeing 
        freedom of residence.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on Chinese authorities to end forced evictions 
        across China, and to follow both international and 
        Chinese law in providing adequate notice, compensation, 
        and assistance to residents when public safety requires 
        demolishing dangerous structures.
          Encourage the Chinese government to expand both the 
        rights of migrant workers in China, and the space for 
        civil society organizations that provide social 
        services and legal assistance to migrant workers, 
        rather than cracking down on such organizations. Note 
        that improving the rights of migrant workers and 
        expanding their access to social services is likely to 
        lower the chances of spontaneous, large-scale protests, 
        while large-scale forced evictions could increase the 
        likelihood of such protests.
          Call on Chinese authorities to accelerate reforms to 
        the hukou system, including lowering restrictions on 
        migration to major cities and centers of economic 
        opportunity; equalizing the level and quality of public 
        benefits and services tied to local hukou and residence 
        permits; and implementing laws and regulations to 
        provide equal treatment for all Chinese citizens, 
        regardless of place of birth, residence, or hukou 
        status.
          Support programs, organizations, and exchanges with 
        Chinese policymakers and academic institutions engaged 
        in research and outreach to migrants, in order to 
        advance legal and anti-discrimination assistance for 
        migrants and their families, and to encourage policy 
        debates aimed at eliminating inequality and 
        discrimination connected to residence policies, 
        including the hukou system.

                            Status of Women


                                Findings

        <bullet> Employment discrimination against women 
        continued to be a serious problem this past year. 
        Employers routinely discriminate against women in 
        hiring, wages, and promotion. Discriminatory and 
        sexualized views of women were pervasive in job 
        recruitment advertisements. Gender inequality in 
        employment has increased during the period of market 
        liberalization, and much of the disparity is attributed 
        to the shifting of responsibility for child care from 
        the state system (via publicly funded maternity leave 
        and nursery schools) to the private sector, with the 
        resulting burden falling disproportionately to 
        individual women and employer-funded maternity leave. 
        Employers viewed women as more costly than male 
        employees, and such discrimination has worsened with 
        the implementation of the ``universal two-child 
        policy.''
        <bullet> Women in China continued to face challenges 
        with domestic and sexual violence. While there were 
        improvements in implementation of the PRC Anti-Domestic 
        Violence Law evidenced by increased awareness and the 
        publishing of local implementing regulations, other 
        challenges remained. Chinese courts maintained an 
        evidentiary standard for proving domestic violence that 
        was difficult for victims to meet, and victims escaping 
        abusive domestic situations received inadequate support 
        in seeking shelters.
        <bullet> Women in China continued to lack secure rights 
        to property due to a combination of discriminatory 
        policy implementation and adherence to patriarchal 
        cultural values. Officials suggested a number of 
        proposals aimed at addressing these issues during the 
        upcoming round of agricultural policy reforms.
        <bullet> Authorities maintained tight restrictions on 
        the political environment for engaging in women's 
        rights advocacy--a continuation of the official 
        repression of women's rights advocacy beginning in 
        2015. In January 2018, Chinese students, alumni, and 
        faculty initiated a series of independent campaigns to 
        prevent sexual harassment on college campuses. These 
        included public allegations of misconduct by individual 
        professors, petitions calling on universities to 
        institute policies to prevent sexual harassment, and 
        public requests for information about university 
        actions in past sexual assault cases. While some 
        actions taken by university and government authorities 
        were supportive of the issues raised by the campaigns, 
        official responses nonetheless prioritized suppressing 
        grassroots mobilization. Reports of sexual harassment 
        in other sectors such as manufacturing, journalism, 
        civil society, the state-sanctioned Buddhist community, 
        and the Protestant community in Hong Kong also drew 
        public attention.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Publicly and privately urge the Chinese government to 
        respect the freedom of expression and assembly of all 
        rights advocates, and in particular to refrain from 
        harassing and intimidating independent women's rights 
        advocates seeking to increase awareness about sexual 
        harassment in public areas.
          Urge the Chinese government to publicly expand its 
        commitment to gender equality through measures such as 
        increasing the number of women in the highest levels of 
        political leadership, instituting gender equality and 
        anti-harassment trainings in government workplaces, and 
        challenging discriminatory attitudes based on gender 
        through public education.
          Commend the Chinese government for recent legal 
        developments aimed at promoting the welfare of women 
        and gender equality. These include the passage of the 
        PRC Anti-Domestic Violence Law and the inclusion of a 
        gender discrimination case among the Supreme People's 
        Court's guiding cases. Encourage the government to 
        strengthen formal support services for implementation--
        for example, by increasing funding for health services 
        or shelters for women experiencing violence, providing 
        funding and support for attorneys for legal services, 
        and allowing independent lawyers and advocates to 
        assist with the promotion and implementation of laws 
        related to gender equality through lawsuits and public 
        campaigns.
          Support international exchanges among academics, 
        legal advocates, non-governmental organizations, and 
        others that focus on the implementation and enforcement 
        of recently adopted laws promoting gender equity. In 
        particular, facilitate and support technical assistance 
        programs that would help both men and women working in 
        law enforcement and the judiciary to implement the PRC 
        Anti-Domestic Violence Law effectively and challenge 
        discriminatory attitudes based on gender. As the first 
        point of contact, law enforcement in particular should 
        be trained in addressing reports of violence in a way 
        that does not undermine victims' concerns or safety.
          Facilitate and support technical assistance programs 
        that would help the development of gender equality 
        education in schools and communities.
          Encourage the collection and analysis of data on 
        gender-based disparities in economic and social life so 
        as to monitor changes.

                           Human Trafficking


                                Findings

        <bullet> As a State Party to the UN Protocol to 
        Prevent, Suppress and Punish Trafficking in Persons, 
        Especially Women and Children (UN TIP Protocol), China 
        is obligated to enact legislation criminalizing human 
        trafficking as defined by the UN TIP Protocol. The 
        definition of human trafficking in Chinese law, 
        however, remains inconsistent with UN TIP Protocol 
        standards, contributing to the difficulty of assessing 
        the scale of human trafficking in China.
        <bullet> The Commission observed reports of human 
        trafficking from Southeast Asian countries to China for 
        forced marriage and forced labor, as well as 
        trafficking of Chinese nationals to the United States 
        for forced labor and sexual exploitation.
        <bullet> The Chinese government continued to subject 
        individuals to forced labor during pretrial detention 
        and in administrative detention centers. Local 
        authorities in Hotan prefecture, Xinjiang Uyghur 
        Autonomous Region, reportedly required some Uyghur 
        women and children to perform forced labor.
        <bullet> This past year, Chinese workers migrating 
        within China were at risk of human trafficking, and 
        government restrictions on worker rights exacerbated 
        this risk. A lack of economic opportunity in Southeast 
        Asian countries contributed to human trafficking 
        vulnerability in that region. China's sex ratio 
        imbalance has created a demand for marriageable women 
        that may contribute to human trafficking for forced 
        marriage. In addition, the Chinese government continued 
        to treat North Korean refugees as economic migrants and 
        maintained a policy of repatriating undocumented North 
        Koreans, leaving the refugees vulnerable to 
        trafficking.
        <bullet> The government of the Democratic People's 
        Republic of Korea (DPRK) reportedly continued to 
        generate revenue by sending DPRK nationals to work in 
        China under conditions that may constitute forced 
        labor. Reports from October 2017 indicated that many 
        workers had been or would be sent back to North Korea 
        due to the Chinese government's enforcement of UN 
        sanctions; however, the DPRK reportedly began sending 
        workers to China again in March 2018, possibly in 
        violation of UN sanctions.
        <bullet> Hong Kong remained a destination for human 
        trafficking, with migrant domestic workers particularly 
        at risk of exploitation for forced labor. The Hong Kong 
        government maintained that comprehensive anti-
        trafficking legislation was unnecessary and that human 
        trafficking in Hong Kong was rare.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to abide by its 
        commitments under the UN TIP Protocol to bring anti-
        trafficking legislation into alignment with 
        international standards, specifically with regard to 
        China's legal definition of human trafficking. 
        Emphasize that this would facilitate better data 
        collection and cross-border comparisons, which in turn 
        would better inform domestic and multilateral anti-
        trafficking policies. Call on the Chinese government to 
        extend coverage of the UN TIP Protocol to include Hong 
        Kong.
          Support U.S. Government efforts to improve human 
        trafficking data collection. Work with regional 
        governments, multilateral institutions, and non-
        governmental organizations (NGOs) to encourage and 
        support the collection of more accurate data in order 
        to better assess the scale and root causes of human 
        trafficking in Asia and monitor the effectiveness of 
        anti-trafficking measures. Urge the Chinese government 
        to collect and publish relevant law enforcement data.
          Discuss in appropriate bilateral and multilateral 
        meetings the importance of protecting worker rights as 
        a means of combating human trafficking for the purpose 
        of forced labor. Stress that when workers are able to 
        organize and advocate for their rights, they are less 
        vulnerable to all forms of exploitation, including 
        forced labor. Highlight the September 2016 report of 
        Maina Kiai, the former UN Special Rapporteur on the 
        rights to freedom of peaceful assembly and of 
        association, which stated that the failure to protect 
        workers' right to freedom of association ``directly 
        contributes to problems such as human trafficking and 
        slavery.''
          Encourage and engage in continued regional 
        cooperation to combat human trafficking through 
        multilateral agreements and forums such as the 
        Coordinated Mekong Ministerial Initiative Against 
        Trafficking, Asia-Pacific Economic Cooperation, and the 
        East Asia Summit. Such regional cooperation should 
        address migration and the flow of refugees, poverty, 
        sex ratio imbalances, and other risk factors that 
        contribute to human trafficking.
          Pursue cooperation on anti-trafficking efforts 
        through the U.S.-China Joint Liaison Group on Law 
        Enforcement Cooperation. Support the work of the U.S. 
        Department of State's International Law Enforcement 
        Academy Program in Bangkok, Thailand, to build regional 
        law enforcement capacity.
          Facilitate international exchanges among civil 
        society groups and industry associations to raise 
        awareness of best practices for identifying and 
        combating human trafficking in supply chains. Support 
        NGOs working on anti-trafficking research, education, 
        prevention, and victims' services throughout Asia.
          Incorporate language into bilateral and multilateral 
        economic agreements requiring member countries to 
        improve data collection on human trafficking and to 
        take concrete steps toward eliminating human 
        trafficking within their borders.

                     North Korean Refugees in China


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        the Chinese government's policy of detaining North 
        Korean refugees and repatriating them to the Democratic 
        People's Republic of Korea (DPRK) remained in place, in 
        violation of its obligations under international human 
        rights and refugee law.
        <bullet> Heightened security measures along the China-
        North Korea and China-Southeast Asia borders increased 
        the risks North Korean refugees face, and may be 
        limiting the outflow of refugees from the DPRK. South 
        Korean Ministry of Unification data indicated that 
        1,127 North Korean refugees reached South Korea in 
        2017, continuing a trend of significant decline since 
        2009 when the yearly number of refugees entering South 
        Korea peaked at 2,914.
        <bullet> After North Korean leader Kim Jong-un's March 
        2018 visit to China, Chinese authorities reportedly 
        increased the monetary reward for reporting North 
        Korean refugees hiding inside China. As a result, 
        Chinese authorities reportedly caught and detained many 
        North Korean refugees.
        <bullet> Chinese authorities appeared to have 
        intensified crackdowns on organizations and individuals 
        in China, particularly South Korean Christian 
        missionaries and churches, that have played a crucial 
        role in assisting and facilitating the movement of 
        North Korean refugees outside the DPRK.
        <bullet> North Korean women who enter China illegally 
        remain particularly vulnerable to human trafficking. 
        The majority of North Korean refugees leaving the DPRK 
        are women, many of whom are trafficked from the DPRK 
        into, or within, China for the purposes of forced 
        marriage and commercial sexual exploitation.
        <bullet> Many children born to Chinese fathers and 
        North Korean mothers remain deprived of basic rights to 
        education and other public services owing to a lack of 
        legal resident status in China, which constitutes a 
        violation of international law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to recognize North 
        Koreans in China as refugees, especially as refugees 
        sur place who fear persecution upon return to their 
        country of origin, regardless of their reason for 
        leaving the DPRK; immediately halt the repatriation of 
        North Korean refugees; adopt asylum or refugee 
        legislation and incorporate the principle of non-
        refoulment into domestic legislation; establish a 
        responsible government institution and mechanism to 
        determine asylee or refugee status for North Koreans 
        seeking international protection in China, in 
        cooperation with the UN High Commissioner for Refugees; 
        and allow North Korean refugees safe passage to another 
        country, including to the Republic of Korea.
          Consider using the suite of sanctions that are 
        available, where appropriate, against Chinese 
        government agencies and individuals involved in the 
        repatriation of North Korean refugees; and press for 
        increased international monitoring of and 
        accountability for the Chinese government's treatment 
        of refugees. Urge Chinese authorities to recognize the 
        legal status of North Korean women who marry or have 
        children with Chinese citizens, and ensure that all 
        such children are granted resident status and access to 
        education and other public services in accordance with 
        Chinese law and international standards.
          Appoint and confirm the U.S. Special Envoy on North 
        Korean Human Rights Issues, and encourage the Special 
        Envoy to work with South Korean counterparts to 
        coordinate efforts related to humanitarian assistance 
        and human rights promotion for North Korean refugees in 
        China, in accordance with the North Korean Human Rights 
        Reauthorization Act (Public Law No. 115-198).

                             Public Health


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        the Chinese government and Communist Party implemented 
        institutional reforms to support evolving public health 
        priorities and engaged in international exchanges 
        focused on public health issues.
        <bullet> Health-based discrimination in employment and 
        education continued, and universities continued to 
        experience shortcomings with accessible facilities for 
        disabled students. To increase school completion rates, 
        authorities in different localities issued guidance 
        implementing a July 2017 State Council General Office 
        circular that included a focus on disabled students.
        <bullet> Authorities continued to suppress public 
        health information in sensitive cases. For three months 
        in 2017, authorities in Hunan province did not 
        acknowledge publicly a tuberculosis outbreak at a high 
        school in Taojiang county, Yiyang municipality, Hunan, 
        that resulted in 29 confirmed cases.
        <bullet> This past year, authorities continued efforts 
        and took new approaches to prevent the spread of HIV/
        AIDS, but social stigma and authorities' efforts to 
        suppress HIV/AIDS rights advocacy continued.
        <bullet> People with mental illness--many of whom 
        suffer from additional disadvantages--remained at risk 
        of discrimination and faced inadequate access to 
        medical care. Authorities continued to forcibly commit 
        individuals without mental illness to psychiatric 
        facilities to punish rights advocacy. In February 2018, 
        the Supreme People's Procuratorate reportedly released 
        provisions clarifying the procuratorate's role in 
        supervising procedures that include psychiatric 
        treatment and assessment in criminal cases, but the 
        actual effect remained unclear.
        <bullet> Authorities in the Xinjiang Uyghur Autonomous 
        Region (XUAR) compelled residents to submit to the 
        large-scale collection of biometric data intended for 
        dual use by public health and public security 
        authorities. These efforts coincided with broader 
        efforts by public security authorities to collect and 
        integrate personal information to predict perceived 
        threats to public security, as part of efforts to 
        maintain ``stability'' or ``harmony.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to support technical assistance and exchange 
        programs in public health. Require that U.S.-China 
        cooperative programs include the participation of U.S. 
        and Chinese non-governmental organizations and a focus 
        on human rights. Introduce human rights as an area of 
        focus in the U.S.-China Social and Cultural Dialogue.
          Urge Chinese officials--including officials in the 
        newly formed National Health Commission--to focus on 
        effective implementation of laws and regulations that 
        prohibit health-based discrimination in employment and 
        education. Encourage Chinese officials to highlight 
        improvements to standards at the subnational level, 
        such as the amendment of discriminatory provisions for 
        hiring teachers in Fujian province discussed in this 
        section. Where appropriate, share the United States' 
        ongoing experience with and efforts in promoting the 
        rights of persons with disabilities in education and 
        employment, through non-governmental advocacy and 
        services, and legal and regulatory means.
          Call attention to Chinese authorities' efforts to 
        suppress public health information and health-related 
        rights advocacy. Raise individual cases in meetings 
        with Chinese officials, such as the case of HIV/AIDS 
        rights advocate Sun Ya and medical doctor Tan Qindong.
          Urge the Chinese government to establish panels of 
        legal, medical, social work, and security professionals 
        from within and outside the government to monitor and 
        report on implementation of the PRC Mental Health Law 
        (MHL) and initiatives under the National Mental Health 
        Work Plan (2015-2020) to ensure that local 
        implementation consistently meets standards of care and 
        rights protection stipulated in the MHL, the PRC Law on 
        the Protection of the Rights of Persons With 
        Disabilities, and international standards.

                            The Environment


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        despite top Chinese Communist Party and government 
        leaders highlighting the importance of protecting the 
        environment, environmental pollution remained a major 
        challenge. Chinese authorities' top-down approach to 
        environmental issues limited the role of civil society 
        and the public. In October 2017, at the 19th National 
        Congress of the Chinese Communist Party, President and 
        Party General Secretary Xi Jinping avowed the 
        importance of China's top-down approach to 
        environmental protection in ``ensuring harmony between 
        humans and nature.''
        <bullet> In March 2018, central authorities established 
        a new Ministry of Ecology and Environment (MEE) to 
        replace the Ministry of Environmental Protection, and a 
        new Ministry of Natural Resources to replace the 
        Ministry of Land and Resources. According to a number 
        of environmental experts, the MEE may strengthen 
        environmental protection by consolidating environmental 
        oversight and improving bureaucratic efficiency.
        <bullet> In early 2018, authorities reported achieving 
        the government's five-year (2013-2017) targets for 
        improving air quality, but implementation of the plan 
        resulted in significant hardships. In order to meet the 
        air quality targets, authorities shut down thousands of 
        factories and mandated that millions of Chinese stop 
        using coal for heat during the winter, even though no 
        replacement was available. An international advocacy 
        group collected 5,822 posts to Weibo, China's Twitter-
        like microblogging platform, in November and December 
        2017, to document citizens' complaints about the lack 
        of heat, and international media reported that millions 
        may have lacked proper heating in subfreezing 
        temperatures. The government's top environmental 
        official acknowledged that some local governments had 
        even closed enterprises that were in compliance with 
        emissions rules.
        <bullet> During this reporting year, state-run and 
        other official media reported on multiple incidents in 
        which Chinese officials attempted to manipulate 
        environmental monitoring data or failed to investigate 
        reports of serious pollution. In January 2018, the 
        Beijing Times reported that Shizuishan municipality 
        officials in the Ningxia Hui Autonomous Region 
        attempted to spray water near the building that housed 
        the monitoring equipment to improve air quality 
        readings, but instead turned the building into an ``ice 
        sculpture'' after the spray froze. Shortcomings in 
        environmental transparency, including access to 
        credible official environmental data, continued to be a 
        long-term obstacle to assessing environmental quality 
        and the efficacy of pollution control efforts.
        <bullet> Although some non-governmental organizations 
        (NGOs) have standing as plaintiffs in public interest 
        lawsuits, most ``public interest'' litigation continued 
        to be brought by the government. Cases in which NGOs 
        initiated public interest lawsuits this past year 
        included litigation against a hydroelectric power 
        company in Yunnan province over damage to the 
        rainforest, and litigation against local governments in 
        Zhengzhou municipality, Henan province, for illegally 
        moving culturally significant trees.
        <bullet> Chinese citizens continued to raise their 
        concerns about health issues related to the environment 
        through street-level protests and other forms of public 
        advocacy. Chinese environmental advocates were detained 
        during this reporting year for protesting land 
        reclamation, illegal quarrying, and mining.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to cease harassment of 
        environmental advocates and follow international 
        standards on freedom of speech, association, and 
        assembly, including those contained in the 
        International Covenant on Civil and Political Rights, 
        the Universal Declaration of Human Rights, and China's 
        Constitution. Raise the detention of environmental 
        advocates Karma and Chen Wuquan in meetings with 
        Chinese officials.
          Support efforts by Chinese and U.S. groups working to 
        expand awareness of citizens' environmental rights in 
        China and the protection of those rights.
          Encourage Chinese leaders to strengthen the rule of 
        law and transparency in the environmental and climate 
        sectors. Raise questions with Chinese officials about 
        the manipulation of environmental data and censorship 
        of environmental news reporting. U.S. officials should 
        also raise questions about the lack of transparency 
        regarding public disclosure of emissions data from key 
        polluting enterprises.
          Continue to support U.S.-China technical and legal 
        collaboration on environmental protection and energy 
        efficiency. U.S.-China cooperation should focus on 
        programs aimed at increasing media freedom and public 
        participation; improving transparency and the rule of 
        law; reducing air, water, and soil contamination; and 
        improving government accountability.

                             Civil Society


                                Findings

        <bullet> During the Commission's 2018 reporting year, 
        the Chinese government and Communist Party continued to 
        view civil society's primary role as ``cooperating 
        with'' (xietong) the Party's agenda for social 
        governance under one-party rule. At the 19th National 
        Congress of the Chinese Communist Party, Party General 
        Secretary and President Xi Jinping reiterated the role 
        of Chinese civil society in the context of Party and 
        government leadership: ``Party committees exercise 
        leadership, government assumes responsibility, non-
        governmental actors provide assistance, and the public 
        get involved.'' Ever since Xi's ascendance to the 
        Party's top leadership role in late 2012, advocacy 
        organizations operating in previously tolerated ``gray 
        areas'' have experienced what experts describe as a 
        ``chilling effect.''
        <bullet> This past year, the government continued to 
        suppress the rights of Chinese human rights defenders 
        and political groups working on human rights advocacy. 
        These advocates, among others, included Zhen Jianghua 
        from Human Rights Campaign in China; Guo Qingjun and 
        other members of the National Tourism Chat Group that 
        provided support for families of political prisoners; 
        and Xu Qin, Qin Yongmin, and Zhao Suli, affiliated with 
        the China Human Rights Watch group.
        <bullet> The government continued to implement the PRC 
        Law on the Management of Overseas Non-Governmental 
        Organizations' Activities in Mainland China, which took 
        effect in January 2017. While some international NGOs 
        have successfully registered representative offices in 
        China, including philanthropic organizations that had 
        relationships with local governments, at least four 
        organizations that have long worked on training 
        lawyers, the protection of women, and LGBT rights 
        reported that they were unable to register or obtain 
        temporary activity permits. Other organizations that 
        work in human rights and rule of law chose to suspend 
        their operations or leave China.
        <bullet> Chinese authorities continued to detain and 
        prosecuted Taiwan human rights NGO volunteer Lee Ming-
        cheh this past year. After authorities detained Lee in 
        March 2017, the State Council Taiwan Affairs Office 
        subsequently confirmed that Chinese authorities were 
        investigating Lee for ``endangering state security'' 
        and had formally arrested Lee on suspicion of 
        ``subversion of state power'' in May 2017. On September 
        11, 2017, the Yueyang Municipal Intermediate People's 
        Court in Hunan province tried Lee on the charge of 
        ``subversion of state power''--to which he pleaded 
        guilty and for which he expressed remorse--and on 
        November 28, sentenced him to five years in prison. 
        Observers from international human rights organizations 
        suspected that authorities coerced Lee into confessing, 
        calling the trial ``outrageous'' and ``politically 
        motivated.''
        <bullet> This past year, the government focused on 
        cracking down on ``illegal social organizations,'' 
        targeting those that ``threaten state security and 
        social stability.'' In January 2018, the Ministry of 
        Civil Affairs issued the Measures for Social 
        Organizations Credit Information Management, which 
        authorize the government to create an official list for 
        organizations that are ``severely illegal [and] not 
        trustworthy.''
        <bullet> Two years after the Ministry of Civil Affairs 
        (MCA) released draft revisions to the three major 
        regulations for civil society organizations, the MCA 
        released new draft regulations for public comment in 
        early August 2018, combining the three regulations that 
        form the core of the regulatory system for domestic 
        social service organizations, foundations, and social 
        associations into one document.
        <bullet> The National People's Congress approved State 
        Council reform plans, which provide for the 
        establishment of a new International Development 
        Cooperation Agency that will integrate foreign aid and 
        development assistance efforts, including the Belt and 
        Road Initiative (BRI). In November 2017, the Director 
        of the International Department of the Party Central 
        Committee--a key Party department charged with 
        extending the Party's influence and advancing its 
        interests overseas--opened the first Silk Road NGO 
        Cooperation Network Forum designed to strengthen 
        cooperation between NGOs among participating BRI 
        countries.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to hasten the enactment 
        of legal provisions pertaining to civil society that 
        are consistent with China's Constitution as well as 
        China's international obligations. Call on China to 
        ratify the International Covenant on Civil and 
        Political Rights (ICCPR).
          Urge the Chinese government to revise or repeal the 
        PRC Law on the Management of Overseas NGOs' Activities 
        in Mainland China and revise the PRC Charity Law to 
        reflect the principles of the ICCPR, especially with 
        regard to the rights to freedom of association, 
        assembly, and expression.
          Call on the Chinese government to cease harassment of 
        civil society advocates and NGOs and provide adequate 
        procedural due process for those individuals subject to 
        criminal investigations and trials.
          Integrate civil society issues into bilateral 
        discussions and agreements with Chinese officials to 
        promote reciprocity in the approach and implementation 
        of civil society exchanges between the United States 
        and China.
          Continue to fund, monitor, and evaluate foreign 
        assistance programs in China that support democracy 
        promotion, rule of law, and human rights advocacy.
          Promote a rules-based international development model 
        that encompasses human rights protections for 
        developing countries instead of an alternative model of 
        development aid that delinks human rights and rule of 
        law considerations.
          Take measures to facilitate the participation of 
        Chinese civil society advocates in relevant 
        international conferences and forums, and support 
        international training to build their leadership 
        capacity in non-profit management, public policy 
        advocacy, and media relations.

                 Institutions of Democratic Governance


                                Findings

        <bullet> Chinese Communist Party General Secretary and 
        President Xi Jinping demanded that all sectors of 
        society obey the Party, which increasingly came under 
        Xi's personal leadership. The Party's constitution was 
        amended to recognize Xi as the core leader, and the 
        country's constitution was amended to remove the 
        existing term limits on the presidency, potentially 
        allowing Xi to remain president indefinitely. Although 
        official news media touted wide public support of the 
        amendment, authorities reportedly suppressed dissenting 
        voices by means of censorship and detention.
        <bullet> Xi Jinping further undermined previous limited 
        attempts to develop intraparty democracy when he 
        decided to handpick the candidates for China's power 
        center--the Communist Party Central Committee Political 
        Bureau (Politburo) and its standing committee--which 
        marks a departure from the existing practice of having 
        a group of senior Party officials nominate candidates.
        <bullet> Several developments this past year signified 
        regression from international standards of democratic 
        governance. The political structure underwent 
        significant reorganization, tightening the Party's 
        control over the state and society. For example, the 
        Central Party School merged with the Chinese Academy 
        for Governance, a state entity, to ensure government 
        officials' ideological conformity. Moreover, the Party 
        assumed managerial functions over the press and the 
        media, and took on policymaking authority over 
        religious and ethnic minority matters.
        <bullet> The National People's Congress created a new 
        government agency, the National Supervisory Commission 
        (NSC). The NSC is responsible for investigating cases 
        of corruption and official misconduct, and in practice 
        is an extension of the Party's Central Commission for 
        Discipline Inspection (CCDI). While the CCDI deals with 
        cases concerning Party members, the NSC has 
        jurisdiction over the entire public sector and has 
        authority to extrajudicially detain anyone suspected of 
        being complicit in corruption or official misconduct, 
        potentially affecting private and foreign citizens.
        <bullet> As corruption remained a significant problem 
        in China, reports continued to emerge this past year 
        highlighting the political nature of the anticorruption 
        campaign, with the former CCDI head identifying 
        political corruption, referring to activities that 
        dilute the Party's centralized power, as the worst form 
        of corruption.
        <bullet> The Commission observed no progress in 
        expanding the scope of elections and saw reports of 
        officials suppressing meaningful participation in or 
        speech regarding elections. In terms of public 
        participation in the rulemaking process, the State 
        Council amended two sets of regulations requiring the 
        rulemaking body to solicit public comments. The 
        amendments, however, did not provide for a mechanism to 
        ensure consideration of public comments. The amendments 
        added language requiring compliance with the Party's 
        policies and decisions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support U.S. research programs that document and 
        analyze the governing institutions and ideological 
        campaigns of the Chinese Communist Party, as well as 
        its influence over companies, government agencies, 
        legislative and judicial bodies, and non-governmental 
        organizations (NGOs).
          Employ a ``whole-of-government'' approach to 
        encourage Chinese authorities to ratify the 
        International Covenant on Civil and Political Rights 
        and release individuals detained or imprisoned for 
        exercising their rights to freedom of speech, 
        association, and assembly. These individuals include 
        those mentioned in this report and in the Commission's 
        Political Prisoner Database, such as Yu Qiyong, Liu 
        Feiyue, and Qin Yongmin.
          Support joint U.S.-China cooperative programs to 
        develop independent village committee and people's 
        congress election monitoring systems. Encourage central 
        and local Party and government leaders to implement 
        free and fair elections across China. Continue to fund, 
        monitor, and evaluate the effectiveness of democracy 
        promotion and rule of law programs in China.
          Support organizations working in China that seek to 
        work with local governments and NGOs to improve 
        transparency, especially with regard to efforts to 
        expand and improve China's open government information 
        initiatives. Urge Party officials to further increase 
        the transparency of Party affairs.
          Call on the Chinese government to improve procedures 
        through which citizens may hold their officials 
        accountable outside of the internal Party-led 
        anticorruption campaign. Urge Party and government 
        officials to establish and improve public participation 
        in government affairs. Encourage top-level officials to 
        reform governing institutions to promote an authentic 
        multi-party system with protections for freedom of 
        speech, association, and assembly.

                Commercial Rule of Law and Human Rights


                                Findings

        <bullet> Since China's accession to the World Trade 
        Organization (WTO), the Chinese government has made 
        progress toward meeting requirements for improving 
        transparency of trade-
        related laws, yet still falls short in some areas such 
        as publishing local regulations and translating trade-
        related documents. Although the government publishes 
        many trade-related laws and administrative regulations, 
        the government has in many cases failed to publish 
        local regulations and other legal documents such as 
        opinions, circulars, and subsidy measures.
        <bullet> The Commission observed reports of improved 
        enforcement of intellectual property rights (IPR) in 
        some areas, though concerns remained about IPR 
        infringement, including forced technology transfers. A 
        March 2018 report from the Office of the U.S. Trade 
        Representative (USTR) found that the Chinese government 
        uses restrictions on foreign ownership in certain 
        sectors of the economy to force technology transfers 
        through the establishment of joint ventures with 
        Chinese firms, and that authorities often demand 
        technology transfers orally or informally to avoid the 
        appearance of violating international trade 
        obligations.
        <bullet> The Chinese government took some steps toward 
        meeting the WTO requirement for equal treatment of 
        domestic and foreign companies, though 75 percent of 
        U.S. companies surveyed by the American Chamber of 
        Commerce in China reported feeling ``less welcome in 
        China than before.'' Reports continued to emerge this 
        past year of favorable treatment of domestic firms over 
        foreign firms through the blocking of foreign websites 
        and other formal restrictions on foreign firms. The 
        Commission further observed reports of other forms of 
        preferential treatment, both of domestic firms and of 
        government- or Party-connected firms.
        <bullet> The Chinese Communist Party and government 
        maintain a role in most enterprises that operate in 
        mainland China, whether they are state-owned 
        enterprises (SOEs), domestic private firms, foreign 
        firms, or joint ventures. According to government data, 
        as of the end of 2016, 93.2 percent of SOEs and 67.9 
        percent of private enterprises had Party groups, as did 
        70 percent of foreign-invested enterprises. Reports 
        from this past year indicate that the Party and 
        government are attempting to expand their roles in 
        commercial enterprises.
        <bullet> Companies provided a wide range of equipment 
        and services to the government in the Xinjiang Uyghur 
        Autonomous Region (XUAR), despite reports of the 
        regional government's severe repression of religious 
        freedom and the detention of hundreds of thousands of 
        individuals belonging to Muslim ethnic minority groups 
        in a network of extrajudicial ``political reeducation'' 
        centers. For example, the international security 
        services company Frontier Services Group reportedly 
        partnered with the state-owned enterprise CITIC Group 
        to invest in a Beijing municipality-based security 
        training school that is building a branch in the XUAR 
        to train military and police personnel.
        <bullet> Human rights groups warned that Chinese laws 
        allow for collection of personal data from commercial 
        firms without adequately protecting individuals' right 
        to privacy as provided for in the Universal Declaration 
        of Human Rights and the International Covenant on Civil 
        and Political Rights. Despite these privacy concerns, 
        international companies stored Chinese user data in 
        mainland China to comply with domestic law. Chinese 
        companies also collect large amounts of data from their 
        users. It is unclear how much data these companies 
        share with authorities, but reports indicate that 
        domestic technology firms work closely with police and 
        other government authorities.
        <bullet> Government and companies' large-scale 
        collection of data in China includes the collection of 
        biometric data such as faces, voice samples, and DNA. 
        During this reporting year, the Chinese government 
        continued to work with Chinese companies to develop and 
        implement a social credit system that aims to aggregate 
        and monitor data that the government and companies 
        collect, which some observers warned could increase the 
        government's capacity for social control. Chinese 
        security authorities are also working with companies to 
        integrate improved technology into China's expanding 
        network of surveillance cameras, despite concerns over 
        the government's use of surveillance to target rights 
        advocates and ethnic minorities.
        <bullet> The Chinese government continued to restrict 
        freedom of expression online by blocking and censoring 
        content. Chinese authorities require companies to 
        monitor content on their websites and applications 
        (apps), and in several cases this past year, 
        authorities threatened or punished companies for online 
        content. Faced with the possibility of lost revenue and 
        other forms of punishment, both domestic and 
        international companies engaged in self-censorship. In 
        March 2018, one media scholar described how film 
        industry executives outside mainland China have invited 
        Chinese content regulators to speak at conferences to 
        provide guidance on how to create content that Chinese 
        censors will allow. In the summer of 2018, dozens of 
        international airline companies reportedly changed 
        their international websites to comply with Chinese 
        government demands to remove references to Taiwan as a 
        country.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Work with allies and governments of other market-
        oriented economies to voice concerns over the unequal 
        treatment of foreign companies in China and the 
        increasing role of the Chinese Communist Party in 
        Chinese state-owned enterprises, in joint ventures with 
        foreign companies, and in private companies operating 
        within mainland China.
          Encourage the Chinese government to continue to 
        improve enforcement of intellectual property rights, 
        noting that as indigenous innovation increases in 
        China, stronger enforcement of intellectual property 
        rights will be beneficial to both the United States and 
        China. In public and private meetings with Chinese 
        government counterparts, U.S. officials should 
        highlight the concerns of international businesses 
        regarding continued infringement of intellectual 
        property rights, including through forced technology 
        transfers.
          In meetings with constituents engaged in business 
        ventures in China, encourage business leaders to adhere 
        to the UN Guiding Principles on Business and Human 
        Rights by developing internal policies to assess and 
        mitigate the risk of complicity in the Chinese 
        government's ongoing abuses of human rights, 
        particularly in regions with egregious human rights 
        violations, such as the Xinjiang Uyghur Autonomous 
        Region.
          USTR should, under WTO rules, request detailed 
        information from the Chinese government on internet 
        restrictions that result in the blocking of the 
        websites of U.S. companies. If warranted, a WTO dispute 
        should be considered. In meetings with Chinese 
        officials, urge the Chinese government to provide 
        reciprocal access for and stop blocking Chinese 
        internet users' access to U.S. media and technology 
        companies in China.
          Encourage U.S. companies that receive censorship 
        requests from Chinese authorities to comply with the UN 
        Guiding Principles on Business and Human Rights and the 
        Global Network Initiative's Principles on Freedom of 
        Expression and, where possible, disclose such requests 
        to the public.

                           Access to Justice


                                Findings

        <bullet> Despite reported improvements in the judiciary 
        system's bureaucratic efficiency, increasing political 
        control and continued persecution of rights lawyers 
        undermine citizens' confidence and ability to seek and 
        obtain justice. Zhou Qiang, a senior Party member and 
        the Supreme People's Court President, advocated for 
        absolute loyalty and obedience to the Chinese Communist 
        Party. Zhou said it was the judiciary's imperative to 
        participate in a political campaign called ``eliminate 
        darkness and evil,'' which some commentators compared 
        to earlier anti-crime campaigns, such as ``Strike 
        Hard'' and ``Strike Black,'' in terms of the potential 
        for serious human rights abuses.
        <bullet> Chinese authorities continued to criminally 
        prosecute rights lawyers and advocates for political 
        reasons, lodging ``endangering state security'' charges 
        against them. For example, a court sentenced rights 
        advocate Wu Gan to eight years in prison, and public 
        security officials held rights lawyer Wang Quanzhang 
        under de facto incommunicado pretrial detention for 
        over 1,000 days. Authorities also criminally detained 
        rights lawyers including Li Yuhan and Yu Wensheng for 
        their advocacy work in human rights and democracy.
        <bullet> Authorities targeted law firms that engaged in 
        rights defense work and harassed them by employing 
        intrusive measures such as stationing officials in the 
        office. Individual lawyers also reported that they 
        experienced harassment in the form of revocation and 
        suspension of licenses, delay in the annual license 
        renewal process, exclusion from courthouses, 
        restriction of movement, and physical assault.
        <bullet> The Supreme People's Court President Zhou 
        Qiang reported that judicial reform efforts continued 
        to move forward. The Standing Committee of the National 
        People's Congress deliberated draft legislation that 
        would implement a merit-based process in selecting 
        judges. Political alignment, however, remained a 
        selection criterion. Legislation concerning the 
        people's assessors system may increase citizen 
        participation and improve evidence-based adjudication, 
        but its actual effect has yet to be seen.
        <bullet> The legal aid system remained a state-
        controlled institution. The government took steps to 
        further expand legal aid programs, but it tightened the 
        space for legal aid services not administered by the 
        government. In January 2018, the All China Lawyers 
        Association issued a set of trial regulations 
        prohibiting lawyers from accepting cases at discounted 
        rates or without fees, except for legal aid cases, 
        which could potentially prevent lawyers from providing 
        pro bono legal services to disadvantaged individuals in 
        cases of social significance.
        <bullet> The Chinese government continued to streamline 
        the petitioning system, a mechanism outside of the 
        formal legal system for citizens to present their 
        grievances to authorities. The government agency 
        responsible for the petitioning system reported that a 
        substantial percentage of petitions were referred to 
        the administrative and judicial system for resolution. 
        Nevertheless, citizens continued to employ the 
        petitioning system, and some of them faced retaliation, 
        including administrative punishment and criminal 
        prosecution.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to unconditionally 
        exonerate and lift any restrictions of liberty or 
        eligibility to practice law on rights lawyers and 
        advocates, including Wang Quanzhang, Li Yuhan, Yu 
        Wensheng, Wu Gan, and Jiang Tianyong.
          Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        lawyers, to investigate all allegations of abuse 
        against them, and to ensure that those responsible are 
        brought to justice. Urge the Chinese government to end 
        all forms of harassment or persecution against the 
        family members of human rights lawyers and advocates, 
        including surveillance and restrictions on their 
        freedom of movement.
          Urge the Chinese government to stop all forms of 
        persecution or prosecution of petitioners who use the 
        petitioning system to seek redress for their 
        grievances.
          Urge leaders of the Chinese Communist Party and 
        government to grant the judiciary true independence and 
        warn them of the negative impact on the rule of law of 
        involving the judiciary in political campaigns.
          Increase support for programs that promote dialogue 
        between U.S. and Chinese legal experts regarding how 
        China can structure and implement legal reforms. 
        Concomitantly increase support for collaboration 
        between U.S. and Chinese academic and non-governmental 
        entities to help develop programs that enhance the 
        Chinese legal system's capacity for protecting 
        citizens' rights.

                                Xinjiang


                                Findings

        <bullet> During the reporting year, authorities in the 
        Xinjiang Uyghur Autonomous Region (XUAR) reportedly 
        arbitrarily detained Uyghurs, Kazakhs, Kyrgyz, Hui, and 
        others from predominantly Muslim ethnic minority groups 
        in extrajudicial facilities known as ``political 
        reeducation'' centers or camps. Reports from 
        international rights groups, scholars, and media 
        organizations indicated that as many as 800,000 to 1.1 
        million individuals had been or remained detained at 
        these facilities since around April 2017, after the 
        XUAR People's Congress adopted the region's first anti-
        extremism regulations. U.S.-based scholar Rian Thum 
        noted in August 2018 that initial estimates of over 1 
        million detainees were based on information observers 
        obtained in early 2018, but Uyghurs, Kazakhs, and 
        others ``have continued to disappear,'' and officials 
        have continued to plan the construction of additional 
        ``political reeducation'' facilities, making current 
        figures potentially higher. Security personnel at these 
        facilities reportedly subjected detainees to torture, 
        medical neglect and maltreatment, and other forms of 
        physical and psychological abuse.
        <bullet> Security personnel reportedly detained people, 
        in most cases indefinitely, in ``political 
        reeducation'' centers based on factors such as praying 
        in a certain way; engaging in ``religious extremism''; 
        having ``politically incorrect'' views; wanting to 
        travel abroad; or having foreign connections, such as 
        previous travel abroad or relatives living in another 
        country. Regional government authorities reportedly 
        ordered officials in some XUAR jurisdictions to meet 
        quotas to detain a certain percentage or number of the 
        local population in ``political reeducation'' camps. 
        Elderly people, minors, and ill individuals were 
        reportedly among those detained in the centers, and a 
        number of detainees died due to ill health and poor 
        conditions in the centers. XUAR authorities placed the 
        children of individuals detained in ``political 
        reeducation'' centers in orphanages in some 
        jurisdictions in such high numbers that the orphanages 
        became overcrowded, and in some instances officials 
        responded by sending some children to facilities in 
        provinces outside of the XUAR.
        <bullet> In addition to ``reeducation'' facilities 
        detaining inmates 24 hours a day, reports from rights 
        groups and media documented other types of 
        ``reeducation'' facilities and programs. In August 
        2018, Chinese Human Rights Defenders (CHRD) reported 
        the findings of a survey it conducted with the 
        organization Equal Rights Initiative (ERI) on 
        ``reeducation'' programs in the XUAR, including 
        information on both detention and forced attendance of 
        ``education sessions'' during the day or evening. 
        According to the report, county or municipal 
        authorities administered ``reeducation'' camps, and 
        township or village government officials administered 
        day and evening ``study sessions'' or ``open camps.'' 
        CHRD and ERI estimated that as of June 2018, 
        authorities may have forced around 2.2 million XUAR 
        residents to attend day or evening ``education 
        sessions.''
        <bullet> A Western researcher and rights advocate 
        presented a case that the severity and extent of 
        ``political reeducation'' detentions and other rights 
        abuses in the XUAR are consistent with ``crimes against 
        humanity,'' as defined by the Rome Statute of the 
        International Criminal Court. In a CNN opinion piece, 
        the researcher argued that the situation in the XUAR 
        ``fits the textbook definition of crimes against 
        humanity.'' Article 7 of the Rome Statute provides a 
        list of 11 acts that may constitute ``crimes against 
        humanity,'' ``when committed as part of a widespread or 
        systematic attack directed against any civilian 
        population, with knowledge of the attack.''
        <bullet> XUAR authorities detained dozens of XUAR-based 
        family members of six U.S.-based Uyghur Radio Free Asia 
        (RFA) journalists in ``political reeducation'' centers 
        and other locations. In written testimony submitted at 
        a July 2018 Commission hearing, RFA journalist 
        Gulchehra Hoja stated, ``more than two dozen of my 
        relatives in China are missing.'' XUAR authorities 
        reportedly also detained dozens of family members of 
        U.S.-based rights advocate Rebiya Kadeer, including her 
        children and grandchildren.
        <bullet> Analysis of Chinese government data that was 
        published by CHRD in July 2018 showed that 21 percent 
        of all criminal arrests in China in 2017 took place in 
        the XUAR, which is home to only 1.5 percent of China's 
        population. CHRD reported that, according to the 
        research it conducted with ERI, the number of criminal 
        arrests in the XUAR increased by 731 percent in 2017 
        over 2016, coinciding with policies implemented by XUAR 
        Party Secretary Chen Quanguo to enhance regional 
        security following his appointment to the XUAR in 
        August 2016. These figures do not include detentions in 
        ``reeducation'' camps, which are carried out 
        extrajudicially, though authorities reportedly 
        transferred some ``reeducation'' camp detainees to 
        prison after a period of time.
        <bullet> Central and regional government authorities 
        implemented intense security measures throughout the 
        XUAR, using security personnel, surveillance 
        technology, mass detentions, and other methods to 
        tighten state control over predominantly Muslim ethnic 
        minority groups in the XUAR. Regional authorities 
        reportedly increased their spending on security 
        measures by nearly 93 percent in 2017 compared to 2016; 
        a sample of 18 Chinese provinces and regions saw an 
        average increase of just under 12 percent in 2017.
        <bullet> XUAR authorities oversaw the mass, involuntary 
        collection of DNA and other biometric information from 
        XUAR residents; conducted widespread and frequent 
        checks of residents' cell phones and required residents 
        to install monitoring applications on their cell 
        phones; maintained checkpoints and facial recognition 
        cameras in neighborhoods, on roads, and in train 
        stations; operated ``convenience police stations,'' a 
        form of street-level management that enhances 
        authorities' ability to closely surveil and police 
        local communities; and installed cameras in and around 
        mosques and homes, in order to monitor residents' 
        religious and private activities. XUAR authorities 
        reportedly use a centralized system called the 
        ``Integrated Joint Operations Platform'' to gather and 
        analyze data from closed-circuit cameras, computers, 
        smartphones, license plates, and identification cards, 
        as well as individuals' family planning, banking, and 
        travel records. Authorities used such data to identify 
        individuals they would later investigate and detain, 
        including in ``political reeducation'' centers.
        <bullet> Authorities in the XUAR imposed restrictions 
        on the Quran, including through confiscation and 
        prohibition on the study of the Quran. In early 2018, 
        local officials in one township reportedly asked 
        residents to sign a pledge stating that neither they 
        nor their family members would study the Quran or learn 
        Arabic. In September 2017, officials in locations 
        throughout the XUAR reportedly confiscated Qurans, 
        prayer mats, and other items of Islamic significance 
        from local Uyghur, Kazakh, and Kyrgyz residents.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to end the mass, 
        arbitrary detention of Uyghurs, Kazakhs, Kyrgyz, Hui, 
        and others in ``political reeducation'' centers, and 
        release those currently detained. Call on Chinese 
        officials to allow U.S. officials, diplomatic 
        representatives of other countries, UN officials, 
        humanitarian organizations, and international 
        journalists to visit the XUAR and investigate reports 
        of arbitrary detention. Coordinate with other 
        governments and international non-governmental 
        organizations to compile relevant information regarding 
        specific XUAR officials responsible for the arbitrary 
        mass detention and abuse of individuals in ``political 
        reeducation'' centers, in preparation for possible 
        sanctions under the Global Magnitsky Human Rights 
        Accountability Act (Public Law No. 114-328).
          Call on the Chinese government to end the detention 
        and persecution of the XUAR-based family members of 
        U.S.-based Uyghur Radio Free Asia journalists and U.S.-
        based Uyghur rights advocate Rebiya Kadeer. Prioritize 
        these cases in interactions with senior Chinese 
        government and Communist Party officials, seek clarity 
        as to the whereabouts and well-being of these 
        individuals, and press for their release.
          Urge U.S. companies selling products, providing 
        services, conducting business, or investing in 
        development initiatives in the XUAR to ensure their 
        products, services, and investment funds do not provide 
        support for XUAR officials' arbitrary detention of 
        ethnic minority individuals or XUAR authorities' use of 
        technology to otherwise repress and control XUAR 
        residents, rather than for legitimate law enforcement 
        activities. Urge the Bureau of Industry and Security at 
        the U.S. Department of Commerce to track the sale of 
        equipment and technology used by Chinese security 
        agencies and U.S. companies' sale of surveillance and 
        crime control technology to XUAR officials, and 
        investigate the legality of such sales according to 
        existing U.S. Export Administration Regulations.
          Call on the Chinese government to adhere to domestic 
        laws and regulations guaranteeing freedom of religious 
        belief as well as international standards guaranteeing 
        religious practice free from state restrictions.
          Support efforts to raise greater public awareness of 
        human rights conditions in the XUAR, support 
        initiatives to protect Uyghur culture, increase avenues 
        for Uyghurs to protect their human rights, and 
        undertake more frequent human rights-focused visits to 
        the XUAR.
          Call on the Chinese government to consult with non-
        Han Chinese parents, teachers, and students regarding 
        which language or languages of instruction should be 
        used in XUAR schools, from the preschool to the 
        university level. Call on Chinese officials to provide 
        parents and students a choice of instruction in the 
        Uyghur language and other non-Chinese languages 
        prevalent in the XUAR, as mandated in Article 4 of 
        China's Constitution and Article 10 of the PRC Regional 
        Ethnic Autonomy Law.

                                 Tibet


                                Findings

        <bullet> There has been no formal dialogue between the 
        Dalai Lama's representatives and Chinese Communist 
        Party and government officials since the ninth round of 
        dialogue was held in January 2010. On November 23, 
        2017, the Dalai Lama reaffirmed the Middle Way 
        Approach, stating that the Tibetan people ``are not 
        seeking independence'' and that they ``want to stay 
        with China.'' The Chinese government continues to 
        regard the Dalai Lama as a leader of ``separatist 
        forces.''
        <bullet> The Chinese government maintains that only it 
        has the right to decide the Dalai Lama's successor. The 
        current Dalai Lama reiterated his position on his 
        reincarnation and underscored that it is not a matter 
        for the Chinese government or Party to decide, but 
        rather a matter reserved for himself, Tibetan Buddhist 
        leaders, and the Tibetan people.
        <bullet> The Party and government continued 
        implementing repressive policies in Tibetan autonomous 
        areas through the use of extensive and intrusive 
        surveillance, strict regulations and rules to restrict 
        Tibetans' fundamental rights, and pervasive displays of 
        police and military force. Domestic security spending 
        in the Tibet Autonomous Region grew 404 percent between 
        2007 and 2016, while domestic security spending in two 
        Tibetan prefectures in Sichuan province increased 
        nearly 300 percent over the same time period.
        <bullet> The Party and government continued to violate 
        the right of religious freedom of Tibetan Buddhist 
        monastics and laypersons through a system of pervasive 
        controls and restrictions on religious practice. This 
        past year, for example, the Chinese government imposed 
        Party administration on the Larung Gar Buddhist 
        Institute, the site of massive demolitions and 
        expulsions that started in 2016. In submissions to the 
        UN Human Rights Council for China's upcoming Universal 
        Periodic Review, advocacy groups have documented 
        increasing security and militarization of Tibet in the 
        name of countering ``terrorism'' and ``separatism.''
        <bullet> Self-immolations by Tibetans reportedly 
        focusing on political and religious issues continued 
        during this past year. As of August 13, 2018, there 
        were three known self-immolations in Tibetan autonomous 
        areas of China during the Commission's 2018 reporting 
        year, all of which were confirmed to be fatal, bringing 
        the total number of such self-immolations by Tibetans 
        living in China to 147 since 2009. As in the past, the 
        self-immolators publicly called for the long life of 
        the Dalai Lama, his return from exile, and freedom for 
        Tibet.
        <bullet> A court in Yushu (Yulshul) Tibetan Autonomous 
        Prefecture, Qinghai province, convicted Tibetan 
        language rights advocate Tashi Wangchug (Tashi 
        Wangchuk) of ``inciting separatism'' and sentenced him 
        to five years in prison on May 22, 2018. Tashi Wangchug 
        stood trial on January 4, 2018, nearly two years after 
        the New York Times interviewed him and published a 
        short film about his advocacy for Tibetan language 
        education.
        <bullet> The restriction of information about a 
        February 2018 fire at the 1,300-year-old Jokhang Temple 
        in Lhasa municipality, Tibet Autonomous Region, has 
        caused many Tibetans to fear that the damage is far 
        worse than has been reported.
        <bullet> Filmmaker Dondrub Wangchen (Dhondup Wangchen), 
        who was kept under strict surveillance after his 
        release from prison in June 2014, escaped from China in 
        fall 2017 and reunited with his family in the United 
        States.
        <bullet> Chinese authorities released four political 
        prisoners, among them writer Drukar Gyal (pen name 
        Shogjang) on March 19, 2018, and popular singer Gonpo 
        Tenzin around August 2. All four political prisoners 
        had been detained in contravention of international 
        standards of freedom of expression.
        <bullet> Environmental regulations, infrastructure 
        projects, and tourism have displaced Tibetan nomads and 
        contribute to the Chinese government's control of 
        Tibetan areas.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Encourage the Chinese government and Communist Party 
        to respect, as a matter of the right of religious 
        freedom and as recognized under Chinese and 
        international law, that the decision regarding the 
        Dalai Lama's succession or reincarnation must be 
        reserved for the current Dalai Lama, Tibetan Buddhist 
        leaders, and the Tibetan people.
          Urge the Chinese government to recognize the role of 
        restrictive Party policies and government measures, and 
        the increasing securitization of Tibetan autonomous 
        areas of China, in Tibetan self-immolations and 
        protests. Urge the Chinese government to cease treating 
        the Dalai Lama as a security threat, and stress to the 
        government the importance of respecting and protecting 
        Tibetan culture and language--policy changes that would 
        promote and protect social stability in Tibetan areas.
          Encourage the Chinese government to respect the right 
        of Tibetans to travel domestically as well as 
        internationally, and to allow access to the Tibetan 
        autonomous areas of China to international journalists, 
        representatives of the United Nations and non-
        governmental organizations, U.S. Government officials, 
        and members of the Tibetan diaspora living around the 
        world.
          Urge the Chinese government to withdraw the charges 
        against Tibetan language rights advocate Tashi Wangchug 
        and stress that peacefully advocating for genuine 
        bilingual education--a right recognized under Chinese 
        and international law--is not a crime.
          In interactions with Chinese officials, call for the 
        release of Tibetan political prisoners currently 
        detained or imprisoned for the peaceful exercise of 
        their human rights. The records of detained Tibetans in 
        the Commission's Political Prisoner Database--albeit an 
        incomplete picture of the extent of Tibetan detentions 
        and disappearances--provides a useful resource for such 
        interactions with Chinese officials. Urge the Chinese 
        government and its security forces to cease using 
        arbitrary detention, disappearance, beatings, torture, 
        and intimidation to suppress and punish Tibetans' 
        peaceful exercise of their rights.
          Urge the Chinese government to take fully into 
        account the views and preferences of Tibetans when 
        planning infrastructure, natural resource development, 
        settlement or resettlement projects, and tourist 
        attractions in the Tibetan areas of China.
          Continue to request that the Chinese government 
        invite an independent representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima, the 11th Panchen Lama, whom the Dalai Lama 
        recognized in 1995, and who has been held 
        incommunicado, along with his parents, since May 17, 
        1995.

                  Developments in Hong Kong and Macau


                                Findings

        <bullet> During its 2018 reporting year, the Commission 
        observed a continued erosion of Hong Kong's autonomy, 
        as guaranteed under the ``one country, two systems'' 
        policy enshrined in the Basic Law in accordance with 
        the principles of the 1984 Sino-British Joint 
        Declaration.
        <bullet> In March 2018, a Legislative Council (LegCo) 
        by-election was held to replace legislative seats 
        vacated by four out of six disqualified pro-democracy 
        legislators. Candidates from both the pro-democracy and 
        pro-establishment camps won two seats each. After the 
        March by-election, the pro-democracy camp held a total 
        of 16 seats in geographical constituencies, which is 
        not enough to veto bills, while the pro-establishment 
        camp maintained a majority of 17 seats. During the 
        nomination period preceding the March by-election, the 
        government of Hong Kong carried out what observers 
        called ``political screening'' of prospective election 
        candidates for the LegCo based on their political party 
        or political beliefs.
        <bullet> The Hong Kong government continued to pursue 
        cases brought by the Hong Kong government against 
        leaders and participants of the 2014 pro-democracy 
        protests and activists from the political opposition. 
        As of April 2018, the government reportedly brought a 
        total of 40 court cases against 26 pro-democracy 
        leaders since 2014, resulting in 13 convictions among 
        the 22 concluded cases.
        <bullet> In October 2017, authorities released on bail 
        democracy activists and Nobel Peace Prize nominees 
        Joshua Wong Chi-fung, Nathan Law Kwun-chung, and Alex 
        Chow Yong-kang, after their imprisonment in August 
        2017, to appeal their prison sentences of six to eight 
        months ordered by the Court of Appeal on charges 
        related to ``unlawful assembly.'' In February 2018, the 
        Court of Final Appeal overturned Wong, Law, and Chow's 
        sentences.
        <bullet> Hong Kong and mainland Chinese officials moved 
        forward on ``co-location'' plans for the Hong Kong 
        section of the Guangzhou-Shenzhen-Hong Kong Express 
        Rail Link in West Kowloon despite opposition from 
        activists, politicians, and lawyers. The plan allows 
        the enforcement of mainland Chinese law by mainland 
        officials in a designated ``Mainland Port Area'' within 
        the West Kowloon Station. The Hong Kong Bar Association 
        criticized the central government's approval of the co-
        location plan as a serious violation of the Basic Law, 
        asserting that it undermines the rule of law and the 
        ``one country, two systems'' framework in Hong Kong.
        <bullet> The Commission observed reports of 
        restrictions on the freedom of expression and 
        association in Hong Kong against academics and 
        politicians who hold views the government deems 
        unfavorable, including Chin Wan-kan, Johannes Chan, 
        Benny Tai, Cheng Chung-tai, and Andy Chan. In advance 
        of the UN Human Rights Council's review of China's 
        compliance with the International Covenant on Civil and 
        Political Rights (ICCPR), 53 Hong Kong non-governmental 
        organizations raised concerns about the narrowing space 
        for lawful dissent and expression in Hong Kong and the 
        future of democratic development.
        <bullet> Chinese authorities first released and then 
        detained Swedish citizen Gui Minhai, one of the five 
        Hong Kong booksellers abducted and brought to mainland 
        China in late 2015. In October 2017, authorities 
        reportedly released Gui from custody after two years of 
        detention for an alleged ``traffic offense.'' In 
        January 2018, Gui was forcibly detained by plainclothes 
        Chinese authorities while he was traveling with two 
        Swedish diplomats to Beijing municipality, reportedly 
        to seek medical examination for neurological symptoms. 
        Gui has appeared in at least three televised 
        confessions on mainland and Hong Kong news media 
        outlets, which the international NGO Safeguard 
        Defenders believes are typically extracted through 
        threats and torture, and used for both domestic and 
        overseas propaganda.
        <bullet> The Commission did not observe progress in 
        Macau toward ``an electoral system based on universal 
        and equal suffrage '' in line with the ICCPR, as 
        recommended by the UN Human Rights Committee. This past 
        year, proposed legislative amendments, the suspension 
        of a pro-democracy legislator, and the denial of entry 
        to Macau of political figures and writers raised 
        concerns regarding Macau's autonomy and rule of law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Consider enacting the Hong Kong Human Rights and 
        Democracy Act (S. 417/H.R. 3856, 115th Cong., 1st 
        Sess.) to monitor the state of Hong Kong's autonomy 
        from mainland China and reaffirm U.S. support for 
        democratization in Hong Kong.
          Emphasize in meetings with Chinese and Hong Kong 
        officials that the continued erosion of Hong Kong's 
        autonomy under the ``one country, two systems'' 
        principle, and as guaranteed in the Sino-British Joint 
        Declaration and the Basic Law, threatens the 
        underpinnings of U.S. policy toward Hong Kong, 
        particularly Hong Kong's separate treatment under U.S. 
        law.
          Urge the Chinese and Hong Kong governments to restart 
        the electoral reform process and work toward 
        implementing Chief Executive and Legislative Council 
        elections by universal suffrage, in accordance with 
        Articles 45 and 68 of the Basic Law and Article 25 of 
        the International Covenant on Civil and Political 
        Rights (ICCPR).
          Call on the Chinese and Macau governments to set a 
        timeline for implementing elections in Macau for Chief 
        Executive and the Legislative Assembly by universal 
        suffrage, as required under Article 25 of the ICCPR and 
        repeatedly urged by the UN Human Rights Committee.


                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression

                            II. Human Rights


                         Freedom of Expression


            International Standards on Freedom of Expression

    The Chinese government and Communist Party continued to 
restrict expression in contravention of international human 
rights standards, including Article 19 of the International 
Convenant on Civil and Political Rights (ICCPR) and Article 19 
of the Universal Declaration of Human Rights.\1\ According to 
the ICCPR--which China signed \2\ but has not ratified \3\--and 
as reiterated in 2011 by the Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression, countries may impose certain restrictions or 
limitations on freedom of expression, if such restrictions are 
provided by law and are necessary for the purpose of respecting 
the ``rights or reputations of others'' or protecting national 
security, public order, public health, or morals.\4\ An October 
2009 UN Human Rights Council resolution declared restrictions 
on the ``discussion of government policies and political 
debate,'' ``peaceful demonstrations or political activities, 
including for peace or democracy,'' and ``expression of opinion 
and dissent'' are inconsistent with Article 19(3) of the 
ICCPR.\5\ The UN Human Rights Committee specified in a 2011 
General Comment that restrictions on freedom of expression 
specified in Article 19(3) should be interpreted narrowly and 
that the restrictions ``may not put in jeopardy the right 
itself.'' \6\

                Reinforcing Party Control Over the Media


      INSTITUTIONAL RESTRUCTURING OF PARTY AND GOVERNMENT AGENCIES

    In March 2018, the Chinese Communist Party Central 
Committee issued a large-scale plan to restructure the 
functional authority and managerial responsibilities of Party 
entities and Chinese government agencies,\7\ provisions of 
which reinforced the Party's ideological control of the press 
(including radio, television, and online platforms), 
publishing, and film.\8\ The plan, titled the ``Plan for 
Deepening Reform of Party and Government Agencies'' (Plan), 
placed the Party's Central Propaganda Department (CPD) in a 
``leadership'' role with direct management responsibilities for 
news media, publishing, and film.\9\ While the CPD and its 
lower level bureaus have long coordinated ideological messaging 
through media censorship and control,\10\ the CPD's enhanced 
managerial role breaks with the ``guiding hand'' role that 
emerged in the post-Mao era during which the CPD was not to 
``engage in practical or administrative tasks.'' \11\ This 
break reflects Party efforts to rein in increasingly complex 
digital news, communications, and entertainment platforms \12\ 
and its goals to disseminate a unified message about China 
within and outside of China,\13\ as well as to reduce 
bureaucratic barriers in the way of Party control.\14\ [For 
more information on the sweeping reorganization of Party and 
government institutions, see Section III--Institutions of 
Democratic Governance.] The Plan requires central-level 
institutional changes to be completed by the end of 2018,\15\ 
including the following items that concern freedom of 
expression: \16\

        <bullet> Disbanding the State Administration of Press, 
        Publication, Radio, Film and Television, the government 
        agency that had been in charge of managing the press, 
        film, and television.\17\ With the CPD's direct 
        management of press, publication, and film via two 
        newly named entities located within the CPD, the 
        National News and Publishing Administration (also known 
        as the National Copyright Office) and National Film 
        Bureau, the Plan also established a functionally leaner 
        agency to manage radio and television, the State 
        Administration of Radio and Television; \18\
        <bullet> Bringing together the three major broadcast 
        news entities--China Central Television, China National 
        Radio, and China Radio International--under a newly 
        formed ``mega'' agency called China Media Group,\19\ to 
        be known as Voice of China internationally.\20\ The 
        merged broadcast agency will be classified as a 
        ``public institution'' (shiye danwei) under the State 
        Council and directly subordinate to CPD ``leadership''; 
        \21\ and
        <bullet> Elevating the Party's Central Cybersecurity 
        and Informatization Leading Small Group to 
        ``Committee'' status.\22\ According to experts 
        associated with New America's DigiChina project, the 
        upgrade represents an increase in power for this Party 
        entity by adjusting a short-term policy mechanism (the 
        leading small group) to a longer term ``bureaucratic 
        solution'' (the committee) with centralized resources 
        and authority over cyberspace and the digital 
        economy.\23\ The change may also serve to strengthen 
        the Cyberspace Administration of China (CAC)--the 
        government agency with oversight of cyberspace 
        governance, including control of online news 
        content.\24\

               MEDIA AS MOUTHPIECE: THE PARTY'S ``VOICE''

    The Party has historically ascribed a ``mouthpiece'' role 
to Chinese media,\25\ and high-level official publications 
highlighted this obligation during the Commission's 2018 
reporting year. In June 2018, the Central Propaganda Department 
issued the first collection of President and Party General 
Secretary Xi Jinping's talks about news media over the past 
five years,\26\ including his February 2016 speech to state and 
Party news outlets that the media in China ``are surnamed 
Party.'' \27\ The Plan to restructure Party and government 
agencies issued in March 2018 specified that the State 
Administration of Radio and Television shall ``fully use 
broadcast news as the Party's mouthpiece'' \28\ and the 
combined broadcasting agency will ``propagate the theories, 
political line, and policies of the Party.'' \29\ The official 
explanation for the new broadcasting agency's international 
name of Voice of China emphasized ``telling China's story 
well'' to international audiences.\30\ International news 
reports juxtaposed the name Voice of China (Zhongguo zhi sheng) 
with the U.S. Government-funded broadcaster Voice of America 
(Meiguo zhi yin),\31\ though an unnamed source told Radio Free 
Asia that Voice of China likely is modeled on Russia's 
government-funded global broadcast platform RT in its 
authoritarian ambitions.\32\ The April 2018 appointment of Tuo 
Zhen, a Deputy Director of the Central Propaganda Department, 
as editor-in-chief of the Party ``mouthpiece'' People's Daily 
\33\ recalled a January 2013 incident in which Tuo substituted 
an editorial that extolled the Party for a reform-oriented one 
at Southern Weekend,\34\ one of the leading investigative 
newspapers in China at the time.\35\ Positive coverage of Xi 
Jinping saturated domestic news this past year,\36\ but a 
series of three editorials from July 2018 in People's Daily 
censured ``boastful'' news reporting,\37\ which some experts 
linked to incipient criticism \38\ in China of the 
nationalistic rhetoric associated with Xi Jinping \39\ amid 
growing concerns about U.S.-China trade issues.\40\

                          Freedom of the Press

    Reporters Without Borders continued to rank China among the 
five worst countries in the world for press freedom in its 
annual Press Freedom Index.\41\ Press freedom assessments this 
past year from Freedom House,\42\ the International Federation 
of Journalists,\43\ and the Committee to Protect Journalists 
\44\ similarly criticized the lack of press freedom in China. 
In a 2018 survey, Hong Kong journalists identified the Chinese 
central government as a major reason for a decline in press 
freedom in Hong Kong.\45\ Although freedom of speech and the 
press are guaranteed in China's Constitution,\46\ the legal 
parameters for the protection of the news media in gathering 
and reporting the news are not clearly defined in the absence 
of a national press law.\47\ Yet complex regulatory provisions 
allow officials to exert arbitrary control over journalists and 
news coverage in China.\48\
    Reports on adverse events, including accidents and 
disasters, are not out of bounds for official media, but as a 
commentator has noted, ``selected party news outlets or 
government organs are deftly using state-controlled and social 
media tools to take the lead in shaping the Chinese 
government's own version of these events.'' \49\ The government 
and Party often suppress critical reporting while ``advancing a 
positive narrative'' to broaden public support for official 
policies.\50\ For example, this past year, censorship 
instructions limited the manner and scope of media reports on a 
November 2017 fatal fire in Beijing municipality,\51\ framing 
the subsequent forced evictions of thousands of non-local 
residents and large-scale building demolition \52\ as public 
health and fire safety measures.\53\ To mark the 10th 
anniversary of the earthquake in Wenchuan county, Aba (Ngaba) 
Tibetan and Qiang Autonomous Prefecture, Sichuan province, 
state media praised the government's rebuilding efforts and 
generosity to promote the Wenchuan government's announcement of 
a day of ``thanksgiving'' rather than a day of mourning for the 
tens of thousands who died.\54\ On the other hand, authorities 
have used official media as a ``weapon'' against government and 
Party critics, according to the international non-governmental 
organization Safeguard Defenders.\55\ Safeguard Defenders 
highlighted the ``active participation'' of Chinese and Hong 
Kong media outlets involved in the broadcasts of televised--and 
likely coerced--``confessions'' of wrongdoing by rights 
defenders, journalists, and Uyghurs, among others, which were 
aired between July 2013 and February 2018.\56\
    Ideological pressures, organizational changes, and 
financial concerns at news media outlets this past year 
contributed to the ongoing decline of Chinese investigative 
journalism.\57\ A December 2017 academic survey on 
investigative journalism in China \58\ reported a 58-percent 
fall in the number of domestic investigative journalists from 
2011 to 2017, and a decrease in the number of media outlets 
with journalists doing front-line reporting from 74 in 2011 to 
44 in 2017.\59\ Journalism experts have attributed the decline 
to multiple factors, including regulatory and legal 
obstacles,\60\ low wages,\61\ market competition from new 
digital platforms,\62\ and alleged corruption and ethical 
lapses.\63\ In one incident reported this past year, some 40 
editors and journalists from Legal Evening News reportedly quit 
in connection with organizational changes at the newspaper, 
including the closure of the paper's well-known investigative 
unit.\64\ In a different incident, in July 2018, officials in 
Hunan province detained freelance journalist Chen Jieren and 
several of his family members and associates on suspicion of 
extortion and illegal business activity apparently in 
connection with Chen's criticism of a local official.\65\ Three 
official media outlets subsequently denounced Chen's online 
work as spurious ``supervision by public opinion,'' \66\ a term 
Chinese authorities previously have used to signify the 
functions of ``watchdog'' or investigative journalism.\67\

                   HARASSMENT OF DOMESTIC JOURNALISTS

    The Chinese government continued to be one of the worst 
jailers of journalists in the world, with estimates of 
individuals in detention or imprisoned ranging from 41 \68\ to 
more than 50.\69\ Among the journalists detained or imprisoned 
in China are citizen journalists and volunteers who worked 
outside of mainstream state or official media, many of whom are 
of Uyghur ethnicity.\70\ Citizen journalism \71\ in China 
provides information on local news and incidents that the 
government restricts or censors in most media, such as 
information on labor protests,\72\ migrants' concerns,\73\ 
petitioning the government for redress of grievances,\74\ and 
rights defense activities.\75\ A PEN America report on social 
media censorship observed that the government's prohibition on 
mainstream journalists from publishing ``unverified'' reports 
on social media highlights the government's awareness that it 
is not fully able to control content posted by citizen 
journalists.\76\
    Ongoing harassment and detention of citizen journalists 
continued this past year,\77\ and is contemporaneous with the 
suppression of civil society groups and human rights lawyers 
and defenders.\78\ On September 1, 2017, for example, public 
security authorities from Zhuhai municipality, Guangdong 
province, detained Zhen Jianghua, executive director of the 
website Human Rights Campaign in China \79\ that is known for 
monitoring human rights violations, including the harassment 
and criminal prosecution of rights defenders.\80\ Authorities 
formally arrested Zhen on March 30, 2018, on the charge of 
``inciting subversion of state power.'' \81\ On August 10, 
2018, the Zhuhai Intermediate People's Court reportedly tried 
Zhen without informing either Zhen's defense lawyers or his 
family members.\82\ Authorities also continued to detain Liu 
Feiyue and Huang Qi, founders of the websites Civil Rights & 
Livelihood Watch and 64 Tianwang, respectively, as part of the 
crackdown on rights monitoring websites and their founders and 
volunteers.\83\ Liu's case went to court on August 7, 2018, 
without an immediate court decision,\84\ whereas authorities 
have postponed Huang's trial and refused him medical parole 
despite his deteriorating health.\85\ Staff and volunteers from 
those two websites also remained in detention during this 
reporting year, including Ding Lingjie,\86\ Jiang Chengfen,\87\ 
Wang Jing,\88\ Chen Tianmao,\89\ and Yang Xiuqiong.\90\
    This past year, the Commission observed reports of 
censorship, disciplinary measures, dismissal, and detentions of 
mainstream journalists who covered financial or political 
issues, or whose reporting implied a lack of government action. 
Official media covered incidents of threats and a physical 
attack on reporters covering environmental pollution \91\ and 
an attack against another while reporting on hospital 
malfeasance.\92\ In February 2018, Southern Weekend, a market-
driven newspaper based in Guangdong province, reportedly 
withdrew from publication two investigative reports about 
Hainan Airlines (HNA) Group--a private company with large 
debts, which the central government has placed under strict 
economic controls \93\--and removed the magazine's editor-in-
chief in connection to those reports.\94\ On February 25, 2018, 
the English-language branch of state-run media agency Xinhua 
prematurely released the news about the proposed constitutional 
amendment to eliminate presidential term limits,\95\ a change 
that effectively permits Xi Jinping to hold his leadership 
positions for life.\96\ Senior officials reportedly considered 
the early announcement a ``serious political error,'' resulting 
in disciplinary measures for Xinhua staff.\97\ Professional 
ramifications were not reported for the journalist whose 
unscripted ``epic eye-roll'' \98\ in reaction to a lengthy 
question posed at a National People's Congress press conference 
in March 2018 received domestic and international coverage.\99\ 
The Commission also observed reports of detentions of two 
journalists who reported on an absent dairy company executive 
\100\ and a reporter who wrote about dozens of missing 
university students in Wuhan municipality, Hubei province.\101\

          HARASSMENT OF FOREIGN MEDIA OUTLETS AND JOURNALISTS

    According to the Foreign Correspondents' Club of China 
(FCCC) 2017 survey, working conditions for foreign reporters in 
China generally deteriorated in 2017. The FCCC supported this 
claim with accounts of official harassment of reporters, news 
assistants, and sources; attempts to interfere with the 
coverage of issues that authorities deemed ``sensitive''; 
restrictions on travel to areas along China's border and ethnic 
minority autonomous regions; and visa renewal delays and 
denials.\102\ At two press conferences following the release of 
the FCCC survey results,\103\ however, a Ministry of Foreign 
Affairs spokesperson rejected the FCCC's findings.\104\ 
Additionally, in a July 2018 statement in response to Swedish 
media coverage of the case of Hong Kong bookseller Gui Minhai, 
the Chinese ambassador to Sweden referred to the ``so called'' 
FCCC as an ``unregistered illegal organization'' and stated 
that it ``lacks all legitimacy . . . and the reports it 
released are totally unreliable.'' \105\ [For more information 
on Gui Minhai, see text box titled ``Hong Kong Bookseller Gui 
Minhai Detained Again'' in Section VI--Developments in Hong 
Kong and Macau.]
    Additional instances of official harassment against foreign 
journalists continued in 2018, with reports of temporary 
detentions,\106\ physical assaults,\107\ and cancelling \108\ 
or refusing to issue visas.\109\ The government continued to 
block selected foreign media outlets' websites,\110\ and to 
obstruct some foreign media outlets from opening an office in 
China.\111\ Chinese officials abroad reportedly visited 
headquarters of foreign media outlets to reprimand these 
outlets for reporting they deemed to be unfavorable to 
China.\112\ Chinese authorities also detained China-based 
family members of journalists who report on China from abroad, 
acts that an American journalist described as aiming to ``mute 
criticism of China across the world . . ..'' \113\ In September 
2017, authorities in Guangzhou municipality, Guangdong 
province, reportedly took into custody Li Huaiping, wife of 
Chen Xiaoping--the editor-in-chief of a Chinese-language media 
outlet in New York--allegedly in connection with Chen's 
interviews with businessman Guo Wengui.\114\ Authorities in 
China also targeted six U.S.-based journalists who work for the 
Uyghur Service of Radio Free Asia (RFA), a news outlet in 
Washington, D.C., with the detention of more than two dozen of 
their family members who reside in the Xinjiang Uyghur 
Autonomous Region (XUAR).\115\ International advocacy groups 
and RFA linked the detentions in the XUAR to RFA Uyghur Service 
coverage of intensifying political control in the region.\116\ 
[For additional information on these detentions, see Section 
IV--Xinjiang.]

   Sharpening Cyberspace Goals, Regulating Online News and Expression

    Official statistics reported 772 million internet users in 
China as of December 2017, 97.5 percent of whom access the 
internet from mobile devices \117\ and use social media 
applications for communications, e-commerce, gaming, and video-
streaming, among other functions.\118\ Senior government and 
Party officials linked control of cyberspace to social 
stability, national security, economic development, and global 
power ambitions.\119\ U.S.-based experts emphasized ``the 
systems being put in place, . . . should be seen as a long-term 
effort to ensure that no online domain remains free from 
oversight.'' \120\ This past year, authorities continued to 
formulate new regulations \121\ to control and censor online 
news and media outlets, technology companies, and users of 
social media,\122\ and in the process, operationalize the PRC 
Cybersecurity Law.\123\ A media expert in Hong Kong observed 
that new regulations to consolidate Party power over cyberspace 
and expand control over individual users of social media are 
``one of the most specific indications we have yet of the 
Party's atomization and personalization of censorship, of the 
way the relationship between propaganda and the public is being 
transformed by digital communications.'' \124\ Examples from 
these regulatory measures include the following:

        <bullet> Under Article 4 of the Provisions on the 
        Administration of Internet Public Account Information 
        Services, both social media companies and individual 
        users are responsible for a ``correct orientation, 
        promot[ing] socialist core values, actively 
        cultivat[ing] healthy internet culture, and 
        safeguard[ing] a wholesome internet environment.'' 
        \125\
        <bullet> The Provisions on the Administration of 
        Internet Group Information Services stipulate in 
        Article 9 that administrators and creators of social 
        media groups are responsible for managing the group 
        chat, particularly the content expressed by members of 
        their respective chat groups.\126\ [For information on 
        ``legal education classes'' about these provisions held 
        at Tibetan Buddhist monasteries, see Section V--Tibet.]
        <bullet> The Measures for the Administration of Content 
        Management Practitioners Working for Internet News 
        Information Service Providers require 40 hours of 
        government-run training on ``socialist values,'' with 
        at least 10 hours of company-run training on ``Marxist 
        news values.'' \127\

                            Censored Content

    Chinese authorities continued to censor a broad range of 
news, academic and other publications, and social media 
discussion of topics which the government and Party deem to be 
politically ``sensitive.'' \128\ The Commission observed 
reports about censorship of topics relating to the ethnic 
minority autonomous areas of Tibet \129\ and Xinjiang; \130\ 
Taiwan \131\ and Hong Kong; \132\ the spiritual movement Falun 
Gong; \133\ and anniversaries of past events and persons.\134\ 
In November 2017, Radio Free Asia (RFA) reported on censorship 
directives instructing local media to first seek permission 
from provincial-level propaganda bureaus before publishing 
reports on topics such as elder care, healthcare, housing 
issues, education, and the stock market.\135\ Political 
perspectives that veered from the Party's ideological 
mainstream also were subject to censorship.\136\ In May 2018, 
authorities shut down Utopia, a website that espoused political 
positions aligned with Maoist or extreme ``leftist'' 
nationalism.\137\ Similarly, in July 2018, authorities ordered 
the closure of liberal think tank Unirule's office in Beijing 
municipality,\138\ and early in 2017 had shut down several 
websites and social media accounts linked to Unirule.\139\ 
Nevertheless, an essay written by a Tsinghua University 
professor that not only criticized Xi Jinping but also urged 
rectification of the 1989 Tiananmen protests was posted in late 
July to Unirule Perspectives, a Unirule website only available 
through circumvention tools.\140\
    Censorship of the news and social media commentary on the 
news was particularly intense this reporting year in connection 
with two major political events--the 19th National Congress of 
the Chinese Communist Party (19th Party Congress) in October 
2017 \141\ and the annual meetings (Two Sessions) of the 
National People's Congress and its advisory body, the Chinese 
People's Political Consultative Conference, in March 2018.\142\ 
Official censorship of both events restricted coverage of a 
wide range of political issues concerning policy, personnel 
changes in senior Party and government leadership, and 
constitutional amendments.\143\ The lack of in-depth domestic 
coverage or government transparency in China led one foreign 
journalist to proclaim the impossibility of ``know[ing] 
anything about high-level Chinese politics.'' \144\ China 
Digital Times (CDT), a U.S.-based Web portal which provides 
translations of leaked censorship directives from the Central 
Propaganda Department and other government entities, observed a 
decrease in the number of directives it received from contacts 
within China in 2017.\145\ One factor of the decline, according 
to CDT, was the potential jeopardy media professionals with 
access to such information might encounter.\146\

                       Citizens' Free Expression


                       PUBLIC OPINION PUSHES BACK

    Social media platforms continued to be an everyday channel 
of expression for Chinese citizens, particularly a more 
socially and technically engaged younger generation,\147\ to 
discuss concerns about a range of news events and public 
interest issues.\148\ As China law scholar Eva Pils has argued, 
the Party's emphasis on control of expression through 
``persuasion, coercion and intimidation'' \149\ reflects, in 
part, the realization that it cannot entirely control public 
opinion.\150\ This past year, social media users raised a broad 
range of concerns, such as sexual harassment on Chinese 
university campuses; \151\ racism on television; \152\ and the 
forced eviction of thousands of non-local residents from 
Beijing municipality.\153\ Social media users objected to the 
removal of presidential term limits from China's Constitution, 
with many posts in protest of President and Party General 
Secretary Xi Jinping's consolidation of power.\154\ In April 
2018, Sina Weibo, a Twitter-like messaging platform, rescinded 
a plan \155\ to censor LGBT content as part of an online 
``clean-up'' campaign after drawing considerable public 
criticism online.\156\ In contrast, following official censure 
of the humor shared among its users,\157\ the technology 
company ByteDance shut down its popular application Neihan 
Duanzi,\158\ and pledged to adhere to ideological values and 
regulatory standards.\159\ [For more information on technology 
companies' compliance with censorship controls, see Section 
III--Commercial Rule of Law and Human Rights.]

                    PUNISHING FREEDOM OF EXPRESSION

    The Commission observed a wide range of cases that 
illustrated the Chinese government and Communist Party's 
violations of international human rights standards and 
provisions in China's Constitution on the right to freedom of 
expression discussed earlier in this section. In addition to 
freedom of speech concerns, the following cases intersect, 
respectively, with violations of the right to freedom of 
movement; \160\ the right to freedom of association, including 
online association; \161\ the right to enjoy the use of one's 
own ethnic minority language; \162\ and--in connection to yet 
another case in which a Chinese advocate died while 
``released'' on medical parole \163\--the right to medical 
treatment while in detention.\164\

        <bullet> Restricted overseas travel. Authorities 
        reportedly prevented novelist Jia Pingwa from traveling 
        to New York City in January 2018 to attend the Modern 
        Language Association's (MLA) annual conference.\165\ An 
        interview with Jia and a conference panel featuring his 
        literary work in translation, including his previously 
        banned novel ``Ruined City,'' had been scheduled for 
        the MLA conference.\166\
        <bullet> Detentions. In April 2018, public security 
        authorities from multiple locations in China criminally 
        detained 8 administrators of the National Tourism Chat 
        Group--a group of more than 100 members hosted on 
        social media platform WeChat that reportedly organized 
        humanitarian support for family members of political 
        prisoners.\167\ As of June 2018, authorities had 
        formally arrested Guo Qingjun, one of the WeChat 
        group's administrators.\168\
        <bullet> Criminal sentence. In May 2018, the Yushu 
        (Yulshul) Intermediate People's Court in Yushu 
        (Kyegudo) municipality, Yushu Tibetan Autonomous 
        Prefecture, Qinghai province, sentenced Tashi Wangchug, 
        a Tibetan language rights advocate, to five years in 
        prison on the charge of ``inciting separatism.'' \169\ 
        A New York Times video from November 2015 that 
        portrayed his advocacy efforts reportedly was used in 
        trial as evidence against him.\170\ The Qinghai High 
        People's Court in Xining municipality reportedly 
        rejected Tashi Wangchug's appeal on August 13, 
        2018.\171\
        <bullet> Death while on medical parole. Yang Tongyan 
        (pen name: Yang Tianshui) died on November 5, 2017, of 
        brain cancer while on medical parole.\172\ At the time 
        of his death, Yang was nearing completion of a 12-year 
        prison sentence on the charge of ``subversion of state 
        power'' in connection to his writing and democracy 
        activities.\173\ Yang reportedly did not receive 
        adequate medical care during his years in 
        detention.\174\ Like Liu Xiaobo,\175\ authorities 
        cremated Yang's body and buried him at sea.\176\

           DETENTIONS IN THE AFTERMATH OF LIU XIAOBO'S DEATH

    The July 2017 death of writer and Nobel Peace Prize 
laureate Liu Xiaobo--while serving an 11-year prison sentence 
\177\--continued to reverberate in the detentions of his widow 
Liu Xia and persons who attempted to honor his life. Liu Xia, 
an artist and poet, remained under forced confinement at home 
\178\ until July 10, 2018, when she left China and traveled to 
Germany.\179\ Numerous reports documented the worsening of Liu 
Xia's physical and emotional health \180\ during the nearly 
eight years authorities held her in arbitrary, extrajudicial 
detention.\181\ While welcoming her release, rights advocates 
nevertheless expressed concern that Liu's freedom of speech 
outside of China might be compromised because the Chinese 
government did not allow her brother Liu Hui to leave China 
with her.\182\ In the months after Liu Xiaobo's death, 
authorities detained at least 14 persons who participated in 
``sea memorials'' in memory of Liu Xiaobo \183\ in 
Guangdong,\184\ Fujian,\185\ and Liaoning provinces.\186\ 
Authorities also detained others who paid tribute to Liu 
Xiaobo, including poet Wu Mingliang \187\ and his associate 
Peng Heping; \188\ songwriters Xu Lin and Liu Sifang; \189\ and 
artist and French citizen Hu Jiamin.\190\


                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression
    Notes to Section II--Freedom of Expression

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) on 
10 December 48, art. 19.
    \2\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights (ICCPR), last 
visited 13 July 18. China signed the ICCPR on October 5, 1998.
    \3\ State Council Information Office, ``National Human Rights 
Action Plan (2016-2020),'' 29 September 16, sec. V; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 13 July 18.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(3); UN Human Rights Council, Report of 
the Special Rapporteur on the Promotion and Protection of the Right to 
Freedom of Opinion and Expression, Frank La Rue, A/HRC/17/27, 16 May 
11, para. 24.
    \5\ Promotion and Protection of All Human Rights, Civil, Political, 
Economic, Social and Cultural Rights, Including the Right to 
Development, adopted by Human Rights Council resolution 12/16, A/HRC/
RES/12/16, 12 October 09, para. 5(p)(i).
    \6\ UN Human Rights Committee, General Comment No. 34, Article 19, 
Freedom of Opinion and Expression, CCPR/C/GC/34, 12 September 11, para. 
21.
    \7\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18.
    \8\ Chris Buckley, ``China Gives Communist Party More Control Over 
Policy and Media,'' New York Times, 21 March 18; Pei Li and Christian 
Shepherd, ``China Tightens Grip on Media With Regulator Reshuffle,'' 
Reuters, 21 March 18; ``China's Communist Party Takes (Even More) 
Control of the Media,'' Asia Society, ChinaFile, 11 April 18.
    \9\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 1(11)-(12); ``Major Reshuffle at SAPPRFT, 
Tight Unification Under Central Propaganda Department'' [Zhongguo 
guangbo dianshi da xipai zhongxuanbu yanmi da yitong], Radio Free Asia, 
21 March 18; David Bandurski, ``When Reform Means Tighter Controls,'' 
University of Hong Kong, Journalism & Media Studies Centre, China Media 
Project, 22 March 18.
    \10\ Anne-Marie Brady, Marketing Dictatorship: Propaganda and 
Thought Work in Contemporary China (Lanham, MD: Rowman & Littlefield, 
2008), 13-15, 19, 24-25; David Shambaugh, ``China's Propaganda System: 
Institutions, Processes and Efficiency,'' China Journal, No. 57 
(January 2007), 25, 28-29.
    \11\ Anne-Marie Brady, Marketing Dictatorship: Propaganda and 
Thought Work in Contemporary China (Lanham, MD: Rowman & Littlefield, 
2008), 14-16.
    \12\ ``China's Communist Party Takes (Even More) Control of the 
Media,'' Asia Society, ChinaFile, 11 April 18.
    \13\ Ibid. See also Xia Kangjian, ``Three Outlets Merging Into One 
Consistent With Broadcasting Trends'' [San tai hebing shunying chuanbo 
guilu], People's Daily, Central Kitchen, 27 March 18.
    \14\ ``Major Reshuffle at SAPPRFT, Tight Unification Under Central 
Propaganda Department'' [Zhongguo guangbo dianshi da xipai zhongxuanbu 
yanmi da yitong], Radio Free Asia, 21 March 18; Rogier Creemers et al., 
``China's Cyberspace Authorities Set To Gain Clout in Reorganization,'' 
New America, DigiChina (blog), 26 March 18.
    \15\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 8.
    \16\ Bill Ide and Brian Kopczynski, ``China's Communist Party 
Tightens Grip on Media, Message,'' Voice of America, 29 March 18; 
``China's Communist Party Takes (Even More) Control of the Media,'' 
Asia Society, ChinaFile, 11 April 18.
    \17\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(35).
    \18\ Ibid.; ``Major Reshuffle at SAPPRFT, Tight Unification Under 
Central Propaganda Department'' [Zhongguo guangbo dianshi da xipai 
zhongxuanbu yanmi da yitong], Radio Free Asia, 21 March 18.
    \19\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(36); ``Actually, `Central Radio and 
Television Network's' Official English Name Is This!'' [Yuanlai, 
``zhongyang guangbo dianshi zongtai'' de guanfang yingwen ming shi 
zhege!], 16 April 18; ``Major Reshuffle at SAPPRFT, Tight Unification 
Under Central Propaganda Department'' [Zhongguo guangbo dianshi da 
xipai zhongxuanbu yanmi da yitong], Radio Free Asia, 21 March 18; 
``Creation of Comprehensive Central Broadcast Agency, Removing Central 
TV and Radio Organizational Structures'' [Zujian zhongyang guangbo 
dianshi zongtai, chexiao yangshi, yangguang deng jianzhi], Xinhua, 
reprinted in The Paper, 21 March 18.
    \20\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(36); ``China Creates World's Largest 
Propaganda Apparatus `Voice of China' '' [Zhongguo dazao quanqiu zui da 
xuanchuan jiqi ``zhongguo zhi sheng''], Radio Free Asia, 21 March 18; 
Keith Zhai, ``China Approves Giant Propaganda Machine To Improve Global 
Image,'' Bloomberg, 20 March 18; Emily Feng, ``China To Create Global 
Broadcast Champion,'' Financial Times, 21 March 18.
    \21\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(36).
    \22\ Ibid., sec. 1(4); Zheng Yanzhi, `` `Small Groups' Become 
`Commissions,' It's Transcendence as Much as Status Elevation!'' 
[``Xiaozu'' bian ``weiyuanhui,'' jishi shengge, gengshi shenghua!], 
People's Daily, 29 March 18.
    \23\ Rogier Creemers et al., ``China's Cyberspace Authorities Set 
To Gain Clout in Reorganization: `Leading Group' for Cybersecurity and 
Informatization Upgraded to `Commission,'' New America, DigiChina 
(blog), 26 March 18. See also Paul Triolo et al., ``Xi Jinping Puts 
`Indigenous Innovation' and `Core Technologies' at the Center of 
Development Priorities,'' New America, DigiChina (blog), 1 May 18.
    \24\ Rogier Creemers et al., ``China's Cyberspace Authorities Set 
To Gain Clout in Reorganization: `Leading Group' for Cybersecurity and 
Informatization Upgraded to `Commission,' '' New America, DigiChina 
(blog), 26 March 18. For more information about the Cyberspace 
Administration of China, see CECC, Annual Report 2016, 6 October 16, 
66-67.
    \25\ ``Party Media Is Surnamed Party and Politicians Run 
Newspapers, Xi Jinping's News Thought Fully Baked'' [Dangmei xing dang 
yu zhengzhijia banbao xi jinping xinwen sixiang chulu], Duowei, 14 June 
18; David Bandurski, ``Mirror, Mirror on the Wall,'' University of Hong 
Kong, Journalism & Media Studies Centre, China Media Project, 22 
February 16; Anne-Marie Brady, Marketing Dictatorship: Propaganda and 
Thought Work in Contemporary China (Lanham, MD: Rowman & Littlefield, 
2008), 46. According to Bandurski, former Chinese Communist Party 
leaders' pronouncements, such as Mao Zedong's injunction that 
``politicians run the newspapers,'' Jiang Zemin's ``guidance of public 
opinion,'' and Hu Jintao's ``channeling of public opinion,'' illustrate 
the Party's expectation that the media serve as its ``mouthpiece'' and 
shaper of public opinion. Brady, moreover, notes that in the wake of 
the violent suppression of the 1989 Tiananmen protests, newly appointed 
Central Propaganda Department head Li Ruihuan repeated the mandate that 
``politicians run newspapers.'' See also Luwei Rose Luqiu, ``How To Be 
a Journalist in China: A Personal Reflection,'' University of 
Nottingham, Asia Research Institute, Asia Dialogue, 2 May 17.
    \26\ `` `Xi Jinping's Talks on the Media (2018 Edition)' Published 
and Released'' [``Xi jinping xinwen sixiang jiangyi (2018 nian ban)'' 
chuban faxing], Xinhua, 14 June 18.
    \27\ ``Party Media Surnamed Party and Politicians Run Newspapers, 
Xi Jinping's News Thought Fully Baked'' [Dangmei xing dang yu 
zhengzhijia banbao xi jinping xinwen sixiang chulu], Duowei, 14 June 
18. See also CECC, 2016 Annual Report, 6 October 16, 61.
    \28\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(35).
    \29\ Ibid., sec. 3(36). For an unofficial translation of the media-
related items, see David Bandurski, ``When Reform Means Tighter 
Controls,'' University of Hong Kong, Journalism & Media Studies Centre, 
China Media Project, 22 March 18.
    \30\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(36); Zhang Tianpei, ``Three Platforms 
Combine Into One, Emitting an Even Stronger `Voice of China' '' [San 
tai heyi, fachu geng qiang ``zhongguo zhi sheng''], People's Daily, 2 
April 18.
    \31\ ``China Creates World's Largest Propaganda Apparatus `Voice of 
China' '' [Zhongguo dazao quanqiu zui da xuanchuan jiqi ``zhongguo zhi 
sheng''], Radio Free Asia, 21 March 18; Keith Zhai, ``China Approves 
Giant Propaganda Machine To Improve Global Image,'' Bloomberg, 20 March 
18; Emily Feng, ``China To Create Global Broadcast Champion,'' 
Financial Times, 21 March 18.
    \32\ ``China Creates World's Largest Propaganda Apparatus `Voice of 
China' '' [Zhongguo dazao quanqiu zui da xuanchuan jiqi ``zhongguo zhi 
sheng''], Radio Free Asia, 21 March 18.
    \33\ `` `News Tyrant' Tuo Zhen Appointed `People's Daily' Editor-in 
Chief'' [``Meiti baojun'' tuo zhen shengren ``renmin ribao'' zongbian], 
Radio Free Asia, 4 April 18; ``Tuo Zhen: New People's Daily Editor-in-
Chief Made His Name by Rectifying the Media'' [Tuo zhen: yi zhengdun 
meiti wenming de renmin ribao xin zongbian], BBC, 4 April 18.
    \34\ Freedom House, ``Special Feature: The `Southern Weekly' 
Controversy,'' 18 January 13; Maria Repnikova and Kecheng Fang, 
``Behind the Fall of China's Greatest Newspaper,'' Foreign Policy, Tea 
Leaf Nation (blog), 29 January 15; Gloria Wong, ``Censorship Meets Rare 
Defiance as Journalists Strike in China,'' Global Voices, 8 January 13.
    \35\ Helen Gao, ``The Demise of Watchdog Journalism in China,'' New 
York Times, 27 April 18.
    \36\ Graeme Smith, ``The Thought and Messaging of Xi Jinping,'' 
Lowy Institute, The Interpreter, 8 August 17; Zheping Huang, ``Today's 
Front Pages in China Are All the Same,'' Quartz, 26 October 17; 
``Discourse Climate Report: April 2018,'' University of Hong Kong, 
Journalism & Media Studies Centre, China Media Project, 2 May 18; David 
Bandurski, ``Discourse Climate Report: June 2018,'' University of Hong 
Kong, Journalism & Media Studies Centre, China Media Project, 24 July 
18. See also Qian Gang, ``Qian Gang Exclusive: Report on Discourse in 
2017, Part 1: The System of `Xi's Discourse' Is Established'' [Qian 
gang zhuanwen: 2017 yuxiang baogao yi ``xi yu'' tixi queli], Storm 
Media, 6 January 18.
    \37\ Lin Feng, ``People's Daily Three Critiques of Hyperbolic and 
Boastful Writing, Number 1: Don't You Know How To Write an Essay?'' 
[Renmin wang san ping fukua zida wenfeng zhi yi: wenzhang buhui xie le 
ma?], People's Daily, 2 July 18; You Guan, ``People's Daily Three 
Critiques of Hyperbolic and Boastful Writing, Number 2: Do the Chinese 
Lack Self-Confidence?'' [Renmin wang san ping fukua zida wenfeng zhi 
er: zhongguo ren bu zixin le ma?], People's Daily, 3 July 18; Ai Wu, 
``People's Daily Three Critiques of Hyperbolic and Boastful Writing, 
Number 3: Is Style a Trivial Matter?'' [Renmin wang san ping fukua zida 
wenfeng zhi san: wenfeng shi xiao shi ma?], People's Daily, 4 July 18. 
For unofficial translations of and commentary on the three People's 
Daily articles, see Geremie R. Barme ``Mendacious, Hyperbolic & 
Fatuous--An Ill Wind From People's Daily,'' China Heritage, Watching 
China Watching, 10 July 18.
    \38\ Chris Buckley, ``As China's Woes Mount, Xi Jinping Faces Rare 
Rebuke at Home,'' New York Times, 31 July 18; Nectar Gan, ``China Names 
Former Internet Tsar Xu Lin as New International Propaganda Chief,'' 
South China Morning Post, 21 August 18.
    \39\ Chris Buckley, ``China Enshrines `Xi Jinping Thought,' 
Elevating Leader to Mao-Like Status,'' New York Times, 24 October 17.
    \40\ Geremie R. Barme, ``Mendacious, Hyperbolic & Fatuous--An Ill 
Wind From People's Daily,'' China Heritage, Watching China Watching, 10 
July 18; Nectar Gan, ``China Names Former Internet Tsar Xu Lin as New 
International Propaganda Chief,'' South China Morning Post, 21 August 
18.
    \41\ Reporters Without Borders, ``World Press Freedom Index,'' last 
visited 26 April 18, Index details--China; Reporters Without Borders, 
``RSF Index 2018: Asia-Pacific Democracies Threatened by China's Media 
Control Model,'' 25 April 18.
    \42\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 14 July 18, sec. D1.
    \43\ International Federation of Journalists, ``China Press Freedom 
Report 2017 Ten-Year Edition: A Decade of Decline,'' February 2018.
    \44\ Committee to Protect Journalists, ``41 Journalists Imprisoned 
in China in 2017,'' last visited 26 April 18.
    \45\ Hong Kong Journalists Association, ``Public Evaluation of Hong 
Kong Press Freedom Drops to New Low,'' 11 April 18. The survey was 
conducted in January and February 2018.
    \46\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, 11 March 18, art. 35.
    \47\ Zhang Jingjing, ``Why Don't We Have a `National Press Law'?--
Thoughts on China's News Broadcasting Legislative Research'' [Women wei 
shenme mei you ``xinwen fa''?--fansi woguo xinwen chuanbo lifa yanjiu], 
Shandong Institute of Politics and Law, Journal of Political Science 
and Law, No. 1 (2014).
    \48\ Luwei Rose Luqiu, ``How To Be a Journalist in China: A 
Personal Reflection,'' University of Nottingham, Asia Research 
Institute, Asia Dialogue, 2 May 17.
    \49\ Verna Yu, ``China's New Media Strategy: The Case of Liu 
Xiaobo,'' The Diplomat, 28 July 17; Matt Schrader, ``Pre-suasion: How 
the PRC Controls the Message on a Sino-US Trade War,'' Jamestown 
Foundation, China Brief, Vol. 18, Issue 6, 9 April 18, 1-3. See also UN 
Human Rights Council (HRC), Tenth Anniversary Joint Declaration: Ten 
Key Challenges to Freedom of Expression in the Next Decade, Addendum to 
Report of the Special Rapporteur on the Promotion and Protection of the 
Rights to Freedom of Opinion and Expression, A/HRC/14/23/Add.2, 25 
March 10, art. 1(a). In the UN HRC's Tenth Anniversary Joint 
Declaration on freedom of expression, international experts cautioned 
that media serving ``as government mouthpieces instead of as 
independent bodies operating in the public interest'' are a major 
challenge to free expression.
    \50\ Matt Schrader, ``Pre-suasion: How the PRC Controls the Message 
on a Sino-US Trade War,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 6, 9 April 18, 1.
    \51\ China Digital Times, ``Minitrue: Control Coverage, Commentary 
on Evictions,'' 28 November 17; ``China Cracks Down on Reporting of 
Mass Evictions in Beijing,'' Radio Free Asia, 29 November 17.
    \52\ Tom Phillips, ``The Gentrification of Beijing: Razing of 
Migrant Villages Spells End of China Dream,'' Guardian, 7 December 17; 
Chris Buckley, ``Why Parts of Beijing Look Like a Devastated War 
Zone,'' New York Times, 30 November 17.
    \53\ Jiang Chenglong and Cui Jia, ``Beijing Continues Its Safety 
Crackdown in Wake of Fire,'' China Daily, 27 November 17; ``The Making 
of the `Low-End Population,' '' University of Hong Kong, Media & 
Journalism Studies Centre, China Media Project, 30 November 17.
    \54\ Tiffany May, ``10 Years Ago in Sichuan, a Quake Killed 69,000, 
Should China Be Thankful?'' New York Times, 10 May 18. See also China 
Digital Times, ``Phrase of the Week: Tearfully Urge,'' 10 May 18; 
Christian Sorace, ``Be Grateful to the Party! How To Behave in the 
Aftermath of a Disaster,'' Made in China, Vol. 3, No. 1 (January-March 
2018), 52-55; Luwei Rose Luqiu, ``How To Be a Journalist in China: A 
Personal Reflection,'' University of Nottingham, Asia Research 
Institute, Asia Dialogue, 2 May 17.
    \55\ Safeguard Defenders, ``Scripted and Staged: Behind the Scenes 
of China's Forced TV Confessions,'' April 2018, 10, 15. According to 
Safeguard Defenders, ``They are people whom the CCP typically perceives 
as its enemies or critics and are usually charged with national 
security crimes . . . or social order violations . . ..'' See also 
Verna Yu, ``China's New Media Strategy: The Case of Liu Xiaobo,'' The 
Diplomat, 28 July 17.
    \56\ Safeguard Defenders, ``Scripted and Staged: Behind the Scenes 
of China's Forced TV Confessions,'' April 2018, 4-5, 11.
    \57\ Helen Gao, ``The Demise of Watchdog Journalism in China,'' New 
York Times, 27 April 18; Graeme Smith, ``The Thought and Messaging of 
Xi Jinping,'' Lowy Institute, The Interpreter, 8 August 17.
    \58\ Helen Gao, ``The Demise of Watchdog Journalism in China,'' New 
York Times, 27 April 18; ``Too Much Government Interference, China's 
Investigative Journalists' Predicament That Both Advancing and 
Retreating Are Difficult'' [Zhengfu ganyu tai duo zhongguo diaocha 
jizhe jintui liang nan], Radio Free Asia, 4 December 17.
    \59\ ``Initial Release of `Chinese News Professionals' Annual 
Observers' Report for 2017'' [``Zhongguo xinwenye niandu guancha baogao 
2017'' shoufa], NetEase Journalism Institute, 26 November 17; ``Too 
Much Government Interference, China's Investigative Journalists' 
Predicament That Both Advancing and Retreating Are Difficult'' [Zhengfu 
ganyu tai duo zhongguo diaocha jizhe jintui liang nan], Radio Free 
Asia, 4 December 17.
    \60\ Helen Gao, ``The Demise of Watchdog Journalism in China,'' New 
York Times, 27 April 18; ``Too Much Government Interference, China's 
Investigative Journalists' Predicament That Both Advancing and 
Retreating Are Difficult'' [Zhengfu ganyu tai duo zhongguo diaocha 
jizhe jintui liang nan], Radio Free Asia, 4 December 17.
    \61\ Zheng Jiawen, ``China's Young Journalists Are Giving Up Before 
They Even Begin,'' Sixth Tone, 22 January 18.
    \62\ ``Mainland `Legal Evening News' Investigative Unit Faces 
Disbanding, Many Journalists Quit'' [Dalu ``fazhi wangbao'' shendu bu 
chuan zao caiche dapi jizhe lizhi], Duowei, 28 May 18; Graeme Smith, 
``The Thought and Messaging of Xi Jinping,'' Lowy Institute, The 
Interpreter, 8 August 17.
    \63\ See, e.g., ``Mainland `Legal Evening News' Investigative Unit 
Faces Disbanding, Many Journalists Quit'' [Dalu ``fazhi wangbao'' 
shendu bu chuan zao caiche dapi jizhe lizhi], Duowei, 28 May 18; Austin 
Ramzy, ``Ex-News Executive in China Gets 4-Year Sentence for 
Extortion,'' New York Times, 24 December 15; Hu Yong, `` `A Power 
Capable of Making Us Weep': Journalism Under Attack,'' Asia Society, 
ChinaFile, 20 October 14.
    \64\ ``Mainland `Legal Evening News' Investigative Unit Faces 
Disbanding, Many Journalists Quit'' [Dalu ``fazhi wangbao'' shendu bu 
chuan zao caiche dapi jizhe lizhi], Duowei, 28 May 18; ``China Spikes 
In-Depth Section of Top Legal Newspaper,'' Radio Free Asia, 29 May 18.
    \65\ ``Current Affairs Commentator Chen Jieren's Articles Blew 
Whistle on Officials, Subsequently Six Detained, Including Family and 
Friends'' [Shiping ren chen jieren zhuanwen jubao guanyuan zhulian 
qinyou liu ren bei zhua], Radio Free Asia, 11 July 18. For more 
information on Chen Jieren and several cases associated with his 
detention, see the Commission's Political Prisoner Database records 
2018-00318 on Chen Jieren, 2018-00319 on Deng Jiangxiu, 2018-00320 on 
Chen Weiren, and 2018-00321 on Chen Minren.
    \66\ ``Detained Journo Confesses He's `Internet Pest' That 
Exaggerated Government's Problems,'' Global Times, 16 August 18; ``From 
`Internet Big V' to `Internet Pest'--Examination of Case of Chen 
Jieren, Suspected of Extortion and Illegal Business Activities'' [Cong 
``wangluo da V'' dao ``wangluo haichong''--chen jieren shexian qiaozha 
lesuo, feifa jingying zui anjian toushi], Xinhua, 16 August 18; 
``Maliciously Hyping and Provoking Trouble, Frenzied Profiteering 
Through Extortion'' [E'yi chaozuo zishi fengkuang qiaozha liancai], 
People's Daily, 17 August 18. For an English translation of the 
People's Daily article with commentary on Chen Jieren's case, see David 
Bandurski, ``Trial By Invective,'' University of Hong Kong, Journalism 
& Media Studies Centre, China Media Project, 18 August 18.
    \67\ David Bandurski, ``Mirror, Mirror on the Wall,'' University of 
Hong Kong, Journalism & Media Studies Centre, China Media Project, 22 
February 16; Li-Fung Cho, ``The Emergence of China's Watchdog 
Reporting,'' in Investigative Journalism in China: Eight Cases in 
Chinese Watchdog Journalism, eds. David Bandurski and Martin Hala (Hong 
Kong: Hong Kong University Press, 2010), 165-67. See also CECC, 2016 
Annual Report, 6 October 16, 62-63.
    \68\ Committee to Protect Journalists, ``41 Journalists Imprisoned 
in China in 2017,'' last visited 26 April 18.
    \69\ Ibid.; Reporters Without Borders, ``RSF Index 2018: Asia-
Pacific Democracies Threatened by China's Media Control Model,'' 25 
April 18.
    \70\ Committee to Protect Journalists, ``41 Journalists Imprisoned 
in China in 2017,'' last visited 26 April 18. The Committee to Protect 
Journalists identified 14 ethnic Uyghurs in its list of 41 detained or 
imprisoned journalists in China.
    \71\ UN Human Rights Committee, General Comment No. 34, Article 19, 
Freedom of Opinion and Expression, CCPR/C/GC/34, 12 September 11, para. 
44. The UN Human Rights Committee has noted that, ``Journalism is a 
function shared by a wide range of actors, including professional full-
time reporters and analysts, as well as bloggers and others who engage 
in forms of self-publication in print, on the internet or elsewhere . . 
..''
    \72\ China Labour Bulletin, ``Lu Yuyu and Li Tingyu, the Activists 
Who Put Non News in the News,'' 18 August 17. For examples of labor 
protests reportedly censored during the Commission's 2018 reporting 
year, see, e.g., Mimi Lau and He Huifeng, ``Why Protests by China's 
Truck Drivers Could Put the Brakes on the Economy,'' South China 
Morning Post, 24 June 18; China Labour Bulletin, ``Teachers Protest in 
Anhui Focuses Attention on Long-standing Inequalities,'' 31 May 18.
    \73\ Rights Defense Network, ``Beijing Artist Hua Yong on the Run 
in China `Only for Doing What Journalists Should Do but Dare Not Do' '' 
[Beijing huajia hua yong ``zhi yin ganle jizhe yinggai gan er bugan gan 
de huo'' er congcong taowang zai zuguo de dadi shang], 9 December 17.
    \74\ ``Year-End Report: Over Past Year, China Severely Cracked Down 
on Rights Defenders' Websites and Online Speech'' [Nianzhong baodao: 
zhongguo guoqu yi nian yanli fengsha weiquan wangzhan ji wangyan], 
Voice of America, 11 December 17.
    \75\ Ibid.; Chinese Human Rights Defenders, `` `They Target My 
Human Rights Work as a Crime': Annual Report on the Situation of Human 
Rights Defenders in China (2016),'' February 2017, 22.
    \76\ PEN America, ``Forbidden Feeds: Government Controls on Social 
Media in China,'' 13 March 18, 50.
    \77\ ``Enmeshed in the `December 25 Case Group,' Huang Yongxiang of 
Guangdong Formally Criminally Detained'' [Juanru ``1225 zhuan'an'' 
guangdong huang yongxiang bei zhengshi xingju], Radio Free Asia, 11 May 
18; Chinese Human Rights Defenders, ``Xi Jinping's `Cyber Sovereignty' 
Fast Eroding Space for Free Expression,'' 19 April 18.
    \78\ ``Enmeshed in the `December 25 Case Group,' Huang Yongxiang of 
Guangdong Formally Criminally Detained'' [Juanru ``1225 zhuan'an'' 
guangdong huang yongxiang bei zhengshi xingju], Radio Free Asia, 11 May 
18; Chinese Human Rights Defenders, `` `They Target My Human Rights 
Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017.
    \79\ ``Zhen Jianghua Not Released 37 Days After Criminal Detention, 
Many Rights Defenders Subjected to Stability Maintenance Measures Due 
to 19th Party Congress'' [Zhen jianghua xingju 37 tian qiman wei huoshi 
duo wei weiquan renshi yin shijiu da bei weiwen], China Free Press, 9 
October 17; Human Rights Campaign in China, ``In Case Concerning Zhen 
Jianghua, Whom Zhuhai Government Detained on Inciting Subversion of 
State Power Charge, Sister Summoned by Jiangmen PSB, State Security 
Officials Warned Her, Saying Her Article Affected Police Efforts To 
Gather Evidence'' [Bei zhuhai dangju yi shandong dianfu guojia 
zhengquan zui jiya de zhen jianghua qi jiejie zao jiangmen gong'anju 
chuanxun guobao jinggao shuo ta wenzhang yingxiang jingfang souzheng], 
29 September 17. For more information on Zhen Jianghua, see the 
Commission's Political Prisoner Database record 2017-00360.
    \80\ Human Rights Watch, ``China: Free Anti-Censorship Activist,'' 
2 April 18.
    \81\ Ibid.
    \82\ Civil Rights & Livelihood Watch, ``Authorities Secretly Tried 
Zhen Jianghua, Netizens Say It Shows [Authorities'] Guilty Mind'' 
[Dangju mimi shenpan zhen jianghua wangyou zhihu xinxu], 5 September 
18.
    \83\ Catherine Lai, ``How China's Multi-pronged Crackdown on 
Dissent Took Aim at Citizen Journalists and Rights Defence Websites,'' 
Hong Kong Free Press, 16 February 18. For more information, see the 
Commission's Political Prisoner Database records 2004-04053 on Huang Qi 
and 2016-00460 on Liu Feiyue.
    \84\ Rights Defense Network, ``CRLW Founder Liu Feiyue's Case Goes 
to Court Today, Many Citizens Who Came To Watch Were Seized and Sent 
Back'' [Minsheng guancha chuangban ren liu feiyue jin kaiting zhong 
gongmin qianwang weiguan zao kouya qianfan], 7 August 18.
    \85\ Rights Defense Network, ``Huang Qi Trial Continues To Be 
Postponed, Suffering Life-Threatening Illness Without Medical Parole, 
His Mother Pu Wenqing Again Faces Probe by Original Work Unit, Calls 
Out That She Wants To Live To See Son'' [Huang qi an jiutuo bushen huan 
zhiming jibing wufa baowai muqin pu wenqing you zao yuan danwei tancha 
yu yao huozhe jian dao erzi], 18 August 18.
    \86\ ``Ding Lingjie Incommunicado for Nearly 1 Month, Lawyer 
Attempts To Meet With Her and Is Refused'' [Ding lingjie shilian jiejin 
1 ge yue lushi xunqiu huijian bei ju], Radio Free Asia, 18 October 17; 
Rights Defense Network, ``Detained Editor of `Civil Rights and 
Livelihood' Ding Lingjie Finally Able To Meet With Lawyer'' [Bei jiya 
de ``mingsheng guangcha'' wangbian ding lingjie zhong huo huijian 
lushi], 9 November 17. For more information about Ding Lingjie, see the 
Commission's Political Prisoner Database record 2017-00328.
    \87\ Rights Defense Network, ``64 Tianwang Volunteer and Rights 
Defender From Ya'an, Sichuan, Jiang Chengfen, Accused of Picking 
Quarrels and Provoking Trouble, Sentenced to 2 Years and 6 Months'' 
[Liusi tianwang yigong, sichuan ya'an weiquan renshi jiang chengfen bei 
kong xunxin zishi huoxing 2 nian 6 ge yue], 20 June 18. For more 
information on Jiang Chengfen, see the Commission's Political Prisoner 
Database record 2018-00314.
    \88\ Chinese Human Rights Defenders, ``Wang Jing,'' 6 December 17. 
For more information about Wang Jing, see the Commission's Political 
Prisoner Database record 2014-00104.
    \89\ Rights Defense Network, ``Case of 3 Persons--Huang Qi, Chen 
Tianmao, and Yang Xiuqiong--on Suspicion of `Illegally Providing State 
Secrets Overseas' Postponed'' [Huang qi, chen tianmao, yang xiuqiong 3 
ren shexian ``feifa wei jingwai tigong guojia mimi zui'' an zao yanqi], 
16 June 18. For more information about Chen Tianmao, see the 
Commission's Political Prisoner Database record 2013-00063.
    \90\Ibid. For more information about Yang Xiuqiong, see the 
Commission's Political Prisoner Database record 2016-00464.
    \91\ ``CCTV Journalist `Detained' During Undercover Interview! This 
Evening, the Evildoing of a Company With 4.5 Billion [Yuan] in Assets 
Is Clear to the World'' [Yangshi jizhe anfang zao ``kouya''! jinye, yi 
ge 45 yi zichan de da gongsi e'xing anran tianxia], CCTV 2, 18 April 
18; David Bandurski, ``Will China's President Be Informed?'' University 
of Hong Kong, Media & Journalism Studies Centre, China Media Project, 3 
March 18; Ma Diming, ``Journalists on Undercover Investigation Are 
Beaten, Supervision by Public Opinion Harmed'' [Anfang jizhe zao da 
yulun jiandu shoushang], Beijing News, 2 February 18.
    \92\ Wang Yu, ``Shaanxi Journalist on Assignment Surrounded and 
Beaten, Locked Up in Mortuary'' [Shaanxi jizhe caifang zao wei'ou bei 
suo taipingjian], Beijing News, 6 December 17; Chen Huidong, ``Xi'an 
Journalist Beaten While Investigating Hospital's `Sky-High Mortuary 
Fee,' Hospital Director Suspended and Six Staff in Custody'' [Xi'an 
jizhe caifang yiyuan ``tianjia ting shi fei'' zao ouda: yuanzhang bei 
tingzhi liu ren bei ju], Jiemian News, 5 December 17.
    \93\ Anjani Trivedi and Julie Steinberg, ``How China's Acquisitive 
HNA Group Fell From Favor,'' Wall Street Journal, 19 November 17; Keith 
Bradsher and Alexandra Stevenson, ``Beijing Takes Over Anbang, Insurer 
That Owns Waldorf Astoria,'' New York Times, 22 February 18.
    \94\ `` `Southern Weekend' Immediately Withdraws Special Coverage 
of HNA, Exposing Financial Crisis, Author Posted Article Online'' 
[``Nanzhou'' haihang zhuanti zao linshi chegao jie caiwu weiji zuozhe 
wangshang kandeng ren zhuanzai], Ming Pao, 9 February 18; International 
Federation of Journalists, ``Southern Weekly Magazine Suspected of 
Self-Censorship,'' 15 February 18.
    \95\ Wang Xiangwei, ``Why China's Silence on Xi's Term Limits Move 
Portends Trouble,'' South China Morning Post, 12 March 18; ``English 
News Brief on Presidential Term Change Angers Leaders,'' University of 
Hong Kong, Media & Journalism Studies Centre, China Media Project, 1 
March 18; ``Proposed Removal of Chinese Leader's Term Limit Meets With 
Public Resistance,'' China Change, 28 February 18.
    \96\ Cheng Li and Ryan McElveen, Brookings Institution, ``China's 
Constitutional Conundrum,'' 28 February 18; Deng Yuwen, ``With an End 
to Term Limits, Xi Can Realise His Chinese Dream--But Will the Price 
for China Be Too High?'' South China Morning Post, 6 March 18.
    \97\ Wang Xiangwei, ``Why China's Silence on Xi's Term Limits Move 
Portends Trouble,'' South China Morning Post, 12 March 18; ``English 
News Brief on Presidential Term Change Angers Leaders,'' University of 
Hong Kong, Media & Journalism Studies Centre, China Media Project, 1 
March 18.
    \98\ Victor Mair, ``Epic Eye-Roll,'' Language Log (blog), 15 March 
18.
    \99\ Te-Ping Chen and Chun Han Wong, ``One Woman Rolls Her Eyes and 
Captivates a Nation,'' Wall Street Journal, 14 March 18; China Digital 
Times, ``What's in an Eye-roll?'' 22 March 18; China Digital Times, 
``Minitrue: Do Not Hype Two Sessions Reporter's Eyeroll,'' 13 March 18.
    \100\ Wang Heyan, ``Police Detain Six in `Case of Pan Gang's 
Disappearance,' Yili Accuses Blackhand'' [Jingfang yin ``pan gang 
shilian an'' yi zhua liu ren yili zhi you heishou], Caixin, 5 April 18; 
Zhuang Pinghui, ``China's Top Dairy Firm Says CEO Too Ill To Attend 
Asia's Davos, Squashes Rumours of Police Probe,'' South China Morning 
Post, 8 April 18; Zhang Qin, ``Person Spreading Rumor That `Yili 
Chairman Is Being Investigated' Has Been Detained'' [Wangshang zaoyao 
``yili dongshizhang bei diaocha'' zhe bei zhuahuo], Beijing Youth 
Daily, 30 March 18. For more information, see the Commission's 
Political Prisoner Database record 2018-00158 on Zou Guangxiang and 
2018-00159 on Liu Chengkun.
    \101\ Rights Defense Network, ``Journalist Wang Tao, Detained for 
Reporting on Cases of Missing Wuhan University Students, Released and 
Returned Home'' [Baodao wuhan daxuesheng shizong an er zao juya de 
jizhe wang tao yi shifang huijia], 4 November 17; Feng Guodong, 
``Internet User Detained for Spreading Rumor That `Over 30 Wuhan 
University Students Mysteriously Disappeared' '' [Wangmin sanbu ``30 
duo ming wuhan daxuesheng shenmi shizong'' yaoyan bei juliu], Xinhua, 
28 September 17; Huang Xiaojing, ``Did Dozens of College Students 
Mysteriously Go Missing? Internet Writer Detained for 10 Days'' [Shu 
shi daxuesheng shenmi shizong? wangwen zuozhe bei ju 10 tian], Beijing 
Youth Daily, 29 September 17; ``Chinese Police Detain Journalist Who 
Wrote About Missing Wuhan Students,'' Radio Free Asia, 29 September 17. 
For more information on Wang Tao, see the Commission's Political 
Prisoner Database record 2018-00391.
    \102\ Foreign Correspondents' Club of China, ``Access Denied: 
Surveillance, Harassment and Intimidation as Reporting Conditions in 
China Deteriorate,'' January 2018, 1-3, 7.
    \103\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Hua Chunying's Regular Press Conference on January 30, 2018,'' 30 
January 18; Ministry of Foreign Affairs, ``Foreign Ministry 
Spokesperson Hua Chunying's Regular Press Conference on February 1, 
2018,'' 1 February 18; David Bandurski, ``Journalism Denied: How China 
Views the News,'' University of Hong Kong, Journalism & Media Studies 
Centre, China Media Project, 1 February 18.
    \104\ Fang Tian, ``China's Foreign Ministry Refutes FCCC 
Allegations Again,'' People's Daily, 2 February 18. See also China 
Digital Times, ``Journalists Respond to FCCC Survey's Dismissal,'' 2 
February 18; David Bandurski, ``Journalism Denied: How China Views the 
News,'' University of Hong Kong, Journalism & Media Studies Centre, 
China Media Project, 1 February 18.
    \105\ Embassy of the People's Republic of China in the Kingdom of 
Sweden, ``Chinese Embassy Spokesperson's Remarks on Expressen's Article 
About China,'' 3 July 18; Magnus Fiskesjo, ``Further Escalation of the 
Gui Minhai Case,'' Ohio State University, Modern Chinese Literature and 
Culture (blog), 7 July 18. See also International Federation of 
Journalists, ``Sweden: Chinese Embassy Attacks Journalist,'' 10 July 
18. For more information on Gui Minhai, see the Commission's Political 
Prisoner Database record 2016-00090.
    \106\ See, e.g., Jennifer Creery, ``Video: `Journalism Is Not a 
Crime'--China Press Club Condemns Detention of Voice of America 
Reporters,'' Hong Kong Free Press, 15 August 18; Foreign 
Correspondents' Club of China (fccchina), Twitter post, 14 August 18, 
3:26 a.m. Authorities in Shandong province reportedly detained one 
Voice of America (VOA) reporter and a VOA contractor for more than six 
hours in connection to an interview with a retired professor who had 
been detained. Steven Lee Myers, ``A Dance for Tibetan New Year, Then 
17 Hours in Custody,'' New York Times, 18 February 18. Local 
authorities reportedly detained a New York Times journalist and 
accompanying photographer for 17 hours. Gu Li, ``RFI Journalist Schmidt 
Temporarily Detained While Interviewing People on Beijing Street About 
Constitution Revision'' [Faguang jizhe shimite beijing jietou caifang 
xiuxian yiti zao duanzan juliu], Radio France Internationale, 9 March 
18; Committee to Protect Journalists, ``Chinese Authorities Briefly 
Detain RFI Correspondent in Beijing,'' 16 March 18. Beijing authorities 
reportedly held a Radio France Internationale (RFI) journalist and news 
assistant for about one hour.
    \107\ See, e.g., Naomi Ng, ``Hong Kong i-Cable TV Journalist 
Reporting on 10th Anniversary of Sichuan Earthquake Kicked and Beaten 
by Two Men,'' South China Morning Post, 12 May 18; Tiffany May, ``Hong 
Kong Journalist Is Roughed Up and Detained by Police in Beijing,'' New 
York Times, 16 May 18; International Federation of Journalists, ``Hong 
Kong Journalists Attacked in Beijing,'' 16 May 18.
    \108\ ``China Expels German Student Who Researched Rights 
Lawyers,'' Associated Press, 13 August 18; ``German Student David 
Missal Expelled From China After Making Human Rights Film,'' Deutsche 
Welle, 12 August 18.
    \109\ Michael McGowan, ``China Denies Visas to Australian 
Journalists Due to `Frosty' Diplomatic Relations,'' Guardian, 4 June 
18.
    \110\ ``List of Websites and Apps Blocked in China [Updated June 
2018],'' Startupliving (blog), last visited 19 June 18; Ministry of 
Foreign Affairs, ``Foreign Ministry Spokesperson Hua Chunying's Regular 
Press Conference on February 1, 2018,'' 1 February 18.
    \111\ ``China's Curbs on Foreign Press Should Be Eased, Says German 
Foreign Ministry State Secretary Andreas Michaelis,'' Reuters, 
reprinted in South China Morning Post, 8 May 18.
    \112\ Foreign Correspondents' Club of China, ``Access Denied: 
Surveillance, Harassment and Intimidation as Reporting Conditions in 
China Deteriorate,'' January 2018, 4, 6.
    \113\ John Pomfret, ``China's Thought Police Are Extending Their 
Reach,'' Washington Post, 19 January 18. Chinese authorities also have 
harassed China-based family members of foreign journalists, a news 
assistant for a foreign media outlet, and Chinese journalists living 
abroad in prior years. See, e.g., Chang Ping, ``Chang Ping: My 
Statement About the Open Letter to Xi Jinping Demanding His 
Resignation,'' China Change, 27 March 16; Casey Michel, ``China's War 
Against One American Journalist,'' Slate, 9 July 15; Eric Fish, `` `I 
Don't Want To Think About Activating Change': NYT's David Barboza on 
Reporting in China,'' Asia Society, Asia Blog, 28 January 16; Human 
Rights Watch, `` `You Will Be Harassed and Detained' China Media 
Freedoms Under Assault Ahead of the 2008 Olympic Games,'' August 2007, 
24-25.
    \114\ Committee to Protect Journalists, ``Wife of Critical Chinese-
American Journalist Disappears in China,'' 18 January 18; John Pomfret, 
``China's Thought Police Are Extending Their Reach,'' Washington Post, 
19 January 18.
    \115\ ``The Families Left Behind: RFA's Uyghur Reporters Tell the 
Stories of Their Family Members' Detentions,'' Radio Free Asia, 3 April 
18; Amnesty International, ``Separated Souls: Uighur Journalist's 
Unbreakable Resolve To Help Her Detained Family,'' 16 March 18; Simon 
Denyer, ``China Detains Relatives of U.S. Reporters in Apparent 
Punishment for Xinjiang Coverage,'' Washington Post, 28 February 18; 
Uyghur Human Rights Project, ``China: End Intimidation of Radio Free 
Asia Uyghur Service Journalists,'' 2 May 18; Committee to Protect 
Journalists, ``China Detains Relatives of RFA Uighur Service 
Journalists,'' 28 February 18.
    \116\ Amnesty International, ``Separated Souls: Uighur Journalist's 
Unbreakable Resolve To Help Her Detained Family,'' 16 March 18; 
Committee to Protect Journalists, ``China Detains Relatives of RFA 
Uighur Service Journalists,'' 28 February 18; Uyghur Human Rights 
Project, ``China: End Intimidation of Radio Free Asia Uyghur Service 
Journalists,'' 2 May 18.
    \117\ China Internet Network Information Center, ``Statistical 
Report on Internet Development in China'' [Zhongguo hulian wangluo 
fazhan zhuangkuang tongji baogao], January 2018, 1.
    \118\ Ibid., 35-36.
    \119\ ``Progress Report of the National People's Congress Standing 
Committee Enforcement Inspection Group Regarding Inspection of the `PRC 
Cybersecurity Law' and `National People's Congress Standing Committee 
Decision Concerning Strengthening the Protection of Online Information' 
'' [Quanguo renmin daibiao dahui changwu weiyuanhui zhifa jiancha zu 
guanyu jiancha ``zhonghua renmin gonghe guo wangluo anquan fa'', 
``quanguo renmin daibiao dahui changwu weiyuanhui guanyu jiachang 
wangluo xinxi baohu de jueding'' shishi qingkuang de baogao], National 
People's Congress Net, 25 December 17; ``Xi Jinping: Advancing the 
Construction of a Strong Cyber Power Through Indigenous Innovation'' 
[Xi jinping: zizhu chuangxin tuijin wangluo qiangguo jianshe], Xinhua, 
21 April 18. See also Paul Mozur, ``China's Top Ideologue Calls for 
Tight Control of Internet,'' New York Times, 3 December 17; ``China's 
Xi Says Internet Control Key to Stability,'' Reuters, 21 April 18; 
Rogier Creemers et al., ``Lexicon: Wangluo Qiangguo,'' New America, 
DigiChina (blog), 31 May 18.
    \120\ Samm Sacks and Paul Triolo, ``Shrinking Anonymity in Chinese 
Cyberspace,'' Lawfare (blog), 25 September 17.
    \121\ Cyberspace Administration of China, Provisions on the 
Administration of Internet Public Account Information Services 
[Hulianwang yonghu gongzhong zhanghao xinxi fuwu guangli guiding], 
issued 7 September 17, effective 8 October 17; Cyberspace 
Administration of China, Provisions on the Administration of Internet 
Group Information Services [Hulianwang qunzu xinxi fuwu guanli 
guiding], issued 7 September 17, effective 8 October 17; Cyberspace 
Administration of China, Measures for the Administration of Content 
Management Practitioners Working for Internet News Information Service 
Providers [Hulianwang xinwen xinxi fuwu danwei neirong guanli congye 
renyuan guanli banfa], issued 30 October 17, effective 1 December 17.
    \122\ David Bandurski, ``The Great Hive of Propaganda,'' University 
of Hong Kong, Journalism & Media Studies Centre, China Media Project, 
16 September 17; Rongbin Han, ``New (and Not So New) Trends in China's 
Online Censorship,'' University of Nottingham, Asia Research Institute, 
Asia Dialogue, 7 November 17; Chinese Human Rights Defenders, ``Xi 
Jinping's `Cyber Sovereignty' Fast Eroding Space for Free Expression,'' 
19 April 18.
    \123\ Samm Sacks and Paul Triolo, ``Shrinking Anonymity in Chinese 
Cyberspace,'' Lawfare (blog), 25 September 17; Simon Denyer, ``The 
Walls Are Closing In: China Finds New Ways To Tighten Internet 
Controls,'' Washington Post, 27 September 17.
    \124\ David Bandurski, ``The Great Hive of Propaganda,'' University 
of Hong Kong, Journalism & Media Studies Centre, China Media Project, 
16 September 17. See also Samm Sacks and Paul Triolo, ``Shrinking 
Anonymity in Chinese Cyberspace,'' Lawfare (blog), 25 September 17.
    \125\ Cyberspace Administration of China, Provisions on the 
Administration of Internet Public Account Information Services 
[Hulianwang yonghu gongzhong zhanghao xinxi fuwu guangli guiding], 
issued 7 September 17, effective 8 October 17, art. 4.
    \126\ Cyberspace Administration of China, Provisions on the 
Administration of Internet Group Information Services [Hulianwang qunzu 
xinxi fuwu guanli guiding], issued 7 September 17, effective 8 October 
17, art. 9.
    \127\ Cyberspace Administration of China, Measures for the 
Administration of Content Management Practitioners Working for Internet 
News Information Service Providers [Hulianwang xinwen xinxi fuwu danwei 
neirong guanliyuan guanli banfa], issued 30 October 17, effective 1 
December 17, art. 11; Liza Lin and Josh Chin, ``Chinese Internet 
Regulators Target Social Media Use,'' Wall Street Journal, 30 October 
17. For an explanation of the ``Marxist view of journalism,'' see Wen 
Hua, ``Clearly Seeing the Essence of the Western Concept of 
Journalism'' [Kanqing xifang xinwen guan de benzhi], Seeking Truth, 31 
December 17. For an unofficial translation of the article in Seeking 
Truth, see David Bandurski, ``Journalism Denied: How China Views the 
News,'' University of Hong Kong, Journalism & Media Studies Centre, 
China Media Project, 1 February 18.
    \128\ See, e.g., King-wa Fu et al., ``Weibo Whack-a-Mole,'' Asia 
Society, ChinaFile, 8 March 18.
    \129\ See, e.g., Francoise Robin, ``Guest Post: `The Silence of the 
State: The Jokhang Fire and the Response of the Chinese Government,' '' 
High Peaks Pure Earth (blog), 21 March 18; China Digital Times, `` 
`Almost Total Suppression of Information' After Tibet Temple Fire,'' 20 
February 18; Javier C. Hernandez, ``Leading Western Publisher Bows to 
Chinese Censorship,'' New York Times, 1 November 17.
    \130\ See, e.g., Ian Johnson, ``Cambridge University Press Removes 
Academic Articles on Chinese Site,'' New York Times, 18 August 17.
    \131\ See, e.g., Javier C. Hernandez, ``Leading Western Publisher 
Bows to Chinese Censorship,'' New York Times, 1 November 17; Ian 
Johnson, ``Cambridge University Press Removes Academic Articles on 
Chinese Site,'' New York Times, 18 August 17.
    \132\ See, e.g., Tim Pringle, ``Partnerships Need To Be Carefully 
Constructed by All Those Involved To Guard Against Disguised 
Motivations With the Capacity To Trump the Seeking of Truth,'' Times 
Higher Education, 4 January 18.
    \133\ See, e.g., Annie Wu, ``Chinese Citizens Detained for Posts on 
Social Media Platform WeChat,'' Epoch Times, 12 March 18.
    \134\ See, e.g., Louisa Lim, ``Censorship Is Superfluous in Xi's 
`New Era,' '' Lowy Institute, The Interpreter, 1 November 17; Mandy 
Zuo, ``Controversy Over Chinese Textbook's Cultural Revolution Chapter 
as State Publisher Denies Censorship,'' South China Morning Post, 11 
January 18; David Bandurski, ``On Weibo, Deleting the Past,'' 
University of Hong Kong, Journalism & Media Studies Centre, China Media 
Project, 10 January 18; Ian Johnson, ``Who Killed More: Hitler, Stalin, 
or Mao?'' New York Review of Books, NYR Daily (blog), 5 February 18.
    \135\ ``Anhui Province Issues `Extremely Urgent' Stability 
Maintenance Notice, News Reports Must Be Approved for Types of 
Controlled Topics'' [Anhui sheng xia ``teji'' weiwen tongzhi baodao 
jiandu lei xinwen xu baopi], Radio Free Asia, 21 November 17.
    \136\ David Bandurski, ``China's Closing of Top Leftist Website 
Signals Party's Determination To Enforce Ideological Unity,'' Hong Kong 
Free Press, 2 June 18.
    \137\ ``[Era of Xi's Power] `Utopia's' WeChat Permanently Closed, 
Is the Game of Extreme Leftist Speech Over?'' [[Xiquan shidai] ``wuyou 
zhi xiang'' weixin yongjiu fengjin jizuo yanlun zhendi wanwang?], Apple 
Daily, 19 May 18; ``China Shutters Maoist `Utopia' Website, Social 
Media Account,'' Radio Free Asia, 21 May 18.
    \138\ Chris Buckley, ``In Beijing, Doors Shut on a Bastion of 
Independent Ideas,'' New York Times, 11 July 18.
    \139\ Ibid.; Wendy Wu and Jane Cai, ``Beijing Internet Censors 
Close Websites of Liberal Economic Think Tank,'' South China Morning 
Post, 22 January 18.
    \140\ Xu Zhangrun, ``Our Immediate Fears and Hopes'' [Women dangxia 
de kongju yu qidai], Unirule Perspectives, 24 July 18. For an English 
translation of Xu's essay, together with commentary, see Geremie R. 
Barme, ``Our Imminent Fears and Immediate Hopes--A Beijing Jeremiad,'' 
China Heritage, 1 August 18. See also Chris Buckley, ``As China's Woes 
Mount, Xi Jinping Faces Rare Rebuke at Home,'' New York Times, 31 July 
18; Jerome A. Cohen, ``Xi Jinping Sees Some Pushback Against His Iron-
fisted Rule,'' Washington Post, 2 August 18.
    \141\ ``19th Party Congress of the Chinese Communist Party Convenes 
in Beijing, Xi Jinping Delivers Work Report on Behalf of the 18th 
Central Committee, Presided Over by Li Keqiang'' [Zhongguo gongchandang 
di shijiu ci quanguo daibiao dahui zai jing kaimu xi jinping daibiao di 
shiba jie zhongyang weiyuanhui xiang dahui zuo baogao li keqiang zhuchi 
dahui], Xinhua, 18 October 17.
    \142\ Nectar Gan and Sarah Zheng, ``What To Watch for at China's 
Two Sessions,'' South China Morning Post, 4 March 18.
    \143\ On the 19th Party Congress, see, e.g., Hongwei Bao, ``China's 
`Media War' Before and During the 19th Party Congress,'' University of 
Nottingham, Asia Research Institute, Asia Dialogue, 24 October 17; 
Sarah Cook, ``China's Thought Police Are Giving a Master Class in 
Censorship,'' Washington Post, 14 September 17; Masashi Crete-Nishihata 
et al., ``Managing the Message: What You Can't Say About the 19th 
National Communist Party Congress on WeChat,'' University of Toronto, 
Munk School of Global Affairs, Citizen Lab, 6 November 17. On the Two 
Sessions, see, e.g., China Digital Times, ``Minitrue: How To Report on 
the NPC,'' 12 March 18; China Digital Times, ``Minitrue: How To Report 
on the NPC (Etc.), Part 2,'' 13 March 18; China Digital Times, 
``Minitrue: How To Report on the NPC (Etc), Part 3,'' 14 March 18; Ben 
Blanchard and Michael Martina, ``China Pushes Back Against Criticism of 
Plan for Xi To Stay in Power,'' Reuters, 25 February 18.
    \144\ James Palmer, ``Nobody Knows Anything About China,'' Foreign 
Policy, 21 March 18.
    \145\ China Digital Times, ``Minitrue 2017: July--Directive Leaks 
Slow to a Halt,'' 21 December 17. China Digital Times aggregates and 
summarizes English and Chinese language media and tracks a broad range 
of political and social developments, in addition to providing 
translation of leaked censorship directives.
    \146\ Ibid. See also Paul Mozur, ``Internet Users in China Expect 
To Be Tracked. Now, They Want Privacy,'' New York Times, 4 January 18; 
Ellen Tannam, ``Privacy Worries Increasing Among Internet Users in 
China,'' Silicon Republic, 8 January 18.
    \147\ Mimi Lau, ``China's Communist Rulers Ban Online Jokes App, 
but Comedy Community Says the Joke's on Them,'' South China Morning 
Post, 15 April 18; Hillary McLauchlin, ``We(Chat) The People: 
Technology and Social Control in China,'' Harvard Political Review, 31 
December 17.
    \148\ Chinese Human Rights Defenders, ``Repression & Resilience: 
Annual Report on the Situation of Human Rights Defenders in China 
(2017),'' February 2018, 14; King-wa Fu et al., ``Weibo Whack-a-Mole,'' 
Asia Society, ChinaFile, 8 March 18.
    \149\ Eva Pils, Human Rights in China (Medford, MA: Polity Press, 
2018), 97-98.
    \150\ Ibid., 78, 92-94.
    \151\ Lily Kuo, ``#Metoo in China: Fledgling Movement in 
Universities Fights Censorship,'' Guardian, 17 April 18.
    \152\ Sophie Richardson, Human Rights Watch, ``Dispatches: China 
State TV Celebrates New Year--With Racism,'' 16 February 18; Manya 
Koetse, ``About the CCTV Spring Festival Gala's `Racist' Africa Comedy 
Sketch,'' What's on Weibo, 16 February 18.
    \153\ King-wa Fu et al., ``Weibo Whack-a-Mole,'' Asia Society, 
ChinaFile, 8 March 18.
    \154\ See, e.g., ``Police Detained WeChat User for Calling Xi 
Jinping `Emperor Xi,' People's Daily Article `Don't Forget To Resist 
Cult of Personality' Deleted'' [Wangmin weixin cheng ``xi huang'' bei 
jing ju renminwang ``buwang fan geren chongbai'' wen bei shan], Radio 
Free Asia, 12 April 18; ``Chinese Police Jail Two Women Over `Vehicle 
Reversing' Video Clip,'' Radio Free Asia, 28 March 18.
    \155\ Allyson Chiu, ``Sina Weibo, China's Social Media Giant, 
Reverses Ban on Gay Content After Weekend of Protests,'' Washington 
Post, 16 April 18; ``China's Weibo Site Backtracks on Gay Censorship 
After Outcry,'' Associated Press, reprinted in NY Daily News, 16 April 
18.
    \156\ Javier C. Hernandez and Zoe Mou, `` `I Am Gay, Not a 
Pervert': Furor Erupts in China as Sina Weibo Bans Gay Content,'' New 
York Times, 15 April 18; ``The Victory of #IamGay: Have We Really 
Won?'' Elephant Room (blog), last visited 19 April 18.
    \157\ Raymond Zhong, ``It Built an Empire of GIFs, Buzzy News and 
Jokes. China Isn't Amused,'' New York Times, 11 April 18.
    \158\ Mimi Lau, ``China's Communist Rulers Ban Online Jokes App, 
but Comedy Community Says the Joke's on Them,'' South China Morning 
Post, 15 April 18; Raymond Zhong, ``It Built an Empire of GIFs, Buzzy 
News and Jokes. China Isn't Amused,'' New York Times, 11 April 18; Josh 
Chin, ``New Target for China's Censors: Content Driven by Artificial 
Intelligence,'' Wall Street Journal, 11 April 18.
    \159\ David Bandurski, ``Tech Shame in the `New Era,' '' University 
of Hong Kong, Journalism & Media Studies Centre, China Media Project, 
11 April 18. See also Raymond Zhong, ``It Built an Empire of GIFs, 
Buzzy News and Jokes. China Isn't Amused,'' New York Times, 11 April 
18; Josh Chin, ``New Target for China's Censors: Content Driven by 
Artificial Intelligence,'' Wall Street Journal, 11 April 18.
    \160\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12.
    \161\ Ibid., art. 22; UN Human Rights Council, The Rights to 
Freedom of Peaceful Assembly and Association, A/HRC/RES/24/5, 8 October 
13, items 2-6.
    \162\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 27; Declaration on the Rights of Persons 
Belonging to National or Ethnic, Religious and Linguistic Minorities, 
adopted by UN General Assembly resolution 47/135 of 18 December 1992, 
art. 2(1)-(2).
    \163\ ``Prominent Chinese Political Prisoner Yang Tianshui Released 
on Medical Parole, Dies Two Months Later'' [Zhongguo zhuming 
zhengzhifan yang tianshui baowai jiuyi liang yue hou bingshi], Voice of 
America, 8 November 17. Regarding Cao Shunli's case, see Human Rights 
in China, ``Rights Defender Cao Shunli Died in Hospital in Beijing, 
Lawyer Barred From Viewing Body,'' 14 March 14; Verna Yu, ``Inquiry 
Into Activist Cao Shunli's Death Sought,'' South China Morning Post, 21 
March 14. For additional information on Cao Shunli's case, see 
``Inadequate Medical Care for Cao Shunli Before Her Death Contradicts 
International Law,'' Congressional-Executive Commission on China, 2 
April 14. Regarding Liu Xiaobo's case, see Chris Buckley, ``Liu Xiaobo, 
Chinese Dissident Who Won Nobel While Jailed, Dies at 61,'' New York 
Times, 13 July 17; ``Questions Raised About Liu Xiaobo's Prison Medical 
Treatment,'' Associated Press, 27 June 17. For additional information 
on Liu Xiaobo's case, see CECC, 2017 Annual Report, 5 October 17, 19-
20, 66.
    \164\ Standard Minimum Rules for the Treatment of Prisoners, 
adopted by the First UN Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663C (XXIV) of 31 July 57 and 2076 (LXII) of 
13 May 77, arts. 22, 24-26; Body of Principles for the Protection of 
All Persons Under Any Form of Detention or Imprisonment, adopted by UN 
General Assembly resolution A/RES/43/173, 9 December 88, principle 24; 
UN Human Rights Council, Report of the Special Rapporteur on Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment, Juan E. 
Mendez, A/HRC/22/53, 1 February 13, paras. 20, 22; Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
adopted by UN General Assembly resolution 39/46 of 10 December 84, 
entry into force 26 June 87.
    \165\ Jia Pingwa, ``The Plight of Writing'' [Xiezuo de kunjing], LA 
Review of Books, China Channel, 21 December 17. For an unofficial 
English translation, see Jia Pingwa and Nick Stember, ``The Plight of 
Writing: An Undelivered Speech by Jia Pingwa,'' LA Review of Books, 
China Channel, 24 January 18.
    \166\ Jia Pingwa, ``The Plight of Writing'' [Xiezuo de kunjing], LA 
Review of Books, China Channel, 21 December 17. For an unofficial 
English translation, see Jia Pingwa and Nick Stember, ``The Plight of 
Writing: An Undelivered Speech by Jia Pingwa,'' LA Review of Books, 
China Channel, 24 January 18. Chinese censors reportedly banned 
``Ruined City'' for 17 years.
    \167\ Rights Defense Network, ``Guo Qingjun, Citizen of Changchun 
Municipality, Jilin Province, Is Criminally Detained by Ganzhou 
Municipality, Jiangxi PSB'' [Jilin sheng changchun shi gongmin guo 
qingjun bei jiangxi ganzhou shi gong'anju xingshi liu], 13 April 18; 
``Many Volunteers From Group That `Sent Food' to Family Members of 
Prisoners of Conscience Were Detained'' [Wei liangxinfan jiashu 
``songfan'' yigong qunti duo ren bei zhua], Radio Free Asia, 13 April 
18; ``WeChat Group That Aided Prisoners of Conscience Disbanded, Group 
Leaders Guo Qingjun, Among Others, Criminally Detained'' [Jiuzhu 
liangxinfan weixin qun bei jiesan qunzhu guo qingjun deng bei xingshi 
juliu], Radio Free Asia, 14 April 18; ``Eight Detained for Organizing 
Humanitarian Assistance for Political Prisoners and Their Families,'' 
China Change, 15 April 18. Authorities also reportedly forced the 
WeChat group to disband.
    \168\ Civil Rights & Livelihood Watch, ``Jilin's Guo Qingjun 
Arrested on Suspicion of `Picking Quarrels and Provoking Trouble' '' 
[Jilin guo qingjun bei yi shexian ``xunxin zishi'' pibu], 19 May 18; 
Rights Defense Network, ``RDN: Monthly Report on Detained Mainland 
Chinese Political Prisoners and Prisoners of Conscience (5/31/2018) No. 
32 (Total 761 Persons) (Part 2)'' [Weiquanwang: zhongguo dalu zaiya 
zhengzhifan, liangxinfan yuedu baogao (2018 nian 5 yue 31 ri) di 32 qi 
(gong 761 ren) (di 2 bufen), 31 May 18. For more information on Guo 
Qingjun, see the Commission's Political Prisoner Database record 2018-
00165.
    \169\ ``Tibetan Language Education Advocate's Sentencing Brings 
International Condemnation'' [Zangyu jiaoyu changdaozhe bei panxing zao 
guoji qianze], Radio Free Asia, 22 May 18; Christopher Bodeen, ``China 
Sentences Tibetan Activist to 5 Years for Separatism,'' Associated 
Press, 22 May 18. For more information on Tashi Wangchug, see the 
Commission's Political Prisoner Database record 2016-00077.
    \170\ Jonah M. Kessel, ``How China Used a Times Documentary as 
Evidence Against Its Subject,'' New York Times, 10 January 18.
    \171\ Liang Xiaojun (liangxiaojun), Twitter post, 22 August 18, 
8:15 p.m.; Tenzin Dharpo, ``Tibetan Activist's Appeal Against 5-year 
Sentence Rejected,'' Phayul, 24 August 18.
    \172\ Rights Defense Network, ``Prominent Democracy Activist, Mr. 
Yang Tianshui, Forcibly Given `Sea Burial' by CCP Authorities, Family 
Members Under Extreme Pressure and Banned From Speaking Out'' [Zhuming 
minyun renshi yang tianshui xiansheng zao zhonggong dangju qiangzhi 
``haizang'' jiaren zao juda yali bei jinyan], 20 December 17; PEN 
America, ``Death of Imprisoned Chinese Writer and Activist Yang Tongyan 
a Further Blow for Free Expression,'' 7 November 17. See also Dui Hua 
Foundation, ``Liu Xiaobo Granted Medical Parole,'' 26 June 17. Dui Hua 
Foundation clarified that, ``It is not correct to say that the prisoner 
granted medical parole is `free,' nor is it correct to say that the 
prisoner has been `released.' The prisoner is still serving his/or her 
sentence, albeit in a location other than the prison itself.'' For more 
information about Yang Tongyan (Yang Tianshui), see the Commission's 
Political Prisoner Database record 2004-05189.
    \173\ Zhenjiang Municipal Intermediate People's Court, Criminal 
Judgment [Jiangsu sheng zhenjiang shi renmin fayuan xingshi panjue 
shu], (2006) Zhen Xing Yi Chu Zi No. 12, 17 May 06, reprinted in 
Chinese Human Rights Defenders, 23 August 06.
    \174\ Reporters Without Borders, ``After Lack of Medical Care in 
Prison, Chinese Blogger Dies,'' 9 November 17; ``Tang Jingling Detained 
for Again Trying To Inquire in Shaoyang About Li Wangyang; Yang 
Tianshui Ailing in Prison Goes on Hunger Strike'' [Tang jingling wei li 
wangyang zai fang shaoyang bei kou yang tianshui yuzhong jibing 
chanshen jueshi kangzheng], Radio Free Asia, 11 September 12. See also 
Rights Defense Network, ``Nanjing Dissident Yang Tianshui Has Been 
Imprisoned for 17 Years, Suffers From Multiple Chronic Illnesses'' 
[Nanjing yijian renshi yang tianshui leiji bei qiu 17 nian, bingmo 
chanshen], 10 September 12.
    \175\ Javier C. Hernandez, ``Ailing Dissident's Case Fits a Pattern 
in Chinese Prisons, Critics Say,'' New York Times, 10 July 17; Stuart 
Lau and Shirley Zhao, ``China Stages `Hasty' Cremation of Liu Xiaobo 
and Has His Ashes Scattered at Sea,'' South China Morning Post, 17 July 
17.
    \176\ Rights Defense Network, ``Prominent Democracy Activist, Mr. 
Yang Tianshui, Forcibly Given `Sea Burial' by CCP Authorities, Family 
Members Under Extreme Pressure and Banned From Speaking Out'' [Zhuming 
mingyun renshi yang tianshui xiansheng zao zhonggong dangju qiangzhi 
``haizang'' jiaren zao juda yali bei jinyan], 20 December 17.
    \177\ Human Rights Watch, ``China: Democratic Voice Liu Xiaobo Dies 
in Custody,'' 13 July 17; Josh Chin, ``Nobel Laureate Liu Xiaobo, Who 
Fought for Democracy in China, Dies in Police Custody,'' Wall Street 
Journal, 13 July 17. See also CECC, 2017 Annual Report, 5 October 17, 
66.
    \178\ Chris Buckley and Melissa Eddy, ``Liu Xia, in Call From 
China, Tells of the Agony of Endless Captivity,'' New York Times, 4 May 
18. For more information on Liu Xia, see the Commission's Political 
Prisoner Database record 2010-00629.
    \179\ Jane Perlez, ``Liu Xia, Detained Widow of Nobel Peace 
Laureate, Leaves China,'' New York Times, 10 July 18; Christian 
Shepherd and Riham Alkousaa, ``Widow of Chinese Dissident Liu Xiaobo 
Arrives in Germany,'' Reuters, 10 July 18.
    \180\ See, e.g., ``China Change Exclusive: Liu Xia Cries Out for 
Help in a Phone Call With Liao Yiwu on April 8, 2018,'' China Change, 2 
May 18; ``Liu Xia Undergoes Surgery for Uterine Fibroids, Severely 
Depressed, Outside World Urges Permission for Her To Leave China as 
Soon as Possible'' [Liu xia yi zuo zigong jiliu shoushu yiyuzheng 
yanzhong waijie yu jinzao yun qi chuguo], Radio Free Asia, 19 November 
17; ``Rare Phone Call From House Arrest Sparks Fears for Liu Xia's 
Well-Being,'' Radio Free Asia, 9 February 17; Desmond M. Tutu and Jared 
Genser, ``The Ordeal of China's Liu Xia,'' Wall Street Journal, 30 
March 14; China Digital Times, ``Friends Say Liu Xia Suffering From 
Depression,'' 2 December 13.
    \181\ Lily Kuo and Philip Oltermann, ``Liu Xia: Free At Last but a 
Hostage-in-Exile to Beijing's Crackdown,'' Guardian, 15 July 18. See 
also UN Human Rights Council, Report of the Working Group on Arbitrary 
Detention, A/HRC/WGAD/2011/16, 27 February 12, paras. 17-20, 22. In May 
2011, the UN Working Group on Arbitrary Detention declared the Chinese 
government's detention of Liu Xia to be in violation of the Universal 
Declaration of Human Rights.
    \182\ Catherine Lai, ``NGOs, Activists React as Liu Xia Leaves 
China, but Fears Remain for Brother in Beijing,'' Hong Kong Free Press, 
10 July 18.
    \183\ Chinese Human Rights Defenders, ``Repression & Resilience: 
Annual Report on the Situation of Human Rights Defenders in China 
(2017),'' February 2018, 18, 23; Rights Defense Network, ``Yu Qiyuan's 
Statement Prior Detention: I Firmly Believe, That in the Near Future, 
This Land That Gave Birth to Me and Raised Me, Must Bid Farewell to 
More Than 4,000 Years of Authoritarian Rule, With a New Nation of 
Freedom and Democracy Becoming a Part of World Civilization!'' [Yu 
qiyuan bei bu qian shengming: wo jianxin, bujiu de jianglai, zhe pian 
sheng wo yang wo de tudi, bijiang gaobie si qian duo nian de zhuanzhi 
tongzhi, yi ge ziyou minzhu de xin guojia jiang mairu shijie wenming 
zhi lin!], 25 May 18.
    \184\ For more information on these cases, see the Commission's 
Political Prisoner Database records 2015-00315 on Huang Yongxiang, 
2015-00316 on Wei Xiaobing, 2017-00317 on He Lin, 2017-00318 on Liu 
Guangxiao, 2017-00319 on Li Shujia, 2017-00320 on Qin Mingxin, 2017-
00321 on Wang Meiju, 2017-00322 on Ma Qiang, 2017-00327 on Zhuo Yuzhen, 
2018-00010 on Li Xuewen, 2018-00012 on Zhan Huidong, 2018-00389 on Yu 
Qiyuan, and 2018-00390 on Li Zhaoqiang.
    \185\ Rights Defense Network, ``Sichuan Rights Defender Li Yu 
Detained After Seaside Memorial for Liu Xiaobo in Fujian, Still in 
Detention'' [Sichuan weiquan renshi li yu zai fujian haiji liu xiaobo 
bei zhuabu xian reng bei jiya], 27 July 17.
    \186\ ``Two Dalian Mourners at Liu Xiaobo's Sea Memorial Released, 
Liu Xia's Whereabouts Still Unknown'' [Dalian liang ming liu xiaobo 
daonianzhe huoshi liu xia yiran xialuo buming], Voice of America, 31 
July 17.
    \187\ ``Guangdong Poet Langzi and Peng Heping Released'' [Guangdong 
shiren langzi ji peng heping huo shi], Radio Free Asia, 23 September 
17; ``Guangzhou Poet Langzi Criminally Detained on Suspicion of 
Commemorating Liu Xiaobo'' [Guangzhou shiren langzi she jinian liu 
xiaobo shiji bei xingju], Radio Free Asia, 22 August 17; Yaxue Cao, 
``From Sea to a Sea of Words: Poet Ensnared as China Shuts Down 
Commemoration of Liu Xiaobo,'' China Change, 14 September 17. For more 
information on Wu Mingliang (legal name of poet Langzi), see the 
Commission's Political Prisoner Database record 2017-00314.
    \188\ ``Guangdong Poet Langzi and Peng Heping Released'' [Guangdong 
shiren langzi ji peng heping huo shi], Radio Free Asia, 23 September 
17; Civil Rights & Livelihood Watch, ``For Help in Introducing Poet 
Langzi to Printing Plant, Guangzhou Peng Heping Criminally Detained'' 
[Yin bang shiren langzi jieshao yinshua chang guangzhou peng heping bei 
xingju], 2 September 17. For more information on Peng Heping, see the 
Commission's Political Prisoner Database record 2017-00315.
    \189\ ``Chinese Songwriter Formally Arrested for Song About Late 
Liu Xiaobo,'' Radio Free Asia, 14 November 17. For more information, 
see the Commission's Political Prisoner Database record 2017-00310 on 
Xu Lin and 2017-00311 on Liu Sifang.
    \190\ ``France Couple in China Unreachable After Liu Xiaobo 
Tribute,'' BBC, 22 December 17; ``Artist Held in China Over Tribute to 
Nobel Winner Liu Xiaobo Is Released,'' Agence-France Presse, reprinted 
in Japan Times, 25 December 17.


                                                  Worker Rights
                                                Worker Rights

                             Worker Rights


                              Trade Unions

    China's laws and practices continue to contravene 
international worker rights standards and violate rights 
provided for in China's Constitution, including the right to 
create or join independent trade unions.\1\ The All-China 
Federation of Trade Unions (ACFTU) remains the only trade union 
organization permitted under Chinese law.\2\ In January 2018, 
the state-run news agency Xinhua reported that the ACFTU had 
303 million members in 2017, of whom 140 million were 
agricultural members.\3\ The U.S. Government and international 
observers noted that the ACFTU typically prioritized Chinese 
Communist Party interests over the interests of workers and did 
not effectively represent workers.\4\ During the Commission's 
2018 reporting year, the ACFTU's top official held concurrent 
positions in the Chinese government and the Chinese Communist 
Party.\5\ In March 2018, the ACFTU Executive Committee selected 
Wang Dongming--a member of the 19th Party Central Committee 
\6\--to be ACFTU Chairman,\7\ and the National People's 
Congress (NPC) selected Wang as Vice Chairman of the NPC 
Standing Committee.\8\ At the enterprise level, union 
representatives often side with management interests.\9\ 
Restrictions on workers' rights to freely establish and join 
independent trade unions violate international standards set 
forth by the International Labour Organization (ILO),\10\ 
Universal Declaration of Human Rights,\11\ International 
Covenant on Civil and Political Rights,\12\ and International 
Covenant on Economic, Social and Cultural Rights.\13\

                         Collective Bargaining

    This past year, workers' right to collective bargaining 
remained limited in law and in practice. Provisions in the PRC 
Labor Law, PRC Labor Contract Law, and PRC Trade Union Law 
provide a legal framework for negotiating collective 
contracts,\14\ but these laws designate the Party-controlled 
ACFTU as responsible for negotiating with employers and signing 
collective contracts on behalf of workers.\15\ In addition to 
curbing union representation,\16\ 
authorities have also restricted the ability of Chinese labor 
non-governmental organizations (NGOs) to train workers in 
collective bargaining.\17\ As a member of the ILO, China is 
obligated to respect workers' right to collective 
bargaining.\18\

                             Civil Society

    Chinese authorities continued to severely restrict the 
ability of civil society organizations to work on labor issues, 
including domestic organizations that received foreign funding 
and international civil society organizations. Labor NGOs have 
existed in China since the early 1990s,\19\ offering legal aid, 
helping workers seek redress for workplace injuries and unpaid 
wages, educating workers about their legal rights, and 
providing a variety of social services to workers.\20\ Some 
labor NGOs have also trained workers in collective 
bargaining.\21\ The situation for labor advocates and NGOs, 
however, has not improved since a crackdown on labor NGOs began 
in December 2015,\22\ and deteriorated further with the 
implementation of the PRC Law on the Management of Overseas 
Non-Governmental Organizations' Activities in Mainland China 
that took effect in January 2017.\23\ Chinese labor NGOs have 
long relied on overseas funding.\24\ Two labor scholars at 
Australian National University observed that NGOs have 
responded to the shrinking space for their work by downsizing 
or working as individuals instead of in groups, cooperating 
less with other NGOs that continue to work on labor rights 
issues, and doing work perceived to be less politically 
sensitive, such as promoting cultural activities.\25\ Under Xi 
Jinping, the scholars concluded, Chinese authorities have 
dismissed the contributions of labor NGOs and made it more 
difficult for them to operate, noting that these repressive 
developments ``threaten the very existence of labor NGOs in 
China.'' \26\ The government's suspicion of foreign NGOs 
working on labor issues, moreover, appears to have intensified 
in recent years, as highlighted by the content of an April 2018 
cartoon jointly disseminated by several Chinese government 
agencies.\27\ The cartoon featured a foreign NGO worker who 
apparently cooperates with a local Chinese partner to hold 
trainings on how to defend worker rights, organize a union, and 
go on strike.\28\ One of the agencies that released the cartoon 
reportedly said the cartoon is ``meant to teach workers how to 
detect and report foreign spies and espionage activities, and 
raise their awareness of State security.'' \29\
    Many of the labor advocates whom authorities detained in 
the 2015 crackdown remain under restrictions imposed by the 
suspended sentences they received, including Zeng Feiyang, Zhu 
Xiaomei, and Tang Jian.\30\ Therefore, while they are not 
physically held at detention centers or prisons, they are at 
risk of having to serve their sentences in full if they resume 
their advocacy work.\31\ [For more information on civil society 
in China, see Section II--Civil Society.]

                      Worker Strikes and Protests

    The Chinese government did not publicly report on the 
number of worker strikes and protests, and NGOs and citizen 
journalists continued to face difficulties in obtaining 
comprehensive information on worker actions.\32\ The Hong Kong-
based NGO China Labour Bulletin (CLB), which compiles data on 
worker actions collected from traditional news sources and 
social media,\33\ documented 1,257 strikes in 2017.\34\ 
According to CLB, the overall number of strikes in 2017 was 
likely comparable to that of 2016, although they documented 
fewer strikes than in 2016 and 2015 due to changes in their 
collection methods and a decrease in independent reporting.\35\ 
The CLB communications director estimated that CLB was able to 
document between 5 and 10 percent of the total number of worker 
actions in China between 2013 and 2017.\36\ The case of blogger 
and citizen journalist Lu Yuyu highlights the dangers that 
citizens face in circulating independent information on worker 
actions.\37\ In connection with his work documenting labor 
strikes across China, Lu continued to serve a four-year prison 
sentence on the charge of ``picking quarrels and provoking 
trouble.'' \38\ The Dali Municipal Intermediate People's Court 
in Dali Bai Autonomous Prefecture, Yunnan province, upheld this 
sentence on appeal in September 2017.\39\

                            Percentage of Worker Strikes and Protests by Sector \40\
----------------------------------------------------------------------------------------------------------------
                                                                                                    Total Number
   Year        Manufacturing       Construction       Transportation       Services       Other       Reported
----------------------------------------------------------------------------------------------------------------
   2017            19.7%              38.1%                8.6%             15.2%         10.8%        1,257
                   (267)              (518)               (117)             (207)         (148)
----------------------------------------------------------------------------------------------------------------
   2016            23.0%              40.6%               12.4%             11.0%         13.1%        2,664
                   (612)            (1,081)               (330)             (292)         (349)
----------------------------------------------------------------------------------------------------------------
   2015            32.1%              35.9%                9.8%              8.2%         14.1%        2,774
                   (891)              (995)               (271)             (227)         (390)
----------------------------------------------------------------------------------------------------------------
   2014            41.0%              19.1%               18.9%              8.2%         12.7%        1,358
                   (557)              (259)               (257)             (112)         (173)
----------------------------------------------------------------------------------------------------------------
Source: China Labour Bulletin. Note that the percentages indicate the percentage of total worker actions
  documented that year.

    In 2017, CLB documented a higher percentage of strikes in 
private companies compared to state-owned enterprises (SOEs), 
although there were also major strikes at SOEs reportedly 
centering around lower pay for those employed through 
subcontracting agencies compared to formal employees.\41\ CLB 
also highlighted a trend in which strikes appeared to be 
increasing in inland provinces such as Shaanxi, Henan, and 
Anhui, with a decreasing number of strikes in Guangdong 
province.\42\ Chinese law does not protect workers' right to 
strike,\43\ contravening the International Covenant on 
Economic, Social and Cultural Rights, which China has signed 
and ratified.\44\
    Examples of worker actions this past year included the 
following:

        <bullet> Guangzhou municipality, Guangdong. From March 
        5 to 13, 2018, approximately 1,000 workers, 
        predominantly women, went on strike at a Chinese 
        factory of Simone Holdings, a South Korean conglomerate 
        that reportedly manufactures 30 percent of the luxury 
        handbags sold in the United States, including the 
        Michael Kors label.\45\ The workers protested the 
        company's failure to provide legally required benefits, 
        including social security contributions and housing 
        funds.\46\ On March 14, the workers reportedly returned 
        to work after Simone Holdings agreed to their 
        demands.\47\
        <bullet> Changning district, Shanghai municipality. 
        Beginning on March 26, 2018, an estimated 3,000 
        sanitation workers went on strike to protest cuts to 
        their wages and benefits.\48\ On March 1, 2018, 
        Shanghai municipal authorities reportedly increased the 
        minimum monthly salary from 2,300 yuan (approximately 
        US$370) to 2,420 yuan (approximately US$390) per 
        month.\49\ After the new minimum salary went into 
        effect, however, the sanitation companies in Changning 
        responded by cutting benefits by approximately an 
        equivalent amount to the increase in pay.\50\ Although 
        the strike reportedly disrupted trash collection for 
        hundreds of thousands of Shanghai residents and images 
        were widely shared on social media, internet censors 
        reportedly quickly deleted strike-related content.\51\ 
        The strike reportedly ended after authorities detained 
        and subsequently released some of the protesting 
        workers and the sanitation companies restored some of 
        the benefits.\52\
        <bullet> Zhuhai municipality, Guangdong. Beginning on 
        March 29, 2018, 6,000 workers at five factories of a 
        Chinese subsidiary of Flex Ltd. reportedly protested 
        for three weeks over a plan to sell the factories.\53\ 
        According to CLB, the workers were not only concerned 
        that they would lose their jobs, but also that the 
        company would not pay workers' severance compensation 
        and social insurance benefits as required by law.\54\ 
        During the protests, local union officials reportedly 
        did not assist the protesters, but instead focused on 
        ``maintaining social stability.'' \55\ The workers 
        reportedly returned to work without any of their 
        concerns addressed.\56\
        <bullet> Nationwide. In April 2018, crane operators in 
        at least 27 cities in 19 provinces across China 
        reportedly staged demonstrations over low pay and 
        hazardous working conditions.\57\ According to a 
        Chinese labor scholar, ``This is the first instance of 
        such a large-scale, nationwide, collective action by 
        industrial workers in China, and may in fact be the 
        first instance of its kind ever.'' \58\ Subsequently, 
        in June 2018, truck drivers in at least 12 provinces in 
        China protested low pay, high fuel costs, and other 
        industry-wide concerns.\59\ CLB reported in June that 
        since late April 2018, food delivery workers and van 
        drivers protested in a number of different 
        locations.\60\
        <bullet> Shenzhen municipality, Guangdong. In July 
        2018, after workers at the Jasic Technology Company 
        factory in Shenzhen, Guangdong, were laid off for 
        trying to form an independent trade union, their 
        supporters organized protests at the factory.\61\ On 
        July 27, authorities reportedly detained 30 protesters, 
        and held them under suspicion of ``picking quarrels and 
        provoking trouble.'' \62\ According to a Financial 
        Times report based on CLB data, this was the largest 
        detention of labor advocates since the December 2015 
        crackdown in Guangzhou,\63\ and students from 11 
        universities reportedly circulated petitions with over 
        1,600 signatures calling for the release of the 
        detained individuals.\64\

                              Wage Arrears

    Against the backdrop of the ongoing, and in some sectors 
worsening, problem of wage arrears, this past year, central 
authorities reiterated goals from 2016 to resolve the problem 
of migrant worker wage arrears. Between January and November 
2017, Chinese authorities reportedly participated in the 
settlement process in 128,000 cases, a year-on-year decrease of 
38 percent, involving 22.4 billion yuan (approximately US$3.6 
billion) in wage arrears for 2.81 million workers.\65\ In 
December 2017, the State Council General Office released new 
measures on wage arrears,\66\ reiterating the goal of a 2016 
State Council opinion to resolve the problem of migrant worker 
wage arrears.\67\ In December 2017, the Ministry of Human 
Resources and Social Security (MOHRSS) announced that companies 
that did not pay wages would be placed on a national 
blacklist,\68\ and in January 2018, new MOHRSS measures on a 
wage arrears blacklist took effect.\69\ In March 2018, Supreme 
People's Court President Zhou Qiang highlighted the role of 
courts in 2017 in helping recover 29.4 billion yuan 
(approximately US$4.7 billion) in wage arrears for migrant 
workers.\70\ As an example of detentions related to wage 
arrears protests, in January 2018, public security authorities 
detained Zhang Chengyi and 12 other migrant construction 
workers who were petitioning over 1.2 million yuan 
(approximately US$190,000) in wage arrears in Guanghe county, 
Linxia Hui Autonomous Prefecture, Gansu province.\71\ In 
February 2018, the international NGO Rights Defense Network 
reported that the workers were no longer in detention and had 
received their wages.\72\

                            Social Insurance

    During this reporting year, workers' rates of social 
insurance coverage showed some improvement, but overall 
remained low.\73\ According to the PRC Social Insurance Law, 
workers are entitled to five forms of social insurance: basic 
pension insurance, health insurance, work-related injury 
insurance, unemployment insurance, and maternity insurance.\74\ 
Under the law, employers and workers are required to contribute 
to basic pension, health, and unemployment insurance; in 
addition, employers are required to contribute to work-related 
injury and maternity insurance on workers' behalf.\75\ 
According to MOHRSS and the National Bureau of Statistics of 
China, from 2016 to 2017, the work-related injury insurance 
coverage rates increased slightly overall from 28.2 to 29.3 
percent,\76\ and also increased slightly for migrant workers 
from 26.7 to 27.3 percent.\77\ Employment-based pension 
insurance coverage rates increased from 48.9 to 51.9 percent 
for all workers,\78\ and increased from 21.1 to 21.6 percent 
for migrant workers.\79\ In 2017, employer-based health 
insurance coverage rates remained below 40 percent for all 
workers.\80\ Unemployment and maternity insurance coverage 
remained below 25 percent for all workers.\81\ Many migrant 
workers continued to face bureaucratic obstacles when 
transferring their social insurance benefits to new 
jurisdictions, because local governments manage insurance 
funds.\82\ On December 18, 2017, MOHRSS and the Ministry of 
Finance issued Measures for Enterprise Annuities, a new pension 
scheme that may help to supplement pension payments to 
retirees.\83\

                        Employment Relationships

    This past year, several categories of workers were unable 
to benefit fully from the protections provided under Chinese 
law. The PRC Labor Law and PRC Labor Contract Law only apply to 
workers who have an ``employment relationship'' (laodong 
guanxi) with their employers.\84\

                             DISPATCH LABOR

    The Commission continued to observe reports of dispatch 
labor (laowu paiqian) abuses during this reporting year, in 
violation of domestic laws and regulations.\85\ Firms, 
including state-owned enterprises, have long used dispatch 
labor--workers hired through subcontracting agencies--to cut 
costs.\86\ The PRC Labor Contract Law stipulates that dispatch 
workers shall be paid the same as full-time workers doing 
similar work, and may only perform work on a temporary, 
auxiliary, or substitute basis.\87\
    In November 2016, several hundreds of the more than 3,000 
dispatch workers at a joint-venture FAW-Volkswagen automobile 
manufacturing plant filed a complaint with the All-China 
Federation of Trade Unions for equal compensation as provided 
for in the PRC Labor Contract Law.\88\ Over 1,000 workers 
participated in legal action, many of whom also demonstrated 
outside the factory.\89\ The dispatch workers, however, were 
unable to reach an agreement with management, and in May 2017, 
public security officials detained three worker 
representatives, Fu Tianbo, Wang Shuai, and Ai Zhenyu.\90\ In 
August 2017, Volkswagen issued two statements: one claiming the 
company ``is making every effort to find a mutually acceptable 
solution,'' \91\ and another noting it was a minority 
shareholder in the joint-venture and therefore had ``limited 
responsibility in the dispute.'' \92\ As of January 2018, Fu 
remained in detention without trial, although Wang and Ai were 
released on bail seven days after detention.\93\

                              INTERN LABOR

    During this reporting year, reports continued to emerge of 
labor abuses involving vocational school students working at 
school-arranged internships.\94\ In November 2017, the 
Financial Times reported that a group of 3,000 vocational 
school students were being forced by their school to work up to 
11 hours per day for three months at a Foxconn factory in 
Zhengzhou municipality, Henan province, that manufactures Apple 
phones.\95\ In January 2018, Sixth Tone, a Chinese state-funded 
media publication, reported that Liaocheng University in 
Shandong province had ended its internship program after 
hundreds of students complained that they were being forced to 
work long hours for low pay in order to graduate.\96\ The 
students, some of whom claimed that they were being forced by 
their school to complete the internship, performed overtime 
work in violation of national regulations.\97\ Existing 
regulations prohibit interns from working overtime and require 
internships to be relevant to students' plans of study.\98\

                    WORKERS ABOVE THE RETIREMENT AGE

    During this reporting year, Chinese workers above the legal 
retirement age continued to lack certain legal protections 
afforded to other workers under Chinese law. China's working 
age population has reportedly declined since 2012,\99\ and the 
United Nations has estimated that the portion of population 
over 65 in China will increase from approximately 9.7 percent 
in 2015 to 26.3 percent in 2050.\100\ Chinese academics have 
developed a number of policy proposals to raise China's 
retirement age,\101\ but during this reporting year, China's 
retirement ages in general for female employees remained 
between 50 and 55 years old, depending on the type of 
employment, and 60 years old for male employees.\102\ According 
to the PRC Labor Contract Law and the law's implementing 
regulations, once workers reach retirement age or receive 
pensions, their labor contracts are terminated by operation of 
law.\103\ The inability of workers over the retirement age to 
establish a formal employment relationship with their employers 
leaves them without the protections provided for in Chinese 
labor laws in case of work-related injuries, unpaid overtime, 
or other labor issues.\104\

                              Child Labor

    While the Chinese government did not publish statistics on 
child labor and did not share data on child labor with the 
International Labour Organization (ILO),\105\ the Commission 
continued to observe reports on the use of child labor in 
China.\106\ In January 2018, internet users in China widely 
shared an image of a seven-year-old who was delivering packages 
by himself.\107\ In January 2018, the Worker's Daily reported 
on litigation against an enterprise filed by the father of a 
child laborer after his son was injured during illegal 
employment.\108\ This case illustrates that the ``problem of 
the illegal use of child labor still exists,'' according to Shi 
Fumao, the executive director of Beijing Zhicheng Migrant 
Workers' Legal Aid and Research Center.\109\ Following passage 
of a duty of vigilance law in France, in January 2018, two 
French NGOs sued Samsung in France over alleged child labor and 
other labor abuses in China.\110\ Domestic Chinese laws 
generally prohibit the employment of minors under 16,\111\ and 
China has ratified the two fundamental ILO conventions on the 
elimination of child labor.\112\

                  Work Safety and Occupational Health

    During this reporting year, government data showed a 
continued decline in workplace deaths. According to the 
National Bureau of Statistics of China (NBS), a total of 37,852 
people died in workplace accidents in 2017,\113\ compared to 
43,062 deaths in 2016 \114\ and 66,182 deaths in 2015.\115\ In 
2016, the NBS, however, began excluding ``non-production 
accidents'' from their totals, and in 2018 China Labour 
Bulletin (CLB) described the calculation method as ``opaque.'' 
\116\ According to CLB, coal mine deaths have declined steadily 
and significantly over the past 15 years, down to 375 in 2017, 
compared to 7,000 in 2002.\117\ Coal mines continued to be 
dangerous: In August 2018, for example, 13 workers at a coal 
mine in Guizhou province died as a result of an explosion.\118\ 
Despite the decline in the total number of workplace accidents 
in China, according to CLB, the number of accidents for workers 
in the service industry is increasing, especially for delivery 
drivers.\119\ Many delivery drivers do not have a formal 
employment relationship and lack workers' compensation 
insurance.\120\
    During the reporting year, CLB raised concerns about 
changes in the government institution overseeing work safety 
issues. In March 2018, as part of a sweeping reorganization of 
Party and government institutions,\121\ central authorities 
announced plans to dismantle the State Administration of Work 
Safety, transferring responsibility for work safety to a new 
Ministry of Emergency Management.\122\ CLB criticized the 
bureaucratic changes as highlighting how ``the Chinese 
government is more concerned with disaster management and 
control rather than in preventing workplace accidents in the 
first place.'' \123\
    The government reported an increase in cases of 
occupational disease, and labor investigators continued to 
document hazardous conditions in Chinese factories. In December 
2017, the former National Health and Family Planning Commission 
reported that there were 31,789 cases of occupational disease 
recorded in 2016, up from 29,180 cases of occupational disease 
in 2015.\124\ Of the total, 28,088 cases were pneumoconiosis 
and other respiratory diseases; 1,276 were ear, nose, throat, 
and oral diseases; 1,212 were chemical poisonings; and 1,213 
were other diseases.\125\ Many pneumoconiosis victims 
reportedly face significant difficulties in obtaining official 
recognition that their illness is work related, and thus are 
ineligible for compensation.\126\ In March 2018, a National 
People's Congress delegate reportedly recommended that access 
to pneumoconiosis treatment be improved.\127\ In June 2018, 
domestic and international media, however, reported that 
authorities in Guizhou province had detained three doctors for 
over seven months, after the doctors had allegedly misdiagnosed 
several hundred people with pneumoconiosis who did not actually 
have the disease, resulting in a loss of 30 million yuan 
(approximately US$4.4 million) in public funds for 
compensation.\128\ Three hundred of the doctors' colleagues 
signed a petition requesting that authorities ``respect science 
and respect medicine, and safeguard doctors' legal rights'' and 
release the detained doctors.\129\ The legal department 
director of the Chinese Medical Doctor Association also 
reportedly warned that ``[i]f the accusation that they have 
cost the medical insurance fund money is upheld, every 
pneumoconiosis doctor in the county is likely to be found to 
have committed a crime.'' \130\
    The U.S.-based NGO China Labor Watch (CLW) published 
investigative reports in November 2017, January 2018, and June 
2018 documenting the hazardous conditions in some Chinese 
factories.

        <bullet> Toy factories. In November 2017, CLW published 
        a report on the hazardous working conditions at four 
        toy factories in China, finding that, ``For workers who 
        are exposed to toxic chemicals, the factory does not 
        provide them with adequate protective equipment.'' 
        \131\
        <bullet> Electronics Factories. After identifying in 
        2014 many labor violations at Catcher Technology--a 
        supplier to IBM, HP, Dell, Sony, and Apple--in January 
        2018, CLW published a separate investigation on the 
        continuing hazardous conditions at three of Catcher's 
        factories in Suqian municipality, Jiangsu 
        province.\132\ CLW's investigator reported developing 
        respiratory problems and also suffered eye injuries 
        while working at the factory for four weeks.\133\ In 
        June 2018, CLW published a report on a Foxconn factory 
        in Hengyang municipality, Hunan province, that makes 
        products for Amazon, including the Kindle and Echo Dot, 
        which documented a lack of protective equipment, fire 
        safety concerns, and inadequate safety training.\134\


                                                  Worker Rights
                                                Worker Rights
    Notes to Section II--Worker Rights

    \1\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
23(4); International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22(1); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 13 July 18. China has signed but not 
ratified the ICCPR. See also UN General Assembly, Report of the Special 
Rapporteur on the Rights to Freedom of Peaceful Assembly and of 
Association, Maina Kiai, 
A/71/385, 14 September 16, para. 55; PRC Constitution, issued 4 
December 82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 
04, 11 March 18, art. 35; International Trade Administration, U.S. 
Department of Commerce, ``China's Status as a Non-Market Economy,'' A-
570-053, 26 October 17, 20-22; European Commission, ``Commission Staff 
Working Document: On Significant Distortions in the Economy of the 
People's Republic of China for the Purposes of Trade Defence 
Investigations,'' 20 December 17, 332-35; Eli Friedman, ``Collective 
Bargaining in China Is Dead: The Situation Is Excellent,'' in Made in 
China Yearbook 2017: Gilded Age, eds. Ivan Franceschini and Nicholas 
Loubere (Canberra: Australian National University Press, 2018), 56.
    \2\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed 3 April 92, amended and effective 27 October 01, arts. 9-11; 
International Trade Administration, U.S. Department of Commerce, 
``China's Status as a Non-Market Economy,'' A-570-053, 26 October 17, 
20-22; European Commission, ``Commission Staff Working Document: On 
Significant Distortions in the Economy of the People's Republic of 
China for the Purposes of Trade Defence Investigations,'' 20 December 
17, 333; Eli Friedman, ``Collective Bargaining in China Is Dead: The 
Situation Is Excellent,'' in Made in China Yearbook 2017: Gilded Age, 
eds. Ivan Franceschini and Nicholas Loubere (Canberra: Australian 
National University Press, 2018), 56.
    \3\ Fan Xi, ``ACFTU: Total Number of Employees in China Reaches 391 
Million'' [Quanzong: woguo zhigong zongshu da 3.91 yi ren], Xinhua, 17 
January 18. See also Chen Xiaoyan, ``Increasing Use of Big Data To 
Strengthen the Work of Trade Unions'' [Tigao yunyong da shuju nengli 
gaijin gonghui gongzuo], Workers' Daily, 12 June 18.
    \4\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2017--China 
(Includes Tibet, Hong Kong, and Macau),'' 20 April 18; International 
Trade Administration, U.S. Department of Commerce, ``China's Status as 
a Non-Market Economy,'' A-570-053, 26 October 17, 20-22; Office of the 
U.S. Trade Representative, ``2017 Report to Congress on China's WTO 
Compliance,'' January 2018, 147; Freedom House, ``Freedom in the World 
2018--China,'' last visited 21 April 18; China Labour Bulletin, 
``China's Trade Unions Need To Stop Making Excuses and Start Looking 
for Solutions,'' 23 October 17; China Labour Bulletin, ``Construction 
Site Accident Highlights Need for Effective Trade Union Presence in the 
Workplace,'' 10 October 17; Patricia Chen and Mary Gallagher, 
``Mobilization Without Movement: How the Chinese State `Fixed' Labor 
Insurgency,'' ILR Review, 20 February 18, 6.
    \5\ ``Wang Dongming Elected China's Trade Union Chief,'' Xinhua, 23 
March 18; International Trade Administration, U.S. Department of 
Commerce, ``China's Status as a Non-Market Economy,'' A-570-053, 26 
October 17, 21.
    \6\ ``Introduction to Vice-Chairpersons, Secretary-General of 13th 
NPC Standing Committee,'' Xinhua, 18 March 18.
    \7\ ``Wang Dongming Elected China's Trade Union Chief,'' Xinhua, 23 
March 18.
    \8\ ``Introduction to Vice-Chairpersons, Secretary-General of 13th 
NPC Standing Committee,'' Xinhua, 18 March 18.
    \9\ China Labour Bulletin, ``Labour Relations FAQ,'' last visited 
20 May 18. See also Wang Jiangsong, ``A Six-Day Strike in Shanghai 
Caused by a $110 Pay Cut--Collective Action by Sanitation Workers in 
China's `New Era' of Stability Maintenance,'' China Change, 13 April 
18.
    \10\ International Labour Organization, ILO Convention (No. 87) 
Concerning Freedom of Association and Protection of the Right To 
Organise, 4 July 50, arts. 2, 3, 5. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, 14 September 16, 
paras. 3, 16-17, 54, 57.
    \11\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
23(4).
    \12\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22(1); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 13 July 18. China has signed but not 
ratified the ICCPR. See also UN General Assembly, Report of the Special 
Rapporteur on the Rights to Freedom of Peaceful Assembly and of 
Association, Maina Kiai, A/71/385, 14 September 16, para. 55.
    \13\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 13 July 18. China 
has signed and ratified the ICESCR. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, 14 September 16, 
para. 55; China Labour Bulletin, ``China Trade Unions Need To Stop 
Making Excuses and Start Looking for Solutions,'' 23 October 17.
    \14\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, amended and effective 27 August 09, arts. 16-35; PRC Labor 
Contract Law [Zhonghua renmin gongheguo laodong hetong fa], passed 29 
June 07, amended 28 December 12, effective 1 July 13, arts. 51-56; PRC 
Trade Union Law [Zhonghua renmin gongheguo gonghui fa], passed 3 April 
92, amended and effective 27 October 01, arts. 6, 20.
    \15\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, amended and effective 27 August 09, art. 33; PRC Labor 
Contract Law [Zhonghua renmin gongheguo laodong hetong fa], passed 29 
June 07, amended 28 December 12, effective 1 July 13, arts. 6, 51, 56; 
PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], passed 3 
April 92, amended and effective 27 October 01, arts. 6, 20; China 
Labour Bulletin, ``Labour Relations FAQ,'' last visited 20 May 18. 
Article 33 of the PRC Labor Law notes that ``In an enterprise that has 
not yet set up a trade union, such contracts shall be signed by and 
between representatives recommended by workers and the enterprise.''
    \16\ China Labour Bulletin, ``Labour Relations FAQ,'' last visited 
20 May 18; China Labour Bulletin, ``Release Worker Representative Fu 
Tianbo and Resume Collective Bargaining at FAW-Volkswagen,'' 13 
November 17.
    \17\ Eli Friedman, ``Collective Bargaining in China Is Dead: The 
Situation Is Excellent,'' in Made in China Yearbook 2017: Gilded Age, 
eds. Ivan Franceschini and Nicholas Loubere (Canberra: Australian 
National University Press, 2018), 57. See also Anita Chan, ``The 
Relationship Between Labour NGOs and Chinese Workers in an 
Authoritarian Regime,'' Global Labour Journal, Vol. 9, Issue 1 (January 
2018), 9, 12.
    \18\ International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work and Its Follow-Up, 18 June 
98, art. 2(a). Article 2 of the ILO Declaration on Fundamental 
Principles and Rights at Work states that ``all Members, even if they 
have not ratified the Conventions in question, have an obligation 
arising from the very fact of membership in the Organization to 
respect, to promote and to realize, in good faith and in accordance 
with the Constitution, the principles concerning the fundamental rights 
which are the subject of those Conventions, namely: (a) freedom of 
association and the effective recognition of the right to collective 
bargaining . . ..'' International Labour Organization, ``China,'' 
NORMLEX Information System on International Labour Standards, last 
visited 13 July 18. China became a member of the ILO in 1919.
    \19\ See, e.g., Jude Howell, ``Shall We Dance? Welfarist 
Incorporation and the Politics of State-Labor NGO Relations,'' China 
Quarterly, Vol. 223 (September 2015), 709; Anthony J. Spires et al., 
``Societal Support for China's Grass-Roots NGOs: Evidence From Yunnan, 
Guangdong and Beijing,'' China Journal, Vol. 71 (2014), 66-67. Spires 
et al. note that grassroots NGOs have ``emerged largely only over the 
past decade.''
    \20\ Anita Chan, ``The Relationship Between Labour NGOs and Chinese 
Workers in an Authoritarian Regime,'' Global Labour Journal, Vol. 9, 
Issue 1 (January 2018), 2, 15; Anita Chan et al., ``Interpreting 
Chinese Labour: Informalisation or Empowerment? '' in Made in China 
Yearbook 2016: Disturbances in Heaven, eds. Ivan Franceschini et al. 
(Canberra: Australian National University Press, February 2017), 37; 
Diana Fu, ``Disguised Collective Action in China,'' Comparative 
Political Studies, Vol. 50, Issue 4 (March 2017), 506-07; Tim Pringle, 
``What Do Labour NGOs in China Do? '' University of Nottingham, Asia 
Research Institute, Asia Dialogue, 17 October 16.
    \21\ Anita Chan, ``The Relationship Between Labour NGOs and Chinese 
Workers in an Authoritarian Regime,'' Global Labour Journal, Vol. 9, 
Issue 1 (January 2018), 9, 12; Eli Friedman, ``Collective Bargaining in 
China Is Dead: The Situation Is Excellent,'' in Made in China Yearbook 
2017: Gilded Age, eds. Ivan Franceschini and Nicholas Loubere 
(Canberra: Australian National University Press, 2018), 57.
    \22\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 21 April 18, sec. E3; Ivan Franceschini and Elisa Nesossi, 
``State Repression of Chinese Labor NGOs: A Chilling Effect,'' China 
Journal, No. 80 (July 2018), 121.
    \23\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17; Anita Chan, ``The Relationship Between 
Labour NGOs and Chinese Workers in an Authoritarian Regime,'' Global 
Labour Journal, Vol. 9, Issue 1 (January 2018), 2.
    \24\ Anita Chan, ``The Relationship Between Labour NGOs and Chinese 
Workers in an Authoritarian Regime,'' Global Labour Journal, Vol. 9, 
Issue 1 (January 2018), 3-5, 7, 8, 15; ] Ivan Franceschini and Elisa 
Nesossi, ``State Repression of Chinese Labor NGOs: A Chilling Effect,'' 
China Journal, No. 80 (July 2018), 115. See also Kenneth Roth, ``The 
Great Civil Society Choke-Out,'' Foreign Policy, 27 January 16.
    \25\ Ivan Franceschini and Elisa Nesossi, ``State Repression of 
Chinese Labor NGOs: A Chilling Effect,'' China Journal, No. 80 (July 
2018), 127.
    \26\ Ibid., 119.
    \27\ Zhao Yusha, ``China Urges Workers in Defense-Related Field To 
Watch Out for Foreign Spies,'' Global Times, 15 April 18; ``Government 
Cartoon Portrays `Foreign NGOs' as National Security Concern,'' Asia 
Society, ChinaFile, China NGO Project, 18 April 18.
    \28\ Zhao Yusha, ``China Urges Workers in Defense-Related Field To 
Watch Out for Foreign Spies,'' Global Times, 15 April 18; ``Government 
Cartoon Portrays `Foreign NGOs' as National Security Concern,'' Asia 
Society, ChinaFile, China NGO Project, 18 April 18.
    \29\ Zhao Yusha, ``China Urges Workers in Defense-Related Field To 
Watch Out for Foreign Spies,'' Global Times, 15 April 18.
    \30\ Ivan Franceschini and Elisa Nesossi, ``State Repression of 
Chinese Labor NGOs: A Chilling Effect,'' China Journal, No. 80 (July 
2018), 121; ``Zeng Feiyang One of 3 Labor Figures Released With 
Suspended Sentences'' [Zeng feiyang deng 3 laogong renshi bei pan 
huanxing huoshi], Radio Free Asia, 26 September 16. See also 
``Guangdong Authorities Arrest Labor Rights Advocates,'' Congressional-
Executive Commission on China, 21 January 16. For more information, see 
the Commission's Political Prisoner Database records 2014-00026 on Meng 
Han, 2015-00427 on Zeng Feiyang, 2015-00428 on Zhu Xiaomei, and 2016-
00017 on Tang Jian.
    \31\ Ivan Franceschini and Elisa Nesossi, ``State Repression of 
Chinese Labor NGOs: A Chilling Effect,'' China Journal, No. 80 (July 
2018), 121; ``Zeng Feiyang One of 3 Labor Figures Released With 
Suspended Sentences'' [Zeng feiyang deng 3 laogong renshi bei pan 
huanxing huoshi], Radio Free Asia, 26 September 16.
    \32\ Manfred Elfstrom, ``Counting Contention,'' in Made in China 
Yearbook 2017: Gilded Age, eds. Ivan Franceschini and Nicholas Loubere 
(Canberra: Australian National University Press, 2018), 64-67; Freedom 
House, ``Freedom in the World 2018--China,'' last visited 21 April 18, 
sec. E3.
    \33\ China Labour Bulletin changed their methodology beginning in 
2017. China Labour Bulletin, ``Strike Map Applies New Fixed Sampling 
Method in 2017,'' 17 February 17. For information on China Labour 
Bulletin's methodology through the end of 2016, see China Labour 
Bulletin, ``An Introduction to China Labour Bulletin's Strike Map,'' 29 
March 16.
    \34\ China Labour Bulletin, ``CLB Strike Map,'' last visited 13 
July 18; China Labour Bulletin, ``Economic Recovery Means More Bad Jobs 
for China's Workers,'' 18 January 18. See also Harvey Thomlison, 
``China's Communist Party Is Abandoning Workers,'' New York Times, 2 
April 18.
    \35\ China Labour Bulletin, ``Economic Recovery Means More Bad Jobs 
for China's Workers,'' 18 January 18; Freedom House, ``Freedom in the 
World 2018--China,'' last visited 21 April 18, sec. E3. Freedom House 
noted that ``Lu Yuyu, the blogger and researcher sentenced in August, 
had worked with his partner Li Tingyu to contribute strike data to the 
China Labour Bulletin until their detention in June 2016.''
    \36\ Geoffrey Crothall, ``China's Labour Movement in Transition,'' 
Made in China Journal, Vol. 3, Issue 2 (April-June 2018), 28, 94. 
Crothall is CLB's Communications Director.
    \37\ Catherine Lai, ``How China's Multi-Pronged Crackdown on 
Dissent Took Aim at Citizen Journalists and Rights Defence Websites,'' 
Hong Kong Free Press, 16 February 18. See also Wu Qiang, ``What Do Lu 
Yuyu's Statistics of Protest Tell Us About the Chinese Society Today? 
'' China Change, 6 July 16; CECC, 2017 Annual Report, 5 October 17, 70, 
86-87. For more information, see the Commission's Political Prisoner 
Database records 2016-00177 on Lu Yuyu and 2016-00190 on Li Tingyu.
    \38\ ``Award-Winning Chinese Civil Rights Blogger Handed 4 Years in 
Jail for `Picking Quarrels and Provoking Trouble,' '' Agence France-
Presse, reprinted in Hong Kong Free Press, 5 August 17.
    \39\ Catherine Lai, ``Chinese Court Upholds 4-Year Jail Term for 
Press Freedom Prize Winner Lu Yuyu,'' Hong Kong Free Press, 28 
September 17.
    \40\ China Labour Bulletin, ``CLB Strike Map,'' last visited 13 
July 18.
    \41\ Ibid.; China Labour Bulletin, ``Economic Recovery Means More 
Bad Jobs for China's Workers,'' 18 January 18.
    \42\ China Labour Bulletin, ``CLB Strike Map,'' last visited 13 
July 18. China Labour Bulletin, ``Economic Recovery Means More Bad Jobs 
for China's Workers,'' 18 January 18.
    \43\ China Labour Bulletin, ``Labour Relations FAQ,'' last visited 
20 May 18; International Trade Administration, U.S. Department of 
Commerce, ``China's Status as a Non-Market Economy,'' A-570-053, 26 
October 17, 5.
    \44\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1(d); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 13 July 18. China 
has signed and ratified the ICESCR. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, 14 September 16, 
paras. 54, 56-57.
    \45\ China Labour Bulletin, ``Guangdong Workers Show Once Again How 
Collective Bargaining Should Be Done,'' 14 March 18; Jane Li, ``Eight-
Day Strike at China Factory Making Michael Kors Bags Ends as Workers' 
Pension and Wage Demands Met,'' South China Morning Post, 18 March 18.
    \46\ China Labour Bulletin, ``Guangdong Workers Show Once Again How 
Collective Bargaining Should Be Done,'' 14 March 18; Jane Li, ``Eight-
Day Strike at China Factory Making Michael Kors Bags Ends as Workers' 
Pension and Wage Demands Met,'' South China Morning Post, 18 March 18.
    \47\ China Labour Bulletin, ``Guangdong Workers Show Once Again How 
Collective Bargaining Should Be Done,'' 14 March 18. See also Jane Li, 
``Eight-Day Strike at China Factory Making Michael Kors Bags Ends as 
Workers' Pension and Wage Demands Met,'' South China Morning Post, 18 
March 18.
    \48\ Wang Jiangsong, ``A Six-Day Strike in Shanghai Caused by a 
$110 Pay Cut--Collective Action by Sanitation Workers in China's `New 
Era' of Stability Maintenance,'' China Change, 13 April 18; China 
Labour Bulletin, ``Sanitation Workers Are Out on Strike Again in 
China,'' 6 April 18; Mandy Zuo, ``A Rare Protest in China's Financial 
Hub,'' Inkstone, 3 April 18.
    \49\ Wang Jiangsong, ``A Six-Day Strike in Shanghai Caused by a 
$110 Pay Cut--Collective Action by Sanitation Workers in China's `New 
Era' of Stability Maintenance,'' China Change, 13 April 18.
    \50\ Ibid.
    \51\ Ibid.; China Labour Bulletin, ``Sanitation Workers Are Out on 
Strike Again in China,'' 6 April 18; Mandy Zuo, ``A Rare Protest in 
China's Financial Hub,'' Inkstone, 3 April 18.
    \52\ Wang Jiangsong, ``A Six-Day Strike in Shanghai Caused by a 
$110 Pay Cut--Collective Action by Sanitation Workers in China's `New 
Era' of Stability Maintenance,'' China Change, 13 April 18; China 
Labour Bulletin, ``Sanitation Workers Are Out on Strike Again in 
China,'' 6 April 18. The sanitation companies had reportedly initially 
planned to reduce certain shift allowances by 560 yuan, but later 
decided to reduce the shift allowances by 260 yuan.
    \53\ China Labour Bulletin, ``Three-Week Strike at Flex Ends After 
Zhuhai Trade Union Puts Stability First,'' 19 April 18; China Labour 
Bulletin, ``Workers at Flex in Zhuhai Enter Third Week of Strike Over 
Ownership Change,'' 12 April 18.
    \54\ China Labour Bulletin, ``Three-Week Strike at Flex Ends After 
Zhuhai Trade Union Puts Stability First,'' 19 April 18; China Labour 
Bulletin, ``Workers at Flex in Zhuhai Enter Third Week of Strike Over 
Ownership Change,'' 12 April 18.
    \55\ China Labour Bulletin, ``Three-Week Strike at Flex Ends After 
Zhuhai Trade Union Puts Stability First,'' 19 April 18; China Labour 
Bulletin, ``Workers at Flex in Zhuhai Enter Third Week of Strike Over 
Ownership Change,'' 12 April 18.
    \56\ China Labour Bulletin, ``Three-Week Strike at Flex Ends After 
Zhuhai Trade Union Puts Stability First,'' 19 April 18; China Labour 
Bulletin, ``Workers at Flex in Zhuhai Enter Third Week of Strike Over 
Ownership Change,'' 12 April 18.
    \57\ Wang Jiangsong, ``The Significance of Crane Operators Across 
China Going on Strike,'' China Change, 7 May 18; China Labour Bulletin, 
``Wave of Nationwide Worker Protests Highlights the Need for Effective 
Worker Representation,'' 17 May 18.
    \58\ Wang Jiangsong, ``The Significance of Crane Operators Across 
China Going on Strike,'' China Change, 7 May 18; China Labour Bulletin, 
``Wave of Nationwide Worker Protests Highlights the Need for Effective 
Worker Representation,'' 17 May 18.
    \59\ China Labour Bulletin, ``China's Truck Drivers Strike Over 
Stagnant Pay, High Fuel Costs and Arbitrary Fines,'' 11 June 18; 
``China's Truck Drivers Stage Strike Over Rising Costs, Low Fees,'' 
Radio Free Asia, 11 June 18; Mimi Lau, ``Chinese Truck Drivers, 
Activists Warn of More Protests Over Fuel, Fines, and Cutthroat 
Rates,'' South China Morning Post, 15 June 18; Tan Jiangying, 
``Truckers on Strike and the Structural Contradictions of China's 
Logistics Industry,'' China Change, 15 June 18. See also China Digital 
Times, ``Minitrue: Delete News on Truck Drivers' Strike,'' 12 June 18.
    \60\ China Labour Bulletin, ``China's Truck Drivers Strike Over 
Stagnant Pay, High Fuel Costs and Arbitrary Fines,'' 11 June 18. See 
also China Labour Bulletin, ``Wave of Nationwide Worker Protests 
Highlights the Need for Effective Worker Representation,'' 17 May 18.
    \61\ Sue-Lin Wong and Christian Shepherd, ``China's Student 
Activists Cast Rare Light on Brewing Labor Unrest,'' Reuters, 14 August 
18; Hong Kong Confederation of Trade Unions, ``JASIC Workers' Struggle 
for Freedom of Association--The Development of a Nationwide Support,'' 
2 August 18; China Labor Watch, ``Shenzhen Jasic Workers Who 
Established a Union Have Been Arrested for `Disorderly Behavior,' '' 30 
July 18.
    \62\ Human Rights in China, ``30 Shenzhen Workers and Supporters 
Detained for Demanding To Form Labor Union,'' 30 July 18. See also 
Shenzhen Pingshan Public Security Bureau (Shenzhen pingshan gong'an), 
Weibo post, 30 July 18, 9:36 p.m.; ``Dozens Detained Amid Maoist-Led 
Rights Campaign at Chinese Factory,'' Radio Free Asia, 30 July 18.
    \63\ Yuan Yang, ``China Students Challenge Curbs on Trade 
Unionists,'' Financial Times, 2 August 18.
    \64\ Ibid. See also Hong Kong Confederation of Trade Unions, 
``JASIC Workers' Struggle for Freedom of Association--The Development 
of a Nationwide Support,'' 2 August 18.
    \65\ Li Lei, ``Wage Defaulters Face Punishment,'' China Daily, 14 
December 17. See also Ye Haoming, ``MOHRSS Demands Every Local 
Government's Construction Projects Pay Any Wages in Arrears by End of 
Year'' [Renshebu yaoqiu gedi zhengfu zai 2017 niandi qian qingchang 
gongcheng kuan tuoqian], Xinhua, 7 December 17.
    \66\ State Council General Office, Measures on Assessment of Work 
To Ensure the Payment of Migrant Workers' Wages [Baozhang nongmingong 
gongzi zhifu gongzuo kaohe banfa], issued and effective 6 December 17.
    \67\ Ibid., art. 1; State Council General Office, Opinion on 
Comprehensively Managing the Problem of Migrant Worker Wage Arrears 
[Guowuyuan bangongting guanyu quanmian zhili tuoqian nongmingong gongzi 
wenti de yijian], issued 17 January 16, 1(2).
    \68\ Li Lei, ``Wage Defaulters Face Punishment,'' China Daily, 14 
December 17. See also Ministry of Human Resources and Social Security, 
``Important: Companies Will Be Blacklisted for Failing To Pay Migrant 
Workers, MOHRSS Issues Measures To Make Clear!'' [Zhongyao: tuoqian 
nongmingong gongzi jiang bei lie ru ``hei mingdan,'' ren she bu fawen 
mingque le!], WeChat post, reprinted in State Council General Office, 
11 October 17; Xie Xiaozhen, ``Qingdao Publishes List of Ten Labor and 
Social Insurance Violators Haifeng and Other Placed on Blacklist'' 
[Qingdao gongshi 10 qi laodong baozhang weifa xingwei haifeng deng 
shang hei bang], Qingdao News, 11 December 17.
    \69\ Ministry of Human Resources and Social Security, Interim 
Measures on Managing Migrant Worker Wage Arrears ``Blacklist'' [Tuoqian 
nongmingong gongzi ``hei mingdan'' guanli zhanxing banfa], issued 25 
September 17, effective 1 January 18.
    \70\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 18.
    \71\ Rights Defense Network, ``Latest News on Gansu Linxia Migrant 
Worker Arrears Case: Zhang Chengyi Released on Bail'' [Gansu linxia 
nongmingong taoxin an zuixin xiaoxi: zhang chengyi qubao huoshi], 8 
February 18; ``Back Pay 1.2 Million Yuan, Gansu Migrant Workers 
Detained Over Wage Arrears Dispute'' [Qian xin 120 wan gansu 
nongmingong taoxin fan bei zhua], Radio Free Asia, 26 January 18. See 
also China Labour Bulletin, ``As Wage Arrears Escalate in the Run Up to 
the Lunar New Year, the Trade Union Needs To Act,'' 21 November 17. For 
more information on Zhang Chengyi, see the Commission's Political 
Prisoner Database record 2018-00062.
    \72\ Rights Defense Network, ``Latest News on Gansu Linxia Migrant 
Worker Arrears Case: Zhang Chengyi Released on Bail'' [Gansu linxia 
nongmingong taoxin an zuixin xiaoxi: zhang chengyi qubao huoshi], 8 
February 18.
    \73\ For information on workers' low levels of social insurance 
coverage in previous reporting years, see CECC, 2017 Annual Report, 5 
October 17, 90; CECC, 2016 Annual Report, 6 October 16, 81-82; CECC, 
2015 Annual Report, 8 October 15, 87-88; CECC, 2014 Annual Report, 9 
October 14, 75.
    \74\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, art. 2.
    \75\ Ibid., arts. 10, 23, 33, 44, 53. See also China Labour 
Bulletin, ``China's Social Security System,'' last visited 15 June 18.
    \76\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2; Ministry of Human 
Resources and Social Security, ``2016 Annual Statistics Bulletin on 
Human Resources and Social Security Developments'' [2016 niandu renli 
ziyuan he shehui baozhang shiye fazhan tongji gongbao], 31 May 17, 
secs. 1-2.
    \77\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2; Ministry of Human 
Resources and Social Security, ``2016 Annual Statistics Bulletin on 
Human Resources and Social Security Developments'' [2016 niandu renli 
ziyuan he shehui baozhang shiye fazhan tongji gongbao], 31 May 17, 
secs. 1-2.
    \78\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2; Ministry of Human 
Resources and Social Security, ``2016 Annual Statistics Bulletin on 
Human Resources and Social Security Developments'' [2016 niandu renli 
ziyuan he shehui baozhang shiye fazhan tongji gongbao], 31 May 17, 
secs. 1-2.
    \79\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2; Ministry of Human 
Resources and Social Security, ``2016 Annual Statistics Bulletin on 
Human Resources and Social Security Developments'' [2016 niandu renli 
ziyuan he shehui baozhang shiye fazhan tongji gongbao], 31 May 17, 
secs. 1-2.
    \80\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2; Ministry of Human 
Resources and Social Security, ``2016 Annual Statistics Bulletin on 
Human Resources and Social Security Developments'' [2016 niandu renli 
ziyuan he shehui baozhang shiye fazhan tongji gongbao], 31 May 17, 
secs. 1-2.
    \81\ Ministry of Human Resources and Social Security, ``2017 Annual 
Statistics Bulletin on Human Resources and Social Security 
Developments'' [2017 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 21 May 18, secs. 1-2.]
    \82\ China Labour Bulletin, ``China's Social Security System,'' 
last visited 15 June 18.
    \83\ Ministry of Human Resouces and Social Security and Ministry of 
Finance, Enterprise Annuity Measures [Qiye nianjin banfa], issued 18 
December 17, effective 1 February 18, arts. 1-2; ``National Government 
Issues New Enterprise Annuity Rules,'' Baker McKenzie FenXun, China 
Employment Law Update, February 2018.
    \84\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, art. 2; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, art. 2.
    \85\ China Labour Bulletin, ``A Decade On, China's Labour Contract 
Law Has Failed To Deliver,'' 28 December 17. See also Ronald C. Brown, 
``Up and Down the Multinational Corporations' Global Labor Supply 
Chains: Making Remedies That Work in China,'' Pacific Basin Law 
Journal, Vol. 34, No. 2 (2017), 118-23.
    \86\ See, e.g., China Labour Bulletin, ``Economic Recovery Means 
More Bad Jobs for China's Workers,'' 18 January 18; China Labor Watch, 
``Amazon Profits From Secretly Oppressing Its Supplier's Workers: An 
Investigative Report on Henyang Foxconn,'' 10 June 18, 3-4. See also 
Ronald C. Brown, ``Up and Down the Multinational Corporations' Global 
Labor Supply Chains: Making Remedies That Work in China,'' Pacific 
Basin Law Journal, Vol. 34, No. 2 (2017), 118-23. For information on 
contract or dispatch labor from previous reporting years, see CECC, 
2017 Annual Report, 5 October 17, 90-91; CECC, 2016 Annual Report, 6 
October 16, 86; CECC, 2015 Annual Report, 8 October 15, 92; CECC, 2014 
Annual Report, 9 October 14, 75-76; CECC, 2013 Annual Report, 10 
October 13, 71-72.
    \87\ PRC Labor Contract Law [Zhonghua renmin gongheguo laodong 
hetong fa], passed 29 June 07, amended 28 December 12, effective 1 July 
13, arts. 63, 66.
    \88\ China Labour Bulletin, ``Chinese Volkswagen Workers Call on 
German Parent Company To Assume Responsibility for Violations,'' 13 
July 17; China Labour Bulletin, ``One Year On, the Struggle Continues 
for Volkswagen Workers in Changchun,'' 8 November 17; China Labour 
Bulletin, ``Release Worker Representative Fu Tianbo and Resume 
Collective Bargaining at FAW-Volkswagen,'' 13 November 17; Xia Nu, 
``Has the Workers' Protest at FAW-VW Ended? '' Gongchao, 15 January 18.
    \89\ China Labour Bulletin, ``Chinese Volkswagen Workers Call on 
German Parent Company To Assume Responsibility for Violations,'' 13 
July 17; China Labour Bulletin, ``One Year On, the Struggle Continues 
for Volkswagen Workers in Changchun,'' 8 November 17; China Labour 
Bulletin, ``Release Worker Representative Fu Tianbo and Resume 
Collective Bargaining at FAW-Volkswagen,'' 13 November 17; Xia Nu, 
``Has the Workers' Protest at FAW-VW Ended? '' Gongchao, 15 January 18.
    \90\ China Labour Bulletin, ``Chinese Volkswagen Workers Call on 
German Parent Company To Assume Responsibility for Violations,'' 13 
July 17; China Labour Bulletin, ``Release Worker Representative Fu 
Tianbo and Resume Collective Bargaining at FAW-Volkswagen,'' 13 
November 17; Xia Nu, ``Has the Workers' Protest at FAW-VW Ended? '' 
Gongchao, 15 January 18. For more information, see the Commission's 
Political Prisoner Database records 2017-00362 on Fu Tianbo, 2017-00363 
on Wang Shuai, and 2017-00364 on Ai Zhenyu.
    \91\ Business & Human Rights Resource Centre, ``Volkswagen Response 
to Allegations on Labour Issues at Changchun FAW-Volkswagen,'' 7 August 
17.
    \92\ China Labour Bulletin, ``One Year On, the Struggle Continues 
for Volkswagen Workers in Changchun,'' 8 November 17.
    \93\ Xia Nu, ``Has the Workers' Protest at FAW-VW Ended? '' 
Gongchao, 15 January 18; China Labour Bulletin, ``Release Worker 
Representative Fu Tianbo and Resume Collective Bargaining at FAW-
Volkswagen,'' 13 November 17; China Labour Bulletin, ``FAW-Volkswagen 
Agency Workers Issue Letter in German Calling for Accountability and 
Solidarity,'' 19 July 17.
    \94\ Sheng Yulei, ``Interns Are Not Cheap Labor (People's Daily 
Commentary)'' [Shixi sheng bushi lianjia laodongli (renmin shiping)], 
People's Daily, 25 January 18; ``Foxconn Stops Interns' Illegal 
Overtime at iPhone X Factory,'' BBC, 23 November 17. See also Jenny 
Chan, ``#islaveat10,'' in Made in China Yearbook 2017: Gilded Age, eds. 
Ivan Franceschini and Nicholas Loubere (Canberra: Australian National 
University Press, 2018), 104. For information on the abuse of student 
labor in previous reporting years, see CECC, 2017 Annual Report, 5 
October 17, 91; CECC, 2016 Annual Report, 6 October 16, 86-87; CECC, 
2015 Annual Report, 8 October 15, 87; CECC, 2014 Annual Report, 9 
October 14, 77.
    \95\ Yuan Yang, ``Apple's iPhone X Assembled by Illegal Student 
Labour,'' Financial Times, 21 November 17.
    \96\ Cai Yiwen, ``Students Fight Back Against Forced Factory 
Labor,'' Sixth Tone, 25 January 18.
    \97\ Ministry of Education and Ministry of Finance, Measures on 
Managing Secondary Vocational School Student Internships [Zhongdeng 
zhiye xuexiao xuesheng shixi guanli banfa], issued and effective 26 
June 07, art. 5; Cai Yiwen, ``Students Fight Back Against Forced 
Factory Labor,'' Sixth Tone, 25 January 18.
    \98\ Ministry of Education and Ministry of Finance, Measures on 
Managing Secondary Vocational School Student Internships [Zhongdeng 
zhiye xuexiao xuesheng shixi guanli banfa], issued and effective 26 
June 07, art. 5.
    \99\ Chi Dehua, ``China's Working-Age Population Continues To 
Shrink,'' Global Times, 1 March 18.
    \100\ Population Division, UN Department of Economic and Social 
Affairs, ``World Population Prospects: The 2017 Revision, Volume 1: 
Comprehensive Tables,'' ST/ESA/SER.A/399, 2017, 238-39. See also Qiushi 
Feng et al., ``Age of Retirement and Human Capital in an Aging China, 
2015-2050,'' European Journal of Population, 13 February 18, Table 2.
    \101\ Qiushi Feng et al., ``Age of Retirement and Human Capital in 
an Aging China, 2015-2050,'' European Journal of Population (13 
February 18), Table 2.
    \102\ Qiushi Feng et al., ``Age of Retirement and Human Capital in 
an Aging China, 2015-2050,'' European Journal of Population (13 
February 18); Chen Weihua, ``Time for a Change to One-Size-Fits-All 
Retirement Policy,'' China Daily, 11 March 17. See also Wang Yong, 
Ministry of Human Resources and Social Security, ``Raising the Legal 
Retirement Age Is an Inevitable Trend'' [Tigao fading tuixiu nianling 
shi biran qushi], 25 July 16.
    \103\ State Council, PRC Labor Contract Law Implementing 
Regulations [Zhonghua renmin gongheguo laodong hetong fa shishi 
tiaoli], issued and effective 18 September 08, art. 21; PRC Labor 
Contract Law [Zhonghua renmin gongheguo laodong hetong fa], passed 29 
June 07, amended 28 December 12, effective 1 July 13, art. 44(2). The 
PRC Labor Contract Law stipulates that if a worker receives a pension, 
his or her labor contract terminates (zhongzhi), but the implementing 
regulations require that contracts be terminated for all workers upon 
reaching the legal retirement age.
    \104\ See, e.g., China Labour Bulletin, ``Work Safety,'' January 
2018; Yang Zhaokui, ``What Is the Cause of the Frequent Rights and 
Interests Problems for Over-Age Migrant Workers? '' [Chaoling 
nongmingong quanyi wenti pin fa yuanyin hezai?], Worker's Daily, 17 May 
18; ``Guangdong High Court's Recent Labour Disputes Explanation,'' Luo 
Ai, King & Wood Mallesons, 29 September 17.
    \105\ International Labour Organization, ``Child Labour in China 
and Mongolia,'' last visited 15 June 18.
    \106\ For information on child labor from previous reporting years, 
see CECC, 2017 Annual Report, 5 October 17, 87-88; CECC, 2016 Annual 
Report, 6 October 16, 85-86; CECC, 2015 Annual Report, 8 October 15, 
86.
    \107\ Xie Chunjiao, ``Child Courier Sparks Online Concern,'' China 
Daily, 16 January 18; George Pierpoint and Kerry Allen, ``Seven-Year-
Old Delivery Boy Causes Outrage in China,'' BBC, 16 January 18.
    \108\ Yang Zhaokui, ``Child Laborer Injured, Enterprise Performed 
`Clandestine Swap' To Avoid Paying Compensation'' [Tonggong shoushang 
qiye shangyan ``diaobao ji'' taobi peichang], Workers' Daily, 11 
January 18.
    \109\ Ibid.
    \110\ ``French NGOs Sue Samsung Over Alleged Child Labour in 
China,'' Radio France Internationale, 11 January 18. See also European 
Coalition for Corporate Justice, ``French Corporate Duty of Vigilance 
Law--Frequently Asked Questions,'' 24 March 17, 1.
    \111\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 
5 July 94, effective 1 January 95, art. 15; PRC Law on the Protection 
of Minors [Zhonghua renmin gongheguo wei chengnian ren baohu fa], 
passed 4 September 91, amended 29 December 06, effective 1 June 07, 
art. 38. Article 15 of the PRC Labor Law prohibits the employment of 
minors under 16, with exceptions for literature and the arts, sports, 
and special handicrafts, provided the employer undergoes inspection and 
approval and guarantees the child's right to compulsory education.
    \112\ International Labour Organization, ILO Convention (No. 138) 
Concerning Minimum Age for Admission to Employment, adopted 26 June 73, 
entry into force 19 June 76; International Labour Organization, ILO 
Convention (No. 182) Concerning the Prohibition and Immediate Action 
for the Elimination of the Worst Forms of Child Labour, adopted 17 June 
99, entry into force 19 November 00; International Labour Organization, 
``Ratifications of C138--Minimum Age Convention, 1973 (No. 138),'' last 
visited 13 July 18; International Labour Organization, ``Ratifications 
of C182--Worst Forms of Child Labour Convention, 1999 (No. 182),'' last 
visited 13 July 18.
    \113\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2017 National 
Economic and Social Development,'' 28 February 18, sec. XII.
    \114\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2016 National 
Economic and Social Development,'' 28 February 17, sec. XII.
    \115\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2015 National 
Economic and Social Development,'' 29 February 16, sec. XII.
    \116\ China Labour Bulletin, ``Work Safety,'' January 2018. See 
also National Bureau of Statistics of China, ``Statistical Communique 
of the People's Republic of China on the 2016 National Economic and 
Social Development,'' 28 February 17, endnote 59. According to the NBS, 
``The State Administration of Work Safety reformed on work accidents 
statistics in 2016. As non-production accidents were excluded, the 
statistical coverage was changed. The year-on-year data was calculated 
on a comparable basis.''
    \117\ China Labour Bulletin, ``Work Safety,'' January 2018.
    \118\ Muyu Xu and Aizhu Chen, ``Coal Mine Blast Kills Four in 
Southern China, Another Nine Missing--Xinhua,'' Reuters, 6 August 18; 
Ou Dongqu, ``Death Toll From China Mine Accident Rises to 13,'' Xinhua, 
9 August 18. According to Reuters, local officials had reportedly 
conducted a safety inspection of the mine in late April and found a 
number of safety issues. See also China Labour Bulletin, ``Southwest 
China Remains a Blackspot for Coal Mine Safety,'' 8 August 18.
    \119\ China Labour Bulletin, ``How China Outsourced Work-Related 
Accidents and Deaths,'' 16 January 18.
    \120\ China Labour Bulletin, ``Work Safety,'' January 2018; China 
Labour Bulletin, ``How China Outsourced Work-Related Accidents and 
Deaths,'' 16 January 18.
    \121\ Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies [Zhonggong zhongyang 
guanyu shenhua dang he guojia jigou gaige de jueding], Xinhua, 4 March 
18; ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18; State Council, Institutional Reform Plan 
[Guowuyuan jigou gaige fang'an], 17 March 18; ``State Council 
Institutional Reform Plan Passed at First Session of the 13th National 
People's Congress'' [Shisan jie quanguo renda yici huiyi pizhun 
guowuyuan jigou gaige fang'an], Xinhua, 17 March 18.
    \122\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 30; State Council, Institutional Reform Plan 
[Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(7).
    \123\ China Labour Bulletin, ``China Proposes Abolition of Work 
Safety Body,'' 13 March 18.
    \124\ National Health and Family Planning Commission, ``2015-2016 
Report on Occupational Illness Nationwide'' [2015-2016 nian quanguo 
zhiye bing baogao qingkuang], 28 December 17, 1, 3-4.
    \125\ Ibid., 3.
    \126\ ``Close to 100 Pneumoconiosis Sufferers and Their Families 
Defending Rights at Shenzhen Municipal Government for Days'' [Jin bai 
wei chenfei bing huanzhe ji yishu lianri zai shenzhen shi zhengfu 
weiquan], Radio Free Asia, 16 January 18; China Labour Bulletin, ``Work 
Safety,'' 16 January 18.
    \127\ Wang Xiaodong, ``Call To Lift Rules on Lung Disease,'' China 
Daily, 12 March 18.
    \128\ ``The First Pneumoconiosis Doctor Criminal Case in China: 
Differences in Reading X-ray Slides Considered Seriously Irresponsible 
and a Crime,'' [Quanguo shouli chen feibing yisheng xingshi an: du pian 
chayi bei shiwei yanzhong bu fuze er dingzui], Observer, 20 June 18; 
Alice Yan, ``Chinese Doctors Accused of Wrongly Diagnosing Hundreds of 
Workers With Black Lung Disease,'' South China Morning Post, 23 June 
18; China Labour Bulletin, ``Three Doctors Detained for Allegedly 
Misdiagnosing Occupational Diseases,'' 21 June 18.
    \129\ Alice Yan, ``Chinese Doctors Accused of Wrongly Diagnosing 
Hundreds of Workers With Black Lung Disease,'' South China Morning 
Post, 23 June 18. See also ``The First Pneumoconiosis Doctor Criminal 
Case in China: Differences in Reading X-ray Slides Considered Seriously 
Irresponsible and a Crime,'' [Quanguo shouli chen feibing yisheng 
xingshi an: du pian chayi bei shiwei yanzhong bu fuze er dingzui], 
Observer, 20 June 18.
    \130\ Alice Yan, ``Chinese Doctors Accused of Wrongly Diagnosing 
Hundreds of Workers With Black Lung Disease,'' South China Morning 
Post, 23 June 18. See also ``The First Pneumoconiosis Doctor Criminal 
Case in China: Differences in Reading X-ray Slides Considered Serious 
Irresponsibility and a Crime,'' [Quanguo shouli chen feibing yisheng 
xingshi an: du pian chayi bei shiwei yanzhong bu fuze er dingzui], 
Observer, 20 June 18.
    \131\ China Labor Watch, ``The Dark Side of the Toy World: 
Investigation Into the Sweatshops of Disney, Mattel, Hasbro, and 
Walmart,'' 27 November 17, 2-3, 25, 48, 64, 79.
    \132\ China Labor Watch, ``Apple's Failed CSR Audit: A Report on 
Catcher Technology Polluting the Environment and Harming the Health of 
Workers,'' 16 January 18, 3, 6, 8-9, 15, 36.
    \133\ Ibid., 8, 36.
    \134\ China Labor Watch, ``Amazon Profits From Secretly Oppressing 
Its Supplier's Workers: An Investigative Report on Hengyang Foxconn,'' 
10 June 18, 3.


                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice

                            Criminal Justice


                          Arbitrary Detention

    Authorities continued to use various forms of arbitrary 
detention to deprive individuals of their liberty, contravening 
international human rights standards.\1\ The UN Working Group 
on Arbitrary Detention classifies detention as ``arbitrary'' 
when there is no legal basis for the deprivation of liberty, 
when detention results from the exercise of certain fundamental 
rights, or when non-observance of international fair trial 
norms is particularly serious.\2\ Descriptions of selected 
forms of arbitrary detention follow. [For information on 
arbitrary detention in ``political reeducation'' centers, see 
Section IV--Xinjiang.]

                              BLACK JAILS

    Authorities continued to hold individuals in ``black 
jails,'' extralegal detention sites that operate outside of 
China's judicial and administrative detention systems.\3\ In 
some cases, authorities held petitioners (those who use the 
petitioning system, or xinfang, to report grievances to 
authorities) in ``black jails'' in connection to ``stability 
maintenance'' efforts during or near the 19th National Congress 
of the Chinese Communist Party in October 2017 and annual 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference in March 2018.\4\ Examples 
include petitioners Wei Qin, held in Chongming district, 
Shanghai municipality; \5\ Cai Xiaomin,\6\ held in Pudong 
district, Shanghai;\7\ Liu Yu,\8\ held in Qionglai city, 
Chengdu municipality, Sichuan province; \9\ and at least 14 
petitioners in Wuhan municipality, Hubei province.\10\ 
Authorities reportedly beat Cai and Liu.\11\

                         PSYCHIATRIC FACILITIES

    Authorities continued to forcibly commit individuals 
without mental illness to psychiatric facilities--a practice 
known as ``bei jingshenbing''--to punish rights advocacy, 
despite protections in the PRC Mental Health Law \12\ and 
related regulations.\13\ [For more information, see Section 
II--Public Health.] For example, in February 2018, friends of 
rights advocate Zhang Qi found her--reportedly without signs of 
mental illness--forcibly committed at a psychiatric facility in 
Guangzhou municipality, Guangdong province, after authorities 
held her incommunicado for months.\14\ In another case, in 
January 2018, a friend of petitioner Ma Shengfen \15\ confirmed 
authorities forcibly committed Ma to a psychiatric hospital in 
Tongren municipality, Guizhou province, in late 2016, after 
authorities detained her in connection to petitioning.\16\

                         EDUCATIONAL PLACEMENT

    In March 2018, the Dui Hua Foundation reported that it 
found the first known case of ``educational placement'' (anzhi 
jiaoyu), an indefinite form of arbitrary detention for 
terrorism and extremism cases that can extend beyond completion 
of a criminal sentence.\17\ The PRC Counterterrorism Law gives 
intermediate people's courts authority to approve the transfer 
of a prisoner into educational placement upon completion of a 
criminal sentence, as well as approve release from educational 
placement, based on official evaluations of the individual's 
``danger to society.'' \18\ In August 2017, the Urumqi 
Municipal Intermediate People's Court in Urumqi municipality, 
Xinjiang Uyghur Autonomous Region, reportedly approved 
educational placement for Uyghur Ismaili Rozi (Yisimayili Ruze) 
less than a month before he would have completed a 10-year 
sentence for ``inciting separatism,'' \19\ raising concerns 
about the timespan for educational placement, application 
beyond cases of terrorism and extremism, evaluation process, 
and ethnic minorities'--including Uyghurs'--heightened 
likelihood of serving educational placement.\20\

                        Administrative Detention

    Authorities continued to use extrajudicial, administrative 
forms of detention, granting officials discretion in the 
treatment of detainees without judicial oversight or 
protections for detainees' rights under the PRC Criminal 
Procedure Law (CPL). For example, authorities continued to 
operate compulsory drug detoxification centers \21\ where 
officials can hold detainees for up to two years.\22\ As of 
January 31, 2018, authorities reportedly held Falun Gong 
practitioner Zhu Xuemei in a drug detoxification center in 
Guizhou province, after she refused to renounce her belief in 
Falun Gong.\23\ This past year, Zhu Zhengfu--a member of the 
Chinese People's Political Consultative Conference and Vice 
President of the All China Lawyers Association--called for the 
abolition of ``custody and education'' (shourong jiaoyu),\24\ 
in which public security officials can detain those accused of 
prostitution and their clients for six months to two years 
without judicial oversight.\25\ Zhu compared the practice to 
reeducation through labor--abolished in 2013 \26\--for allowing 
administrative authorities to impose lengthy deprivation of 
liberty.\27\ The Commission did not observe reports detailing 
specific cases of ``custody and education'' this past year, but 
international observers expressed concerns about crackdowns on 
prostitution, abuse of authority by ``custody and education'' 
center officials, emphasis on punishment over rehabilitation, 
and high recidivism rates among ``custody and education'' 
detainees.\28\

------------------------------------------------------------------------
         ``Confinement'' (Liuzhi) Under the PRC Supervision Law
-------------------------------------------------------------------------
  In March 2018, the National People's Congress passed the PRC
 Supervision Law (Supervision Law),\29\ authorizing the newly
 established National Supervisory Commission (NSC) to investigate
 suspected official misconduct \30\ using methods including
 ``confinement'' (liuzhi),\31\ an extrajudicial form of detention that
 allows NSC officials to hold individuals without a guarantee of access
 to counsel.\32\ A March 2018 amendment to China's Constitution \33\
 gives the NSC parallel status to that of the Supreme People's Court and
 Supreme People's Procuratorate,\34\ and NSC officials may place
 individuals in ``confinement'' (liuzhi) when ``the circumstances are
 particularly grave or complex'' or authorities deem the detainee at
 risk of flight, suicide, tampering with evidence, or otherwise
 obstructing the investigation.\35\ According to experts, the
 Supervision Law appears to allow the NSC to place in ``confinement''
 anyone suspected of involvement in bribery or official misconduct,\36\
 which exceeds its general supervisory jurisdiction.\37\ The Supervision
 Law also grants exceptions to the requirement that authorities notify
 the employment unit and family of those in ``confinement,'' when
 certain factors could possibly obstruct an investigation.\38\
 ``Confinement'' can last up to three months, and in ``special
 circumstances''--which the Supervision Law does not define--may be
 extended by an additional three months with NSC approval.\39\
  Official sources stated that ``confinement'' would replace ``double
 designation'' (shuanggui) \40\--an extrajudicial investigative process
 for Communist Party members \41\--and observers expressed concern that
 ``confinement'' would perpetuate abuses that reportedly have occurred
 under ``double designation,'' such as torture, coerced confessions, and
 denial of access to counsel, and extend the use of such methods beyond
 Party members.\42\
  On May 5, 2018, supervisory authorities in Jianyang district, Nanping
 municipality, Fujian province, notified the family of Chen Yong--the
 former driver for a local official--that Chen died during
 ``confinement,'' reportedly the first such case.\43\ Chen's body
 reportedly showed signs of abuse.\44\ Authorities reportedly told
 Chen's family that he ``collapsed'' during interrogation but did not
 specify a cause of death.\45\ NSC officials also reportedly refused
 Chen's family access to interrogation recordings.\46\
------------------------------------------------------------------------

             Use of Criminal Law To Punish Rights Advocates

    This past year, authorities continued to detain individuals 
under broad provisions in the PRC Criminal Law to suppress 
rights advocacy and other activities protected under 
international human rights standards.\47\ Selected examples 
follow.

        <bullet> Inciting subversion of state power. The PRC 
        Criminal Law classifies certain actions as ``crimes of 
        endangering state security,'' which can carry multi-
        year sentences or the death penalty.\48\ On November 
        21, 2017, the Changsha Municipal Intermediate People's 
        Court in Hunan province sentenced Jiang Tianyong \49\--
        a lawyer disbarred in 2009 \50\--to two years in prison 
        for ``inciting subversion of state power'' \51\ in 
        apparent connection to his human rights work.\52\ 
        Associates of Jiang said he confessed under duress,\53\ 
        and UN experts expressed concern that Jiang was at risk 
        of torture while in custody.\54\ On April 17, 2018, the 
        Tianjin Municipal High People's Court upheld on appeal 
        an eight-year sentence for Wu Gan \55\ for activities 
        including ``inciting subversion of state power'' \56\ 
        in connection to posting ``subversive'' language online 
        and accepting interviews with foreign media.\57\ On 
        September 2, 2017, public security officials from 
        Zhuhai municipality, Guangdong province, criminally 
        detained human rights non-governmental organization 
        executive director Zhen Jianghua \58\ on suspicion of 
        inciting subversion.\59\ On August 10, 2018, the Zhuhai 
        Intermediate People's Court reportedly tried Zhen 
        without informing either Zhen's defense lawyers or his 
        family members.\60\
        <bullet> Picking quarrels and provoking trouble. In 
        October 2017, public security officials in Xuancheng 
        municipality, Anhui province, reportedly detained 
        driver Wu Kemu \61\ on suspicion of ``picking quarrels 
        and provoking trouble.'' \62\ Associates of Wu 
        reportedly did not know the reason for his detention, 
        although authorities reportedly detained Wu twice 
        previously after he posted online videos about official 
        misconduct.\63\ Authorities in Xiqing district, Tianjin 
        municipality, reportedly criminally detained petitioner 
        Yao Lijuan \64\ on suspicion of ``picking quarrels and 
        provoking trouble'' after--while under home 
        confinement--she filmed officials in or near her home 
        and uploaded the video to the social media platform 
        WeChat.\65\ Other examples of authorities detaining 
        individuals on this charge include petitioner Peng 
        Miaolin,\66\ rights advocate Xu Qin,\67\ and rights 
        lawyer Li Yuhan,\68\ whose case is discussed below.
        <bullet> Using a cult organization to undermine 
        implementation of the law. Authorities continued to 
        charge members of religious communities and spiritual 
        movements, including Falun Gong, with ``using a cult 
        organization to undermine implementation of the law'' 
        (Article 300).\69\ The Dui Hua Foundation reported 
        finding approximately 800 new cases of Article 300 
        convictions in 2017 from official sources--and 900 from 
        unofficial sources--including cases of Falun Gong 
        practitioners, followers of the Church of Almighty God 
        sect, and others.\70\ On January 5, 2018, the Shenzhen 
        Intermediate People's Court, in Shenzhen municipality, 
        Guangdong province, upheld the sentences on appeal of 
        Miew Cheu Siang \71\ (one year and six months)--a 
        Malaysian citizen--and his wife Yu Linglan \72\ (five 
        years) under Article 300 in connection to possession 
        and distribution of Falun Gong materials.\73\ [For more 
        information, see Section II--Freedom of Religion.]
        <bullet> Other criminal law provisions. Authorities 
        accused rights advocates and others of other criminal 
        offenses, including ``illegal business activity,'' \74\ 
        ``gathering a crowd to disturb traffic order,'' \75\ 
        ``gathering a crowd to disturb public order,'' \76\ and 
        ``extortion and blackmail.'' \77\

 Ongoing Challenges in the Implementation of the Criminal Procedure Law

    This past year, authorities took steps to change 
legislation affecting the rights of prisoners and detainees. In 
addition, the Commission continued to observe reports of 
authorities violating the rights of detainees, despite 
protections in the PRC Criminal Procedure Law (CPL) \78\ and 
international human rights standards.\79\ Selected issues and 
examples are described below.

                        LEGISLATIVE DEVELOPMENTS

    Authorities took steps to change national legislation 
affecting the rights of prisoners and detainees. In April 2018, 
a draft CPL amendment was submitted to the National People's 
Congress Standing Committee for deliberation.\80\ The draft 
amendment specifies procedures for transferring cases for 
prosecution from the National Supervisory Commission (NSC) to 
procuratorial authorities, as well as transferring individuals 
in ``confinement'' (liuzhi) to procuratorial authorities for 
detention.\81\ If implemented as written, the amendment would 
allow courts to try defendants in absentia in corruption 
cases,\82\ violating international fair trial standards.\83\ It 
would also allow for lenient sentencing if the defendant admits 
to a crime, does not dispute the facts of the case, and 
willingly accepts punishment.\84\ Further, it would allow for 
expedited sentencing when a defendant facing a maximum three-
year sentence in a basic people's court has confessed and 
accepted punishment,\85\ raising concerns about the reliance on 
confessions--sometimes coerced--in China's criminal justice 
system.\86\

                          COERCED CONFESSIONS

    Authorities continued to coerce detainees to confess guilt 
to crimes, in violation of the CPL,\87\ in some cases coercing 
detainees to recite apparently scripted remarks in court or on 
camera.\88\ For example, in February 2018, Swedish citizen Gui 
Minhai \89\--co-owner of a company that sold books critical of 
Chinese leaders, and whom authorities detained in January 2018 
as he was en route to Beijing municipality with Swedish 
diplomats for a medical exam \90\--gave a televised confession 
for allegedly cooperating with Swedish authorities to attempt 
to leave China.\91\ This reportedly was his third televised 
confession in custody.\92\ In another case, on September 11, 
2017, Taiwan college employee and non-governmental organization 
volunteer Lee Ming-cheh \93\ reportedly confessed in court to 
``subversion of state power.'' \94\ A Chinese Human Rights 
Defenders researcher reportedly said that Lee ``had already 
`confessed' before the trial . . .. There is a strong 
likelihood that he was tortured to force a confession.'' \95\ 
Before the trial, Lee's wife indicated he would only confess 
involuntarily.\96\

                      PROLONGED PRETRIAL DETENTION

    Authorities in some cases held suspects in pretrial 
detention beyond limits allowed in the CPL \97\ and 
international human rights standards.\98\ For example, 
observers reportedly were unable to contact rights lawyer Wang 
Quanzhang \99\ since authorities detained him on July 10, 2015, 
amid a widespread crackdown on rights lawyers and 
advocates.\100\ On July 13, 2018, Wang's wife reported that a 
friend told her another lawyer reported seeing Wang at the 
Tianjin No. 1 Municipal Detention Center.\101\ On February 14, 
2017, the Tianjin No. 2 Municipal People's Procuratorate 
reportedly indicted Wang for subversion,\102\ but the 
Commission did not observe reports of Wang's case reaching 
trial. In another case, authorities reportedly postponed the 
June 20, 2018, trial of 64 Tianwang website founder Huang 
Qi,\103\ whom authorities detained on November 28, 2016,\104\ 
and approved his arrest on the charge of ``illegally providing 
state secrets and intelligence for overseas entities.'' \105\ 
According to an August 18, 2018, Radio Free Asia report, 
authorities had not set a new trial date.\106\

                           ACCESS TO COUNSEL

    Authorities continued to deny some criminal suspects 
meetings with their lawyers, particularly in cases involving 
rights advocates. Chinese law grants suspects and defendants 
the right to hire \107\ and meet with defense counsel,\108\ but 
it restricts meetings in cases of endangering state security, 
terrorism, or significant bribes,\109\ as well in cases of 
residential surveillance,\110\ contravening international 
standards.\111\ On or after October 17, 2017, public security 
officials in Shijingshan district, Beijing municipality, denied 
defense lawyer Ren Quanniu's request for a meeting with his 
client, human rights website editor Ding Lingjie,\112\ whom 
authorities detained in September 2017 in likely connection to 
the detention of the website's founder, Liu Feiyue.\113\ In 
another case, in July 2018, public security officials from 
Chenzhou municipality, Hunan province, placed internet 
commentator Chen Jieren \114\ under ``residential surveillance 
at a designated location'' on suspicion of ``extortion'' and 
``illegal business activity'' after he posted online about 
alleged official misconduct--also detaining Chen's wife, two 
brothers, and two assistants.\115\ NSC officials reportedly 
instructed public security officials to deny Chen meetings with 
his lawyer.\116\
    In early 2018, Ministry of Justice (MOJ) officials 
indicated authorities would expand a pilot program, established 
jointly with the Supreme People's Court in October 2017 in 
select locations, to increase access to criminal defense 
counsel.\117\ According to an MOJ official, the percentage of 
legal aid cases involving a defense lawyer in three 
municipalities in Zhejiang province increased after the pilot 
program began.\118\ The effect of the planned expansion 
remained unclear, and authorities' continuing efforts to punish 
human rights lawyers for their work appeared at odds with the 
program's stated goals.\119\ [For more information on access to 
counsel and the harassment and prosecution of rights lawyers, 
see Section III--Access to Justice.]

           RESIDENTIAL SURVEILLANCE AT A DESIGNATED LOCATION

    Authorities continued to place some criminal suspects in 
``residential surveillance at a designated location'' 
(RSDL),\120\ a form of incommunicado detention that can last up 
to six months,\121\ restricts access to counsel,\122\ and 
places detainees at risk of abuse by authorities.\123\ In 
January 2018, public security officials in Tongshan district, 
Xuzhou municipality, Jiangsu province, placed lawyer Yu 
Wensheng \124\ under RSDL on suspicion of inciting subversion 
in connection to comments he posted on Twitter advocating for 
constitutional reform.\125\ In October 2017, public security 
officials in Fengtai district, Beijing municipality, reportedly 
placed environmental petitioner Ji Shulong \126\ under RSDL in 
connection to the 19th Party Congress.\127\

                      Torture and Abuse in Custody

    Authorities continued to torture and abuse detainees in 
some cases,\128\ violating protections in the PRC Criminal 
Procedure Law \129\ and international standards.\130\ For 
example, officials at the Shenyang No. 1 Municipal Public 
Security Bureau (PSB) Detention Center in Shenyang 
municipality, Liaoning province, reportedly abused rights 
lawyer Li Yuhan,\131\ whom authorities detained on October 9, 
2017, in apparent connection to the 19th Party Congress and 
Li's previous representation of rights lawyer Wang Yu.\132\ 
Public security officials reportedly instructed other detainees 
to harass and abuse Li, including by throwing her food on the 
bathroom floor, urinating on her food, and throwing cold water 
on her and then allowing her to shiver until she lost 
consciousness.\133\ In another case, public security officials 
in Yu county, Zhangjiakou municipality, Hebei province, 
reportedly took lawyer Wu Quan \134\ into custody on December 
16, 2017, in connection to his reporting of alleged corruption 
by a local official.\135\ Authorities reportedly placed a hood 
over him and took him to a basement; bound him to an 
interrogation chair for 48 hours; and deprived him of water, 
sleep, and sufficient clothing for the first 24 hours.\136\

                        Medical Care in Custody

    Authorities continued to deny or fail to provide adequate 
medical care to some detainees,\137\ which violates 
international human rights standards \138\ and may amount to 
torture.\139\ For example, 60-year-old Li Yuhan--discussed 
above--suffers from conditions including heart disease, 
hypertension, and hyperthyroidism; \140\ staff at the Shenyang 
No. 1 PSB Detention Center reportedly refused to give her 
medication other than aspirin unless she cooperated with 
authorities.\141\ In another case, in August 2017, authorities 
criminally detained petitioner Li Yanxiang \142\ at the Qingdao 
No. 2 Municipal PSB Detention Center, in Shandong province, in 
connection to her petitioning.\143\ While detained, Li 
reportedly experienced vomiting, loss of appetite, abdominal 
pain, and insomnia, but was unable to receive medical treatment 
because detainees were required to pay for their own medical 
expenses,\144\ violating international standards.\145\ In 
another case, in February 2018, citizen journalist Sun Lin 
reported that authorities at the Nanjing Municipal PSB 
Detention Center, in Nanjing municipality, Jiangsu province, 
made him take medicine against his will during his 
detention.\146\ In June 2018, the wife of Jiang Tianyong, whose 
case is discussed above, reported that authorities force-fed 
him medication daily, and that his memory had deteriorated 
severely.\147\ Authorities also denied requests for medical 
parole to some prisoners, in some cases repeat requests.\148\ 
Examples include Huang Qi--discussed above \149\--and Pastor Li 
Guozhi.\150\

                          Wrongful Conviction

    During the Commission's 2018 reporting year, authorities 
drew high-level attention to the issue of wrongful 
convictions,\151\ with some Chinese legal experts expressing 
concern about abusive practices that facilitated wrongful 
convictions, such as illegal collection of evidence and coerced 
confessions.\152\ A February 2018 Xinhua report stated that, 
over the previous five years, authorities overturned 39 ``major 
cases'' of wrongful convictions involving 78 people 
nationwide.\153\
    The Commission observed reports of wrongful convictions 
overturned this year, some of which highlighted the challenge 
of lengthy waiting periods. For example, in April 2018, the 
Jilin Province High People's Court found Liu Zhonglin--who had 
already completed a 25-year sentence for murder--not guilty, 
due to ``unclear facts'' and ``insufficient evidence'' in the 
original trial in 1994.\154\ In another case, in May 2018, the 
Supreme People's Court found business executive Zhang 
Wenzhong--whose conviction of various financial crimes was 
upheld on appeal by the Hebei Province High People's Court in 
2009--not guilty.\155\

                                Policing

    This past year, authorities continued to develop 
technology-based means to help public security officials track 
persons of interest--based in part on large-scale, sometimes 
involuntary collection of personal data--raising concerns about 
privacy and public security officials' capacity to crack down 
on rights advocates and other targeted persons.\156\ Collection 
of personal information, including biometric data, appeared to 
violate privacy protections in international human rights 
instruments,\157\ and the Commission did not observe efforts by 
authorities to bring the collection or use of such information 
in line with international standards.\158\ Examples of such 
technology include ``smart'' glasses that could scan facial 
features or vehicle license plates for comparison against a 
``blacklist'' in a centralized database,\159\ security cameras 
with scanning capabilities,\160\ devices that could forcibly 
collect information from mobile phones and other network 
devices,\161\ and voice recognition technology.\162\ 
Authorities reportedly could connect voice samples to 
information on individuals' ``ethnicity, home address, and . . 
. hotel records.'' \163\ While such technologies could aid 
criminal investigations, some official sources noted their 
potential applications in contexts of ``stability maintenance'' 
and surveillance of ``key persons'' (zhongdian renyuan, i.e., 
persons of ``key'' interest to security authorities).\164\
    Authorities in the Xinjiang Uyghur Autonomous Region (XUAR) 
implemented large-scale--sometimes involuntary--collection of 
residents' personal information to predict perceived threats to 
public security.\165\ In some cases, officials visited local 
households to collect personal information, including 
indications of political or cultural views deemed 
threatening.\166\ Such efforts coincided with authorities' 
collection of DNA samples and other biometric data from XUAR 
residents, presented to participants as a free public health 
program.\167\ [For more information, see Section II--Public 
Health.] Authorities reportedly used the Integrated Joint 
Operations Platform (IJOP) to integrate various forms of 
information collected, including, for example, unpaid bills, 
religious activity, and foreign travel activity.\168\ The 
Commission did not observe reports linking specific detentions 
to the IJOP, but current and former XUAR residents reportedly 
claimed the IJOP contributed to arbitrary, preemptive 
detentions in ``political reeducation'' centers, facilities in 
the XUAR used to carry out arbitrary mass detentions.\169\ [For 
more information, see Section IV--Xinjiang.]

                             Death Penalty

    The Chinese government continued to claim that it reserved 
the death penalty for a small number of crimes and only the 
most serious offenders,\170\ while Amnesty International 
estimated that China carried out more executions than all other 
countries combined.\171\ The Chinese government continued to 
classify statistics on its use of the death penalty as a state 
secret,\172\ and the Commission did not observe official 
reports on overall death penalty numbers. Legal experts noted 
that defense lawyers continued to face hurdles to effective 
representation in death penalty cases, and that the joint 
Ministry of Justice and Supreme People's Court criminal defense 
pilot project described above did not provide for the right to 
legal representation in death penalty review cases.\173\
    In December 2017, authorities in Lufeng city, Shanwei 
municipality, Guangdong province, sentenced to death 10 people 
variously for murder, robbery, and drug-related crimes--in a 
public trial in a stadium--and then immediately executed 
them.\174\ The Lufeng Municipal People's Court and Shanwei 
Intermediate People's Court issued a notice inviting the public 
to attend the public sentencing.\175\ Chinese law prohibits 
public executions,\176\ and the Commission did not observe 
reports that the defendants had the opportunity to appeal or 
that the ruling was sent to a higher court for review, as 
required by law.\177\ In another case, in March 2018, the 
Linfen Municipal Intermediate People's Court in Shanxi province 
sentenced a former vice mayor of Luliang municipality, Shanxi, 
to death for accepting large sums of bribes.\178\ A South China 
Morning Post report noted the sentence was ``unusually harsh'' 
for an economic crime, even in the context of President and 
Communist Party General Secretary Xi Jinping's crackdown on 
corruption.\179\
    This year, the Commission did not observe any rulemaking 
efforts to ban harvesting organs from executed prisoners.\180\ 
At a trafficking conference at the Vatican in 2018, Wang Haibo, 
head of the China Organ Transplant Response System,\181\ 
reported that authorities made 220 arrests over the previous 10 
years in connection to illegal organ transplants and noted that 
authorities continued to combat the practice.\182\


                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice
    Notes to Section II--Criminal Justice

    \1\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9(1). China has signed and stated its 
intent to ratify the ICCPR. See United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 23 July 18. China signed the ICCPR on October 5, 
1998; State Council Information Office, ``Progress in China's Human 
Rights in 2012,'' reprinted in State Council, May 2013; Permanent 
Mission of the People's Republic of China to the UN, ``Aide Memoire,'' 
reprinted in United Nations, 13 April 06; State Council, European 
Council, Prime Minister's Office of Sweden, and European Commission, 
``Joint Statement of the 12th China-EU Summit,'' reprinted in Ministry 
of Foreign Affairs, 30 November 09. Upon presenting its candidacy for 
the 2013 UN Human Rights Council elections, China reportedly promised 
to ``further protect civil and political rights,'' although it did not 
specifically state intent to ratify the ICCPR. UN General Assembly, 
Note Verbale Dated 5 June 2013 from the Permanent Mission of China to 
the United Nations Addressed to the President of the General Assembly, 
6 June 13, A/68/90.
    \2\ UN Office of the High Commissioner for Human Rights, Working 
Group on Arbitrary Detention, Fact Sheet No. 26, May 2000, sec. IV(B).
    \3\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief, Vol. 21, Issue 1 (Winter 2014), 3-4; Amnesty 
International, ``China: Submission to the United Nations Committee 
against Torture 56th Session, 9 November-9 December 2015,'' October 
2015, 16; Chinese Human Rights Defenders, `` `We Can Beat You to Death 
With Impunity': Secret Detention and Abuse of Women in China's `Black 
Jails,' '' October 2014, 6. See also ``Guo Gai and Wang Jianfen: 
Details of Black Jails in Wuxi: Rescue and Torture Reenactment'' [Guo 
gai, wang jianfen: wuxi hei jianyu shimo: yingjiu he kuxing yanshi], 
Charter 08 (blog), 23 December 15.
    \4\ See, e.g., ``Chinese Police Detain, `Disappear' Dozens of 
Rights Activists, Petitioners,'' Radio Free Asia, 19 October 17; 
Christian Shepherd and Ben Blanchard, ``Leaving Nothing to Chance, 
China Increases Security, Social Control Before Congress,'' Reuters, 28 
September 17; Tom Phillips, ``China's `Stability Maintenance' Agents 
Move To Silence Critics Before Party Congress,'' Guardian, 16 October 
17; ``On First Day of Party's `Two Sessions,' Petitioners Squeeze Into 
State Bureau for Letters and Calls'' [Zhonggong ``lianghui'' shouri, 
fangmin jibao guojia xinfang ju], Renmin Bao, 11 March 18.
    \5\ Rights Defense Network, ``Shanghai Black Jail Case No. 9: 
Shanghai Rights Defender Exposes Black Jail and Calls for an `End to 
One-Party Dictatorship' '' [Shanghai hei jianyu anli zhi jiu: shanghai 
weiquan renshi wei qin jielu hei jianyu bing huhan ``zhongjie yi dang 
zhuanzheng''], 13 November 17.
    \6\ For more information on Cai Xiaomin, see the Commission's 
Political Prisoner Database record 2018-00280.
    \7\ Rights Defense Network, ``Shanghai Black Jail Case No. 16: 
Shanghai Rights Advocate Cai Xiaomin Reveals Black Jail'' [Shanghai hei 
jianyu anli zhi 16: shanghai weiquan renshi cai xiaomin jielu hei 
jianyu], 31 March 18.
    \8\ For more information on Liu Yu, see the Commission's Political 
Prisoner Database record 2018-00281.
    \9\ Rights Defense Network, ``The Accusations of Sichuan Petitioner 
Liu Yu, Held in a Black Jail for 32 Days Because of the `Two Sessions' 
in Beijing'' [Yin beijing ``lianghui'' bei guan hei jianyu 32 tian de 
sichuan fangmin liu yu de kongsu], 5 April 18.
    \10\ ``China Overrun With Black Jails, Over Ten Petitioners 
Illegally Held Captive in Wuhan'' [Zhongguo hei jianyu fanlan, wuhan 
shi duo fangmin bei feifa qiujin], Radio Free Asia, 12 April 18. For 
more information on the 14 petitioners, see the following records in 
the Commission's Political Prisoner Database: 2016-00481 on Peng Min, 
2018-00283 on Zou Guilan, 2018-00285 on Yang Mingzhu, 2018-00286 on Liu 
Moxiang, 2018-00287 on Ren Chunhua, 2018-00289 on Cai Miao, 2018-00291 
on Wan Shaohua, and 2018-00292 on Liu Yunfei.
    \11\ Rights Defense Network, ``Shanghai Black Jail Case No. 16: 
Shanghai Rights Advocate Cai Xiaomin Reveals Black Jail'' [Shanghai hei 
jianyu anli zhi 16: shanghai weiquan renshi cai xiaomin jielu hei 
jianyu], 31 March 18; Rights Defense Network, ``The Accusations of 
Sichuan Petitioner Liu Yu, Held in a Black Jail for 32 Days Because of 
the `Two Sessions' in Beijing'' [Yin beijing ``lianghui'' bei guan hei 
jianyu 32 tian de sichuan fangmin liu yu de kongsu], 5 April 18.
    \12\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \13\ Supreme People's Procuratorate, Measures on Implementation of 
Compulsory Medical Treatment (Trial) [Renmin jianchayuan qiangzhi 
yiliao zhixing jiancha banfa (shixing)], issued 13 May 16, effective 2 
June 16, arts. 9, 12.
    \14\ ``Liang Songji: The Aggrieved Zhang Qi of Guangzhou Treated as 
Mental Patient, Forcibly Detained in Baiyun District Mental Health 
Rehabilitation Hospital'' [Liang songji: guangzhou yuanmin zhang qi bei 
dangzuo jingshenbing ren qiangzhi guanya zai baiyun qu jingshenbing 
kangfu yiyuan], Radio Free Asia, 15 February 18; ``Activist in China's 
Guangdong Confined in Psychiatric Hospital With `No Sign of Illness,'' 
' Radio Free Asia, 19 February 18. For more information on Zhang Qi, 
see the Commission's Political Prisoner Database record 2018-00293.
    \15\ For more information on Ma Shengfen, see the Commission's 
Political Prisoner Database record 2018-00078.
    \16\ Civil Rights & Livelihood Watch, ``Friend Scouts Around 
Everywhere, Learns Ma Shengfen Forcibly Committed to Psychiatric 
Hospital'' [Youren duofang datan dezhi ma shengfen bei guan 
jingshenbing yuan], 9 February 18.
    \17\ Dui Hua Foundation, ``Uncovering the Obscurity of `Educational 
Placement,' '' Dui Hua Human Rights Journal, 12 March 18; PRC 
Counterterrorism Law [Zhonghua renmin gongheguo fan kongbu zhuyi fa], 
passed 27 December 15, effective 1 January 16, amended 27 April 18, 
art. 30; UN Office of the High Commissioner for Human Rights, Working 
Group on Arbitrary Detention, Fact Sheet No. 26, May 2000, sec. IV(B).
    \18\ PRC Counterterrorism Law [Zhonghua renmin gongheguo fan kongbu 
zhuyi fa], passed 27 December 15, effective 1 January 16, amended 27 
April 18, art. 30.
    \19\ Dui Hua Foundation, ``Uncovering the Obscurity of `Educational 
Placement,' '' Dui Hua Human Rights Journal, 12 March 18; PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 103.
    \20\ Dui Hua Foundation, ``Uncovering the Obscurity of `Educational 
Placement,' '' Dui Hua Human Rights Journal, 12 March 18; PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 103.
    \21\ See, e.g., Qinghai Province Detoxification Administration, 
``Provincial Justice Department Head Liu Tianhai Arrives at the Golmud 
Compulsory Drug Detoxification Center To Inspect the Center's Safety 
and Stability Work'' [Sheng sifa ting liu tianhai tingzhang dao ge'ermu 
qiangzhi jiedu suo jiancha changsuo anquan wending gongzuo], 9 April 
18; Wang Jian, ``Visiting the Shaanxi Women's Compulsory Isolation Drug 
Detoxification Center: Women Constitute 80 Percent of Police, Say They 
Are `Tough as Cement' '' [Tanfang shaanxi nu qiangzhi geli jiedu suo: 
nu ganjing zhan ba cheng, zicheng ``shuini'' zuo de], The Paper, 8 
March 18; ``Walking Into Yunnan Province Women's Compulsory Isolation 
Drug Detoxification Center'' [Zoujin yunnan sheng nuzi qiangzhi geli 
jiedu suo], Xinhua, 7 March 18. See also State Council, Regulations on 
Drug Detoxification [Jiedu tiaoli], issued and effective 22 June 11, 
art. 4; Ministry of Public Security, Measures on the Management of 
Public Security Organ Compulsory Isolation and Drug Detoxification 
Centers [Gong'an jiguan qiangzhi geli jiedu suo guanli banfa], issued 
and effective 19 September 11, arts. 1-2.
    \22\ PRC Drug Prohibition Law [Zhonghua renmin gongheguo jindu fa], 
issued 27 December 07, effective 1 June 08, art. 47; State Council, 
Regulations on Drug Detoxification [Jiedu tiaoli], issued and effective 
22 June 11, art. 27.
    \23\ Rights Defense Network, ``Monthly Report on People Detained 
and Not Sentenced or Forcibly Disappeared in Mainland China (January 
31, 2018) No. 28 (298 People) (Part Two)'' [Zhongguo dalu jiya wei pan 
ji qiangpo shizong renyuan yuedu baogao (2018 nian 1 yue 31 ri) di 
ershiba qi (gong 298 ren) (xia)], 31 January 18.
    \24\ Wang Xiuzhong, ``Exclusive! CPPCC Delegate Zhu Zhengfu 
Recommends Constitutional Review of Compulsory Custody and Education 
for [Crime of] Prostitution'' [Dujia! Quanguo zhengxie weiyuan zhu 
zhengfu jianyi dui maiyin piaochang qiangzhi shourong jiaoyu jinxing 
hexianxing shencha], Southern Metropolitan Daily, 25 February 18; Gao 
Yuyang et al., ``Three Lawyers' Key Words for the Two Sessions'' [San 
wei lushi de lianghui guanjianci], Beijing Youth Daily, 10 March 18.
    \25\ State Council, Measures on Custody and Education for Sex 
Workers and Their Clients [Maiyin piaochang renyuan shourong jiaoyu 
banfa], issued and effective 4 September 93, amended 8 January 11, 
arts. 2, 3, 9. For more information on ``custody and education,'' see 
Tingting Shen and Joanna Csete, ``HIV, Sex Work, and Law Enforcement in 
China,'' Health and Human Rights Journal, Vol. 19, No. 2 (December 
2017); Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013.
    \26\ National People's Congress Standing Committee, Decision on 
Abolishing Reeducation Through Labor Regulations [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu feizhi youguan laodong jiaoyang 
falu guiding de jueding], issued and effective 28 December 13.
    \27\ Wang Xiaodong, ``Exclusive! Chinese People's Political 
Consultative Conference Member Zhu Zhengfu Recommends Constitutional 
Review of Compulsory Custody and Education for [Crime of] 
Prostitution'' [Dujia! Quanguo zhengxie weiyuan zhu zhengfu jianyi dui 
maiyin piaochang qiangzhi shourong jiaoyu jinxing hexianxing shencha], 
Southern Metropolitan Daily, 25 February 18.
    \28\ See, e.g., Tingting Shen and Joanna Csete, ``HIV, Sex Work, 
and Law Enforcement in China,'' Health and Human Rights Journal, Vol. 
19, No. 2 (December 2017); Dui Hua Foundation, ``Call for 
Constitutional Review of Custody and Education,'' Dui Hua Human Rights 
Journal, 4 April 18. See also Asia Catalyst, `` `Custody and 
Education': Arbitrary Detention for Female Sex Workers in China,'' 
December 2013.
    \29\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed and effective 20 March 18.
    \30\ Ibid., art. 3.
    \31\ Ibid., art. 22. Some sources translate liuzhi as ``detention 
in place'' or ``retention in custody.'' See, e.g., Jeremy Daum, 
``Unsupervised--Initial Thoughts on the Supervision Law,'' China Law 
Translate (blog), 9 November 17; Nicholas Bequelin, Amnesty 
International, ``China: New Supervision Law a Systemic Threat to Human 
Rights,'' 20 March 18; Mercy A. Kuo, ``China's Detention Law: CCP Curbs 
Courts,'' The Diplomat, 21 February 18.
    \32\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed and effective 20 March 18. See also Jamie P. Horsley, ``What's 
So Controversial About China's New Anti-Corruption Body? '' The 
Diplomat, 30 May 18.
    \33\ ``Amendment to the People's Republic of China Constitution 
Passed'' [Zhonghua renmin gongheguo xianfa xiuzheng'an tongguo], 
People's Daily, 11 March 18; Amendment to the PRC Constitution 
[Zhonghua renmin gongheguo xianfa xiuzheng'an], Xinhua, 11 March 18; 
Lin Xiaowei et al., ``Comprehensive News: Bringing the New Era, Apt 
Time To Amend Constitution--International Community Watches Closely as 
National People's Congress Passes Amendment to the Constitution'' 
[Zonghe xiaoxi: huhang xinshidai xiuxian zhengdangshi--guoji shehui 
guanzhu quanguo renda tongguo xianfa xiuzheng'an], Xinhua, 11 March 18.
    \34\ ``Supervisory Commissions Listed as State Organ in China's 
Constitution,'' Xinhua, 12 March 18.
    \35\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed and effective 20 March 18, art. 22.
    \36\ Ibid., art. 22; Ma Shaomeng, ``Investigating Both Giving and 
Receipt of Bribe Requires Replacing `Double Designation (Lianggui)' 
With Confinement (Liuzhi)'' [Shouhui xinghui yiqi cha biran yaoqiu yong 
liuzhi qudai ``lianggui'' cuoshi], Chinese Social Sciences Net, 14 
March 18; Mercator Institute for China Studies, ``China's National 
Supervision Commission,'' last visited on 21 August 18.
    \37\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed and effective 20 March 18, art. 15.
    \38\ Ibid., art. 44.
    \39\ Ibid., art. 43.
    \40\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17; Zhu Jichai and Qi Leijie, ``What Does It Mean for 
Confinement To Replace `Double Designation'?--Decoding the State 
Supervision System Reform'' [Yong liuzhi qudai ``lianggui'' yiweizhe 
shenme?--jiedu guojia jiancha tizhi gaige], Xinhua, 23 October 17. The 
Commission did not observe any reports confirming that authorities 
officially abolished ``double designation'' (shuanggui).
    \41\ Chinese Communist Party Central Commission for Discipline 
Inspection, Provisions for Investigative Work of Cases by Disciplinary 
Investigation Agencies [Zhongguo gongchandang jilu jiancha jiguan 
anjian jiancha gongzuo tiaoli], issued 25 March 94, effective 1 May 94, 
art. 28. Article 28 of the 1994 provisions requires any person or 
organization having information about a case under investigation to 
comply with the ``double designation'' process. Chinese Communist Party 
Central Commission for Discipline Inspection, Opinion on Strengthening 
the Coordination Mechanisms in Case Investigation and on Further 
Regulating the Measure of ``Double Designation'' [Zhongyang jiwei 
guanyu wanshan cha ban anjian xietiao jizhi jinyibu gaijin he guifan 
``lianggui'' cuoshi de yijian], issued 20 January 05, item 2(1). See 
also Human Rights Watch, `` `Special Measures': Detention and Torture 
in the Chinese Communist Party's Shuanggui System,'' 6 December 16.
    \42\ See, e.g., Christian Shepherd, ``China To Revise Criminal Law 
To Accommodate Powerful Anti-Graft Commission,'' Reuters, 12 March 18; 
Mercy A. Kuo, ``China's Detention Law: CCP Curbs Courts,'' The 
Diplomat, 21 February 18; Jun Mai, ``How China's New Anti-Graft Super 
Body Will Work, and Why Calling a Lawyer Won't Be an Option,'' South 
China Morning Post, 17 November 17; Jeremy Daum, ``Unsupervised--
Initial Thoughts on the Supervision Law,'' China Law Translate (blog), 
9 November 17; ``China Releases Draft Law To Expand Power of New Anti-
Graft Body,'' Reuters, 6 November 17.
    \43\ ``Man From Nanping, Fujian, Dies During Confinement, Family 
Claims Multiple Bruises on Body'' [Fujian nanping yi nanzi bei liuzhi 
qijian siwang, jiashu cheng shenti duo chu yuqing], Caixin, reprinted 
in Terminus, 8 May 18; ``Driver of Vice District Head Suspected of 
Corruption Is Investigated, Dies During Confinement, Becoming First 
Case'' [Fu quzhang shetan huoyan siji shoucha, liuzhi qijian siwang 
cheng shou zong anli], Radio Free Asia, 9 May 18.
    \44\ ``Man From Nanping, Fujian, Dies During Confinement, Family 
Claims Multiple Bruises on Body'' [Fujian nanping yi nanzi bei liuzhi 
qijian siwang, jiashu cheng shenti duo chu yuqing], Caixin, reprinted 
in Terminus, 8 May 18; ``Driver of Vice District Head Suspected of 
Corruption Is Investigated, Dies During Confinement, Becoming First 
Case'' [Fu quzhang she tanhuoyan siji shoucha, liuzhi qijian siwang 
cheng shou zong anli], Radio Free Asia, 9 May 18.
    \45\ ``Driver of Vice District Head Suspected of Corruption Is 
Investigated, Dies During Confinement, Becoming First Case'' [Fu 
quzhang shetan huoyan siji shoucha liuzhi qijian siwang cheng shou zong 
anli], Radio Free Asia, 9 May 18.
    \46\ Ibid.
    \47\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76.
    \48\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, arts. 102-105, 107-112.
    \49\ For more information on Jiang Tianyong, see the Commission's 
Political Prisoner Database record 2011-00179.
    \50\ Amnesty International, ``Human Rights Lawyers Disbarred in 
China,'' 15 July 09; Chinese Human Rights Defenders, ``Free Jiang 
Tianyong & End Suppression on Lawyers,'' 21 November 17; Chris Buckley, 
``Activist Confesses to Subversion in Chinese Show Trial,'' New York 
Times, 22 August 17.
    \51\ Cai Changchun, ``Judgment Announced in Open Court by Changsha 
Intermediate Court in Trial of First Instance for Jiang Tianyong 
Subversion of State Power Case'' [Jiang tianyong shandong dianfu guojia 
zhengquan an zai changsha zhong yuan yishen gongkai xuanpan], Legal 
Daily, 21 November 17; PRC Criminal Law [Zhonghua renmin gongheguo xing 
fa], passed 1 July 79, amended 14 March 97, effective 1 October 97, 
amended 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 
15, 4 November 17, art. 105.
    \52\ UN Office of the High Commissioner for Human Rights, ``UN 
Experts Urge China To Investigate Disappearance of Human Rights Lawyer 
Jiang Tianyong,'' 6 December 16.
    \53\ ``Chinese Rights Lawyer Makes Videotaped Confession in Court 
as Wife Slams `Show Trial,' '' Radio Free Asia, 22 August 17.
    \54\ UN Office of the High Commissioner for Human Rights, ``UN 
Experts Urge China To Investigate Disappearance of Human Rights Lawyer 
Jiang Tianyong,'' 6 December 16.
    \55\ For more information on Wu Gan, see the Commission's Political 
Prisoner Database record 2010-00348.
    \56\ Civil Rights & Livelihood Watch, ``Butcher Wu Gan `Subversion 
Case' Announces Upholding of Original Judgment on Appeal'' [Tufu wu gan 
``dianfu an'' ershen xuanbu weichi yuanpan], 18 April 18; Rights 
Defense Network, ``Urgent: Rights Defender Butcher (Wu Gan) Detained 
Outside Entrance to Jiangxi High Court'' [Jinji guanzhu: weiquan renshi 
tufu (wu gan) zai jiangxi gaoyuan menkou bei zhua], 19 May 15.
    \57\ Tianjin No. 2 Municipal Intermediate People's Court, Criminal 
Judgment [Xingshi panjue shu], (2016) Jin 02 Xing Chu No. 146, 21 
December 17, reprinted in China Human Rights Lawyers Concern Group, 10 
January 18.
    \58\ For more information on Zhen Jianghua, see the Commission's 
Political Prisoner Database record 2017-00360.
    \59\ Human Rights Campaign in China, ``Family of Zhen Jianghua 
Receives Criminal Detention Notice, Charged on Suspicion of Inciting 
Subversion of State Power'' [Zhen jianghua jiaren shoudao xingshi juliu 
tongzhishu, zuiming shexian shandong dianfu guojia zhengquan], 7 
September 17; Human Rights Campaign in China, ``In Case Concerning Zhen 
Jianghua, Whom Zhuhai Government Detained on Inciting Subversion of 
State Power Charge, Sister Summoned by Jiangmen PSB, State Security 
Officials Warned Her, Saying Her Article Affected Police Efforts To 
Gather Evidence'' [Bei zhuhai dangju yi shandong dianfu guojia 
zhengquan zui jiya de zhen jianghua, qi jiejie zao jiangmen gong'an ju 
chuanxun, guobao jinggao shuo ta wenzhang yingxiang jingfang souzheng], 
29 September 17; ``Zhen Jianghua Not Released 37 Days After Criminal 
Detention, Many Rights Defenders Subjected to Stability Maintenance 
Measures Due to 19th Party Congress'' [Zhen jianghua xingju 37 tian 
qiman wei huoshi, duo wei weiquan renshi yin shijiu da bei weiwen], 
China Free Press (blog), 9 October 17.
    \60\ Civil Rights & Livelihood Watch, ``Authorities Secretly Tried 
Zhen Jianghua, Netizens Say It Shows [Authorities'] Guilty Mind'' 
[Dangju mimi shenpan zhen jianghua wangyou zhihu xinxu], 5 September 
18.
    \61\ For more information on Wu Kemu, see the Commission's 
Political Prisoner Database record 2018-00089.
    \62\ Rights Defense Network, ``Citizen Wu Kemu of Xuancheng, Anhui 
Province, Criminally Detained for Picking Quarrels and Provoking 
Trouble as 19th Party Congress Approaches'' [Linjin shijiu da anhui 
sheng xuancheng gongmin wu kemu bei yi xunxin zishi zui xingju], 15 
October 17; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
4 November 17, art. 293.
    \63\ Rights Defense Network, ``Citizen Wu Kemu of Xuancheng, Anhui 
Province, Criminally Detained for Picking Quarrels and Provoking 
Trouble as 19th Party Congress Approaches'' [Linjin shijiu da anhui 
sheng xuancheng gongmin wu kemu bei yi xunxin zishi zui xingju], 15 
October 17.
    \64\ For more information on Yao Lijuan, see the Commission's 
Political Prisoner Database record 2018-00018.
    \65\ Rights Defense Network, ``19th Party Congress Stability 
Maintenance: Tianjin Cancer Petitioner Yao Lijuan Criminally Detained 
for Filming Video and Uploading It to WeChat'' [19 da weiwen, tianjin 
aizheng fangman yao lijuan yin paishe shipin shangchuan weixin jing zao 
xingshi juliu], 10 October 17.
    \66\ ``Shanghai Petitioner Peng Miaolin Secretly Sentenced to One-
and-a-Half Years'' [Shanghai fangmin peng miaolin bei mimi panxing yi 
nian ban], Radio Free Asia, 19 February 18. For more information on 
Peng Miaolin, see the Commission's Political Prisoner Database record 
2018-00188.
    \67\ ``Police in China's Jiangsu Criminally Detain `Outspoken' 
Human Rights Activist,'' Radio Free Asia, 23 February 18. For more 
information on Xu Qin, see the Commission's Political Prisoner Database 
record 2016-00015.
    \68\ ``Chinese Rights Lawyer Arrested, Observers Suspect 
Intentional Retribution'' [Zhongguo weiquan lushi bei daibu waijie 
zhiyi xuyi baofu], Voice of America, 16 November 17. For more 
information on Li Yuhan, see the Commission's Political Prisoner 
Database record 2017-00361.
    \69\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 300. For more information on the use of Article 300, 
see Dui Hua Foundation, ``NGO Submission for the Universal Periodic 
Review of the People's Republic of China,'' March 2018, paras. 14, 15. 
For the Commission's reporting on the issue, see, e.g., CECC, 2017 
Annual Report, 5 October 17, 133; CECC, 2014 Annual Report, 9 October 
14, 97-98; CECC, 2013 Annual Report, 10 October 13, 93-94; CECC, 2012 
Annual Report, 10 October 12, 85; CECC, 2010 Annual Report, 10 October 
10, 110-11.
    \70\ Dui Hua Foundation, ``NGO Submission for the Universal 
Periodic Review of the People's Republic of China,'' March 2018, para 
14.
    \71\ For more information on Miew Cheu Siang, see the Commission's 
Political Prisoner Database record 2018-00295.
    \72\ For more information on Yu Linglan, see the Commission's 
Political Prisoner Database record 2018-00294.
    \73\ China Anti-Cult Net, ``Young Husband and Wife in Shenzhen 
Distribute Cult Propaganda, Sentenced'' [Xiao fuqi zai shenzhen sanfa 
xiejiao xuanchuanpin huoxing], 1 March 18.
    \74\ ``Netizen Offers Service To Scale Great Firewall, Receives 
Heavy Sentence of Five and a Half Years, Rights Defenders Indicate 
Authorities Made an Example of Him'' [Wangmin tigong fanqiang fuwu bei 
zhongpan wu nian ban, weiquan renshi zhi dangju sha yi jing bai], Radio 
Free Asia, 21 December 17. For more information on Wu Xiangyang, see 
the Commission's Political Prisoner Database record 2018-00004.
    \75\ Rights Defense Network, ``Hua Yong Visits Six Criminally 
Detained Villagers From Xinjian Village, Beijing; Calls for People From 
Various Sectors To Take Notice and Offer Legal Assistance'' [Hua yong 
tanfang beijing xinjian cun, 6 ming zao xingju cunmin, hu gejie guanzhu 
bing yu falu jiuyuan], 24 December 17; ``After Being Released on Bail 
After Two Days' Criminal Detention, Hua Yong Flies to Chengdu To Spend 
Daughter's Birthday With Her'' [Hua yong bei xingju liang ri hou qubao, 
feidi chengdu peitong nu'er guo shengri], Radio Free Asia, 18 December 
17. For more information on Hua Yong, see the Commission's Political 
Prisoner Database record 2018-00054. For more information on the six 
criminally detained villagers whom Hua Yong filmed, see the following 
records in the Commission's Political Prisoner Database: 2018-00042 on 
Gu Tianjin, 2018-00043 on Hu Dehua, 2018-00044 on Hu Fuqiang, 2018-
00045 on Liu Jinying, 2018-00046 on Shen Deli, and 2018-00047 on Zhang 
Shudong.
    \76\ Rights Defense Network, ``Zhan Huidong (Online Name: 
Principal), Criminally Detained in Case of Liu Xiaobo Seaside Memorial, 
Released on Bail Today'' [Yin haiji liu xiaobo an zao xingju de zhan 
huidong (wang ming xiaozhang) jin qubao huoshi], 24 January 18. For 
more information on Zhan Huidong, see the Commission's Political 
Prisoner Database record 2018-00012.
    \77\ Wang Zhenjiang (Shandong xingshi lushi wang zhenjiang), 
``Before Completion of Handling Violation, Complainant Is Criminally 
Detained'' [Weifa shangwei chuli wanbi, jubaozhe que yijing bei 
xingju], Weibo post, 9 January 18, 8:46 p.m. For more information, see 
the Commission's Political Prisoner Database records 2018-00013 on Zou 
Xinsi and 2018-00014 on Sun Ruizhu.
    \78\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13.
    \79\ See, e.g., Standard Minimum Rules for the Treatment of 
Prisoners, adopted by the First United Nations Congress on the 
Prevention of Crime and the Treatment of Offenders, Geneva 1955, 
approved by the Economic and Social Council resolutions 663 C (XXIV) of 
31 July 57 and 2076 (LXII) of 13 May 77; Body of Principles for the 
Protection of All Persons Under Any Form of Detention or Imprisonment, 
adopted by UN General Assembly resolution A/RES/43/173, 9 December 88.
    \80\ Xie Wenying, ``Draft Amendment to the Criminal Procedure Law 
Brought to National People's Congress Standing Committee for 
Deliberation'' [Xingsufa xiuzheng cao'an tiqing quanguo renda 
changweihui shenyi], Procuratorial Daily, 26 April 18; Liu Yizhan et 
al., ``Establish a System for Criminal Trial in Absentia, Link Up With 
the Supervision Law, Leniency in Guilty Pleas--Focus on Aspects of the 
Draft Amendment to the Criminal Procedure Law'' [Jianli xingshi quexi 
shenpan zhidu, yu jiancha fa xianjie, renzuirenfa congkuan--jujiao 
xingshi susong fa xiuzheng cao'an kandian], Xinhua, 25 April 18.
    \81\ National People's Congress, ``Important: Criminal Procedure 
Law (Draft Amendment) for Comment (Draft Full Text and Explanation 
Attached)'' [Zhongbang: xingsufa (xiuzheng cao'an) zhengqiu yijian (fu 
cao'an quanwen ji shuoming)], reprinted in Guangdong Provincial 
Administration of Quality and Technology Supervision, 10 May 18, item 
12; Amnesty International, ``China: Draft Criminal Procedure Law 
Amendments Would Mean Further Deprivation of Right to Fair Trial Before 
Court,'' 7 June 18.
    \82\ National People's Congress, ``Important: Criminal Procedure 
Law (Draft Amendment) for Comment (Draft Full Text and Explanation 
Attached)'' [Zhongbang: xingsufa (xiuzheng cao'an) zhengqiu yijian (fu 
cao'an quanwen ji shuoming)], reprinted in Guangdong Provincial 
Administration of Quality and Technology Supervision, 10 May 18, item 
24. See also Xie Wenying, ``Draft Amendment to the Criminal Procedure 
Law Brought to National People's Congress Standing Committee for 
Deliberation'' [Xingsufa xiuzheng cao'an tiqing quanguo renda 
changweihui shenyi], Procuratorial Daily, 25 April 18; Liu Yizhan et 
al., ``Establish a System for Trial in Absentia, Link Up With the 
Supervision Law, Leniency in Guilty Pleas--Focus on Aspects of the 
Draft Amendment to the Criminal Procedure Law'' [Jianli xingshi quexi 
shenpan zhidu, yu jiancha fa xianjie, renzuirenfa congkuan--jujiao 
xingshi susong fa xiuzheng cao'an kandian], Xinhua, 25 April 18; 
Amnesty International, ``China: Draft Criminal Procedure Law Amendments 
Would Mean Further Deprivation of Right to Fair Trial Before Court,'' 7 
June 18.
    \83\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14(3)(d). See also Amnesty International, 
``China: Draft Criminal Procedure Law Amendments Would Mean Further 
Deprivation of Right to Fair Trial Before Court,'' 7 June 18.
    \84\ National People's Congress, ``Important: Criminal Procedure 
Law (Draft Amendment) for Comment (Draft Full Text and Explanation 
Attached)'' [Zhongbang: xingsufa (xiuzheng cao'an) zhengqiu yijian (fu 
cao'an quanwen ji shuoming)], reprinted in Guangdong Provincial 
Administration of Quality and Technology Supervision, 10 May 18, items 
1, 9, 11, 14-17, 19, 20.
    \85\ Ibid., item 21; Xie Wenying, ``Draft Amendment to the Criminal 
Procedure Law Brought to National People's Congress Standing Committee 
for Deliberation'' [Xingsufa xiuzheng cao'an tiqing quanguo renda 
changweihui shenyi], Procuratorial Daily, 25 April 18; Liu Yizhan et 
al., ``Establish a System for Trial in Absentia, Link Up With the 
Supervision Law, Leniency in Guilty Pleas--Focus on Aspects of the 
Draft Amendment to the Criminal Procedure Law'' [Jianli xingshi quexi 
shenpan zhidu, yu jiancha fa xianjie, renzuirenfa congkuan--jujiao 
xingshi susong fa xiuzheng cao'an kandian], Xinhua, 25 April 18.
    \86\ See, e.g., Amnesty International, ``China: Draft Criminal 
Procedure Law Amendments Would Mean Further Deprivation of Right to 
Fair Trial Before Court,'' 7 June 18; Dui Hua Foundation, ``Mixed 
Signals in Reports of `Zero Confession' Executions,'' Dui Hua Human 
Rights Journal, 6 June 18.
    \87\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 50, 54.
    \88\ For more information on filmed coerced confessions, see 
Safeguard Defenders, ``Scripted and Staged: Behind the Scenes of 
China's Forced TV Confessions,'' April 2018.
    \89\ For more information on Gui Minhai, see the Commission's 
Political Prisoner Database record 2016-00090.
    \90\ Chris Buckley, ``Chinese Police Seize Publisher From Train in 
Front of Diplomats,'' New York Times, 22 January 18.
    \91\ Bai Yunyi, ``HK Bookseller Confesses to Truth About So-Called 
`Disappearance,' Says Sweden `Manipulated' Him,'' Global Times, 10 
February 18; Safeguard Defenders, ``Scripted and Staged: Behind the 
Scenes of China's Forced TV Confessions,'' April 2018, 38, 87.
    \92\ Safeguard Defenders, ``Scripted and Staged: Behind the Scenes 
of China's Forced TV Confessions,'' April 2018, 87.
    \93\ For more information on Lee Ming-cheh, see the Commission's 
Political Prisoner Database record 2017-00248.
    \94\ Da Yang, ``Sentenced to Five Years for `Subversion of State 
Power,' Li Mingzhe Admits Guilt and Does Not Appeal'' [``Dianfu 
zhengquan'' pan wu nian, li mingzhe renzui bu shangsu], Deutsche Welle, 
28 November 17; Ben Dooley and Joanna Chiu, ``Taiwanese Activist Pleads 
Guilty to Chinese Subversion Charges,'' Agence France-Presse, reprinted 
in Yahoo! News, 11 September 17; PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, 4 November 17, art. 105.
    \95\ Ben Dooley and Joanna Chiu, ``Taiwanese Activist Pleads Guilty 
to Chinese Subversion Charges,'' Agence France-Presse, reprinted in 
Yahoo! News, 11 September 17.
    \96\ ``Wife of Lee Ming-cheh: If He Confesses, It Was Coerced'' [Li 
mingzhe qi: ruo renzui shi bei po], Deutsche Welle, 9 September 17.
    \97\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 154-57.
    \98\ See, e.g., International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, arts. 9(3)-(4), 14(3)(c).
    \99\ For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \100\ ``Wang Quanzhang and Others Must Be Released,'' Voice of 
America, 22 April 18; ``Wife of Detained Chinese Rights Lawyer Says She 
Is Under House Arrest,'' Agence France-Presse, reprinted in South China 
Morning Post, 12 April 18; ``Biographies of Lawyers, Staffers and 
Activists Detained or Disappeared in the July 10 Nationwide Raid 
Against Rights Lawyers,'' China Change, 23 July 15.
    \101\ ``Detained Chinese Rights Lawyer Wang Quanzhang `Appears 
Well,' Wife Told,'' Radio Free Asia, 13 July 18.
    \102\ Rights Defense Network, ``709 Case Bulletin: Lawyer Wang 
Quanzhang Indicted on Subversion of State Power Charges'' [709 an 
tongbao: wang quanzhang lushi bei yi dianfu guojia zhengquan zui qisu], 
15 February 17.
    \103\ ``Huang Qi's Mother Reveals Authorities Cooked Up `Top 
Secret' Document To Frame Huang Qi'' [Huang qi muqin jielu dangju 
luozhi ``juemi'' wenjian xianhai huang qi], Radio Free Asia, 26 June 
18; Christopher Bodeen, ``Critic's Jailing Shows Hushed Dissent Since 
`08 China Quake,'' Associated Press, reprinted in Chicago Tribune, 14 
May 18; ``Chinese Rights Activist Huang Qi `Could Die in Detention 
Center': Mother,'' Radio Free Asia, 23 April 18. For more information 
on Huang Qi, see the Commission's Political Prisoner Database record 
2004-04053.
    \104\ `` `64 Tianwang' Founder Huang Qi Has His Home Searched by 
Police, Is Detained'' [``Liusi tianwang'' chuangbanren huangqi zao 
jingfang chaojia jiya], Radio Free Asia, 29 November 16.
    \105\ Rights Defense Network, ``Head of Mainland NGO `64 Tianwang' 
Huang Qi Arrested by Authorities'' [Dalu NGO ``liusi tianwang'' fuzeren 
huang qi yi bei dangju zhixing daibu], 20 December 16; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 111.
    \106\ Rights Defense Network, ``Huang Qi Trial Continues To Be 
Postponed [as He] Suffers Life-Threatening Illness Without Medical 
Parole, Mother Again Faces Probe by Original Work Unit, Calls Out That 
She Wants To Live To See Son'' [Huang qi an jiu tuo bu shen, huan 
zhiming jibing wufa baowai, muqin pu wenqing you zao yuan danwei 
tancha, yu yao huozhe jian dao erzi], 18 August 18.
    \107\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 32.
    \108\ Ibid., art. 37.
    \109\ Ibid.
    \110\ Ibid.
    \111\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 14(3)(b), (3)(d).
    \112\ For more information on Ding Lingjie, see the Commission's 
Political Prisoner Database record 2017-00328.
    \113\ ``Ding Lingjie Incommunicado for Nearly 1 Month, Lawyer 
Attempts To Meet With Her and Is Refused'' [Ding lingjie shilian jin yi 
ge yue, lushi xunqiu huijian bei ju], Radio Free Asia, 18 October 17; 
Nomaan Merchant, ``China Detains Editor of Human Rights Website for 
Subversion,'' Associated Press, 25 November 16. For more information on 
Liu Feiyue, see the Commission's Political Prisoner Database record 
2016-00460.
    \114\ For more information on Chen Jieren, see the Commission's 
Political Prisoner Database record 2018-00318.
    \115\ Criminal Investigation Bureau, Ministry of Public Security, 
``Criminal Suspect Chen Jieren Placed Under Criminal Compulsory 
Measures by Public Security Bureaus According to Law'' [Fanzui xianyi 
ren chen jieren bei gong'an jiguan yifa caiqu xingshi qiangzhi cuoshi], 
Weibo post, 7 July 18, 4:46 p.m; ``Current Affairs Commentator Chen 
Jieren's Article Blew Whistle on Official, Six Implicated and Detained, 
Including Family and Friends'' [Shiping ren chen jieren zhuanwen jubao 
guanyuan, zhulian qinyou liu ren bei zhua], Radio Free Asia, 11 July 
18; ``Having Reported Official Using Real Name, Media Personality Chen 
Jieren Taken Away for Investigation'' [Shiming jubao guanyuan, meiti 
ren chen jieren bei daizou diaocha], Radio Free Asia, 6 July 18; ``Chen 
Jieren's Criminal Detention Means Grudge With Xi Jinping'' [Chen jieren 
bei xingju shi yu xi jinping jiexia le liangzi], Boxun, 9 July 18. For 
more information on Chen's wife, brothers, and assistants, see the 
following records in the Commission's Political Prisoner Database: 
2018-00319 on Deng Jiangxiu, 2018-00320 on Chen Weiren, and 2018-00321 
on Chen Minren.
    \116\ ``Investigation Launched Against Family of Famous Hunan Media 
Personality Chen Jieren'' [Hunan zhiming meiti ren chen jieren jiashu 
zao li'an diaocha], Radio Free Asia, 16 July 18.
    \117\ Ministry of Justice, ``Xiong Xuanguo: Advance the 
Establishment of a System for Adjusting the Development of the Scope 
and Standards of Legal Aid'' [Xiong xuanguo: tuidong jianli falu 
yuanzhu fanwei he biaozhun dongtai tiaozheng jizhi], 9 March 18; Zhang 
Yan, ``Ministry of Justice: Proactively Advance the Work of Complete 
Coverage of Defense Counsel in Criminal Cases, Uphold Judicial 
Justice'' [Sifa bu: jiji tuijin xingshi anjian lushi bianhu quan fugai 
gongzuo, weihu sifa gongzheng], China Daily, 19 January 18; Supreme 
People's Court and Ministry of Justice, Measures Regarding Launching 
the Pilot Work of Complete Coverage of Defense Counsel in Criminal 
Cases [Guanyu kaizhan xingshi anjian lushi bianhu quan fugai shidian 
gongzuo de banfa], issued and effective 11 October 17.
    \118\ Zhang Yan, ``Ministry of Justice: Proactively Advance the 
Work of Complete Coverage of Defense Counsel in Criminal Cases, Uphold 
Judicial Justice'' [Sifa bu: jiji tuijin xingshi anjian lushi bianhu 
quan fugai gongzuo, weihu sifa gongzheng], China Daily, 19 January 18.
    \119\ See, e.g., Emily Rauhala and Simon Denyer, ``China Jails Yet 
Another Human Rights Lawyer in Ongoing Crackdown on Dissent,'' 
Washington Post, 21 November 17; Cai Changchun, ``Verdict Announced by 
Changsha Intermediate Court in Trial of First Instance for Jiang 
Tianyong Inciting Subversion of State Power Case'' [Jiang tianyong 
shandong dianfu guojia zhengquan an zai changsha zhong yuan yishen 
gongkai xuanpan], Legal Daily, 21 November 17; ``Wang Quanzhang and 
Others Must Be Released,'' Voice of America, 22 April 18; ``Wife of 
Detained Chinese Rights Lawyer Says She Is Under House Arrest,'' Agence 
France-Presse, reprinted in South China Morning Post, 12 April 18; ``Yu 
Wensheng: China Human Rights Lawyer Arrested on School Run,'' BBC, 19 
January 18.
    \120\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73.
    \121\ Ibid., art. 77.
    \122\ Ibid., arts. 37, 75(2).
    \123\ See, e.g., UN Committee against Torture, Concluding 
Observations on the Fifth Periodic Report of China, adopted by the 
Committee at its 1391st and 1392nd Meetings (2-3 December 2015), CAT/C/
CHN/CO/5, 3 February 16, para. 14; Steven Lee Myers, ``In China, the 
Brutality of `House Arrest,' '' New York Times, 25 November 17; Front 
Line Defenders, ``UPR Submission--China 2018,'' 7 April 18, para. 7. 
See also Chieu Luu and Matt Rivers, ``The Disappeared: Accounts From 
Inside China's Secret Prisons,'' CNN, 3 December 17.
    \124\ For more information on Yu Wensheng, see the Commission's 
Political Prisoner Database record 2014-00387.
    \125\ Rights Defense Network, ``Lawyer Liu Xiaoyuan: Legal Issues 
in the Case of Lawyer Yu Wensheng'' [Liu xiaoyuan lushi: yu wensheng 
lushi an zhong suo sheji de falu wenti], 29 January 18; Steven Lee 
Myers, ``China Rights Lawyer Detained After Posting Pro-Democracy 
Appeal,'' New York Times, 19 January 18; Yu Wensheng (yuwensheng), ``A 
Citizen's Proposal for Constitutional Reform: Yu Wensheng's Open Letter 
to the Second Plenary Session of the 19th Communist Party of China 
Central Committee'' [Guanyu xiuxian de gongmin jianyi, yu wensheng zhi 
zhonggong shijiuda er zhong quanhui de gongkai xin], Twitter post, 17 
January 18, 10:50 a.m.
    \126\ For more information on Ji Shulong, see the Commission's 
Political Prisoner Database record 2017-00354.
    \127\ Rights Defense Network, ``Jiangsu Environmentalist Ji 
Shulong, Detained Before the 19th Party Congress, Ordered To Serve 
Residential Surveillance on `Suspicion of Picking Quarrels and 
Provoking Trouble' '' [Shijiu da qian zao zhuabu de jiangsu huanbao 
weishi ji shulong bei yi ``shexian xunxin zishi'' zhiding jianshi 
juzhu], 3 November 17; ``Trump Concludes Visit to China and Leaves, 
Some People Deprived of Their Liberty Regain Freedom'' [Telangpu jieshu 
fang hua likai, bufen bei xianzhi renshi huifu ziyou], Radio Free Asia, 
10 November 17.
    \128\ CECC, 2017 Annual Report, 5 October 17, 107-108. For other 
sample cases, see Rights Defense Network, ``Imprisoned Hubei Internet 
Big V Luo Lanqing Finally Gets Meeting With Father, Who Suspects 
Torture and Beatings'' [Yu zhong hubei wangluo da V luo lanqing zhong 
huo he fuqin huijian, yi zao kuxing ouda], 22 December 17; Tibetan 
Centre for Human Rights and Democracy, ``Village Leader Among 31 
Tibetans Detained for Opposing Mining at Sacred Mountain,'' 14 May 18.
    \129\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 50, 54.
    \130\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87; 
Standard Minimum Rules for the Treatment of Prisoners, adopted by the 
First United Nations Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663 C (XXIV) of 31 July 57 and 2076 (LXII) 
of 13 May 77, principles 31, 32; Body of Principles for the Protection 
of All Persons Under Any Form of Detention or Imprisonment, adopted by 
UN General Assembly resolution A/RES/43/173 9 December 88, principle 6.
    \131\ Rights Defense Network, ``Sixty-Plus-Year-Old Lawyer Li Yuhan 
Continues To Be Abused and Tormented at Shenyang Municipal No. 1 
Detention Center'' [60 duo sui li yuhan lushi zai shenyang shi di yi 
kanshousuo chixu zaoshou nuedai zhemo], 6 December 17; ``Lawyer Meets 
With Li Yuhan and Reveals the Abuse She Has Suffered in Detention'' 
[Lushi huijian jie li yuhan yuzhong zao nuedai], Radio Free Asia, 1 
December 17; ``Chinese Rights Lawyer Arrested, Observers Suspect 
Intentional Retribution'' [Zhongguo weiquan lushi bei daibu, waijie 
zhiyi xuyi baofu], Voice of America, 16 November 17. For more 
information on Li Yuhan, see the Commission's Political Prisoner 
Database record 2017-00361.
    \132\ ``Chinese Rights Lawyer Arrested, Observers Suspect 
Intentional Retribution'' [Zhongguo weiquan lushi bei daibu, waijie 
zhiyi xuyi baofu], Voice of America, 16 November 17. For more 
information on Wang Yu, see the Commission's Political Prisoner 
Database record 2015-00252.
    \133\ Rights Defense Network, ``Sixty-Plus-Year-Old Lawyer Li Yuhan 
Continues To Be Abused and Tormented at Shenyang Municipal No. 1 
Detention Center'' [60 duo sui li yuhan lushi zai shenyang shi di yi 
kanshousuo chixu zaoshou nuedai zhemo], 6 December 17; ``Lawyer Meets 
With Li Yuhan and Reveals the Abuse She Has Suffered in Detention'' 
[Lushi huijian jie li yuhan yuzhong zao nuedai], Radio Free Asia, 1 
December 17.
    \134\ For more information on Wu Quan, see the Commission's 
Political Prisoner Database record 2018-00003.
    \135\ Rights Defense Network, ``Lawyer Huang Hanzhong: An Account 
of My Meeting With Lawyer Wu Quan'' [Huang hanzhong lushi: wu quan 
lushi huijian jianji], 25 December 17; ``Hebei Lawyer Wu Quan Uses Real 
Name To Report Corrupt Official, Is Detained'' [Hebei lushi wu quan 
shiming jubao tanguan, bei jubu], Radio Free Asia, 20 December 17.
    \136\ Rights Defense Network, ``Lawyer Huang Hanzhong: An Account 
of My Meeting With Lawyer Wu Quan'' [Huang hanzhong lushi: wu quan 
lushi huijian jianji], 25 December 17.
    \137\ For other sample cases, see Sun Tingting, Qiangwailou, ``I Am 
Sun Tingting, and I Want To Come Forward'' [Wo shi sun tingting, wo yao 
zhan chulai], 18 January 18; Human Rights Campaign in China, ``Medical 
Situation of Li Xiaoling, Detained by Zhuhai Public Security for 
Picking Quarrels and Provoking Trouble Because She Evaded Zhuhai 
Authorities' Stability Maintenance, Worsens, Police Refuse Bail on 
Grounds That `Granting Bail Would Be Dangerous to Society' '' [Yin 
taobi zhuhai dangju weiwen, zao zhuhai gong'an ju yi xunxin zishi zui 
jiya de li xiaoling bingqing jiazhong, jingfang yi ``caiqu qubao 
houshen you shehui weihai xing'' wei you jujue dui qi qubao], 6 
November 17; ``Gao Zhisheng Missing for Over Two Months With No 
Correspondence, Li Fawang Released on Bail With Serious Illness'' [Gao 
zhisheng shizong liang ge duo yue wu yinxun, li fawang bing zhong qubao 
houshen], Radio Free Asia, 27 October 17. See also Front Line 
Defenders, ``UPR Submission--China 2018,'' 29 March 18, para. 22. For 
more information on Sun Tingting, see the Commission's Political 
Prisoner Database record 2018-00041. For more information on Li 
Xiaoling, see the Commission's Political Prisoner Database record 2017-
00355. For more information on Li Fawang, see the Commission's 
Political Prisoner Database record 2017-00326.
    \138\ Standard Minimum Rules for the Treatment of Prisoners, 
adopted by the First UN Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663 C (XXIV) of 31 July 57 and 2076 (LXII) 
of 13 May 77, arts. 22-26; Body of Principles for the Protection of All 
Persons Under Any Form of Detention or Imprisonment, adopted by UN 
General Assembly resolution A/RES/43/173 9 December 88, principle 24.
    \139\ UN Human Rights Council, Report of the Special Rapporteur on 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
Juan E. Mendez, A/HRC/22/53, 1 February 13, paras. 17-22; Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, adopted by UN General Assembly resolution 39/46 of 10 
December 84, entry into force 26 June 87, art. 1.
    \140\ Human Rights Campaign in China, ``Lawyer Li Yuhan, Detained 
by the Heping Branch of the Shenyang Municipal Public Security Bureau 
for Picking Quarrels and Provoking Trouble, Abused by Police Handling 
the Case'' [Bei shenyang shi gong'an ju heping fenju yi xunxin zishi 
zui jiya de li yuhan lushi, zao ban'an jingcha nuedai], 10 November 17; 
``Chinese Rights Lawyer Arrested, Observers Suspect Intentional 
Retribution'' [Zhongguo weiquan lushi bei daibu, waijie zhiyi xuyi 
baofu], Voice of America, 16 November 17.
    \141\ Human Rights Campaign in China, ``Lawyer Li Yuhan, Detained 
by the Heping Branch of the Shenyang Municipal Public Security Bureau 
for Picking Quarrels and Provoking Trouble, Abused by Police Handling 
the Case'' [Bei shenyang shi gong'an ju heping fenju yi xunxin zishi 
zui jiya de li yuhan lushi, zao ban'an jingcha nuedai], 10 November 17.
    \142\ For more information on Li Yanxiang, see the Commission's 
Political Prisoner Database record 2018-00034.
    \143\ Voice of Petitioners, ``Shandong Petitioner Li Yanxiang 
Transferred to Criminal Detention, Li Zongying and Sun Shu Released 
After Each Was Detained for 10 Days'' [Shandong fangmin li yanxiang bei 
zhuan xingju, li zongying, sun shu ge ju 10 tian huoshi], 27 August 17.
    \144\ Rights Defense Network, ``Song Yusheng: Report on the 
Situation From Meeting With Li Yanxiang at Qingdao No. 2 Municipal 
Detention Center'' [Song yusheng: qingdao shi di er kanshousuo huijian 
li yanxiang qingkuang tongbao], 28 November 17.
    \145\ Body of Principles for the Protection of All Persons Under 
Any Form of Detention or Imprisonment, adopted by UN General Assembly 
resolution A/RES/43/173 9 December 88, principle 24.
    \146\ ``Citizen Journalist Sun Lin Reveals He Was Force-Fed 
`Medicine' '' [Gongmin jizhe sun lin pilu bei qiangzhi wei ``yao''], 
Radio Free Asia, 8 February 18. For more information on Sun Lin, see 
the Commission's Political Prisoner Database record 2018-00617.
    \147\ ``Jiang Tianyong Force-Fed Medication in Prison, Memory 
Deteriorated Severely'' [Jiang tianyong yuzhong bei qiangpo wei yao 
jiyili yanzhong shuaitui], Radio Free Asia, 27 June 18.
    \148\ Front Line Defenders, ``UPR Submission--China 2018,'' 29 
March 18, para. 22.
    \149\ Rights Defense Network, ``Huang Qi Trial Continues To Be 
Postponed, Suffering Life-Threatening Illness Without Medical Parole, 
[as He] Suffers Life-Threatening Illness Without Medical Parole, Mother 
Again Faces Probe by Original Work Unit, Calls Out That She Wants To 
Live To See Son'' [Huang qi an jiu tuo bu shen, huan zhiming jibing 
wufa baowai, muqin pu wenqing you zao yuan danwei tancha, yu yao huozhe 
jian dao erzi], 18 August 18; Jun Mai, ``Jailed Founder of China's 
Underground Human Rights Site in Poor Health as State Secrets Trial 
Looms,'' South China Morning Post, 25 May 18; ``Chinese Rights Activist 
Huang Qi `Could Die in Detention Center': Mother,'' Radio Free Asia, 23 
April 18. For information about rights advocacy groups that have called 
for medical parole for Huang Qi, see, e.g., Human Rights Watch, 
``China: Release Gravely Ill Critics,'' 17 November 17; Committee to 
Protect Journalists, ``CPJ Urges Chinese President Xi Jinping To 
Release Jailed Journalist Huang Qi,'' 9 August 17.
    \150\ ChinaAid, ``Guiyang Living Stone Church Pastor Yang Hua's 
Health Less Than Perfect in Prison'' [Guiyang huoshi jiaohui mushi yang 
hua, yu zhong jiankang qianjia], 4 April 18. For more information on Li 
Guozhi (Yang Hua), see the Commission's Political Prisoner Database 
record 2016-00001.
    \151\ See, e.g., State Council Information Office, White Paper on 
``New Developments in Rule of Law Guarantees for Human Rights in 
China'' [``Zhongguo renquan fazhihua baozhang de xin jinzhan'' 
baipishu], December 2017, sec. 3; Shan Yuxiao et al., ``Xi Jinping 
Discusses Rectifying Wrongful Convictions: Righting Wrongs Is Better 
Late Than Never'' [Xi jinping tan jiuzheng yuanjia cuo'an: jiu cuo jiu 
shi wang yang bu lao], Caixin, 25 August 17; ``Supreme Court: China 
`Basically' Has No Wrongful Convictions'' [Zuigao fayuan: zhongguo 
``jibenshang'' wu yuanjia cuo'an], Radio Free Asia, 9 March 18.
    \152\ See, e.g., Zheng Zhi, ``Deputy Li Zongsheng: Strictly Exclude 
Illegal Evidence and Eliminate Wrongful Convictions'' [Li zongsheng 
daibiao: yange paichu feifa zhengju dujue yuanjia cuo'an], 
Procuratorial Daily, 16 March 18; Hua Xuan, ``With Trials as the 
Center: Hearings Do Not Just Go Through the Motions'' [Yi shenpan wei 
zhongxin: tingshen bu zou guochang], Southern Weekend, 25 October 17.
    \153\ Luo Sha and Ding Xiaoxi, ``Courts Nationwide Rectify 39 Major 
Cases of Wrongful Conviction Involving 78 People Over Past Five Years'' 
[Quanguo fayuan wu nian lai jiuzheng zhongda yuanjia cuo'anjian 39 jian 
78 ren], Xinhua, 5 February 18.
    \154\ Song Jiangxuan, ``Verdict Changed to Not Guilty in Liu 
Zhonglin `Intentional Homicide' Case: Imprisoned for 25 Years, 6-Year 
Retrial'' [Liu zhonglin ``guyi sha ren an'' gaipan wuzui: jiya 25 nian 
zaishen lishi 6 nian], The Paper, 20 April 18; Wang Lianzhang, ``Man 
Exonerated After Longest-Ever Wrongfully Served Term,'' Sixth Tone, 20 
April 18.
    \155\ Qin Shuo, ``Zhang Wenzhong Case: A New Start for `No 
Injustice on Earth' '' [Zhang wenzhong an: ``tianxia wuyuan'' de xin 
qidian], Yicai, 4 June 18; Cao Yin, ``Wumart Tycoon's Conviction Thrown 
Out,'' China Daily, 1 June 18.
    \156\ Human Rights Watch, ``China: Voice Biometric Collection 
Threatens Privacy,'' 22 October 17; Human Rights Watch, ``China: Police 
`Big Data' Systems Violate Privacy, Target Dissent,'' 19 November 17; 
Pei Li and Cate Cadell, ``China Eyes `Black Tech' To Boost Security as 
Parliament Meets,'' Reuters, 10 March 18.
    \157\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
12; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 17.
    \158\ For additional discussion of concerns about privacy in this 
context, see, e.g., Human Rights Watch, ``China: Voice Biometric 
Collection Threatens Privacy,'' 22 October 17; Human Rights Watch, 
``China: Police `Big Data' Systems Violate Privacy, Target Dissent,'' 
19 November 17; Paul Mozur, ``Internet Users in China Expect To Be 
Tracked. Now, They Want Privacy,'' New York Times, 4 January 18.
    \159\ Pei Li and Cate Cadell, ``China Eyes `Black Tech' To Boost 
Security as Parliament Meets,'' Reuters, 10 March 18. See also Shannon 
Liao, ``Chinese Police Are Expanding Facial Recognition Sunglasses 
Program,'' The Verge, 12 March 18.
    \160\ Pei Li and Cate Cadell, ``China Eyes `Black Tech' To Boost 
Security as Parliament Meets,'' Reuters, 10 March 18.
    \161\ Ibid.; Charles Rollet, ``In China's Far West, Companies Cash 
in on Surveillance Program That Targets Muslims,'' Foreign Policy, 13 
June 18.
    \162\ ``Voice Recognition Technology Helps the Establishment of 
China's Network Identity Recognition'' [Shengwen renzheng jishu zhuli 
woguo wangluo shenfen renzheng jianshe], Xinhua, 19 March 18; Human 
Rights Watch, ``China: Voice Biometric Collection Threatens Privacy,'' 
22 October 17.
    \163\ ``Voice Recognition Technology Helps the Establishment of 
China's Network Identity Recognition'' [Shengwen renzheng jishu zhuli 
woguo wangluo shenfen renzheng jianshe], Xinhua, 19 March 18; Human 
Rights Watch, ``China: Voice Biometric Collection Threatens Privacy,'' 
22 October 17.
    \164\ Jilin Province Public Security Bureau, ``Jilin Public 
Security Smart Voice Strategy Cooperative Agreement Signing Ceremony 
Held at Provincial Public Security Bureau, Hu Jiafu Attends Signing 
Ceremony and Delivers Remarks'' [Jilin gong'an zhineng yuyin zhanlue 
hezuo xieyi qianyue yishi zai sheng gong'an ting juxing, hu jiafu chuxi 
qianyue yishi bing jianghua], 21 August 17; Nanling Judicial Bureau, 
``Nanling Judicial Bureau `Audio-Visual Integration' Strengthens 
Technological Supervision'' [Nanling sifa suo ``shengxiang jiehe'' 
qianghua keji jianguan], reprinted in Fujian Provincial Leading Small 
Group on Governing the Province in Accordance With the Law, 2 May 18.
    \165\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18; Josh Chin, ``About To Break the Law? 
Chinese Police Are Already on to You,'' Wall Street Journal, 27 
February 18.
    \166\ Human Rights Watch, ``China: Visiting Officials Occupy Homes 
in Muslim Region,'' 13 May 18; ``China Sets Up `Big Data' System for 
Preventive Policing in Xinjiang: Report,'' Radio Free Asia, 27 February 
18.
    \167\ Human Rights Watch, ``China: Minority Region Collects DNA 
From Millions,'' 13 December 17.
    \168\ Josh Chin, ``About To Break the Law? Chinese Police Are 
Already on to You,'' Wall Street Journal, 27 February 18.
    \169\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18; Josh Chin, ``About To Break the Law? 
Chinese Police Are Already on to You,'' Wall Street Journal, 27 
February 18; UN Office of the High Commissioner for Human Rights, 
Working Group on Arbitrary Detention, Fact Sheet No. 26, May 2000, sec. 
IV(B).
    \170\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 9 March 18. See also PRC Criminal Law [Zhonghua renmin 
gongheguo xing fa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, 29 August 15, 4 November 17, art. 48.
    \171\ Amnesty International, ``Death Sentences and Executions 
2017,'' 2018, 20.
    \172\ Ibid. See also Dui Hua Foundation, ``How Transparency in 
Death Penalty Cases Can Reduce Wrongful Convictions,'' Dui Hua Human 
Rights Journal, 22 August 17.
    \173\ Moulin Xiong and Michelle Miao, ``Miscarriages of Justice in 
Chinese Capital Cases,'' Hastings International and Comparative Law 
Review, Vol. 41, No. 3 (Summer 2018), 279; Liu Renwen, ``Can Lawyers Be 
Directly Notified of the Results of Death Penalty Reviews? '' [Sixing 
fuhe jieguo kefou zhijie tongzhi lushi], Southern Weekend, 9 September 
17; Xu Lanting and Yang Tuo, ``The Significance of Complete Coverage of 
Criminal Defense Lawyers Is Great, Its Influence Far-Reaching and 
Profound'' [Xingshi lushi bianhu quanfugai yiyi zhongda, yingxiang 
shenyuan], Legal Daily, 17 October 17; Supreme People's Court and 
Ministry of Justice, Measures Regarding Launching the Pilot Work of 
Complete Coverage of Defense Counsel in Criminal Cases [Guanyu kaizhan 
xingshi anjian lushi bianhu quan fugai shidian gongzuo de banfa], 
issued and effective 11 October 17.
    \174\ Alice Yan, ``10 People Sentenced to Death for Drug Crimes in 
Southern China,'' South China Morning Post, 5 January 18; Benjamin 
Haas, ``Public Death Sentences for 10 People Show China's 
Desperation,'' Guardian, 19 December 17.
    \175\ Zhuang An, ``Lufeng, Guangdong Convenes Sentencing Gathering: 
10 People Sentenced to Death, Taken to Execution Ground for Execution 
After Sentencing'' [Guangdong lufeng zhaokai xuanpan dahui: 10 ren bei 
pan sixing, xuanpan hou ya fu xingchang zhixing], The Paper, 17 
December 17.
    \176\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 252. See also Supreme People's Court, 
Supreme People's Procuratorate, and Ministry of Public Security, 
Circular Regarding the Civilized Management of Criminals Held in 
Detention Centers According to Law [Zuigao renmin fayuan zuigao renmin 
jianchayuan gong'an bu guanyu yifa wenming guanli kanshousuo zaiya 
renfan de tongzhi], 14 November 92, para. 5.
    \177\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 235, 236.
    \178\ ``Verdict Announced in Linfen Intermediate Court Trial of 
First Instance in Zhang Zhongsheng Case Involving Bribery and Large 
Sums of Money From Unidentified Source, Defendant Sentenced to Death 
and Has All Personal Assets Confiscated'' [Zhang zhongsheng shouhui, 
ju'e caichan laiyuan buming an zai linfen zhongyuan yishen xuanpan, 
beigaoren bei panchu sixing, bingchu moshou geren quanbu caichan], 
Xinhua, 28 March 18; Jane Cai, ``Death Penalty for `Godfather' of 
Chinese Coal Mining Town Over US$160 Million in Bribes,'' South China 
Morning Post, 29 March 18.
    \179\ Jane Cai, ``Death Penalty for `Godfather' of Chinese Coal 
Mining Town Over US$160 Million in Bribes,'' South China Morning Post, 
29 March 18.
    \180\ Although the Chinese government has promulgated rules to 
regulate the sourcing of organs, it has not outlawed sourcing organs 
from executed prisoners. PRC Criminal Law [Zhonghua renmin gongheguo 
xing fa], passed 1 July 79, amended 14 March 97, effective 1 October 
97, amended 25 December 99, 31 August 01, 29 December 01, 28 December 
02, 28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 
August 15, 4 November 17, art. 234-1. The PRC Criminal Law prohibits 
organized trading of organs, the removal of organs without consent, and 
the inducement of another to donate organs by fraud or coercion. State 
Council, Regulations on Human Organ Transplants [Renti qiguan yizhi 
tiaoli], issued 31 March 07, effective 1 May 07, arts. 7, 21. The State 
Council's Regulations on Human Organ Transplants prohibit medical 
facilities from charging a fee for the transplanted organ. Ministry of 
Health, Certain Provisions on Standardizing Live Organ Transplantation 
[Weishengbu guanyu guifan huoti qiguan yizhi de ruogan guiding], issued 
and effective 28 December 09. In general, the Ministry of Health's 
Certain Provisions on Standardizing Live Organ Transplantation 
implement the State Council's Regulations on Human Organ Transplants. 
National Health and Family Planning Commission, Regulations on 
Administering Procurement and Distribution of Human Organ Donations 
(Trial) [Renti juanxian qiguan huoqu yu fenpei guanli guiding 
(shixing)], issued 13 August 13, effective 1 September 13, arts. 5, 6. 
The trial Regulations on Administering Procurement and Distribution of 
Human Organ Donations create organ procurement organizations in every 
provincial-level administrative jurisdiction and require them to 
register procured organs in a national registry. For background 
information on organ harvesting from executed prisoners and organ 
harvesting in China generally, see China Organ Harvest Research Center, 
``Transplant Abuse in China Continues Despite Claims of Reform,'' July 
2018.
    \181\ `` `Chinese Model' for Managing Organ Transplants Receives 
Approval'' [Qiguan yizhi guanli ``zhongguo moshi'' huo kending], 
Xinhua, 15 March 18.
    \182\ ``China Saved 100 Organ Trafficking Victims During Crackdown, 
Vatican Conference Is Told,'' Associated Press, reprinted in South 
China Morning Post, 15 March 18.


                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion

                          Freedom of Religion


           International and Chinese Law on Religious Freedom

    Both Chinese and international law provide guarantees of 
religious freedom. Despite these guarantees, the Commission 
continued to observe widespread and systematic violation of the 
principles of religious freedom during the 2018 reporting year, 
as Chinese authorities exercised broad discretion over 
religious practice.
    Under international law, freedom of religion or belief 
encompasses both the right to form, hold, and change 
convictions, beliefs, and religions--which cannot be 
restricted--and the right to outwardly manifest those beliefs--
which can be limited for certain, specific justifications.\1\ 
These principles are codified in various international 
instruments, including the Universal Declaration of Human 
Rights and the International Covenant on Civil and Political 
Rights (ICCPR).\2\ China has signed \3\ and stated its intent 
to ratify \4\ the ICCPR, which obligates China to refrain in 
good faith from acts that would defeat the treaty's purpose.\5\
    Article 36 of China's Constitution guarantees citizens 
``freedom of religious belief'' and protection for ``normal 
religious activities.'' \6\ With essential terms such as 
``normal'' undefined, it is unclear whether China's 
Constitution protects the same range of belief and outward 
manifestation that is recognized under international law.\7\ In 
other ways, however, China's Constitution and other legal 
provisions \8\ join the ICCPR in prohibiting discrimination 
based on religion \9\ and loosely parallel the ICCPR's 
prohibition on coercion \10\ by forbidding state agencies, 
social organizations, and individuals from compelling citizens 
to believe or not believe in any religion.\11\
    China's Constitution prohibits ``making use of religion to 
engage in activities that disrupt social order, impair the 
health of citizens, or interfere with the educational system of 
the State.'' \12\ The ICCPR does allow State Parties to 
restrict outward manifestations of religion or belief, but such 
restrictions must be ``prescribed by law and . . . necessary to 
protect public safety, order, health, or morals or the 
fundamental rights and freedoms of others.'' \13\

        Policies and Regulations Pertaining to Religious Freedom

    The importance of ``religious work'' \14\ to the Chinese 
Communist Party agenda has undergone an ``unprecedented 
increase'' with ``major innovations'' under Party General 
Secretary Xi Jinping, according to an article published a few 
weeks before the October 2017 19th Party Congress \15\ in the 
major Party journal Seeking Truth (Qiushi). Party and 
government officials emphasized several key policy principles 
in religious affairs during this past year:

        <bullet> ``Actively guiding religions to adapt to 
        socialist society.'' \16\ As explained by Party and 
        government sources, this means ``guiding'' religious 
        groups to support Party leadership and the political 
        system.\17\ The State Council Information Office stated 
        in an April 2018 white paper that this principle also 
        includes ensuring that religious believers are 
        ``subordinate to and serve the overall interests of the 
        nation and the Chinese people.'' \18\
        <bullet> ``Sinicization.'' Party and government 
        officials continued to develop and promote policies 
        aimed at shaping religious practice in China to promote 
        and assimilate to a Chinese cultural identity.\19\ One 
        policy document from the State Administration for 
        Religious Affairs called for interpreting religious 
        teachings and doctrines in ways that conform to 
        ``China's outstanding traditional culture,'' promoting 
        patriotic education and activities within religious 
        communities, and impelling the religious communities to 
        exhibit Chinese ``characteristics'' and ``style'' in 
        religious thinking, institutions, rituals, behavior, 
        and architecture, among other aspects.\20\ Party and 
        government officials also continued to develop policies 
        to resist the perceived threat of foreign forces that 
        use religion to ``infiltrate'' Chinese society.\21\ 
        According to international experts on Chinese religion, 
        officials view Christianity, Islam, and Tibetan 
        Buddhism as retaining undue foreign influence while 
        considering Chinese Buddhism and Taoism to be 
        integrated with Chinese culture.\22\ Official 
        pronouncements also identified ``extremism'' as a 
        particular problem that officials should address within 
        Islam.\23\
        <bullet> Promoting religion as an instrument for 
        implementing official policy objectives. Party and 
        government policy encouraged use of religious groups to 
        facilitate communication and connection with other 
        countries, particularly those hosting Belt and Road 
        Initiative projects.\24\ Policy plans included 
        cooperation with Russia and Central Asian countries on 
        ``anti-extremism'' efforts.\25\ In addition, Party and 
        government policy documents directed officials to 
        encourage religious groups to provide social services 
        to complement central government poverty alleviation 
        efforts.\26\

    The increased attention to religious affairs under Party 
General Secretary Xi Jinping is part of a ``hardline turn'' in 
the Party's ``united front work,'' according to an Australian 
scholar specializing in Chinese political institutions.\27\ Led 
through the Party's United Front Work Department (UFWD), 
``united front work'' involves bringing elements of society 
outside of the Party under its control with the aim of 
preventing the independent organization of civil society.\28\ 
The Party under Xi has viewed ``united front work'' with 
renewed urgency given the increased complexity of society and 
the growth of new groups such as religious communities \29\ in 
the decades since China's economic marketization.\30\ A Hong 
Kong-based scholar notes, for example, that Party officials 
have concerns about the growing number of Christian believers 
in China and the level of organization within the 
community.\31\
    In March 2018, the Party's sweeping reorganization plan for 
Party and government institutions included a provision 
directing the Party's UFWD to take over the government agency 
responsible for religious affairs at the national level, making 
the national-level UFWD directly responsible for administering 
policies pertaining to religion in China.\32\ The UFWD would 
continue to use the government agency's name--the State 
Administration for Religious Affairs--when interacting with 
outside entities.\33\ The stated rationale for the 
restructuring was to unify and strengthen the Party's control 
over ``religious work.'' \34\ Even prior to the change, the 
UFWD, under the Party's Central Committee, had been responsible 
for developing Party policies on religion and connecting with 
religious groups and leaders on behalf of the Party.\35\ At a 
July 2018 meeting involving key leaders of the UFWD and state-
sanctioned religious groups, the latter issued a proposal for 
religious venues to fly the Chinese flag and organize 
activities involving the flag to encourage religious believers 
to ``strengthen their identification with the Party and the 
nation in politics, thought, and feeling.'' \36\
    As of September 2018, the Commission did not observe 
reports of changes in responsibility for religious affairs 
administration at the local level, where local government 
bureaus have been responsible for managing religious 
affairs.\37\ These religious affairs agencies have effective 
authority over the state-sanctioned ``patriotic'' religious 
associations that act as liaisons between the government and 
practitioners of the five ``main'' religions in China,\38\ 
while the UFWD vets the association leaders.\39\ Public 
security bureaus are generally responsible for enforcement of 
laws against religious activity authorities deem illegal.\40\
    The Chinese government's regulatory framework for religion 
imposed increased restrictions on religious freedom after 
revisions to the Regulations on Religious Affairs took effect 
on February 1, 2018.\41\ The revisions increased official 
control and scrutiny over religious activity, including newly 
explicit prohibitions on groups, schools, and venues from 
engaging in or hosting religious activities unless they have 
been officially designated as religious (Article 41) and on 
clergy acting as religious professionals without official 
certification (Article 36).\42\ The revisions also established 
new legal responsibilities and penalties for violations of the 
regulations, including fining those who ``provide the 
conditions'' for unauthorized religious activities (Article 
71).\43\ Religious believers \44\ and academic experts \45\ 
predicted that the restrictions would increase official 
pressure on religious groups, particularly those not registered 
with the government--many groups refuse to register because 
registration requires submitting to the direction of a state-
sanctioned patriotic religious association.\46\ In contrast, 
some registered religious groups may be able to operate more 
independently of patriotic religious associations due to the 
revisions allowing registered religious groups to apply for 
status as legal persons, according to one U.S.-based scholar of 
Chinese religion and society--without separate legal 
identities, registered groups have relied on their affiliated 
patriotic religious association to open bank accounts and sign 
contracts on their behalf.\47\ In addition, one expert on 
Chinese religion opined about the potential for increased 
control over the religious gatherings of non-Chinese citizens 
in China after the State Administration for Religious Affairs 
released a draft revision to the provisions regulating such 
activities in May 2018.\48\ The proposed revisions would 
restrict foreign citizens' religious freedom by, for example, 
requiring their religious activities to be approved and 
facilitated by state-sanctioned religious organizations and 
registered with local religious affairs administrators if they 
involve more than 50 people; the revisions would also prohibit 
Chinese citizens from participating excepting those chosen by 
state-sanctioned religious organizations to jointly administer 
such activities.\49\
    Other laws and Party policies also continued to restrict 
citizens' freedom to hold religious beliefs and practice 
religion. For example, Article 300 of the PRC Criminal Law 
criminalizes ``organizing and using a cult to undermine 
implementation of the law,'' \50\ and the PRC National Security 
Law prohibits ``the use of religion to conduct illegal criminal 
activities that threaten state security.'' \51\ The latter also 
contains mandates to ``maintain the order of normal religious 
activities,'' ``oppose the interference of foreign influence 
into domestic religious affairs,'' and ``suppress cult 
organizations.'' \52\ State media declared the importance of 
adhering to the long-standing \53\ ban on religious belief for 
Party members,\54\ warning that religious beliefs had been 
implicated in many Party discipline cases in recent years.\55\ 
Local-level Party organizations issued notices warning Party 
members and their families that they would face sanctions for 
participating in any event related to Christmas Eve or other 
activities associated with ``Western religions,'' \56\ with 
prohibitions reportedly extending to state-owned enterprise 
employees.\57\ One international law expert has noted that 
because Party membership to a large degree determines the 
extent to which citizens may participate in public life, the 
ban constitutes discrimination against religious believers and 
a violation of freedom of religious belief.\58\

                   Buddhism (Non-Tibetan) and Taoism

    Government and Party officials rarely targeted Chinese 
Buddhist and Taoist communities with direct suppression--both 
are considered to be relatively compliant with Party and 
government leadership, and compatible with the official 
promotion of traditional Chinese culture.\59\ A large number of 
Chinese citizens engage in Buddhist and Taoist practices, with 
estimates of around 244 million Buddhists as of 2010,\60\ and 
173 million citizens engaging in some Taoist practices as of 
2007.\61\ [For information on Tibetan Buddhism, see Section V--
Tibet.] Chinese Buddhist and Taoist communities are subject to 
extensive regulation and control by officials: government 
authorities connected with local religious affairs bureaus are 
involved with the administration of officially sanctioned 
temples; all candidates for the clergy must obtain the approval 
of the local patriotic association and religious affairs bureau 
for ordination; \62\ and Buddhist ordinations themselves are 
restricted by the state-run patriotic associations.\63\ The 
head of the Buddhist Association of China (BAC), the national-
level patriotic association for Buddhists, Shi Xuecheng, 
resigned in August 2018 after two female supervisory 
chancellors released a report documenting claims that he had 
sexually harassed female disciples.\64\ The State 
Administration for Religious Affairs directed the BAC to 
subject Xuecheng to severe disciplinary sanctions after 
verifying some of the harassment claims and announced that 
local authorities would continue to investigate other 
allegations of illegal building construction, mismanagement of 
funds, and sexual assault.\65\ International media reported 
that official control over ordinations and resources for 
religious institutions has created disparities between 
different Buddhist traditions driven by official political 
priorities, noting that Theravada Buddhist temples and schools 
in particular are under-resourced and lacking in clergy.\66\
    Official regulations also included restrictions that may 
violate state neutrality with regard to religion--in November 
2017, the State Administration for Religious Affairs and 11 
other central Party and government departments issued a joint 
opinion on combating commercialization in Buddhism and Taoism 
to avoid negative effects on ``the healthy development of [the 
two religions'] dissemination.'' \67\ The opinion outlined a 
series of measures such as prohibitions on commercial 
investment in religious venues, construction of large outdoor 
statues, and local government promotion of religious sites for 
tourism and economic development purposes.\68\ Overseas 
observers noted that the campaign against commercialization in 
religion demonstrates shifting government priorities under Xi 
Jinping away from economic development \69\ and toward 
bolstering the credibility of Buddhism and Taoism so that 
indigenous religions embodying Chinese culture and values may 
serve as a bulwark against ``infiltration'' of other values via 
religions perceived as foreign.\70\ One human rights expert has 
noted that when a state distinguishes between proper and 
improper conduct in order to uphold religious standards or to 
enhance the legitimacy of particular religions as against 
others, it violates the state neutrality necessary to maintain 
the free exercise of religious freedom.\71\

                       Christianity--Catholicism

    The number of Catholics is estimated to be around 10.5 
million,\72\ with the State Council Information Office 
reporting in 2018 that 
6 million Catholics were part of officially sanctioned 
congregations.\73\ Chinese officials impede the freedom under 
international standards \74\ for Chinese Catholic congregations 
to be led by clergy who are selected and who conduct their 
ministry as called for by Catholic religious beliefs. Officials 
continued to insist that bishops be ``self-selected and self-
ordained'' \75\--that is, selected through patriotic religious 
organizations in consultation with government and Party 
officials, and then ordained by Chinese bishops.\76\ Many 
Chinese Catholics, sometimes known as ``underground 
Catholics,'' avoid the ministry of such bishops because they 
believe legitimate ecclesiastical authority can be conferred 
only by the Pope's mandate,\77\ and they also object to 
affiliation with the patriotic religious association for 
Chinese Catholics, the Catholic Patriotic Association 
(CPA).\78\ The Holy See has declared the CPA ``incompatible 
with Catholic doctrine'' because it claims authority over 
Chinese bishops and their church communities while being backed 
by the Chinese government and maintaining independence from the 
Holy See.\79\ Foreign media reported that local officials 
pressured underground Catholic leaders to join the CPA in 
Fujian, Gansu, Hebei, and Zhejiang provinces, in some cases by 
holding bishops in official custody for periods ranging from 
one to seven months.\80\
    The Chinese government and the Holy See continued \81\ 
negotiations regarding control over the system of bishop 
appointments. In September 2018, the Wall Street Journal 
reported that an agreement was imminent.\82\ Under the deal, 
Chinese authorities would nominate future Chinese bishops that 
the Holy See would be able to veto.\83\ The Holy See would also 
recognize seven ``illegitimate bishops'' approved by the state; 
\84\ the Holy See had directed two underground bishops to step 
down to make way for two of these state-backed bishops in 
December 2017.\85\ Both sides reportedly agreed not to publish 
the agreement after its signing.\86\ As of mid-September the 
deal was not yet finalized, but Chinese Catholics had expressed 
concerns in reaction to earlier reports of an impending 
agreement that the Holy See would make concessions that would 
weaken and further divide the Chinese Catholic community.\87\
    Authorities in some locales took repressive actions against 
state-sanctioned Catholic communities. In June 2018, religious 
affairs officials recommended that the diocese for Shijiazhuang 
municipality, Hebei province, disqualify a priest for leading a 
pilgrimage, citing the government's ``sinicization'' campaign 
and the revised Regulations on Religious Affairs' prohibition 
on ``unauthorized religious activities.'' \88\ In June through 
August, officials dismantled a popular pilgrimage site in Henan 
province \89\ and demolished two Catholic churches in Jinan 
municipality, Shandong province.\90\ At the national level, the 
two state-sanctioned national religious organizations for 
Catholics issued instructions to all local dioceses under their 
purview to report on local plans for implementation of the 
five-year plan passed in May 2018 to ``sinicize'' Catholicism 
in China.\91\ The ``sinicization'' of Catholicism has been 
described by one top government official as adapting 
interpretations of Catholic doctrine to what is required by 
Chinese development and traditional culture.\92\

                      Christianity--Protestantism

    Party and government officials maintained restrictions on 
the religious activities of Chinese Protestants, estimated to 
number around 60 to 80 million,\93\ with some believers facing 
harassment, surveillance, detention, imprisonment, and other 
abuse because of their religious activities. A U.S.-based 
organization that advocates for religious freedom, ChinaAid 
Association, reported that both instances of official 
persecution and the number of believers affected had increased 
in 2017 from the prior year.\94\ Academic experts on Chinese 
religion and society stated that the continued escalation of 
repression was due in part to concern by Party officials that 
Christian communities pose a challenge to the Party's monopoly 
on political power.\95\
    Under the ``sinicization'' campaign promoted by Chinese 
Communist Party General Secretary Xi Jinping, officials have 
sought to bring Protestant communities into alignment with 
Party interests and ideology by tightening control over 
registered, state-sanctioned Protestant groups and using harsh 
measures to pressure unregistered groups into submitting to 
government scrutiny and regulation. Measures implemented that 
have increased official control over officially sanctioned 
Protestant churches in some local areas included the 
installation of surveillance cameras,\96\ ordering cross 
removals from church buildings,\97\ and the establishment of 
official village-level groups to monitor religious 
activities.\98\ Under Xi's leadership, officials planned to 
extend further influence over religious affairs and activities 
of registered Protestant communities.\99\ In March 2018, for 
example, the two state-sanctioned national religious 
organizations for Protestants released a joint five-year plan 
to promote the ``sinicization'' of Protestantism that included 
developing theological interpretations of the Bible compatible 
with the Chinese political system and training ``politically 
reliable'' and ``morally convincing'' religious leaders.\100\ 
In a move affecting both Catholic and Protestant Christian 
believers, Chinese officials reportedly issued a notification 
to large online retailers prohibiting sales of the Bible 
beginning March 30, 2018.\101\ A number of leaders of 
officially sanctioned Protestant groups who had been prosecuted 
and sentenced after protesting official measures against their 
churches in the past remained in prison.\102\
    Unregistered church communities (commonly referred to as 
``house churches'') faced additional persecution as officials 
sought to pressure them into registering under the auspices of 
a patriotic religious association.\103\ As in previous 
years,\104\ Protestant house churches continued to face raids 
during church gatherings \105\ and eviction from meeting 
spaces.\106\ In January 2018, authorities in Shanxi province 
demolished the Golden Lampstand Church, with a congregation of 
50,000.\107\ In Henan province, authorities reportedly banned 
at least 100 house churches from meeting after the revised 
Regulations on Religious Affairs went into effect in February 
2018, and also destroyed religious iconography in believers' 
homes.\108\ In July 2018, the Beijing municipal government 
reportedly issued an order for lower-level governments to 
conduct investigations of Protestant churches with the 
cooperation of local public security officials.\109\ 
Authorities also reportedly subjected some believers to 
harassment \110\ and detention.\111\ Also in July, officials in 
Xinyu municipality, Jiangxi province, reportedly ordered house 
churches to remove crosses and hang the national flag or 
portraits of Xi Jinping within their buildings, while also 
banning minors from attending church.\112\ In one major 
incident in May 2018, local authorities detained more than 200 
members of Early Rain Covenant Church in Chengdu municipality, 
Sichuan province, prior to a planned memorial service for the 
victims of the 2008 Wenchuan earthquake in Wenchuan county, Aba 
(Ngaba) Tibetan and Qiang Autonomous Prefecture, Sichuan.\113\
    In several instances, authorities in Yunnan province 
continued \114\ to detain and prosecute house church members on 
charges of ``organizing and using a cult to undermine 
implementation of the law,'' under Article 300 of the PRC 
Criminal Law. Since October 2016, around 200 people reportedly 
have been detained, six of whom were sentenced in December 
2017.\115\ In a report directed at the Yunnan province-level 
group responsible for Party discipline inspection, one county-
level Party committee described cult prevention activities as 
one of several measures aimed at ``rectifying the inadequate 
implementation of the ideological work responsibility system.'' 
\116\ Other measures in the same category included a ``clean-up 
campaign aimed at foreign non-governmental organizations (NGOs) 
and foundations.'' \117\ In May 2018, the provincial state-
sanctioned religious organizations for Protestants in Zhejiang 
province issued a statement banning one house church for 
promoting an ``illegal'' religion.\118\

                               Falun Gong

    As in previous years, authorities continued to detain Falun 
Gong practitioners and subject them to harsh treatment.\119\ 
Due to government suppression, it is difficult to determine the 
number of Falun Gong practitioners in China.\120\ Authorities 
commonly prosecute Falun Gong practitioners under Article 300 
of the PRC Criminal Law; the U.S.-based NGO Dui Hua Foundation 
noted that Falun Gong practitioners made up the majority of the 
800 people convicted under the provision in cases from 2017 
available in judicial databases.\121\ Human rights 
organizations \122\ and Falun Gong practitioners documented 
coercive and violent practices against practitioners during 
custody, including physical violence,\123\ forced drug 
administration,\124\ sleep deprivation,\125\ and other forms of 
torture.\126\ In December 2017, the Epoch Times, a U.S.-based 
news organization affiliated with Falun Gong, reported 29 
confirmed deaths of Falun Gong practitioners in 2017 due to 
abuse by officials.\127\
    Several international organizations expressed concern over 
reports that numerous organ transplants in China have used the 
organs of detained prisoners, including Falun Gong 
practitioners.\128\ Medical professionals and international 
advocacy organizations disputed Chinese health officials' 
claims that organ procurement systems have been reformed in 
compliance with international standards, citing ethical 
concerns about organ sourcing raised by short wait times for 
organ transplants and discrepancies in data on organ 
transplants.\129\

                                 Islam

    This past year, official restrictions on the religious 
freedom of the 10.5 million \130\ Hui Muslim believers 
increased.\131\ In a speech before the Chinese People's 
Political Consultative Conference, the head of the China 
Islamic Association (IAC),\132\ the patriotic religious 
association for Chinese Muslims,\133\ stressed the importance 
of ``sinicizing'' Islam, which he described as adapting Islamic 
religious practice to support patriotism and the realization of 
the ``great rejuvenation of Chinese civilization'' and the 
``Chinese dream'' while rejecting extremism.\134\ In Yinchuan 
municipality, the capital of Ningxia Hui Autonomous Region, a 
region with a high concentration of Hui Muslim believers, the 
local government reportedly launched a ``rectification 
campaign'' that has included the removal of ``Arabic style'' 
domes and decor from mosques and other buildings, prohibitions 
on calls to prayer, removal of the Quran and books on Islam 
from retail shops, and the closure of schools teaching 
Arabic.\135\ In Linxia Hui Autonomous Prefecture, Gansu 
province, local officials signed a pledge to prevent 
individuals or groups that would otherwise ``support, permit, 
organise or guide minors towards entering mosques for Koranic 
study or religious activities''; local Hui Muslim believers 
expressed distress that their religious traditions might not be 
passed on to future generations because of the 
prohibition.\136\ A local county government in Gansu also 
banned children in a heavily Muslim area from attending 
religious events, reading scripture in classes, or entering 
religious venues over the winter holiday, and instructed 
students and teachers to ``strengthen political ideology and 
propaganda.'' \137\ The Dui Hua Foundation reported in March 
2018 that 14 online judgments it had discovered showed that Hui 
Muslim believers in the Xinjiang Uyghur Autonomous Region had 
been sentenced for ``cult'' or other offenses for ``privately 
preaching the Quran.'' \138\ [For more information on Uyghur, 
Kazakh, Kyrgyz, Hui, and other Muslim believers, see Section 
IV--Xinjiang. For more information on Hui Muslim believers, see 
Section II--Ethnic Minority Rights.]
    Ongoing policies included measures requiring Islamic 
religious leaders and lay believers to demonstrate their 
political reliability. To be officially certified, imams and 
other religious personnel must be educated at one of 10 state-
sanctioned Islamic schools or otherwise obtain equivalent 
education,\139\ and be vetted by the local religious affairs 
bureau and the IAC.\140\ After certification, religious leaders 
are required to continue attending political training 
sessions.\141\ An official media outlet reported in August 2018 
that Chinese Muslims seeking to carry out the Hajj pilgrimage 
would take patriotic education classes required by Chinese 
regulations in order to ``enhance their awareness about 
safeguarding national unity and resisting separatism and 
religious extremism.'' \142\ According to an official media 
report, around 11,500 Chinese Muslim believers made the Hajj 
pilgrimage in 2018, of whom around 3,300 participants received 
GPS tracking devices as part of a pilot program allowing IAC 
organizers to monitor their location in real time throughout 
the pilgrimage.\143\ According to the manufacturer, the device 
was jointly designed by the State Administration for Religious 
Affairs and the IAC.\144\

                      Other Religious Communities

    Religious communities outside of the five religions that 
are the main objects of official regulation \145\ continued to 
exist in China, with some continuing to enjoy tacit recognition 
and support. For example, the government acknowledged in a 2018 
report on freedom of religious belief that ``large numbers'' of 
Chinese citizens hold folk beliefs,\146\ and some local 
governments have taken measures to recognize folk religious 
sites.\147\ Eastern Orthodox Christian communities have also 
been recognized to varying degrees at the local government 
level.\148\ Other religious groups, such as The Church of the 
Almighty God, faced suppression from authorities--in July 2018, 
a local court in Heilongjiang province tried an unknown number 
of believers from this group for ``organizing and using a cult 
to undermine implementation of the law.'' \149\


                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion
    Notes to Section II--Freedom of Religion

    \1\ Paul M. Taylor, Freedom of Religion: UN and European Human 
Rights Law and Practice (New York: Cambridge University Press, 2005), 
19, 24, 203-04.
    \2\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
18; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 18. Article 18 of the ICCPR 
upholds a person's right to ``have or adopt a religion or belief'' and 
the freedom to manifest that religion or belief ``in worship, 
observance, practice and teaching.'' Article 18 also prohibits coercion 
that impairs an individual's freedom to freely hold or adopt a religion 
or belief. See also Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, 
proclaimed by UN General Assembly resolution 36/55 of 25 November 81.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76; United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 29 June 18. China has signed but not ratified the 
ICCPR.
    \4\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 5. The Chinese government 
stated its intent to ratify the ICCPR in its 2016-2020 National Human 
Rights Action Plan. See also State Council Information Office, 
``Progress in China's Human Rights in 2012,'' May 2013, chap. VI; 
People's Republic of China and European Union, ``Joint Statement of the 
12th China-EU Summit,'' reprinted in Ministry of Foreign Affairs, 30 
November 09, para. 8.
    \5\ United Nations Conference on the Law of Treaties, Vienna 
Convention on the Law of Treaties, adopted 23 May 69, entry into force 
27 January 80, arts. 18, 26.
    \6\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, 11 March 18, art. 36.
    \7\ Ibid.; Liu Peng, ``Crisis of Faith,'' China Security, Vol. 4, 
No. 4 (Autumn 2008), 30.
    \8\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, 11 March 18, art. 36; State 
Council, Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, amended 14 June 17, effective 1 February 18, 
art. 2; PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, art. 12.
    \9\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 26.
    \10\ Ibid., art. 18(2).
    \11\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, 11 March 18, art. 36; State 
Council, Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, amended 14 June 17, effective 1 February 18, 
art. 2.
    \12\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, 11 March 18, art. 36.
    \13\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18; UN Human Rights Committee, General 
Comment No. 22: Article 18 (Freedom of Thought, Conscience or 
Religion), CCPR/C/21/Rev.1/Add.4, 30 July 93, para. 8.
    \14\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17. See also Ray Wang and Gerry Groot, ``Who Represents? Xi 
Jinping's Grand United Front Work, Legitimation, Participation and 
Consultative Democracy,'' Journal of Contemporary China, Vol. 27, Issue 
112 (2018). The term ``religious work'' refers to the Communist Party's 
united front work targeting religious groups. ``United front work'' is 
the Party's term for activities aimed at facilitating the controlled 
participation of different social groups to promote Party goals.
    \15\ ``Enthusiastic Congratulations to the Chinese Communist Party 
for the Victorious Commencement of the 19th Party Congress'' [Relie 
zhuhe zhonggong shijiuda shengli zhaokai], People's Daily, 20 October 
17.
    \16\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 3 April 18, sec. 
I.
    \17\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 3 April 18.
    \18\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 3 April 18.
    \19\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18. See also 
Yao Songshu, ``China Religious Studies Expert Professor Zhang Zhigang 
Discusses: The Three Questions of Sinicization of Religion'' [Zhongguo 
zongjiaoxue zhuanjia zhang zhigang jiaoshou tan: zongjiao zhongguohua 
de san ge wenti], Christian Times, 6 November 17; Gerry Groot, ``The 
Rise and Rise of the United Front Work Department Under Xi,'' Jamestown 
Foundation, China Brief, Vol. 18, Issue 7, 24 April 18.
    \20\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18.
    \21\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18.
    \22\ Cyrille Pluyette, ``En Chine, le Pouvoir Renforce son Controle 
sur les Religions,'' Le Figaro, updated 12 December 17, translated in 
Marc Alves, ``In China's Crackdown on Religions, Buddhism Gets a 
Pass,'' Worldcrunch, 5 February 18; Eleanor Albert, Council on Foreign 
Relations, ``Religion in China,'' 15 March 18.
    \23\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18; ``CPPCC 
Member Yang Faming: Maintain China's Sinicization of Islam'' [Yang 
faming weiyuan: jianchi woguo zhongguohua fangxiang], Xinhua, 10 March 
18.
    \24\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18.
    \25\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18.
    \26\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17; State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18.
    \27\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department Under Xi,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 7, 24 April 18.
    \28\ Ibid.
    \29\ Ian Johnson, ``How the Top-Heavy Catholic Church Is Losing the 
Ground Game in China,'' America, 18 September 17; Eleanor Albert, 
Council on Foreign Relations, ``Religion in China,'' updated 15 March 
18.
    \30\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department Under Xi,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 7, 24 April 18.
    \31\ Cyrille Pluyette, ``En Chine, le Pouvoir Renforce son Controle 
sur les Religions,'' Le Figaro, updated 12 December 17, translated in 
Marc Alves, ``In China's Crackdown on Religions, Buddhism Gets a 
Pass,'' Worldcrunch, 5 February 18.
    \32\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 1(14).
    \33\ Ibid.
    \34\ Ibid.
    \35\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 2016, 38-39; Carsten T. 
Vala, ``Protestant Christianity and Civil Society in Authoritarian 
China,'' China Perspectives, No. 2012/3, 1 October 12, 46.
    \36\ United Front Work Department, ``National Religious 
Organizations Jointly Propose Raising the National Flag at Religious 
Venues'' [Quanguoxing zongjiao tuanti gongtong changyi zai zong jiao 
huodong changsuo shenggua guoqi], 31 July 18.
    \37\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 2016, 38-39.
    \38\ Vincent Goossaert and David A. Palmer, The Religious Question 
in Modern China (Chicago: University of Chicago Press, 2011), 153-54, 
330. The ``patriotic'' religious associations are state-controlled 
institutions that represent the five ``main'' religions of China: the 
Buddhist Association of China, the China Islamic Association, the China 
Taoist Association, the Chinese Catholic Patriotic Association, the 
National Conference of Bishops (an organization led by Catholic 
clergy), the Three-Self (for ``self-governing, self-financing, and 
self-expanding'') Patriotic Movement, and the Chinese Christian Council 
(the latter two organizations have overlapping membership and represent 
Protestants). According to Goossaert and Palmer, although ``nominally 
independent,'' the ``patriotic'' religious associations are effectively 
under the authority of the State Council's agency for religious 
affairs.
    \39\ Ibid., 154.
    \40\ Jessica Batke, ``PRC Religious Policy: Serving the Gods of the 
CCP,'' Stanford University, Hoover Institution, China Leadership 
Monitor, No. 52 (Winter 2017), 14 February 17, 3; Vincent Goossaert and 
David A. Palmer, The Religious Question in Modern China (Chicago: 
University of Chicago Press, 2011), 330.
    \41\ ``Li Keqiang Signs State Council Order Issuing Revised 
`Regulations on Religious Affairs' '' [Li keqiang qianshu guowuyuan 
ling gongbu xiuding hou de ``zongjiao shiwu tiaoli''], Xinhua, 7 
September 17.
    \42\ State Council, Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, amended 14 June 17, effective 1 
February 18, arts. 36, 41.
    \43\ Ibid., art. 71.
    \44\ Brent Fulton, ``New Religion Regulations To Take Effect in 
February,'' ChinaSource Blog, 13 September 17; ``Regulation on 
Religious Affairs To Be Implemented Next Month; Religious Freedom 
Further Restricted'' [Zongjiao shiwu tiaoli xiayue shishi zongjiao 
ziyou jinyibu shou zhai], Radio Free Asia, 9 January 18; Wang Lude, 
``Some Perspectives and Analysis From Several Religious Scholars and 
House Church Pastors on the `Draft Revisions to the Regulations on 
Religious Affairs (Deliberation Draft)' '' [Guanyu ``zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)'' laizi jiwei zongjiao xuezhe yu 
jiating jiaohui muzhe de guandian yu fenxi], Christian Times, 23 
September 16.
    \45\ Wesley Rahn, ``In Xi We Trust--Is China Cracking Down on 
Christianity? '' Deutsche Welle, 19 January 18; ``As China Tightens 
Rules on Religion, Unregistered Churches Wince,'' Economist, 17 March 
18; Viola Zhou, ``China's Underground Churches Head for Cover as 
Crackdown Closes In,'' South China Morning Post, 11 September 17.
    \46\ Viola Zhou, ``China's Underground Churches Head for Cover as 
Crackdown Closes In,'' South China Morning Post, 11 September 17; 
Huoshi (Living Stone) Church Members, ``The Huoshi Church Case--The 
Typical Pattern of Government Suppression of House Churches,'' 
reprinted in ChinaAid, 13 June 17; Sarah Cook, Freedom House, ``The 
Battle for China's Spirit: Religious Revival, Repression, and 
Resistance Under Xi Jinping,'' February 2017, 53.
    \47\ Zheng Leguo, ``The New Religious Affairs Regulations and the 
New Challenges for Christianity,'' Chinese Law & Religion Monitor, Vol. 
10, No. 1 (January-June 2018), 80-81.
    \48\ ``State Administration for Religious Affairs Drafts Provisions 
on the Management of the Religious Activities of Foreigners; Ying Fuk 
Tsang: Departure From Actual Circumstances'' [Zongjiao shiwu ju niding 
waiguoren zongjiao huodong guanli banfa; xing fuzeng: yu xianshi 
qingkuang tuojie], Christian Times, 10 May 18; State Administration for 
Religious Affairs, Circular Soliciting Public Comment for ``Measures on 
the Management of the Group Religious Activities of Foreigners in the 
People's Republic of China (Draft for Solicitation of Comments)'' 
[Guojia zongjiao shiwu ju guanyu ``zhonghua renmin gongheguo jingnei 
waiguoren zongjiao huodong guanli banfa (zhengqiu yijian gao)'' gongkai 
zhengqiu yijian de tongzhi], 7 May 18.
    \49\ State Administration for Religious Affairs, Measures on the 
Management of the Group Religious Activities of Foreigners in the 
People's Republic of China (Draft for Solicitation of Comments) 
[Zhonghua renmin gongheguo jingnei waiguo ren jiti zongjiao huodong 
guanli banfa (zhengqiu yijian gao)], 7 May 18, arts. 2, 6, 16.
    \50\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 300.
    \51\ PRC National Security Law [Zhonghua renmin gonghe guo guojia 
anquan fa], passed and effective 1 July 15, art. 27.
    \52\ Ibid.
    \53\ Zhu Weiqun, ``Communist Party Members Cannot Believe in 
Religion'' [Gongchandang yuan buneng xinyang zongjiao], Seeking Truth, 
15 December 11.
    \54\ Chen Xi, ``Must Use Exceptional Political Standards To 
Cultivate Top Cadres'' [Peiyang xuanba ganbu bixu tuchu zhengzhi 
biaozhun], People's Daily, 16 November 17.
    \55\ Yu Qingchu, ``How Can One Worship Ghosts and Spirits While 
Believing in Marxism-Leninism? '' [Xin malie qi neng bai guishen], 
People's Daily, 12 October 17.
    \56\ Hengyang Municipality Commission for Discipline Inspection, 
``Notice on the Strict Prohibition of Party Members and Cadres on 
Participating in Christmas Eve or Christmas Holiday Gatherings and 
Parties'' [Guanyu yanjin dangyuan ganbu canjia ping'an ye shengdan jie 
juhui kuanghuan de tongzhi], 11 December 17, reprinted in China Digital 
Times, 20 December 17; Xiao Yu, ``No Doing as One Pleases on Christmas 
Eve; CCP Members Strictly Prohibited From Celebrating `Western 
Holidays' '' [Ping'an ye bude renxing, zhonggong dangyuan yanjin guo 
``yang jie''], Voice of America, 21 December 17.
    \57\ Xiao Yu, ``No Doing as One Pleases on Christmas Eve; CCP 
Members Strictly Prohibited From Celebrating `Western Holidays' '' 
[Ping'an ye bude renxing, zhong gong dang yuan yanjin guo ``yang 
jie''], Voice of America, 21 December 17.
    \58\ Carolyn M. Evans, ``Chinese Law and the International 
Protection of Religious Freedom,'' University of Melbourne Faculty of 
Law, Public Law and Legal Theory Research Paper No. 36 (2002), 20.
    \59\ Cyrille Pluyette, ``En Chine, le Pouvoir Renforce son Controle 
sur les Religions,'' Le Figaro, updated 12 December 17, translated in 
Marc Alves, ``In China's Crackdown on Religions, Buddhism Gets a 
Pass,'' Worldcrunch, 5 February 18; Eleanor Albert, Council on Foreign 
Relations, ``Religion in China,'' 15 March 18. See also Andre 
Laliberte, ``Buddhist Revival Under State Watch,'' Journal of Current 
Chinese Affairs, 2011, 11-12.
    \60\ Pew Research Center, ``Pew-Templeton Global Religious Futures 
Project--China,'' last visited 4 September 18. See also Zhe Ji, 
``Chinese Buddhism as a Social Force: Reality and Potential of Thirty 
Years of Revival,'' Chinese Sociological Review, Vol. 45, No. 2 
(January 2012), 10-12. Quantitative assessments for the total number of 
Buddhists are difficult because Buddhist religious identity does not 
need to be formalized within a particular institution and may overlap 
with other religious practices.
    \61\ Katharina Wenzel-Teuber, ``2015 Statistical Update on 
Religions and Churches in the People's Republic of China,'' China 
Heute, No. 1 (2016), translated in Religions & Christianity in Today's 
China, Vol. 6, No. 2 (2016), 25.
    \62\ State Administration for Religious Affairs, National Measures 
for Regulating Chinese Buddhist Temples and Monasteries [Quanguo 
hanchuan fojiao siyuan guanli banfa], 20 December 10. See also Zi Yang, 
``The Soft Power Limits of Chinese Theravada Buddhism,'' The Diplomat, 
15 August 17; Sarah Cook, Freedom House, ``The Battle for China's 
Spirit: Religious Revival, Repression, and Resistance Under Xi 
Jinping,'' February 2017, 32-33; Vincent Goossaert and David A. Palmer, 
The Religious Question in Modern China (Chicago: University of Chicago 
Press, 2011), 332-33.
    \63\ Buddhist Association of China, Measures for the Management of 
Monastic Vows in National Chinese Buddhist Monasteries [Quanguo 
hanchuan fojiao siyuan chuanshou santan dajie guanli banfa], issued 15 
September 00, amended 3 November 11, 20 September 16.
    \64\ Echo Huang, ``The Most Influential Man Taken Down by China's 
#MeToo Movement So Far Is a Monk,'' Quartz, 15 August 18; Mandy Zuo, 
``Top Chinese Buddhist Monk Xuecheng Faces Police Investigation After 
#MeToo Sexual Harassment Claims Upheld,'' South China Morning Post, 23 
August 18.
    \65\ State Administration for Religious Affairs, ``Regarding the 
Status of the Investigation Verifying Reports of Problems Concerning 
Xuecheng and Beijing Longquan Temple'' [Guanyu dui jubao xuecheng he 
beijing longquan si youguan wenti de diaocha heshi qingkuang], 23 
August 18.
    \66\ Zi Yang, ``The Soft Power Limits of Chinese Theravada 
Buddhism,'' The Diplomat, 15 August 17.
    \67\ State Administration for Religious Affairs et al., ``State 
Administration for Religious Affairs Among 12 Departments To Jointly 
Issue Document To Resolve Question of Commercialization of Buddhism and 
Taoism'' [Guojiao zongjiao shiwu ju deng 12 bumen fa wen zhili fojiao 
daojiao shangyehua wenti], 23 November 17.
    \68\ Ibid.
    \69\ Lori Qingyuan Yue et al., ``The Price of Faith: Political 
Determinants of the Commercialization of Buddhist Temples in China,'' 
Academy of Management Proceedings, 30 November 17, Vol. 2016, No. 1 (30 
November 17), 2.
    \70\ ``China's Holy Sites List on the Stockmarket,'' Economist, 26 
April 18; China Digital Times, ``Party vs Profit in Tug of War Over 
Chinese Buddhism,'' 27 April 18.
    \71\ Paul M. Taylor, Freedom of Religion: UN and European Human 
Rights Law and Practice (New York: Cambridge University Press, 2005), 
69.
    \72\ Ian Johnson, ``How the Top-Heavy Catholic Church Is Losing the 
Ground Game in China,'' America, 18 September 17; Anthony Lam Sui-ky, 
``The Decline of China's Catholic Population and Its Impact on the 
Church,'' AsiaNews, 23 August 16; Sarah Cook, Freedom House, ``The 
Battle for China's Spirit: Religious Revival, Repression, and 
Resistance Under Xi Jinping,'' February 2017, 45. Freedom House 
previously estimated there were around 12 million Catholics in China.
    \73\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 3 April 18.
    \74\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(g).
    \75\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2018 Work Objectives'' [Guojia 
zongjiao shiwu ju 2018 nian gongzuo yaodian], 14 February 18; Li Zhao, 
``China Commemorates `Self-Selection, Self-Ordination' of Bishops for 
60 Years in the `Independent' Church'' [Zhongguo jiang jinian ``duli'' 
jiaohui de ``zixuan zisheng'' zhujiao liushi zhounian], AsiaNews, 10 
February 18.
    \76\ China Catholic Patriotic Association and Bishops' Conference 
of the Catholic Church, Provisions for Selecting and Ordaining Bishops 
[Zhujiao tuan guanyu xuan sheng zhujiao de guiding], 8 April 13; Li 
Zhao, ``China Commemorates `Self-Selection, Self-Ordination' of Bishops 
for 60 Years in the `Independent' Church'' [Zhongguo jiang jinian 
``duli'' jiaohui de ``zixuan zisheng'' zhujiao liushi zhounian], 
AsiaNews, 10 February 18.
    \77\ Rachel Xiaohong Zhu, ``The Division of the Roman Catholic 
Church in Mainland China: History and Challenges,'' Religions, Vol. 8, 
No. 3 (March 2017), 1, 3, 6-7.
    \78\ Eva Dou, ``For China's Catholics, State-Controlled Church Is 
`Like a Tree With No Roots,' '' Wall Street Journal, 14 February 18; 
Rachel Xiaohong Zhu, ``The Division of the Roman Catholic Church in 
Mainland China: History and Challenges,'' Religions, Vol. 8, No. 3 
(March 2017), 7; Ilaria Maria Sala and Isabella Steger, ``Some 
Catholics Are Deeply Disturbed That the Vatican Is Cozying Up to 
China's Repressive Regime,'' Quartz, 25 August 16.
    \79\ Letter of the Holy Father Pope Benedict XVI to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China, 27 May 07; Rachel Xiaohong Zhu, ``The 
Division of the Roman Catholic Church in Mainland China: History and 
Challenges,'' Religions, Vol. 8, No. 3 (March 2017), 7-8.
    \80\ Eva Dou, ``For China's Catholics, State-Controlled Church Is 
`Like a Tree With No Roots,' '' Wall Street Journal, 14 February 18; 
``Msgr. Peter Shao Zhumin of Wenzhou Freed After 7 Months,'' AsiaNews, 
1 April 18; Karen Cheung, ``Hong Kong's Cardinal Zen Calls for Release 
of Underground Hebei Bishop Cui Tai,'' Hong Kong Free Press, 31 May 18.
    \81\ Lisa Jucca and Benjamin Kang Lim, ``Exclusive: Vatican and 
China in Final Push for Elusive Deal on Bishops,'' Reuters, 20 October 
16.
    \82\ Francis X. Rocca and Eva Dou, ``China and Vatican To Sign 
Landmark Deal Over Bishops,'' Wall Street Journal, 14 September 18.
    \83\ Ibid.
    \84\ Ibid.; Philip Pullella, ``Exclusive: China-Vatican Deal on 
Bishops Ready for Signing--Source,'' Reuters, 1 February 18.
    \85\ Ian Johnson, ``Vatican, Eager for China Ties, Asks 
`Underground' Bishops To Step Aside,'' New York Times, 29 January 18; 
John Baptist Lin, ``The Vatican Asks Legitimate Bishops To Step Aside 
in Favour of Illegitimate Ones,'' AsiaNews, 22 January 18.
    \86\ Francis X. Rocca and Eva Dou, ``China and Vatican To Sign 
Landmark Deal Over Bishops,'' Wall Street Journal, 14 September 18.
    \87\ Mimi Lau, ``Betrayed and Abandoned: Why China's Underground 
Catholics Feel Like Jesus on Good Friday,'' South China Morning Post, 
30 March 18.
    \88\ ``Authorities Seek To Disqualify Chinese Priest,'' Union of 
Catholic Asian News, 11 July 18.
    \89\ ``Government Officials Destroy Way of the Cross in China's 
Henan Province,'' Catholic News Agency, 8 June 18.
    \90\ ``Second Shandong Church Demolished `For Urban Reasons,' '' 
AsiaNews, 16 August 18.
    \91\ ``China Catholic Bishops' Association and Catholic Patriotic 
Association Issue Orders To Implement Five-Year-Plan To Sinicize 
Catholicism'' [``Yihui yituan'' xiang quanguo jiaoqu xiada luoshi 
tianzhujiao zhongguo hua wu nian gongzuo guihua], Union of Catholic 
Asian News, 17 July 18; ``Sinicization of China Church: The Plan in 
Full,'' Union of Catholic Asian News, 31 July 18. See also State 
Administration for Religious Affairs, ``Second Session of 9th China 
Catholic Bishops' Association Standing Committee Convenes in Beijing'' 
[Zhongguo tianzhujiao yihui yituan jiu jie er ci changwei hui zai jing 
zhaokai], 18 December 17.
    \92\ Viola Zhou, ``Can the Catholic Faith Serve Politics? That's 
What China Wants,'' South China Morning Post, 21 July 17.
    \93\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 9.
    \94\ ChinaAid, ``2017 Annual Report: Chinese Government Persecution 
of Churches and Christians in Mainland China,'' 1 February 18, 36-37.
    \95\ See, e.g., Verna Yu, ``Children Banned From Mass in China's 
Henan Province,'' America, 1 May 18; Kate Shellnutt, ``China Tells 
Christians To Replace Images of Jesus With Communist President,'' 
Christianity Today, 17 November 17; Eleanor Albert, Council on Foreign 
Relations, ``Christianity in China,'' 9 March 18.
    \96\ See, e.g., Qiao Nong, ChinaAid, ``Christmas Severely 
Restricted in Many Areas Across China; Surveillance Posted Outside 
Churches and Christmas Trees Toppled'' [Zhongguo duo di shengdan jie 
zao yanli xianzhi jiaotang wai tantou jianshi shengdan shu bei tuidao], 
23 December 17.
    \97\ See, e.g., ChinaAid, ``Henan Persecution Targets Both Official 
and Underground Churches,'' 3 June 18.
    \98\ See, e.g., ``Church Cross Facing Forcible Removal in Yichuan 
County, Henan; Anyang Municipality Registers All `Religious Believers' 
'' [Henan yichuan jiaotang shizi jia mianlin qiangchai anyang shi 
quanmian dengji ``xinyang renyuan''], Radio Free Asia, 6 April 18.
    \99\ Party Organization, Theory Study Center Group, State 
Administration for Religious Affairs, ``Innovations in Religious Work 
Theory and Practice Since the 18th Party Congress'' [Dang de shibada 
yilai zongjiao gongzuo lilun he shijian chuangxin], Seeking Truth, 15 
September 17.
    \100\ China Christian Council and Three-Self Patriotic Movement, 
``Outline of Five-Year Work Plan for Advancing Sinicization of 
Protestantism in China'' [Tuijin woguo jidu jiao zhongguo hua wu nian 
gongzuo guihua gangyao], 14 December 17.
    \101\ Qiao Nong, ChinaAid, ``China Issues Total Ban on Selling the 
Bible; Already Taken Offline by Online Retailers; Henan Requires 
Protestant Believers To Adhere to `Nine Prohibitions' '' [Zhongguo 
quanmian jinshou ``shengjing'' wangdian yi xiajia henan dui jidutu ti 
yaoqiu ``jiu ge buzhun''], 3 April 18.
    \102\ For more information on some of these individuals, see the 
Commission's Political Prisoner Database records 2014-0126 on Zhang 
Shaojie, 2016-00088 on Bao Guohua, and 2016-00089 on Xing Wenxiang.
    \103\ See, e.g., ``China Escalates Nationwide Crackdown on 
Protestant Churches,'' Radio Free Asia, 17 May 18; Viola Zhou, 
``China's Underground Churches Head for Cover as Crackdown Closes In,'' 
South China Morning Post, 11 September 17. See also Sarah Cook, Freedom 
House, ``The Battle for China's Spirit: Religious Revival, Repression, 
and Resistance Under Xi Jinping,'' February 2017, 42, 46-47.
    \104\ CECC, 2017 Annual Report, 5 October 17, 132-33; CECC, 2016 
Annual Report, 6 October 16, 127-28; CECC, 2015 Annual Report, 8 
October 15, 126-28; CECC, 2014 Annual Report, 9 October 14, 95-98; 
CECC, 2013 Annual Report, 10 October 13, 91-94.
    \105\ See, e.g., ChinaAid, ``Police Question 13 Christians for 
Holding Church Services,'' 17 November 17; Qiao Nong, ChinaAid, 
``Xuzhou, Jiangsu Seminary Raided by Police'' [Jiangsu xuzhou--
shenxueyuan zao jingfang chongji], 23 May 18. See also ChinaAid, ``2017 
Annual Report: Chinese Government Persecution of Churches and 
Christians in Mainland China,'' 1 February 18, 36.
    \106\ See, e.g., Qiao Nong, ChinaAid, ``Yizhuang Branch of Zion 
Church in Beijing Locked Out, Prohibited From Meeting'' [Beijing xi'an 
jiaohui yizhuang fentang bei suomen jin juhui], 9 July 18; Qiao Nong, 
ChinaAid, ``Seminary in Xuzhou, Jiangsu, Raided by Police'' [Jiangsu 
xuzhou yi shenxueyuan zao jingfang chongji], 23 May 18.
    \107\ Russell Goldman, ``Chinese Police Dynamite Christian 
Megachurch,'' New York Times, 12 January 18.
    \108\ Qiao Nong, ChinaAid, ``Ningling, Henan Forcibly Demolishes 
Cross; More Than 100 House Churches Banned From Meeting'' [Henan 
ningling qiang chai shizijia yu bai jiating jiaohui bei jin juhui], 29 
May 18.
    \109\ Qiao Nong, ChinaAid, ``Beijing Government Issues Notice To 
Deal With Protestant Churches; Guangzhou Laywer Prohibited From 
Representing Religious Cases'' [Beijing zhengfu xiawen zhuanxiang 
zhengzhi jidujiao guangzhou lushi bei jinzhi daili jiao'an], 9 July 18.
    \110\ See, e.g., ``China Escalates Nationwide Crackdown on 
Protestant Churches,'' Radio Free Asia, 17 May 18.
    \111\ See, e.g., ChinaAid, ``Police Question 13 Christians for 
Holding Church Services,'' 17 November 17; Qiao Nong, ChinaAid, 
``Seminary in Xuzhou, Jiangsu, Raided by Police'' [Jiangsu xuzhou 
yishenxueyuan zao jingfang chongji], 23 May 18. See also ChinaAid, 
``2017 Annual Report: Chinese Government Persecution of Churches and 
Christians in Mainland China,'' 1 February 18, 36-37.
    \112\ Qiao Nong, ChinaAid, ``Churches in Jiangxi [Province] Xinyu 
[Municipality] Receive Government Warnings; Cross Removals and Portrait 
Hangings of Xi Jinping Met With Resistance'' [Jiangxi xinyu duo ge 
jiaohui jie zhengfu jinggao chai shizijia gua xi jinping xiang zao 
dizhi], 16 July 18.
    \113\ Chris Buckley, ``China Blocks a Memorial Service to Sichuan 
Earthquake Victims,'' New York Times, 12 May 18.
    \114\ ChinaAid, ``Nine Unlawfully Detained Christians Released,'' 6 
February 17; ``Protestant Church Member Prosecuted for Involvement in 
`Evil Cult,' '' Radio Free Asia, 9 February 17; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 300. For more 
information, see the Commission's Political Prisoner Database records 
2017-00144 on Tu Yan and 2017-00145 on Su Min.
    \115\ ``China Jails Six Protestants in Yunnan Amid Massive 
Crackdown on `Evil Cult,' '' Radio Free Asia, 18 January 18; ChinaAid, 
``Yunnan Christians Receive Lengthy Sentences for Falsified Cult 
Involvement Charge,'' 16 January 18. For more information, see the 
Commission's Political Prisoner Database records 2018-00134 on Ju 
Dianhong, 2018-00189 on Liang Qin, 2018-00190 on Zhang Hongyan, 2018-
00191 on Yang Shunxiang, 2018-00192 on Zi Huimei, and 2018-00193 on 
Zhang Shaocai.
    \116\ Shizong County Communist Party Committee, ``Report on Status 
of Rectifications Pertaining to Inspection'' [Shizong xianwei guanyu 
xunshi zhengai qingkuang de tongbao], reprinted in Qujing Municipal 
Discipline Inspection Commission, 12 March 18, item 1(5). For an 
English translation of the county report, see ``County in Yunnan 
`Cleans Up' Foreign NGOs and Foundations,'' Asia Society, ChinaFile, 
China NGO Project, 20 March 18.
    \117\ Shizong County Communist Party Committee, ``Report on Status 
of Rectifications Pertaining to Inspection'' [Shizong xianwei guanyu 
xunshi zhengai qingkuang de tongbao], reprinted in Qujing Municipal 
Discipline Inspection Commission, 12 March 18, item 1(5).
    \118\ ``China's Policy Tightened Again; Another Church in Zhejiang 
Is Banned'' [Zhongguo zongjiao zhengce zai shoujing zhejiang you yi 
jiaohui bei jin], Radio Free Asia, 22 May 18.
    \119\ For information on suppression of Falun Gong practitioners 
from previous years, see, e.g., CECC, 2017 Annual Report, 5 October 17, 
134; CECC, 2016 Annual Report, 6 October 16, 125-27; CECC, 2015 Annual 
Report, 8 October 15, 123-25. See also ``Communist Party Calls for 
Increased Efforts To `Transform' Falun Gong Practitioners as Part of 
Three-Year Campaign,'' Congressional-Executive Commission on China, 22 
March 11.
    \120\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 113.
    \121\ Dui Hua Foundation, ``NGO Submission for the Universal 
Periodic Review of the People's Republic of China,'' March 2018, para. 
14; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 
79, amended 14 March 97, effective 1 October 97, amended 25 December 
99, 31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 
June 06, 28 February 09, 25 February 11, 29 August 15, 4 November 17.
    \122\ See, e.g., Human Rights Watch, ``World Report 2018,'' 2018, 
146; Amnesty International, ``Amnesty International Report 2017/18: The 
State of the World's Human Rights,'' 2018, 128; Christian Solidarity 
Worldwide, ``People's Republic of China: Stakeholder Submission to the 
Universal Periodic Review, 31st Session,'' 6 April 18, para. 39.
    \123\ See, e.g., ``Beaten and Drugged, Woman Recounts Torture in 
Chinese Prison,'' Clear Wisdom, 8 April 18; ``Former Chief Urologist 
Tortured and Almost Killed After Mass Arrest,'' Clear Wisdom, 8 April 
18.
    \124\ See, e.g., ``Beaten and Drugged, Woman Recounts Torture in 
Chinese Prison,'' Clear Wisdom, 8 April 18.
    \125\ Ibid.; ``Former Chief Urologist Tortured and Almost Killed 
After Mass Arrest,'' Clear Wisdom, 8 April 18.
    \126\ See, e.g., ``Beaten and Drugged, Woman Recounts Torture in 
Chinese Prison,'' Clear Wisdom, 8 April 18; ``Former Chief Urologist 
Tortured and Almost Killed After Mass Arrest,'' Clear Wisdom, 8 April 
18; ``Doctor Warns That Man Shackled to Hospital Bed May Go Into Shock 
at Any Time,'' Clear Wisdom, 14 April 18.
    \127\ Frank Fang, ``At Least 29 Falun Gong Practitioners Have Died 
in 2017 Under the Chinese Regime's Ongoing Persecution,'' Epoch Times, 
21 December 17.
    \128\ Uyghur Human Rights Project, ``Public Statement by the Uyghur 
Human Rights Project (UHRP) on Forced Organ Harvesting in China,'' 
reprinted in International Coalition to End Transplant Abuse in China, 
22 April 18; Human Rights Law Foundation, ``Public Statement by the 
Human Rights Law Foundation on Abusive Organ Transplantation Practices 
in the PRC,'' reprinted in International Coalition to End Transplant 
Abuse in China, February 2018; Raoul Wallenberg Centre for Human 
Rights, ``Public Statement on Forced Organ Harvesting in China,'' 
reprinted in International Coalition to End Transplant Abuse in China, 
January 2018; Letter from International Coalition to End Transplant 
Abuse in China et al. to Bishop Marcelo Sanchez Sorondo, Chancellor, 
Pontifical Academy of Sciences, reprinted in International Coalition to 
End Transplant Abuse in China, 18 March 18. See also Benedict Rogers, 
``Organ Harvesting in China: `A Crime Against Humanity,' '' La Croix, 
26 December 17; Matthew Robertson, ``Investigative Report: A Hospital 
Built for Murder,'' Epoch Times, 4 February 16; Matthew Robertson, ``At 
Congressional Hearing, China's Organ Harvesting Seen Through Rose-
Colored Glasses,'' Epoch Times, 29 June 16.
    \129\ Letter from Doctors Against Forced Organ Harvesting to the 
California State Senate, reprinted in Doctors Against Forced Organ 
Harvesting, 5 September 17; Doctors Against Forced Organ Harvesting, 
``International Transplant Community Continues To Be Misled by Chinese 
Officials,'' 21 January 18; Letter from International Coalition to End 
Transplant Abuse in China et al. to Bishop Marcelo Sanchez Sorondo, 
Chancellor, Pontifical Academy of Sciences, reprinted in International 
Coalition to End Transplant Abuse in China, 18 March 18; Christian 
Solidarity Worldwide, ``People's Republic of China: Stakeholder 
Submission to the Universal Periodic Review, 31st Session,'' 6 April 
18, para. 40.
    \130\ Alice Y. Su, ``The Separation Between Mosque and State,'' 
Asia Society, ChinaFile, 21 October 16; Sarah Cook, Freedom House, 
``The Battle for China's Spirit: Religious Revival, Repression, and 
Resistance Under Xi Jinping,'' February 2017, 68-69. See also Ian 
Johnson, ``Shariah With Chinese Characteristics: A Scholar Looks at the 
Muslim Hui,'' New York Times, 6 September 16. Experts on Chinese 
religion have noted that most statistics on Muslim believers in China 
make broad assumptions about religious identity based on ethnicity--for 
example, presuming that all people of Hui ethnicity are Muslim 
believers, and that no people of Han, Tibetan, or other ethnicities are 
Muslim.
    \131\ Michael Martina, ``China's Hui Muslims Fearful Chinese New 
Year Education Ban a Sign of Curbs To Come,'' Reuters, 17 February 18.
    \132\ ``Yang Faming: Rooted in the Fertile Soil of Chinese 
Civilization: Uphold the Sinicization of Our Country's Islam'' [Yang 
faming: zhagen zhonghua wenhua wotu jianchi woguo yisilan jiao zhongguo 
hua fangxiang], Xinhua, 10 March 18.
    \133\ China Islamic Association, ``China Islamic Association,'' 
last visited 18 July 18.
    \134\ Yu Xiaojie and Shi Jingnan, ``CPPCC Member Yang Faming: 
Uphold the Sinicization of Islam in China'' [Yang faming weiyuan: 
jianchi woguo yisilan jiao zhongguo hua fangxiang], Xinhua, 10 March 
18.
    \135\ Nectar Gan, ``How China Is Trying To Impose Islam With 
Chinese Characteristics in the Hui Muslim Heartland,'' South China 
Morning Post, 14 May 18.
    \136\ Becky Davis, `` `We're Scared, Very Scared'--Muslims in 
China's `Little Mecca' Fear Eradication of Islam,'' Agence France-
Presse, reprinted in Hong Kong Free Press, 16 July 18.
    \137\ Christian Shepherd, ``Muslim County in China Bans Children 
From Religious Events Over Break,'' Reuters, 17 January 18.
    \138\ Dui Hua Foundation, ``NGO Submission for the Universal 
Periodic Review of the People's Republic of China,'' March 2018.
    \139\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 4 April 18.
    \140\ China Islamic Association, Measures for Confirming the 
Credentials of Islamic Professional Religious Personnel [Yisilan jiao 
jiaozhi renyuan zige rending banfa], issued and effective 7 August 06, 
art. 3; Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 76.
    \141\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 76.
    \142\ Li Ruohan, ``Chinese Muslims Say They Feel a Stronger Sense 
of National Identity During Pilgrimage to Mecca,'' Global Times, 2 
August 18.
    \143\ Li Ruohan, ``GPS Cards Aid Chinese Muslims on Hajj 
Pilgrimage,'' Global Times, 31 July 18.
    \144\ Eva Dou, ``Chinese Surveillance Expands to Muslims Making 
Mecca Pilgrimage,'' Wall Street Journal, 31 July 18.
    \145\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 4 April 18. The 
central government has referred to the five religions as China's 
``major religions,'' stating that the religions citizens ``mainly'' 
follow are Buddhism, Taoism, Islam, Catholicism, and Protestantism. 
See, e.g., Henan Province People's Congress Standing Committee, Henan 
Province Regulations on Religious Affairs [Henan sheng zongjiao shiwu 
tiaoli], issued 30 July 05, effective 1 January 06, art. 2; Shaanxi 
Province People's Congress Standing Committee, Shaanxi Province 
Regulations on Religious Affairs [Shaanxi sheng zongjiao shiwu tiaoli], 
issued 23 September 00, amended 30 July 08, effective 1 October 08, 
art. 2. Some local regulations on religious affairs define ``religion'' 
to mean only these five religions.
    \146\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' 4 April 18.
    \147\ Ibid. See, e.g., Zhejiang Province Ethnic and Religious 
Affairs Committee, Zhejiang Province Measures for the Management of 
Registration of Venues for Folk Belief Activity [Zhejiang sheng minjian 
xinyang huodong changsuo dengji bianhao guanli banfa], issued 19 
October 14, effective 1 January 15; Taizhou Municipal Ethnic and 
Religious Affairs Bureau, Circular Concerning the 2016 Launch of 
Registration Work for Venues for Folk Belief Activity [Guanyu kaizhan 
2016 minjian xinyang huodong changsuo dengji bianhao gongzuo de 
tongzhi], issued 13 April 16; Hunan Province People's Government, Hunan 
Province Measures for the Management of Registration of Venues for Folk 
Belief Activity [Hunan sheng minjian xinyang huodong changsuo dengji 
guanli banfa], issued and effective 24 August 09; Shaoxing Municipal 
Ethnic and Religious Affairs Bureau, Shaoxing Municipal Implementing 
Plan for Registration of Venues for Folk Belief Activity [Shaoxing shi 
minjian xinyang huodong changsuo dengji bianhao gongzuo shishi 
fang'an], issued 14 May 15.
    \148\ See, e.g., Harbin Municipal Measures for the Management of 
Venues for Religious Activity [Ha'erbin shi zongjiao huodong changsuo 
guanli banfa], issued 30 July 09, effective 10 September 09, reprinted 
in State Administration for Religious Affairs, 5 April 17, art. 2; 
State Council Information Office, ``The Situation of Religious Freedom 
in Xinjiang'' [Xinjiang de zongjiao xinyang ziyou zhuangkuang], 
reprinted in Xinhua, 2 June 16, secs. 1, 3.
    \149\ ``Harmful Religious Doctrines Poison, Harm Society--Exposing 
the Truth Behind the `Church of the Almighty God' '' [Xieshuo guhuo 
qianghai shehui--jiekai ``quanneng shen'' xiejiao zhen mianmu], Xinhua, 
12 August 18.


                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights

                         Ethnic Minority Rights


                              Introduction

    During the Commission's 2018 reporting year, Chinese 
Communist Party and government authorities promoted policies 
and regulations restricting rights guaranteed to ethnic 
minority groups under Chinese and international law.\1\ The UN 
Special Rapporteur on Minority Issues requested to visit China 
multiple times beginning in 2009, but as of August 20, 2018, 
the Chinese government had not allowed the visit.\2\ The 
Chinese government has acceded to the International Convention 
on the Elimination of All Forms of Racial Discrimination 
(ICERD), which prohibits racial discrimination and guarantees 
the right of everyone to equal treatment before the law, 
including ``freedom of thought, conscience and religion.'' \3\ 
International human rights organizations submitted statements 
\4\ for consideration at an August 2018 review of China's 
compliance with ICERD by the UN Committee on the Elimination of 
Racial Discrimination that raised concerns over issues such as 
arbitrary detentions in the Xinjiang Uyghur Autonomous Region 
(XUAR); \5\ religious repression in the Tibet Autonomous 
Region; \6\ and the resettlement of Mongol nomads in the Inner 
Mongolia Autonomous Region (IMAR).\7\

                         State Minority Policy

    At the March 2018 meetings of the National People's 
Congress and the Chinese People's Political Consultative 
Conference in Beijing (Two Sessions), Party and government 
authorities changed the mechanisms they use to implement 
policies toward ethnic minorities, as the Party's United Front 
Work Department (UFWD) assumed control of the work of the 
government departments overseeing ethnic affairs (the State 
Ethnic Affairs Commission) and religion (the State 
Administration for Religious Affairs).\8\ A number of observers 
expressed the view that the UFWD's newly expanded powers 
represented an official move toward tighter Party control over 
ethnic affairs and policies promoting ethnic assimilation over 
ethnic pluralism.\9\ In line with such policies, the government 
and Party under President and Party General Secretary Xi 
Jinping continued to emphasize the importance of ``sinicizing'' 
ethnic and religious minorities.\10\ [See Section II--Freedom 
of Religion for additional information on the ``sinicization'' 
of religious minorities.]

               Policies Affecting Hui Islamic Communities

    Policies and restrictions that targeted Hui communities and 
restricted Hui Muslims' religious practices this past year 
illustrate ways in which authorities have promoted the 
``sinicization'' of ethnic and religious minorities. Chinese 
officials have historically allowed Hui Muslims more freedom to 
engage in religious practices than Uyghur Muslims, but in 
recent years authorities have reportedly increased religious 
controls among Hui communities.\11\ During the Two Sessions in 
2018, Yang Faming, Chairman of the China Islamic Association, 
stressed that Muslims in China should incorporate Chinese 
characteristics into Islamic religious rituals, culture, and 
architecture, avoid the expansion of the concept of ``halal'' 
into secular life, and adhere to ``socialist core values.'' 
\12\ According to an American historian, Yang's speech 
reflected a formal declaration of a policy trend that officials 
had begun implementing in regions with significant Hui 
populations beginning in fall 2016, and it gave ``a 
justification for what, until March [2018], had been informal 
and patchwork implementation of restrictions on mosque 
construction, mosque design, private or semi-official Islamic 
schooling, and `Islamic' customs among the Hui.'' \13\ In an 
interview with the Party-run media outlet Global Times that was 
conducted during the Two Sessions, Yang Yuanzhong, the Party 
Secretary of Linxia Hui Autonomous Prefecture (HAP), Gansu 
province, also warned against the expansion of the concept of 
``halal,'' linking this effort to the promotion of ethnic unity 
and social stability.\14\ In January, education officials in 
Guanghe county, Linxia city, and Linxia county, all located 
within Linxia HAP, issued notices restricting local school-age 
children from entering religious buildings during their winter 
break and other similar measures.\15\ Hui residents of Linxia 
city and Guanghe county reportedly expressed apprehension over 
the impact tightened government restrictions could have on 
their lives.\16\ [For more information on freedom of religion 
for Muslims in China, see Section II--Freedom of Religion.]

                            Language Policy

    During this reporting year, government and Party officials 
implemented policies limiting ethnic minorities' freedom to 
engage in cultural practices and speak or learn their 
languages.\17\ In a report published in January 2018, the Dui 
Hua Foundation documented how authorities in some prisons 
located in provinces with large ethnic minority populations 
restricted the use of ethnic minority languages, including 
during family visits.\18\ In December 2017, international media 
and rights advocates reported that under a policy implemented 
in September, XUAR education authorities had ended the use of 
Mongolian as a language of instruction in elementary and lower 
middle schools in Bayangol (Bayinguoleng) Mongol Autonomous 
Prefecture, XUAR.\19\ Local Mongol parents reportedly protested 
the change on social media, in connection with the 
corresponding end of the use of a Mongolian-centered curriculum 
at the last secondary school in the prefecture to offer such a 
course of study.\20\ Authorities and educators in the XUAR and 
Tibetan autonomous areas continued to promote a Mandarin-
centered curriculum at the expense of Uyghur, Tibetan, and 
other languages spoken by ethnic minority groups, as part of 
what is officially referred to as ``bilingual education.'' \21\ 
[For additional information on language policy and education in 
these areas, see Section IV--Xinjiang and Section V--Tibet.]

                  Grassland Protests in Inner Mongolia

    During this reporting year, Mongol herders in the IMAR 
demonstrated and petitioned authorities over the government's 
role in the loss of their traditional grazing lands, the 
harmful ecological effect of state development on grassland and 
livestock,\22\ and the government's failure to provide herders 
with adequate compensation for their land.\23\ As in past 
reporting years,\24\ authorities detained some of the Mongol 
herders who peacefully protested.\25\
    Representative examples of protests by Mongol herders 
included the following:

        <bullet> Beginning on December 24, 2017, in Ongniud 
        (Wengniute) Banner, Chifeng municipality, IMAR, around 
        200 herders protested against Ongniud Banner 
        authorities over the state-owned COFCO pig farm's 
        pollution of their grazing lands and the continued 
        detention of two fellow herders beginning seven months 
        earlier.\26\ Security personnel reportedly beat some of 
        the herders and detained eight of the herders 
        overnight.\27\ On December 25, more than 200 herders in 
        Damao Banner, Baotou municipality, IMAR, also protested 
        against COFCO's pollution of their grazing lands, and 
        asked for compensation from officials for the loss of 
        grazing lands and the demolition of their homes.\28\
        <bullet> In February 2018, before and after the lunar 
        New Year holiday, Bao Yu, a herder from Urad (Wulate) 
        Middle Banner, Bayannur (Bayannao'er) municipality, 
        IMAR, traveled to Hohhot municipality, IMAR, the 
        regional capital, to protest against the air and water 
        pollution in her village caused by a gold mining 
        company.\29\ Bao said local residents had repeatedly 
        called upon government officials to take action over 
        the pollution, but officials had not acted.\30\

              THIRTY-FIVE HERDERS SENTENCED AT JOINT TRIAL

    On December 27, 2017, the Zaruud (Zalute) Banner People's 
Court in Zaruud Banner, Tongliao municipality, IMAR, reportedly 
sentenced 35 Mongol herders to prison terms on charges of 
``picking quarrels and provoking trouble'' and ``assembling 
crowds to attack state agencies,'' in what local herders 
described as an unjust trial.\31\ Nine of the herders received 
sentences of between one and five years in prison.\32\ The 
court sentenced the other 26 to six months in prison, releasing 
them for time served while in detention.\33\ Authorities 
alleged that the defendants took part in events in May 2017, 
including blocking traffic during a protest and staging an 
illegal demonstration in front of a police dispatch 
station.\34\ In a written statement they sent to a U.S.-based 
rights organization, local herders reportedly said they had 
protested against a construction company belonging to a Han 
Chinese family that had ``illegally occupied'' their grazing 
lands.\35\ Relatives of the nine imprisoned herders reportedly 
said authorities had not permitted them to visit the herders, 
whose whereabouts were unknown.\36\


                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights
    Notes to Section II--Ethnic Minority Rights

    \1\ PRC Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo 
minzu quyu zizhi fa], passed 31 May 84, effective 1 October 84, amended 
28 February 01. For protections related to languages, religious 
beliefs, and customs, see Articles 10, 11, 21, 36, 37, 47, 49, and 53. 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 27. The PRC Regional Ethnic Autonomy Law 
contains protections for the languages, religious beliefs, and customs 
of these ``nationalities,'' in addition to a system of regional 
autonomy in designated areas. Article 27 of the International Covenant 
on Civil and Political Rights, which China has signed and declared an 
intention to ratify, contains safeguards for the rights of ``ethnic, 
religious or linguistic minorities'' within a state.
    \2\ UN Office of the High Commissioner for Human Rights, ``Country 
Visits,'' last visited 20 August 18; Human Rights in China, ``Country 
Visits by Special Procedures,'' last visited 20 August 18; Human Rights 
Watch, ``The Costs of International Advocacy: China's Interference in 
United Nations Human Rights Mechanisms,'' September 2017.
    \3\ International Convention on the Elimination of All Forms of 
Racial Discrimination, adopted and opened for signature and 
ratification by General Assembly resolution 2106 (XX) of 21 December 
65, entry into force 4 January 69, in accordance with Article 19, art. 
5(a), (d)(vii); United Nations Treaty Collection, Chapter IV, Human 
Rights International Convention on the Elimination of All Forms of 
Racial Discrimination, last visited 19 July 18. The Chinese government 
acceded to the Convention on December 29, 1981.
    \4\ UN Office of the High Commissioner for Human Rights, 
``Committee on the Elimination of Racial Discrimination Discusses 
Situation in Latvia and China With Civil Society,'' 7 August 18.
    \5\ See, e.g., Human Rights Watch, ``Submission to the CERD Review 
of China,'' 21 June 18.
    \6\ See, e.g., International Campaign for Tibet, ``Convention on 
the Elimination of Racial Discrimination (CERD) Consideration of the 
State Report by the People's Republic of China,'' August 2018, 4, 6, 
11-13.
    \7\ Southern Mongolian Human Rights Information Center, 
``Submission to the Committee on the Elimination of Racial 
Discrimination (CERD) for the Consideration of the Review of the 
People's Republic of China During the 96th Session,'' 4 July 18, 6-8, 
14.
    \8\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department Under Xi,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 7, 24 April 18; ``Chinese Communist Party Central Committee 
Issues `Plan for Deepening Reform of Party and Government Agencies' '' 
[Zhonggong zhongyang yinfa ``shenhua dang he guojia jigou gaige 
fang'an''], Xinhua, 21 March 18.
    \9\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department Under Xi,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 7, 24 April 18; Teddy Ng and Mimi Lau, ``Fears About Chinese 
Influence Grow as More Powers Given to Shadowy Agency,'' South China 
Morning Post, 22 March 18; ``CCP's United Front Work Department Expands 
Its Powers, Overseas Infiltration Leads to Concerns of Outside World,'' 
Voice of America, 22 March 18.
    \10\ Cristina Maza, ``Communist China President Xi Jinping Now 
Wants To Control Religion Too,'' Newsweek, 24 October 17; ``Xi Jinping: 
Secure a Decisive Victory in Building a Moderately Prosperous Society 
in All Respects and Strive for the Great Success of Socialism With 
Chinese Characteristics for a New Era'' [Xi jinping: juesheng quanmian 
jiancheng xiaokang shehui duoqu xin shidai zhongguo tese shehui zhuyi 
weida shengli], 18 October 17, Xinhua, 27 October 17; Gerry Groot, 
``The Rise and Rise of the United Front Work Department Under Xi,'' 
Jamestown Foundation, China Brief, Vol. 18, Issue 7, 24 April 18; 
Olivia Enos, ``Growing Religious Persecution in China a Symptom of Xi's 
Consolidation of Power,'' Forbes, 28 March 18; Sandra Jolley and Tenzin 
Dorjee, ``President Trump: Support Religious Freedom in China,'' The 
Diplomat, 1 November 17; ``Xi Jinping: Comprehensively Improve 
Religious Work Standards Under the New Situation'' [Xi jinping: 
quanmian tigao xin xingshi xia zongjiao gongzuo shuiping], Xinhua, 23 
April 16; CECC, 2017 Annual Report, 5 October 17, 129.
    \11\ See, e.g., Michael Martina, ``China's Hui Muslims Fearful 
Chinese New Year Education Ban a Sign of Curbs To Come,'' Reuters, 16 
February 18; Viola Zhou, ``Why China's Hui Muslims Fear They're Next To 
Face Crackdown on Religion,'' South China Morning Post, 11 March 17; 
Kiyo Dorrer, ``The Hui--China's Preferred Muslims?'' Deutsche Welle, 9 
December 16.
    \12\ ``Yang Faming: Rooted in the Fertile Soil of Chinese 
Civilization: Uphold the Sinicization of Our Country's Islam'' [Yang 
faming: zhagen zhonghua wenhua wotu jianchi woguo yisilan jiao 
zhongguohua fangxiang], Xinhua, 10 March 18. See also the following 
unofficial translation: Yang Faming, ``Rooted in the Fertile Soil of 
Chinese Civilization: Uphold the Chinafication of Our Country's 
Islam,'' 10 March 18, translated in Academia.edu, last visited 27 July 
18, 2-3; Liu Caiyu, ``Muslims Must Practice Islam With Chinese 
Characteristics To Avoid Societal Division,'' Global Times, 11 March 
18; ``Chinese Official Warns Against Creeping Islamisation,'' Reuters, 
10 March 18; Yu Xiaojie and Shi Jingnan, ``Committee Member Yang 
Faming: Uphold the Sinicization of Islam in China'' [Yang faming 
weiyuan: jianchi woguo yisilan jiao zhongguohua fangxiang], Xinhua, 10 
March 18. See also Nectar Gan, ``How China Is Trying To Impose Islam 
With Chinese Characteristics in the Hui Muslim Heartland,'' South China 
Morning Post, 14 May 18.
    \13\ ``Yang Faming: Rooted in the Fertile Soil of Chinese 
Civilization: Uphold the Sinicization of Our Country's Islam'' [Yang 
faming: zhagen zhonghua wenhua wotu jianchi woguo yisilan jiao 
zhongguohua fangxiang], Xinhua, 10 March 18. See also the following 
unofficial translation: Yang Faming, ``Rooted in the Fertile Soil of 
Chinese Civilization: Uphold the Chinafication of Our Country's 
Islam,'' 10 March 18, translated in Academia.edu, last visited 27 July 
18, 1.
    \14\ Li Ruohan, ``Linxia Vows To Fight Against Pan-Halal Tendency 
To Safeguard Ethnic Unity,'' Global Times, 7 March 18.
    \15\ Michael Martina, ``China's Hui Muslims Fearful Chinese New 
Year Education Ban a Sign of Curbs To Come,'' Reuters, 16 February 18; 
Christian Shepherd, ``Muslim County in China Bans Children From 
Religious Events Over Break,'' Reuters, 17 January 18; ``Guanghe, 
Gansu, Issues Prohibition on Students Entering Religious Venues During 
Winter Break'' [Gansu guanghe fawen yaoqiu jinzhi xuesheng hanjia jinru 
zongjiao changsuo], Radio Free Asia, 19 January 18. The majority of the 
residents in Linxia HAP are ethnic Hui. Li Ruohan, ``Linxia Vows To 
Fight Against Pan-Halal Tendency To Safeguard Ethnic Unity,'' Global 
Times, 7 March 18.
    \16\ Michael Martina, ``China's Hui Muslims Fearful Chinese New 
Year Education Ban a Sign of Curbs To Come,'' Reuters, 16 February 18.
    \17\ See, e.g., Unrepresented Nations and Peoples Organization and 
Southern Mongolian Human Rights Information Center, ``Submission to the 
UN Office of the High Commissioner for Human Rights for the 
Consideration of the 3rd Universal Periodic Review of the People's 
Republic of China During the 31st Session,'' 29 March 18; UN Office of 
the High Commissioner for Human Rights, ``China: UN Experts Denounce 
the Criminalization of Linguistic and Cultural Rights Advocacy,'' 21 
February 18; ChinaAid, ``[Authorities in] Ili, Hotan, and Other 
Locations in Xinjiang Seize Ethnic Minority-Language Textbooks'' 
[Xinjiang yili, hetian deng di shoujiao minzu yuyan jiaoke shu], 2 
April 18.
    \18\ Dui Hua Foundation, `` `Mandarin Only' Visitation Rules,'' Dui 
Hua Human Rights Journal,10 January 18.
    \19\ Southern Mongolian Human Rights Information Center, 
``Mongolian Language Banned in Schools, Internet Posts Removed,'' 22 
December 17; ``China Ends Mongolian-Medium Teaching in Xinjiang High 
School,'' Radio Free Asia, 22 December 17; ``Xinjiang Bayinguoleng 
Mongol Autonomous Prefecture Mongol School's Name Revoked, Eliciting 
Protest From Mongolians at Home and Abroad'' [Xinjiang bazhou menggu zu 
xuexiao bei zhaipai yinfa hai nei wai menggu ren kangyi], Radio Free 
Asia, 16 January 18.
    \20\ ``China Ends Mongolian-Medium Teaching in Xinjiang High 
School,'' Radio Free Asia, 22 December 17; Southern Mongolian Human 
Rights Information Center, ``Mongolian Language Banned in Schools, 
Internet Posts Removed,'' 22 December 17; ``Xinjiang Bayinguoleng 
Mongol Autonomous Prefecture Mongol School's Name Revoked, Eliciting 
Protest From Mongolians at Home and Abroad'' [Xinjiang bazhou menggu zu 
xuexiao bei zhaipai yinfa hai nei wai menggu ren kangyi], Radio Free 
Asia, 16 January 18.
    \21\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department Under Xi,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 7, 24 April 18; Nikhil Sonnad, ``Taiwan's Laws on Language Are 
Showing China What It Means To Be a Modern, Inclusive Country,'' 
Quartz, 9 May 18; Cao Siqi, ``Xinjiang University Calls for Promoting 
Putonghua,'' Global Times, 9 October 17; Jiang Fu'er, ``Xinjiang: 
Expanding Inclusive Kindergarten Coverage This Year'' [Xinjiang: 
jinnian jiang kuoda puhui xing you'eryuan fugaimian], China Education 
Daily, 2 April 18.
    \22\ Southern Mongolian Human Rights Information Center, 
``Mongolian Herders' Land Grabbed, Livestock Robbed,'' 4 December 17; 
``Inner Mongolian Herders Petition for Grasslands Compensation, New 
Overseas Book Reveals Genocide of Inner Mongolians'' [Neimeng mumin 
qingyuan taoyao caochang butie haiwai xinshu jie neimeng zhongzu 
miejue], Radio Free Asia, 11 December 17; ``Ethnic Mongolian Herder 
Protests Mining Pollution of Grasslands,'' Radio Free Asia, 23 February 
18.
    \23\ ``Inner Mongolian Herders Petition for Grasslands 
Compensation, New Overseas Book Reveals Genocide of Inner Mongolians'' 
[Neimeng mumin qingyuan taoyao caochang butie haiwai xinshu jie neimeng 
zhongzu miejue], Radio Free Asia, 11 December 17; Southern Mongolian 
Human Rights Information Center, ``Testimonies of Mongolian Victims of 
Chinese Land Grab (1): Cases of Four Jailed Herders,'' 9 March 18; 
``China Detains Ethnic Mongolian Herders Who Petitioned in Beijing,'' 
Radio Free Asia, 29 March 18; Unrepresented Nations and Peoples 
Organization and Southern Mongolian Human Rights Information Center, 
Submission to the UN Office of the High Commissioner for Human Rights 
for the Consideration of the 3rd Universal Periodic Review of the 
People's Republic of China During the 31st Session,'' 29 March 18.
    \24\ See, e.g., CECC, 2017 Annual Report, 5 October 17, 148-49; 
CECC, 2016 Annual Report, 6 October 16, 143-44.
    \25\ See, e.g., ``Two Mongol Female Herders in Inner Mongolia 
Detained for Petitioning'' [Nei menggu liang menggu zu nu mumin 
qingyuan bei ju], Radio Free Asia, 8 December 17; ``Hundreds of Herders 
Petition in Ongniud and Damao Banners in Inner Mongolia, Many Are 
Detained'' [Nei menggu wengniute ji damaoqi shu bai mumin qingyuan 
duoren bei zhua], Radio Free Asia, 26 December 17.
    \26\ ``Hundreds of Herders Petition in Ongniud and Damao Banners in 
Inner Mongolia, Many Are Detained'' [Nei menggu wengniute ji damaoqi 
shu bai mumin qingyuan duoren bei zhua], Radio Free Asia, 26 December 
17.
    \27\ Ibid. COFCO is the acronym for China National Cereals, Oils 
and Foodstuffs Corporation.
    \28\ Ibid.
    \29\ ``Ethnic Mongolian Herder Protests Mining Pollution of 
Grasslands,'' Radio Free Asia, 23 February 18; ``Herders From Urad 
Middle Banner Petition in Hohhot After Lunar New Year,'' [Nei menggu 
wulate zhongqi mumin nongli nian hou hu shi shangfang], Radio Free 
Asia, 22 February 18.
    \30\ ``Ethnic Mongolian Herder Protests Mining Pollution of 
Grasslands,'' Radio Free Asia, 23 February 18; ``Herders From Urad 
Middle Banner Petition in Hohhot After Lunar New Year,'' [Nei menggu 
wulate zhongqi mumin nongli nian hou hu shi shangfang], Radio Free 
Asia, 22 February 18.
    \31\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.
    \32\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.
    \33\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.
    \34\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.
    \35\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.
    \36\ Southern Mongolian Human Rights Information Center, ``35 
Mongolian Herders Tried, Long Sentences Handed Down,'' 24 January 18; 
``35 Ethnic Mongol Herders Who Protested Han People's Occupation of 
Their Grassland Sentenced'' [35 ming kangyi caochang bei hanren qinzhan 
de menggu zu mumin bei panxing], Radio Free Asia, 24 January 18.


                                                    Population 
                                                        Control
                                                Population 
                                                Control

                           Population Control


    International Standards and China's Coercive Population Policies

    During the Commission's 2018 reporting year, Chinese 
authorities continued to implement coercive population control 
policies that violate international standards. The Chinese 
Communist Party and government authorities implemented for the 
third year in 2018 the ``universal two-child policy'' that 
allows all married couples to have two children.\1\ The amended 
PRC Population and Family Planning Law and provincial-level 
regulations continued to limit couples' freedom to build their 
families as they see fit, and include provisions that require 
couples to be married to have children and limit them to 
bearing two children.\2\ Exceptions allowing for additional 
children exist for couples who meet certain criteria, which 
vary by province, including some exceptions for ethnic 
minorities,\3\ remarried couples, and couples who have children 
with disabilities.\4\ Officials reportedly continued to enforce 
compliance with family planning policies using methods 
including heavy fines,\5\ job termination,\6\ detention,\7\ and 
abortion.\8\
    Coercive controls imposed on Chinese women and their 
families, and additional abuses engendered by China's 
population and family planning system, violate standards set 
forth in the 1995 Beijing Declaration and Platform for Action 
and the 1994 Programme of Action of the Cairo International 
Conference on Population and Development.\9\ China was a state 
participant in the negotiation and adoption of both.\10\ Acts 
of official coercion committed in the implementation of 
population control policies contravene provisions of the 
Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment,\11\ which China has 
ratified.\12\

  Implementation of the Universal Two-Child Policy and Institutional 
                              Developments

    The Chinese Communist Party and government implemented the 
``universal two-child policy'' for a third consecutive year in 
2018,\13\ and government statistics showed that the policy was 
not effective in spurring population growth. In 2016, the 
National Health and Family Planning Commission (NHFPC) 
predicted that the universal two-child policy would result in 
population growth,\14\ with an additional 3 million children 
born per year \15\ and an estimated total of 17.5 to 21 million 
children born per year during the 13th Five-Year Plan period 
(2016-2020).\16\ According to data released by the National 
Bureau of Statistics of China (NBS) in January 2018, the number 
of total births in 2017 was 17.23 million, showing a decline of 
630,000 births in comparison to the 2016 figure of 17.86 
million.\17\
    Population experts warned that the decline in births would 
continue and expected a 300,000 to 800,000 annual drop in the 
newborn population over the next 10 years,\18\ a trend that 
could pose a long-term threat to China's development and may 
generate a heavier burden on social services due to an aging 
population and shrinking workforce.\19\ Some experts attributed 
the decline in births to the shrinking number of women of 
childbearing age and the reluctance on the part of many married 
couples to have children.\20\ Concerns that discouraged couples 
from having children reportedly included the high cost of 
rearing a child,\21\ lack of adequate child care and education 
options,\22\ lack of time and energy to look after 
children,\23\ and disruption to career development.\24\ 
Population experts and National People's Congress delegates 
urged the Chinese government to further relax the existing 
policy by adopting a three-child policy or ending all birth 
restrictions, abolish ``social compensation fees,'' and offer 
incentives or supporting policies, such as tax breaks and 
subsidies, to encourage couples to have more children.\25\
    During this reporting year, central Party and government 
officials pledged to strengthen supporting policies that 
facilitate implementation of family planning policies, and 
stressed the need for research into population development and 
evaluation of the universal two-child policy. At the 19th 
National Congress of the Chinese Communist Party held in 
October 2017, Party General Secretary Xi Jinping promoted the 
``dovetailing of family planning policies with relevant 
economic and social supporting policies'' and ``strengthening 
strategic research into population development.'' \26\ Xi also 
emphasized in his speech the need to ``proactively deal with 
the aging population.'' \27\ In a detailed January 2018 
response to Xi's speech, Li Bin, then director of the National 
Health and Family Planning Commission (NHFPC), pledged to 
``improve population policies to promote balanced population 
development . . .. Continue to implement well the universal 
two-child policy to achieve [its] policy effectiveness . . .. 
Dovetail family planning policies with social and economic 
supporting policies in taxation, housing, employment, . . . 
[and] childcare services . . .. Strengthen strategic research 
into population development by conducting fertility surveys and 
evaluation of the universal two-child policy, in order to 
scientifically judge the demographic situation.'' \28\ This 
past year, some local governments introduced supporting 
policies--including longer paid maternity leave, financial 
incentives and subsidies, and other benefits--to encourage 
couples to have a second child.\29\
    At the annual meetings of the National People's Congress 
(NPC) and Chinese People's Political Consultative Conference 
(CPPCC) in March 2018, central authorities issued a plan to 
restructure Party and government agencies, including merging 
the NHFPC and several other agencies to create a new National 
Health Commission (NHC) under the State Council.\30\ According 
to the restructuring plan, the NHC will assume oversight of 
responsibilities related to family planning management and 
services, in addition to managing an aging population and other 
health-related matters.\31\ Some observers suggested that the 
restructuring plan indicates the central authorities have 
deemphasized birth control in favor of actively tackling the 
demographic issue of an aging population.\32\ Other observers 
saw it as an indication that authorities plan to eventually 
eliminate birth limit policies.\33\ This past year, domestic 
and international news media reported that experts from 
academic institutions affiliated with the Party and government, 
as well as a Shaanxi provincial government report on population 
development, have called for ending the birth limit 
policies.\34\ The NHC reportedly stated that authorities were 
considering ending the two-child birth limit.\35\
    According to a May 2018 Bloomberg News report, central 
government authorities were considering and may have reached a 
decision to end birth limit policies due to demographic 
concerns of a declining birth rate, an aging population, and a 
shrinking workforce.\36\ The report also cited international 
criticism of the policies as a factor in the decision.\37\ 
Chinese authorities reportedly may replace the existing birth 
limit policies with one of ``independent fertility,'' allowing 
couples to decide for themselves the number of children to 
have.\38\ According to the report, a decision may be announced 
toward the end of 2018 or in 2019.\39\ Demographic experts and 
other observers, however, commented that a decision to lift all 
birth limits comes too late and would do little to reverse 
demographic trends that could have adverse effects on China's 
economic development.\40\ One American human rights advocate 
expressed concern that authorities could still coerce unwed 
mothers to pay large fines or undergo abortions, even if the 
birth limit policies are abolished.\41\ [For more information 
on the demographic consequences of China's population control 
policies, see Demographic Consequences of Population Control 
Policies later in this section.]

                        Coercive Implementation

    Abuses committed during the implementation of family 
planning policies continued during the Commission's 2018 
reporting year. The amended PRC Population and Family Planning 
Law contains provisions that prohibit officials from infringing 
upon the ``legitimate rights and interests'' of citizens while 
implementing family planning policies.\42\ Some provincial-
level population planning regulations and local government 
authorities, however, continued to explicitly instruct 
officials to carry out abortions, often referred to as 
``remedial measures'' (bujiu cuoshi), for illegal 
pregnancies.\43\

                           OFFICIAL CAMPAIGNS

    During this reporting year, official speeches and 
government reports from provinces across China--including 
Anhui,\44\ Fujian,\45\ Guangdong,\46\ Hubei,\47\ Hunan,\48\ and 
Sichuan \49\--continued to promote implementation of harsh and 
invasive family planning measures. Some local government 
authorities placed an emphasis on birth limits and adherence to 
family planning as a ``basic national policy'' \50\ and 
stressed the need to ``maintain a low birth level.'' \51\ Other 
official reports emphasized the need to strictly control and 
punish illegal births \52\ and implement ``remedial measures'' 
to address illegal pregnancies.\53\ Some local authorities 
imposed targets,\54\ instructed family planning officials to 
carry out the invasive ``three inspections'' (intrauterine 
device (IUD), pregnancy, and health inspections) \55\ and 
``four procedures'' (IUD insertion, first-trimester abortion, 
mid- to late-term abortion, and sterilization),\56\ and 
demanded the collection of ``social compensation fees'' (shehui 
fuyang fei).\57\ In one example, a government report from 
Longhui county, Shaoyang municipality, Hunan, indicated that as 
of December 6, 2017, county authorities had carried out 290 
``birth-control'' operations during the winter of 2017--204 IUD 
insertions, 19 sterilizations, and 67 abortions.\58\ County 
authorities also collected nearly 2.76 million yuan 
(approximately US$437,000) in ``social compensation fees.'' 
\59\

                      PUNISHMENT FOR NONCOMPLIANCE

    Chinese authorities continued to use various methods of 
punishment to enforce citizens' compliance with population 
planning policies. In accordance with national-level legal 
provisions,\60\ local regulations and governments have directed 
officials to punish noncompliance through heavy fines, termed 
``social compensation fees,'' which reportedly compel women to 
choose between undergoing an unwanted abortion and incurring a 
fine \61\ often much greater than the average annual income in 
localities across China.\62\ This past year, Chinese citizens 
continued to file administrative lawsuits against family 
planning agencies pertaining to the collection of ``social 
compensation fees'' from married couples who gave birth to a 
second child in violation of previous family planning policies 
and birth limits.\63\ In recent years, population experts and 
observers have repeatedly called on government authorities to 
abolish ``social compensation fees.'' \64\
    In addition to fines, officials imposed or threatened other 
punishments for family planning violations. These punishments 
included job termination,\65\ detention,\66\ and forced 
abortion.\67\ The PRC Population and Family Planning Law 
prohibits, and provides punishments for, officials' 
infringement on citizens' personal, property, and other rights 
while implementing family planning policies.\68\


                                                    Population 
                                                        Control
                                                Population 
                                                Control

------------------------------------------------------------------------
                            Cases of Coercion
-------------------------------------------------------------------------
<bullet> Xinjiang Uyghur Autonomous Region (XUAR). According to two
 February 2018 ChinaAid Association (ChinaAid) reports, on January 5,
 2018, family planning authorities in Burultoqay (Fuhai) county, Altay
 (Aletai) district, Ili (Yili) Kazakh Autonomous Prefecture, XUAR,
 detained ethnic Kazakh woman Kuliziya Mogudong for bearing a child in
 excess of birth quotas and forced her to undergo an abortion at a local
 hospital.\69\ Authorities subsequently released Mogudong after the
 procedure and confiscated her passport and other legal documents.\70\ A
 week later, Mogudong returned to the hospital due to physical weakness
 and nervousness.\71\ After about 10 days, Mogudong asked to be
 released, but authorities denied her request, saying she had
 tuberculosis.\72\ According to a May 2018 ChinaAid report, Mogudong
 remained in ``soft detention'' at her home until May 8, when
 authorities permitted Mogudong to leave for Kazakhstan to reunite with
 her husband Oman Anshakhan.\73\ Local public security officials also
 detained Mogudong's two older brothers--including Tursun, a local imam,
 on January 27--at unknown locations.\74\ As of May 2018, Mogudong's
 brothers remained in detention.\75\ Anshakhan, a naturalized citizen of
 Kazakhstan, said he and Mogudang had not violated China's family
 planning policies.\76\
<bullet> Guangdong province. According to December 2017 reports by state-
 funded news media The Paper and Party-run media Global Times,
 authorities in Guangzhou municipality, Guangdong, determined that a
 local government official surnamed Xiong had violated family planning
 policies and threatened to expel him from the Chinese Communist Party
 and terminate his job.\77\ In November 2015, Xiong's wife gave birth to
 their second child in the United States, before the universal two-child
 policy became effective in January 2016.\78\ The couple reported the
 birth of the second child to their respective employers after they had
 returned to China in 2016.\79\ Xiong's employer referred the case to
 the Guangzhou Municipal Health and Family Planning Commission, which
 determined in January and September 2017 that the second child was born
 in violation of family planning laws and policies.\80\ The Guangzhou
 Municipal Discipline Inspection Commission further determined that
 Xiong should be expelled from the Party and be dismissed from his job,
 in accordance with national and provincial provisions.\81\ As of
 December 11, 2017, Xiong was still waiting for a final decision to be
 issued regarding this case.\82\ In response to concerns that some local
 provisions mandating job termination for excess births violated
 national laws, the Legislative Affairs Commission of the National
 People's Congress Standing Committee issued a statement in September
 2017 urging seven provinces, including Guangdong, to amend their local
 family planning regulations.\83\ As of April 2018, some provincial
 authorities had amended their family planning regulations accordingly,
 while others indicated that they had plans to do so.\84\
------------------------------------------------------------------------



                                                    Population 
                                                        Control
                                                Population 
                                                Control

------------------------------------------------------------------------
                      Cases of Coercion--Continued
-------------------------------------------------------------------------
<bullet> Hebei province. According to an April 2018 Wall Street Journal
 report, in or around March 2018, a high school teacher surnamed Sun--
 who had discovered that she was pregnant with a third child in March--
 in Tangshan municipality, Hebei, contacted the local family planning
 agency to inquire whether a third child was allowed in light of the
 central Party and government authorities' March 2018 restructuring plan
 to create the new National Health Commission.\85\ The local family
 planning agency reportedly indicated that a third child was still not
 allowed, and as a government worker, Sun would be fined and probably be
 dismissed from her job for violating family planning policies.\86\ A
 few days after the phone call, Sun reportedly terminated the pregnancy
 by swallowing a pill.\87\
------------------------------------------------------------------------

        Demographic Consequences of Population Control Policies

    Decades of population control policies have exacerbated 
China's demographic challenges, which include a rapidly aging 
population, shrinking workforce, and sex ratio imbalance. 
Affected in recent decades by government restrictions on the 
number of births per couple, China's total fertility rate has 
dropped from approximately 3 births per woman in the late 1970s 
\88\ to an estimated 1.6 births per woman in 2017, below the 
replacement rate of 2.1 births per woman necessary to maintain 
a stable population.\89\ A U.S.-based Chinese demographer 
estimated that the 2017 fertility rate may have been as low as 
1.24 births per woman.\90\ The fertility rate is even lower in 
some major cities, such as Shanghai municipality, which has had 
a fertility rate of approximately 0.7 births per woman for 
several years, reportedly one of the lowest in the world.\91\
    China's low fertility rate has contributed to a rapidly 
aging population and a shrinking workforce. According to the 
National Bureau of Statistics of China (NBS), from 2016 to 
2017, China's working-age population (persons between the ages 
of 16 and 59) declined by 5.48 million people to 901.99 
million, continuing a downward trend for a sixth consecutive 
year.\92\ During the same period, the elderly population 
(persons aged 60 or older) increased by 10.04 million in 2017 
to 240.90 million people, or 17.3 percent of the total 
population.\93\ According to the State Council National 
Population Development Plan (2016-2030), China's working-age 
population is expected to decline rapidly from 2021 to 2030, 
while the elderly population will increase markedly during the 
same period and is predicted to reach a quarter of the 
population by 2030.\94\ Some observers suggested that the 
elderly population would account for approximately one-third of 
China's total population by 2050.\95\ These demographic trends 
reportedly may burden China's health care, social services, and 
pension systems,\96\ and weaken China's economy.\97\
    The Chinese government's restrictive family planning 
policies also have exacerbated China's sex ratio imbalance. 
Although Chinese authorities continued to implement a ban on 
``non-medically necessary sex determination and sex-selective 
abortion,'' \98\ some people reportedly continued the practice 
in keeping with a traditional cultural preference for sons.\99\ 
According to a January 2018 NBS report, China's overall sex 
ratio in 2017 was 104.81 males to 100 females, and there were 
approximately 32.66 million more males than females in China 
(711.37 million males to 678.71 million females).\100\ The NBS 
reported that the sex ratio at birth (SRB) in 2015 was 113.51 
males to 100 females,\101\ but it did not provide statistics on 
the SRB for 2016 and 2017 during which the universal two-child 
policy was implemented.\102\ Demographic experts have expressed 
concerns that the sex ratio imbalance in China could lead to 
``violent crime,'' \103\ ``sex crimes,'' ``trafficking of 
women,'' \104\ and ``social instability.'' \105\ This past 
year, international media reports continued to suggest a link 
between China's sex ratio imbalance and the trafficking of 
foreign women--from countries including Burma (Myanmar),\106\ 
Cambodia,\107\ North Korea,\108\ and Vietnam \109\--into China 
for forced marriage or commercial sexual exploitation. [For 
more information on cross-border trafficking, see Section II--
Human Trafficking.]
    Reports also indicate that decades of birth limits under 
China's population control policies combined with a traditional 
preference for sons may have encouraged a black market for 
illegal adoptions.\110\ In January 2018, the Maoming Municipal 
Intermediate People's Court in Guangdong province sentenced 18 
people for ``child trafficking'' and 8 others for ``buying a 
trafficked child.'' \111\ According to reports, the trafficking 
ring acquired infants in Funing county, Wenshan Zhuang and Miao 
Autonomous Prefecture, Yunnan province, and other locations, 
and sold them for 73,000 yuan to 98,000 yuan (approximately 
US$11,600 to $15,555).\112\ Despite government efforts to 
combat ``child trafficking,'' illegal adoptions reportedly 
continued to occur, and the problem appeared to have worsened 
in recent years.\113\ [For inconsistencies in the definition of 
``child trafficking'' between Chinese law and international 
standards, see Section II--Human Trafficking.]


                                                    Population 
                                                        Control
                                                Population 
                                                Control
    Notes to Section II--Population Control

    \1\ National Health and Family Planning Commission, ``December 12, 
2016, National Health and Family Planning Commission Regular Press 
Conference Text Record'' [2016 nian 12 yue 12 ri guojia weisheng 
jishengwei lixing xinwen fabuhui wenzi shilu], 12 December 16; PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], passed 29 December 01, amended 27 December 15, 
effective 1 January 16, art. 18.
    \2\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 18. Article 18 of the 
Population and Family Planning Law provides that, ``the state advocates 
two children per married couple.'' For provincial population 
regulations that require couples be married to have children and limit 
them to bearing two children, see, e.g., Fujian Province People's 
Congress Standing Committee, Fujian Province Population and Family 
Planning Regulations [Fujian sheng renkou yu jihua shengyu tiaoli], 
issued 29 April 88, amended 28 June 91, 25 October 97, 18 November 00, 
26 July 02, 14 December 12, 29 March 14, 19 February 16, 24 November 
17, arts. 8, 12; Guangxi Zhuang Autonomous Region People's Congress 
Standing Committee, Guangxi Zhuang Autonomous Region Population and 
Family Planning Regulations [Guangxi zhuang zu zizhiqu renkou he jihua 
shengyu tiaoli], issued 23 March 12, amended 13 January 14, 15 January 
16, art. 13.
    \3\ See, e.g., Fujian Province People's Congress Standing 
Committee, Fujian Province Population and Family Planning Regulations 
[Fujian sheng renkou yu jihua shengyu tiaoli], issued 29 April 88, 
amended 28 June 91, 25 October 97, 18 November 00, 26 July 02, 14 
December 12, 29 March 14, 19 February 16, 24 November 17, art. 9(4)-
(5); Heilongjiang Province People's Congress Standing Committee, 
Heilongjiang Province Population and Family Planning Regulations 
[Heilongjiang sheng renkou yu jihua shengyu tiaoli], issued 18 October 
02, amended 13 December 13, 22 April 14, 17 April 15, 21 April 16, art. 
13.
    \4\ For provincial population planning provisions that allow these 
exceptions for having an additional child, see, e.g., Fujian Province 
People's Congress Standing Committee, Fujian Province Population and 
Family Planning Regulations [Fujian sheng renkou yu jihua shengyu 
tiaoli], issued 29 April 88, amended 28 June 91, 25 October 97, 18 
November 00, 26 July 02, 14 December 12, 29 March 14, 19 February 16, 
24 November 17, art. 9(1)-(3); Guangxi Zhuang Autonomous Region 
People's Congress Standing Committee, Guangxi Zhuang Autonomous Region 
Population and Family Planning Regulations [Guangxi zhuang zu zizhiqu 
renkou he jihua shengyu tiaoli], issued 23 March 12, amended 13 January 
14, 15 January 16, art. 14(1)-(5); Jiangxi Province People's Congress 
Standing Committee, Jiangxi Province Population and Family Planning 
Regulations [Jiangxi sheng renkou yu jihua shengyu tiaoli], issued 16 
June 90, amended 30 June 95, 20 June 97, 29 July 02, 27 March 09, 16 
January 14, 20 January 16, reprinted in People's Daily, 2 February 16, 
art. 9(2)-(3).
    \5\ See, e.g., Chen Hong, Longhui County Health and Family Planning 
Bureau, ``Inspection Report for the 2018 Annual Family Planning Quality 
Service Activities During Winter and Spring'' [2018 niandu jihua 
shengyu dong chun ji youzhi fuwu huodong de ducha tongbao], reprinted 
in Longhui News, 19 December 17; Qichun County People's Government, 
``Qingshi Township 2018 Government Work Report'' [Qingshi zhen 2018 
nian zhengfu gongzuo baogao], 19 January 18.
    \6\ See, e.g., Yin Han, ``Experts Call for Official Leniency Toward 
Parents of Illegal Second Child,'' Global Times, 12 December 17; Zhao 
Meng, ``Worker in Guizhou Fired Last Month for Having a Child in Excess 
of Birth Quotas 3 Years Ago, One Week Later `Excess Child Job 
Termination' Provision Abolished'' [Guizhou yi zhigong 3 nian qian 
chaosheng shang yue bei kai, yi zhou hou ``chaosheng kaichu'' tiaokuan 
feizhi], The Paper, 4 April 18.
    \7\ See, e.g., Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in 
Xinjiang Underwent Forced Abortion, Her Brother, a Muslim Imam, 
Detained as Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai 
gege ahong bei baofuxing jubu], 4 February 18.
    \8\ See, e.g., Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in 
Xinjiang Underwent Forced Abortion, Her Brother, a Muslim Imam, 
Detained as Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai 
gege ahong bei baofuxing jubu], 4 February 18. See also Liyan Qi and 
Fanfan Wang, ``A Limit to China's Economic Rise: Not Enough Babies,'' 
Wall Street Journal, 29 April 18.
    \9\ Beijing Declaration and Platform for Action, adopted at the 
Fourth World Conference on Women on 15 September 95, and endorsed by UN 
General Assembly resolution 50/203 on 22 December 95, Annex I, paras. 
9, 17. The Beijing Declaration states that governments which 
participated in the Fourth World Conference on Women reaffirmed their 
commitment to ``[e]nsure the full implementation of the human rights of 
women and of the girl child as an inalienable, integral and indivisible 
part of all human rights and fundamental freedoms;'' (Annex I, para. 9) 
and ``[t]he explicit recognition and reaffirmation of the right of all 
women to control all aspects of their health, in particular their own 
fertility, is basic to their empowerment (Annex I, para. 17). Programme 
of Action adopted by the Cairo International Conference on Population 
and Development, 13 September 94, paras. 7.2, 8.25. Paragraph 7.2 
states, ``Reproductive health therefore implies that people . . . have 
the capability to reproduce and the freedom to decide if, when and how 
often to do so. Implicit in this last condition are the right of men 
and women to be informed and to have access to safe, effective, 
affordable and acceptable methods of family planning of their choice . 
. ..'' Paragraph 8.25 states, ``In no case should abortion be promoted 
as a method of family planning.'' For coercive controls imposed on 
Chinese women and their families, see, e.g., Qiao Nong, ChinaAid, 
``Pregnant Muslim Woman in Xinjiang Underwent Forced Abortion, Her 
Brother, a Muslim Imam, Detained as Retaliation'' [Xinjiang musilin 
yunfu bei qiangzhi duotai gege ahong bei baofuxing jubu], 4 February 
18; Chen Hong, Longhui County Health and Family Planning Bureau, 
``Inspection Report for the 2018 Annual Family Planning Quality Service 
Activities During Winter and Spring'' [2018 niandu jihua shengyu dong 
chun ji youzhi fuwu huodong de ducha tongbao], reprinted in Longhui 
News, 19 December 17.
    \10\ United Nations, Report of the Fourth World Conference on 
Women, A/CONF.177/20/Rev.1, 15 September 95, chap. II, para. 3; chap. 
VI, para. 12. China was one of the participating States at the Fourth 
World Conference on Women, which adopted the Beijing Declaration and 
Platform for Action. United Nations Population Information Network, 
Report of the International Conference on Population and Development 
(ICPD), A/CONF.171/13, 18 October 94, chap. II, sec. C; chap. VI, sec. 
1. China was one of the participating States at the ICPD, which reached 
a general agreement on the Programme of Action. The Programme of Action 
is provided as an annex to the above ICPD report.
    \11\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
1; UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 51. In 2016, the UN Committee against Torture noted its concern 
regarding ``reports of coerced sterilization and forced abortions, and 
. . . the lack of information on the number of investigations into such 
allegations . . . [and] the lack of information regarding redress 
provided to victims of past violations.'' For acts of coercion 
committed in the implementation of population planning policies, see, 
e.g., Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18.
    \12\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 12 July 18. China signed the 
Convention on December 12, 1986, and ratified it on October 4, 1988.
    \13\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 18.
    \14\ National Health and Family Planning Commission, ``Text Record 
of Director Li Bin and Others Answering Journalists' Questions 
Regarding `The Implementation of the Universal Two-Child Policy' '' [Li 
bin zhuren deng jiu ``shishi quanmian lianghai zhengce'' da jizhe wen 
wenzi shilu], 8 March 16.
    \15\ ``Three Million Additional Births Per Year With the Universal 
Two-Child Policy, Chinese Officials Say'' [Zhongguo guanfang shuo, 
kaifang ertai mei nian duo sheng sanbai wan ren], Radio Free Asia, 10 
November 15.
    \16\ National Health and Family Planning Commission, ``Department 
of Community Family Planning Official Answers Questions From Health 
News and China Population Daily Journalists Regarding the Number of 
Births in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16.
    \17\ National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wen zhong xiang hao, hao yu yuqi], 18 January 18; Ma Danmeng and Han 
Wei, ``Couples Not Delivering on Beijing's Push for Two Babies,'' 
Caixin, 18 January 18. For the total number of births in 2016, see 
National Bureau of Statistics of China, ``National Economy Achieved a 
Good Start for the `13th Five-Year Plan' Period in 2016'' [2016 nian 
guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 January 17.
    \18\ Ma Danmeng and Han Wei, ``Couples Not Delivering on Beijing's 
Push for Two Babies,'' Caixin, 18 January 18; Liang Jianzhang and Huang 
Wenzheng, ``Birth Population Avalanche, Need To Cut Taxes and Provide 
Subsidies To Encourage Having More Children'' [Chusheng renkou xuebeng 
wei yao haizi jianshui he butie], Caixin, 18 January 18; ``China's 
Declining Birth Rate Requires Policy Change,'' Xinhua, 25 January 18.
    \19\ ``China Sounds Population Alarm: It Is Imperative To End Birth 
Restrictions'' [Zhongguo laxiang renkou jingbao: quanmian fangkai 
shengyu shizai bixing], Radio Free Asia, 26 January 18; Issaku Harada, 
``China's Falling Births Expose Limits of `Two-Child Policy,' '' Nikkei 
Asian Review, 23 January 18.
    \20\ ``China Sounds Population Alarm: It Is Imperative To End Birth 
Restrictions'' [Zhongguo laxiang renkou jingbao: quanmian fangkai 
shengyu shizai bixing], Radio Free Asia, 26 January 18; ``China's 
Declining Birth Rate Requires Policy Change,'' Xinhua, 25 January 18; 
He Keyao, ``Chinese Youth Say No to Having Kids on the Grounds of 
Financial Pressure, Happiness and Career Development,'' Global Times, 6 
February 18.
    \21\ ``China Sounds Population Alarm: It Is Imperative To End Birth 
Restrictions'' [Zhongguo laxiang renkou jingbao: quanmian fangkai 
shengyu shizai bixing], Radio Free Asia, 26 January 18; ``China's 
Declining Birth Rate Requires Policy Change,'' Xinhua, 25 January 18; 
Feng Xixi, ``Anxiety Over Having Two Children? 75% of Those Surveyed 
Believe the Pressure Can Be Controlled'' [Sheng er hai hen jiaolu? 75% 
shoufang zhe renwei yali kekong], Jinyang Net, 22 February 18.
    \22\ Feng Xixi, ``Anxiety Over Having Two Children? 75% of Those 
Surveyed Believe the Pressure Can Be Controlled'' [Sheng er hai hen 
jiaolu? 75% shoufang zhe renwei yali kekong], Jinyang Net, 22 February 
18; ``China's Declining Birth Rate Requires Policy Change,'' Xinhua, 25 
January 18; Issaku Harada, ``China's Falling Births Expose Limits of 
`Two-Child Policy,' '' Nikkei Asian Review, 23 January 18.
    \23\ Leta Hong Fincher, ``China Dropped Its One-Child Policy. So 
Why Aren't Chinese Women Having More Babies? '' New York Times, 20 
February 18.
    \24\ He Keyao, ``Chinese Youth Say No to Having Kids on the Grounds 
of Financial Pressure, Happiness and Career Development,'' Global 
Times, 6 February 18; ``China's Declining Birth Rate Requires Policy 
Change,'' Xinhua, 25 January 18.
    \25\ ``China Sounds Population Alarm: It Is Imperative To End Birth 
Restrictions'' [Zhongguo laxiang renkou jingbao: quanmian fangkai 
shengyu shizai bixing], Radio Free Asia, 26 January 18; Zhang Hui, 
``Latest Population Data Prompts Call for China's Family Planning 
Policy To Be Abolished,'' Global Times, 20 March 18; Paul Yip, ``Does 
China Actually Need More Children To Replace Its Declining Working-Age 
Population? '' South China Morning Post, 28 January 18; Zhang Hui, 
``Lawmaker Urges Lower Income Tax for Two-Child Families,'' Global 
Times, 16 March 18.
    \26\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xinshidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 8(5).
    \27\ Ibid.
    \28\ Li Bin, ``Implement the Healthy China Strategy (Earnestly 
Study, Promote, and Implement the Spirit of the Party's Nineteenth 
Party Congress)'' [Shishi jiankang zhongguo zhanlue (renzhen xuexi 
xuanchuan guanche dang de shijiuda jingshen)], People's Daily, 12 
January 18.
    \29\ ``Couples Are Being Offered Benefits To Have a Second Child,'' 
China Internet Information Center, 19 July 18; ``China Provinces Offer 
Incentives To Raise Birth Rate,'' CGTN, 19 July 18; Peng Xunwen, ``Let 
People Dare and Be Willing To Have a `Second Child' '' [Rang renmen gan 
sheng yuan sheng ``er hai''], People's Daily, 6 August 18; Wang Jun, 
``Many Localities Nationwide Successively Introduced Policies To 
`Promote Birth' of a Second Child: Subsidies Given for Childbirth, Baby 
Formula, Etc.'' [Quanguo duo di xiangji chutai ``cui sheng'' er hai 
zhengce: fa fenmian, naifen deng butie], The Paper, 18 July 18.
    \30\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(28); State Council, Institutional Reform 
Plan [Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(5).
    \31\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(28); State Council, Institutional Reform 
Plan'' [Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(5).
    \32\ Liyan Qi and Fanfan Wang, ``China's Notorious Family Planning 
Agency Fades Into History,'' Wall Street Journal, 14 March 18; `` `An 
Old Official' Ma Xiaowei at the Helm of the National Health Commission, 
What Changes Can [He] Bring? '' [``Lao jiang'' ma xiaowei zhangduo 
guojia weisheng jiankang weiyuanhui, neng dailai shenme gaibian?], 
Pharmacodia, 20 March 18; Goh Sui Noi, ``NPC 2018: China Proposes 
Sweeping Reorganisation of Cabinet,'' Straits Times, 13 March 18; 
``China Establishes New National Health Commission, Dismantles NHFPC'' 
[Zhonguo xin she guojia weisheng jiankang weiyuanhui chexiao weijiwei], 
Duowei News, 13 March 18. See also ``Chinese Communist Party Central 
Committee Issues `Plan for Deepening Reform of Party and Government 
Agencies' '' [Zhonggong zhongyang yinfa ``shenhua dang he guojia jigou 
gaige fang'an''], Xinhua, 21 March 18, sec. 3(28); State Council, 
Institutional Reform Plan [Guowuyuan jigou gaige fang'an], 17 March 18, 
sec. 1(5).
    \33\ Liyan Qi and Fanfan Wang, ``China's Notorious Family Planning 
Agency Fades Into History,'' Wall Street Journal, 14 March 18; Zhang 
Hui, ``China To Dismantle Family Planning Commission,'' Global Times, 
13 March 18; Zhang Hui, ``Latest Population Data Prompts Call for 
China's Family Planning Policy To Be Abolished,'' Global Times, 20 
March 18.
    \34\ Wang Jun, ``China Human Resources and Social Security Magazine 
Article: Time To End Birth Limit Policies Without Delay'' [``Zhongguo 
renli ziyuan shehui baozhang'' zazhi kanwen: quanmian fangkai shengyu 
kebu ronghuan], The Paper, 21 July 18; Wang Jun, ``Shaanxi Issues 2017 
Population Development Report, Suggests Ending Birth Limit Policy at an 
Appropriate Time'' [Shaanxi 2017 nian renkou fazhan baogao fabu, jianyi 
shishi quanmian fangkai jihua shengyu], The Paper, 21 July 18; Xi Yue, 
``Chinese Province Suggests Ending Birth Restrictions,'' Sixth Tone, 23 
July 18; ``China State Researcher Predicts End to Child Birth 
Restrictions,'' Bloomberg News, 10 August 18.
    \35\ Steven Lee Myers and Olivia Mitchell Ryan, ``Burying `One 
Child' Limits, China Pushes Women To Have More Babies,'' New York 
Times, 11 August 18.
    \36\ ``China Considers Ending Birth Limits as Soon as This Year,'' 
Bloomberg, 21 May 18. See also Alexa Lardieri, ``China To Eliminate 2-
Child Policy,'' U.S. News & World Report, 21 May 18; Lily Kuo, ``China 
Shows Little Appetite for Lifting of Family Size Limit,'' Guardian, 26 
May 18.
    \37\ ``China Considers Ending Birth Limits as Soon as This Year,'' 
Bloomberg, 21 May 18. See also Alexa Lardieri, ``China to Eliminate 2-
Child Policy,'' U.S. News & World Report, 21 May 18.
    \38\ ``China Considers Ending Birth Limits as Soon as This Year,'' 
Bloomberg, 21 May 18.
    \39\ Ibid.
    \40\ Ibid.; Liyan Qi and Fanfan Wang, ``A Limit to China's Economic 
Rise: Not Enough Babies,'' Wall Street Journal, 29 April 18; Alexa 
Lardieri, ``China To Eliminate 2-Child Policy,'' U.S. News & World 
Report, 21 May 18; Michelle La Rosa, ``China May Lift Its Two-Child 
Policy--Here's What That Could Mean,'' Catholic News Agency, 23 May 18; 
Gina Heeb, ``China Is Thinking About Scrapping Birth Limits--But That 
Won't Have the Impact It's Hoping For,'' Business Insider Australia, 23 
May 18.
    \41\ Michelle La Rosa, ``China May Lift Its Two-Child Policy--
Here's What That Could Mean,'' Catholic News Agency, 23 May 18.
    \42\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39.
    \43\ He Yafu, ``Deng Chao and Zhao Ruirui Who Were Almost Aborted'' 
[Cha dian bei duotai de deng chao he zhao ruirui], CNPOP, 9 February 
14. For examples of provincial-level population planning regulations 
instructing officials to carry out abortions, see Jiangxi Province 
People's Congress Standing Committee, Jiangxi Province Population and 
Family Planning Regulations [Jiangxi sheng renkou yu jihua shengyu 
tiaoli], issued 16 June 90, amended 30 June 95, 20 June 97, 29 July 02, 
27 March 09, 16 January 14, 20 January 16, art. 15; Hubei Province 
People's Congress Standing Committee, Hubei Province Population and 
Family Planning Regulations [Hubei sheng renkou yu jihua shengyu 
tiaoli], issued 1 December 02, amended 29 November 08, 30 July 10, 27 
March 14, 13 January 16, art. 12. For examples of local authorities 
instructing officials to carry out abortions, see Dongshan County Grain 
Bureau, ``Dongshan County Grain Bureau Circular Regarding Issuing 2018 
Family Planning Work Assignments to Subsidiary Units'' [Dongshan xian 
liangshi ju guanyu xiada suo shu danwei 2018 nian jihua shengyu gongzuo 
zerenshu de tongzhi], 3 April 18; Baiyun District People's Government, 
``Working Guidelines for Migrant Population To Apply for Family 
Planning Related Certificates in Baiyun District'' [Baiyun liudong 
renkou shen ling jisheng xiangguan zhengming banshi zhinan], 30 
November 17; Mianning County Health and Family Planning Bureau, 
``Mianning County Carries Out the First Seasonal `IUD and Pregnancy 
Monitoring' Inspection Work'' [Mianning xian kaizhan di yi jidu ``huan 
yun qing jiance'' ducha gongzuo], 3 April 18; Chen Tong, Huigou 
Township Health and Family Planning Office Information Office, ``New 
Conceptional Path for Family Planning Development in Huigou Township, 
Lingbi County'' [Lingbi xian huigou zhen xinxing jihua shengyu fazhan 
gouxiang zhi lu], 7 March 18. Illegal pregnancies are often referred to 
as ``out-of-plan'' pregnancies (jihua wai huaiyun) or ``out-of-policy'' 
pregnancies (zhengce wai huaiyun).
    \44\ Chen Tong, Huigou Township Health and Family Planning Office 
Information Office, ``New Conceptional Path for Family Planning 
Development in Huigou Township, Lingbi County'' [Lingbi xian huigou 
zhen xinxing jihua shengyu fazhan gouxiang zhi lu], 7 March 18.
    \45\ Dongshan County Grain Bureau, ``Dongshan County Grain Bureau 
Circular Regarding Issuing 2018 Family Planning Work Assignments to 
Subsidiary Units'' [Dongshan xian liangshi ju guanyu xiada suo shu 
danwei 2018 nian jihua shengyu gongzuo zerenshu de tongzhi], 3 April 
18.
    \46\ Baiyun District People's Government, ``Working Guidelines for 
Migrant Population To Apply for Family Planning Related Certificates in 
Baiyun District'' [Baiyun liudong renkou shen ling jisheng xiangguan 
zhengming banshi zhinan], 30 November 17.
    \47\ Qichun County People's Government, ``Qingshi Township 2018 
Government Work Report'' [Qingshi zhen 2018 nian zhengfu gongzuo 
baogao], 19 January 18.
    \48\ Chen Hong, Longhui County Health and Family Planning Bureau, 
``Inspection Report for the 2018 Annual Family Planning Quality Service 
Activities During Winter and Spring'' [2018 niandu jihua shengyu dong 
chun ji youzhi fuwu huodong de ducha tongbao], reprinted in Longhui 
News, 19 December 17; Songbo Ethnic Yao Township Health and Family 
Planning Office, ``Songbo Ethnic Yao Township 2017 Family Planning Work 
Summary and 2018 Work Plan'' [Songbo yaozu xiang 2017 nian jisheng 
gongzuo zongjie he 2018 nian gongzuo jihua], reprinted in Jiangyong 
County People's Government, 20 December 17.
    \49\ Mianning County Health and Family Planning Bureau, ``Mianning 
County Carries Out the First Seasonal `IUD and Pregnancy Monitoring' 
Inspection Work'' [Mianning xian kaizhan di yi jidu ``huan yun qing 
jiance'' ducha gongzuo], 3 April 18.
    \50\ See, e.g., Zhao Jingjing, ``Lengshuijiang City Convenes Spring 
Family Planning Turning Up Heat and Increasing Pressure Work 
Conference'' [Lengshuijiang shi zhaokai chunji jihua shengyu shengwen 
jiaya gongzuo huiyi], Lengshuijiang News Net, 2 April 18; Dongshan 
County Grain Bureau, ``Dongshan County Grain Bureau Circular Regarding 
Issuing 2018 Family Planning Work Assignments to Subsidiary Units'' 
[Dongshan xian liangshi ju guanyu xiada suo shu danwei 2018 nian jihua 
shengyu gongzuo zerenshu de tongzhi], 3 April 18; Hengshui Municipality 
Health and Family Planning Comprehensive Supervision and Enforcement 
Bureau, ``Shenzhou City Convenes Special Rectification Mobilization 
Meeting for Collection of Social Compensation Fees'' [Shenzhou shi 
zhaokai shehui fuyang fei zhengshou zhuanxiang zhengzhi xingdong 
dongyuan huiyi], 27 November 17.
    \51\ See, e.g., Liannan County People's Government, ``Liannan 
County Convenes 2017 Population and Family Planning Work Meeting'' 
[Liannan zhaokai 2017 nian renkou he jihua shengyu gongzuo huiyi], 6 
November 17; Xu Siyuan, ``Zhouwang Township Makes Arrangements To Carry 
Out 2018 Health and Family Planning Work'' [Zhouwang zhen anpai bushu 
2018 nian weisheng jisheng gongzuo], 29 March 18.
    \52\ See, e.g., Liannan County People's Government, ``Liannan 
County Convenes 2017 Population and Family Planning Work Meeting'' 
[Liannan zhaokai 2017 nian renkou he jihua shengyu gongzuo huiyi], 6 
November 17; Helan County Xigang Street Office, ``Interpretation of the 
`Two-Child' Policy'' [``Quanmian lianghai'' zhengce jiedu], 15 March 
18; Hengshui Municipality Health and Family Planning Comprehensive 
Supervision and Enforcement Bureau, ``Shenzhou City Convenes Special 
Rectification Mobilization Meeting for Collection of Social 
Compensation Fees'' [Shenzhou shi zhaokai shehui fuyang fei zhengshou 
zhuanxiang zhengzhi xingdong dongyuan huiyi], 27 November 17.
    \53\ See, e.g., Mianning County Health and Family Planning Bureau, 
``Mianning County Carries Out the First Seasonal `IUD and Pregnancy 
Monitoring' Inspection Work'' [Mianning xian kaizhan di yi jidu ``huan 
yun qing jiance'' ducha gongzuo], 3 April 18; Chen Tong, Huigou 
Township Health and Family Planning Office Information Office, ``New 
Conceptional Path for Family Planning Development in Huigou Township, 
Lingbi County'' [Lingbi xian huigou zhen xinxing jihua shengyu fazhan 
gouxiang zhi lu], 7 March 18; Dongshan County Grain Bureau, ``Dongshan 
County Grain Bureau Circular Regarding Issuing 2018 Family Planning 
Work Assignments to Subsidiary Units'' [Dongshan xian liangshi ju 
guanyu xiada suo shu danwei 2018 nian jihua shengyu gongzuo zerenshu de 
tongzhi], 3 April 18. Illegal pregnancies are often referred to as 
``out-of-plan'' pregnancies (jihua wai huaiyun) or ``out-of-policy'' 
pregnancies (zhengce wai huaiyun).
    \54\ See, e.g., Zhao Jingjing, ``Lengshuijiang City Convenes Spring 
Family Planning Turning Up Heat and Increasing Pressure Work 
Conference'' [Lengshuijiang shi zhaokai chunji jihua shengyu shengwen 
jiaya gongzuo huiyi], Lengshuijiang News Net, 2 April 18; Dongshan 
County Grain Bureau, ``Dongshan County Grain Bureau Circular Regarding 
Issuing 2018 Family Planning Work Assignments to Subsidiary Units'' 
[Dongshan xian liangshi ju guanyu xiada suo shu danwei 2018 nian jihua 
shengyu gongzuo zerenshu de tongzhi], 3 April 18.
    \55\ See, e.g., Longguang Township People's Government, ``Longguang 
Township March Work Updates'' [Longguang zhen 3 yue gongzuo dongtai], 
reprinted in Lingshui County People's Government, 4 April 18; Mianning 
County Health and Family Planning Bureau, ``The Fourth Family Planning 
`Three Inspections' Successfully Completed in Chengxiang Township, 
Mianning County'' [Mianning xian chengxiang zhen jisheng di si ci ``san 
cha'' shunli jieshu], 8 December 17. See also Ma Jian, Women's Rights 
in China, ``Investigation Into the `Three Inspections' of Rural Family 
Planning'' [Nongcun jihua shengyu zhong de ``san cha'' qingkuang 
diaocha], reprinted in Boxun, 15 April 09.
    \56\ See, e.g., Chen Hong, Longhui County Health and Family 
Planning Bureau, ``Inspection Report for the 2018 Annual Family 
Planning Quality Service Activities During Winter and Spring'' [2018 
niandu jihua shengyu dong chun ji youzhi fuwu huodong de ducha 
tongbao], reprinted in Longhui News, 19 December 17; Songbo Ethnic Yao 
Township Health and Family Planning Office, ``Songbo Ethnic Yao 
Township 2017 Family Planning Work Summary and 2018 Work Plan'' [Songbo 
yaozu xiang 2017 nian jisheng gongzuo zongjie he 2018 nian gongzuo 
jihua], reprinted in Jiangyong County People's Government, 20 December 
17; Qichun County People's Government, ``Qingshi Township 2018 
Government Work Report'' [Qingshi zhen 2018 nian zhengfu gongzuo 
baogao], 19 January 18. See also Yu Han, ``Chinese People Suffer From 
Family Planning [Policy's] Forced Sterilizations and Abortions'' [Jihua 
shengyu qiangzhi jiezha renliu hai ku le zhongguo ren], Tencent, 15 
June 12.
    \57\ See, e.g., Chen Hong, Longhui County Health and Family 
Planning Bureau, ``Inspection Report for the 2018 Annual Family 
Planning Quality Service Activities During Winter and Spring'' [2018 
niandu jihua shengyu dong chun ji youzhi fuwu huodong de ducha 
tongbao], reprinted in Longhui News, 19 December 17; Songbo Ethnic Yao 
Township Health and Family Planning Office, ``Songbo Ethnic Yao 
Township 2017 Family Planning Work Summary and 2018 Work Plan'' [Songbo 
yaozu xiang 2017 nian jisheng gongzuo zongjie he 2018 nian gongzuo 
jihua], reprinted in Jiangyong County People's Government, 20 December 
17; Qichun County People's Government, ``Qingshi Township 2018 
Government Work Report'' [Qingshi zhen 2018 nian zhengfu gongzuo 
baogao], 19 January 18. ``Social compensation fees'' are also known as 
``social maintenance fees.''
    \58\ Chen Hong, Longhui County Health and Family Planning Bureau, 
``Inspection Report for the 2018 Annual Family Planning Quality Service 
Activities During Winter and Spring'' [2018 niandu jihua shengyu dong 
chun ji youzhi fuwu huodong de ducha tongbao], reprinted in Longhui 
News, 19 December 17.
    \59\ Ibid.
    \60\ State Council, Measures for Administration of Collection of 
Social Compensation Fees [Shehui fuyang fei zhengshou guanli banfa], 
issued 2 August 02, effective 1 September 02, arts. 3, 7. See also PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], passed 29 December 01, amended 27 December 15, 
effective 1 January 16, arts. 18, 41.
    \61\ See, e.g., Liyan Qi and Fanfan Wang, ``A Limit to China's 
Economic Rise: Not Enough Babies,'' Wall Street Journal, 29 April 18.
    \62\ For a list of provincial-level regulations that mandate 
collection of ``social compensation fees,'' see ``2018 Social 
Compensation Fee Collection Standards and Newest Regulations'' [2018 
nian shehui fuyang fei zhengshou biaozhun yu zui xin guiding], Shebao 
Chaxun Wang, 15 January 18. For examples of local governments that 
collected or demanded collection of ``social compensation fees'' during 
this reporting year, see, e.g., Chen Hong, Longhui County Health and 
Family Planning Bureau, ``Inspection Report for the 2018 Annual Family 
Planning Quality Service Activities During Winter and Spring'' [2018 
niandu jihua shengyu dong chun ji youzhi fuwu huodong de ducha 
tongbao], reprinted in Longhui News, 19 December 17; Qichun County 
People's Government, ``Qingshi Township 2018 Government Work Report'' 
[Qingshi zhen 2018 nian zhengfu gongzuo baogao], 19 January 18; Gao 
Yong, Tengzhou City People's Government, ``Nanshahe Township Writes a 
New Chapter for Health and Family Planning Work'' [Nanshahe zhen puxie 
weisheng jisheng gongzuo xin pianzhang], 16 November 17; Tian Hongxiu, 
``Heyuan Municipality Health and Family Planning Bureau Director Yuan 
Chengzhang Discusses the Study and Implementation of the Nineteenth 
Party Congress Spirit'' [Wo ju juzhang yuan chengzhang tan xuexi 
guanche dang de shijiuda jingshen], Heyuan Daily, reprinted in Heyuan 
Municipality Health and Family Planning Bureau, 28 December 17.
    \63\ See, e.g., Wang Lianzhang, ``High Court Accepts Appeal Against 
Family Planning Fine,'' Sixth Tone, 22 November 17; Zhao Meng, ``Should 
`Having a Second Child Before the [Two-Child] Policy' Be Punished 
Retroactively? Another Jiangsu Couple Successfully Files Petition for 
Appeal'' [``Zhengce qian er hai'' shifou gai bei zhui fa? you yi dui 
jiangsu fufu shenqing zai shen huo li'an], The Paper, 21 November 17.
    \64\ See, e.g., ``China Sounds Population Alarm: It Is Imperative 
To End Birth Restrictions'' [Zhongguo laxiang renkou jingbao: quanmian 
fangkai shengyu shizai bixing], Radio Free Asia, 26 January 18; Sha 
Xueliang, ``Huang Xihua: Birth Rate Dropped, Recommendation To Rescind 
Collection of Social Compensation Fees'' [Huang xihua: renkou chusheng 
lu xiajiang jianyi quxiao zhengshou shehui fuyang fei], Beijing News, 
reprinted in Sina, 12 March 18; Wang Ling, ``More `Rush To Give Birth 
to Second Child' Cases Nationwide, Need To Clarify Whether To Keep or 
Abolish Social Compensation Fees'' [Quanguo ``qiang sheng erhai'' 
anjian zengduo shehui fuyang fei cun fei dai mingque], Yicai, 24 March 
17; Wang Ling, ``NHFPC: Administrative Lawsuits Related to Social 
Compensation Fees Increase in Some Areas'' [Weijiwei: bufen diqu shehui 
fuyang fei xiangguan xingzheng susong anjian zengjia], Chinese Business 
Network, 4 March 17.
    \65\ See, e.g., Yin Han, ``Experts Call for Official Leniency 
Toward Parents of Illegal Second Child,'' Global Times, 12 December 17; 
Zhao Meng, ``Worker in Guizhou Fired Last Month for Having a Child in 
Excess of Birth Quotas 3 Years Ago, One Week Later `Excess Child Job 
Termination' Provision Abolished'' [Guizhou yi zhigong 3 nian qian 
chaosheng shang yue bei kai, yi zhou hou ``chaosheng kaichu'' tiaokuan 
feizhi], The Paper, 4 April 18.
    \66\ See, e.g., Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in 
Xinjiang Underwent Forced Abortion, Her Brother, a Muslim Imam, 
Detained as Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai 
gege ahong bei baofuxing jubu], 4 February 18.
    \67\ Ibid.
    \68\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39(1)-(2). Article 4 
of the PRC Population and Family Planning Law states that officials 
``shall perform their family planning work duties strictly in 
accordance with the law, and enforce the law in a civil manner, and 
they may not infringe upon the legitimate rights and interests of 
citizens.'' Article 39 states that an official is subject to criminal 
or administrative punishment if he ``infringe[s] on a citizen's 
personal rights, property rights, or other legitimate rights and 
interests'' or ``abuse[s] his power, neglect[s] his duty, or engage[s] 
in malpractice for personal gain'' in the implementation of family 
planning policies.
    \69\ Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman Forced 
Into Abortion,'' 5 February 18. For more information on Kuliziya 
Mogudong, see the Commission's Political Prisoner Database record 2018-
00105.
    \70\ Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman Forced 
Into Abortion,'' 5 February 18.
    \71\ Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman Forced 
Into Abortion,'' 5 February 18.
    \72\ Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman Forced 
Into Abortion,'' 5 February 18.
    \73\ Qiao Nong, ChinaAid, ``[Ethnic] Kazakh Woman Underwent Forced 
Abortion, [She Was] Permitted To Leave After Several Months in Soft 
Detention'' [Hasakesitan funu bei qiangzhi duotai ruanjin shuyue zhong 
huo likai], 14 May 18.
    \74\ Ibid.; Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in 
Xinjiang Underwent Forced Abortion, Her Brother, a Muslim Imam, 
Detained as Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai 
gege ahong bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman 
Forced Into Abortion,'' 5 February 18. For more information on Tursun, 
see the Commission's Political Prisoner Database record 2018-00108.
    \75\ Qiao Nong, ChinaAid, ``[Ethnic] Kazakh Woman Underwent Forced 
Abortion, [She Was] Permitted To Leave After Several Months in Soft 
Detention'' [Hasakesitan funu bei qiangzhi duotai ruanjin shuyue zhong 
huo likai], 14 May 18.
    \76\ Qiao Nong, ChinaAid, ``Pregnant Muslim Woman in Xinjiang 
Underwent Forced Abortion, Her Brother, a Muslim Imam, Detained as 
Retaliation'' [Xinjiang musilin yunfu bei qiangzhi duotai gege ahong 
bei baofuxing jubu], 4 February 18; ChinaAid, ``Muslim Woman Forced 
Into Abortion,'' 5 February 18.
    \77\ Zhao Meng, ``Guangzhou Deputy Director-Level Cadre Had Second 
Child Before Family Planning Policy [Change], Faces Termination After 
Being Deemed Illegal by Municipal Health and Family Planning 
Commission'' [Guangzhou fu chu ji ganbu shengyu zhengce qian er hai, 
bei shi weijiwei rending weifa mianlin kaichu], The Paper, 12 December 
17; Yin Han, ``Experts Call for Official Leniency Toward Parents of 
Illegal Second Child,'' Global Times, 12 December 17.
    \78\ Zhao Meng, ``Guangzhou Deputy Director-Level Cadre Had Second 
Child Before Family Planning Policy [Change], Faces Termination After 
Being Deemed Illegal by Municipal Health and Family Planning 
Commission'' [Guangzhou fu chu ji ganbu shengyu zhengce qian er hai, 
bei shi weijiwei rending weifa mianlin kaichu], The Paper, 12 December 
17; Yin Han, ``Experts Call for Official Leniency Toward Parents of 
Illegal Second Child,'' Global Times, 12 December 17.
    \79\ Zhao Meng, ``Guangzhou Deputy Director-Level Cadre Had Second 
Child Before Family Planning Policy [Change], Faces Termination After 
Being Deemed Illegal by Municipal Health and Family Planning 
Commission'' [Guangzhou fu chu ji ganbu shengyu zhengce qian er hai, 
bei shi weijiwei rending weifa mianlin kaichu], The Paper, 12 December 
17.
    \80\ Ibid.
    \81\ Ibid. See also PRC Population and Family Planning Law 
[Zhonghua renmin gongheguo renkou yu jihua shengyu fa], passed 29 
December 01, amended 27 December 15, effective 1 January 16, art. 42; 
Guangdong Province People's Congress Standing Committee, ``Guangdong 
Province Population and Family Planning Regulations'' [Guangdong sheng 
renkou yu jihua shengyu tiaoli], issued 2 February 80, amended 17 May 
86, 28 November 92, 1 December 97, 18 September 98, 21 May 99, 25 July 
02, 28 November 08, 27 March 14, 30 December 15, 29 September 16, art. 
40.
    \82\ Zhao Meng, ``Guangzhou Deputy Director-Level Cadre Had Second 
Child Before Family Planning Policy [Change], Faces Termination After 
Being Deemed Illegal by Municipal Health and Family Planning 
Commission'' [Guangzhou fu chu ji ganbu shengyu zhengce qian er hai, 
bei shi weijiwei rending weifa mianlin kaichu], The Paper, 12 December 
17.
    \83\ Zhao Yu, ``There Are Still 7 Provinces That Haven't Revised 
the `Extra Births Job Termination' Provisions' '' [``Chaosheng ji 
citui'' fagui hai you zhe 7 ge shengfen wei xiugai], Red Star News, 
reprinted in China Youth Net, 26 December 17. See also Zhao Meng, 
``Worker in Guizhou Fired Last Month for Having a Child in Excess of 
Birth Quotas 3 Years Ago, One Week Later `Excess Child Job Termination' 
Provision Abolished'' [Guizhou yi zhigong 3 nian qian chaosheng shang 
yue bei kai, yi zhou hou ``chaosheng kaichu'' tiaokuan feizhi], The 
Paper, 4 April 18.
    \84\ Zhao Meng, ``Worker in Guizhou Fired Last Month for Having a 
Child in Excess of Birth Quotas 3 Years Ago, One Week Later `Excess 
Child Job Termination' Provision Abolished'' [Guizhou yi zhigong 3 nian 
qian chaosheng shang yue bei kai, yi zhou hou ``chaosheng kaichu'' 
tiaokuan feizhi], The Paper, 4 April 18.
    \85\ Liyan Qi and Fanfan Wang, ``A Limit to China's Economic Rise: 
Not Enough Babies,'' Wall Street Journal, 29 April 18. For more 
information on the reorganization of Party and government institutions, 
including the creation of the new National Health Commission, see 
``Chinese Communist Party Central Committee Issues `Plan for Deepening 
Reform of Party and Government Agencies' '' [Zhonggong zhongyang yinfa 
``shenhua dang he guojia jigou gaige fang'an''], Xinhua, 21 March 18; 
State Council, Institutional Reform Plan [Guowuyuan jigou gaige 
fang'an], 17 March 18, sec. 1(5).
    \86\ Liyan Qi and Fanfan Wang, ``A Limit to China's Economic Rise: 
Not Enough Babies,'' Wall Street Journal, 29 April 18.
    \87\ Ibid.
    \88\ World Bank, ``Fertility Rate, Total (Births Per Woman),'' last 
visited 16 July 18.
    \89\ Serenitie Wang, ``Recovering From One Child: China's Growing 
Fertility Problem,'' CNN, 7 May 18; Central Intelligence Agency, 
``World Factbook: China,'' last visited 15 May 18.
    \90\ Lily Kuo, ``China Shows Little Appetite for Lifting of Family 
Size Limit,'' Guardian, 26 May 18; Liyan Qi and Fanfan Wang, ``A Limit 
to China's Economic Rise: Not Enough Babies,'' Wall Street Journal, 29 
April 18.
    \91\ Dexter Roberts, ``What Happened to China's Baby Bump? '' 
Bloomberg Businessweek, 13 February 18; Paul Yip, ``Does China Actually 
Need More Children To Replace Its Declining Working-Age Population? '' 
South China Morning Post, 28 January 18; Hua'erjie Laoye, ``Ren Dapao: 
Is China's Real Estate Market Really China's `Ticking Time Bomb? ' '' 
[Ren dapao: zhongguo loushi zhen de shi zhongguo jingji de ``dingshi 
zhadan'' ma?], Sina, 14 March 17.
    \92\ National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wenzhong xianghao, hao yu yuqi], 18 January 18; National Bureau of 
Statistics of China, ``National Economy Achieved a Good Start for the 
`13th Five-Year Plan' Period in 2016'' [2016 nian guomin jingji shixian 
``shisan wu'' lianghao kaiju], 20 January 17; Chi Dehua, ``China's 
Working-Age Population Continues To Shrink,'' GBTIMES, 1 March 18.
    \93\ National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wenzhong xianghao, hao yu yuqi], 18 January 18; National Bureau of 
Statistics of China, ``National Economy Achieved a Good Start for the 
`13th Five-Year Plan' Period in 2016'' [2016 nian guomin jingji shixian 
``shisan wu'' lianghao kaiju], 20 January 17.
    \94\ State Council, National Population Development Plan (2016-
2030) [Guojia renkou fazhan guihua (2016-2030 nian)], issued 30 
December 16.
    \95\ Chong Koh Ping, ``China's Elderly: Old and Left Behind,'' 
Straits Times, 28 October 17; Shi Jia, ``Dealing With China's Aging 
Population,'' Shanghai Daily, 19 December 17; Yue Wang, ``No One in 
China Wants To Get Married Anymore, and It's Making Beijing Nervous,'' 
Forbes, 17 October 17.
    \96\ Chong Koh Ping, ``China's Elderly: Old and Left Behind,'' 
Straits Times, 28 October 17; ``China Sounds Population Alarm: It Is 
Imperative To End Birth Restrictions'' [Zhongguo laxiang renkou 
jingbao: quanmian fangkai shengyu shizai bixing], Radio Free Asia, 26 
January 18; Issaku Harada, ``China's Social Security Shortfall Nears 
$100bn,'' Nikkei Asian Review, 8 February 18; Sidney Leng and Mimi Lau, 
``Greying China Looks at Dropping All Limits on Birth Control,'' South 
China Morning Post, 23 October 17.
    \97\ Elias Glenn and Stella Qiu, ``China Working-Age Population 
Shrinks, Presenting Pitfall for Pension Plans,'' Reuters, 28 February 
18; Chong Koh Ping, ``China's Elderly: Old and Left Behind,'' Straits 
Times, 28 October 17; Peter Wood, ``Greying China Strains Social Safety 
Net, Healthcare System,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 2, 13 February 18, 2-3.
    \98\ For national laws and regulations prohibiting the practices of 
non-medically necessary gender determination testing and sex-selective 
abortion, see PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 35; National Health and 
Family Planning Commission et al., Regulations on Prohibiting Non-
Medically Necessary Sex Determination and Sex-Selective Abortion 
[Jinzhi fei yixue xuyao de tai'er xingbie jianding he xuanze xingbie 
rengong zhongzhi renshen de guiding], issued 28 March 16, effective 1 
May 16. For provincial regulations that ban non-medically necessary sex 
determination and sex-selective abortion, see, e.g., Hubei Province 
People's Congress Standing Committee, Hubei Province Population and 
Family Planning Regulations [Hubei sheng renkou yu jihua shengyu 
tiaoli], issued 1 December 02, amended 29 November 08, 30 July 10, 27 
March 14, 13 January 16, art. 31; Sichuan Province People's Congress 
Standing Committee, Sichuan Province Population and Family Planning 
Regulations [Sichuan sheng renkou yu jihua shengyu tiaoli], issued 2 
July 87, amended 15 December 93, 17 October 97, 26 September 02, 24 
September 04, 20 March 14, 22 January 16, art. 23.
    \99\ See, e.g., Yang Yang, ``Chinese Couples Want Boys--Trust Me, 
I'm a Fertility Doctor,'' Sixth Tone, 14 April 18; Linyi Municipality 
Lingang Economic Development Area, ``Interview With District Health and 
Family Planning Director Wang Leqian: Concentrate and Forge Ahead, 
Write a New Chapter for Health and Family Planning Work'' [Qu weisheng 
he jihua shengyu ju juzhang wang leqian fangtan: ningxin juli kaituo 
jinqu puxie weisheng jisheng gongzuo xin pianzhang], 24 November 17; Su 
Jianfeng and Lin Sufang, ``Houlong Township Carries Out Treasure the 
Girls Campaign To Crack Down on `Two Unnecessaries' '' [Houlong zhen 
kaizhan guan'ai nuhai daji ``liang fei'' xuanchuan huodong], Fujian 
Health and Family Planning News, 10 April 18.
    \100\ National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wenzhong xianghao, hao yu yuqi], 18 January 18.
    \101\ National Bureau of Statistics of China, ``National Economy 
Moved in the Direction of Steady Progress in 2015'' [2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao], 19 January 16.
    \102\ National Bureau of Statistics of China, ``National Economy 
Achieved a Good Start for the `13th Five-Year Plan' Period in 2016'' 
[2016 nian guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 
January 17; National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wenzhong xianghao, hao yu yuqi], 18 January 18; PRC Population and 
Family Planning Law [Zhonghua renmin gongheguo renkou yu jihua shengyu 
fa], passed 29 December 01, amended 27 December 15, effective 1 January 
16, art. 18. On December 27, 2015, the 12th National People's Congress 
Standing Committee amended the Population and Family Planning Law, 
which became effective on January 1, 2016, allowing all married couples 
to have two children.
    \103\ Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, Monkey Cage 
(blog), 30 April 14. See also Xuan Li, ``China's `Bare Branches': 
Unmarried Men Stuck Between Tradition and Capitalism,'' Scroll.in, 29 
January 17.
    \104\ Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, Monkey Cage 
(blog), 30 April 14; Peng Xunwen, ``Who Will Marry the 30 Million 
`Surplus Men' '' [3000 wan ``shengnan'' gen shui jiehun], People's 
Daily, 13 February 17; Xiao Shan, ``2030: 30 Million Bare Branches in 
China, Concerns About Crime'' [2030 nian: zhongguo guanggun da jun 3000 
wan you fanzui yinyou], Radio France Internationale, 13 February 17.
    \105\ Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, Monkey Cage 
(blog), 30 April 14; Peng Xunwen, ``Who Will Marry the 30 Million 
`Surplus Men' '' [3000 wan ``shengnan'' gen shui jiehun], People's 
Daily, 13 February 17; ``Millions of Chinese Males Face Difficulty 
Finding a Partner,'' CGTN, 11 March 17.
    \106\ See, e.g., Marcus Roberts, ``Bride Trafficking to China: 
Courtesy of the One Child Policy,'' MercatorNet, 26 October 17; 
``Myanmar Police Bust Over 200 Human Trafficking Cases in 2017,'' 
Coconuts Yangon, 11 December 17.
    \107\ See, e.g., Hong Tuyet, ``Vietnam Police Rescue 6 Trafficked 
Cambodian Women en Route to China,'' VnExpress International, 1 May 18; 
Cristina Maza, ``They Risked Everything To Escape Poverty. Then They 
Had To Escape Forced Marriage.,'' Huffington Post, 30 October 17.
    \108\ See, e.g., Thomas Maresca, ``Why the Overwhelming Majority of 
North Korean Defectors Are Women,'' USA Today, 10 December 17; Matthew 
Little, ``Many North Korean Women Face Forced Marriage in China, or 
Rape in North Korean Prisons,'' Epoch Times, 14 December 17.
    \109\ See, e.g., ``Vietnamese Bride Village, Youth Trafficked'' 
[Yuenan xinniang cun bei guaimai de qingchun], World Journal, 8 
February 18; Hong Tuyet, ``Vietnam Police Rescue 6 Trafficked Cambodian 
Women en Route to China,'' VnExpress International, 1 May 18.
    \110\ See, e.g., Jun Mai, ``How a Chinese Tourist Hotspot Is 
Helping To Trace China's Abducted Children,'' South China Morning Post, 
23 February 18; ``Tearful Reunion Highlights Plight of China's Missing 
Children,'' Agence France-Presse, reprinted in Asia One, 5 April 18; 
Christina Capatides, ``Family Reunites With Long-Lost Daughter After 
24-Year Search,'' CBS News, 5 April 18.
    \111\ Mao Yizhu and Zhan Yijia, ``Guangdong: A Very Large Child 
Trafficking Case, 26 People Sentenced in First Instance Judgment'' 
[Guangdong: yi qi te da guaimai ertong an yi shen xuanpan 26 ren bei 
panxing], Xinhua, 1 February 18; ``Child Trafficking Becoming More 
Serious, Parents Who Lost Their Children Blame Authorities for 
Dereliction of Duty and Expect Them To Severely Punish Kidnappers'' 
[Guaimai ertong ri jian yanzhong shi hai jiazhang ze dangju shizhi pan 
yancheng bangfei], Radio Free Asia, 1 February 18; Jinri Maoming 
(jinrimaoming), ``A Very Large Child Trafficking Case in Maoming, Some 
Sentenced to Death in First Instance Judgment! Satisfying to 
Everyone!'' [Maoming te da guaimai ertong an, yi shen you ren bei 
panchu sixing! da kuai ren xin!], Weibo Post, 30 January 18, 5:13 p.m.
    \112\ Mao Yizhu and Zhan Yijia, ``Guangdong: A Very Large Child 
Trafficking Case, 26 People Sentenced in First Instance Judgment'' 
[Guangdong: yi qi te da guaimai ertong an yi shen xuanpan 26 ren bei 
panxing], Xinhua, 1 February 18; ``Child Trafficking Becoming More 
Serious, Parents Who Lost Their Children Blame Authorities for 
Dereliction of Duty and Expect Them To Severely Punish Kidnappers'' 
[Guaimai ertong ri jian yanzhong shi hai jiazhang ze dangju shizhi pan 
yancheng bangfei], Radio Free Asia, 1 February 18.
    \113\ ``Child Trafficking Becoming More Serious, Parents Who Lost 
Their Children Blame Authorities for Dereliction of Duty and Expect 
Them To Severely Punish Kidnappers'' [Guaimai ertong ri jian yanzhong 
shi hai jiazhang ze dangju shizhi pan yancheng bangfei], Radio Free 
Asia, 1 February 18.


                                                Special Topic: 
                                                        Forced 
                                                  Evictions in 
                                                       Beijing 
                                                   Municipality
                                                Special Topic: 
                                                Forced 
                                                Evictions in 
                                                Beijing 
                                                Municipality

      Special Topic: Forced Evictions in Beijing Municipality \1\


       Authorities Carry Out Mass Evictions Following Deadly Fire

    In November 2017, authorities in Beijing municipality 
responded to a fire in a migrant neighborhood with a campaign 
of forced evictions. On November 18, 2017, a fire broke out in 
an apartment building in Xinjian No. 2 village, Xihongmen 
township, Daxing district, Beijing, killing 19 people.\2\ Of 
the 19 victims, 17 were migrants, meaning they were registered 
in localities outside of Beijing under the Chinese government's 
household registration (hukou) system.\3\ On November 20, the 
Beijing government officially launched a 40-day campaign of 
``major inspections, major sweeps, and major rectifications,'' 
\4\ which resulted in large-scale forced evictions and 
demolitions in migrant neighborhoods across Beijing.\5\ Videos 
posted online showed blocks of demolished buildings as well as 
police kicking in doors, smashing store windows, and destroying 
evictees' belongings.\6\ Affected residents reported being 
forced to leave their homes within three days,\7\ with some 
given a few hours' notice or less.\8\ Authorities reportedly 
cut water and electricity to force residents out of their 
homes,\9\ actions in contravention of the PRC Administrative 
Enforcement Law, which requires authorities carrying out 
evictions to provide time for residents to apply for legal 
redress, and forbids authorities from cutting access to 
utilities.\10\ Although the Commission did not observe official 
reports on the number of people evicted during the campaign, 
international media estimated that the evictions affected tens 
of thousands, most of whom were migrants from outside 
Beijing.\11\ In addition, according to government statistics, 
there were 132,000 fewer migrants in Beijing at the end of 2017 
compared to 2016.\12\
    Reports of migrant evictions continued to emerge from 
Beijing and other localities after November 2017. Radio Free 
Asia (RFA) reported another deadly fire in the Chaoyang 
district of Beijing on December 13, which was followed by 
additional forced evictions.\13\ In late December, officials in 
Yanjiao township, Sanhe city, Langfang municipality, Hebei 
province, which neighbors Beijing, evicted residents from 
several apartment buildings housing migrants, with police 
reportedly injuring some residents in the process.\14\ On 
January 1, 2018, RFA reported that authorities in Beijing and 
Hebei continued to conduct forced evictions.\15\ On January 24, 
Beijing municipal officials announced plans to demolish an 
additional 40 square kilometers of ``illegal structures'' in 
2018.\16\ In the summer of 2018, Beijing authorities reportedly 
closed or demolished garment factories and wholesale markets 
where many migrants worked.\17\

                Migrants, Locals, and the Public Respond

    Some migrants and locals attempted to confront local 
officials over the evictions.\18\ In one protest in Feijia 
village in Chaoyang district, a large group gathered outside a 
government office chanting: ``Violent evictions violate human 
rights.'' \19\ In addition, RFA reported that over 100 Beijing 
hukou-holding residents of Xinjian village blocked a road to 
protest the eviction campaign, which they asserted had left 
them homeless.\20\
    Non-governmental organizations (NGOs),\21\ companies,\22\ 
and individuals \23\ offered assistance to displaced migrants. 
For example, one report posted to social media described a 
local group of cycling enthusiasts who, after helping one of 
their evicted members move, posted a message on social media 
offering to help others.\24\ One group member described being 
inundated with phone calls, both from evictees requesting help 
and individuals offering assistance.\25\ He noted that he also 
received calls from across China thanking him for helping 
evicted migrants.\26\
    Internet users engaged in online debates and criticized the 
eviction campaign on Chinese social media. According to Chinese 
and international media, internet users widely shared images 
and videos of the migrant worker evictions on Chinese social 
media.\27\ Internet users reportedly criticized the evictions 
and the harsh tactics government officials employed,\28\ and 
social media users shared personal stories as well as social 
and legal analyses.\29\ Internet users also criticized as 
derogatory the use of the term ``low-end population'' (diduan 
renkou) in local government documents to describe the 
migrants.\30\ Groups of scholars, lawyers, and others organized 
and circulated online several open letters criticizing the 
evictions.\31\

    Party and Government Response Features Censorship and Repression

    On November 27, 2017, Beijing Communist Party Secretary Cai 
Qi convened a meeting of district-level committee secretaries 
to discuss public safety concerns in Beijing, stating that 
local governments should ``pay attention to means and methods'' 
while carrying out the eviction campaign and avoid 
``simplification'' and ``impatience.'' \32\ On December 12, Cai 
met with a group of service workers, noting that many migrants 
worked in service industries and had made contributions to 
Beijing's development.\33\
    Beyond its public statements, the government also responded 
by restricting domestic reporting on the evictions and 
censoring online discussion.\34\ China Digital Times published 
a leaked censorship directive instructing Web portals and news 
media not to repost articles or independently report on the 
evictions.\35\ The microblog site Weibo blocked searches for 
``low-end population,'' and the social media platform WeChat 
deleted posts using the term.\36\ Authorities also censored 
open letters \37\ and other articles posted online discussing 
the evictions,\38\ as well as some of the messages civil 
society groups posted offering assistance to evicted 
migrants.\39\
    Authorities detained an artist for sharing videos of the 
evictions and also detained six others, reportedly for helping 
the artist flee. The Beijing-based artist Hua Yong filmed 
demolished neighborhoods,\40\ his interviews with evictees,\41\ 
and local Beijing hukou-holders' disputes with local 
officials,\42\ posting the footage to social media.\43\ After 
local officials attempted to stop Hua from filming a meeting, 
residents helped Hua flee the area.\44\ On or around December 
10, authorities detained at least six residents who had helped 
Hua leave,\45\ and on December 15, authorities detained Hua in 
Tianjin municipality.\46\ Authorities reportedly released all 
seven on bail \47\ and forced Hua to leave Beijing and return 
to his hometown in another province.\48\ Authorities reportedly 
detained Hua again in July 2018 in connection with the 
arbitrary detention of a woman who protested against President 
and Party General Secretary Xi Jinping.\49\

          Context: The Hukou System and Urbanization Policies

    The hukou system, established in 1958,\50\ classified 
Chinese citizens as being urban or rural and effectively tied 
them to a locality.\51\ According to the National Bureau of 
Statistics of China, in 2017, 291 million people in China did 
not live in their hukou location.\52\ Yet the provision of 
certain government services, such as education, remains tied to 
one's hukou location, which is, in general, inherited from 
one's parents.\53\ In 2014, the government began to reform the 
hukou system to gradually eliminate the urban-rural distinction 
and allow some migrants to obtain hukou in smaller cities.\54\ 
Chinese sociologist Sun Liping \55\ has noted, however, that 
due to uneven development across different regions in China, 
``resources and opportunities are mainly concentrated in a few 
large cities.'' \56\
    The Chinese government continues to use the hukou system to 
restrict internal migration,\57\ and obtaining hukou in large 
cities such as Beijing remains difficult.\58\ In April 2018, 
the Beijing municipal government issued rules governing 
applications for Beijing hukou that awards points to applicants 
based on criteria such as education level and home 
ownership.\59\ In order to apply, residents must have 
contributed to social insurance in Beijing for seven 
consecutive years.\60\ Thus, migrants working in industries 
that often fail to provide social insurance in accordance with 
the PRC Social Insurance Law,\61\ like construction \62\ and 
courier services,\63\ will be ineligible to apply for a Beijing 
hukou.\64\ [For more information on social insurance, see 
Section II--Worker Rights.]
    Some observers viewed the eviction campaign that began in 
November 2017 as part of the Beijing government's long-term 
plan to limit the population of Beijing.\65\ In September 2017, 
central authorities approved Beijing municipal authorities' 
Beijing General City Plan (2016-2035),\66\ which sets a cap for 
Beijing's population at 23 million by 2020.\67\ Chinese media 
noted that the fire seemed to have accelerated existing 
demolition plans.\68\ In the months leading up to the fire, 
Beijing authorities had reportedly demolished schools for 
migrant children \69\ and markets and shops where many migrants 
worked.\70\ Although the Beijing government issued a draft 
opinion in May 2018 calling for the expansion of dormitories 
for migrant workers, the draft opinion specifies that the 
addition of these rental units must conform to the general city 
plan.\71\
    Beijing is not the only large city in China to set 
population limits, despite reports of worker shortages in major 
cities in some sectors.\72\ For example, in December 2017, 
central authorities approved a plan from Shanghai municipality 
to cap that city's population at approximately 25 million by 
2035.\73\ In January 2018, officials at a State Council 
Standing Committee meeting discussed encouraging migrant 
workers to return to the countryside to start businesses as 
part of the government's development strategy for rural 
areas.\74\ According to government statistics, the populations 
of both Beijing and Shanghai declined in 2017,\75\ with one 
expert attributing the decline in part to efforts in both 
cities to evict migrants.\76\
    Chinese authorities have a history of carrying out forced 
evictions in the name of urban development.\77\ International 
rights organizations documented widespread forced evictions 
prior to the 2008 Beijing Olympics and Expo 2010 in Shanghai 
municipality.\78\ In 2014, the UN Committee on Economic, Social 
and Cultural Rights urged China ``to ensure that any relocation 
necessary for city renewal is carried out after prior 
consultation with the affected individuals . . ..'' \79\

         International Human Rights Standards and Domestic Law

    Actions taken by Chinese government officials enforcing the 
eviction campaign in Beijing contravene both international 
standards \80\ and Chinese law.\81\ In addition, the reported 
censorship and restrictions on the press and civil society 
during the eviction campaign violate international human rights 
standards guaranteeing freedom of expression \82\ and 
association.\83\ Restrictions on movement and discrimination 
arising from the hukou system contravene international human 
rights standards guaranteeing freedom of residence.\84\


                                                Special Topic: 
                                                        Forced 
                                                  Evictions in 
                                                       Beijing 
                                                   Municipality
                                                Special Topic: 
                                                Forced 
                                                Evictions in 
                                                Beijing 
                                                Municipality
    Notes to Section II--Special Topic: Forced Evictions in Beijing 
Municipality

    \1\ For more in-depth analysis of this topic, see ``Campaign of 
Forced Evictions in Beijing Contravenes International Human Rights 
Standards,'' Congressional-Executive Commission on China, 14 March 18.
    \2\ ``List of Victims of Fire in Daxing, Beijing, Made Public, 
Police Criminally Detain 18'' [Beijing daxing huozai yu'nanzhe mingdan 
gongbu jingfang xingju 18 ren], People's Daily, 20 November 17; 
``Citywide Launch of Major Inspections, Major Sweeps, and Major 
Rectifications of Safety Risks'' [Quanshi kaizhan anquan yinhuan da 
paicha da qingli da zhengzhi], Beijing News, 20 November 17; Jiang 
Chenglong and Cui Jia, ``Beijing Continues Its Safety Crackdown in Wake 
of Fire,'' China Daily, 27 November 17; Zheping Huang, ``What You Need 
To Know About Beijing's Crackdown on Its `Low-End Population,' '' 
Quartz, 27 November 17; Benjamin Haas, ``China: `Ruthless' Campaign To 
Evict Beijing's Migrant Workers Condemned,'' Guardian, 26 November 17.
    \3\ ``List of Victims of Fire in Daxing, Beijing Announced, Police 
Criminally Detain 18'' [Beijing daxing huozai yunanzhe mingdan gongbu 
jingfang xingju 18 ren], People's Daily, 20 November 17; Benjamin Haas, 
``China: `Ruthless' Campaign To Evict Beijing's Migrant Workers 
Condemned,'' Guardian, 26 November 17. For more information on migrant 
workers and China's hukou system, see, e.g., China Labour Bulletin, 
``Migrant Workers and Their Children,'' last visited 20 June 18; Mary 
Gallagher, Authoritarian Legality in China: Law, Workers, and the State 
(Cambridge: Cambridge University Press, 2017), 2-4, 7-8, 12-13; Cara 
Wallis, ``Hukou Reform and China's Migrant Workers,'' University of 
Nottingham, Asia Research Institute, Asia Dialogue, 10 October 16.
    \4\ Beijing Administration of Work Safety Committee Circular on 
Launch of Special Campaign of Major Investigations, Major Cleanup, and 
Major Rectification of Safety Risks [Beijing shi anquan shengchan 
weiyuanhui guanyu kaizhan anquan yinhuan da paicha da qingli da 
zhengzhi zhuanxiang xingdong de tongzhi], issued 19 November 17, sec. 
4.
    \5\ See, e.g., ``Thousands of Migrant Workers in Beijing Forcibly 
Evicted, Resistance Mounted in at Least One Location,'' China Change, 
29 November 17; Matt Rivers and Serenitie Wang, ``Beijing Forces 
Migrant Workers From Their Homes in `Savage' Demolitions,'' CNN, 9 
December 17; China Digital Times, ``Sensitive Word of the Week: Low-End 
Population,'' 30 November 17.
    \6\ See, e.g., Boxun Watch, `` `Chinese Exclusion' Inside China, 
Beijing Violently Drives Out `Low-End Population' '' [Jingnei ``pai 
hua'' beijing baoli qugan ``diduan renkou''] [Video file], YouTube, 24 
November 17; Boxun Watch, `` `Chinese Exclusion' Inside China, Beijing 
Violently Evicts `Low-End Population' (2)'' [Jingnei ``pai hua'' 
beijing baoli qugan ``diduan renkou'' (2)] [Video file], YouTube, 26 
November 17; RFA Chinese, ``Beijing's Low-End Population: We Are Also 
Chinese, Why Do They Treat Us Like This? '' [Beijing diduan renkou: 
women ye shi zhongguo ren, weishenme yao zheme duidai women?] [Video 
file], YouTube, 28 November 17. See also videos posted to Beijing-based 
artist Hua Yong's YouTube account on November 29 and 30, 2017, e.g., 
Hua Yong, ``After the Major Fire (14)'' [Da huo zhihou (14)] [Video 
file], YouTube, 29 November 17.
    \7\ Wang Shan, ``Investigation--Outsiders After the Major Fire: 
Where Should We Go? '' [Diaocha--da huo zhihou de yixiang ren: women 
gai dao nali qu?], Sanlian Life Week, 27 November 17; Huang Ziyi and Li 
Rongde, ``Thousands Evicted in Beijing Crackdown After Fatal Fire,'' 
Caixin, 24 November 17; Matt Rivers and Serenitie Wang, ``Beijing 
Forces Migrant Workers From Their Homes in `Savage' Demolitions,'' CNN, 
9 December 17.
    \8\ Emily Wang and Yi-Ling Liu, ``Beijing Evictions of Migrant 
Workers Stir Widespread Anger,'' Associated Press, 29 November 17; Jun 
Mai, `` `They Came Banging and Kicking': Beijing Airport Workers Swept 
Up in Fire Safety Crackdown,'' South China Morning Post, 29 November 
17; Benjamin Haas, ``China: `Ruthless' Campaign To Evict Beijing's 
Migrant Workers Condemned,'' Guardian, 26 November 17.
    \9\ Huang Ziyi and Li Rongde, ``Thousands Evicted in Beijing 
Crackdown After Fatal Fire,'' Caixin, 24 November 17; Li Rongde and 
Yuan Suwen, ``In Rare Move, State Media Publishes Veiled Disapproval of 
Beijing's Fire Safety Campaign,'' Caixin, 27 November 17; Haowai Zhi 
Wai (wangjxclub), ``In Dreams I Did Not Know I Was a Visitor--Swan 
Rescue Team and People in the Cold Night'' [Meng li bu zhi shen shi 
ke--tian'e jiuyuan dui yu han ye li de ren], WeChat post, 28 November 
17.
    \10\ PRC Administrative Enforcement Law [Zhonghua renmin gongheguo 
xingzheng qiangzhi fa], passed 30 June 11, effective 1 January 12, 
arts. 43-44.
    \11\ ``Ripples From Major Beijing Fire, 100 Thousand Migrants 
Expelled From the City'' [Beijing da huo yubo dangyang quanshi 10 wan 
waidi ren bei zhu], Radio Free Asia, 23 November 17; Chris Buckley, 
``Why Parts of Beijing Look Like a Devastated War Zone,'' New York 
Times, 30 November 17; Lucy Hornby and Archie Zhang, ``Beijing's 
Migrant Expulsion Prompts Civic Outcry,'' Financial Times, 28 November 
17; ``Thousands of Migrant Workers in Beijing Forcibly Evicted, 
Resistance Mounted in at Least One Location,'' China Change, 29 
November 17. See also China Labour Bulletin, ``Migrant Worker Families 
Face Eviction After 19 Die in Beijing Fire,'' 23 November 17.
    \12\ Beijing Municipal Bureau of Statistics and Survey Office of 
the National Bureau of Statistics in Beijing, ``Beijing Municipality 
2016 Citizen Economic and Social Development Statistical Bulletin'' 
[Beijing shi 2016 nian guomin jingji he shehui fazhan tongji gongbao], 
25 February 17, sec. 1; Beijing Municipal Bureau of Statistics and 
Survey Office of the National Bureau of Statistics in Beijing, 
``Beijing Municipality 2017 Citizen Economic and Social Development 
Statistical Bulletin'' [Beijing shi 2017 nian guomin jingji he shehui 
fazhan tongji gongbao], 27 February 18, sec. 1.
    \13\ ``After Fire in Beijing's Shibalidian Township, More Violent 
Evictions of the `Low-End Population,' Citizens Jointly Sign Letter 
Urging Cai Qi To Resign'' [Beijing shibalidian xiang huozai hou 
``diduan renkou'' zai zao baoli quzhu gongmin lianshu duncu cai qi 
cizhi], Radio Free Asia, 14 December 17.
    \14\ Shen Fan and Li Rongde, ``Beijing's Migrant Eviction Frenzy 
Spills Over to Hebei,'' Caixin, 27 December 17; ``Beijing `Low-End' 
Campaign Spreads, Outsiders Violently Driven Out of Sanhe, Hebei'' 
[Beijing ``diduan renkou'' xingdong manyan hebei sanhe baoli qugan 
wailai renkou], Radio Free Asia, 30 December 17.
    \15\ ``Chinese Artist Who Filmed Beijing's Mass Evictions Now Faces 
Eviction Himself,'' Radio Free Asia, 1 January 18.
    \16\ Wu Mengda and Ji Xiaobo, ``Beijing: Plans To Demolish 40 
Square Kilometers of Illegal Structures, Return 1600 Hectares to 
Natural Space in 2018'' [Beijing: 2018 nian jihua chai wei 4000 wan 
pingfang mi huan lu 1600 gongqing], Xinhua, 24 January 18; ``Beijing To 
Demolish Thousands of `Illegal Structures,' '' BBC, 24 January 18.
    \17\ ``Beijing Residents Fight Back Over Renewed Forced Evictions, 
Demolitions,'' Radio Free Asia, 19 July 18; Liu Caiyu, ``Wholesale 
Markets in Beijing Close, Vendors Leave in `Non-Capital Industry' 
Reshuffle,'' Global Times, 6 August 18.
    \18\ Chris Buckley, ``Why Parts of Beijing Look Like a Devastated 
War Zone,'' New York Times, 30 November 17; Austin Ramzy, ``Artist 
Flees Beijing After Filming Devastation of Mass Evictions,'' New York 
Times, 12 December 17; ``Hunted After Reporting on Daxing, Beijing, 
Fire, Artist Hua Yong Escapes Beijing'' [Baodao beijing daxing huozai 
zao soubu yishujia hua yong taoli beijing], Radio Free Asia, 9 December 
17.
    \19\ Eva Dou, ``Rare Protests in Beijing Condemn Forced 
Evictions,'' Wall Street Journal, 10 December 17; Tom Phillips, 
``Hundreds Take Part in Rare Protest in Beijing Over Migrant 
Crackdown,'' Guardian, 10 December 17.
    \20\ ``Hunted After Reporting on Daxing, Beijing, Fire, Artist Hua 
Yong Escapes Beijing'' [Baodao beijing daxing huozai zao soubu yishujia 
hua yong taoli beijing], Radio Free Asia, 9 December 17. For more 
information on the economic relationship between local hukou holders 
and migrant workers in China's cities, see commentary by David 
Bandurski in ``The Beijing Migrants Crackdown: A ChinaFile 
Conversation,'' Asia Society, ChinaFile, 30 November 17.
    \21\ Ye Bing, ``Chinese Intellectuals Jointly Demand Beijing End 
Evictions of Migrants'' [Zhongguo zhishifenzi lianming yaoqiu beijing 
tingzhi qugan wailai renkou], Voice of America, 28 November 17; Hai 
Yan, ``Civil Society in Beijing Spontaneously Offer Assistance to `Low-
End Population,' Officials Not Pleased'' [Minjian zifa jiuzhu beijing 
``diduan renkou'' guan bu yue], Voice of America, 27 November 17; Simon 
Denyer and Luna Lin, ``Mass Evictions in Freezing Beijing Winter Sparks 
Public Outrage but Little Official Remorse,'' Washington Post, 27 
November 17.
    \22\ Hai Yan, ``Civil Society in Beijing Spontaneously Offer 
Assistance to `Low-End Population,' Officials Not Pleased'' [Minjian 
zifa jiuzhu beijing ``diduan renkou'' guan bu yue], Voice of America, 
27 November 17; Zheping Huang, ``What You Need To Know About Beijing's 
Crackdown on Its `Low-End Population,' '' Quartz, 27 November 17.
    \23\ Haowai Zhi Wai (wangjxclub), ``In Dreams I Did Not Know I Was 
a Visitor--Swan Rescue Team and People in the Cold Night'' [Meng li bu 
zhi shen shi ke--tian'e jiuyuan dui yu han ye li de ren], WeChat post, 
28 November 17; Ye Bing, ``Chinese Intellectuals Jointly Demand Beijing 
End Evictions of Migrants'' [Zhongguo zhishifenzi lianming yaoqiu 
beijing tingzhi qugan wailai renkou], Voice of America, 28 November 17.
    \24\ Haowai Zhi Wai (wangjxclub), ``In Dreams I Did Not Know I Was 
a Visitor--Swan Rescue Team and People in the Cold Night'' [Meng li bu 
zhi shen shi ke--tian'e jiuyuan dui yu han ye li de ren], WeChat post, 
28 November 17.
    \25\ Ibid.
    \26\ Ibid.
    \27\ Freedom House, ``China Media Bulletin: Holiday Crackdown, 
Beijing Netizen Outcries, Skype App Removal (Issue No. 124),'' 9 
December 17; Li Rongde and Yuan Suwen, ``In Rare Move, State Media 
Publishes Veiled Disapproval of Beijing's Fire Safety Campaign,'' 
Caixin, 27 November 17; Lucy Hornby and Archie Zhang, ``Beijing's 
Migrant Expulsion Prompts Civic Outcry,'' Financial Times, 28 November 
17; Ye Bing, ``Chinese Intellectuals Jointly Demand Beijing End 
Evictions of Migrants'' [Zhongguo zhishifenzi lianming yaoqiu beijing 
tingzhi qugan wailai renkou], Voice of America, 28 November 17. 
Although the government has deleted many of the original social media 
posts, videos of the evictions can still be found on websites outside 
China. See, e.g., Boxun Watch, `` `Chinese Exclusion' Inside China, 
Beijing Violently Evicts `Low-End Population' '' [Jingnei ``pai hua'' 
beijing baoli qugan ``diduan renkou''] [Video file], YouTube, 24 
November 17; Boxun Watch, `` `Chinese Exclusion' Inside China, Beijing 
Violently Evicts `Low-End Population' (2)'' [Jingnei ``pai hua'' 
beijing baoli qugan ``diduan renkou'' (2)] [Video file], YouTube, 26 
November 17; RFA Chinese, ``Beijing's `Low-End Population': `We Are 
Also Chinese, Why Do They Treat Us Like This? ' '' [Beijing ``diduan 
renkou'': ``women ye shi zhongguoren, weishenme yao zheme duidai women? 
''] [Video file], YouTube, 28 November 17. See also videos posted to 
Beijing-based artist Hua Yong's Twitter account (@Huayong798) on 
November 29 and 30, 2017.
    \28\ ``Safety Remediation After Major Fire in Daxing, Beijing, 
State Media Denies Using the Opportunity To Clean Out `Low-End 
Population' '' [Beijing daxing da huo hou anquan zhengzhi guan mei 
fouren jie ji qingli ``diduan renkou''], BBC, 24 November 17; Freedom 
House, ``China Media Bulletin: Holiday Crackdown, Beijing Netizen 
Outcries, Skype App Removal (Issue No. 124),'' 9 December 17; ``The 
Class Allegiance of China's De Facto Voters,'' Chublic Opinion (blog), 
10 January 18.
    \29\ See, e.g., Haowai Zhi Wai (wangjxclub), ``In Dreams I Did Not 
Know I Was a Visitor--Swan Rescue Team and People in the Cold Night'' 
[Meng li bu zhi shen shi ke--tian'e jiuyuan dui yu han ye li de ren], 
WeChat post, 28 November 17; Sun Liping (Sun liping shehui guancha), 
``Sun Liping: It Was a Tragedy, but Not a Reason for Clearing the 
Population'' [Sun liping: na jian shi shi beiju, dan bing bushi qingli 
renkou de liyou], WeChat post, 21 November 17; Wang Liuyi, ``Analyzing 
the Legality of Beijing's `Winter Cleanup Campaign' '' [Beijing shi 
``dongji qingli xingdong'' de hefaxing fenxi], WeChat post, reprinted 
in China Digital Times, 28 November 17. For additional analyses of 
online discussion of the mass evictions, see ``The Class Allegiance of 
China's De Facto Voters,'' Chublic Opinion (blog), 10 January 18; China 
Digital Times, ``Sensitive Word of the Week: Low-End Population,'' 30 
November 17; Oiwan Lam, ``After Authorities Evict Beijing's `Low-End' 
Residents, Chinese Ask: Where Is the Humanity? '' Global Voices, 29 
November 17.
    \30\ ``The Class Allegiance of China's De Facto Voters,'' Chublic 
Opinion (blog), 10 January 18; Freedom House, ``China Media Bulletin: 
Holiday Crackdown, Beijing Netizen Outcries, Skype App Removal (Issue 
No. 124),'' 9 December 17. See also ``The Making of the `Low-End 
Population,' '' University of Hong Kong, Journalism & Media Studies 
Centre, China Media Project, 30 November 17.
    \31\ ``Letter From Intellectuals to Central Committee of the 
Communist Party, NPC, State Council, and NPPCC on Recent Large Scale 
Evictions of the `Outsider Population' in Beijing'' [Zhishijie renshi 
jiu jinri beijing da guimo qugan ``wailai renkou'' shijian zhi 
zhonggong zhongyang, quanguo renda, guowuyuan, quanguo zhengxie xin], 
reprinted in Rights Defense Network, 25 November 17; ``[Show] 
Understanding, Kindness, Tolerance, and Care for Them! An Appeal for 
Immediately Ending Violent Evictions of `Low-End Groups,' Immediately 
Opening Relief Centers'' [Lijie, shandai, kuanrong, guan'ai tamen!----
guanyu liji tingzhi cubao qugan ``diduan renqun'', liji kaifang jiuzhu 
zhongxin de huyu], reprinted in Rights Defense Network, 25 November 17; 
``Letter Urging Beijing Communist Party Secretary Mr. Cai Qi To 
Resign'' [Duncu beijing shiwei shuji cai qi xiansheng cizhi shu], 13 
December 17, reprinted in China Banned Book News, 15 December 17. See 
also Ye Bing, ``Chinese Intellectuals Jointly Demand Beijing End 
Evictions of Migrants'' [Zhongguo zhishifenzi lianming yaoqiu beijing 
tingzhi qugan wailai renkou], Voice of America, 28 November 17; ``After 
Fire in Beijing's Shibalidian Township, More Violent Evictions of the 
`Low-End Population,' Citizens Jointly Sign Letter Urging Cai Qi To 
Resign'' [Beijing shibalidian xiang huozai hou ``diduan renkou'' zai 
zao baoli quzhu gongmin lianshu duncu cai qi cizhi], Radio Free Asia, 
14 December 17; ``Full Text of Request From Jiang Ping, He Weifang, and 
Other Scholars and Lawyers to the Standing Committee of the National 
People's Congress for a Review of the Constitutionality of the Beijing 
Government's Campaign To Expel Nonresidents and Relevant Administrative 
Documents'' [Jiang ping, he weifang deng xuezhe lushi dui beijing shi 
zhengfu qugan wailai jumin de xingdong ji qi yiju de xingzheng wenjian 
xiang quanguo rendahui changweihui tiqing hexianxing shencha de 
quanwen], 19 December 17, reprinted in Rights Defense Network, 24 
December 17.
    \32\ Xu Feipeng, ``At Meeting of District Committee Secretaries, 
Cai Qi Stresses Defending the Nation, Guaranteeing Peace'' [Cai qi zai 
quwei shuji hui shang qiangdiao jianchi shoutu jinze bao yifang 
ping'an], Qianlong, 27 November 17.
    \33\ Wang Hao and Wu Hongli, ``Cai Qi Greets Service Workers, 
Emphasizes Our City Can't Operate Without Ordinary Laborers, Chen 
Jining Also Greets [Them]'' [Cai qi kanwang weiwen shenghuoxing fuwu ye 
laodongzhe shi qiangdiao women zhe zuo chengshi libukai putong 
laodongzhe chen jining yitong weiwen], Qianlong, 12 December 17.
    \34\ For more information on the censorship of online discussion of 
the migrant worker evictions in Beijing, see Zheping Huang, ``China's 
Evicting Mentions of Its `Low-End' Migrants From Cyberspace,'' Quartz, 
30 November 17; Freedom House, ``China Media Bulletin: Holiday 
Crackdown, Beijing Netizen Outcries, Skype App Removal (Issue No. 
124),'' 9 December 17.
    \35\ China Digital Times, ``Minitrue: Beijing Municipality Campaign 
To Rectify [and] Clean Up Illegal Structures'' [Zhenli bu: beijing shi 
zhengzhi qingtui wei jian xingdong], 28 November 17; China Digital 
Times, ``Minitrue: Control Coverage, Commentary on Evictions,'' 28 
November 17.
    \36\ China Digital Times, ``Sensitive Word of the Week: Low-End 
Population,'' 30 November 17; ``After Fire in Beijing's Shibalidian 
Township, More Violent Evictions of the `Low-End Population,' Citizens 
Jointly Sign Letter Urging Cai Qi To Resign'' [Beijing shibalidian 
xiang huozai hou `diduan renkou' zai zao baoli quzhu gongmin lianshu 
duncu cai qi cizhi], Radio Free Asia, 14 December 17.
    \37\ Eva Dou and Dominique Fong, ``Homeward Bound: Beijing Boots 
Migrant Workers To Trim Its Population,'' Wall Street Journal, 29 
November 17; ``After Fire in Beijing's Shibalidian Township, More 
Violent Evictions of the `Low-End Population,' Citizens Jointly Sign 
Letter Urging Cai Qi To Resign'' [Beijing shibalidian xiang huozai hou 
``diduan renkou'' zai zao baoli quzhu gongmin lianshu duncu cai qi 
cizhi], Radio Free Asia, 14 December 17; ``The Class Allegiance of 
China's De Facto Voters,'' Chublic Opinion (blog), 10 January 18.
    \38\ The U.S.-based website China Digital Times collects and 
republishes censored articles. See, e.g., ``Zhang Zanbo--A 
Disheartening Day: Recording the Expulsion of the `Low-End Population' 
'' [Zhang zanbo--ling ren jusang de yi tian: jilu qugan ``diduan 
renkou''], Weibo post, reprinted in China Digital Times, 2 December 17; 
Wang Liuyi, ``Analyzing the Legality of Beijing's `Winter Cleanup 
Campaign' '' [Beijing shi ``dongji qingli xingdong'' de hefaxing 
fenxi], WeChat post, reprinted in China Digital Times, 28 November 17; 
Xiong Pingping, ``After Clearing Out, Local Beijing Residents Getting 
Anxious: Villages Emptied, Rental Income Gone'' [Qingtui hou bentu 
beijing ren kaishi jiaolu: cunzi kongle zujin meile], Caijing, 25 
December 17, reprinted in China Digital Times, 7 January 18.
    \39\ Ye Bing, ``Chinese Intellectuals Jointly Demand Beijing End 
Evictions of Migrants'' [Zhongguo zhishifenzi lianming yaoqiu beijing 
tingzhi qugan wailai renkou], Voice of America, 28 November 17; Nectar 
Gan, ``Welcome to Beijing: Where Helping the Homeless Can Get You 
Evicted,'' South China Morning Post, 27 November 17.
    \40\ Hua Yong, ``After the Major Fire (14)'' [Da huo zhihou (14)] 
[Video file], YouTube, 29 November 17; Hua Yong, ``After the Major Fire 
(15A)'' [Da huo zhihou (15A)] [Video file], YouTube, 29 November 17; 
Hua Yong, ``After the Major Fire (16)'' [Da huo zhihou (16)] [Video 
file], YouTube, 30 November 17.
    \41\ Hua Yong, ``After the Major Fire (10)'' [Da huo zhihou (10)] 
[Video file], YouTube, 29 November 17; Hua Yong, ``After the Major Fire 
(11 Part 1)'' [Da huo zhihou (11 shang)] [Video file], YouTube, 29 
November 17.
    \42\ Hua Yong, ``After the Major Fire 2017-12-04 (2)'' [Da huo 
zhihou 2017-12-04 (2)] [Video file], YouTube, 4 December 17; Hua Yong, 
``2017-12-07 Hua Yong at the Scene (18)'' [2017-12-07 hua yong zai 
xianchang (18)] [Video file], YouTube, 7 December 17.
    \43\ Videos can be found at Hua Yong's YouTube account and Twitter 
account. See also Austin Ramzy, ``Artist Flees Beijing After Filming 
Devastation of Mass Evictions,'' New York Times, 12 December 17.
    \44\ Austin Ramzy, ``Artist Flees Beijing After Filming Devastation 
of Mass Evictions,'' New York Times, 12 December 17; Rights Defense 
Network, ``Five Who Helped Hua Yong Escape From Xinjian Village, 
Beijing, Detained, Hua Yong Calls for [Their] Rescue'' [Beijing xinjian 
cun 5 ming husong hua yong de cunmin bei zhuabu hua yong yu guanzhu 
jiuyuan], 12 December 17. The following videos show an official 
attempting to remove Hua and local Beijing residents helping Hua to 
flee the area: Hua Yong, ``2017-12-07 Hua Yong at the Scene (18)'' 
[2017-12-07 hua yong zai xianchang (18)] [Video file], YouTube, 7 
December 17; Hua Yong, ``2017-12-07 Hua Yong at the Scene (19)'' [2017-
12-07 hua yong zai xianchang (19)] [Video file], YouTube, 7 December 
17; Hua Yong, ``2017-12-07 Hua Yong at the Scene (20)'' [2017-12-07 hua 
yong zai xianchang (20)] [Video file], YouTube, 7 December 17.
    \45\ Rights Defense Network, ``Five Who Helped Hua Yong Escape From 
Xinjian Village, Beijing, Detained, Hua Yong Calls for [Their] Rescue'' 
[Beijing xinjian cun 5 ming husong hua yong de cunmin bei zhuabu hua 
yong yu guanzhu jiuyuan], 12 December 17; Rights Defense Network, ``Hua 
Yong Visits 6 Criminally Detained Villagers From Xinjian Village, 
Beijing, Calls on Everyone To Follow [the Case] and Provide Legal Aid'' 
[Hua yong tanfang beijing xinjian cun 6 ming zao xingju cunmin yu gejie 
guanzhu bing yu falu jiuyuan], 24 December 17. For more information, 
see the Commission's Political Prisoner Database records 2018-00042 for 
Gu Tianjin, 2018-00043 for Hu Dehua, 2018-00044 for Hu Fuqiang, 2018-
00045 for Liu Jinying, 2018-00046 for Shen Deli, and 2018-00047 for 
Zhang Shudong.
    \46\ ``Hua Yong Filmed `Low-End Population' Evictions, Is Detained, 
Citizens Protest in Solidarity'' [Hua yong paishe ``diduan renkou'' bei 
quzhu shipin zao zhuabu gongmin shangjie ju pai shengyuan], Radio Free 
Asia, 17 December 17. For more information on Hua Yong, see the 
Commission's Political Prisoner Database record 2018-00054. Hua 
recorded a series of videos in Tianjin prior to his detention. See, 
e.g., Hua Yong (huayong798), Twitter post, 15 December 17, 6:33 a.m.; 
Hua Yong (huayong798), Twitter post, 15 December 17, 6:55 a.m.; Hua 
Yong (huayong798), Twitter post, 15 December 17, 7:07 a.m.
    \47\ By releasing the seven individuals on bail (qubao houshen or 
``guarantee pending further investigation''), authorities may continue 
to restrict their freedom of movement, summon them for further 
questioning, and monitor them for up to 12 months. For a description of 
bail (qubao houshen), also translated as ``guarantee pending further 
investigation,'' under Chinese legal provisions, see Human Rights in 
China, ``HRIC Law Note: Five Detained Women Released on `Guarantee 
Pending Further Investigation,' '' 13 April 15. For relevant Chinese 
legal provisions, see PRC Criminal Procedure Law [Zhonghua renmin 
gongheguo xingshi susong fa], passed 1 July 79, amended 17 March 96, 14 
March 12, effective 1 January 13, arts. 65-72, 77; Ministry of Public 
Security, Public Security Procedural Provisions on Handling Criminal 
Cases [Gong'an jiguan banli xingshi anjian chengxu guiding], issued 13 
December 12, effective 1 January 13, arts. 77, 85-86, 89.
    \48\ ``After Two Days' Criminal Detention, Hua Yong Released on 
Bail, Flew to Chengdu To Celebrate Daughter's Birthday'' [Hua yong bei 
xingju liang ri hou qubao feidi chengdu peitong nu'er guo shengri], 
Radio Free Asia, 18 December 17; LifeTime Horizons (lifetimeusa), 
Twitter post, 18 December 17, 5:28 a.m.; Rights Defense Network, 
``Monthly Report of Political Prisoners and Prisoners of Conscience 
Detained in Mainland China'' [Zhongguo dalu zai ya zhengzhi fan, 
liangxin fan yuedu baogao], 31 May 18; Civil Rights & Livelihood Watch, 
``Artist Hua Yong Driven Away for Social Stability, Forced To Leave 
Beijing'' [Huajia hua yong zao weiwen qugan bei po banli beijing], 2 
April 18.
    \49\ ``Beijing Artist Under House Arrest in Remote Corner of 
China's Yunnan,'' Radio Free Asia, 9 August 18. For more information on 
the woman, Dong Yaoqiong, see the Commission's Political Prisoner 
Database record 2018-00343.
    \50\ National People's Congress Standing Committee, PRC Regulations 
on Household Registration [Zhonghua renmin gongheguo hukou dengji 
tiaoli], issued and effective 9 January 58.
    \51\ See, e.g., Hongbin Li et al., ``Human Capital and China's 
Future Growth,'' Journal of Economic Perspectives, Vol. 31, No. 1 
(Winter 2017), 28; Yang Song, ``Hukou-Based Labour Market 
Discrimination and Ownership Structure in Urban China,'' Urban Studies, 
Vol. 53(8) (2016), 1658; Spencer Sheehan, ``China's Hukou Reforms and 
the Urbanization Challenge,'' The Diplomat, 22 February 17. For more 
information on China's hukou system, see CECC, 2017 Annual Report, 5 
October 17, 169-70.
    \52\ National Bureau of Statistics of China, ``The Economy Was 
Stable in 2017, and Exceeded Expectations'' [2017 nian jingji yunxing 
wenzhong xianghao, hao yu yuqi], 18 January 18.
    \53\ See, e.g., Hongbin Li et al., ``Human Capital and China's 
Future Growth,'' Journal of Economic Perspectives, Vol. 31, No. 1 
(Winter 2017), 28; Yang Song, ``Hukou-Based Labour Market 
Discrimination and Ownership Structure in Urban China,'' Urban Studies, 
Vol. 53(8) (2016), 1658; China Labour Bulletin, ``Migrant Workers and 
Their Children,'' last visited 2 February 18; Eli Friedman, Insurgency 
Trap: Labor and Politics in Postsocialist China (Ithaca: Cornell 
University Press, 2014), 14.
    \54\ State Council, Opinion on Further Carrying Out Reform of the 
Household Registration System [Guowuyuan guanyu jin yi bu tuijin huji 
zhidu gaige de yijian], issued 30 July 14, paras. 4-9; ``China To Help 
100m Settle in Cities,'' Xinhua, reprinted in China Daily, 30 July 14; 
State Council General Office, ``Plan Promoting 100 Million Individuals 
in Cities Without Household Registration To Obtain Hukou'' [Tuidong 1 
yi fei huji renkou zai chengshi luohu fang'an], issued 30 September 16, 
paras. 4-6; China Digital Times, ``Beijing To Scrap Urban-Rural 
Residency Distinction,'' 21 September 16.
    \55\ China Digital Times, ``Person of the Week: Sun Liping,'' 8 
June 17.
    \56\ Sun Liping (Sun liping shehui guancha), ``Sun Liping: It Was a 
Tragedy, but Not a Reason for Clearing the Population'' [Sun liping: na 
jian shi shi beiju, dan bing bushi qingli renkou de liyou], WeChat 
post, 21 November 17.
    \57\ ``About On the Road,'' University of Chicago, Paulson 
Institute, MacroPolo, last visited 16 July 18; State Council, Opinion 
on Further Carrying Out Reform of the Household Registration System 
[Guowuyuan guanyu jin yi bu tuijin huji zhidu gaige de yijian], issued 
30 July 14, paras. 6-7.
    \58\ ``Hukou Difficulty Index,'' University of Chicago, Paulson 
Institute, MacroPolo, last visited 16 July 18; Tianyu M. Fang, ``Job 
Not Open to Beijing Natives? Alibaba's Online Supermarket Apologizes 
for Discrimination,'' SupChina, 9 July 17; State Council General 
Office, ``Plan Promoting 100 Million Individuals in Cities Without 
Household Registration To Obtain Hukou'' [Tuidong 1 yi fei huji renkou 
zai chengshi luohu fang'an], issued 30 September 16, paras. 4-6; 
``Ministry of Public Security: Urban Areas With Under 3 Million 
Permanent Residents May Not Implement Points Systems for Obtaining 
Hukou'' [Gong'anbu: chengqu changzhu renkou 300 wan yixia chengshi bude 
shishi jifen luohu], Caixin, 9 February 17.
    \59\ Beijing Municipal Human Resources and Social Security Bureau 
et al., Rules on Operations and Management of Beijing Municipality 
Points-Based Household Registration (Trial) [Beijing shi jifen luohu 
caozuo guanli xize (shixing)], issued and effective 11 April 18, art. 
13(2)-(3); Wang Su and Li Rongde, ``Chart: Beijing Residency System No 
Longer `Pointless,' '' Caixin, 12 April 18; Wu Wei, ``Beijing's First 
Batch of Points-Based Hukou Applications Launches Next Monday'' 
[Beijing shou pi jifen luohu shenbao xia zhouyi qidong], Beijing News, 
12 April 18.
    \60\ Beijing Municipal Human Resources and Social Security Bureau 
et al., Rules on Operations and Management of Beijing Municipality 
Points-Based Household Registration (Trial) [Beijing shi jifen luohu 
caozuo guanli xize (shixing)], issued and effective 11 April 18, art. 
12(3); Wang Su and Li Rongde, ``Chart: Beijing Residency System No 
Longer `Pointless,' '' Caixin, 12 April 18; Wu Wei, ``Beijing's First 
Batch of Points-Based Hukou Applications Launches Next Monday'' 
[Beijing shou pi jifen luohu shenbao xia zhouyi qidong], Beijing News, 
12 April 18.
    \61\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, arts. 1-4.
    \62\ Yu Dingzhang, ``Aging Construction Workers Face Unstable 
Retirement,'' Sixth Tone, 23 October 17; ``Chinese Crane Operators 
Stage Nationwide Strike Ahead of Labor Day,'' Radio Free Asia, 1 May 
18.
    \63\ China Labour Bulletin, ``China Faces Shortage of Express 
Delivery Workers in the New Year,'' 8 March 18. See also Ryan McMorrow, 
``For Couriers, China's E-Commerce Boom Can Be a Tough Road,'' New York 
Times, 31 January 17.
    \64\ Beijing Municipal Human Resources and Social Security Bureau 
et al., Rules on Operations and Management of Beijing Municipality 
Points-Based Household Registration (Trial) [Beijing shi jifen luohu 
caozuo guanli xize (shixing)], issued and effective 11 April 18, art. 
12(3); Wang Su and Li Rongde, ``Chart: Beijing Residency System No 
Longer `Pointless,' '' Caixin, 12 April 18; Wu Wei, ``Beijing's First 
Batch of Points-Based Hukou Applications Launches Next Monday'' 
[Beijing shou pi jifen luohu shenbao xia zhouyi qidong], Beijing News, 
12 April 18. For more information on the low social insurance coverage 
rates of migrant workers, see Ministry of Human Resources and Social 
Security, ``2017 Annual Statistics Bulletin on Human Resources and 
Social Security Employment Developments'' [2017 niandu renli ziyuan he 
shehui baozhang shiye fazhan tongji gongbao], 21 May 18, secs. 1, 2(1, 
3, 4); China Labour Bulletin, ``Migrant Workers and Their Children,'' 
last visited 6 June 18.
    \65\ See, e.g., Eva Dou and Dominique Fong, ``Homeward Bound: 
Beijing Boots Migrant Workers To Trim Its Population,'' Wall Street 
Journal, 29 November 17; Bai Xin, ``Bai Xin: Those Beijing Evicted Are 
a New Migrant Class That Threatens Political Security'' [Bai xin: 
beijing qiechu de, shi weixie zhengzhi anquan de xin liumin jieji], 
Initium, 28 November 17; Eli Friedman, ``Evicting the Underclass,'' 
Jacobin, 6 December 17; Tom Phillips, ``The Gentrification of Beijing: 
Razing of Migrant Villages Spells End of China Dream,'' Guardian, 7 
December 17.
    \66\ Beijing Municipal Planning and Land and Resources Management 
Committee, Beijing Municipal People's Government, ``Beijing General 
City Plan (2016-2035)'' [Beijing chengshi zongti guihua (2016 nian-2035 
nian], 29 September 17; ``China Focus: China Sets Population, 
Construction Limits in Beijing City Planning,'' Xinhua, 27 September 
17.
    \67\ Beijing Municipal Planning and Land and Resources Management 
Committee, Beijing Municipal People's Government, ``Beijing General 
City Plan (2016-2035)'' [Beijing chengshi zongti guihua (2016 nian-2035 
nian], 29 September 17, art. 14.
    \68\ Wang Shan, ``Investigation--Outsiders After Major Fire: Where 
Should We Go? '' [Diaocha--da huo zhihou de yixiangren: women gai dao 
nali qu?], Life Week, 27 November 17; Yuan Suwen et al., ``Dislocated 
Migrant Workers Left in Cold and Confusion in Beijing,'' Caixin, 25 
November 17. See also China Labour Bulletin, ``Another Tragedy Unfolds 
in Beijing's Migrant Worker Shanty Towns,'' 20 November 17.
    \69\ Emily Feng, ``Beijing Begins Migrant School Demolition in 
Depopulation Drive,'' Financial Times, 19 July 17; Fan Shuo and Li 
Rongde, ``School for Migrant Children in Beijing Fights Forced 
Closure,'' Caixin, 2 November 17.
    \70\ Steven Lee Myers, ``A Cleanup of `Holes in the Wall' in 
China's Capital,'' New York Times, 17 July 17; Liu Caiyu, ``Demolition 
of 1000's of Illegal Stores Leaves Beijing Migrants With Unsure 
Future,'' Global Times, 25 April 17; ``Hundreds of Police Occupy 
Beijing Market Amid Anger Over Closures,'' Radio Free Asia, 20 
September 17.
    \71\ Beijing Municipal Commission of Housing and Urban-Rural 
Development et al., Opinion on Developing Rental of Collective Worker 
Dormitories (Provisional) (Draft for Solicitation of Comments) [Guanyu 
fazhan zulinxing zhigong jiti sushe de yijian (shixing) (zhengqiu 
yijian gao)], 23 May 18, secs. 1-2. See also A Ruhan, ``Beijing 
Promotes Rental of Collective Worker Dormitories'' [Beijing tui 
zulinxing zhigong jiti sushe], Beijing Business Today, 23 May 18.
    \72\ China Labour Bulletin, ``China Faces Shortage of Express 
Delivery Workers in the New Year,'' 8 March 18; Jie Li, ``Nanny 
Shortage: Housekeeping Industry Pulling People From Impoverished 
Regions'' [Baomu jinque: jiazheng ye pinkun xian wa ren], Beijing Youth 
Daily, 20 May 18.
    \73\ Shanghai Municipal People's Government, `` `Shanghai 
Municipality General City Plan (2017-2035)' Issued, Shanghai Will 
Become a City of Innovation, Culture, and Ecology'' [``Shanghai shi 
chengshi zongti guihua (2017-2035 nian)'' fabu shanghai jiang chengwei 
chuangxin zhi cheng, renwen zhi cheng, shengtai zhi cheng], 5 January 
18; Shanghai Municipal People's Government, ``Municipal Government 
Introduces Information Relating to `Shanghai Municipality General City 
Plan (2017-2035)' at Press Conference'' [Shi zhengfu xinwen fabuhui 
jieshao ``shanghai shi chengshi zongti guihua (2017-2035 nian)'' 
xiangguan qingkuang], 4 January 18. See also Benjamin Haas, ``China's 
Shanghai Sets Population at 25 Million To Avoid `Big City Disease,' '' 
Guardian, 26 December 17.
    \74\ ``Li Keqiang Chairs Meeting of State Council Standing 
Committee'' [Li keqiang zhuchi zhaokai guowuyuan changwu huiyi], 
Xinhua, 17 January 18; An Delie, ``Li Keqiang Mobilizing Migrant 
Workers To Return to Rural Hometowns and Start Businesses Seen as Xi 
Jinping's Version of Being Sent Down to the Countryside'' [Li keqiang 
dongyuan nongmingong fan xiang chuangye bei zhi xi jinping ban 
shangshan xiaxiang], Radio France Internationale, 18 January 18.
    \75\ Beijing Municipal Bureau of Statistics and Survey Office of 
the National Bureau of Statistics in Beijing, ``Beijing Municipality 
2017 Citizen Economic and Social Development Statistical Bulletin'' 
[Beijing shi 2017 nian guomin jingji he shehui fazhan tongji gongbao], 
27 February 18, sec. 1; Shanghai Municipal Bureau of Statistics and 
Survey Office of the National Bureau of Statistics in Shanghai, ``2017 
Shanghai Municipality Citizen Economic Operations Situation'' [2017 
nian shanghai shi guomin jingji yunxing qingkuang], 19 January 18, sec. 
8.
    \76\ Bai Tiantian, ``Beijing, Shanghai Record First Population 
Decline in 40 Years,'' Global Times, 23 January 18.
    \77\ See, e.g., Amnesty International, ``Standing Their Ground: 
Thousands Face Violent Eviction in China,'' 2012, 11-23; Human Rights 
Watch, ``Demolished: Forced Evictions and the Tenants' Rights Movement 
in China,'' 24 March 04, 6-11.
    \78\ Amnesty International, ``Standing Their Ground: Thousands Face 
Violent Eviction in China,'' 2012, 11-12, 31-32; Centre on Housing 
Rights and Evictions, ``One World, Whose Dream? Housing Rights 
Violations and the Beijing Olympic Games,'' July 2008, 7-8, 12-14; UN 
Watch, ``38 Rights Groups Urge U.N. To Investigate Shanghai Expo 
Eviction of 18,000 Families,'' 14 July 10.
    \79\ UN Committee on Economic, Social and Cultural Rights, 
Concluding Observations on the Second Periodic Report of China, 
Including Hong Kong, China, and Macao, China, adopted by the Committee 
at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 14, para. 
30.
    \80\ UN Committee on Economic, Social and Cultural Rights, CESCR 
General Comment No. 4: The Right to Adequate Housing (Art. 11(1) of the 
Covenant), E/1992/23, 13 December 91, para. 8(a). Note that this 
finding is reaffirmed in UN Committee on Economic, Social and Cultural 
Rights, General Comment No. 7: The Right to Adequate Housing (Art. 
11.1): Forced Evictions, E/1998/2, 20 May 97, para. 1; UN Committee on 
Economic, Social and Cultural Rights, CESCR General Comment No. 4: The 
Right to Adequate Housing (Art. 11(1) of the Covenant), E/1992/23, 13 
December 91, para. 18; International Covenant on Economic, Social and 
Cultural Rights (ICESCR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 3 January 76, art. 
11(1); United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, last 
visited 13 February 18. China has signed and ratified the ICESCR. See 
also UN Committee on Economic, Social and Cultural Rights, General 
Comment No. 7: The Right to Adequate Housing (Art. 11.1): Forced 
Evictions, E/1998/2, 20 May 97, para 15; UN Committee on Economic, 
Social and Cultural Rights, General Comment No. 7: The Right to 
Adequate Housing (Art. 11.1): Forced Evictions, E/1998/2, 20 May 97, 
para. 16; Eva Pils, Human Rights in China (Medford: Polity Press, 
2018), 105-07.
    \81\ PRC Administrative Enforcement Law [Zhonghua renmin gongheguo 
xingzheng qiangzhi fa], passed 30 June 11, effective 1 January 12, 
arts. 43-44. For analyses of the legality of the evictions in Beijing 
under Chinese law, see ``Full Text of Request From Jiang Ping, He 
Weifang, and Other Scholars and Lawyers to the Standing Committee of 
the National People's Congress for a Review of the Constitutionality of 
the Beijing Government's Campaign To Expel Nonresidents and Relevant 
Administrative Documents'' [Jiang ping, he weifang deng xuezhe lushi 
dui beijing shi zhengfu qugan wailai jumin de xingdong ji qi yiju de 
xingzheng wenjian xiang quanguo rendahui changweihui tiqing hexianxing 
shencha de quanwen], 19 December 17, reprinted in Rights Defense 
Network, 24 December 17; Wang Liuyi, ``Analyzing the Legality of 
Beijing's `Winter Cleanup Campaign' '' [Beijing shi ``dongji qingli 
xingdong'' de hefaxing fenxi], WeChat post, reprinted in China Digital 
Times, 28 November 17.
    \82\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) on 
10 December 48, art. 19. For more information on restrictions on 
freedom of expression in China, see CECC, 2017 Annual Report, 5 October 
17, 66-83.
    \83\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
20(1); International Covenant on Civil and Political Rights, adopted by 
UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 22. For more information on international 
standards and civil society in China, see CECC, 2017 Annual Report, 5 
October 17, 223-28.
    \84\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2(1), 12(1), 12(3), 26; Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 13(1); UN 
Committee on Economic, Social and Cultural Rights, Concluding 
Observations on the Second Periodic Report of China, Including Hong 
Kong, China, and Macao, China, adopted by the Committee at its 40th 
Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 14, para. 15; UN Human 
Rights Council, Report of the Special Rapporteur on Extreme Poverty and 
Human Rights on His Mission to China, Philip Alston, A/HRC/35/26/Add.2, 
28 March 17, paras. 27-28. See also Chinese Human Rights Defenders, 
``From Forced Evictions of Migrant Workers to Abused Children: 
Violations of Social & Economic Rights in China Refute the `China 
Development Model,' '' 7 December 17.


                                                Status of Women
                                                Status of Women

                            Status of Women


                          Public Participation


                        POLITICAL DECISIONMAKING

    The Chinese government is obligated under its international 
commitments to ensure gender equality in political 
participation; \1\ Chinese domestic law also stipulates the 
importance of women's political participation.\2\ Women's 
representation at upper and lower levels of political 
leadership nonetheless continued to fall short of the 30 
percent target recommended by the UN Commission on the Status 
of Women.\3\ Scholars and overseas media note that barriers to 
women's participation in political leadership at higher levels 
include lack of access to the male-dominated relationship 
networks critical to leadership appointments,\4\ earlier 
retirement ages for female civil servants,\5\ and 
marginalization to leadership positions with less political 
influence,\6\ in addition to the pressures that make it 
difficult for women to participate in public life more 
generally, such as gender discrimination and unequal 
distribution of childcare and domestic labor.\7\

                       CIVIL SOCIETY AND ADVOCACY

    During the Commission's 2018 reporting year, Chinese 
citizens continued to advocate on behalf of women's issues 
while Chinese officials maintained restrictions by censoring 
online discussion and harassing and threatening individual 
citizens engaging in advocacy. These restrictions are a 
continuation of official repression of women's rights advocacy 
beginning in 2015.\8\
    Women's rights advocates reported that the freedom to 
organize activities remained limited as officials continued to 
impose pressure on participants in the form of harassment, 
threats, and censorship. Due to such pressure, some advocates 
reported that they no longer performed direct actions in public 
spaces and had shifted their focus to awareness-raising and 
organizing online.\9\ Online advocacy has been subject to 
continued \10\ censorship: online posts were censored,\11\ 
hashtags used for advocacy on women's issues were blocked on 
social media platforms,\12\ and social media accounts 
advocating women's rights were shut down.\13\ Although advocacy 
and discussion of women's rights were previously tolerated,\14\ 
one advocate reported that the topic ``has been politicized and 
stigmatized'' in recent years \15\ as authorities continued 
\16\ to link their advocacy to hostile foreign 
interference.\17\ [For more information on censorship, see 
Section II--Freedom of Expression.]

------------------------------------------------------------------------
       Campaigns Against Sexual Harassment on University Campuses
-------------------------------------------------------------------------
  In January 2018, Chinese students, alumni, and faculty initiated a
 series of independent campaigns to prevent sexual harassment on college
 campuses. These included public allegations of misconduct by individual
 professors, petitions calling on universities to institute policies to
 prevent sexual harassment, and public requests for information about
 university actions in past sexual assault cases. Reports of sexual
 harassment in other sectors such as manufacturing,\18\ journalism,\19\
 civil society,\20\ the state-sanctioned Buddhist community,\21\ and the
 Protestant community in Hong Kong \22\ also drew public attention.
 Among the most prominent were allegations posted by Luo Xixi, currently
 residing in the United States, who detailed the sexual harassment of
 her former PhD advisor, Chen Xiaowu of Beihang University in Beijing
 municipality.\23\ Inspired by the #MeToo movement in the United
 States,\24\ Luo published these allegations in January 2018,\25\
 drawing significant attention and sparking a social media campaign in
 China that drew millions of views to related hashtags before it was
 censored.\26\ Chen's teaching qualifications were revoked \27\ and the
 Ministry of Education announced that it would form a group to study the
 implementation of policies to prevent sexual harassment.\28\ After one
 allegation against a professor at Renmin University in Beijing, a group
 of more than 70 students gathered outside his classroom, refusing to
 leave until the university agreed to investigate the claims.\29\ There
 were a number of other allegations against professors at other
 universities, some of which led to dismissals.\30\
 Other actions directed at universities followed. Students, alumni, and
 faculty circulated petitions calling on their respective institutions
 to implement policies to prevent sexual harassment, reportedly with
 more than 8,000 people participating at 74 colleges and universities
 \31\ before being censored.\32\ Students at Peking University in
 Beijing called on the school to release information about its actions
 dealing with a case involving a professor's sexual assault of a student
 20 years earlier.\33\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Campaigns Against Sexual Harassment on University  Campuses--Continued
-------------------------------------------------------------------------
  While some actions taken by university and government authorities were
 supportive of the issues raised by the campaigns, official responses
 nonetheless prioritized suppressing grassroots mobilization. In
 addition to the investigation and dismissal of some of the professors
 accused of misconduct, supportive actions included lawmakers'
 submission of legislative proposals to address sexual harassment during
 the legislative session after lobbying by women's rights advocates \34\
 and the recognition of sexual harassment as a serious issue by some
 state and Party media.\35\ Official actions aimed at suppressing
 discussion and collective action included online censorship \36\ and
 increased surveillance,\37\ while university officials pressured
 students to cease campaigning \38\ by questioning them about their
 organizing,\39\ harassing their family members,\40\ and in at least one
 instance threatening to prevent a student from graduating.\41\ When a
 student at Peking University drew significant attention and support
 after describing the extent of her harassment by school officials,\42\
 authorities subsequently released instructions to censor all reporting
 regarding the incident.\43\ A January 2018 commentary published in the
 Global Times, a Party-run media outlet, stated that ``[m]ore efforts
 should be put into establishing and perfecting laws and regulations so
 as to deter potential sexual violence'' while cautioning that
 ``[s]ocial movements can only play a limited role in reducing sexual
 harassment.'' \44\
------------------------------------------------------------------------

                      Gender-Based Discrimination


                               EMPLOYMENT

    Women in China continued to face a variety of barriers to 
equal employment, which the Chinese government is obligated to 
address under its international commitments \45\ and domestic 
laws.\46\ A study of Chinese job recruitment advertisements 
conducted by international non-governmental organization (NGO) 
Human Rights Watch (HRW) found that discriminatory and 
sexualized views of women were pervasive: recruitment 
advertisements reflected assumptions that women are less 
qualified for work requiring strength, intelligence, or mental 
fitness; \47\ that the thinking and behavior of women is 
inherently inferior; \48\ and that it is acceptable for 
employers to use the physical attractiveness of female 
employees as a condition of employment even when unrelated to 
job performance,\49\ or as an inducement for recruiting male 
employees.\50\ The study found discriminatory recruitment in 
both the private and public sectors, with 19 percent of 
postings for the national civil service jobs in 2018 listing a 
requirement or preference for males, up from 13 percent in 
2017.\51\ The World Economic Forum's 2017 Global Gender Gap 
Report found that discrimination in China also continued to 
manifest in the underrepresentation of women in management 
positions \52\ and disparities in pay, with women earning on 
average 62 percent of what men earn.\53\
    A 2015 study by the International Labour Organization 
attributed most of the wage differential to discrimination,\54\ 
noting that such disparities have increased over the period of 
economic reform that began in 1978,\55\ accelerating during the 
2000s with the intensification of market liberalization.\56\ 
The HRW study attributed the lack of women in leadership roles 
and the increasing wage gap in part to individual employers' 
discriminatory views of women and their increased discretion 
over employment decisions beginning in the reform period.\57\ 
Another significant factor identified by scholars has been the 
shifting of responsibility for child care from the government 
system (via publicly funded maternity leave and nursery 
schools) to the private sector, with the resulting burden 
falling disproportionately to individual women.\58\ National 
law guarantees 98 days of paid maternity leave and no paternity 
leave,\59\ making employers reluctant to hire female employees 
because they are seen as more costly and a pregnancy ``risk.'' 
\60\ Experts said that such discrimination had been exacerbated 
by the ``universal two-child policy'' implemented in January 
2016.\61\ [For more information on the ``universal two-child 
policy,'' see Section II--Population Control.]
    International observers reported that employer 
discrimination in China has not been checked by prohibitions 
against gender discrimination in existing laws \62\ because 
enforcement has been rare and negligible.\63\ Chinese laws do 
not themselves give a clear definition of gender 
discrimination,\64\ and women reported being reluctant to 
initiate complaints because of the time, cost, and risk to 
future employment.\65\ The local bureaus responsible for 
enforcing laws against discrimination in hiring have rarely 
initiated their own investigations and have seldom taken 
punitive action in response to complaints.\66\ In addition, 
some laws continued to discriminate against women by barring 
them from performing certain jobs--in some cases based on 
whether they are menstruating, pregnant, or breastfeeding.\67\

                            PROPERTY RIGHTS

    Women in China continued to lack secure rights to property 
due to a combination of discriminatory policy implementation 
and adherence to patriarchal cultural values. Many rural women 
were deprived of land rights--guaranteed under national law--
due to village-level policies and customs that deny women 
rights to collectively owned land if they marry outside of the 
village, divorce, become widowed, or remain unmarried above a 
certain age.\68\ Legal advocates say that enforcement 
mechanisms for guaranteeing women's land rights are 
lacking.\69\ Women's property rights assigned at the household 
level are also marginalized by a lack of decisionmaking power 
within households; according to a sample survey conducted by 
the state-run Research Center for Rural Economy, 30.4 percent 
and 80.2 percent of rural women were not registered on any 
commercial land rights certificates and residential property 
certificates, respectively.\70\ Officials suggested a number of 
proposals aimed at addressing these issues during the upcoming 
round of agricultural policy reforms.\71\

                         Violence Against Women

    Women in China continued to face challenges with domestic 
and sexual violence as officials continued to develop a legal 
and institutional infrastructure to prevent such abuse. By the 
end of October 2017, the courts had issued a total of 1,830 
protection orders under the PRC Anti-Domestic Violence Law,\72\ 
in effect since March 2016.\73\ A 2017 Chinese NGO report found 
that while there were improvements in implementation of the 
law, such as increased awareness and the publishing of local 
implementing regulations, other challenges remained.\74\ 
Chinese courts maintained an evidentiary standard for proving 
domestic violence that was difficult for victims to meet, and 
victims escaping abusive domestic situations received 
inadequate support in seeking shelters, with only 149 
admissions to roughly 2,000 shelters for victims nationwide in 
2016.\75\


                                                Status of Women
                                                Status of Women
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW), adopted by UN General Assembly resolution 34/180 
of 18 December 79, entry into force 3 September 81, arts. 7, 24. Under 
Article 7(b) of CEDAW, China, as a State Party, is obligated to 
``ensure to women, on equal terms with men,'' the right ``[t]o 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government . . ..'' United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, last visited 27 July 18. 
China signed the convention on July 17, 1980, and ratified it on 
November 4, 1980, thereby committing to undertake the legal rights and 
obligations contained in these articles.
    \2\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
amended 28 August 05, effective 1 December 05, art. 11; PRC Electoral 
Law of the National People's Congress and Local People's Congresses 
[Zhonghua renmin gongheguo quanguo renmin daibiao dahui he difang geji 
renmin daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04, 14 March 10, 29 
August 15, art. 6. Both of these laws stipulate that an ``appropriate 
number'' of female deputies should serve at all levels of people's 
congresses.
    \3\ ``Target: 30 Percent of Leadership Positions to Women by 1995--
United Nations Commission on the Status of Women,'' UN Chronicle, Vol. 
27, No. 2, June 1990, reprinted in Popline. The target of 30-percent 
female representation in leadership positions by 1995 was recommended 
by the UN Commission on the Status of Women at its 34th session in 
1990. ``China Political Leaders'' [Zhongguo zhengyao], Chinese 
Communist Party News, People's Daily, last visited 13 April 18. 
``China's National Legislature Starts Annual Session in Beijing,'' 
Xinhua, 5 March 18; ``Reality Check: Does China's Communist Party Have 
a Woman Problem?,'' BBC, 25 October 17. Upon the convening of the 19th 
Party Congress in October 2017, women represented 1 out of 25 members 
of the Political Bureau of the Communist Party Central Committee 
(Politburo) and there remained no women among the 7 members of the 
Politburo Standing Committee--the most powerful governing body in 
China. The 13th National People's Congress (NPC) was seated in March 
2018 with 24.9 percent female delegates, a slight increase from the 
23.4 percent in the 12th NPC. Under the State Council, 1 of the 26 
national-level ministerial positions was filled by a woman. No women 
were appointed as Party secretaries at the provincial level, while 
women were selected for 3 of 31 provincial-level governorships--
compared with 2 out of 31 in the previous government.
    \4\ ``Reality Check: Does China's Communist Party Have a Woman 
Problem?,'' BBC, 25 October 17.
    \5\ Ibid.
    \6\ Sarah O'Meara, ``How to Be More Than a Token Woman in Chinese 
Politics,'' Sixth Tone, 26 December 16.
    \7\ Yu Mengtong, ``The Hard-To-Smash Glass Ceiling: Looking at the 
Predicament of Women's Political Participation from the NPC Delegate 
Statistics'' [Nan da po de boli tianhuaban: cong renda shuju kan 
zhongguo nuxing congzheng kunjing], Voice of America, 8 March 18.
    \8\ See, e.g., Rebecca E. Karl et al., ``Dark Days for Women in 
China? '' Asia Society, ChinaFile, 18 March 15; Maya Wang, ``China's 
Chilling Message to Women,'' CNN, 7 April 15. See also CECC, 2015 
Annual Report, 8 October 15, 172-73; CECC, 2016 Annual Report, 6 
October 16, 178-79; CECC, 2017 Annual Report, October 5, 2017, 176-85.
    \9\ Lin Lin, ``China's Women's Rights Movement: How Far Can They 
Go? '' [Zhongguo nuquan yundong: tamen hai neng zou duo yuan?], BBC, 26 
September 17.
    \10\ CECC, 2017 Annual Report, October 5, 2017, 176-77.
    \11\ Javier C. Hernandez and Zoe Mou, `` `Me Too,' Chinese Women 
Say. Not So Fast, Say the Censors,'' New York Times, 28 January 18; 
Kemeng Fan, ``China's #MeToo Movement Started on College Campuses. It 
May End There,'' Los Angeles Times, 7 February 18; China Digital Times, 
``Minitrue: Do Not Report on PKU Open Letter,'' 25 April 18; ``Women 
Excluded From Highest Echelons of Power in China, as Men Embroiled in 
Sex-for-Favours Scandals,'' Agence France-Presse, reprinted in Hong 
Kong Free Press, 23 October 17.
    \12\ Grace Tsoi and Viola Zhou, ``Feminist Campaign Gets Blocked in 
China on International Women's Day,'' Inkstone, 8 March 18; ``#MeToo in 
China: The Story Beyond Censorship,'' Elephant Room (blog), 13 February 
18.
    \13\ Aaron Halegua et al., ``What Is the Significance of China's 
#MeToo Movement? '' Asia Society, ChinaFile, 20 March 18; ``Muzzled 
China Feminist Group To Sue Over Online Censorship,'' Agence France-
Presse, reprinted in SinoDaily, 24 March 18; China Digital Times, 
``Chili Pepper Tribe: China's Only Dedicated Information Platform for 
Female Workers Blocked on Weibo'' [Jianjiao buluo: zhongguo weiyi 
nugong zhuanshu zixun pingtai zao weibo fengsha], 13 July 18.
    \14\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 6.
    \15\ Lin Lin, ``China's Women's Rights Movement: How Far Can They 
Go? '' [Zhongguo nuquan yundong: tamen hai neng zou duo yuan?], BBC, 26 
September 17.
    \16\ Song Xiuyan, ``Run a Thread of Political Discussion Through 
the Whole Process of ACWF Reform and Work'' [Ba jiang zhengzhi guanchan 
yu fulian gaige he gongzuo quan guocheng], China Women's News, 19 May 
17; Er Guang, ``From Silencing on Weibo to `Halal Goddess,' How is 
Chinese Feminism Being Encircled and Annihilated Both Inside and 
Outside the System? '' [Cong weibo jin yan dao ``qingzhen shengmu'', 
tizhi nei wai ruhe weijiao zhongguo nuquan?], Initium, 31 March 17.
    \17\ Yang Zhichu, ``Combatting Sexual Harassment: #MeToo in China? 
'' [Fanji xing saorao: #MeToo zai zhongguo?], Voice of America, 13 
January 18; Javier C. Hernandez and Zoe Mou, `` `Me Too,' Chinese Women 
Say. Not So Fast, Say the Censors,'' New York Times, 28 January 18; 
Jiayang Fan, ``China's #MeToo Moment,'' New Yorker, 1 February 18; 
Jiayun Feng, ``Peking University Student to School: Stop Trying To Gag 
Me on Rape Case!,'' SupChina, 23 April 18.
    \18\ Jiayun Feng, `` `I Am a Woman Worker at Foxconn, and I Demand 
a System That Opposes Sexual Harassment: A Translated Essay,' '' 
SupChina, 26 January 18.
    \19\ Catherine Lai, ``No #MeToo in China? Female Journalists Face 
Sexual Harassment, but Remain Silent,'' Hong Kong Free Press, 5 
December 17; Aaron Halegua et al., ``What Is the Significance of 
China's #MeToo Movement? '' Asia Society, ChinaFile, 20 March 18; 
Jiayun Feng, ``#MeToo in China Reaches the Nonprofit and Media 
Worlds,'' SupChina, 26 July 18.
    \20\ Jiayun Feng, ``#MeToo in China Reaches the Nonprofit and Media 
Worlds,'' SupChina, 26 July 18.
    \21\ Jiayun Feng, ``Abbot of Beijing Longquan Temple Denies Sexual 
Abuse Allegations,'' SupChina, 1 August 18.
    \22\ ``#MeToo Complaints Rife in Hong Kong's Protestant Churches, 
as Victims Come Forward,'' Radio Free Asia, 25 June 18.
    \23\ Wesley Rahn and Fang Wan, ``#MeToo Movement Meets China's 
Firewall,'' Deutsche Welle, 7 March 18.
    \24\ Jiayang Fan, ``China's #MeToo Moment,'' New Yorker, 1 February 
18.
    \25\ Wesley Rahn and Fang Wan, ``#MeToo Movement Meets China's 
Firewall,'' Deutsche Welle, 7 March 18.
    \26\ ``#MeToo in China: The Story Beyond Censorship,'' Elephant 
Room (blog), 13 February 18.
    \27\ Ibid.
    \28\ Han Xiaotong, ``Ministry of Education Revokes Chen Xiaowu's 
`Yangtze River Scholar' Title, Halts Payment and Requires Return of 
Stipend'' [Jiaoyu bu jueding chexiao chen xiaowu ``chang jiang xuezhe'' 
chenghao, tingfa bing zhuihui yifa jiangjin], The Paper, 14 January 18.
    \29\ Te-Ping Chen, ``#MeToo Meets China's Censors and Students 
Learn a Tough Lesson,'' Wall Street Journal, 23 April 18.
    \30\  Fan Yiying, ``University Fires Teacher Who Traded Grades for 
Sex,'' Sixth Tone, 5 January 18; Wang Yiwei, ``Nanchang University 
Dismisses Deans Over Alleged Rape,'' Sixth Tone, 21 December 17; Yanan 
Wang, ``Chinese Vice-Dean Accused of `Inappropriate' Behavior,'' 
Associated Press, 26 April 18; Te-Ping Chen, ``#MeToo Meets China's 
Censors and Students Learn a Tough Lesson,'' Wall Street Journal, 23 
April 18.
    \31\ Xiao Meili and Zheng Churan, `` `I Am a Troublemaker, Not a 
Helpful Cog in the Machine': The Voice of China's Feminist Activism'' 
[``Wo shi daodangui, bu shi luosiding'': zhongguo nuquan xingdongpai de 
shengyin], Initium, 12 February 18, translated in Zheng Churan, Free 
Chinese Feminists, ``The Success of China's Anti-Sexual Harassment 
Campaign,'' reprinted in Facebook, 18 April 18; Jiayun Feng, ``Chinese 
University Instructors Sign Anti-Sexual Harassment Manifesto,'' 
SupChina, 22 January 18.
    \32\ Kemeng Fan, ``China's #MeToo Movement Started on College 
Campuses. It May End There,'' Los Angeles Times, 7 February 18.
    \33\ Javier C. Hernandez and Iris Zhao, ``Students Defiant as 
Chinese University Warns #MeToo Activist,'' New York Times, 24 April 
18.
    \34\ Mimi Lau, ``After #MeToo Success, Chinese Rights Activists 
Urge Lawmakers To Join the Fight Against Sexual Harassment,'' South 
China Morning Post, 8 March 18.
    \35\ ``Chinese Professor Removed From Post Following Sexual 
Harassment Allegation,'' Xinhua, 12 January 18; Chen Jinhong, ``Don't 
Cover Up Sexual Harassment in Higher Education Any Longer'' [Gaoxiao 
xing saorao, bie zai wu gaizi le], Qianjiang Evening News, reprinted in 
People's Daily, 16 January 18; Renmin Ribao Pinglun (rmrbpl), 
``Beihang-Gate's Sexual Harassment: Bravery Is Your Finest Pose'' 
[Beihang xing saorao men: yonggan shi ni zui haokan de zitai], WeChat 
post, 5 January 18.
    \36\ ``#MeToo in China: The Story Beyond Censorship,'' Elephant 
Room (blog), 13 February 18.
    \37\ Jiayun Feng, ``Yue Xin Back at School, Surveillance Cameras up 
on Peking University Campus,'' SupChina, 26 April 18.
    \38\ Lily Kuo, ``#Metoo in China: Fledgling Movement in 
Universities Fights Censorship,'' Guardian, 17 April 18; Christian 
Shepherd, ``China's #MeToo Movement in Colleges Initially Encouraged by 
Authorities, Then Frustrated,'' Reuters, 30 January 18.
    \39\ Te-Ping Chen, ``#MeToo Meets China's Censors and Students 
Learn a Tough Lesson,'' Wall Street Journal, 23 April 18.
    \40\ Lily Kuo, ``#Metoo in China: Fledgling Movement in 
Universities Fights Censorship,'' Guardian, 17 April 18; Javier C. 
Hernandez and Iris Zhao, ``Students Defiant as Chinese University Warns 
#MeToo Activist,'' New York Times, 24 April 18.
    \41\ China Digital Times, ``Translation: Open Letter on PKU #MeToo 
Case,'' 23 April 18.
    \42\ Jiayun Feng, ``Yue Xin Back at School, Surveillance Cameras up 
on Peking University Campus,'' SupChina, 26 April 18.
    \43\ China Digital Times, ``Minitrue: Peking University Open Letter 
Incident'' [Zhenli bu: beijing daxue gongkai xin shijian], 25 April 18.
    \44\ Liu Lulu, ``Addressing Sexual Harassment Needs More Than 
#MeToo,'' Global Times, 4 January 18.
    \45\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 11.1; United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
17 July 18. China signed the convention on July 17, 1980, and ratified 
it on November 4, 1980. International Covenant on Economic, Social and 
Cultural Rights (ICESCR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 3 January 76, art. 7; 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, last 
visited 17 July 18. China signed the ICESCR on October 27, 1997, and 
ratified it on March 27, 2001.
    \46\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, 11 March 18, art. 48; PRC Labor 
Law [Zhongghua renmin gongheguo laodong fa], passed 5 July 94, 
effective 1 January 95, art. 13; PRC Law on the Protection of Women's 
Rights and Interests [Zhonghua renmin gongheguo funu quanyi baozhang 
fa], passed 3 April 92, amended 28 August 05, effective 1 December 05, 
art. 2.
    \47\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 2.
    \48\ Ibid., 19-20.
    \49\ Ibid., 30.
    \50\ Ibid., 33.
    \51\ Ibid., 6, 22-23.
    \52\ World Economic Forum, ``The Global Gender Gap Report 2017,'' 2 
November 17, 120-21. According to the World Economic Forum report, in 
2017 women remained underrepresented in management positions, with 20.1 
percent of firms including women in top-level management.
    \53\ Ibid.
    \54\ Sukti Dasgupta et al., International Labour Organization, 
``Women in the Labour Market in China,'' ILO Asia-Pacific Working Paper 
Series, May 2015, 18-19. See also World Economic Forum, ``The Global 
Gender Gap Report 2017,'' 2 November 17, 120-21.
    \55\ Sukti Dasgupta et al., International Labour Organization, 
``Women in the Labour Market in China,'' ILO Asia-Pacific Working Paper 
Series, May 2015, 2.
    \56\ Ibid., 8.
    \57\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 10.
    \58\ Yingchun Ji and Shuangshuang Yang, ``A Gendered Reading of 
China's Two-Child Policy,'' University of Nottingham, Asia Research 
Institute, Asia Dialogue, 19 September 17.
    \59\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
amended 28 August 05, effective 1 December 05, art. 27; Dezan Shira & 
Associates, ``Expecting in China: Employee Maternity Leave and 
Allowances,'' China Briefing, 6 April 18; Dezan Shira & Associates, 
``Paternity Leave in China: Regional Policies and Differences,'' China 
Briefing, last visited 18 July 18.
    \60\ Fu Yang, ``New Discrimination Dilemmas for Female Employment: 
From `Married With Child' to `Two Children' '' [Xin qishi kunrao nuxing 
jiuye cong ``yihun yiyu'' dao ``yisheng ertai''], Beijing Daily, 20 
December 17.
    \61\ Ibid.; Yang Yue, ``CPPCC Member Li Shouzhen: Seventy Percent 
of Women Worry That Second Child Will Affect Career Development, 
Recommend Extending Maternity Leave for Second Child'' [Li shouzhen 
weiyuan: qicheng nuxing danxin er hai yingxiang zhiye fazhan jianyi 
yanchang er hai chanjia], China Youth Net, 8 March 18.
    \62\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 12-13. Gender-based 
discrimination against employees or applicants for employment is 
prohibited under Articles 12 and 13 of the PRC Labor Law. See also 
Ministry of Human Resources and Social Security, Provisions on 
Employment Services and Employment Management [Jiuye fuwu yu jiuye 
guanli guiding], issued 5 November 07, amended 23 December 14, 
effective 1 February 15, arts. 20, 58(2); PRC Constitution, issued 4 
December 82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 
04, 11 March 18, art. 48.
    \63\ China Labour Bulletin, ``Workplace Discrimination,'' last 
visited 23 April 18; Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 3-4.
    \64\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 3-4.
    \65\ Fu Yang, ``New Discrimination Dilemmas for Female Employment: 
From `Married With Child' to `Two Children' '' [Xin qishi kunrao nuxing 
jiuye cong ``yihun yiyu'' dao ``yisheng ertai''], Beijing Daily, 20 
December 17.
    \66\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 43-44.
    \67\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 59-61, 63; State Council, 
Special Provisions for the Protection of Female Employees' Labor [Nu 
zhigong laodong baohu tebie guiding], issued and effective 28 April 12, 
Appendix, para. 1 (labor restrictions for all women), para. 2 (labor 
restrictions during menstruation), para. 3 (labor restrictions during 
pregnancy), para. 4 (labor restrictions while breastfeeding).
    \68\ ``New Issues Related to Women's Land Rights Amid Rural Reforms 
and the Way To Overcome Them'' [Nongcun bianqian zhong funu tudi quanyi 
xin wenti ji pojie zhidao], China Women's News, reprinted in All-China 
Women's Federation, 19 December 17; Qianqian Law Firm, ``Beijing 
Municipality Qianqian Law Firm Recommendations for Amending the `Rural 
Land Contract Law (Draft)' '' [Beijing shi qianqian lushi shiwusuo 
guanyu ``nongcun tudi chengbao fa (cao'an)'' de xiugai yijian], 26 
December 17.
    \69\ Qianqian Law Firm, ``Beijing Municipality Qianqian Law Firm 
Recommendations for Amending the `Rural Land Contract Law (Draft)' '' 
[Beijing shi qianqian lushi shiwusuo guanyu ``nongcun tudi chengbao fa 
(cao'an)'' de xiugai yijian], 26 December 17; Mao Xiaoya and Li Lulu, 
``NPC Representative Declares: Let Rural Women Benefit From Equal Land 
Rights'' [Daibiao weiyuan jianyan: rangnongcun funu pingdeng xiangyou 
tudi quanyi], Farmers' Daily, 14 March 18.
    \70\ Tian Shanlei, ``Protecting Women's Land Rights While 
Intensifying Rural Reform'' [Zai shenhua nongcun gaige zhong weihu funu 
tudi quanyi], China Women's News, 5 March 18.
    \71\ Wu Xu, ``Recommendations for Protecting Women's Rural Land 
Rights'' [Guanyu baozhang nongcun funu tudi quanyi de jianyi], People's 
Court Daily, 28 April 18; ``ACWF Gives Proposal to CPPCC's 13th 
Meeting: Protecting Women's Rights While Intensifying Rural Land 
Reforms'' [Quanguo fulian xiang quanguo zhengxie shisan jie yi ci huiyi 
tijiao ti'an: zai shenhua nongcun gaige zhong weihu funu tudi quanyi], 
China Women's News, reprinted in All-China Women's Federation, 5 March 
18.
    \72\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, chap. 
4.
    \73\ Fu Danni et al., ``Two Years Under Anti-Domestic Violence Law, 
Effectiveness of Protection Orders Awaits Reinforcement'' [Fan jiabao 
fa shishi liang zhou nian, renshen anquan baohu ling shishi xiaoli 
rendai jiaqiang], The Paper, 1 March 18. See also CECC, 2016 Annual 
Report, 6 October 16, 180.
    \74\ Equality, ``Monitoring Report on Implementation of the `PRC 
Anti-Domestic Violence Law' '' [``Zhonghua renmin gongheguo fandui 
jiating baoli fa'' shishi jiance baogao], 15 December 17.
    \75\ Ibid.


                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking

                           Human Trafficking


                       Defining Human Trafficking

    As a State Party to the UN Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and 
Children (UN TIP Protocol),\1\ China is obligated to enact 
legislation criminalizing human trafficking as defined by the 
UN TIP Protocol.\2\ The definition of human trafficking under 
the PRC Criminal Law,\3\ however, remains inconsistent with UN 
TIP Protocol standards.\4\ The UN TIP Protocol definition of 
human trafficking involves three components: the action of 
recruiting, transporting, harboring, or receiving persons; the 
means of coercion, deception, or control; \5\ and ``the purpose 
of exploitation,'' including sexual exploitation or forced 
labor.\6\ Chinese law focuses on the act of selling a woman or 
child,\7\ rather than the purpose of exploitation.\8\ The 
definition of trafficking in the PRC Criminal Law does not 
clearly cover all forms of trafficking in the UN TIP 
Protocol,\9\ including certain types of non-physical coercion; 
\10\ offenses against male victims; \11\ and forced labor,\12\ 
though forced labor is illegal under a separate provision of 
the law.\13\ In addition, the Chinese legal definition of 
trafficking includes the purchase or abduction of children for 
subsequent sale without specifying the purpose of these 
actions.\14\ Under the UN TIP Protocol, illegal adoptions 
constitute trafficking only if the purpose is exploitation.\15\ 
Human trafficking experts note a dearth of reliable statistics 
on the scale of human trafficking in Asia in general; \16\ in 
China, inconsistencies between domestic law and international 
standards further contribute to the difficulty of assessing the 
scale of human trafficking.\17\

                        Trends and Developments


                        CROSS-BORDER TRAFFICKING

    China remains \18\ a destination country for human 
trafficking, particularly of women and children from Southeast 
Asia,\19\ and a source country for trafficking to the United 
States and Europe.\20\ This past year, the Commission observed 
regional and international news media reports of the 
trafficking of women and girls to China for forced marriage 
from Burma (Myanmar),\21\ Cambodia,\22\ Laos,\23\ and Vietnam; 
\24\ and the trafficking of individuals to China from Burma, 
Cambodia, Indonesia, and Vietnam for the purpose of forced 
labor.\25\ Chinese nationals were trafficked this past year to 
the United States for the purposes of sexual exploitation and 
forced labor.\26\ In addition, in March 2018, the U.S. 
Department of Labor finalized settlements requiring four China-
based companies operating in the U.S. territory of Saipan, 
Northern Mariana Islands, to pay nearly US$14 million in wages 
and compensation to thousands of Chinese workers.\27\ The 
China-based companies, including the state-owned enterprise MCC 
International, brought the Chinese construction workers to 
Saipan to build a casino under conditions one expert called a 
``classic trafficking and forced labor scenario.'' \28\

                          DOMESTIC TRAFFICKING

    According to UN Action for Cooperation against Trafficking 
in Persons (UN-ACT) and the U.S. Department of State, men, 
women, and children were trafficked within China's borders for 
forced labor, forced begging, and sexual exploitation.\29\ 
During this reporting year, the Commission observed multiple 
cases of trafficking for the purpose of forced labor, including 
one case in which traffickers kidnapped homeless men and forced 
them to work in a factory,\30\ and another in which traffickers 
abducted men with intellectual disabilities for the purpose of 
forced begging.\31\ Moreover, many of China's workers in 
construction and other industries reportedly worked in 
conditions that may constitute forced labor, facing frequent 
non-payment of wages.\32\ [For more information on the problem 
of wage arrears, see Section II--Worker Rights.]

                   GOVERNMENT-SPONSORED FORCED LABOR

    This past year, the Chinese government continued \33\ to 
subject individuals to forced labor during pretrial detention 
and in administrative detention centers. The International 
Labour Organization's (ILO) definition of forced labor makes an 
exception for labor performed ``as a consequence of a 
conviction in a court of law . . .,'' \34\ yet the Commission 
observed reports this past year of individuals in China 
performing forced labor in detention before trial.\35\ 
Moreover, authorities continued \36\ to detain suspected drug 
users without trial or conviction and reportedly required them 
to perform labor in a form of administrative detention known as 
compulsory drug detoxification.\37\ As the government does not 
convict compulsory detoxification detainees in court, the 
requirement to perform labor constitutes human trafficking 
under the UN TIP Protocol \38\ for the purpose of forced labor 
as defined by the ILO.\39\ Detention in compulsory drug 
detoxification centers is similar to reeducation through labor 
(RTL),\40\ an administrative punishment in which detainees were 
subjected to forced labor \41\ without judicial process.\42\ 
After abolishing RTL in 2013,\43\ authorities reportedly 
converted most RTL facilities to compulsory drug detoxification 
centers.\44\ Authorities have continued \45\ to detain 
individuals accused of prostitution for up to two years without 
due process and require them to perform labor in a form of 
administrative detention known as ``custody and education.'' 
\46\ In February and March 2018, several delegates to the 
Chinese People's Political Consultative Conference noted 
similarities between RTL and ``custody and education'' and 
called for abolishing or reforming the system.\47\
    Radio Free Asia (RFA) reported in October 2017 that 
authorities in Hotan prefecture, Xinjiang Uyghur Autonomous 
Region (XUAR), required some Uyghur women and children to 
perform forced labor.\48\ An anonymous police officer told RFA 
that the local government sent hundreds of Uyghur women and 
children to labor in neighboring Aksu prefecture, XUAR.\49\ 
Authorities had reportedly detained the Uyghurs' male relatives 
in ``political reeducation'' centers.\50\ According to RFA, the 
police officer stated that if the women and children refused to 
perform labor, they could be sent to ``political reeducation'' 
centers.\51\ [For more information on ``political reeducation'' 
centers, see Section IV--Xinjiang.]

                              Risk Factors

    This past year, Chinese workers migrating within China were 
at risk of human trafficking, and government restrictions on 
worker rights exacerbated this risk. Despite reforms,\52\ the 
government continues to use the household registration (hukou) 
system to restrict internal migration.\53\ Migrants have 
limited access to housing and government benefits \54\ and are 
more likely to work in informal employment.\55\ The hukou 
system reportedly exacerbates these migrants' vulnerability to 
trafficking for the purpose of forced labor.\56\ The Chinese 
government limits workers' right to freedom of association by 
restricting independent unions.\57\ A September 2016 UN report 
noted that the failure to enforce workers' fundamental right to 
freedom of association ``directly contributes'' to human 
trafficking.\58\ [For more information on restrictions on 
worker rights in China, see Section II--Worker Rights.]
    In addition to domestic human trafficking, individuals from 
other Asian countries face the risk of human trafficking in 
China. A lack of economic opportunity in Southeast Asian 
countries contributes to human trafficking from that 
region.\59\ Women and girls in these countries are particularly 
at risk of trafficking for the purpose of forced marriage.\60\ 
The Chinese government continued to treat North Korean refugees 
as economic migrants and maintained a policy of repatriating 
undocumented North Koreans,\61\ leaving the refugees, who are 
predominantly women, vulnerable to trafficking for forced 
marriage.\62\ [For more information, see Section II--North 
Korean Refugees in China.]
    Decades of government-imposed birth limits combined with a 
traditional preference for sons has led to a sex ratio 
imbalance in China.\63\ In rural areas, this imbalance is more 
pronounced as many women have migrated to cities for work.\64\ 
The sex ratio imbalance has created a demand for marriageable 
women that may contribute to human trafficking for forced 
marriage.\65\ [For more information on China's population 
policies, see Section II--Population Control.]
    The government of the Democratic People's Republic of Korea 
(DPRK) reportedly continued \66\ to generate revenue by sending 
DPRK nationals to work in China under conditions that may 
constitute forced labor.\67\ Reporting from this past year 
indicated that DPRK security personnel accompanied the workers 
to China, subjecting workers to constant monitoring.\68\ The 
DPRK government reportedly withheld, on average, 70 percent of 
the workers' earnings.\69\ While reports from October 2017 
indicated that many of these workers had been or would be sent 
back to North Korea due to the Chinese government's enforcement 
of UN sanctions,\70\ the DPRK reportedly began sending workers 
to China again in March 2018, possibly in violation of UN 
sanctions.\71\

                        Anti-Trafficking Efforts

    During the Commission's 2018 reporting year, government 
figures indicated a decline in the number of criminal human 
trafficking cases opened by public security officials. 
According to the 2017 China Law Yearbook, public security 
officials opened 7,121 criminal cases involving the trafficking 
of women and children in 2016.\72\ This was 22 percent fewer 
cases than the 9,150 cases opened in 2015.\73\ The National 
Bureau of Statistics of China further reported that in 2016, 
authorities uncovered 618 cases of child trafficking,\74\ down 
from 756 cases in 2015.\75\ All figures likely include cases of 
illegal adoptions,\76\ while excluding other cases such as 
offenses against male victims \77\ and forced labor.\78\
    The Chinese government continued \79\ to participate in 
multilateral anti-trafficking events and engaged in bilateral 
cooperation with neighboring countries to combat human 
trafficking. The Chinese government's involvement in 
multilateral efforts included participation in a September 2017 
Coordinated Mekong Ministerial Initiative Against Trafficking 
\80\ event to develop new guidelines for fair recruitment 
practices,\81\ and a March 2018 research seminar jointly 
organized by the Supreme People's Court, Supreme People's 
Procuratorate, and the International Organization for 
Migration.\82\ Additionally, regional media reported that the 
Chinese government expanded cooperation with the governments of 
Burma, Cambodia, and Laos to combat cross-border human 
trafficking.\83\

                               Hong Kong

    Hong Kong remained \84\ a destination for human 
trafficking, with migrant domestic workers (MDWs) particularly 
at risk of exploitation for forced labor. The Hong Kong Census 
and Statistics Department's 2017 annual digest reported that in 
2016, there were over 350,000 MDWs working for households in 
Hong Kong, the majority of whom came from the Philippines and 
Indonesia.\85\ Non-governmental organizations (NGOs), 
advocates, and MDWs themselves reported that MDWs continue to 
face exploitative working conditions, including inadequate 
living conditions, little time off, restrictions on movement, 
and in some cases physical and emotional abuse.\86\ Local NGOs 
report that MDWs are often in debt due to excessive fees paid 
to employment agencies both in their countries of origin and in 
Hong Kong.\87\ Two regulations--requiring MDWs to live with 
their employers (live-in rule) \88\ and to leave Hong Kong 
within two weeks of termination of a contract \89\--reportedly 
contribute to MDWs' risk of exploitation for forced labor.\90\ 
In February 2018, the High Court of the Hong Kong Special 
Administrative Region (High Court) ruled against an MDW who 
sought judicial review of the live-in rule.\91\ The judge 
opined that MDWs who dislike the live-in rule could choose to 
terminate their employment.\92\ An NGO representing migrant 
workers in Hong Kong argued the High Court was ``complicit in 
maintaining the slave-like conditions of MDWs.'' \93\ In 
addition to facing abuse in Hong Kong, local media reported in 
November 2017 that Hong Kong employment agencies in recent 
years may have trafficked Filipino MDWs to other countries for 
the purpose of forced labor.\94\
    The Hong Kong government maintained that comprehensive 
anti-trafficking legislation was unnecessary and that human 
trafficking in Hong Kong was rare. The definition of human 
trafficking in Hong Kong's Crimes Ordinance covers only the 
cross-border movement of persons ``for the purpose of 
prostitution'' and not other forms of trafficking such as 
forced labor or trafficking that occurs solely within Hong 
Kong.\95\ In December 2016, the High Court ruled that the Hong 
Kong government had an obligation under the Bill of Rights 
Ordinance ``to enact measures to ensure the prohibition of 
forced or compulsory labour.'' \96\ The government argued in 
its appeal that current Hong Kong laws and policies were 
sufficient to protect potential victims of trafficking.\97\ In 
March 2018, the government claimed that human trafficking ``is 
neither widespread nor prevalent in Hong Kong,'' and noted a 
new action plan aimed at improving protections for MDWs through 
increasing victim screening mechanisms and other administrative 
measures.\98\ Advocates welcomed the plan, but argued that Hong 
Kong needed anti-trafficking legislation in order to 
effectively combat human trafficking.\99\ In August 2018, the 
Court of Appeal ruled that the Bill of Rights Ordinance did not 
cover human trafficking and thus the Hong Kong government did 
not have an obligation to enact criminal legislation 
prohibiting human trafficking.\100\ While China acceded to the 
UN TIP Protocol in 2010, the Chinese central government has not 
extended the Protocol to apply to Hong Kong.\101\


                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking
    Notes to Section II--Human Trafficking

    \1\ United Nations Treaty Collection, Chapter XVIII, Penal Matters, 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, last visited 14 May 
18.
    \2\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 5.1. See also UN Human Rights Council, Report of 
the Special Rapporteur on Trafficking in Persons, Especially Women and 
Children, Maria Grazia Giammarinaro, 
A/HRC/35/37, 28 March 17, para. 14.
    \3\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 240. For a discussion of the human trafficking 
related provisions of the PRC Criminal Law, see Laney Zhang, Library of 
Congress, ``Training Related to Combating Human Trafficking: China,'' 
February 2016.
    \4\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03. Topics that need to be addressed in domestic 
legislation to bring it into compliance with the UN TIP Protocol 
include the addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol, Article 3(a)), the 
trafficking of men (covered under the definition of ``trafficking in 
persons'' in Article 3(a) of the UN TIP Protocol), and providing the 
``purpose of exploitation'' (see UN TIP Protocol, Article 3(a)). For an 
examination of the ways in which Chinese laws are inconsistent with the 
UN TIP Protocol, see Bonny Ling, ``Human Trafficking and China: 
Challenges of Domestic Criminalisation and Interpretation,'' Asia-
Pacific Journal on Human Rights and the Law, Vol. 17, Issue 1 (2016), 
148-77.
    \5\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a), (c), (d). Note 
that for children younger than 18 years old, the means described in 
Article 3(a) are not required for an action to constitute human 
trafficking.
    \6\ UN Office on Drugs and Crime, ``What Is Human Trafficking?'' 
last visited 14 May 18; Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime (UN 
TIP Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a), (c), (d). For 
information on how international standards regarding forced labor fit 
into the framework of the UN TIP Protocol, see International Labour 
Office, International Labour Organization, ``Human Trafficking and 
Forced Labour Exploitation: Guidelines for Legislation and Law 
Enforcement,'' 2005, 7-15; International Labour Office, International 
Labour Organization, ``Hard To See, Harder To Count: Survey Guidelines 
To Estimate Forced Labour of Adults and Children,'' Second Edition, 
2012, 12, 19; International Labour Organization, ``Questions and 
Answers on Forced Labour,'' 1 June 12.
    \7\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 240. The PRC Criminal Law defines trafficking as 
``swindling, kidnapping, buying, trafficking in, receiving, sending, or 
transferring a woman or child, for the purpose of selling [the 
victim].''
    \8\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17, Issue 1 (2016), 159.
    \9\ Ibid., 151, 166; PRC Criminal Law [Zhonghua renmin gongheguo 
xing fa], passed 1 July 79, amended 14 March 97, effective 1 October 
97, amended 25 December 99, 31 August 01, 29 December 01, 28 December 
02, 28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 
August 15, 4 November 17, art. 240; Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime (UN TIP Protocol), adopted by UN General Assembly 
resolution 55/25 of 15 November 00, entry into force 25 December 03, 
art. 3(a). See also UN Office on Drugs and Crime, ``What Is Human 
Trafficking?'' last visited 14 May 18.
    \10\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17, Issue 1 (2016), 159; PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 240; Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime (UN TIP Protocol), adopted by UN General 
Assembly resolution 55/25 of 15 November 00, entry into force 25 
December 03, art. 3(a).
    \11\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17, Issue 1 (2016), 160, 166; PRC 
Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, 4 November 17, art. 240; 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by UN General Assembly resolution 55/25 of 15 November 00, 
entry into force 25 December 03, art. 3(a). The PRC Criminal Law 
defines trafficking as ``swindling, kidnapping, buying, trafficking in, 
receiving, sending, or transferring a woman or child, for the purpose 
of selling [the victim].'' See also Supreme People's Court Information 
Center and Judicial Cases Research Institute, ``Judicial Big Data 
Special Report on Crimes Involving Trafficking'' [Sifa da shuju zhuanti 
baogao she guai fanzui], 22 December 16, 11.
    \12\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17, Issue 1 (2016), 159; PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, 4 November 17, art. 240; Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially Women 
and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime (UN TIP Protocol), adopted by UN General 
Assembly resolution 55/25 of 15 November 00, entry into force 25 
December 03, art. 3(a).
    \13\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 244. See also Laney Zhang, Library of Congress, 
``Training Related to Combating Human Trafficking: China,'' February 
2016.
    \14\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2018, 139; 
Bonny Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law, Vol. 17, Issue 1 (2016), 166-67, 170-71; PRC 
Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, 4 November 17, art. 240; 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by UN General Assembly resolution 55/25 of 15 November 00, 
entry into force 25 December 03, art. 3(a). The PRC Criminal Law 
defines trafficking as ``swindling, kidnapping, buying, trafficking in, 
receiving, sending, or transferring a woman or child, for the purpose 
of selling [the victim].'' In contrast, the purpose of exploitation is 
a key element of the UN TIP Protocol definition of human trafficking. 
For reports from the 2018 reporting year that describe the sale of 
children as human trafficking without specifying the purpose of the 
sale, see, e.g., Zhao Junxi, ``China Intensifies Crackdown on Child 
Trafficking,'' Global Times, 27 October 17; Mao Yizhu and Zhan Yijia, 
``Guangdong: First-Instance Judgment Issued, 26 Criminally Sentenced in 
Major Child Trafficking Case'' [Guangdong: yi qi teda guaimai ertong an 
yishen xuanpan 26 ren bei panxing], Xinhua, 1 February 18.
    \15\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a), (c). The 
purpose of exploitation is one of the required elements of a 
trafficking case under Article 3 of the UN TIP Protocol. See also UN 
General Assembly, Report of the Ad Hoc Committee on the Elaboration of 
a Convention against Transnational Organized Crime on the Work of Its 
First to Eleventh Sessions, Addendum, Interpretive Notes for the 
Official Records (Travaux Preparatoires) of the Negotiation of the 
United Nations Convention against Transnational Organized Crime and the 
Protocols Thereto, A/55/383/Add.1, 3 November 00, para. 66; Bonny Ling, 
``Human Trafficking and China: Challenges of Domestic Criminalisation 
and Interpretation,'' Asia-Pacific Journal on Human Rights and the Law, 
Vol. 17, Issue 1 (2016), 171.
    \16\ Heidi Stockl et al., ``Trafficking of Vietnamese Women and 
Girls for Marriage in China,'' Global Health Research and Policy, Vol. 
2, No. 28 (9 October 17); Mi Ki Kyaw Myint, ``Can Myanmar's Libraries 
Help Combat Human Trafficking?'' Asia Foundation, 28 March 18; Jay 
Song, ``Labour Migration as Complementary Pathways for Refugees in the 
Asia-Pacific,'' Lowy Institute for International Policy, Migration and 
Border Policy Project Working Paper Number 9, April 2018, 2.
    \17\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2018, 139; 
Bonny Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law, Vol. 17, Issue 1 (2016), 177.
    \18\ For information on cross-border trafficking to and from China 
in previous reporting years, see CECC, 2017 Annual Report, 5 October 
17, 186; CECC, 2016 Annual Report, 6 October 16, 186; CECC, 2015 Annual 
Report, 8 October 15, 184.
    \19\ See, e.g., ``Crackdown on Human Traffickers Reveals 
`Vietnamese Bride' Trade,'' Global Times, 19 February 18; Nick Baker, 
``The Child Bride Trade Is Booming in Myanmar as the Gender Gap Bites 
in China,'' ABC, 7 October 17; Liberty Asia, ``ASEAN & ACTIP: Using a 
Regional Legal Framework To Fight a Global Crime,'' September 2017, 26, 
134.
    \20\ See, e.g., Katherine Fung, `` `Sisters' Help Women Sex 
Trafficked From China Flee U.S. Massage Parlors,'' Reuters, 12 March 
18; EU-China Dialogue on Migration and Mobility Support Project, 
International Organization for Migration and International Labour 
Organization, ``Seminar for Facilitating Network Building Among Anti-
Trafficking Criminal Investigation Experts, 16-17 January 2018, Sanya, 
Summary Report,'' last visited 14 May 18, 2, 4; Suzanne L. J. Kragten-
Heerdink et al., ``More Than Just `Pushing and Pulling': 
Conceptualizing Identified Human Trafficking in the Netherlands,'' 
Crime & Delinquency, 5 September 17.
    \21\ Nick Baker, ``The Child Bride Trade Is Booming in Myanmar as 
the Gender Gap Bites in China,'' ABC, 7 October 17; Su Myat Mon, 
``Women Targeted by Rampant Human Trafficking in Kachin,'' Frontier 
Myanmar, 11 December 17; Nay Myo Win, ``61 Human Trafficking Cases 
Recorded in Three Months,'' Eleven, 8 April 18.
    \22\ Niem Chheng and Daphne Chen, ``Woman Gets 7 Years for China 
Bride Scam,'' Phnom Penh Post, 8 January 18. See also Liberty Asia, 
``ASEAN & ACTIP: Using a Regional Legal Framework To Fight a Global 
Crime,'' September 2017.
    \23\ Ron Corben, ``UN Expert Calls on Laos To Boost Support for 
Child Sex Abuse Victims, Voice of America, 27 November 17; `` `Do Not 
Marry for Money,' '' Radio Free Asia, 17 April 18.
    \24\ ``Crackdown on Human Traffickers Reveals `Vietnamese Bride' 
Trade,'' Global Times, 19 February 18; ``Demand for Wives in China 
Endangers Women Who Live on Its Borders,'' Economist, 4 November 17; 
``Human Traffickers Sentenced, Vietnamese Mail-Order Brides Rescued,'' 
Global Times, 22 November 17. See also Heidi Stockl et al., 
``Trafficking of Vietnamese Women and Girls for Marriage in China,'' 
Global Health Research and Policy, Vol. 2, No. 28 (9 October 17).
    \25\ Zarni Mann, ``Two Men Arrested in Mandalay Over Foiled Attempt 
To Send 52 Illegal Workers to China,'' Irrawaddy, 23 February 18; 
``Myanmar Steps Up Combating Human Trafficking,'' Xinhua, 8 December 
17; ``Police Uncover Alleged Human Trafficking of Indonesians Into 
China,'' Jakarta Post, 24 November 17. See also Liberty Asia, ``ASEAN & 
ACTIP: Using a Regional Legal Framework To Fight a Global Crime,'' 
September 2017, 26, 134.
    \26\ Katherine Fung, `` `Sisters' Help Women Sex Trafficked From 
China Flee U.S. Massage Parlors,'' Reuters, 12 March 18; Kristin Hoppa 
and Tommy Witherspoon, ``Authorities Raid Vegas Buffet in Labor 
Trafficking Investigation,'' Waco Tribune-Herald, 1 June 18.
    \27\ U.S. Department of Labor, ``U.S. Department of Labor 
Investigation Finds $13.9 Million Due to Thousands of Chinese Employees 
Working on Saipan Casino and Hotel,'' 5 March 18.
    \28\ Sophia Yan, ``Chinese Workers Tricked Into Illegal Work on 
Saipan,'' Associated Press, 15 March 18. See also Liu Ruili, China 
Metallurgical Group Corporation and Metallurgical Corporation of China 
Ltd., ``MCC Group Forms MCC International Engineering Group Ltd. and 
Announces Leadership Appointments'' [Zhongye jituan zujian zhongye 
guoji gongcheng jituan youxian gongsi bing xuanbu lingdao banzi renming 
jueding], 25 March 13; China Metallurgical Group Corporation and 
Metallurgical Corporation of China Ltd., ``About Us,'' last visited 30 
May 18.
    \29\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``China,'' last visited 14 May 18; Office To Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report,'' June 2018, 141.
    \30\ Guo Shuhe and Liu Zhuoqun, ``Capturing the Homeless To Labor 
for Free, Four in Shandong Sentenced for Forcing Others Into Labor'' 
[Zhua liulanghan zuo mianfei laodongli shandong si ren yin qiangpo 
taren laodong huo xing], Procuratorial Daily, 26 February 18.
    \31\ Yujing Liu, ``Chinese Father and Son Accused of Enslaving 
Mentally Ill Men and Forcing Them To Work as Beggars,'' South China 
Morning Post, 5 April 18.
    \32\ Peter Bengsten, ``Hidden in Plain Sight: Forced Labour 
Constructing China,'' openDemocracy, 22 March 18; ``Tis the Season for 
Protests Over Unpaid Wages in China,'' Economist, 14 December 17; China 
Labour Bulletin, ``As Wage Arrears Escalate in the Run Up to the Lunar 
New Year, the Trade Union Needs To Act,'' 21 November 17; International 
Labour Organization, ``Questions and Answers on Forced Labour,'' 1 June 
12. The International Labour Organization lists ``withholding of 
wages'' as an indicator of forced labor.
    \33\ For information from previous years on forced labor in 
pretrial and administrative detention, see CECC, 2017 Annual Report, 5 
October 17, 187; CECC, 2016 Annual Report, 6 October 16, 187; CECC, 
2015 Annual Report, 8 October 15, 186.
    \34\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2.1, 2.2(c); 
International Labour Organization, ``Ratifications of CO29--Forced 
Labour Convention, 1930 (No. 29),'' last visited 10 July 18. Article 
2.1 defines forced or compulsory labor as ``all work or service which 
is exacted from any person under the menace of any penalty and for 
which the said person has not offered himself voluntarily.'' China has 
not ratified this convention.
    \35\ Xu Yingyan et al., ``SPP Launches Special Activities To 
Supervise and Protect Detainees' Legal Rights and Interests'' 
[Zuigaojian bushu kaizhan jiandu weihu zaiya renyuan hefa quanyi 
zhuanxiang huodong], Procuratorial Daily, 27 April 18; ``Fushun 
Municipality Detention Center'' [Fushun shi kanshousuo], Clear Wisdom, 
25 June 18. See also PRC Public Security Bureau Detention Center 
Regulations [Zhonghua renmin gongheguo kanshousuo tiaoli], issued and 
effective 17 March 90, arts. 2, 33, 34; ``Zhang Lin: Communist China's 
Detention Center System--Extorting Confessions Through Torture'' [Zhang 
lin: zhonggong guo kanshousuo zhidu--xingxun bigong], Epoch Times, 1 
May 18; Zhang Peihong, ``100 Facts About China's Detention Centers 
(Full Version)'' [Zhongguo kanshousuo bai tai (wanzheng ban)], Weibo, 
reprinted in Ifeng, 16 November 17.
    \36\ For information on compulsory drug detoxification centers from 
previous reporting years, see CECC, 2017 Annual Report, 5 October 17, 
187; CECC, 2016 Annual Report, 6 October 16, 187; CECC, 2015 Annual 
Report, 8 October 15, 186.
    \37\ Beijing Municipality Drug Detoxification Management Bureau, 
Regulations on Management of Compulsory Drug Detainees' Production 
[Beijing shi jiedu guanli ju qiangzhi geli jiedu renyuan shengchan 
laodong guanli guiding], issued 1 February 18, effective 1 March 18; 
Jinhua Municipal Bureau of Justice, ``Inspector Chen Zhong Visits 
Jiaxing Municipality Compulsory Drug Detoxification Center'' [Chen 
zhong xunshiyuan dao jiaxing shi qiangzhi geli jiedu suo], 26 January 
18; Wang Jian, ``Visiting Shaanxi Women's Compulsory Drug 
Detoxification Center: 80 Percent of Guards Are Female, Say They Are 
Made of `Cement' '' [Tanfang shaanxi nu qiangzhi geli jiedu suo'' nu 
ganjing zhan ba cheng, zi cheng ``shuini'' zuo de], The Paper, 8 March 
18. For relevant legal provisions, see PRC Narcotics Law [Zhonghua 
renmin gongheguo jindu fa], passed 29 December 07, effective 1 June 08, 
arts. 38, 41, 43, 47; State Council, Drug Detoxification Regulations 
[Jiedu tiaoli], issued 26 June 11; Ministry of Justice, Judicial and 
Administrative Bureaus Compulsory Drug Detoxification Work Regulations 
[Sifa xingzheng jiguan qiangzhi geli jiedu gongzuo guiding], issued 3 
April 13, effective 1 June 13, art. 34. See also Human Rights Watch, `` 
`Where Darkness Knows No Limits': Incarceration, Ill-Treatment, and 
Forced Labor as Drug Rehabilitation in China,'' January 2010, 27-31.
    \38\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3(a). Compulsory drug detoxification center 
detainee labor can be viewed as constituting trafficking under Article 
3(a) of the UN TIP Protocol, as authorities engage in the 
``harbouring'' and ``receipt of persons, by means of the threat or use 
of force . . . for the purpose of exploitation.'' According to Article 
3(a), exploitation includes ``forced labour.'' See also Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report,'' June 2017, 126, 128.
    \39\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2. See also 
Patrick Tibke, International Drug Policy Consortium, ``Drug Dependence 
Treatment in China: A Policy Analysis,'' February 2017, 8; Human Rights 
Watch, `` `Where Darkness Knows No Limits': Incarceration, Ill-
Treatment, and Forced Labor as Drug Rehabilitation in China,'' January 
2010, 27-31.
    \40\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13, 9.
    \41\ Ibid., 17-18; Human Rights Watch, ``China: Fully Abolish Re-
Education Through Labor,'' 8 January 13; State Council, Decision on the 
Issue of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang 
wenti de jueding], issued 3 August 57, item 2.
    \42\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13, 5; Human Rights Watch, ``China: Fully Abolish Re-Education 
Through Labor,'' 8 January 13; State Council, Decision on the Issue of 
Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang wenti de 
jueding], issued 3 August 57, item 3; State Council, Supplementary 
Provisions on Reeducation Through Labor [Guowuyuan guanyu laodong 
jiaoyang de buchong guiding], issued 29 November 79, items 1-2.
    \43\ National People's Congress Standing Committee, Decision on 
Abolishing Legal Provisions Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], issued and effective, 28 
December 13; Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 130.
    \44\ Sun Ying, ``Ministry of Justice: Vast Majority of Nation's 
Former Reeducation Through Labor Centers Have Been Turned Into 
Compulsory Drug Detoxification Centers'' [Sifabu: quanguo jueda duoshu 
yuan laojiao changsuo zhuan wei qiangzhi geli jiedu changsuo], China 
National Radio, 5 November 14.
    \45\ For information on compulsory drug detoxification centers from 
previous reporting years, see CECC, 2016 Annual Report, 6 October 16, 
187; CECC, 2015 Annual Report, 8 October 15, 186.
    \46\ Dui Hua Foundation, ``Call for Constitutional Review of 
Custody and Education,'' Dui Hua Human Rights Journal, 4 April 18; Gao 
Yuyang et al., ``Three Lawyers' Key Words for the Two Sessions'' [San 
wei lushi lianghui guanjianci], Beijing Youth Daily, 10 March 18; Wang 
Xiuzhong, ``Exclusive! CPPCC Delegate Zhu Zhengfu Recommends 
Constitutional Review of Compulsory Custody and Education for [Crime 
of] Prostitution'' [Dujia! Quanguozhengxie weiyuan zhu zhengfu jianyi 
dui maiyin piaochang qiangzhi shourong jiaoyu jinxing hexianxing 
shencha], Southern Metropolitan Daily, 25 February 18. For relevant 
legal provisions, see State Council, Measures on Custody and Education 
of Prostitutes [Maiyin piaochang renyuan shourong jiaoyu banfa], issued 
4 September 93, amended 8 January 11, arts. 2, 6, 13. See also Asia 
Catalyst, `` `Custody and Education': Arbitrary Detention for Female 
Sex Workers in China,'' December 2013, 8, 25-27.
    \47\ Dui Hua Foundation, ``Call for Constitutional Review of 
Custody and Education,'' Dui Hua Human Rights Journal, 4 April 18; Gao 
Yuyang et al., ``Three Lawyers' Key Words for the Two Sessions'' [San 
wei lushi lianghui guanjianci], Beijing Youth Daily, 10 March 18; Wang 
Xiuzhong, ``Exclusive! CPPCC Delegate Zhu Zhengfu Recommends 
Constitutional Review of Compulsory Custody and Education for [Crime 
of] Prostitution'' [Dujia! Quanguozhengxie weiyuan zhu zhengfu jianyi 
dui maiyin piaochang qiangzhi shourong jiaoyu jinxing hexianxing 
shencha], Southern Metropolitan Daily, 25 February 18.
    \48\ ``Uyghur Women and Children Endure Heavy Labor Amid Detentions 
in Xinjiang's Hotan,'' Radio Free Asia, 16 October 17.
    \49\ Ibid.
    \50\ Ibid.
    \51\ Ibid.
    \52\ State Council, Opinion on Further Carrying Out Reform of the 
Household Registration System [Guowuyuan guanyu jin yi bu tuijin huji 
zhidu gaige de yijian], issued 24 July 14; ``China To Help 100m Settle 
in Cities,'' Xinhua, reprinted in China Daily, 30 July 14; State 
Council General Office, ``Plan Promoting 100 Million Individuals in 
Cities Without Household Registration To Obtain Hukou'' [Tuidong 1 yi 
fei huji renkou zai chengshi luohu fang'an], issued 30 September 16, 
paras. 4-6; China Digital Times, ``Beijing To Scrap Urban-Rural 
Residency Distinction,'' 21 September 16.
    \53\ State Council, Opinion on Further Carrying Out Reform of the 
Household Registration System [Guowuyuan guanyu jin yi bu tuijin huji 
zhidu gaige de yijian], issued 30 July 14, paras. 6-7; Bingqin Li, 
``China Going Nowhere on Hukou Reform,'' East Asia Forum, 19 May 17; 
Priyanka Juneja, ``China's Hukou System: An Interview With Fei-Ling 
Wang,'' The Diplomat, 14 July 17.
    \54\ Hongbin Li et al., ``Human Capital and China's Future 
Growth,'' Journal of Economic Perspectives, Vol. 31, No. 1 (Winter 
2017), 28; China Labour Bulletin, ``Migrant Workers and Their 
Children,'' last visited 2 February 18; ``Chinese Cities Should Stop 
Expelling Chinese Migrants,'' Economist, 30 November 17.
    \55\ ``Chinese Cities Should Stop Expelling Chinese Migrants,'' 
Economist, 30 November 17; Chris Smith and Pun Ngai, ``Class and 
Precarity in China: A Contested Relationship,'' Chinoiresie, 14 
February 18.
    \56\ Peter Bengsten, ``Hidden in Plain Sight: Forced Labour 
Constructing in China,'' openDemocracy, 16 February 18; Genevieve 
LeBaron et al., ``Confronting the Root Causes of Forced Labour: 
Restrictive Mobility Regimes,'' openDemocracy, 10 January 18; Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report,'' June 2018, 140-41.
    \57\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed 3 April 92, amended and effective 27 October 01, arts. 9-11; 
Wang Jiangsong, ``A Six-Day Strike in Shanghai Caused by a $110 Pay 
Cut--Collective Action by Sanitation Workers in China's `New Era' of 
Stability Maintenance,'' China Change, 13 April 18; China Labour 
Bulletin, ``Labour Relations FAQ,'' September 2017. See also UN 
Committee on Economic, Social and Cultural Rights, Concluding 
Observations on the Second Periodic Report of China, including Hong 
Kong, China, and Macao, China, adopted by the Committee at its 40th 
Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 14, para. 23. For 
relevant international standards regarding the right to freely form and 
join independent unions, see International Labour Organization, ILO 
Convention (No. 87) Concerning Freedom of Association and Protection of 
the Right To Organise, 4 July 50, arts. 2, 3, 5; Universal Declaration 
of Human Rights, adopted and proclaimed by UN General Assembly 
resolution 217A (III) of 10 December 48, art. 23(4); International 
Covenant on Civil and Political Rights, adopted by UN General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 23 March 76, 
art. 22.1; International Covenant on Economic, Social and Cultural 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1.
    \58\ UN General Assembly, Report of the Special Rapporteur on the 
Rights to Freedom of Peaceful Assembly and of Association, Maina Kiai, 
A/71/385, 14 September 16, paras. 2, 4, 11, 74.
    \59\ Nick Baker, ``The Child Bride Trade Is Booming in Myanmar as 
the Gender Gap Bites in China,'' ABC, 7 October 17; Liberty Asia, 
``ASEAN & ACTIP: Using a Regional Legal Framework To Fight a Global 
Crime,'' September 2017, 26, 134; Zarni Mann, ``Two Men Arrested in 
Mandalay Over Foiled Attempt To Send 52 Illegal Workers to China,'' 
Irawaddy, 23 February 18.
    \60\ Nick Baker, ``The Child Bride Trade Is Booming in Myanmar as 
the Gender Gap Bites in China,'' ABC, 7 October 17; ``Demand for Wives 
in China Endangers Women Who Live on Its Borders,'' Economist, 4 
November 17; Liberty Asia, ``ASEAN & ACTIP: Using a Regional Legal 
Framework To Fight a Global Crime,'' September 2017, 26, 134; Heidi 
Stockl et al., ``Trafficking of Vietnamese Women and Girls for Marriage 
in China,'' Global Health and Research Policy, Vol. 2, No. 28 (9 
October 17).
    \61\ Hyun-Joo Lim, ``A Terrible Fate Awaits North Korean Women Who 
Escape to China,'' The Conversation, 2 October 17; Brian Padden, 
``North Korean Defector Speaks Out After China Repatriates Family,'' 
Voice of America, 16 January 18.
    \62\ ``Demand for Wives in China Endangers Women Who Live on Its 
Borders,'' Economist, 4 November 17; Hyun-Joo Lim, ``A Terrible Fate 
Awaits North Korean Women Who Escape to China,'' The Conversation, 2 
October 17; Erik Ortiz, ``Two Decades After Being Sold as Bride, North 
Korean Woman Finds Salvation in Seoul,'' NBC, 22 February 18.
    \63\ Heidi Stockl et al., ``Trafficking of Vietnamese Women and 
Girls for Marriage in China,'' Global Health and Research Policy, Vol. 
2, No. 28 (9 October 17); ``Demand for Wives in China Endangers Women 
Who Live on Its Borders,'' Economist, 4 November 17.
    \64\ ``Demand for Wives in China Endangers Women Who Live on Its 
Borders,'' Economist, 4 November 17; Heidi Stockl et al., ``Trafficking 
of Vietnamese Women and Girls for Marriage in China,'' Global Health 
and Research Policy, Vol. 2, No. 28 (9 October 17).
    \65\ ``Demand for Wives in China Endangers Women Who Live on Its 
Borders,'' Economist, 4 November 17; Heidi Stockl et al., ``Trafficking 
of Vietnamese Women and Girls for Marriage in China,'' Global Health 
and Research Policy, Vol. 2, No. 28 (9 October 17).
    \66\ For information on North Korean workers in China from previous 
reporting years, see CECC, 2017 Annual Report, 5 October 17, 188; CECC, 
2016 Annual Report, 6 October 16, 186-87.
    \67\ Jason Arterburn, C4ADS, ``Dispatched: Mapping Overseas Forced 
Labor in North Korea's Proliferation Finance System,'' 2 August 18, 7, 
9, 27-36; ``North Korean Overseas Laborers Give 70% of Wages to 
State,'' Daily NK, 10 October 17; Tim Sullivan, ``Americans May Eat 
Seafood Processed by North Korean Workers,'' Associated Press, 5 
October 17.
    \68\ Jason Arterburn, C4ADS, ``Dispatched: Mapping Overseas Forced 
Labor in North Korea's Proliferation Finance System,'' 2 August 18, 7, 
27; ``North Korean Overseas Laborers Give 70% of Wages to State,'' 
Daily NK, 10 October 17; Tim Sullivan, ``Americans May Eat Seafood 
Processed by North Korean Workers,'' Associated Press, 5 October 17.
    \69\ ``North Korean Overseas Laborers Give 70% of Wages to State,'' 
Daily NK, 10 October 17; Tim Sullivan, ``Americans May Eat Seafood 
Processed by North Korean Workers,'' Associated Press, 5 October 17; 
Jason Arterburn, C4ADS, ``Dispatched: Mapping Overseas Forced Labor in 
North Korea's Proliferation Finance System,'' 2 August 18, 7. According 
to the International Labour Organization, restrictions on workers' 
freedom of movement and withholding wages are indicators of forced 
labor. International Labour Organization, ``Questions and Answers on 
Forced Labour,'' 1 June 12.
    \70\ Yu Bokun, ``North Korean Businesses in China Start Countdown 
as Deadline for Closure Looms,'' Caixin, 27 October 17; Kim Chung Yeol, 
``More North Korean Factory Workers in Dandong Repatriated,'' Daily NK, 
9 October 17.
    \71\ ``North Korean Workers Return to China in Defiance of UN 
Restrictions,'' Radio Free Asia, 4 April 18; Takuya Hiraga, ``North 
Koreans Turn Again to China for Work Despite Sanctions,'' Asahi 
Shimbun, 26 April 18; Jenna McLaughlin, ``US Cracks Down on North 
Korea's Army of Overseas Workers,'' CNN, 25 June 18; Jason Arterburn, 
C4ADS, ``Dispatched: Mapping Overseas Forced Labor in North Korea's 
Proliferation Finance System,'' 2 August 18, 8-9.
    \72\ 2017 China Law Yearbook [2017 zhongguo falu nianjian] 
(Beijing: China Law Yearbook Press, 2017), 1168, table 1.
    \73\ 2016 China Law Yearbook [2016 zhongguo falu nianjian] 
(Beijing: China Law Yearbook Press, 2016), 1305, table 1.
    \74\ National Bureau of Statistics of China, ``2016 `Chinese 
Children's Development Summary (2011-2020)' Statistical Monitoring 
Report'' [2016 nian ``zhongguo ertong fazhan gangyao (2011-2020 nian)'' 
tongji jiance baogao], 27 October 17, 1(5)2.
    \75\ National Bureau of Statistics of China, `` `Chinese Children's 
Development Summary (2011-2020)' Midterm Statistical Monitoring 
Report'' [``Zhongguo ertong fazhan gangyao (2011-2020 nian)'' zhongqi 
tongji jiance baogao], 3 November 16, 1(5)2.
    \76\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 240; Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime (UN 
TIP Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a). The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling [the victim].'' The illegal sale of children 
for adoption thus can be considered trafficking under Chinese law. In 
contrast, under the UN TIP Protocol, illegal adoptions constitute 
trafficking only if the purpose is exploitation. UN General Assembly, 
Report of the Ad Hoc Committee on the Elaboration of a Convention 
against Transnational Organized Crime on the Work of Its First to 
Eleventh Sessions, Addendum, Interpretive Notes for the Official 
Records (Travaux Preparatoires) of the Negotiation of the United 
Nations Convention against Transnational Organized Crime and the 
Protocols Thereto, A/55/383/Add.1, 3 November 00, para. 66. See also 
Office To Monitor and Combat Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report,'' June 2018, 139; Bonny Ling, 
``Human Trafficking and China: Challenges of Domestic Criminalisation 
and Interpretation,'' Asia-Pacific Journal on Human Rights and the Law, 
Vol. 17, Issue 1 (2016), 166-67, 170-71.
    \77\  PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 240; Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime (UN 
TIP Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a). See also Bonny 
Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law, Vol. 17, Issue 1 (2016), 160, 166-70.
    \78\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 240; Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime (UN 
TIP Protocol), adopted by UN General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a). See also Bonny 
Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law, Vol. 17, Issue 1 (2016), 159, 170, 175.
    \79\ For information on Chinese government involvement in 
multilateral anti-trafficking efforts in previous reporting years, see 
CECC, 2017 Annual Report, 5 October 17, 189; CECC, 2016 Annual Report, 
6 October 16, 188; CECC, 2015 Annual Report, 8 October 15, 185.
    \80\ Memorandum of Understanding (MOU) on Cooperation against 
Trafficking in Persons in the Greater Mekong Sub-Region, signed 29 
October 04, reprinted in UN Action for Cooperation against Trafficking 
in Persons (UN-ACT), last visited 17 May 18. The six signatories to the 
MOU were Cambodia, China, Lao PDR, Burma (Myanmar), Thailand, and 
Vietnam.
    \81\ United Nations Action for Cooperation against Trafficking in 
Persons (UN-ACT), ``COMMIT Guidelines for Fair Recruitment Developed,'' 
20 October 17.
    \82\ Zhao Junfu, `` `Two Supremes' and International Organization 
for Migration Jointly Hold Research Seminar on Prosecution and 
Adjudication of Human Trafficking Cases'' [``Liang gao'' yu guoji yimin 
zuzhi hezuo juban renkou fanyun anjian qisu yu shenli yantao hui], 
Chinacourt.org, 27 March 18.
    \83\ ``Myanmar-China Border Liaison Office Opened in Myitkyina,'' 
Eleven Myanmar, 8 March 18; Mom Kunthear, ``China Agrees on Anti-Human 
Trafficking Cooperation,'' Khmer Times, 14 May 18; ``China, Laos To 
Intensify Efforts To Crack Down Cross-Border Crimes,'' Xinhua, 14 May 
18.
    \84\ For information on human trafficking in Hong Kong from 
previous reporting years, see CECC, 2017 Annual Report, 5 October 17, 
189-90; CECC, 2016 Annual Report, 6 October 16, 189-90; CECC, 2015 
Annual Report, 8 October 15, 187-88.
    \85\ Census and Statistics Department, Hong Kong Special 
Administrative Region, ``Hong Kong Annual Digest of Statistics'' 
[Xianggang tongji niankan], October 2017, 43, Table 2.12. The Hong Kong 
government refers to migrant domestic workers as ``foreign domestic 
helpers.'' For general information on migrant domestic workers, see 
International Labour Organization, ``Who Are Domestic Workers'' last 
visited 18 May 18; International Labour Organization, ``Migrant 
Domestic Workers,'' last visited 18 May 18.
    \86\ Jasmine Siu and Chris Lau, ``Judge Quashes Domestic Helper's 
Bid for Change to `Live-in' Rule in Hong Kong,'' South China Morning 
Post, 14 February 18; Jasmine Siu and Chris Lau, ``Hong Kong's Domestic 
Workers Share Stories of Ill-Treatment, Poor Living Conditions and 
Rights Abuses,'' South China Morning Post, 15 February 18; Centre for 
Comparative and Public Law, Faculty of Law, University of Hong Kong et 
al., ``Joint Submission of NGOs for the Universal Periodic Review (3rd 
Cycle) Hong Kong Special Administrative Region (HKSAR) China,'' March 
2018, paras. 44-45, 48, 50; Holmes Chan, ``NGO Task Force Identifies 63 
Victims of Human Trafficking in Hong Kong Using New Toolkit,'' Hong 
Kong Free Press, 31 July 18. For examples of employers abusing migrant 
domestic workers that emerged this past year, see, e.g., Clifford Lo, 
`` `I Really Want To Kill You': Hong Kong Woman Arrested After Video 
Shows Employer Hitting Indonesian Domestic Helper,'' South China 
Morning Post, 2 March 18; Jasmine Siu, ``Hong Kong Woman Jailed for 
Torturing Domestic Helper Erwiana Ordered To Pay Damages to Second 
Victim,'' South China Morning Post, 26 February 18.
    \87\ Centre for Comparative and Public Law, Faculty of Law, 
University of Hong Kong et al., ``Joint Submission of NGOs for the 
Universal Periodic Review (3rd Cycle) Hong Kong Special Administrative 
Region (HKSAR) China,'' March 2018, paras. 47-48, endnote 16; Harminder 
Singh, ``Hong Kong Domestic Helpers March To Demand Stronger Legal 
Protection Against Abuse,'' South China Morning Post, 18 December 17; 
Jasmine Siu and Chris Lau, ``Judge Quashes Domestic Helper's Bid for 
Change to `Live-in' Rule in Hong Kong,'' South China Morning Post, 14 
February 18.
    \88\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad [Cong waiguo shoupin lai gang jiating 
yonggong qianzheng/yanchang douliu qixian shenqing biao], last visited 
18 May 18, 6(ii); Hong Kong Special Administrative Region Government, 
Immigration Department, Employment Contract for a Domestic Helper 
Recruited From Outside Hong Kong, last visited 18 May 18, item 3; Hong 
Kong Special Administrative Region Government, Immigration Department, 
``Foreign Domestic Helpers,'' last visited 18 May 18, Q30.
    \89\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad [Cong waiguo shoupin lai gang jiating 
yonggong qianzheng/yanchang douliu qixian shenqing biao], last visited 
18 May 18, 6(vi); Hong Kong Special Administrative Region Government, 
Immigration Department, ``Conditions of Employment for Foreign Domestic 
Helpers: A General Guide to the Helper,'' last visited 18 May 18, item 
3; Hong Kong Special Administrative Region Government, Immigration 
Department, ``Foreign Domestic Helpers,'' last visited 18 May 18, Q33, 
Q44.
    \90\ Centre for Comparative and Public Law, Faculty of Law, 
University of Hong Kong et al., ``Joint Submission of NGOs for the 
Universal Periodic Review (3rd Cycle) Hong Kong Special Administrative 
Region (HKSAR) China,'' March 2018, paras. 45-46, 48, 50. See also 
Jasmine Siu and Chris Lau, ``Judge Quashes Domestic Helper's Bid for 
Change to `Live-in' Rule in Hong Kong,'' South China Morning Post, 14 
February 18; Harminder Singh, ``Hong Kong Domestic Helpers March To 
Demand Stronger Legal Protection Against Abuse,'' South China Morning 
Post, 18 December 17.
    \91\ Karen Cheung, ``Hong Kong Domestic Worker Loses Legal Bid To 
Overturn Compulsory Live-in Rule,'' Hong Kong Free Press, 14 February 
18; Jasmine Siu and Chris Lau, ``Judge Quashes Domestic Helper's Bid 
for Change to `Live-in' Rule in Hong Kong,'' South China Morning Post, 
14 February 18.
    \92\ Karen Cheung, ``Hong Kong Domestic Worker Loses Legal Bid To 
Overturn Compulsory Live-in Rule,'' Hong Kong Free Press, 14 February 
18; Jasmine Siu and Chris Lau, ``Judge Quashes Domestic Helper's Bid 
for Change to `Live-in' Rule in Hong Kong,'' South China Morning Post, 
14 February 18.
    \93\ Karen Cheung, ``Hong Kong Domestic Worker Loses Legal Bid To 
Overturn Compulsory Live-in Rule,'' Hong Kong Free Press, 14 February 
18. See also Jasmine Siu and Chris Lau, ``Judge Quashes Domestic 
Helper's Bid for Change to `Live-in' Rule in Hong Kong,'' South China 
Morning Post, 14 February 18. For more information on the Asian 
Migrants Coordinating Body, see the group's Facebook page at https://
www.facebook.com/groups/amcb.hk/.
    \94\ Jeffie Lam and Harminder Singh, ``Funnel Foreign Domestic 
Workers Overseas Illegally and Face Full Force of Law, Carrie Lam Warns 
Hong Kong Employment Agencies,'' South China Morning Post, 14 November 
17; Billy SK Wong, ``Hong Kong, Singapore Key Centres of Trafficking 
Ring Sending Thousands of Filipino Helpers to Russia,'' South China 
Morning Post, 16 November 17; Billy SK Wong, ``Swindled by Hong Kong 
Agencies, Filipino Helpers Face Debt, Fear and Broken Dreams in 
Russia,'' South China Morning Post, 20 November 17.
    \95\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], issued 31 December 72, amended 16 November 17, sec. 129(1); 
Centre for Comparative and Public Law, Faculty of Law, University of 
Hong Kong et al., ``Joint Submission of NGOs for the Universal Periodic 
Review (3rd Cycle) Hong Kong Special Administrative Region (HKSAR) 
China,'' March 2018, para. 49.
    \96\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, No 
15 of 2015, HCAL 15/2015, 23 December 16, paras. 351, 355-57, 366-67. 
For a discussion of the legal issues under consideration in the case, 
see paragraphs 162 and 163. See also Adam Severson, ``Reviewing Hong 
Kong's Human Trafficking Case,'' Justice Centre Hong Kong (blog), 15 
January 16; Eddie Lee, ``South Asian in Judicial Review Had To Return 
to Hong Kong for Unpaid Wages, High Court Hears,'' South China Morning 
Post, 15 January 16; Legislative Council of the Hong Kong Special 
Administrative Region, Hong Kong Bill of Rights Ordinance (Cap. 383) 
[Di 383 zhang xianggang renquan fa'an tiaoli], issued 8 June 91, 
amended 15 February 17, sec. 8, art. 4.
    \97\ Hong Kong Special Administrative Region Government, ``LCQ5: 
Combating Trafficking in Persons,'' 21 March 18; Raquel Carvalho, 
``Forced Labour Must Be Criminalised in Hong Kong To Protect Thousands 
of `Invisible' Victims, Raza Husain QC Tells High Court,'' South China 
Morning Post, 10 May 18; Raquel Carvalho, ``Hong Kong Under No 
Obligation To Introduce Specific Criminal Legislation Against Forced 
Labour, David Pannick QC, Defending Government, Tells High Court,'' 
South China Morning Post, 9 May 18. The draft bill was reportedly based 
on the United Kingdom's Modern Slavery Act.
    \98\ Hong Kong Special Administrative Region Government, ``LCQ5: 
Combating Trafficking in Persons,'' 21 March 18; Patricia Ho and 
Manisha Wijesinghe, Daly, Ho & Associates, ``Hong Kong's New Human 
Trafficking Action Plan--A Rhetorical Manoeuvre or Reason for Hope? '' 
Hong Kong Free Press, 22 March 18.
    \99\ Patricia Ho and Manisha Wijesinghe, Daly, Ho & Associates, 
``Hong Kong's New Human Trafficking Action Plan--A Rhetorical Manoeuvre 
or Reason for Hope?'' Hong Kong Free Press, 22 March 18; Christy Leung 
and Raquel Carvalho, ``Hong Kong Launches Action Plan on Human 
Trafficking but Critics Say More Must Be Done,'' South China Morning 
Post, 21 March 18; Raquel Carvalho, ``Legislator and Lawyers Push for 
Bill Against Human Trafficking in Hong Kong,'' South China Morning 
Post, 8 April 18.
    \100\ In the High Court of the Hong Kong Special Administrative 
Region Court of Appeal Civil Appeal No 14 of 2017 (On Appeal From HCAL 
15/2015), CACV 14/2017, [2018] HKCA 473, 2 August 18, paras. 132, 187.
    \101\ United Nations Treaty Collection, Chapter XVIII, Penal 
Matters, 12.a., Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, last visited 
3 July 18. See also UN Committee on the Elimination of Discrimination 
against Women, Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, adopted by the Committee at its 59th 
Session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 
14, para. 56.


                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China

                     North Korean Refugees in China


                              Introduction

    During the Commission's 2018 reporting year, the Chinese 
government's policy of detaining North Korean refugees and 
repatriating them to the Democratic People's Republic of Korea 
(DPRK) remained in place, despite substantial evidence that 
repatriated persons face torture, imprisonment, forced labor, 
execution, and other inhuman treatment.\1\ The Chinese 
government regards North Korean refugees in China as illegal 
economic migrants \2\ and maintains a policy of forcible 
repatriation based on a 1998 border protocol with the DPRK.\3\ 
China's repatriation of North Korean refugees contravenes its 
international obligations under the 1951 UN Convention Relating 
to the Status of Refugees and its 1967 Protocol, to which China 
has acceded.\4\ China is also obligated under the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment 
or Punishment to refrain from repatriating persons if there are 
``substantial grounds for believing that [they] would be in 
danger of being subjected to torture.'' \5\

             Repatriation of Refugees and Border Conditions

    This past year, heightened security measures along the 
China-North Korea and China-Southeast Asia borders increased 
the risks North Korean refugees face, and may be limiting the 
outflow of refugees from the DPRK. South Korean Ministry of 
Unification data indicated that 1,127 North Korean refugees 
reached South Korea in 2017, continuing a trend of significant 
decline since 2009 when the yearly number of refugees entering 
South Korea peaked at 2,914.\6\ The North Korean government's 
imprisonment and torture of repatriated North Koreans render 
North Koreans in China refugees sur place who fear persecution 
upon return to their country of origin, regardless of their 
reason for leaving the DPRK.\7\ The Chinese government, 
however, has refused to recognize them as such, insisting that 
the refugees are illegal economic migrants.\8\ According to 
South Korea-based news media Daily NK, after North Korean 
leader Kim Jong-un's March 2018 visit to China, Chinese 
authorities increased the monetary reward for reporting North 
Korean refugees hiding inside China.\9\ As a result, Chinese 
authorities reportedly caught and detained many North Korean 
refugees.\10\
    Throughout the 2018 reporting year, Chinese authorities 
reportedly detained, and in some cases, repatriated North 
Korean refugees to the DPRK:

        <bullet> September 2017. Chinese authorities reportedly 
        detained a group of eight North Korean refugees near 
        the China-Laos border.\11\
        <bullet> November 2017. Chinese authorities reportedly 
        detained a group of 10 North Korean refugees--which 
        included a young boy, his mother, and a nuclear 
        scientist--in Shenyang municipality, Liaoning 
        province.\12\ Authorities later repatriated the group 
        to the DPRK, after which the nuclear scientist 
        reportedly committed suicide in detention.\13\ 
        According to an April 2018 Telegraph report, in a rare 
        event, North Korean authorities released the mother and 
        the boy, possibly as a result of an ``improvement in 
        inter-Korean relations'' and ``pressure from the 
        international community.''\14\
        <bullet> March 2018. Prior to North Korean leader Kim 
        Jong-un's visit to China in late March, Chinese 
        authorities reportedly detained seven North Korean 
        refugees in the following two locations: a railway 
        station in Shenyang and an unknown location in Kunming 
        municipality, Yunnan province, near the China-Laos 
        border.\15\ Chinese authorities reportedly detained an 
        additional 30 North Korean refugees during and after 
        Kim's visit to China.\16\ The South Korean government 
        reportedly considered stepping up efforts to prevent 
        repatriation of North Korean refugees in China 
        following the detention of the 30 refugees.\17\ 
        According to reports, Chinese authorities released the 
        30 refugees due to international pressure.\18\
        <bullet> July to August 2018. Chinese authorities 
        reportedly detained a married North Korean couple at an 
        unknown location in early July, after which the wife 
        committed suicide in detention.\19\ Chinese authorities 
        repatriated the husband and the wife's body to the DPRK 
        in August.\20\

                   Crackdown on Foreign Missionaries

    During this reporting year, Chinese authorities appeared to 
have intensified crackdowns on organizations and individuals, 
particularly South Korean Christian missionaries and churches, 
that have played a crucial role in assisting and facilitating 
the movement of North Korean refugees outside the DPRK.

        <bullet> December 2017 to January 2018. According to 
        international media reports, Chinese authorities 
        deported 32 South Korean missionaries who had been 
        based in Yanji city, Yanbian Korean Autonomous 
        Prefecture (KAP), Jilin province.\21\ Some of the 
        missionaries reportedly had been assisting North Korean 
        refugees.\22\
        <bullet> February 2018. According to international 
        media reports, the South Korean Ministry of Foreign 
        Affairs confirmed that Chinese authorities had detained 
        several South Korean missionaries in Yanbian KAP, 
        including a missionary surnamed Kim who was detained 
        for violating immigration law.\23\ Chinese authorities 
        also reportedly detained four Christian missionaries in 
        Yanji, including two Chinese citizens and a Korean 
        American.\24\

    Furthermore, according to South Korean and international 
media reports, Chinese authorities in the three northeastern 
provinces of Heilongjiang, Jilin, and Liaoning have expelled 
hundreds of South Korean missionaries since late 2016.\25\ The 
expulsion of South Korean missionaries reportedly has resulted 
in the closure of many South Korean-run churches in the 
region.\26\ Approximately 1,000 South Korean missionaries 
reportedly had been working in China, mostly in the northeast 
region.\27\ Many of these missionaries have assisted North 
Korean refugees in fleeing to South Korea and other 
countries.\28\ Sources also indicate that the expulsion of 
South Korean missionaries may be connected to Chinese 
authorities' crackdown on ``illicit religious activities.'' 
\29\

                   Trafficking of North Korean Women

    North Korean women who enter China illegally remain 
particularly vulnerable to human trafficking. The demand for 
North Korean women has been linked to a sex ratio imbalance in 
China exacerbated by the Chinese government's population 
planning policies.\30\ Sources indicate that the majority of 
North Korean refugees leaving the DPRK are women,\31\ many of 
whom are trafficked by force or deception from the DPRK into or 
within China for the purposes of forced marriage and commercial 
sexual exploitation.\32\ The Chinese government's refusal to 
recognize these women as refugees denies them legal protection 
and may encourage the trafficking of North Korean women and 
girls within China.\33\ China is obligated under the Convention 
on the Elimination of All Forms of Discrimination against Women 
and the UN Protocol to Prevent, Suppress and Punish Trafficking 
in Persons, Especially Women and Children, to take measures to 
safeguard trafficking victims and suppress all forms of 
trafficking of women.\34\ [For more information on the sex 
ratio imbalance and the trafficking of women in China, see 
Section II--Population Control and Section II--Human 
Trafficking.]

              Children of North Korean and Chinese Parents

    Many children born to Chinese fathers and North Korean 
mothers remain deprived of basic rights to education and other 
public services, owing to the children's lack of legal resident 
status in China. According to some estimates, the population of 
children born in China to North Korean women ranges between 
20,000 and 30,000.\35\ The PRC Nationality Law provides that 
all children born in China are entitled to Chinese nationality 
if either parent is a Chinese citizen.\36\ Chinese authorities 
reportedly continue to largely deprive these children of their 
rights to birth registration and nationality.\37\ Without proof 
of resident status, these children are unable to access 
education and other public services.\38\ The denial of 
nationality rights and access to education for these children 
contravenes China's obligations under the Convention on the 
Rights of the Child.\39\


                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China
    Notes to Section II--North Korean Refugees in China

    \1\ See, e.g., ``Fear of Forced Repatriation Rising Among Defectors 
in China,'' Daily NK, 12 October 17; ``North Korean Defector Speaks Out 
After China Repatriates Family,'' Voice of America, 16 January 18; UN 
Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46. In November 2015, in its Concluding Observations on the Fifth 
Periodic Report of China, the UN Committee against Torture noted that 
``over 100 testimonies received by United Nations sources . . . in 
which nationals of the Democratic People's Republic of Korea indicate 
that persons forcibly repatriated to the Democratic People's Republic 
of Korea have been systematically subjected to torture and ill-
treatment.''
    \2\ Human Rights Watch, ``Human Rights in North Korea,'' 5 June 18; 
``North Korean Defector Speaks Out After China Repatriates Family,'' 
Voice of America, 16 January 18; ``Experts Urge Pressure China To Stop 
Repatriating Defectors,'' Daily NK, 15 November 17.
    \3\ Democratic People's Republic of Korea Ministry of State 
Security and People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Areas, signed 8 July 98, 
effective 28 August 98, arts. 4, 9. The protocol commits each side to 
treat as illegal those border crossers who do not have proper visa 
certificates, except in cases of ``calamity or unavoidable factors.''
    \4\ Convention Relating to the Status of Refugees, adopted on 28 
July 51 by the UN Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429(V) of 14 December 50, entry into force 22 April 54, 
arts. 1(A)(2), 33(1). Article 1 of the 1951 Convention, as amended by 
the 1967 Protocol, defines a refugee as someone who, ``owing to well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country . . ..'' Article 33 of the 1951 Convention mandates that, 
``No Contracting State shall expel or return (`refouler') a refugee in 
any manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' United Nations Treaty Collection, Chapter V, Refugees and 
Stateless Persons, Convention Relating to the Status of Refugees, last 
visited 16 April 18. China acceded to the Convention Relating to the 
Status of Refugees on September 24, 1982. Protocol Relating to the 
Status of Refugees (1967 Protocol), adopted by UN General Assembly 
resolution 2198 (XXI) of 16 December 66, entry into force 4 October 67; 
United Nations Treaty Collection, Chapter V, Refugees and Stateless 
Persons, Protocol Relating to the Status of Refugees, last visited 16 
April 18. China acceded to the Protocol Relating to the Status of 
Refugees on September 24, 1982. See also Human Rights Watch, ``Human 
Rights in North Korea,'' 5 June 18; Evan Jones, ``North Koreans Can't 
Escape Human Rights Abuses, Even When They Flee,'' Huffington Post, 25 
January 18.
    \5\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
3. Article 3 states that, ``No State Party shall expel, return 
(`refouler') or extradite a person to another State where there are 
substantial grounds for believing that he would be in danger of being 
subjected to torture.'' United Nations Treaty Collection, Chapter IV, 
Human Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, last visited 16 April 18. China 
signed the Convention on December 12, 1986, and ratified it on October 
4, 1988. UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46. In February 2016, in its Concluding Observations on the Fifth 
Periodic Report of China's compliance with the Convention, the UN 
Committee against Torture stated its concerns about China's lack of 
``national asylum legislation and administrative procedures'' for 
determining refugee status, as well as China's ``rigorous policy of 
forcibly repatriating all nationals of the [DPRK] on the ground that 
they have illegally crossed the border solely for economic reasons.'' 
See also Evan Jones, ``North Koreans Can't Escape Human Rights Abuses, 
Even When They Flee,'' Huffington Post, 25 January 18.
    \6\ Ministry of Unification, Republic of Korea, ``Policy on North 
Korean Defectors,'' last visited 10 July 18; ``No. of Defections by 
North Koreans Falls 21 Pct in 2017: Data,'' Yonhap News Agency, 5 
January 18; ``North Korean Defector Numbers Slump as Controls 
Tighten,'' Agence France-Presse, reprinted in South China Morning Post, 
5 January 18.
    \7\ UN High Commissioner for Refugees, Refugee Protection and 
International Migration, 17 January 07, paras. 20-21; Human Rights 
Watch, ``Human Rights in North Korea,'' 5 June 18; Ariana King, ``North 
Korean Defector Describes Horrors Following Chinese Repatriation,'' 
Nikkei Asian Review, 12 December 17.
    \8\ Human Rights Watch, ``Human Rights in North Korea,'' 5 June 18; 
``North Korean Defector Speaks Out After China Repatriates Family,'' 
Voice of America, 16 January 18; ``Antonio Guterres To Be Next UN 
Secretary-General,'' Dong-a Ilbo, 7 October 16.
    \9\ ``Chinese Authorities Raise Reward Money for North Korean 
Defectors,'' Daily NK, 24 April 18.
    \10\ Ibid.
    \11\ ``North Korean Authorities Resort to All Tactics To Catch 
Defectors,'' Daily NK, 27 October 17.
    \12\ Sofia Lotto Persio, ``North Korean Defector Numbers Fall to 
Lowest Level Since Kim Jong Un Took Power,'' Newsweek, 5 January 18; 
``North Korean Nuclear Scientist Commits Suicide on Forced Return From 
China,'' Radio Free Asia, 28 December 17; Taehoon Lee and Joshua 
Berlinger, ``Defector's Family Returned to North Korea After Being 
Caught in China,'' CNN, 29 November 17.
    \13\ Sofia Lotto Persio, ``North Korean Defector Numbers Fall to 
Lowest Level Since Kim Jong Un Took Power,'' Newsweek, 5 January 18; 
``North Korean Nuclear Scientist Commits Suicide on Forced Return From 
China,'' Radio Free Asia, 28 December 17.
    \14\ Nicola Smith, ``North Korea Releases Young Mother Caught 
Trying To Defect, in Unusual Move Amid Diplomatic Thaw,'' Telegraph, 9 
April 18.
    \15\ Kim Myong-song, ``7 N. Korean Defectors Arrested in China,'' 
Chosun Ilbo, 30 March 18.
    \16\ ``Yielding to International Pressure, China Releases 30 North 
Korean Defectors'' [Qufu yu guoji yali zhongguo shifang 30 ming 
tuobeizhe], Liberty Times Net, 17 April 18; Dagyum Ji, ``Seoul May Send 
Staff to China-DPRK Border To Prevent Defector Repatriations: MOU,'' NK 
News, 6 April 18.
    \17\ Dagyum Ji, ``Seoul May Send Staff to China-DPRK Border To 
Prevent Defector Repatriations: MOU,'' NK News, 6 April 18.
    \18\ ``Bowing to International Pressure? China's Rare Release of 30 
North Korean Defectors'' [Xiang guoji yali ditou? zhongguo hanjian fu 
shifang 30 ming tuobeizhe], Apple Daily, 17 April 18; Lee Kil-seong, 
``China Frees 30 N. Korean Defectors,'' Chosun Ilbo, 18 April 18; 
``Yielding to International Pressure, China Releases 30 North Korean 
Defectors'' [Qufu yu guoji yali zhongguo shifang 30 ming tuobeizhe], 
Liberty Times Net, 17 April 18.
    \19\ Kim Yoo Jin, ``Defectors Choose Suicide Over Arrest and 
Repatriation,'' Daily NK, 16 August 18.
    \20\ Ibid.
    \21\ Chen Jianyu, ``To Counter THAAD, Mainland China Expelled 32 
South Korean Missionaries'' [Fanzhi sade lu quzhu 32 ming nanhan 
chuanjiaoshi], China Times, 12 February 17; ``Many South Korean 
Christian Missionaries Detained in China and Expelled'' [Duo ming 
nanhan de jidujiao chuanjiaoshi zai zhongguo bei daibu he quzhu], 
AsiaNews, 2 November 17.
    \22\ ``Many South Korean Christian Missionaries Detained in China 
and Expelled'' [Duo ming nanhan de jidujiao chuanjiaoshi zai zhongguo 
bei daibu he quzhu], AsiaNews, 2 November 17.
    \23\ Ibid.; Chen Jianyu, ``To Counter THAAD, Mainland China 
Expelled 32 South Korean Missionaries'' [Fanzhi sade lu quzhu 32 ming 
nanhan chuanjiaoshi], China Times, 12 February 17.
    \24\ ``Many South Korean Christian Missionaries Detained in China 
and Expelled'' [Duo ming nanhan de jidujiao chuanjiaoshi zai zhongguo 
bei daibu he quzhu], AsiaNews, 2 November 17; Chen Jianyu, ``To Counter 
THAAD, Mainland China Expelled 32 South Korean Missionaries'' [Fanzhi 
sade lu quzhu 32 ming nanhan chuanjiaoshi], China Times, 12 February 
17.
    \25\ ``China Expells Hundreds of South Korean Christians,'' 
BosNewsLife, 10 December 17; Zhuang Ruimeng, ``Missionaries Expelled by 
China for Assisting North Korean Defectors'' [Xiezhu tuobeizhe 
xuanjiaoshi zao zhongguo quzhu], Awakening News Networks, 9 November 
17; Jon Rogers, ``China Deports Christians for Supporting North Korea 
Defectors,'' Express, 31 October 17.
    \26\ ``China Expells Hundreds of South Korean Christians,'' 
BosNewsLife, 10 December 17; Zhuang Ruimeng, ``Missionaries Expelled by 
China for Assisting North Korean Defectors'' [Xiezhu tuobeizhe 
xuanjiaoshi zao zhongguo quzhu], Awakening News Networks, 9 November 
17; Jon Rogers, ``China Deports Christians for Supporting North Korea 
Defectors,'' Express, 31 October 17.
    \27\ Chen Jianyu, ``To Counter THAAD, Mainland China Expelled 32 
South Korean Missionaries'' [Fanzhi sade lu quzhu 32 ming nanhan 
chuanjiaoshi], China Times, 12 February 17; Zhuang Ruimeng, 
``Missionaries Expelled by China for Assisting North Korean Defectors'' 
[Xiezhu tuobeizhe xuanjiaoshi zao zhongguo quzhu], Awakening News 
Networks, 9 November 17; Jon Rogers, ``China Deports Christians for 
Supporting North Korea Defectors,'' Express, 31 October 17.
    \28\ Chen Jianyu, ``To Counter THAAD, Mainland China Expelled 32 
South Korean Missionaries'' [Fanzhi sade lu quzhu 32 ming nanhan 
chuanjiaoshi], China Times, 12 February 17; Zhuang Ruimeng, 
``Missionaries Expelled by China for Assisting North Korean Defectors'' 
[Xiezhu tuobeizhe xuanjiaoshi zao zhongguo quzhu], Awakening News 
Networks, 9 November 17; Jon Rogers, ``China Deports Christians for 
Supporting North Korea Defectors,'' Express, 31 October 17.
    \29\ Zhuang Ruimeng, ``Missionaries Expelled by China for Assisting 
North Korean Defectors'' [Xiezhu tuobeizhe xuanjiaoshi zao zhongguo 
quzhu], Awakening News Networks, 9 November 17; Chen Jianyu, ``To 
Counter THAAD, Mainland China Expelled 32 South Korean Missionaries'' 
[Fanzhi sade lu quzhu 32 ming nanhan chuanjiaoshi], China Times, 12 
February 17; ``China Expells [sic] Hundreds of South Korean 
Christians,'' BosNewsLife, 10 December 17.
    \30\ See, e.g., Steven W. Mosher, ``North Korea Exports Women to 
China,'' Fox News, 12 December 17; Matthew Little, ``Many North Korean 
Women Face Forced Marriage in China, or Rape in North Korean Prisons,'' 
Epoch Times, 14 December 17; Thomas Maresca, ``Why the Overwhelming 
Majority of North Korean Defectors Are Women,'' USA Today, 10 December 
17.
    \31\ Ministry of Unification, Republic of Korea, ``Policy on North 
Korean Defectors,'' last visited 10 July 18. South Korean Ministry of 
Unification data show that as of July 2018, 83 percent of North Korean 
refugees (1,127) who entered South Korea in 2017 were females; and 72 
percent of all North Korean refugees (31,827) who entered South Korea 
since 1998 were females. See also Erik Ortiz, ``Two Decades After Being 
Sold, North Korean Woman Finds Salvation in Seoul,'' NBC News, 23 
February 18; Faras Ghani, `` `Father of Defectors' on Life After North 
Korea,'' Al Jazeera, 21 February 18.
    \32\ Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of 
Human Trafficking,'' Yonhap News Agency, 22 December 17; Steven W. 
Mosher, ``North Korea Exports Women to China,'' Fox News, 12 December 
17; Matthew Little, ``Many North Korean Women Face Forced Marriage in 
China, or Rape in North Korean Prisons,'' Epoch Times, 14 December 17.
    \33\ Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of 
Human Trafficking,'' Yonhap News Agency, 22 December 17; Matthew 
Little, ``Many North Korean Women Face Forced Marriage in China, or 
Rape in North Korean Prisons,'' Epoch Times, 14 December 17; Casey 
Lartigue, Jr., ``North Korean Defectors' Take on `#MeToo' Campaign,'' 
Korea Times, 14 February 18.
    \34\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
10 July 18. China signed the Convention on July 17, 1980, and ratified 
it on November 4, 1980. Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by UN General Assembly resolution 55/25 of 15 November 00, 
entry into force 25 December 03, arts. 6-9; United Nations Treaty 
Collection, Chapter XVIII, Penal Matters, Protocol To Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime, last visited 10 July 18. China acceded to the Protocol 
on February 8, 2010.
    \35\ Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of 
Human Trafficking,'' Yonhap News Agency, 22 December 17; Rachel Judah, 
``On Kim Jong-un's Birthday, Remember the 30,000 Stateless Children He 
Has Deprived of Recognition,'' Independent, 7 January 18.
    \36\ PRC Nationality Law [Zhonghua renmin gongheguo guoji fa], 
passed and effective 10 September 80, art. 4. Article 4 of the PRC 
Nationality Law provides that, ``Any person born in China whose parents 
are both Chinese nationals and one of whose parents is a Chinese 
national shall have Chinese nationality.''
    \37\ Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of 
Human Trafficking,'' Yonhap News Agency, 22 December 17; Rachel Judah, 
``On Kim Jong-un's Birthday, Remember the 30,000 Stateless Children He 
Has Deprived of Recognition,'' Independent, 7 January 18.
    \38\ Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of 
Human Trafficking,'' Yonhap News Agency, 22 December 17; Rachel Judah, 
``On Kim Jong-un's Birthday, Remember the 30,000 Stateless Children He 
Has Deprived of Recognition,'' Independent, 7 January 18.
    \39\ Convention on the Rights of the Child, adopted by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2, 7, 28(1)(a). Under the Convention on the Rights 
of the Child, China is obligated to register children born within the 
country immediately after birth and also provide all children with 
access to education without discrimination on the basis of nationality. 
See also Evan Jones, ``North Koreans Can't Escape Human Rights Abuses, 
Even When They Flee,'' Huffington Post, 25 January 18.


                                                  Public Health
                                                Public Health

                             Public Health


                       Institutional Developments

    During the Commission's 2018 reporting year, the Chinese 
government and Communist Party implemented institutional 
reforms to support evolving public health priorities.\1\ For 
example, in March 2018, authorities announced a plan to 
restructure Party and government agencies, including merging 
the National Health and Family Planning Commission and other 
agencies into a new National Health Commission.\2\ According to 
the plan, the new commission will turn its focus away from 
treatment of disease to health more broadly, including such 
issues as China's aging population.\3\ A July 2018 State 
Council General Office guiding opinion further clarified the 
new commission's role, and called for implementation of Party 
policy and strengthened Party leadership.\4\ Authorities also 
engaged in international exchanges focused on public health 
issues, in line with recent official public health policy.\5\ 
For example, the Chinese government hosted an international 
symposium on HIV/AIDS in Beijing municipality in November 
2017.\6\ The September 2017 inaugural U.S.-China Social and 
Cultural Dialogue included health among areas for potential 
bilateral cooperation.\7\

                      Health-Based Discrimination

    Health-based discrimination in employment and education 
continued,\8\ despite protections in Chinese law.\9\ In one 
case reported in August 2017, authorities in Fuzhou 
municipality, Fujian province, cited physical examination 
results as grounds to deny a teaching job to Lin Chuanhua, 
whose right hand is missing and who achieved the top score on 
the application examination.\10\ At the time, Fujian provincial 
measures disqualified applicants with certain physical 
characteristics--including disabilities of the limbs \11\--
violating rights guaranteed in Chinese law.\12\ In May 2018, 
the Fujian Provincial Bureau of Education amended the measures, 
removing the standards regarding disabilities of the limbs.\13\ 
In another case, Zhu Mingjian--who has a speech impediment--
observed an advertisement for a desk job with the Zhuhai 
Municipal Fire Department, in Guangdong province, that 
disqualified disabled applicants.\14\ Zhu reportedly filed a 
complaint with the Zhuhai Municipal Bureau of Human Resources 
and Social Security,\15\ but the Commission did not observe 
further reports on this case. The Commission observed reports 
that schools in China continued to experience shortcomings with 
accessible facilities for disabled students.\16\ To meet the 
government's goal of increased school completion rates,\17\ 
this year authorities in different localities issued guidance 
\18\ implementing a July 2017 State Council General Office 
circular that included a focus on disabled students,\19\ such 
as prioritizing impoverished disabled students, sending 
teachers to the homes of severely disabled students, 
prioritizing funding to send disabled students to school, and 
developing educational materials for disabled students.\20\

                              Transparency

    Authorities continued to suppress public health information 
in sensitive cases.\21\ For example, for three months in 2017--
between August and November--the Hunan Provincial Health and 
Family Planning Commission did not acknowledge publicly a 
tuberculosis outbreak at a high school in Taojiang county, 
Yiyang municipality, Hunan province, that resulted in 29 
confirmed cases.\22\ When contacted, a county disease control 
official reportedly told a journalist that only Taojiang County 
Communist Party Committee propaganda officials were authorized 
to provide information about the incident.\23\ Authorities 
later dismissed multiple county government and Party officials 
in connection to their mishandling of the incident.\24\ In 
another case, in January 2018, authorities in Liangcheng 
county, Wulanchabu municipality, Inner Mongolia Autonomous 
Region, arrested medical doctor Tan Qindong \25\ on suspicion 
of ``damaging commodity reputation'' \26\ after he posted a 
warning online about the potential negative health effects of a 
medicinal wine sold by Inner Mongolia Hongmao National 
Pharmaceutical, which officials in Liangcheng planned to 
encourage to become a publicly listed company.\27\ Authorities 
released Tan on bail in April 2018.\28\

                                HIV/AIDS

    This past year, authorities continued efforts--in some 
cases taking new approaches--to prevent the spread of HIV/
AIDS,\29\ but social stigma and authorities' efforts to 
suppress HIV/AIDS rights advocacy continued. Authorities 
continued an opioid substitution program targeted at those who 
injected drugs \30\--formerly the group at highest risk of HIV 
transmission--that has reportedly reduced transmission rates in 
recent years.\31\ Authorities also took steps to expand sex 
education for young people, as lack of knowledge appeared to 
contribute to rising HIV/AIDS rates among youth.\32\ The 
Commission observed some instances of schools introducing new 
forms of sex education and safe sex awareness among 
students.\33\ A December 2017 report published the results of a 
study conducted by international non-governmental organization 
Asia Catalyst, finding that public security officials treated 
possession of condoms as grounds to punish individuals accused 
of prostitution, discouraging condom use and increasing risk of 
HIV transmission.\34\ In late 2017, authorities reportedly 
warned HIV/AIDS rights advocate Sun Ya and other advocates not 
to demonstrate publicly on World AIDS Day, which is December 
1.\35\

                             Mental Health

    People with mental illness--many of whom suffer from 
additional disadvantages--remained at risk of discrimination 
and faced inadequate access to medical care.\36\ Over half of 
the 5.4 million people in China officially registered as 
``severely mentally ill'' \37\ reportedly lived in poverty (the 
Commission did not observe data for those who were not 
registered),\38\ and a 2017 study found a connection between 
mental illness and various forms of social exclusion 
experienced by domestic rural migrants.\39\

       INVOLUNTARY, COMPULSORY, AND FORCED PSYCHIATRIC COMMITMENT

    Authorities continued to forcibly commit individuals 
without mental illness to psychiatric facilities--a practice 
known as bei jingshenbing--to punish rights advocacy, despite 
protections in the PRC Mental Health Law \40\ and related 
regulations.\41\ For example, in February 2018, authorities in 
Jiulongpo district, Chongqing municipality, reportedly forcibly 
committed multiple people protesting forced evictions and 
demolitions, including Deng Guangying, Zhang Fen, and Liu 
Deying.\42\ In July 2018, authorities in Shanghai municipality 
reportedly detained Dong Yaoqiong and transferred her to her 
native Hunan province, where officials forcibly committed her 
to a psychiatric facility in Zhuzhou municipality, after she 
posted online a video of herself defacing an image of President 
Xi Jinping.\43\ Officials reportedly detained Dong's father, 
Dong Jianbiao, on August 1 after he escaped soft detention and 
attempted to visit his daughter.\44\ [For other examples, see 
Section II--Criminal Justice.]
    In February 2018, the Supreme People's Procuratorate 
reportedly released provisions clarifying the procuratorate's 
role in supervising procedures that include psychiatric 
treatment and assessment in criminal cases,\45\ such as 
psychiatric evaluations, court decisions, and transfers from 
public security authorities.\46\ At least one procuratorial 
official reported that procuratorial officials faced difficulty 
ensuring the quality of medical care, due to their lack of 
specialized medical knowledge, and that their capabilities were 
limited primarily to administration, such as supervising 
completion of paperwork.\47\ The provisions reportedly 
permitted procuratorial officials to consult expert sources 
with psychiatric knowledge,\48\ but the actual effect of the 
provisions remained unclear.

   Biometric Data Collection in the Xinjiang Uyghur Autonomous Region

    This past year, authorities in the Xinjiang Uyghur 
Autonomous Region (XUAR) compelled residents to submit to the 
large-scale collection of biometric data intended for dual use 
by public health and public security authorities. The Region-
Wide Accurate Population Registration and Verification Program 
\49\ required collection of profile pictures, fingerprints, 
iris scans, and blood samples from people between the ages of 
12 and 65, as well as from all ``key persons'' (zhongdian 
renyuan, i.e., persons of ``key'' interest to security 
authorities) and their families regardless of age, for 
inclusion in a public security database.\50\ The Yining 
(Ghulja) County People's Government, in Ili (Yili) Kazakh 
Autonomous Prefecture, XUAR, outlined detailed procedures for 
the program, specifying that health officials would ``rely on'' 
medical exams of residents to collect blood type and DNA data, 
which health officials would then turn over to public security 
authorities.\51\ This program coincided with broader efforts by 
public security authorities in the XUAR to collect and 
integrate personal information to predict perceived threats to 
public security, as part of efforts to maintain ``stability'' 
or ``harmony.'' \52\ In addition, April and August 2018 reports 
from official media Xinhua and the People's Daily indicated 
authorities began constructing a genetic database in Qinghai 
province and the Tibet Autonomous Region.\53\ [For more 
information, see Section II--Criminal Justice, Section IV--
Xinjiang, and Section V--Tibet.]


                                                  Public Health
                                                Public Health
    Notes to Section II--Public Health

    \1\ For official descriptions of current public health policy 
frameworks, see, e.g., Chinese Communist Party Central Committee and 
State Council, ``Outline of the Plan for `Healthy China 2030' '' 
[``Jiankang zhongguo 2030'' guihua gangyao], 25 October 16; State 
Council Information Office, ``The Development of China's Health and 
Progress in Human Rights'' [Zhongguo jiankang shiye de fazhan yu 
renquan jinbu], 29 September 17.
    \2\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, art. 28; National Health Commission, ``National 
Health Commission Convenes Meeting of Leading Cadres'' [Guojia weisheng 
jiankang weiyuanhui zhaokai lingdao ganbu huiyi], 23 March 18; 
``Reform! State Council Forms National Health Commission, Will Not Keep 
National Health and Family Planning Commission'' [Gaige! Guowuyuan 
zujian guojia weisheng jiankang weiyuanhui, bu zai baoliu guojia 
weijiwei], Med66, reprinted in Sohu, 13 March 18; Grassroots Doctor 
Society, ``National Health and Family Planning Commission Removed! New 
Ministry's Duties Revealed'' [Guojia weijiwei bei che! xin bumen zhize 
puguang le], reprinted in MedSci, 13 March 18. This change occurred in 
the context of a broader government restructuring. See, e.g., ``China 
Unveils Cabinet Restructuring Plan,'' Xinhua, 13 March 18.
    \3\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, art. 28.
    \4\ State Council General Office, Guiding Opinion on Reforming and 
Improving the System of Overall Supervision of the Healthcare Industry 
[Guanyu gaige wanshan yiliao weisheng hangye zonghe jianguan zhidu de 
zhidao yijian], issued 18 July 18, sec. 2(4), appendix 1.
    \5\ Chinese Communist Party Central Committee and State Council, 
``Outline of the Plan for `Healthy China 2030' '' [``Jiankang zhongguo 
2030'' guihua gangyao], 25 October 16, foreword, chap. 26; State 
Council Information Office, ``The Development of China's Health and 
Progress in Human Rights'' [Zhongguo jiankang shiye de fazhan yu 
renquan jinbu], 29 September 17, sec. 7.
    \6\ UNAIDS, ``China Focuses on Strengthening HIV Prevention,'' 16 
November 17.
    \7\ Office of the Spokesperson, U.S. Department of State, ``U.S.-
China Social and Cultural Dialogue,'' 29 September 17.
    \8\ See, e.g., Shi Youxing, ``In Employment Discrimation, the Harm 
Goes Beyond Just Self-Esteem'' [Jiuye qishi, shanghai de qizhi shi 
zizunxin], Procuratorial Wind and Cloud, 29 November 17; Cao Bin, 
``China's `Born Again' HIV Positive Patients,'' Xinhua, 28 November 17; 
Bingfeng Han et al., ``The Experience of Discrimination of Individuals 
Living With Chronic Hepatitis B in Four Provinces of China,'' PLoS ONE, 
Vol. 13(4) (12 April 18); Zhongxuan Lin and Liu Yang, ``Denial of 
Disability Discrimination by Disabled People in China,'' China, 
Disability & Society, Vol. 33(5) (2018). For more information on 
health-based discrimination in previous reporting years, see CECC, 2017 
Annual Report, 5 October 17, 205-06; CECC, 2016 Annual Report, 6 
October 16, 205; CECC, 2015 Annual Report, 8 October 15, 204.
    \9\ National laws and regulations that promote equal access to 
employment and education and prohibit health-based discrimination 
include the following: PRC Law on the Protection of Persons With 
Disabilities [Zhonghua renmin gongheguo canjiren baozhang fa], passed 
28 December 90, amended 24 April 08, effective 1 July 08, arts. 3, 30-
40; PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin 
fa], passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; 
State Council, Regulations on the Treatment and Control of HIV/AIDS 
[Aizibing fangzhi tiaoli], issued 18 January 06, effective 1 March 06, 
art. 3; State Council, Regulations on the Employment of Persons With 
Disabilities [Canjiren jiuye tiaoli], issued 14 February 07, effective 
1 May 07, arts. 3, 4, 13. See also Yanhai Wan, ``AIDS, Human Rights and 
Public Security in China,'' University of British Columbia, Peter A. 
Allard School of Law, Asia Pacific Dispute Resolution Project, Working 
Paper 16-1, Social Science Research Network, 13 June 16.
    \10\ ``Where Did Teacher Physical Exam Standards That Discriminate 
Against Disabled People Come From?'' [Qishi canjiren de jiaoshi tijian 
biaozhun cong he er lai], Beijing Youth Daily, reprinted in Xinhua, 9 
August 17; Deng Xueping, ``After Disabled Teacher Who Places First in 
Exam Denied Employment, How Many Recruiting and Physical Exam Standards 
That May Discriminate in Employment Are Still Out There?'' [Canji 
jiaoshi kao touming bei ju luyong, hai you duoshao zhaolu, tijian 
biaozhun shexian jiuye qishi], Caixin, 17 August 17.
    \11\ ``Where Did Teacher Physical Exam Standards That Discriminate 
Against Disabled People Come From?'' [Qishi canjiren de jiaoshi tijian 
biaozhun cong he er lai], Beijing Youth Daily, reprinted in Xinhua, 9 
August 17; Deng Xueping, ``After Disabled Teacher Who Places First in 
Exam Denied Employment, How Many Recruiting and Physical Exam Standards 
That May Discriminate in Employment Are Still Out There?'' [Canji 
jiaoshi kao touming bei ju luyong, hai you duoshao zhaolu, tijian 
biaozhun shexian jiuye qishi], Caixin, 17 August 17; Fujian Province 
Bureau of Education and Fujian Province Health and Population Planning 
Commission, Fujian Province Standards and Measures for Physical 
Examinations of Teaching Qualification Applicants [Fujian sheng jiaoshi 
zige shenqing renyuan tijian biaozhun ji banfa], issued and effective 
2006, art. 12.
    \12\ PRC Law on the Protection of Persons with Disabilities 
[Zhonghua renmin gongheguo canjiren baozhang fa], passed 28 December 
90, amended 24 April 08, effective 1 July 08, art. 38; PRC Employment 
Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], passed 30 
August 07, effective 1 January 08, art. 29.
    \13\ Fujian Province Bureau of Education and Fujian Province Health 
and Population Planning Commission, Fujian Province Standards for 
Physical Examinations of Teaching Qualification Applicants (Amended 
2018) [Fujian sheng jiaoshi zige shenqing renyuan tijian biaozhun (2018 
nian xiuding)], issued May 2018, effective 1 September 18.
    \14\ ``Disabled Guangdong Man Zhu Mingjian Alerts Authorities, 
Alleging Discrimination in Recruitment of Office Staff'' [Guangdong 
canzhang renshi zhu mingjian jubao guanfang zhaopin wenyuan she qishi], 
Radio Free Asia, 5 December 17.
    \15\ Ibid.
    \16\ World Bank, ``Policies, Attitudes, and Perceptions Towards 
Inclusive Education: Evidence From Selected Counties in Guangdong, 
China,'' March 2018, 2; Yao Yao, ``Are China's Universities Prepared To 
Welcome Disabled Students?'' [Zhongguo daxue zhunbei hao yingjie 
canzhang xuesheng le ma], Beijing News, 22 August 17; Zhang Diyang and 
Cui Huiying, ``How Can Schooling for Disabled College Students Become 
Barrier-Free?'' [Canji daxuesheng qiuxue zenyang wuzhang'ai], Southern 
Weekend, 21 August 17.
    \17\ State Council General Office, Circular Regarding Further 
Strengthening the Controlling of Dropouts and Student Retention, 
Raising Compulsory Education Completion Rates [Guanyu jinyibu jiaqiang 
kongchuo baoxue tigao yiwu jiaoyu gonggu shuiping de tongzhi], issued 
28 July 17.
    \18\ Zhejiang Province People's Government General Office, 
Implementing Opinion Regarding Further Strengthening the Controlling of 
Dropouts and Student Retention, Raising Compulsory Education Completion 
Rates [Guanyu jinyibu jiaqiang kongchuo baoxue tigao yiwu jiaoyu gonggu 
shuiping de shishi yijian], issued 4 May 18; Sichuan Province People's 
Government General Office, Implementing Opinion Regarding Further 
Strengthening the Controlling of Dropouts and Student Retention, 
Raising Compulsory Education Completion Rates [Guanyu jinyibu jiaqiang 
kongchuo baoxue tigao yiwu jiaoyu gonggu shuiping de shishi yijian], 
issued 2 January 18; Tianjin Municipal Education Commission, 
Implementing Opinion Regarding Further Strengthening the Controlling of 
Dropouts and Student Retention, Raising Compulsory Education Completion 
Rates [Guanyu jinyibu jiaqiang kongchuo baoxue tigao yiwu jiaoyu gonggu 
shuiping de shishi yijian], issued 29 December 17.
    \19\ State Council General Office, Circular Regarding Further 
Strengthening the Controlling of Dropouts and Student Retention, 
Raising Compulsory Education Completion Rates [Guanyu jinyibu jiaqiang 
kongchuo baoxue tigao yiwu jiaoyu gonggu shuiping de tongzhi], issued 
28 July 17.
    \20\ Ibid., paras. 7-9.
    \21\ See, e.g., ``Anthrax Outbreak in Two Small Ningxia Towns, 
Authorities Quarantine Infected Area and Close Market'' [Ningxia liang 
xiao zhen bao tanju yiqing, dangju geli yiqu guanbi shichang], Radio 
Free Asia, 17 April 18.
    \22\ ``Hunan Health and Family Planning Commission: 29 Cases of 
Tuberculosis Confirmed at Taojiang No. 4 High School'' [Hunan weijiwei: 
taojiang sizhong yi queren 29 lie feijiehe], Beijing News, 18 November 
17; Zhang Yuemeng et al., ``Taojiang No. 4 High School Class 364 in a 
Tuberculosis Vortex'' [Feijiehe xuanwo zhong de taojiang sizhong 364 
ban], Beijing Youth Daily, 18 November 17; ``Health Officials in 
China's Hunan `Kept Quiet' Over Tuberculosis Outbreak,'' Radio Free 
Asia, 17 November 17; Fan Liya, ``Tuberculosis Outbreak Shakes Hunan 
High School,'' Sixth Tone, 20 November 17; Yu Gui, ``Taojiang, Hunan 
Number Four High School Tuberculosis Incident: How Did `Delaying' and 
`Covering Up' Become the Position for a Response?'' [Hunan taojiang si 
zhong feijiehe shijian: ``tuo'' he ``wu'' heyi cheng le yingdui zishi], 
Beijing News, 17 November 17.
    \23\ ``Health Officials in China's Hunan `Kept Quiet' Over 
Tuberculosis Outbreak,'' Radio Free Asia, 17 November 17.
    \24\ ``Taojiang County Handles Relevant Responsible People in Mass 
Tuberculosis Public Health Incident'' [Taojiang xian chuli juji xing 
feijiehe gonggong weisheng shijian xiangguan zeren ren], China News, 21 
November 17; ``Taojiang County, Hunan Has Tuberculosis Outbreak at High 
School, Multiple Officials and Principal Sacked'' [Hunan sheng taojiang 
xian you zhongxue jiti feilao, duo ming guanyuan ji xiaozhang zao 
gezhi], Radio Television Hong Kong, 21 November 17.
    \25\ For more information on Tan Qindong, see the Commission's 
Political Prisoner Database record 2018-00169.
    \26\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 4 
November 17, art. 221.
    \27\ ``Guangzhou Doctor Posts `Hongmao Medicinal Wine Is Poison,' 
Detained Across Provinces on Suspicion of Harming Commercial 
Reputation'' [Guangzhou yisheng fatie cheng ``hongmao yaojiu shi 
duyao,'' she sunhai shangyu bei kuasheng zhuabu], Hongxing News, 
reprinted in The Paper, 13 April 18; Liang Zhou, ``Route of Cross-
Provincial Detention of Critical Doctor Revealed: Lawyer Confirms 
Someone From Hongmao Medicinal Wine Participated in the Whole Process'' 
[Kuasheng zhuabu tucao yisheng luxian tu puguang: lushi queren hongmao 
yaojiu you ren quancheng canyu], Jiemian, 17 April 18; ``Guangzhou 
Doctor Detained Across Provinces Released, Public Calls Into Question 
Abuse of Police Authority'' [Zao kuasheng zhuabu guangzhou yisheng 
huoshi, jingquan lanyong shou gongzhong zhiyi], Radio Free Asia, 18 
April 18; Wang Qian et al., ``The Dirt on Hongmao Medicinal Wine: 
Planned Sale Five Years Later for up to 15 Billion, Government `Fully 
Supports Listing on the Market as an A Stock' '' [Qidi hongmao yaojiu: 
jihua wu nian hou xiaoshou da 150 yi, zhengfu cheng ``quanli zhichi A 
gu shangshi''], Sohu, 16 April 18.
    \28\ ``Guangzhou Doctor Detained Across Provinces Released, Public 
Calls Into Question Abuse of Police Authority'' [Zao kuasheng zhuabu 
guangzhou yisheng huoshi, jingquan lanyong shou gongzhong zhiyi], Radio 
Free Asia, 18 April 18.
    \29\ Joint United Nations Programme on HIV/AIDS, ``Country 
Factsheets: China--2016,'' last visited 25 April 18. The United Nations 
estimated that 880,000 people in China lived with HIV as of 2016, the 
most recent data available. National Health and Family Planning 
Commission, ``Summary of the Situation of Legally Designated Infectious 
Diseases Nationwide in 2017'' [2017 nian quanguo fading chuanran bing 
yiqing gaikuang], 26 February 18; National Health and Family Planning 
Commission, ``Summary of the Situation of Legally Designated Infectious 
Diseases Nationwide in 2016'' [2016 nian quanguo fading chuanran bing 
yiqing gaikuang], 23 February 17; National Health and Family Planning 
Commission, ``Summary of the Situation of Legally Designated Infectious 
Diseases Nationwide in 2015'' [2015 nian quanguo fading chuanran bing 
yiqing gaikuang], 18 February 16; National Health and Family Planning 
Commission, ``Situation of Legally Designated Infectious Diseases 
Nationwide in 2014'' [2014 niandu quanguo fading chuanran bing yiqing 
qingkuang], 16 February 15; National Health and Family Planning 
Commission, ``Situation of Legally Designated Infectious Diseases 
Nationwide in 2013'' [2013 niandu quanguo fading chuanran bing yiqing 
qingkuang], 13 February 14. Among reported cases in government 
statistics, deaths from AIDS exceeded deaths from any other recognized 
infectious disease since at least 2012.
    \30\ UNAIDS, ``China Focuses on Strengthening HIV Prevention,'' 16 
November 17.
    \31\ Ibid.
    \32\ See, e.g., Yang Wanli, ``Sex Education Needed in All Schools, 
Experts Say,'' China Daily, 28 November 17; Shanghai Municipal Health 
and Family Planning Commission, ``Parents Must Take Children's Sex 
Education Seriously'' [Haizi de xing jiaoyu, jiazhang xu zhongshi], 1 
December 17; ``Beijing College Students Hold Demonstration Demanding 
Sex Education,'' Shanghaiist, 5 May 18; ``China Introduces Surprisingly 
Progressive Sex Education Curriculum for Kids, Some Parents Freak 
Out,'' Shanghaiist, 5 May 18; Eugene K. Chow, ``China, Let's Talk About 
Sex,'' The Diplomat, 14 August 17.
    \33\ ``China Introduces Surprisingly Progressive Sex Education 
Curriculum for Kids, Some Parents Freak Out,'' Shanghaiist, 5 May 18. 
See also Christina Zhou and Bang Xiao, ``Chinese Universities Add HIV 
Test Kits to Vending Machines To Tackle Virus' Rise in Taboo Sex 
Culture,'' ABC News, 14 April 18.
    \34\ Tingting Shen and Joanna Csete, ``HIV, Sex Work, and Law 
Enforcement in China,'' Health and Human Rights Journal, Vol. 19, No. 2 
(December 2017), 134, 141.
    \35\ ``Chinese Activists Warned Off Protests on World AIDS Day,'' 
Radio Free Asia, 1 December 17.
    \36\ See, e.g., Adam Minter, ``Mental-Health IPO Is a Leap Forward 
for China,'' Bloomberg, 1 January 18; Wang Xiaodong, ``Incidence of 
Mental Illness Rising Nationwide,'' China Daily, 29 November 17; Cai 
Yiwen, ``No Country for Disabled Men,'' Sixth Tone, 3 November 17.
    \37\ State Council Information Office, ``White Paper on `The 
Development of China's Health and Progress in Human Rights' '' 
[``Zhongguo jiankang shiye de fazhan yu renquan jinbu'' baipishu], 29 
September 17, sec. 3, para. 7; National Health and Family Planning 
Commission, ``Transcript of the National Health and Family Planning 
Commission's Routine April Press Conference'' [Guojia weisheng jisheng 
wei 4 yue lixing xinwen fabu hui wenzi shilu], 7 April 17; PRC Mental 
Health Law [Zhonghua renmin gongheguo jingshen weisheng fa], passed 26 
October 12, effective 1 May 13, art. 24.
    \38\ National Health and Family Planning Commission, ``Transcript 
of the National Health and Family Planning Commission's Routine April 
Press Conference'' [Guojia weisheng jisheng wei 4 yue lixing xinwen 
fabu hui wenzi shilu], 7 April 17.
    \39\ Jie Li and Nikolas Rose, ``Urban Social Exclusion and Mental 
Health of China's Rural-Urban Migrants--A Review and Call for 
Research,'' Health & Place, Vol. 48 (2017), 27.
    \40\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \41\ Supreme People's Procuratorate, Measures on Implementation of 
Compulsory Medical Treatment (Trial) [Renmin jianchayuan qiangzhi 
yiliao zhixing jiancha banfa (shixing)], issued 13 May 16, effective 2 
June 16, arts. 9, 12.
    \42\ ``Protesting Evictees in China's Chongqing Locked Up in 
Psychiatric Facilities,'' Radio Free Asia, 20 February 18.
    \43\ ``Ink-Splashing Girl Dong Yaoqiong Sent to Zhuzhou Psychiatric 
Hospital, Various Places Around China Quickly Take Down Portraits of 
Xi'' [Po mo nuhai dong yaoqiong bei song zhuzhou jingshenbing yuan 
zhongguo gedi ji che xi huaxiang], Voice of America, 23 July 18. For 
more information on Dong Yaoqiong, see the Commission's Political 
Prisoner Database record 2018-00343.
    \44\ ``Dong Yaoqiong's Father Visits Daughter, Taken Away by Public 
Security'' [Dong yaoqiong fuqin tanwang nu'er bei gong'an daizou], 
Radio Free Asia, 1 August 18. For more information on Dong Jianbiao, 
see the Commission's Political Prisoner Database record 2018-00413.
    \45\ For background on compulsory psychiatric treatment in criminal 
cases, see Zhiyuan Guo, ``Deprivation of Liberty Against One's Will in 
Mental Health Institutions in Contemporary China,'' in Legal Reforms 
and Deprivation of Liberty in Contemporary China, eds. Elisa Nesossi et 
al. (London: Routledge, 2016), 62-76.
    \46\ The Commisson did not observe the official text of the Supreme 
People's Procuratorate Supervisory Work in the Process of Compulsory 
Psychiatric Treatment Decisions (Provisions), but an announcement on 
the Supreme People's Procuratorate's website highlighted some features 
of the Provisions. Supreme People's Procuratorate, ``Supreme People's 
Procuratorate Releases `Provisions' To Further Standardize Its Work in 
Supervising Decisions of Compulsory Psychiatric Treatment, Insisting on 
Preventing and Correcting `Fake Mental Illness' and `Forced Psychiatric 
Commitment' '' [Zuigaojian chutai ``guiding'' jinyibu guifan qiangzhi 
yiliao jueding jiandu gongzuo, jianjue fangzhi he jiuzheng ``jia 
jinshenbing'' ``bei jingshenbing''], 26 February 18.
    \47\ Li Chao, ``Who Will Protect the Rights and Interests of Those 
Under Compulsory Psychiatric Treatment? Multiple Procuratorial Offices 
Call for Legislation'' [Shei lai baohu qiangzhi yiliao zhe de quanyi? 
duo ming jianchaguan huyu lifa], China Youth Daily, 24 October 17.
    \48\ Supreme People's Procuratorate, ``Supreme People's 
Procuratorate Releases `Provisions' To Further Standardize Its Work in 
Supervising Decisions of Compulsory Psychiatric Treatment, Insisting on 
Preventing and Correcting `Fake Mental Illness' and `Forced Psychiatric 
Commitment' '' [Zuigaojian chutai ``guiding'' jinyibu guifan qiangzhi 
yiliao jueding jiandu gongzuo, jianjue fangzhi he jiuzheng ``jia 
jingshenbing'' ``bei jingshenbing''], 26 February 18.
    \49\ Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17. The Commission did not observe the text of 
a provincial-level plan directly, although some sub-provincial sources 
within the Xinjiang Uyghur Autonomous Region refer to a provincial-
level plan. See Yining County People's Government, Circular Regarding 
the Release of the ``Yining County Population Accurate Registration and 
Verification Work Implementation Plan'' [Guanyu yinfa ``yining xian 
renkou jingzhun dengji heshi gongzuo shishi fang'an'' de tongzhi], 7 
August 17, sec. 1; Tacheng Prefectural Radio and Television, ``On-Site 
Meeting for the Work of Prefectural Population Accurate Registration 
and Verification and the Management of Standardizing Identification 
According to Law Convenes'' [Diqu renkou jingzhun dengji heshi he yifa 
guifan shenfenzheng guanli gongzuo xianchang hui zhaokai], reprinted in 
Tacheng Prefectural People's Government, 19 December 17; He Wenxiang, 
Jinghe County People's Government, ``Jinghe County Convenes Meeting on 
the Work of Population Accurate Registration and Verification and the 
Management of Standardizing Identification According to Law'' [Jinghe 
xian zhaokai renkou jingzhun dengji heshi he yifa guifan shenfenzheng 
guanli gongzuo tuijin hui], 24 April 18; Sangong Township People's 
Government, ``Sangong Township Plan for the Work of Population Accurate 
Registration and Verification and Standardizing Identification 
Management According to Law'' [Sangong zhen renkou jingzhun dengji 
heshi he yifa guifan shenfenzheng guanli gongzuo fang'an], reprinted in 
Changji City People's Government, 20 May 18. Other sub-provincial 
sources do not refer directly to the provincial-level plan but use 
identical or similar terminology to refer to local biometric data 
collection efforts. See Hotan Television, ``Area Launches the Work 
Population Accurate Registration and Verification and the Management of 
Standardizing Identification According to Law'' [Diqu qidong renkou 
jingzhun dengji heshi he yifa guifan shenfenzheng guanli gongzuo], 
reprinted in Hotan Municipal People's Government, 30 September 17; Ou 
Qin, Qinghe County Public Security Bureau, ``Law Enforcement Brigade 
Holds Training Meeting on Population Accurate Registration and 
Verification'' [Zhi'an dadui kaizhan renkou jingzhun dengji heshi 
peixun hui], reprinted in Qinghe County People's Government, 8 December 
17.
    \50\ See, e.g., Yining County People's Government, Circular 
Regarding the Release of the ``Yining County Population Accurate 
Registration and Verification Work Implementation Plan'' [Guanyu yinfa 
``yining xian renkou jingzhun dengji heshi gongzuo shishi fang'an'' de 
tongzhi], 7 August 17, sec. 1; Human Rights Watch, ``China: Minority 
Region Collects DNA From Millions,'' 13 December 17.
    \51\ Yining County People's Government, Circular Regarding the 
Release of the ``Yining County Population Accurate Registration and 
Verification Work Implementation Plan'' [Guanyu yinfa ``yining xian 
renkou jingzhun dengji heshi gongzuo shishi fang'an'' de tongzhi], 7 
August 17, sec. 4(2)-(3).
    \52\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18; Josh Chin, ``About To Break the Law? 
Chinese Police Are Already on to You,'' Wall Street Journal, 27 
February 18; Human Rights Watch, ``China: Visiting Officials Occupy 
Homes in Muslim Region,'' 13 May 18.
    \53\ Zhang Dachuan, ``Qinghai-Tibetan Plateau Human Genetic 
Resource Specimen Database Begins Construction'' [Qingzang gaoyuan 
renlei yichuan ziyuan yangben ku qidong jianshe], Xinhua, 20 April 18; 
Xu Juan, ``Advocating for a Green Production Lifestyle (The Path for 
Consultation, Democratic Party Research Tour (8))'' [Changdao luse 
shengchan shenghuo fangshi (xieshang zhi lu, minzhu dangpai diaoyan 
xing (8))], People's Daily, 1 August 18.


                                                The Environment
                                                The Environment

                            The Environment


                              Introduction

    During the Commission's 2018 reporting year, despite top 
Chinese Communist Party and government leaders highlighting the 
importance of protecting the environment, environmental 
pollution remained a major challenge. In October 2017, at the 
19th National Congress of the Chinese Communist Party, 
President and Party General Secretary Xi Jinping avowed the 
importance of the Party and government's top-down approach to 
environmental protection in ``ensuring harmony between humans 
and nature.'' \1\ At a major political meeting in March 2018, 
Premier Li Keqiang declared that the ecological and 
environmental situation in China had gradually improved over 
the past five years, noting that days with serious air 
pollution in major cities had decreased by half.\2\ 
Authorities, however, shut down companies that were complying 
with emissions rules \3\ and reportedly left millions without 
winter heating in order to meet environmental targets,\4\ and 
continued to limit the ability of the public and civil society 
to participate in environmental protection efforts.\5\

               Institutional and Regulatory Developments

    The government and Party continued to prioritize 
environmental protection policies this past year by making 
major institutional changes to strengthen environmental 
governance and by promoting legal and regulatory measures. In 
March 2018, as part of a sweeping reorganization of Party and 
government institutions,\6\ the Party Central Committee issued 
a plan that included changes to the administrative agencies 
overseeing environmental protection efforts.\7\ [For more 
information on the sweeping reorganization of Party and 
government institutions, see Section III--Institutions of 
Democratic Governance.] The reorganization plan included a new 
Ministry of Ecology and Environment (MEE) to replace the 
Ministry of Environmental Protection, and a new Ministry of 
Natural Resources to replace the Ministry of Land and 
Resources.\8\ According to a number of environmental experts, 
the MEE may strengthen environmental protection by 
consolidating environmental oversight and improving 
bureaucratic efficiency.\9\ The MEE also was tasked with 
oversight of climate regulation, taking over a function 
administered by a formerly more powerful government agency--the 
National Reform and Development Commission.\10\ One expert 
expressed concern that ``climate action could become the 
unintended casualty of this reshuffle.'' \11\
    Other significant regulatory and policy developments 
included the following:

        <bullet> National Park System. In September 2017, the 
        Party Central Committee General Office and the State 
        Council Information Office released the Overall Program 
        for Construction of a National Park System to 
        centralize management and strengthen protections for 
        ecologically important areas of China.\12\ Local 
        authorities had reportedly allowed excessive commercial 
        development in some protected areas.\13\
        <bullet> Carbon Trading Market Plan. In December 2017, 
        the National Development and Reform Commission released 
        a plan \14\ for what may become the largest carbon 
        market in the world.\15\ Although authorities will 
        initially distribute free carbon emission permits to 
        approximately 1,700 companies in the power sector,\16\ 
        trading is not expected to begin until 2019 or 
        2020.\17\
        <bullet> PRC Environmental Tax Law. This legislation 
        became effective on January 1, 2018,\18\ and may 
        strengthen environmental enforcement due to new 
        environmental taxes being jointly managed by 
        environmental and tax authorities.\19\ In February 
        2018, the State Administration of Taxation reportedly 
        announced that more than 260,000 companies would be 
        required to pay the new environmental taxes.\20\

               Seeking Air Quality Improvements Over Time


       IMPLEMENTING AMBITIOUS GOALS: REPORTED PROGRESS AND COSTS

    Chinese authorities reportedly achieved government targets 
for improving air quality, but local authorities resorted to 
harsh measures in order to meet the targets. In September 2013, 
the State Council set major targets for annual average air 
quality by 2017,\21\ yet in late 2017, Chinese and 
international news media reported that provinces in north China 
would likely fail to meet those targets.\22\ In order to 
achieve the targets, Chinese authorities shut down thousands of 
factories and mandated that millions of citizens stop using 
coal for heat, even though government officials failed to 
provide or plan for alternate sources of heat during the 
winter.\23\ Greenpeace, an international advocacy group, 
collected 5,822 posts to Weibo, China's Twitter-like 
microblogging platform, in November and December 2017, to 
document citizens' complaints about the lack of heat,\24\ and 
international media reported that millions may have lacked 
winter heating.\25\ Official media also criticized the 
implementation of the policy.\26\ In early 2018, after the 
targets had reportedly been met, the government's top 
environmental official acknowledged that some local governments 
had even closed enterprises that were in compliance with 
emissions rules.\27\ By March 2018, the government had lifted 
many of the temporary shutdowns in Beijing municipality, and 
pollution levels reportedly began to increase.\28\ In July 
2018, the State Council set new targets for annual average air 
quality by 2020 that included targets for more cities than the 
2013 targets.\29\

   Investigative Reports on Local Environmental Officials' Misconduct

    State-run and other official media reported on multiple 
incidents in which officials attempted to manipulate 
environmental monitoring data or failed to investigate reports 
of serious pollution this past year, resulting in cases of 
disciplinary actions against local officials. Despite 
considerable censorship of negative reporting on the 
environment,\30\ the Commission observed some notable 
investigative reports on local environmental incidents.

        <bullet> In November 2017, a domestic news media 
        organization reported that Shaoyang municipal 
        environmental bureau officials in Hunan province had 
        used mist cannons near two monitoring stations to 
        improve air quality readings.\31\ Similarly, in January 
        2018, the Beijing Times reported that officials in 
        Shizuishan municipality, Ningxia Hui Autonomous Region, 
        also attempted to spray water near the building that 
        housed the monitoring equipment to improve air quality 
        readings, but instead turned the building into an ``ice 
        sculpture'' after the spray froze.\32\ In March 2018, 
        the Ministry of Ecology and Environment reported that 
        officials at nine air quality monitoring stations in 
        seven cities in six provincial-level localities had 
        been ``severely punished'' for manipulating monitoring 
        data.\33\
        <bullet> In December 2017, the Beijing Youth Daily 
        reported on severe health problems linked to mining in 
        western Hunan.\34\ After local government officials in 
        Hunan said the reported pollution and health concerns 
        had been addressed, seven environmental non-
        governmental organizations (NGOs) reportedly issued a 
        joint response questioning the local government's 
        actions.\35\
        <bullet> According to April 2018 reports, China Central 
        Television (CCTV) exposed illegal chemical dumping in 
        Shanxi province.\36\ The report included footage of an 
        environmental official who said that his office did not 
        have the authority to investigate because the matter 
        arose out of a deal between the polluter and village 
        officials.\37\ Following the report, local authorities 
        administratively detained two village officials who had 
        been featured in the report.\38\
        <bullet> In June 2018, Chinese media reported that Yuci 
        District People's Court in Jinzhong municipality, 
        Shanxi province, had sentenced 16 people, including the 
        former head of the environmental protection bureau in 
        Linfen municipality, Shanxi, for ``damaging the 
        computer information system'' after authorities 
        discovered that six air quality monitors had been 
        tampered with over 100 times during a one-year 
        period.\39\ The court reportedly sentenced 5 people to 
        prison terms ranging from six months to two years, and 
        an additional 11 people to four to six months' 
        detention, suspended for eight months to one year.\40\

                       Environmental Transparency

    Shortcomings in environmental transparency, including 
access to credible official environmental data, continued to be 
a long-term obstacle to assessing environmental quality and the 
efficacy of pollution control efforts. The Institute of Public 
and Environmental Affairs (IPE), a Beijing-based environmental 
NGO, reported in its 2016-2017 Pollution Information 
Transparency Index (PITI) that environmental disclosure in 
China continued to improve.\41\ IPE and the U.S.-based NGO 
Natural Resources Development Council developed PITI in 2008 to 
establish a baseline and track improvements in environmental 
transparency in China.\42\ In March 2018, however, a team of 
researchers published an analysis of the impact of increased 
transparency (as measured by PITI) on environmental outcomes 
such as air and water pollution and found ``no measurable 
effect,'' suggesting that public access to environmental 
information without a ``new accountability mechanism . . . does 
not affect local government performance.'' \43\

               Developments in Public Interest Litigation

    Although some NGOs have standing as plaintiffs in public 
interest lawsuits, most ``public interest'' litigation 
continued to be brought by the government.\44\ In March 2018, 
the Supreme People's Court reported that between 2013 and 2017, 
procuratorates had filed 1,383 environmental public interest 
lawsuits, and that social organizations, primarily NGOs, had 
filed 252 environmental public interest lawsuits.\45\ According 
to the executive director of the Beijing-based NGO Friends of 
Nature (FON), in recent years, courts have allowed more of his 
organization's lawsuits to proceed than in the past.\46\ Cases 
in which NGOs initiated public interest lawsuits this past year 
included the following:

        <bullet> Henan province. In December 2017, the 
        Zhengzhou Municipal Intermediate People's Court in 
        Henan issued a judgment fining a local township and 
        village government in Xinzheng city, Zhengzhou, 3.6 
        million yuan (approximately US$570,000) after protected 
        trees, some of which were over 500 years old, died as a 
        result of the government having illegally moved them in 
        2014.\47\ An attorney for China Biodiversity 
        Conservation and Green Development Foundation (CBCGDF), 
        a Beijing-based NGO that was the plaintiff in the case, 
        described the case as the first public interest lawsuit 
        about ``ancient and culturally significant plants,'' 
        but noted that CBCGDF had difficulty during the 
        litigation process because the local governments 
        interfered with evidence gathering, and it took several 
        negotiations before the court agreed to accept the 
        case.\48\
        <bullet> Yunnan province. In February 2018, FON 
        commenced litigation in Yuxi Municipal Intermediate 
        People's Court in Yunnan against a hydroelectric power 
        company for damaging the rain forest and threatening a 
        fish migration channel.\49\

          Suppression of Environmental Protests and Advocates

    Chinese citizens continued to raise their concerns about 
health issues related to the environment through street-level 
protests and other forms of public advocacy. China's 
Constitution provides for freedom of speech, assembly, 
association, and demonstration,\50\ as do the International 
Covenant on Civil and Political Rights,\51\ the Universal 
Declaration of Human Rights,\52\ and the UN Human Rights 
Council Framework Principles on Human Rights and the 
Environment.\53\ The following cases illustrate not only common 
types of environmental complaints raised by Chinese citizens 
but also the ongoing lack of protection for citizens' rights 
when they raise environmental concerns:\54\

        <bullet> Land Expropriation. On February 9, 2018, 
        authorities in Dongshan township, Mazhang district, 
        Zhanjiang municipality, Guangdong province, detained 
        Chen Wuquan and six other villagers after they had 
        protested a land expropriation project that they 
        claimed was illegal and had damaged the 
        environment.\55\ In March, authorities arrested Chen 
        and four others on suspicion of ``picking quarrels and 
        provoking trouble.'' \56\
        <bullet> Mining. In February 2018, officials detained 
        Karma, a village head in Biru (Driru) county, Naqu 
        (Nagchu) prefecture, Tibet Autonomous Region, after he 
        refused to approve a mining operation on a nearby 
        sacred mountain.\57\ In April, Radio Free Asia reported 
        that officials had detained and questioned over 30 
        other Tibetans for protesting the same mining 
        project.\58\
        <bullet> Illegal Quarrying. In March 2018, authorities 
        in Xinyi city, Maoming municipality, Guangdong, 
        detained environmentalist Lei Ping and Pan Donghai from 
        the NGO China Biodiversity Conservation and Green 
        Development Foundation after they had reported on an 
        illegal quarry.\59\ Xinyi authorities released Pan 
        after 7 hours, but ordered Lei to serve 10 days of 
        administrative detention for ``spreading rumors and 
        disturbing public order.'' \60\ Xinyi authorities 
        agreed to cancel the administrative detention decision 
        after Lei filed an administrative lawsuit.\61\ Sixth 
        Tone, an online media outlet under Party supervision, 
        published an article on the case in which a lawyer 
        cautioned environmental advocates to ``avoid using 
        social media for tipoffs, as they could be accused of 
        disseminating rumors.'' \62\
        <bullet> Corporate Pollution. In July 2018, the Wuzhi 
        County People's Court in Jiaozuo municipality, Henan 
        province, reportedly sentenced environmental advocate 
        Zhang Wenqi to one year and five months' imprisonment 
        for ``damaging business reputation'' after he had 
        reported environmental violations by several companies; 
        \63\ authorities detained Zhang in March 2017.\64\ [For 
        information on the suppression of herders protesting 
        environmental pollution in the Inner Mongolia 
        Autonomous Region, see Section II--Ethnic Minority 
        Rights.]


                                                The Environment
                                                The Environment
    Notes to Section II--The Environment
    \1\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 3(1), 3(9); Xi Jinping, ``Secure a Decisive Victory in 
Building a Moderately Prosperous Society in All Respects and Strive for 
the Great Success of Socialism With Chinese Characteristics for a New 
Era,'' 18 October 17, Xinhua, 3 November 17, sec. 3(1), 3(9); Xiong Hui 
and Wu Xiao, ``Ensuring Harmony Between Humans and Nature'' [Jianchi 
ren yu ziran hexie gongsheng], People's Daily, 9 February 18; Li 
Ganjie, ``Ensuring Harmony Between Humans and Nature'' [Jianchi ren yu 
ziran hexie gongsheng], Seeking Truth, 15 December 17; Dimitri de Boer, 
``Opinion: What Does `Xi's Thought' Mean for the Environment? '' China 
Dialogue, 24 November 17. See also ``Xi's Speech Had 89 Mentions of the 
`Environment,' Just 70 of the `Economy,' '' Bloomberg News, 18 October 
17.
    \2\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], 5 March 18, sec. 1; ``Li Sets Out China's 2018 Development 
Path in Government Work Report,'' CGTN, 5 March 18.
    \3\ Chris Davis, ``Raising Bar on Pollution To Lower Readings,'' 
China Daily, 22 March 18; Ministry of Environmental Protection, `` 
`Striking Hard in the Tough Battle To Prevent Pollution' Related 
Questions and Answers'' [Huanbaobu ``dahao wuran fangzhi gongjian 
zhan'' xiangguan wenti dawen], Xinhua, 17 March 18.
    \4\ Simon Denyer, ``Beijing Wins Battle for Blue Skies--But the 
Poor Are Paying a Price,'' Washington Post, 13 January 18; Li Jing, 
``No Heating at -6C: Poor Bear Brunt of Beijing's Air Cleanup,'' 
Climate Home News, 4 December 17; China Digital Times, ``When Good 
Environmental Policies Go Wrong,'' 18 January 18.
    \5\ Hanyuan Guo et al., ``Increasing Public Participation in 
China's Environment: Does the Public Have a Say in China's Clean Up 
Efforts? '' China Water Risk, 14 February 18; State Council, Decision 
of the State Council on Implementing Scientific Outlook on Development 
and Strengthening Environmental Protection, 27 December 05, arts. 27, 
30; Michael Standaert, ``As It Looks To Go Green, China Keeps a Tight 
Lid on Dissent,'' Yale Environment 360, 2 November 17; Chinese Human 
Rights Defenders, ``Repression and Resilience: Annual Report on the 
Situation of Human Rights Defenders in China (2017),'' 27 February 18, 
20; Freedom House, ``Freedom in the World 2018--China,'' last visited 
27 April 18, C3. Guo et al. include a list of 15 official documents 
that comprise the administrative and legal framework for public 
participation in environmental issues. For a broad conceptual 
description of the government's support for public participation, see, 
e.g., State Council, Decision of the State Council on Implementing 
Scientific Outlook on Development and Strengthening Environmental 
Protection, 27 December 05, arts. 27, 30. See also ``SEPA Issues 
Measures on Open Environmental Information,'' Congressional-Executive 
Commission on China, 5 May 08.
    \6\ Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies [Zhonggong zhongyang 
guanyu shenhua dang he guojia jigou gaige de jueding], Xinhua, 4 March 
18; ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18; State Council, Institutional Reform Plan 
[Guowuyuan jigou gaige fang'an], 17 March 18; ``State Council 
Institutional Reform Plan Passed at First Session of the 13th National 
People's Congress'' [Shisan jie quanguo renda yici huiyi pizhun 
guowuyuan jigou gaige fang'an], Xinhua, 17 March 18.
    \7\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(15); State Council, Institutional Reform 
Plan [Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(1)-(2).
    \8\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18; State Council, Institutional Reform Plan 
[Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(1)-(2). See also 
Barry Naughton, ``Xi's System, Xi's Men: After the March 2018 National 
People's Congress,'' Stanford University, Hoover Institution, China 
Leadership Monitor, No. 56 (Spring 2018), 17 May 18, 6.
    \9\ Ma Tianjie and Liu Qin, ``China Reshapes Ministries To Better 
Protect Environment,'' China Dialogue, 14 March 18. Ma and Liu explain 
that the term ``nine dragons rule the water'' (jiu long zhi shui) had 
been used in China to describe the many different government agencies 
in charge of environmental oversight. Chris Buckley and Keith Bradsher, 
``China Unveils Superagencies To Fight Pollution and Other Threats to 
Party Rule,'' New York Times, 13 March 18; Li Jing, ``China's New 
Environment Ministry Unveiled, With Huge Staff Boost,'' China Dialogue, 
19 April 18.
    \10\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 3(15); State Council, Institutional Reform 
Plan [Guowuyuan jigou gaige fang'an], 17 March 18, sec. 1(1)-(2); Li 
Jing, ``China's New Environment Ministry Unveiled, With Huge Staff 
Boost,'' China Dialogue, 19 April 18; Barry Naughton, ``Xi's System, 
Xi's Men: After the March 2018 National People's Congress,'' Stanford 
University, Hoover Institution, China Leadership Monitor, No. 56 
(Spring 2018), 17 May 18, 6.
    \11\ Li Jing, ``China's New Environment Ministry Unveiled, With 
Huge Staff Boost,'' China Dialogue, 19 April 18.
    \12\ Chinese Communist Party Central Committeee General Office and 
State Council Information Office, ``Plan on the Establishment of a 
National Park System'' [Jianli guojia gongyuan tizhi zongti fang'an], 
Xinhua, 26 September 17, art. 2(8), (14); ``China Unveils Overall Plan 
for National Park System,'' Xinhua, 26 September 17.
    \13\ Liu Qin, ``China Overhauls Its National Parks,'' China 
Dialogue, 19 October 17; Zhang Yan, ``16 Detained Over Environmental 
Damage in Reserve,'' China Daily, 21 November 17.
    \14\ National Development and Reform Commission, ``National Carbon 
Emissions Trading Market Construction Plan (Power Generation 
Industry)'' [Quanguo tan paifang quan jiaoyi shichang jianshe fang'an 
(fadian hangye)], 18 December 17, preamble.
    \15\ ``China Launches World's Biggest Carbon-Trading Scheme in 
Fight Against Climate Change,'' Associated Press, reprinted in South 
China Morning Post, 20 December 17; Keith Bradsher and Lisa Friedman, 
``China Unveils an Ambitious Plan To Curb Climate Change Emissions,'' 
New York Times, 19 December 17.
    \16\ ``China Launches World's Biggest Carbon-Trading Scheme in 
Fight Against Climate Change,'' Associated Press, reprinted in South 
China Morning Post, 20 December 17.
    \17\ Emily Feng, ``China Moves Towards Launch of Carbon Trading 
Scheme,'' Financial Times, 19 December 17; ``China Launches World's 
Biggest Carbon-Trading Scheme in Fight Against Climate Change,'' 
Associated Press, reprinted in South China Morning Post, 20 December 
17.
    \18\ PRC Environmental Protection Tax Law [Zhonghua renmin 
gongheguo huanjing baohu shui fa], passed 25 December 16, effective 1 
January 18, art. 28.
    \19\ PRC Environmental Protection Tax Law [Zhonghua renmin 
gongheguo huanjing baohu shui fa], passed 25 December 16, effective 1 
January 18, arts. 14-15; ``China Details Rules for Environmental Tax 
Law Enforcement,'' Xinhua, 30 December 17.
    \20\ Chen Qingqing, ``Environment Tax Declaration Begins,'' Global 
Times, 1 April 18.
    \21\ State Council, ``Air Pollution Prevention and Control Action 
Plan'' [Daqi wuran fangzhi xingdong jihua], issued 10 September 13. The 
State Council's 2017 targets for reducing fine particulate 
concentrations for the Beijing-Tianjin-Hebei, Yangtze Delta, and Pearl 
River Delta regions were 25 percent, 20 percent, and 15 percent, 
respectively. The plan set a specific 2017 target for the annual 
average fine particulate concentration for Beijing municipality of 
approximately 60 micrograms per cubic meter. See also Beijing Municipal 
People's Government General Office, ``Beijing Municipality 2013-2017 
Clean Air Action Plan Major Task Breakdown'' [Beijing shi 2013-2017 
nian qingjie kongqi xingdong jihua zhongdian renwu fenjie], issued 23 
August 13, sec. 1.1.
    \22\ ``Northern China Hard Pressed To Meet 5-Year Air Quality 
Target,'' Global Times, 12 September 17; Charlotte Gao, ``Despite 
China's Green Campaign, Air Quality Targets Still Hard To Meet,'' The 
Diplomat, 9 October 17; Luo Qianwen, ``Ministry of Environmental 
Protection: Depending on the Magnitude of Environmental Problems, 
Accountability by the `Top Brass' at Every [Administrative] Level'' 
[Huanbaobu: huanjing wenti an shuliang zhuji wenze ``yi ba shou''], 
Beijing Daily, reprinted in Xinhua, 3 September 17. See also Lauri 
Myllyvirta, `` `Beautiful China': Beijing Starts the Biggest Shutdown 
of Steel Factories in History,'' Greenpeace, Unearthed (blog), 30 
October 17.
    \23\ Simon Denyer, ``Beijing Wins Battle for Blue Skies--But the 
Poor Are Paying a Price,'' Washington Post, 13 January 18; Li Jing, 
``No Heating at -6C: Poor Bear Brunt of Beijing's Air Cleanup,'' 
Climate Home News, 4 December 17; Ma Tianjie, ``2017: A Year When 
Environmental Protection Raised Ethical Divides,'' China Dialogue, 29 
December 17; Charlotte Gao, ``How Did China's War Against Smog Turn 
Into a Ban on Coal-Heating? '' The Diplomat, 6 December 17. See also Li 
Jing, ``What Caused China's Squeeze on Natural Gas? '' China Dialogue, 
22 December 17.
    \24\ Emma Howard, `` `I'm Freezing and Shaking': China's Winter 
Heating Crisis, Mapped,'' Greenpeace, Unearthed (blog), 15 January 18.
    \25\ Simon Denyer, ``Beijing Wins Battle for Blue Skies--But the 
Poor Are Paying a Price,'' Washington Post, 13 January 18; ``China Does 
U-Turn on Coal Ban To Avert Heating Crisis,'' BBC, 8 December 17.
    \26\ ``How Gas-for-Coal Program Is Carried Out Makes a 
Difference,'' China Daily, 5 December 17; ``Shan Renping: Changing Coal 
for Gas, It's Not That the Country Will Allow Some of the Masses To 
Freeze'' [Shan renping: mei gai qi, guojia bushi yao rang bufen 
qunzhong dongzhe], Global Times, 4 December 17.
    \27\ Chris Davis, ``Raising Bar on Pollution To Lower Readings,'' 
China Daily, 22 March 18. See also Ministry of Environmental 
Protection, `` `Striking Hard in the Tough Battle To Prevent Pollution' 
Related Questions and Answers'' [Huanbaobu ``dahao wuran fangzhi 
gongjian zhan'' xiangguan wenti dawen], Xinhua, 17 March 18.
    \28\ Ruan Yulin, ``Beijing PM<INF>2.5</INF> Concentrations Rose 
Nearly 40% in March Compared to Last Year'' [3 yue beijing 
PM<INF>2.5</INF> nongdu tongbi shangsheng jin si cheng], China News 
Service, 13 April 18; ``Smog in Key North China Region Rises 27 Percent 
in March: Ministry,'' Reuters, 13 April 18.
    \29\ State Council, ``Three-Year Action Plan for Winning the Blue 
Sky War,'' [Daying lantian baowei zhan san nian xingdong jihua], issued 
3 July 18, sec. 1; Feng Hao, ``China Releases 2020 Action Plan for Air 
Pollution,'' China Dialogue, 6 July 18. See also Laney Zhang, Law 
Library of Congress, ``China: 2020 Air Pollution Action Plan 
Released,'' Library of Congress, Global Legal Monitor, 16 August 18.
    \30\ Michael Standaert, ``Have Chinese Missed the Takeaway From Xi 
Jinping's Environmental Message? '' South China Morning Post, 31 
December 17; Michael Standaert, ``As It Looks To Go Green, China Keeps 
a Tight Lid on Dissent,'' Yale Environment 360, 2 November 17. See also 
Sarah Cook and Anne Henochowicz, ``Investigative Journalism in China Is 
Struggling To Survive,'' Freedom House, Freedom At Issue Blog, 8 
February 18.
    \31\ Zhao Xuan and Li Rongde, ``What Bad Air? Hunan Officials Use 
Mist Cannons To Fool Pollution Meters,'' Caixin, 2 February 18.
    \32\ Liu Qing, ``Environmental Protection Bureau Building Turned 
Into Ice Sculpture by Fog Cannon Truck's `Excessive Force,' Official 
Statement: Two Environmental and Health Cadres Disciplined'' [Wu pao 
che ``yongli guomeng'' huanbao ju dalou bian bingdiao guanfang: liang 
ming huanwei ganbu bei chufen], Beijing Times, 20 January 18. See also 
Wang Lianzhang, ``Officials Try To Water Down Air Pollution, Freeze 
Building,'' Sixth Tone, 22 January 18. 
    \33\ Hou Liqiang, ``Air Quality Data Faked; Officials Punished,'' 
China Daily, 30 March 18.
    \34\ Qiu Bo, ``Xiangxi Village Sick People: Village Surrounded by 
Tailings Ponds'' [Xiangxi bingren: bei wei kuangku baowei de cunzhai], 
Beijing Youth Daily, 6 December 17. See also ``The Best Investigative 
Stories From China--2017,'' Global Investigative Journalism Network, 4 
January 18.
    \35\ Du Caicai, ``Xiangxi Huayuan Responded to `Mining Pollution' 7 
Environmental Protection Organizations Question Response'' [Xiangxi 
huayuan huiying ``caikuang yidu'' 7 jia huanbao zuzhi zhiyi], Caixin, 
10 December 17.
    \36\ Fan Liya, ``Shanxi Officials Detained for Covering Up Chemical 
Dumping,'' Sixth Tone, 18 April 18; ``Three Questions: Who Is the 
`Black Protector' Beside the Big Polluters'' [Sanwen: shei cai shi 
wuran dahu shenbian de ``hei baohu''?], China News Service, 19 April 
18.
    \37\ Fan Liya, ``Shanxi Officials Detained for Covering Up Chemical 
Dumping,'' Sixth Tone, 18 April 18.
    \38\ Shanxi Province Department of Environmental Protection, ``Two 
Cadres Featured in [News Report] `The ``Black Protection'' at the Side 
of Large Polluters' Placed in Administrative Detention'' [``Wuran dahu 
shenbian de `hei baohu' '' 2 ming she'an cun ganbu yi bei xingzheng 
juliu], 18 April 18.
    \39\ Deng Qi, ``Ministry of Ecology and Environment: Linfen 
Environmental Monitoring Case Negative Impact,'' [Huanjing bu: linfen 
huanjing jiance zaojia an yingxiang e'lie], Xinhua, 24 June 18; Zou 
Shuo, ``China To Get Tough With Environmental Data Manipulation,'' 
China Daily, 25 June 18.
    \40\ Deng Qi, ``Ministry of Ecology and Environment: Linfen 
Environmental Monitoring Case Negative Impact'' [Huanjing bu: linfen 
huanjing jiance zaojia an yingxiang e'lie], Xinhua, 24 June 18; Zou 
Shuo, ``China To Get Tough With Environmental Data Manipulation,'' 
China Daily, 25 June 18.
    \41\ Institute of Public & Environmental Affairs and Natural 
Resources Defense Council, ``Closing Longstanding Gaps: 2016-2017 
Pollution Information Transparency Index (PITI),'' 7 September 17, 1.
    \42\ Ibid.
    \43\ Deborah Seligsohn et al., ``The Sound of One Hand Clapping: 
Transparency Without Accountability,'' Environmental Politics, 2018, 3-
4, 21. See also Alex Wang, ``Explaining Environmental Information 
Disclosure in China,'' Ecology Quarterly, Vol. 44, 17 April 18, 883.
    \44\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], passed 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 58. See also Supreme People's Court, 
Interpretation Regarding Certain Issues Related to Application of the 
Law in Environmental Civil Public Interest Litigation [Guanyu shenli 
huanjing minshi gongyi susong anjian shiyong falu ruogan wenti de 
jieshi], issued 6 January 15, effective 7 January 15; Quan Jing, ``How 
To Promote Public Interest Litigation by Social Organizations'' [Shehui 
zuzhi ruhe faqi gongyi susong], Charity Times, reprinted in Xinhua, 21 
March 18.
    \45\ ``Supreme People's Court Work Report (Summary)'' [Zuigao 
renmin fayuan gongzuo baogao (zhaiyao)], 10 March 18; Quan Jing, ``How 
To Promote Public Interest Litigation by Social Organizations'' [Shehui 
zuzhi ruhe faqi gongyi susong], Charity Times, reprinted in Xinhua, 21 
March 18. See also Fu Hualing, ``The Procuratorate and Public Interest 
Litigation (PIL),'' China Collection (blog), 30 October 17. According 
to Fu, ``China is seeking to develop its PIL by taking its own path 
that can perhaps be characterized as Chinese authoritarianism, which 
marginalizes civil society and relies on state organs to litigate 
issues relating to the public interest and collective rights. It 
remains to be seen, however, if China can create a culture of rights 
without a [sic] support civil society structures and promote public 
interest law without concomitant public participation.''
    \46\ Liu Chen et al., ``Ask China: Environmental Law Helps NGOs Win 
`War on Pollution,' '' CGTN, 9 March 18. See also Stanley Lubman, ``Can 
Environmental Lawsuits in China Succeed? '' Asia Society, ChinaFile, 14 
December 17.
    \47\ Fan Liya, ``Governments Fined $555,000 for Killing 500-Year 
Old Trees,'' Sixth Tone, 29 December 17; Zhengzhou Intermediate 
People's Court (Zhengzhou zhongyuan), ``Zhengzhou Intermediate People's 
Court Announces Judgment in Environmental Civil Public Interest 
Lawsuit, Town Killed Jujube Trees After Transplant, Adjudged To Be 
Liable by First Instance Court'' [Zhengzhou zhongyuan xuanpan yiqi 
huanjing minshi gongyi susong anjian zhen zhengfu yizai zaoshu zhisi, 
yishen bei pan dan ze], WeChat post, 28 December 17; Greg Tisher, 
``Preserving Culture With EPIL,'' Vermont Law School, U.S.-Asia 
Partnerships for Environmental Law, Asia Environmental Governance Blog, 
30 January 18.
    \48\ Fan Liya, ``Governments Fined $555,000 for Killing 500-Year 
Old Trees,'' Sixth Tone, 29 December 17.
    \49\ Qi Jianrong, ``Hyodroelectric Power Plant Being Built by 
Yunnan Huarun Accused of Destroying Endangered Plants; Yunnan Province 
Forestry Department Investigation Confirms Protected Plants Felled'' 
[Yunnan huarun suo jian dianzhan bei zhi pohuai zhenxi pinwei zhiwu 
yunnan sheng linye bumen diaocha queren you baohu zhiwi bei kanfa], 
Legal Daily, 24 February 18; Liu Chen et al., ``Ask China: 
Environmental Law Helps NGOs Win `War on Pollution,' '' CGTN, 9 March 
18; ``China's Yunnan Defends Dam Building as Activists Head to Court,'' 
Reuters, 12 March 18. See also Zhou Tailai et al., ``Protect Green 
Peacocks From Dam, Environmentalists Urge Court,'' Caixin, 15 August 
17.
    \50\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, 11 March 18, art. 35.
    \51\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 19, 21, 22; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 10 July 18; State Council 
Information Office, ``National Human Rights Action Plan of China (2016-
2020)'' [Guojia renquan xingdong jihua (2016-2020 nian)], 29 September 
16, sec. 5. China has signed, and stated its intent to ratify the 
ICCPR.
    \52\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
19, 20.
    \53\ UN Human Rights Council, Report of the Special Rapporteur on 
the Issue of Human Rights Obligations Relating to the Enjoyment of a 
Safe, Clean, Healthy and Sustainable Environment, John H. Knox, A/HRC/
37/59, Annex, Framework Principles on Human Rights and the Environment, 
24 January 18, paras. 12-14.
    \54\ Eva Pils, Human Rights in China (Medford: Polity Press, 2018), 
36, 114-17.
    \55\ Rights Defense Network, ``Guangdong Rights Defense Lawyer Chen 
Wuquan Criminally Detained on Suspicion of Picking Quarrels and 
Provoking Trouble for Protecting His Hometown Beach'' [Guangdong 
weiquan lushi chen wuquan yin shouhu jiaxiang haitan bei yi she xunxin 
zishi zui xingshi juliu], 11 February 18; ``Suppressed for Protecting 
the Sea, Zhanjiang Rights Defense Lawyer Chen Wuquan and Several 
Villagers Detained'' [Hu hai zao daya zhanjiang weiquan lushi chen 
wuquan ji duo wei cunmin bei zhua], Radio Free Asia, 10 February 18; 
``From Policeman to Lawyer to Fisherman to `Criminal': The Tortuous 
Road of a Human Rights Lawyer,'' China Change, 12 February 18. For more 
information, see the Commission's Political Prisoner Database records 
2018-00136 on Chen Wuquan, 2018-00137 on Chen Shuai, 2018-00138 on Chen 
Longquan, 2018-00139 on Chen Zhenming, 2018-00140 on Chen Chunlin, and 
2018-00141 on Chen Weiliang.
    \56\ Nftiankong (sftk123), Twitter post, 16 March 18, 9:51 p.m.
    \57\ ``Tibetan Man Detained After Villagers Protest Chinese Mine 
Plan,'' Radio Free Asia, 20 March 18. For more information on Karma, 
see the Commission's Political Prisoner Database record 2018-00132. See 
also Zheng Jinran, ``Inspectors Punish Polluters in Tibet,'' China 
Daily, 4 January 18. In January 2018, the Ministry of Environmental 
Protection announced the results of an inspection conducted in 2017 
that discovered 1,022 cases of pollution, with polluters paying fines 
in 748 cases amounting to 28 million yuan, and that 148 officials had 
been held accountable. According the inspectors: ``some leaders . . . 
[thought] that a little pollution or damage would not have a huge 
influence on the vast region . . . leading to unbalanced development of 
the economy and ecology.''
    \58\ ``Tibetan Villagers Detained, Questioned After News of Mine 
Project Leaks,'' Radio Free Asia, 27 April 18.
    \59\ Qian Zhecheng, ``Environmental Whistleblower Sues Police for 
Unlawful Detention,'' Sixth Tone, 31 March 18; Zhang Nanqian, 
``Environmentalist Detained After Exposing Pollution (Continued): 
Detention Deferred, Detainee Said No Rumor Despite Lack of Care'' 
[Huanbao renshi puguang wuran bei ju xu: zhanhuan juliu dangshiren 
cheng bu yanjin dan wei zaoyao], Sohu, 23 March 18; ``Detained Chinese 
Environmental Worker Released After Public Outcry,'' Radio Free Asia, 
19 March 18; ``Environmentalist Who Investigated Guangdong Xinyi 
Illegal Wastewater Discharge Detained'' [Huanbao renshi diaoyan 
guangdong xinyi feifa kaicai paiwu zao juliu], Radio Free Asia, 19 
March 18. For more information on Lei Ping, see the Commission's 
Political Prisoner Database record 2018-00149.
    \60\ Qian Zhecheng, ``Environmental Whistleblower Sues Police for 
Unlawful Detention,'' Sixth Tone, 31 March 18; Xinyi City Government, 
``Xinyi City Lawfully Investigates and Punishes Case of Spreading 
Rumors and Disturbing Public Order'' [Xinyi shi yifa chachu yiqi sanbu 
yaoyan raoluan gonggong zhixu anjian], 17 March 18.
    \61\ Li Xun, ``Developments in the Case of Guangdong Xinyi 
Environmentalist Detained for Posting: Authorities Cancel 
Administrative Detention, Lawsuit Settled'' [Guangdong xinyi huanbao 
zhiyuan zhe fa tie bei juxu: jingfang chexiao xingju chufa, susong 
hejie], The Paper, 30 May 18.
    \62\ Qian Zhecheng, ``Environmental Whistleblower Sues Police for 
Unlawful Detention,'' Sixth Tone, 31 March 18.
    \63\ Gao Min, ``Environmental Protector or Conflict of Interest? '' 
[Huanbao weishi haishi liyi zhi zheng?], Beijing News, 10 July 18; Fan 
Liya, ``Environmental Whistleblower Gets Prison Sentence,'' Sixth Tone, 
12 July 18.
    \64\ Gao Min, ``Environmental Protector or Conflict of Interest? '' 
[Huanbao weishi haishi liyi zhi zheng?], Beijing News, 10 July 18.


                                                  Civil Society
                                                Civil Society

                  III. Development of the Rule of Law


                             Civil Society


                              Introduction

    During the Commission's 2018 reporting year, the Chinese 
government and Communist Party continued to view civil 
society's primary role as ``cooperating with'' (xietong) the 
Party's agenda for social governance under one-party rule.\1\ 
At the 19th National Congress of the Chinese Communist Party, 
Party General Secretary and Chinese President Xi Jinping 
reiterated the role of Chinese civil society in the context of 
Party and government leadership: ``Party committees exercise 
leadership, government assumes responsibility, non-governmental 
actors provide assistance, and the public get involved.'' \2\ 
While Xi's speech made reference to public participation of 
``social organizations'' in a ``consultative'' manner,\3\ his 
vision for civil society in China continued to be ancillary to 
the government's agendas,\4\ such as aiding in service 
provision, welfare activities, and development goals in the 
areas of poverty alleviation, child education, and the 
environment.\5\
    Ever since Xi's ascendance to the Party's top leadership 
role in late 2012, advocacy organizations operating in 
previously tolerated ``gray areas'' experienced what experts 
describe as a ``chilling effect.'' \6\ In conjunction with the 
continued implementation of legislative and regulatory reforms 
passed in 2016 \7\ and the increased role and purview of the 
Party over all aspects of Chinese society,\8\ the space in 
which non-governmental organizations (NGOs) had to carry out 
human rights advocacy activities continued to shrink this past 
year.\9\ [See Section III--Institutions of Democratic 
Governance for more information on the expansion of the Party's 
power over government and society.] The International Center 
for Not-for-Profit Law called these recent regulatory 
developments a ``top-down effort by the party-state to mold 
`civil society' in its own image,'' that is, a ``civil 
society'' without ``a strong value preference for what the 
government perceives as Western-style individual freedoms and 
rights.'' \10\ On March 23, 2018, the UN Human Rights Council 
adopted a resolution sponsored by the Chinese government that 
said NGOs should ``contribute actively'' to ``promote mutually 
beneficial cooperation in the field of human rights.'' \11\ The 
United States voted against the resolution, calling it an 
effort by the Chinese government to weaken the UN human rights 
system, while other countries such as Australia, Japan, and 
Switzerland said the resolution included vague and ambiguous 
language such as ``mutually beneficial cooperation'' and 
``community of shared future.'' \12\ International human rights 
observers asserted the resolution ``rang hollow'' in the face 
of the Chinese government's crackdown on NGOs and rights 
advocates in China as well as its harassment of NGOs and 
activists at the United Nations.\13\
    The number of Chinese NGOs is difficult to determine, in 
part because of the complex regulatory framework, the existence 
of unregistered NGOs and informal associations, the quick pace 
of growth of the non-governmental and non-profit sector, and 
the range of different types of such organizations.\14\ 
According to the Ministry of Civil Affairs, at the end of 2017, 
China had 755,323 registered ``social organizations'' (shehui 
zuzhi)--the official term for NGOs \15\--that consisted of 
397,000 non-governmental, non-commercial organizations (minban 
feiqiye danwei), or what the government now calls social 
service organizations (shehui fuwu jigou); 6,323 foundations 
(jijinhui); and 352,000 social associations (shehui 
tuanti).\16\ Many social associations are government-organized 
non-governmental organizations (GONGOs) and therefore have 
close ties to the government.\17\ Many grassroots NGOs, with 
few or no ties to the government, remain unregistered or are 
registered as business entities due to restrictions and 
barriers to registration imposed by the government.\18\

  NGOs Report on Worsening Conditions for Civil Society Since Last UPR

    Many international NGO reports submitted in advance of the 
November 2018 session of the UN Human Rights Council's 
Universal Periodic Review (UPR) of the Chinese government's 
human rights record described worsening conditions in China for 
civil society since the last UPR in 2013, and indicated the 
Chinese government had not implemented any of the 
recommendations on civil society it previously accepted.\19\ In 
its UPR submission, Human Rights in China noted that ``Xi 
Jinping Thought on Socialism with Chinese Characteristics for a 
New Era''--newly enshrined in the Party Constitution during the 
19th Party Congress in October 2017 and in China's Constitution 
in March 2018--``treats an uncontrolled civil society as a 
threat under its all-encompassing approach to national 
security'' and stresses ``absolute Party leadership.'' \20\ 
CIVICUS and the Asian Human Rights Commission jointly reported 
that the freedoms of assembly, association, and speech were 
severely hindered in China,\21\ violating international 
instruments such as the Universal Declaration of Human Rights 
\22\ and the International Convention on Civil and Political 
Rights (ICCPR).\23\

                   Suppression of Grassroots Advocacy

    This past year, the government continued to suppress the 
rights of Chinese human rights defenders working on human 
rights advocacy and to treat certain rights advocates and 
political groups as a threat to state security.\24\ These 
advocates included the following:

        <bullet> On September 1, 2017, public security 
        officials from Zhuhai municipality, Guangdong province, 
        took Zhen Jianghua into custody from his home,\25\ and 
        criminally detained him the next day on suspicion of 
        ``inciting subversion of state power,'' holding him at 
        the Zhuhai No. 1 Public Security Bureau (PSB) Detention 
        Center.\26\ On August 10, 2018, the Zhuhai Intermediate 
        People's Court reportedly tried Zhen without informing 
        either Zhen's defense lawyers or his family 
        members.\27\ Zhen is the executive director of Human 
        Rights Campaign in China, which reports on cases 
        involving rights advocacy and provides aid for people 
        who are involved in, or have reported on, these 
        cases.\28\ Zhen has advocated for rights defenders for 
        over a decade.\29\
        <bullet> In April 2018, authorities detained at least 
        eight members of a group organized via the social media 
        platform WeChat called the National Tourism Chat Group, 
        which provided humanitarian support and funding to 
        families of political prisoners.\30\ Authorities in 
        Changchun municipality, Jilin province, detained Guo 
        Qingjun, one of the administrators of the WeChat group, 
        on April 11, 2018, after which authorities detained at 
        least seven more group administrators from other parts 
        of China, including Liao Yongzhong, Lu Bi, Liu Chunlin, 
        Dai Xiangnan, Sun Wenke, Li Xiaohong, and He 
        Meijing.\31\ Prior to the April detentions, Chinese 
        authorities reportedly interviewed over 100 other 
        members of the WeChat group.\32\
        <bullet> This past year, Chinese authorities continued 
        to persecute at least three human rights advocates from 
        China Human Rights Watch--Xu Qin, Qin Yongmin, and Zhao 
        Suli. PSB officials in Jiangsu province held Xu in 
        incommunicado detention at the Yangzhou PSB Detention 
        Center in Yangzhou municipality, Jiangsu, after 
        detaining her in February 2018 on suspicion of 
        ``picking quarrels and provoking trouble.'' \33\ In 
        March 2018, authorities changed Xu's charge from 
        ``picking quarrels and provoking trouble'' to 
        ``inciting subversion of state power,'' reportedly for 
        articles she had written in connection to another 
        rights advocacy group and her support of other human 
        rights advocates.\34\ Authorities from Wuhan 
        municipality, Hubei province, continued to hold Qin, 
        founder of China Human Rights Watch who was originally 
        detained in January 2015, in Wuhan on suspicion of 
        ``inciting subversion of state power.'' \35\ On May 11 
        and 12, 2018, the Wuhan Intermediate People's Court 
        tried Qin,\36\ and on July 11, sentenced him to 13 
        years in prison and 3 years' deprivation of political 
        rights on the charge of ``subversion of state power.'' 
        \37\ Authorities from Wuhan reportedly released Qin's 
        wife, Zhao Suli, temporarily in February 2018, after 
        holding her in an unknown location since her 
        disappearance in January 2015.\38\ As of July 2018, 
        however, Zhao is believed to be under residential 
        surveillance.\39\

    The Chinese government also intensified its efforts to 
limit and censor the online activities of rights advocacy 
organizations on social media platforms, such as Sina Weibo and 
WeChat.\40\ [For more information, see Section II--Freedom of 
Expression, Worker Rights, Status of Women, and The 
Environment.]

              Overseas NGOs' Activities Law Implementation

    This past year, the government continued to carry out the 
PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China (Overseas NGOs' 
Activities Law) which took effect in January 2017.\41\ While 
some international NGOs (INGOs) have successfully registered 
representative offices in China, including philanthropic 
organizations that had relationships with local 
governments,\42\ at least four organizations that have long 
worked on training lawyers and projects to promote the 
protection of women and LGBT rights reported that they were 
unable to obtain temporary activity permits.\43\ Other 
organizations that work on human rights and rule of law chose 
to suspend their operations or leave China.\44\ By August 2018, 
404 INGOs had successfully registered representative offices in 
China and 976 temporary activity permits had been filed, 
according to official data posted to the Ministry of Public 
Security's Overseas Non-Governmental Organizations Service 
Platform.\45\ The majority of U.S. NGOs with representative 
offices registered to conduct activities in the areas of trade, 
poverty alleviation, and health.\46\ From January 2018 through 
July 2018, the number of INGO representative offices that 
registered in China each month remained mostly steady, at 
around 15 per month, based on analysis from the Asia Society's 
China NGO Project.\47\ The China NGO Project further 
disaggregated official data, finding that, as of August 2018, 
INGOs from the United States, Hong Kong, Japan, South Korea, 
and Germany have the most representative offices in China, 
while INGOs from Hong Kong and the United States filed the most 
temporary activities between January 2017 and July 2018.\48\ 
Public data indicate that most INGO representative offices 
registrations have taken place in Beijing and Shanghai 
municipalities, while the most temporary activity permit 
filings have taken place in Beijing and Guangdong, Yunnan, 
Sichuan, and Guizhou provinces.\49\
    In addition to implementing the Overseas NGOs' Activities 
Law, several developments indicated the government viewed 
foreign NGOs as potential threats to national security. In 
April 2018, several government agencies, including the Ministry 
of State Security, jointly published a cartoon on ``National 
Security Education Day'' that portrayed a foreign NGO worker 
who is implied to be spying and courting Chinese workers to 
organize strikes.\50\ In a sign that officials are more broadly 
targeting foreign influence, government posters on public 
transportation in Beijing warned Chinese citizens against being 
tricked into spying for foreign governments, urging them to 
report activities to relevant national security 
authorities.\51\ A Deutsche Welle article reported that the 
government planned to score foreign NGOs based on the model of 
the social credit system, which would punish organizations that 
conduct activities the government deems unwelcome or that may 
damage ``national interests'' or harm ``national security and 
peace.'' \52\ In December 2017, the State Council issued 
implementing rules \53\ for the 2014 PRC Counterespionage 
Law,\54\ which give the government power to punish ``foreign 
institutions and organizations'' or ``hostile groups'' it deems 
harmful to national security.\55\

------------------------------------------------------------------------
                  Developments in Lee Ming-cheh's Case
-------------------------------------------------------------------------
  Chinese authorities continued to detain and prosecute Taiwan human
 rights NGO volunteer Lee Ming-cheh this past year. In March 2017,
 authorities detained Lee, a manager at Wenshan Community College in
 Taipei, Taiwan, while he was traveling to Zhuhai municipality,
 Guangdong province, via Macau.\56\ The State Council Taiwan Affairs
 Office subsequently confirmed that Chinese authorities were
 investigating Lee for ``endangering state security'' \57\ and had
 formally arrested him on suspicion of ``subversion of state power'' in
 May 2017.\58\ On September 11, 2017, the Yueyang Municipal Intermediate
 People's Court in Hunan province tried Lee on the charge of
 ``subversion of state power'' \59\--to which he pleaded guilty and for
 which he expressed remorse \60\--and on November 28, sentenced Lee to
 five years in prison.\61\ Observers from international human rights
 organizations suspected that authorities coerced Lee into confessing,
 calling the trial ``outrageous'' and ``politically motivated.'' \62\
 They argued, moreover, that his case served as a warning to pro-
 democracy activists in Hong Kong and elsewhere.\63\
------------------------------------------------------------------------

            Overall Regulatory Environment for Domestic NGOs

    This past year, the government focused on cracking down on 
``illegal social organizations'' that do not possess proper 
government registration or that perform activities outside of 
the scope for which they have registered,\64\ targeting those 
that ``threaten state security and social stability.'' \65\ A 
February 2018 circular stipulated that NGOs conducting illegal 
political activities will have their eligibility for tax 
exemption canceled.\66\ A Chinese political science professor 
expressed concern that the drive to target and identify 
``illegal social organizations'' is part of the Chinese 
government's concern that giving more space to civil society 
could lead to potential democratization.\67\ In January 2018, 
the Ministry of Civil Affairs issued the Measures for Social 
Organizations Credit Information Management (Measures), which 
authorizes the government to create an official list of 
organizations that are ``severely illegal [and] not 
trustworthy.'' \68\ The Measures target organizations for 
disciplinary action and potential inclusion in a government 
list of organizations deemed as engaging in ``irregular'' 
activities, such as not submitting annual activity reports to 
authorities, failing to establish Party groups within their 
organizations, and not operating at the address listed in their 
registration.\69\ The Measures were used this past year to levy 
punishments against at least one social organization that was 
found to be ``untrustworthy.'' \70\ [For more on the Chinese 
government's use of social credit through information 
technology and surveillance, see Section III--Institutions of 
Democratic Governance.]
    Two years after the Ministry of Civil Affairs (MCA) 
released draft revisions to the three major regulations for 
civil society organizations,\71\ the MCA released new draft 
regulations for public comment in early August 2018, combining 
the three regulations that form the core of the regulatory 
system for domestic social service organizations, foundations, 
and social associations into one document.\72\ The new draft 
Regulations on the Registration and Management of Social 
Organizations lower the barriers to registration for four types 
of social organizations--business organizations, research 
organizations, social welfare providers, and service 
organizations--and allow these organizations to directly 
register with the MCA or at county-level and higher civil 
affairs bureaus without requiring a professional supervisory 
unit.\73\ Provisions in the draft regulations stipulate that 
Party groups must be established in organizations \74\ and 
prohibit certain Chinese individuals from registering or being 
the ``legal person'' for social organizations, including 
individuals whose political rights were suspended, who had been 
criminally detained or served a criminal punishment in the last 
five years, or who were listed in the government's 
``untrustworthy'' list with regard to their ``social credit'' 
score.\75\

------------------------------------------------------------------------
    China Promotes Its Development Model in the International Sphere
-------------------------------------------------------------------------
  This past year, as part of reform efforts directed by the Party
 Central Committee,\76\ the National People's Congress approved a State
 Council reform plan that included the establishment of a new government
 agency focused on international development.\77\ The new International
 Development Cooperation Agency will integrate foreign aid and
 development assistance efforts, including the Belt and Road Initiative
 (BRI).\78\ In November 2017, the Director of the International
 Department of the Party Central Committee--a key Party department
 charged with extending the Party's influence and advancing its
 interests overseas \79\--opened the first Silk Road NGO Cooperation
 Network Forum, a gathering designed to strengthen cooperation between
 NGOs among participating BRI countries.\80\ Two hundred delegates in
 total from Chinese organizations \81\ and NGOs from more than 50
 countries attended the forum.\82\ The forum was organized by the China
 NGO Network for International Exchanges, which is headed by Sun
 Jiazheng,\83\ Vice Chairman of the 11th Chinese People's Political
 Consultative Conference,\84\ a body that is connected to the Party's
 United Front Work Department.\85\ Scholars observed this past year that
 the Chinese government, through its international development efforts,
 is offering an alternative global development model favorable to its
 political goals.\86\
------------------------------------------------------------------------



                                                  Civil Society
                                                Civil Society
    Notes to Section III--Civil Society

    \1\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 8(6); Xi Jinping, ``Secure a Decisive Victory in 
Building a Moderately Prosperous Society in All Respects and Strive for 
the Great Success of Socialism With Chinese Characteristics for a New 
Era,'' 18 October 17, Xinhua, 3 November 17, sec. 8(6); International 
Center for Not-for-Profit Law, ``Civic Freedom Monitor: China,'' last 
updated 22 February 18, last visited 17 April 18. The official 
translation published by Xinhua translates xietong as to ``provide 
assistance to,'' but the word is better translated as ``cooperate 
with'' or ``collaborate with.''
    \2\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 8(6); Xi Jinping, ``Secure a Decisive Victory in 
Building a Moderately Prosperous Society in All Respects and Strive for 
the Great Success of Socialism With Chinese Characteristics for a New 
Era,'' 18 October 17, Xinhua, 3 November 17, sec. 8(6); Jessica Batke, 
``Social Organizations and the 19th Party Congress,'' Asia Society, 
ChinaFile, China NGO Project, 30 November 17.
    \3\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 6(3); Xi Jinping, ``Secure a Decisive Victory in 
Building a Moderately Prosperous Society in All Respects and Strive for 
the Great Success of Socialism With Chinese Characteristics for a New 
Era,'' 18 October 17, Xinhua, 3 November 17, sec. 6(3).
    \4\ Matt Schiavenza, ``The Uncertain Future of Civil Society in 
China,'' Asia Society, 29 January 18; Narada Foundation, ``The Two 
Sessions Came to a Close, What Did Delegates Say About Philanthropy and 
the Public Interest? '' [Lianghui luomu, guanyu cishan gongyi, daibiao 
weiyuanmen zenme shuo?], 21 March 18.
    \5\ Narada Foundation, ``The Two Sessions Ended, What Did Delegates 
Say About Philanthropy and the Public Interest? '' [Lianghui luomu, 
guanyu cishan gongyi, daibiao weiyuanmen zenme shuo?], 21 March 18. See 
also Jessica Batke, ``Social Organizations and the 19th Party 
Congress,'' Asia Society, ChinaFile, China NGO Project, 30 November 17.
    \6\ Timothy Hildebrandt, Social Organizations and the Authoritarian 
State in China (Cambridge: Cambridge University Press, 2013), 58. 
Hildebrandt explains use of the term ``chilling effect'' in the context 
of civil society as the internalization of the ``fear of a negative 
state response'' to the point that civil society ``actors do not 
contemplate taking actions that might put them in jeopardy.'' See e.g., 
Freedom House, ``Freedom on the Net 2015--China,'' October 2015; Mimi 
Lau, ``Mother of Detained Labour Activist Takes on State Media--And 
Forced Into Hardest Decision of Her Life,'' South China Morning Post, 1 
May 16; Verna Yu, ``Charity Workers in China Say NGOs Being `Pulled Out 
by the Roots,' '' South China Morning Post, 12 June 17; Orville Schell, 
``Crackdown in China: Worse and Worse,'' New York Review of Books, 21 
April 16; Chinese Human Rights Defenders, ``China: Repeal Overseas NGO 
Law & Protect Freedom of Association,'' 28 April 16; Chinese Human 
Rights Defenders, ``Repression and Resilience: Annual Report on the 
Situation of Human Rights Defenders in China (2017),'' 26 February 18, 
24-26.
    \7\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17; PRC Charity Law [Zhonghua renmin gongheguo 
cishan fa], passed 16 March 16, effective 1 September 16. See also 
Ministry of Civil Affairs, Regulations on the Registration and 
Management of Social Organizations (Revised Draft for Solicitation of 
Comments) [Shehui tuanti dengji guanli tiaoli (xiuding cao'an zhengqiu 
yijian gao)], 1 August 16; Ministry of Civil Affairs, Temporary 
Regulations on the Registration and Management of Non-Governmental, 
Non-Commercial Enterprises (Revised Draft for Public Comment) [Minban 
feiqiye danwei dengji guanli zanxing tiaoli (xiuding cao'an zhengqiu 
yijian gao)], 26 May 16; Ministry of Civil Affairs, Regulations on the 
Management of Foundations (Revised Draft for Solicitation of Comments) 
[Jijinhui guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 26 May 
16.
    \8\ Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies [Zhongggong zhongyang 
guanyu shenhua dang he guojia jigou gaige de jueding], Xinhua, 4 March 
18; ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18. In March 2018, the National People's Congress and 
the Chinese People's Political Consultative Conference unveiled reforms 
of Party and government structures to elevate the role of the Party 
over government and society. For similar efforts prior to March 2018 
that elevated the Party above government agencies, see Michael Martina, 
``Exclusive: In China, the Party's Push for Influence Inside Foreign 
Firms Stirs Fears,'' Reuters, 24 August 17; Choi Chi-yuk and Eva Li, 
``Lawyers in Chinese Megacity the New Front in Communist Party's Push 
for Greater Control,'' South China Morning Post, 18 May 17.
    \9\ Chinese Human Rights Defenders, ``Repression and Resilience: 
Annual Report on the Situation of Human Rights Defenders in China 
(2017),'' 26 February 18, 2.
    \10\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' last visited 17 April 18.
    \11\ UN Human Rights Council, ``[Draft Resolution] Promotion and 
Protection of All Human Rights, Civil, Political, Economic, Social and 
Cultural Rights, Including the Right to Development,'' A/HRC/37/L.36, 
19 March 18; UN Human Rights Council, ``Human Rights Council Adopts 10 
Texts, Requests a High-Level Panel Discussion on Genocide and a Study 
on the Role of Capacity Building in the Promotion of Human Rights,'' 23 
March 18; ``UN Rights Body Adopts China-Sponsored Resolution on 
Mutually Beneficial Cooperation,'' Xinhua, 24 March 18.
    \12\ UN Human Rights Council, ``Human Rights Council Adopts 10 
Texts, Requests a High-level Panel Discussion on Genocide and a Study 
on the Role of Capacity Building in the Promotion of Human Rights,'' 23 
March 18. See also U.S. Department of State, ``Key Outcomes of U.S. 
Priorities at the UN Human Rights Council's 37th Session,'' 23 March 
18.
    \13\ John Fisher, Human Rights Watch, ``China's `Win-Win' 
Resolution Is Anything But,'' 5 March 18; Andrea Worden, ``With Its 
Latest Human Rights Council Resolution, China Continues Its Assault on 
the UN Human Rights Framework,'' China Change, 9 April 18. See also 
Human Rights Watch, ``The Costs of International Advocacy: China's 
Interference in United Nations Human Rights Mechanisms,'' 5 September 
17, 13-25.
    \14\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' last visited 17 April 18.
    \15\ Karla W. Simon and Holly Snape, ``China's Social Organisations 
After the Charity Law,'' Made in China, Vol. 2, Issue 1 (January-March 
2017), 26-27.
    \16\ Ministry of Civil Affairs, ``Social Service Statistics 
Quarterly Report (Fourth Quarter of 2017)'' [Shehui fuwu tongji jibao 
(2017 nian 4 jidu)], 13 March 18, sec. 3(1).
    \17\ Shawn Shieh, ``Mapping the Dynamics of Civil Society: A Model 
Analysis of Trends in the NGO Sector,'' in NGO Governance and 
Management in China, eds. Reza Hasmath and Jennifer Y.J. Hsu (Abingdon: 
Routledge, 2016), 48; International Center for Not-for-Profit Law, 
``Civic Freedom Monitor: China,'' last visited 17 April 18.
    \18\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' last visited 17 April 18; Shawn Shieh, ``Mapping the 
Dynamics of Civil Society: A Model Analysis of Trends in the NGO 
Sector,'' in NGO Governance and Management in China, eds. Reza Hasmath 
and Jennifer Y.J. Hsu (Abingdon: Routledge, 2016), 52-53. See also 
Isabel Hilton et al., ``The Future of NGOs in China: A ChinaFile 
Conversation,'' Asia Society, ChinaFile, 14 May 15.
    \19\ Christian Solidarity Worldwide, ``Stakeholder Submission to 
the Universal Periodic Review, 31st Session, for the People's Republic 
of China,'' April 2018, item 3; CIVICUS and Asian Human Rights 
Commission, ``Stakeholder Submission to the Universal Periodic Review, 
31st Session, for the People's Republic of China,'' 29 March 18, item 
1.4; Front Line Defenders, ``Stakeholder Submission to the Universal 
Periodic Review, 31st Session, for the People's Republic of China,'' 29 
March 18, items 1-2.
    \20\ Zhao Chao and Chen Weiwei, ``Glorious Guide To Building a 
Marxist Ruling Party--Story of the Birth of the `Chinese Communist 
Party Constitution (Amendment)' '' [Jianshe makesi zhuyi zhizhengdang 
de guanghui zhiyin--zhongguo gongchandang zhangcheng (xiuzheng'an)'' 
dansheng ji], Xinhua, 28 October 17; Amendment to the PRC Constitution 
[Zhonghua renmin gongheguo xianfa xiuzheng'an], Xinhua, 11 March 18, 
art. 32; Human Rights in China, ``Stakeholder Submission to the 
Universal Periodic Review, 31st Session, for the People's Republic of 
China,'' April 2018, item 18.
    \21\ CIVICUS and Asian Human Rights Commission, ``Stakeholder 
Submission to the Universal Periodic Review, 31st Session, for the 
People's Republic of China,'' 29 March 18, item 1.4.
    \22\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
19, 20.
    \23\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 19(2), 21, 22.
    \24\ Chinese Human Rights Defenders, ``Repression and Resilience: 
Annual Report on the Situation of Human Rights Defenders in China 
(2017),'' 27 February 18, 24-26.
    \25\ ``Zhen Jianghua Not Released 37 Days After Criminal Detention, 
Many Rights Defenders Subjected to Stability Maintenance Measures Due 
to 19th Party Congress'' [Zhen jianghua xingju 37 tian qiman wei huoshi 
duo wei weiquan renshi yin shijiu da bei weiwen], China Free Press 
(blog), 9 October 17. For more information on Zhen Jianghua, see the 
Commission's Political Prisoner Database record 2017-00360.
    \26\ Human Rights Campaign in China, ``In Case Concerning Zhen 
Jianghua, Whom Zhuhai Government Detained on Inciting Subversion of 
State Power Charge, Sister Summoned by Jiangmen PSB, State Security 
Officials Warned Her, Saying Her Article Affected Police Efforts To 
Gather Evidence'' [Bei zhuhai dangju yi shandong dianfu guojia 
zhengquan zui jiya de zhen jianghua qi jiejie zao jiangmen gong'anju 
chuanxun guobao jinggao shuo ta wenzhang yingxiang jingfang souzheng], 
29 September 17.
    \27\ Civil Rights & Livelihood Watch, ``Authorities Secretly Tried 
Zhen Jianghua, Netizens Say It Shows [Authorities'] Guilty Mind'' 
[Dangju mimi shenpan zhen jianghua wangyou zhihu xinxu], 5 September 
18.
    \28\ Human Rights Campaign in China, ``In Case Concerning Zhen 
Jianghua, Whom Zhuhai Government Detained on Inciting Subversion of 
State Power Charge, Sister Summoned by Jiangmen PSB, State Security 
Officials Warned Her, Saying Her Article Affected Police Efforts To 
Gather Evidence'' [Bei zhuhai dangju yi shandong dianfu guojia 
zhengquan zui jiya de zhen jianghua qi jiejie zao jiangmen gong'anju 
chuanxun guobao jinggao shuo ta wenzhang yingxiang jingfang souzheng], 
29 September 17.
    \29\ Ibid.
    \30\ ``Eight Detained for Organizing Humanitarian Assistance for 
Political Prisoners and Their Families,'' China Change, 15 April 18.
    \31\ Ibid.; Rights Defense Network, ``RDN: Monthly Report on 
Detained Mainland Chinese Political Prisoners and Prisoners of 
Conscience (5/31/2018) No. 32 (Total 761 Persons) (Part 2)'' [Weiquan 
wang: zhongguo dalu zaiya zhengzhi fan, liangxin fan yuedu baogao (2018 
nian 5 yue 31 ri) di 32 qi (gong 761 ren) (di 2 bufen)], 31 May 18. For 
more information, see the Commission's Political Prisoner Database 
records 2018-00165 on Guo Qingjun, 2018-00222 on Liu Chunlin, 2018-
00221 on Dai Xiangnan.
    \32\ ``Eight Detained for Organizing Humanitarian Assistance for 
Political Prisoners and Their Families,'' China Change, 15 April 18.
    \33\ ``Detained Chinese Rights Group Spokeswoman Denied Visit From 
Defense Lawyer,'' Radio Free Asia, 16 March 18; Rights Defense Network, 
``Chinese Human Rights Watch Member, Xu Qin, Confirmed To Be Criminally 
Detained'' [Zhongguo renquan guancha chengyuan xu qin zhengshi zao 
xingshi juliu], 22 February 18. For more information on Xu Qin, see the 
Commission's Political Prisoner Database record 2016-00015.
    \34\ ``Chinese Police Charge Prominent Detained Rights Activist 
With Subversion,'' Radio Free Asia, 22 March 18.
    \35\ Ibid. For more information on Qin Yongmin, see the 
Commission's Political Prisoner Database record 2004-02138.
    \36\ Rights Defense Network, ``The Real Situation of Qin Yongmin's 
Trial'' [Qin yongmin an tingshen zhenshi qingkuang], 19 May 18.
    \37\ ``Wuhan Dissident Qin Yongmin Heavily Sentenced to 13 Years in 
Prison'' [Wuhan yiyi renshi qin yongmin zao zhongpan 13 nian], Radio 
Free Asia, 11 July 18.
    \38\ Rights Defense Network, ``Zhao Suli, Wife of Well-Known 
Democracy Movement Figure Qin Yongmin, Returns Home After Over 3 Years 
of Forced Disappearance'' [Zhuming minyun renshi qin yongmin furen zhao 
suli zao qiangpo shizhong 3 nian duo hou huidao jiazhong], 5 February 
18. For more information on Zhao Suli, see the Commission's Political 
Prisoner Database record 2016-00069.
    \39\ ``Chinese Police Charge Prominent Detained Rights Activist 
With Subversion,'' Radio Free Asia, 22 March 18; Lily Kuo, ``Chinese 
Dissident Qin Yongmin Jailed After `Show Trial,' '' Guardian, 11 July 
18.
    \40\ See, e.g., ``Muzzled China Feminist Group To Sue Over Online 
Censorship,'' Agence-France Presse, reprinted in Sino Daily, 24 March 
18; Grace Tsoi and Viola Zhou, ``Feminist Campaign Gets Blocked in 
China on International Women's Day,'' Inkstone, 8 March 18; China 
Digital Times, ``Minitrue: Do Not Report on PKU Open Letter,'' 25 April 
18.
    \41\ 1APRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China [Zhonghua renmin gongheguo 
jingwai feizhengfu zuzhi jingnei huodong guanli fa], passed 28 April 
16, effective 1 January 17. See also CECC, 2017 Annual Report, 5 
October 17, 225-26.
    \42\ See, e.g., Liu Yanling, ``Lines of Trust Blurred for NGOs 
Under China's New Law,'' Global Times, 14 December 17; World Resources 
Institute, ``World Resources Institute Obtains Overseas NGO 
Registration in China,'' 20 November 17; Ministry of Public Security, 
Overseas Non-Governmental Organizations Service Platform, ``Open 
Information--Public Information'' [Xinxi gongkai--xinxi gongshi], last 
visited 17 April 18; ``Registered Foreign NGO Representative Offices 
Interactive Map and Filterable Table,'' Asia Society, ChinaFile, China 
NGO Project, last visited 17 April 18.
    \43\ Tom Hancock, ``China Law Puts Foreign NGOs Under Tighter 
Control,'' Financial Times, 22 April 18.
    \44\ Chongyi Feng, ``The NGO Law in China and Its Impact on 
Overseas Funded NGOs,'' Cosmopolitan Civil Societies: An 
Interdisciplinary Journal, Vol. 9, No. 3 (2017), 102.
    \45\ Ministry of Public Security, Overseas Non-Governmental 
Organizations Service Platform, ``Open Information--Public 
Information'' [Xinxi gongkai--xinxi gongshi], last visited 20 August 
18; ``Registered Foreign NGO Representative Offices Interactive Map and 
Filterable Table,'' Asia Society, ChinaFile, China NGO Project, last 
visited 20 August 18.
    \46\ Ministry of Public Security, Overseas Non-Governmental 
Organizations Service Platform, ``Open Information--Public 
Information'' [Xinxi gongkai--xinxi gongshi], last visited 20 August 
18; ``Registered Foreign NGO Representative Offices Interactive Map and 
Filterable Table,'' Asia Society, ChinaFile, China NGO Project, last 
visited 17 April 18.
    \47\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' Asia Society, 
ChinaFile, China NGO Project, 8 August 18. According to Asia Society's 
China NGO Project, two INGO representative offices registered in June 
2018, which was significantly fewer than the prior 14 months and the 
following month of July 2018. See infographic titled ``Number of 
Representative Offices Registered Per Month, January 2017-July 2018.''
    \48\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' Asia Society, 
ChinaFile, China NGO Project, 8 August 18.
    \49\ Ibid.
    \50\ China Cyber Security, ``Brother Die: No Such Thing as Pie From 
the Sky! Don't Make These `Friends' Who Wear Masks'' [Xiong die: meiyou 
tianshang diao xianbing de shi'er! zhexie daizhe mianju de zhexie 
``pengyou'' zhende bu ke jiao], 14 April 18, reprinted in Doudou 
Headlines, 16 April 18; ``Government Cartoon Portrays `Foreign NGOs' as 
National Security Concern,'' Asia Society, ChinaFile, China NGO 
Project, 18 April 18.
    \51\ Lily Kuo, ``China's Anti-Spy Campaign: Cash Rewards and 
Warnings of `Dangerous Times,' '' Guardian, 10 May 18. See also 
Jeremiah Jenne (JeremiahJenne), Twitter post, 23 April 18, 2:46 a.m.
    \52\ Wen Mu and Da Yang, ``Scoring System Is Coming, Overseas NGOs 
Will Have an Even More Difficult Time'' [Jifen zhi yao lai le jingwai 
NGO rizi huojiang geng nanguo], Deutsche Welle, 6 May 18.
    \53\ State Council, PRC Counterespionage Law Implementing Rules 
[Zhonghua renmin gonghe guo fan jiandie fa shishi xize], 22 November 
17. See also ``China Adds Broad New Definitions to Counter-Espionage 
Law,'' Reuters, 6 December 17.
    \54\ PRC Counterespionage Law [Zhonghua renmin gongheguo fan 
jiandie fa], passed 1 November 14, effective 1 November 14.
    \55\ Ibid.; State Council, PRC Counterespionage Law Implementing 
Rules [Zhonghua renmin gonghe guo fan jiandie fa shishi xize], 22 
November 17, arts. 3, 5, 7-8, 19.
    \56\ Amnesty International, ``China: Taiwan NGO Worker Detained on 
Vague National Security Charges,'' 29 March 17; Benjamin Haas, ``China 
Says It Has Detained Taiwanese Activist Missing Since 19 March,'' 
Guardian, 29 March 17.
    \57\ Benjamin Haas, ``China Says It Has Detained Taiwanese Activist 
Missing Since 19 March,'' Guardian, 29 March 17; ``TAO: Lee Ming-cheh 
and Zhang Xiangzhong Cases Still Under Investigation'' [Guotaiban: li 
mingzhe, zhang xiangzhong shijian ren zai diaocha], Radio Free Asia, 26 
April 18.
    \58\ ``Taiwan Suspect Arrested on Mainland,'' Xinhua, 26 May 17.
    \59\ ``Public Hearing Begins for Peng Yuhua and Lee Ming-cheh Trial 
of First Instance in Subversion of State Power Case'' [Peng yuhua, li 
mingzhe dianfu guojia zhengquan an yishen gongkai kaiting], Xinhua, 11 
September 17.
    \60\ Ibid.
    \61\ ``China Jails Taiwan Activist Lee Ming-che for `Subversion,' 
'' BBC, 28 November 17; Mimi Lau, ``Rights Activist Lee Ming-cheh First 
Taiwanese To Be Jailed for Subversion on Mainland China,'' South China 
Morning Post, 28 November 17.
    \62\ ``China Jails Taiwan Activist Lee Ming-che for `Subversion,' 
'' BBC, 28 November 17; Benjamin Haas, `` `Serious Damage' to China-
Taiwan Ties as Activist Lee Ming-cheh Jailed,'' Guardian, 28 November 
17.
    \63\ ``China Jails Taiwan Activist Lee Ming-che for `Subversion,' 
'' BBC, 28 November 17; Benjamin Haas, `` `Serious Damage' to China-
Taiwan Ties as Activist Lee Ming-cheh Jailed,'' Guardian, 28 November 
17.
    \64\ ``Person Responsible for Ministry of Civil Affairs Social 
Organizations Management Bureau Answers Questions From This Paper's 
Reporter About Governance of Illegal Social Organizations'' [Minzhengbu 
shehui zuzhi guanli ju fuze ren jiu zhili feifa shehui zuzhi da ben bao 
jizhe wen], China Society News, 9 February 18.
    \65\ Ibid.
    \66\ Ministry of Finance and State Administration of Taxation, 
``Circular on Determining and Managing Issues Related to Nonprofit 
Organizations' Tax Exemption Eligibility'' [Guanyu fei yingli zuzhi 
mianshui zige rending guanli youguan wenti de tongzhi], issued 7 
February 18, effective 1 January 18, 6(6).
    \67\ ``China's Ministry of Civil Affairs Launched a New Round of 
Special Action Attacking `Illegal Social Organizations' '' [Zhongguo 
minzhengbu kaizhan xin yi lun daji ``feifa shehui zuzhi'' zhuanxiang 
huodong], Radio Free Asia, 17 April 18.
    \68\ Ministry of Civil Affairs, Measures on the Management of 
Social Organizations' Social Credit Information [Shehui zuzhi xinyong 
xinxi guanli banfa], issued 30 January 18, arts. 9, 15.
    \69\ Ibid., art. 11; ``Measures on the Management of Social 
Organizations' Credit Information, Severe Violations of Law and Those 
[Who Are] Untrustworthy Will Be Disciplined'' [Shehui zuzhi xinyong 
xinxi guanli banfa yanzhong weifa shixin jiang bei chengjie], CCTV, 31 
January 18.
    \70\ See, e.g., ``MCA Administratively Punishes Western Returned 
Scholars Foundation With Three-Month Suspension of Activities'' 
[Minzhengbu dui oumei tongxue jijinhui zuo chu tingzhi huodong san ge 
yue xingzheng chufa], China News Service, 14 March 18.
    \71\ Ministry of Civil Affairs, Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises (Revised Draft for Solicitation of Comments) [Minban 
feiqiye danwei dengji guanli tiaoli zhanxing tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16; Ministry of Civil Affairs, 
Regulations on the Management of Foundations (Revised Draft for 
Solicitation of Comments) [Jijinhui guanli tiaoli (xiuding cao'an 
zhengqiu yijian gao)], 26 May 16; Ministry of Civil Affairs, 
Regulations on the Registration and Management of Social Organizations 
(Revised Draft for Solicitation of Comments) [Shehui tuanti dengji 
guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 1 August 16. See 
also CECC, 2016 Annual Report, 6 October 16, 228.
    \72\ Ministry of Civil Affairs, Regulations on the Registration and 
Management of Social Organizations (Draft for Solicitation of Comments) 
[Shehui zuzhi dengji guanli tiaoli (cao'an zhengqiu yijian gao)], 3 
August 18, arts. 2, 83; Xie Xiaoxia, NGOCN, ``Reflections and Advice 
Regarding the `Regulations on the Registration and Management of Social 
Organizations (Draft for Solicitation of Comments)' '' [Guanyu ``shehui 
zuzhi dengji guanli tiaoli (cao'an zhengqiu yijian gao)'' de sikao yu 
jianyi], 6 August 18.
    \73\ Ministry of Civil Affairs, Regulations on the Registration and 
Management of Social Organizations (Draft for Solicitation of Comments) 
[Shehui zuzhi dengji guanli tiaoli (cao'an zhengqiu yijian gao)], 3 
August 18, arts. 8, 10.
    \74\ Ibid., art. 7.
    \75\ Ibid., art. 13; ``Measures on the Management of Social 
Organizations' Credit Information, Severe Violations of Law and Those 
[Who Are] Untrustworthy Will Be Disciplined'' [Shehui zuzhi xinyong 
xinxi guanli banfa yanzhong weifa shixin jiang bei chengjie], CCTV, 31 
January 18.
    \76\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, art. 38.
    \77\ State Council, Institutional Reform Plan [Guowuyuan jigou 
gaige fang'an], 17 March 18, sec. 2(4).
    \78\ ``Wang Yong: Establishing a National International Development 
Cooperation Agency'' [Wang yong: zujian guojia guoji fazhan hezuo shu], 
Xinhua, 13 March 18.
    \79\ David Gitter and Leah Fang, ``The Chinese Communist Party 
International Department: Overlooked Yet Ever Present,'' The Diplomat, 
8 August 16.
    \80\ Gong Jie, ``1st Silk Road NGO Cooperation Network Forum Kicks 
Off,'' China.org.cn, 21 November 17.
    \81\ Silk Road NGO Cooperation Network, ``Member Organizations,'' 
10 July 18. The Silk Road NGO Cooperation Network includes member 
organizations such as the All-China Youth Federation, All-China Women's 
Federation, Chinese People's Association for Friendship with Foreign 
Countries, Buddhist Association of China, China Catholic Patriotic 
Association and Bishops' Conference of the Catholic Church, China 
Islamic Association, and China Religious Culture Communication 
Association, among other government-organized non-governmental 
organizations (GONGOs).
    \82\ Gong Jie, ``1st Silk Road NGO Cooperation Network Forum Kicks 
Off,'' China.org.cn, 21 November 17; Silk Road NGO Cooperation Network, 
``Member Organizations,'' 10 July 18.
    \83\ China NGO Network for International Exchanges, ``About Us,'' 
last visited 14 June 18; Silk Road NGO Cooperation Network, 
``Introduction of the First Silk Road NGO,'' 24 November 17.
    \84\ State Council, ``Sun Jiazheng'' [Sun jiazheng], 14 March 18.
    \85\ Gerry Groot, ``The Long Reach of China's United Front Work,'' 
Lowy Institute, The Interpreter, 6 November 17.
    \86\ James A. Millward, ``Is China a Colonial Power? '' New York 
Times, 4 May 18; Shanthi Kalathil, ``China in Xi's `New Era': 
Redefining Development,'' Journal of Democracy, Vol. 29, Issue 2 (April 
2018), 52-55.


                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance

                 Institutions of Democratic Governance


                 Governance in China's One-Party System

    China's one-party authoritarian political system remains 
out of compliance with the standards defined in the 
International Covenant on Civil and Political Rights,\1\ which 
China has signed and declared an intention to ratify,\2\ and 
the Universal Declaration of Human Rights.\3\ These standards 
require that citizens be allowed to freely choose their 
representatives \4\ and to hold their officials accountable 
through fair and impartial elections regardless of political 
party membership.\5\ Historic developments in China this past 
year signified further regression from these international 
standards of democratic governance: \6\ The Chinese Communist 
Party tightened its control over the government and society 
through a significant restructuring of central Party and 
government institutions,\7\ and the Party and government 
overturned a key institutional reform of the post-Mao era by 
abolishing presidential term limits.\8\ In his report to the 
19th National Congress of the Chinese Communist Party (19th 
Party Congress) in October 2017, Party General Secretary and 
President Xi Jinping asserted that Party building will play a 
``decisive role'' in achieving the Party's goal of the ``great 
rejuvenation of the Chinese nation.'' \9\ According to an 
expert, the speech implies that ``the Party is the prerequisite 
for any success [of the country].'' \10\ As Party leaders 
demanded obedience and loyalty from all sectors of society,\11\ 
the Party itself increasingly came under the personal 
leadership of Xi.\12\ Citizens who voiced disagreement with 
official policies faced harassment, detention, or criminal 
prosecution,\13\ demonstrating Chinese authorities' violation 
of citizens' right to participate in public affairs.\14\

                    Xi Jinping Further Amassed Power

    This past year, Party General Secretary and President Xi 
Jinping further ``[centralized] authority under his personal 
leadership,'' \15\ thereby undermining collective 
leadership,\16\ ``[reversing] reform and opening initiated by 
former Chinese leader Deng Xiaoping . . .,'' \17\ and 
``destabilizing'' China's political system,\18\ according to 
scholars and experts. At the 19th Party Congress,\19\ convened 
between October 18 and 24, 2017,\20\ Xi delivered the 18th 
Central Committee report in which he reiterated a key goal of 
the Party's economic plan \21\ to complete the final phase of 
building a ``moderately prosperous society'' by 2020.\22\ Xi 
demanded that all sectors of society obey the Party Central 
Committee,\23\ and he also further solidified his leadership 
over the Party.\24\ On October 24, 2017, members of the 19th 
Party Congress voted to amend the Chinese Communist Party 
Constitution to recognize Xi as the ``core'' leader of the 
Party Central Committee \25\ and to write Xi's name and theory 
into the preamble.\26\ According to a U.S.-based scholar, the 
amendment ``marks a degree of influence and dominance not 
shared by any other leader since Mao [Zedong].'' \27\ An 
analysis described Xi's theory, ``Xi Jinping Thought on 
Socialism With Chinese Characteristics for a New Era,'' as ``a 
super-nationalistic narrative.'' \28\ In addition, Xi's 
references to the importance of ``propaganda and thought work'' 
(xuanchuan sixiang gongzuo) in his speeches since assuming 
power at the 18th Party Congress evoke ``brainwashing and Mao-
style ideological campaigns,'' according to this analysis.\29\ 
In March 2018, the Central Committee issued a plan to 
restructure Party and government organizations and elevated 
four leading small groups (lingdao xiaozu) headed by Xi to 
committees; the leading small groups were responsible for 
reform efforts, cybersecurity, finance, and foreign affairs, 
and the redesignation, according to some observers, may enhance 
Xi's authority and control over these policy issues.\30\ [For 
more information on the restructuring of Party and government 
organizations, see Party Expands Power Over Government and 
Society below.]

------------------------------------------------------------------------
   China's Constitution Amended To Eliminate  Presidential Term Limits
-------------------------------------------------------------------------
  Carrying out the Party Central Committee's recommendation,\31\ the
 National People's Congress \32\ amended China's Constitution on March
 11, 2018, with a vote of 2,958 in favor, 2 against, and 3
 abstentions.\33\ In what two experts characterized as ``historically
 consequential'' revisions,\34\ the amended Constitution no longer
 limits the president to serving two five-year terms.\35\ Former leader
 Deng Xiaoping took a leading role in instituting term limits in 1982,
 reportedly to avoid over-concentration of political power in one person
 \36\ and to establish an ``orderly system of succession.'' \37\
 Eliminating term limits potentially would allow Xi Jinping to retain
 the presidency indefinitely,\38\ and it signified Xi's repudiation of
 the succession system developed by Deng, according to observers.\39\
 Chinese and international observers said that the move--even if made
 with the intention of improving governance, as an NPC spokesman stated
 \40\--could lead to disorder,\41\ and ``revert[s] the country back to
 the era of strongman politics and the personality cult.'' \42\
  While state and Party news outlets asserted that the constitutional
 amendment enjoyed wide public support,\43\ different forms of protest
 against the amendment took place outside China.\44\ Authorities
 reportedly suppressed dissenting voices by means of censorship,\45\
 detention,\46\ and keeping democracy and rights advocates away from
 Beijing municipality.\47\ In one example, the Party Committee of
 Zhongnan University of Economics and Law removed a university professor
 from her teaching position for criticizing the constitutional
 amendment.\48\ Outside China, Chinese students studying at over 30
 schools around the world reportedly hung posters protesting the removal
 of term limits.\49\
------------------------------------------------------------------------

                    EROSION OF INTRAPARTY DEMOCRACY

    Xi Jinping further centralized his political power by 
handpicking persons to fill top leadership positions.\50\ In 
October 2017, the First Plenum of the 19th Central Committee 
announced the new members of the Politburo and its Standing 
Committee,\51\ the de facto center of political power in 
China.\52\ Xi Jinping reportedly handpicked the new members 
\53\ through conducting personal interviews.\54\ During the 
previous two congresses, the Party experimented with a straw 
poll, allowing a group of Party leaders to recommend 
candidates,\55\ as a step toward intraparty democracy (dangnei 
minzhu; also translated as ``inner-Party democracy'').\56\ 
Although it is unclear if the straw poll approach had an actual 
impact on the ultimate selection, it ``suggested the legitimacy 
of the leading cadres of the [Communist Party],'' according to 
an expert.\57\ An official news article cited the prevention of 
corrupt practices to justify Xi's dismissal of the straw poll 
approach.\58\ One observer expressed regrets that the straw 
poll approach was outright abandoned rather than improved 
upon,\59\ and another observer said that prior ``optimism for 
[intraparty democracy] proved short-lived.'' \60\

            Party Expands Power Over Government and Society

    At the annual meetings of the National People's Congress 
(NPC) and Chinese People's Political Consultative Conference in 
March 2018 (Two Sessions), central authorities unveiled 
sweeping changes to Party and government structures.\61\ Such 
reorganization, China's biggest in decades,\62\ gives the Party 
and Xi tighter control \63\ in a number of areas as the Party 
takes over the responsibility of policy implementation, which 
in recent decades had largely been left to the government 
bureaucracy.\64\ One scholar observed that these changes also 
are likely to erode the space for policy discussions and reduce 
checks on the abuse of power.\65\ Examples in which the 
restructuring plan grants the Party control over government-
held functions include the following:

        <bullet> The Central Party School and the Chinese 
        Academy of Governance merged to consolidate the Party's 
        leadership in training government officials and in 
        ensuring their ideological conformity.\66\
        <bullet> The Party's United Front Work Department 
        assumed exclusive policymaking authority over religious 
        and ethnic minority matters.\67\ [For more information 
        on the impact on religious freedom, see Section II--
        Freedom of Religion.]
        <bullet> The Party's Central Propaganda Department took 
        over managerial responsibilities for press and film 
        administration from the State Administration of Press, 
        Publication, Radio, Film, and Television (SAPPRFT), 
        which was disbanded as a result of the 
        reorganization.\68\ A newly created State Council 
        agency called the State Radio and Television 
        Administration took over SAPPRFT's remaining 
        responsibility for radio and television administration, 
        while the Central Propaganda Department will continue 
        to have a leadership role over the three major official 
        broadcast entities.\69\ In July 2018, the Propaganda 
        Department and the Central Organization Department 
        directed local units such as schools, research 
        institutions, and enterprises to produce media content, 
        hold special topic seminars, and implement training 
        modules aimed at expeditiously cultivating among 
        intellectuals ``a striving spirit to promote 
        patriotism,'' and aligning them with the Party and 
        government's objectives.\70\ A former provincial-level 
        propaganda department official characterized this as a 
        brainwashing campaign targeting intellectuals.\71\

    Another structural change that further blurs the line 
between the Party and the government is the creation of the 
National Supervisory Commission (NSC) to direct anticorruption 
efforts.\72\ At the Two Sessions, the NPC, acting at the 
direction of the Party's Central Committee,\73\ established the 
NSC by amending the Constitution \74\ and passing the PRC 
Supervision Law.\75\ The Supervision Law grants the NSC similar 
status as the State Council, the Supreme People's Court, and 
the Supreme People's Procuratorate (SPP).\76\ The NSC replaces 
the Ministry of Supervision and National Bureau of Corruption 
Prevention, and takes over certain duties of the SPP involving 
the investigation of official misconduct such as bribery and 
dereliction of duty.\77\ The NSC shares office space, 
personnel, and a website with the Central Commission for 
Discipline Inspection (CCDI), a Party entity,\78\ and is under 
the direct supervision of the Party's Central Committee.\79\
    While the CCDI's jurisdiction is limited to Party members, 
the new PRC Supervision Law grants the NSC broad supervisory 
jurisdiction covering not only Party and government officials, 
but also administrators at state-owned enterprises, public 
schools and hospitals, as well as village and residence 
committees.\80\ Some observers opined that creating the NSC 
allowed the Party to extend its extrajudicial disciplinary 
reach over the entire public sector,\81\ which is estimated to 
be over 100 million people.\82\ In addition, the PRC 
Supervision Law grants the NSC authority to confine individuals 
under a newly institutionalized disciplinary measure called 
``confinement'' (liuzhi) for up to six months without judicial 
oversight.\83\ Unlike ``double designation'' (shuanggui), a 
coercive measure reserved for Party members only,\84\ experts 
have assessed that NSC officials may apply liuzhi to confine 
any person suspected of bribery or of participating in crimes 
involving official misconduct, which may include civilians and 
foreign citizens.\85\ [For more information on arbitrary 
detention and on the NSC's authority to confine individuals, 
see text box titled Confinement (Liuzhi) Under the PRC 
Supervision Law in Section II--Criminal Justice.]

                         Control Over Citizens


                          SOCIAL CREDIT SYSTEM

    Party and government leadership continued to build the 
social credit system that aims to use surveillance and 
artificial intelligence to coerce and incentivize individuals 
to participate in ``social management'' to maintain social 
order.\86\ In 2014, the State Council issued a plan to complete 
by 2020 the regulatory and technical framework for a national 
social credit system,\87\ which is designed to measure 
citizens' creditworthiness and moral integrity as it relates to 
``socialist core values.'' \88\ As a social management tool 
currently consisting of ``fragmented initiatives that share a 
basic set of objectives [and] operational frameworks,'' \89\ 
the system takes into account factors beyond financial 
transactions to include criminal records, traffic violations, 
social media activities, and political activities.\90\ Critics 
have raised concerns that the social credit system is part of 
the Chinese government's efforts to counter perceived threats 
to national security and shape citizens' behavior through 
massive data-gathering and surveillance at the expense of 
privacy.\91\
    As part of its efforts to develop the social credit system, 
the Chinese government this past year moved to gain access to 
personal information collected by commercial enterprises.\92\ 
In February 2018, China's central bank, the People's Bank of 
China, granted a license to Baihang Credit Scoring (Baihang) to 
operate as a credit reporting company, enabling it to collect 
and process personal information.\93\ The newly formed Baihang 
is owned by eight major private companies in credit-related 
businesses \94\ and the National Internet Finance Association 
of China (NIFAC), a Party- and state-organized association that 
supervises the implementation of government policies in 
internet finance.\95\ The eight companies could share among 
themselves and with the NIFAC \96\ a wide range of customer 
data.\97\ The license was granted despite the Cyberspace 
Administration of China having found one of the member 
companies to have collected personal information in violation 
of the non-binding \98\ government standards for safeguarding 
personal information.\99\ Moreover, the manner in which 
collected data may be automatically shared among the eight 
companies for credit evaluation raised concerns that it could 
exceed the scope of customers' consent.\100\ In June 2018, 
Baihang partnered with over 120 companies, which would provide 
Baihang with personal information of their customers in 
exchange for access to Baihang's credit information 
database.\101\ One source expressed concern over whether 
Baihang's member companies' data sharing would violate China's 
privacy laws.\102\
    In addition, part of the implementation of the social 
credit system in some cases may violate citizens' due process 
rights and infringe on their right to freedom of movement.\103\ 
In March 2018, the National Development and Reform Commission 
(NDRC) and other state entities issued two opinions prohibiting 
certain individuals who have ``lost credit in serious ways'' 
from taking trains for six months \104\ or airplanes for a 
year.\105\ Affected individuals include those blacklisted 
because of their failure to satisfy a court judgment.\106\ 
International NGO Human Rights Watch highlighted two cases in 
which a lawyer and a journalist were unable to buy plane 
tickets because they were blacklisted as ``untrustworthy,'' 
respectively, for a court-ordered apology deemed ``insincere'' 
and a payment submission that a court said it did not 
receive.\107\ The NDRC deputy director reported in March that 
authorities had restricted 3 million individuals from using 
trains and 9 million from using aircraft due to ``lost 
credit.'' \108\

              AN EXPANDING, PERVASIVE SURVEILLANCE SYSTEM

    The Chinese government continued to expand the existing 
video surveillance system (also known as Skynet) \109\ this 
past year. In 2005, the Ministry of Public Security initiated a 
pilot program to implement video surveillance systems in over 
400 localities, and the ministry expanded the program to cover 
every prefecture-level city by 2011.\110\ Official news agency 
China News Service reported that the surveillance system had a 
limited impact on fighting crime and that its primary function 
is to ``maintain social stability'' such as preventing protests 
and demonstrations.\111\ Between 2012 and 2017, the system grew 
to consist of 20 million cameras,\112\ covering over 5,000 
local administrative jurisdictions,\113\ with many having 
facial recognition capabilities.\114\ In January 2018, the 
Party Central Committee and State Council issued an opinion on 
``rejuvenating'' villages and expressed the intention to expand 
the surveillance system to cover rural areas,\115\ consisting 
of about 41 percent of China's population.\116\
    In addition, Chinese authorities are building biometric 
databases to monitor broad segments of the population.\117\ In 
December 2017, the Wall Street Journal reported that public 
security officials in various locations in China collected 
biometric information such as saliva and blood samples from 
individuals, in some cases without their informed consent, who 
had expressed views critical of the government or committed 
minor infractions.\118\ The police in Ningxia Hui Autonomous 
Region reportedly wrote that they ``were transforming DNA 
technology from simply a criminal investigation tool into an 
important initiative for social control and safety keeping.'' 
\119\ In some localities, authorities gathered biometric 
information from migrant workers and coal miners because 
officials deemed these groups to be ``a higher risk to social 
stability.'' \120\ In the Xinjiang Uyghur Autonomous Region, 
authorities ``[collected] DNA samples of all residents between 
the ages of 12 and 65.'' \121\ China reportedly lacks adequate 
privacy protections with respect to the installation of 
surveillance cameras and the collection of biometric 
information.\122\ [For more information on surveillance in the 
Xinjiang Uyghur Autonomous Region, see Section IV--Xinjiang.]

     CONTINUED CRACKDOWN ON FREE SPEECH, ASSEMBLY, AND ASSOCIATION

    Chinese authorities continued to harass, detain, and 
imprison advocates who exercised their rights to freedom of 
speech, assembly, and association. The UN Office of the High 
Commissioner for Human Rights has found that the free exercise 
of these rights constitutes ``essential conditions'' for 
effective political participation.\123\ Representative cases 
are as follows:

        <bullet> Authorities harassed individuals around the 
        29th anniversary of the 1989 Tiananmen protests by 
        means of censorship, questioning, detention, and 
        enforced disappearance.\124\ For example, on June 4, 
        2018, police and officials from the local religious 
        affairs bureau detained over 17 members of the Early 
        Rain Covenant Church in Chengdu municipality shortly 
        before a scheduled prayer meeting to commemorate the 
        anniversary.\125\
        <bullet> Authorities continued to administratively and 
        criminally detain democracy advocates.\126\ In one 
        case, on May 21, 2018, police took rights defender Yu 
        Qiyuan into custody at a train station in Guangzhou 
        municipality, Guangdong province,\127\ reportedly in 
        connection with his participation in a sea memorial 
        held in July 2017 in Guangdong to commemorate the death 
        of Nobel Peace Prize laureate Liu Xiaobo.\128\ Yu 
        tweeted that police located him with facial recognition 
        technology.\129\
        <bullet> On May 11, 2018, the Wuhan Intermediate 
        People's Court tried Qin Yongmin, whom authorities 
        accused of ``subversion of state power'' in connection 
        to his participation in the banned China Democracy 
        Party and the domestic NGO China Human Rights 
        Watch.\130\ The trial took place more than three years 
        after authorities detained him in January 2015.\131\ 
        According to Qin's sister-in-law, authorities also 
        forcibly disappeared Qin's wife Zhao Suli at the same 
        time and placed her under soft detention.\132\ On July 
        11, 2018, the same court sentenced Qin to 13 years in 
        prison and 3 years' deprivation of political 
        rights.\133\
        <bullet> As of May 2018, Liu Feiyue, founder of the 
        rights monitoring website Civil Rights & Livelihood 
        Watch, remained in pretrial detention on suspicion of 
        ``inciting subversion of state power,'' since 
        authorities took him into custody in November 
        2016.\134\

                         Citizen Participation


                               ELECTIONS

    The Commission did not observe progress in expanding the 
scope of direct elections, which Chinese law limits to people's 
congresses of local jurisdictions such as smaller cities, 
counties, and townships.\135\ Chinese news media emphasized the 
Party's leadership in every step of the local election 
process,\136\ and citizens reportedly continued to face 
difficulties in running as independent candidates.\137\ Sources 
further highlighted instances in which officials suppressed 
meaningful participation in or speech regarding elections this 
past year,\138\ demonstrating that China's political 
institutions do not meet the standards for elections outlined 
in the Universal Declaration of Human Rights \139\ and 
International Covenant on Civil and Political Rights.\140\ For 
example, in January 2018, police in Laizhou city, Yantai 
municipality, Shandong province, took Zhang Yuxi into custody 
and ordered him to serve eight days' administrative detention 
on the charge of ``fabricating facts to disturb public order,'' 
thereby preventing him from participating in a village 
election.\141\ Zhang previously filed complaints about local 
officials' corrupt practices and exposed irregularities in a 
local election.\142\

                           RULEMAKING PROCESS

    The State Council's December 2017 amendments of two sets of 
regulations governing rulemaking processes \143\ have the 
potential to curb the arbitrary exercise of power \144\ and 
improve public participation, but they included language 
emphasizing the Party's control.\145\ The amended regulations 
require the State Council to solicit public opinion when 
drafting rules that diminish citizens' benefits or increase 
their responsibilities.\146\ State Council departments and 
local administrative departments are prohibited from making 
this type of rule unless expressly authorized by law.\147\ The 
amendments also require the rulemaking body to solicit public 
comments and permit it to hold public hearings or to appoint 
third-party experts with specialized knowledge to draft rules 
involving technical matters.\148\ Nevertheless, there is no 
mechanism by which the public can ensure that the rulemaking 
body has considered public comments.\149\ Moreover, the 
amendments added a new requirement for compliance with the 
Party's decisions and policies.\150\

                              Transparency

    The Chinese Communist Party issued regulations with the 
stated goal of improving transparency in Party affairs, but 
their impact likely will be limited. In December 2017, the 
Party Central Committee issued trial Regulations on Open Party 
Affairs (Open Party Regulations) that require Party entities to 
release information to the extent relevant to Party members and 
the public.\151\ Unlike the Open Government Information 
Regulations,\152\ the Open Party Regulations do not provide for 
mechanisms that allow citizens to request disclosure, and 
compliance is supervised by the Party itself.\153\ The scope of 
disclosure under the Open Party Regulations generally is 
limited to policy documents and work progress reports,\154\ and 
does not require the release of financial information, which is 
reportedly a key element in combating corruption.\155\ The 
extent of public oversight on the new National Supervisory 
Commission (NSC) remains uncertain because it is unclear which 
set of disclosure rules applies--while the NSC reports to the 
National People's Congress as a state entity, it also is 
characterized as a political body.\156\

                             Accountability

    Central authorities have implemented a years-long 
anticorruption campaign with the purported aim of holding 
officials accountable, but reports continue to highlight the 
campaign's apparent underlying political motivations and note 
that corruption remains pervasive in China.\157\ The Central 
Commission for Discipline Inspection (CCDI) announced that 
authorities nationwide disciplined a total of 527,000 
individuals in 2017; \158\ meanwhile, corruption reportedly 
remained a significant problem.\159\ A scholar noted that Xi 
Jinping has used the anticorruption campaign to disrupt 
``[f]actions organized around political rivals.'' \160\ As the 
CCDI underscored in the communique of its second plenary 
session, the elimination of individuals disloyal to the Party 
is part of the objective of the anticorruption campaign.\161\ 
Vice President Wang Qishan,\162\ who ran the campaign in his 
previous role as the CCDI Secretary,\163\ wrote a commentary in 
October 2017 that further underscored the political motivations 
of the campaign.\164\ Wang identified political corruption as 
the worst form of corruption, which includes stealing power 
from the Party and the state by creating interest groups and 
undermining the Party's control by organizing factional 
activities.\165\ A U.K.-based scholar noted that widespread 
corruption persists in China due to the absence of true 
accountability and transparency regarding internal affairs and 
that Chinese leaders do not display sufficient commitment to 
address these challenges.\166\
    Authorities in various localities retaliated against 
individuals who exposed official misconduct. Examples are as 
follows:

        <bullet> In August 2017, the Heyuan Municipal 
        Intermediate People's Court in Guangdong province 
        dismissed Liu Yao's \167\ appeal challenging a lower 
        court's judgment sentencing him to 20 years in prison 
        and fined him 1.4 million yuan (approximately 
        US$209,000) for ``extortion,'' ``fraud,'' and 
        ``purchasing a trafficked child.'' \168\ Liu's 
        detention is reportedly connected to his efforts to 
        expose corruption, including an official's alleged 
        involvement in unlawful appropriation of farmland for a 
        golf course project.\169\
        <bullet> In February 2018, the Huidong County People's 
        Court in Huizhou municipality, Guangdong, convicted Li 
        Jianxin on the charge of ``extortion'' and sentenced 
        him to 11 years in prison.\170\ Li's detention is 
        reportedly connected to his efforts to expose 
        corruption by local officials, including a former 
        deputy mayor of Huizhou.\171\


                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance
    Notes to Section III--Institutions of Democratic Governance

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76.
    \2\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 13 
July 18; State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 5.
    \3\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A(III) of 10 December 48.
    \4\ Ibid., art. 21. Article 21 of the UDHR provides that, 
``Everyone has the right to take part in the government of his country, 
directly or through freely chosen representatives . . .. The will of 
the people shall be the basis of the authority of government, this will 
shall be expressed in periodic and genuine elections which shall be by 
universal and equal suffrage and shall be held by secret vote or by 
equivalent free voting procedures.''
    \5\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \6\ David Shambaugh, ``Under Xi Jinping, a Return in China to the 
Dangers of an All-Powerful Leader,'' South China Morning Post, 1 March 
18; Cheng Li and Ryan McElveen, Brookings Institution, ``China's 
Constitutional Conundrum,'' 28 February 18.
    \7\ Willy Wo-Lap Lam, ``At China's `Two Sessions,' Xi Jinping 
Restructures Party-State To Further Consolidate Power,'' Jamestown 
Foundation, 26 March 18.
    \8\ Alice L. Miller, ``Only Socialism Can Save China; Only Xi 
Jinping Can Save Socialism,'' Stanford University, Hoover Institution, 
China Leadership Monitor, No. 56 (Spring 2018), 16 May 18.
    \9\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17; Jessica Batke, ``Party All the Time: Governance and Society 
in the New Era,'' China Stanford University, Hoover Institution, 
Leadership Monitor, No. 55 (Winter 2018), 23 January 18, 2. See also, 
Qian Gang, ``Qian Gang Exclusive: Report on Discourse in 2017 Part 1 
The System of `Xi's Discourse' Is Established'' [Qian gang zhuanwen: 
2017 yuxiang baogao--``xi yu'' tixi queli], Storm Media, 6 January 18.
    \10\ Jessica Batke, ``Party All the Time: Governance and Society in 
the New Era,'' Stanford University, Hoover Institution, China 
Leadership Monitor, No. 55 (Winter 2018), 23 January 18, 2.
    \11\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 3. See also Chris Buckley, `` `Orwellian Nonsense'? 
China Says That's the Price of Doing Business,'' New York Times, 6 May 
18; Jeffrey Wasserstrom, ``Statesman, Strongman, Philosopher, Autocrat: 
China's Xi Is a Man Who Contains Multitudes,'' The Conversation, 2 
April 18; Tom Phillips, ``Xi Shores Up Power With Demand for Army 
Obedience and Foreign Respect,'' Guardian, 1 August 17.
    \12\ James M. Lindsay, Council on Foreign Relations, ``Xi's China 
Is More Authoritarian at Home and More Assertive Abroad, Argues 
Elizabeth Economy in New Book,'' 1 May 18; Gordon G. Chang, ``Xi 
Jinping's Great Leap Backward,'' American Conservative, 9 July 18; 
Jessica Meyers, ``China's Communist Party Elders Picked Xi Jinping 
Because They Thought They Could Control Him. They Were Wrong,'' Los 
Angeles Times, 16 October 17; Chris Buckley, ``Xi Jinping Opens China's 
Party Congress, His Hold Tighter Than Ever,'' New York Times, 17 
October 17; John Garrick and Yan Chang Bennett, `` `Xi Jinping 
Thought,' '' China Perspective, Vol. 1-2 (2018), 100.
    \13\ See, e.g., Rights Defense Network, ``Wuhan Dissident Qin 
Yongmin Heavily Sentenced to 13 Years in Prison'' [Wuhan yiyi renshi 
qin yongmin zao zhongpan 13 nian], 11 July 18; Rights Defense Network, 
``Monthly Report on Detained Political Prisoners and Prisoners of 
Conscience in Mainland China (May 31, 2018) Issue No. 32 (Total 761 
Persons) (Part 1)'' [Zhongguo dalu zaiya zhengzhifan, liangxinfan yuedu 
baogao (2018 nian 5 yue 31 ri) di 32 qi (gong 761 ren) (di 1 bufen)], 
31 May 18; ``Participant of Sea Memorial for Liu Xiaobo Detained by 
`Facial Recognition' '' [Canyu liu xiaobo haiji renshi yi bei ``renlian 
shibie'' zao zhuabu], Radio Free Asia, 22 May 18; Rights Defense 
Network, ``Democracy Rights Advocate Huang Wenxun Continues To Be 
Harrassed and Pressured by Authorities Following Release From Prison'' 
[Minzhu weiquan renshi huang wenxuan chuyu hou reng zao dangju buduan 
saorao he daya], 25 May 18.
    \14\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \15\ Elizabeth C. Economy, The Third Revolution (Oxford: Oxford 
University, 2018), 10; James M. Lindsay, Council on Foreign Relations, 
``Xi's China Is More Authoritarian at Home and More Assertive Abroad, 
Argues Elizabeth Economy in New Book,'' 1 May 18.
    \16\ Shannon Tiezzi, ``Carl Minzner on China's Post-Reform Era,'' 
The Diplomat, 4 April 18; Elizabeth C. Economy, The Third Revolution 
(Oxford: Oxford University, 2018), 52-53; David Shambaugh, ``Under Xi 
Jinping, a Return in China to the Dangers of an All-Powerful Leader,'' 
South China Morning Post, 1 March 18.
    \17\ James M. Lindsay, Council on Foreign Relations, ``Xi's China 
Is More Authoritarian at Home and More Assertive Abroad, Argues 
Elizabeth Economy in New Book,'' 1 May 18. Elizabeth C. Economy, The 
Third Revolution (Oxford: Oxford University, 2018), 53.
    \18\ Carl Minzner, ``Reversing Reform,'' Asia Society, ChinaFile, 8 
March 18; Carl Minzner, End of an Era (Oxford: Oxford University Press, 
2018), 29, 30, 32, 34.
    \19\ Chinese Communist Party Constitution [Zhongguo gongchandang 
zhangcheng], adopted 6 September 82, amended 1 November 87, 18 October 
92, 18 September 97, 14 November 02, 21 October 07, 14 November 12, 24 
October 17, art. 19. The Chinese Communist Party Constitution provides 
that a Party Congress is held once every five years and convened by the 
Central Committee. ``18th Party Congress Begins, Hu Jintao Presents 
Report'' [Shiba da kaimu hu jintao zuo baogao], Xinhua, 8 November 12. 
The 18th Party Congress took place in November 2012.
    \20\ ``19th Party Congress of the Chinese Communist Party Convenes 
in Beijing, Xi Jinping Delivers Work Report to Congress on Behalf of 
the 18th Central Committee, Presided Over by Li Keqiang'' [Zhongguo 
ggongchandang di shijiu ci quanguo daibiao dahui zai jing kaimu xi 
jinping daibiao di shiba jie zhongyang weiyuanhui xiang dahui zuo 
baogao li keqiang zhuchi dahui], Xinhua, 18 October 17; ``19th Party 
Congress of the Chinese Communist Party Concludes in Beijing, Xi 
Jinping Delivers Important Speech'' [Zhongguo gongchandang di shijiu ci 
quanguo daibiao dahui zai jing bimu xi jinping fabiao zhongyao 
jianghua], Xinhua, 24 October 17.
    \21\ See, e.g., ``Xi Jinping: Keep the Masses' Security and Well-
Being Close to Our Hearts'' [Xi jinping ba qunzhong anwei lengnuan 
shike fang zai xinshang], Xinhua, 30 December 12; ``Thirteenth Five-
Year Plan Passed: Average Per Capita Income in 2020 Targeted To Double 
Compared to 2010'' [Shisan wu guihua tongguo: 2020 nian renjun shouru 
bi 2010 nian fanfan], Beijing Times, reprinted in Xinhua, 30 October 
15.
    \22\ ``Xi Jinping: Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era'' [Xi 
jinping: juesheng quanmian jiancheng xiaokang shehui duoqu xin shidai 
zhongguo tese shehui zhuyi weida shengli], 18 October 17, Xinhua, 27 
October 17, sec. 4.
    \23\ Ibid., sec. 3. See also Chris Buckley, `` `Orwellian 
Nonsense'? China Says That's the Price of Doing Business,'' New York 
Times, 6 May 18; Jeffrey Wasserstrom, ``Statesman, Strongman, 
Philosopher, Autocrat: China's Xi Is a Man Who Contains Multitudes,'' 
The Conversation, 2 April 18; Tom Phillips, ``Xi Shores Up Power With 
Demand for Army Obedience and Foreign Respect,'' Guardian, 1 August 17.
    \24\ Chinese Communist Party Constitution [Zhongguo gongchandang 
zhangcheng], adopted 6 September 82, amended 1 November 87, 18 October 
92, 18 September 97, 14 November 02, 21 October 07, 14 November 12, 24 
October 17, General Program; James M. Lindsay, Council on Foreign 
Relations, ``Xi's China Is More Authoritarian at Home and More 
Assertive Abroad, Argues Elizabeth Economy in New Book,'' 1 May 18; 
Gordon G. Chang, ``Xi Jinping's Great Leap Backward,'' American 
Conservative, 9 July 18; Jessica Meyers, ``China's Communist Party 
Elders Picked Xi Jinping Because They Thought They Could Control Him. 
They Were Wrong,'' Los Angeles Times, 16 October 17; Chris Buckley, 
``Xi Jinping Opens China's Party Congress, His Hold Tighter Than 
Ever,'' New York Times, 17 October 17; John Garrick and Yan Chang 
Bennett, `` `Xi Jinping Thought,' '' China Perspective, Vol. 1-2 
(2018), 100.
    \25\ Zhao Chao and Chen Weiwei, ``Glorious Guide To Building a 
Marxist Ruling Party--Story of the Birth of the `Chinese Communist 
Party Constitution (Amendment)' '' [Jianshe makesi zhuyi zhizhengdang 
de guanghui zhiyin--``zhongguo gongchandang zhangcheng (xiuzheng'an)'' 
dansheng ji], Xinhua, 28 October 17.
    \26\ Central Commission for Discipline Inspection, ``Understanding 
Through One Picture: Table Illustrating Changes in the `Constitution of 
the Chinese Communist Party' '' [Yitu dudong: ``zhongguo gongchandang 
zhangcheng'' xiugai duibi yilanbiao], 31 October 17.
    \27\ Joseph Fewsmith, ``The 19th Party Congress: Ringing in Xi 
Jinping's New Age,'' Stanford University, Hoover Institution, China 
Leadership Monitor, No. 55 (Winter 2018), 23 January 18, 7-8.
    \28\ Willy Wo-Lap Lam, ``What is Xi Jinping Thought?'' Jamestown 
Foundation, China Brief, Vol. 17, Issue 12, 21 September 17.
    \29\ Ibid.; ``Summary of Xi Jinping's Captivating Speeches on 
`Propaganda and Thought Work' Since 18th Party Congress'' [Xi jinping 
shibada yilai guanyu ``xuanchuan sixiang gongzuo'' jingcai lunshu 
zhaibian], People's Daily, 19 August 14; Zhang Xiaosong and Huang 
Xiaoxi, ``Xi Jinping Attends National Propaganda and Thought Work 
Conference and Delivers Important Speech'' [Xi jinping chuxi quanguo 
xuanchuan sixiang gongzuo huiyi bing fabiao zhongyao jianghua], Xinhua, 
22 August 18.
    \30\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 1(4); Alice L. Miller, ``Only Socialism Can 
Save China; Only Xi Jinping Can Save Socialism,'' Stanford University, 
Hoover Institution, China Leadership Monitor, No. 56 (Spring 2018), 16 
May 18, 7; Jun Mai, ``China Unveils Bold Overhaul To Tighten Communist 
Party Control,'' South China Morning Post, 22 March 18; Mai Yanting, 
``Reform Leads to `Party-Based Governance,' NPC's Supervisory Function 
Significantly Weakened'' [Gaige ling zhonggong ``yi dang zhiguo'' renda 
jiandu xiaoneng da xue], Radio France Internationale, 22 March 18. See 
also Zheng Yanzhi, `` `Small Groups' Become `Committees,' It's 
Transcendence as Much as Status Elevation!'' [``Xiaozu'' bian 
``weiyuanhui,'' jishi shengge, gengshi shenghua!], People's Daily, 29 
March 18.
    \31\ ``Chinese Communist Party Central Committee's Recommendation 
To Amend Portion of the Constitution'' [Zhongguo gongchandang zhongyang 
weiyuanhui guanyu xiugai xianfa bufen neirong de jianyi], 26 January 
18, Xinhua, 25 February 18, item 14.
    \32\ The National People's Congress has been described as ``a 
rubber-stamp body with no real legislative power.'' Andrew J. Nathan, 
``China: Back to the Future,'' New York Review of Books, 10 May 18.
    \33\ ``Amendment to the People's Republic of China Constitution 
Passed'' [Zhonghua renmin gongheguo xianfa xiuzheng'an tongguo], 
People's Daily, 11 March 18; Amendment to the PRC Constitution 
[Zhonghua renmin gongheguo xianfa xiuzheng'an], Xinhua, 11 March 18, 
item 45; Lin Xiaowei et al., ``Collaborative News: Escorting the Convoy 
in the New Era, Apt Time To Amend Constitution--International Community 
Watches Closely as National People's Congress Passes Constitutional 
Amendment'' [Zonghe xiaoxi: huhang xin shidai xiuxian zhengdang shi--
guoji shehui guanzhu quanguo renda tongguo xianfa xiuzheng'an], Xinhua, 
11 March 18; Luo Zhengguang and Zhu Jiehai, ``Featured Story: Historic 
and Dignified Moment--Reporting Deliberation and Passing of 
Constitutional Amendment at the First Plenum of the 13th National 
People's Congress'' [Texie: lishixing de zhuangyan shike--ji shisan jie 
quanguo renda yici huiyi biaojue tongguo xianfa xiuzheng'an], Xinhua, 
12 March 18.
    \34\ Cheng Li and Ryan McElveen, Brookings Institution, ``China's 
Constitutional Conundrum,'' 28 February 18.
    \35\ Amendment to the PRC Constitution [Zhonghua renmin gongheguo 
xianfa xiuzheng'an], Xinhua, 11 March 18, item 45.
    \36\ Hong Zhenkuai, ``Looking at the Xi-Style Constitutional 
Amendment Through the Lens of Term Limit History'' [Cong renqi zhi 
lishi kan xi shi xiuxian], New York Times, 22 March 18; PRC 
Constitution, issued 4 December 82, amended 12 April 88, 29 March 93, 
15 March 99, 14 March 04, 11 March 18, art. 79.
    \37\ Andrew J. Nathan, ``China: Back to the Future,'' New York 
Review of Books, 10 May 18.
    \38\ Chris Buckley and Steven Lee Myers, ``China's Legislature 
Blesses Xi's Indefinite Rule. It Was 2,958 to 2,'' New York Times, 11 
March 18.
    \39\ Andrew J. Nathan, ``China: Back to the Future,'' New York 
Review of Books, 10 May 18.
    \40\ ``China: Abolishing Presidential Term Limits Good for 
Governance,'' Al Jazeera, 4 March 18.
    \41\ David Bandurski, ``Li Datong's Open Letter,'' University of 
Hong Kong, Journalism & Media Studies Centre, China Media Project, 28 
February 18; Deng Yuwen, ``With an End to Term Limits, Xi Can Realise 
His Chinese Dream--But Will the Price for China Be Too High?'' South 
China Morning Post, 6 March 18.
    \42\ Cheng Li and Ryan McElveen, Brookings Institution, ``China's 
Constitutional Conundrum,'' 28 February 18.
    \43\ Wang Mengran et al., ``Delegate From Jiangsu Sincerely 
Supports Passage of Constitutional Amendment'' [Jiangsu daibiao weiyuan 
zhongxin yonghu xianfa xiuzheng'an tongguo], Xinhua, 12 March 18; 
``Giving Strong Constitutional Protection for Great Revitalization of 
the Chinese People'' [Wei zhonghua minzu weida fuxing tigong youli 
xianfa baozhang], Legal Daily, 22 March 18. See also ``Chinese NPC 
Passes Constitutional Amendment by Large Margin, Xi Jinping Begins To 
Rule With Unlimited Term'' [Zhongguo renda gao piao tongguo xiuxian'an 
xi jinping kaishi wuxianqi zhizheng], Voice of America, 11 March 18.
    \44\ ``Chinese Protest Removal of Presidential Term Limits Outside 
China,'' Radio Free Asia, 15 March 18; Frances Mao, ``Xi Jinping: `Not 
My President' Posters Emerge Outside China,'' BBC, 12 March 18.
    \45\ See, e.g., Echo Huang, ``How China Reacted to the Idea of 
Indefinite Rule by Xi, in Memes,'' Quartz, 26 February 18; ``Online 
`Blacklist' Initiated, Many WeChat Accounts Closed Down, Zhu Xinxin 
`Blacklisted and Censored' for Talking About `Life Tenure' '' [Qidong 
wangluo ``hei mingdan'' zhong weixin bei feng zhu xinxin yi 
``zhongshenzhi'' zao ``lahei''], Radio Free Asia, 1 March 18; 
``Stability Maintenance in Xi Jinping's `New Era': Compressing Space 
for Citizens' Freedom Using Advanced Technology'' [Xi jinping ``xin 
shidai'' weiwen: gao keji yasuo gongmin ziyou kongjian], Radio Free 
Asia, 26 March 18; ``Chongqing Local Lawyers Association and 
Lengshuijiang Justice Bureau Prohibit Lawyers From Participating in 
Online Discussions About `Constitutional Amendment,' According to Web 
Sources'' [Wang chuan chongqing difang lushi xiehui ji lengshuijiang 
shi sifaju yaoqiu lushi bude canyu ``xiugai xianfa'' wangluo taolun], 
Lawyers' Rights & Interests Concern Net (blog), 27 February 18; China 
Digital Times, ``Minitrue: How to Report on the NPC,'' 12 March 18.
    \46\ See, e.g., Civil Rights & Livelihood Watch, ``Jiangxi 
Dissident Liang Bo Administratively Detained for Five Days for 
`Spreading Rumors' '' [Jiangxi yiyi renshi liang bo bei yi ``san yao'' 
xingju wu tian], 21 March 18; ``Former Procurator Shen Liangqing 
Detained Overnight for Questioning, Possibly for Criticizing 
Constitutional Amendment Online'' [Yi zai wangshang piping xiuxian qian 
jianchaguan shen liangqing bei tongxiao koucha], Radio Free Asia, 7 
March 18; ``Detained for Satirizing Constitutional Amendment, Geng 
Caiwen and Huang Jingyi Released'' [Wangshang fengci xiuxian bei kou 
geng caiwen, huang jingyi huoshi], Radio Free Asia, 27 March 18. For 
more information, see the following records in the Commission's 
Political Prisoner Database: 2014-00234 on Huang Jingyi, 2015-00336 on 
Geng Caiwen, 2018-00316 on Liang Bo, and 2018-00317 on Shen Liangqing.
    \47\ ``Sensitive People Forced To Leave Beijing for Stability 
Maintenance During Two Sessions, Netizens Detained for Satirizing 
Constitutional Amendment'' [Lianghui weiwen min'gan renshi bei po li 
jing wangmin feng xiuxian bei ju], Radio Free Asia, 3 March 18.
    \48\ Rights Defense Network, ``CCP Tightening Control of Speech in 
Higher Education Institutions, Zhongnan University of Economics and Law 
Female Associate Professor Zhai Jiehong Disciplined for Speech in Class 
After Being Reported by Student'' [Zhonggong dangju gaoxiao yanlun 
kongzhi riqu yanku zhongnan caijing zhengfa daxue nu fujiaoshou zhai 
jiehong yin ketang yanlun zao xuesheng gaomi bei chufen], 21 May 18.
    \49\ Qiu Zhongsun, ``Chinese Students Protest in America, Face 
Danger at Home,'' Foreign Policy, 28 May 18.
    \50\ Susan Shirk et al., ``The 19th Party Congress: A Retrospective 
Analysis,'' in Xi Takes Charge: Implications of the 19th Party Congress 
for China's Future, University of California at San Diego, School of 
Global Policy & Strategy, 21st Century China Center, October 2017, 38.
    \51\ Chinese Communist Party Central Committee, ``Communique of the 
First Plenum of the 19th Chinese Communist Party Central Committee'' 
[Zhongguo gongchandang di shijiu jie zhongyang weiyuanhui di yici 
quanti huiyi gongbao], 25 October 17; ``General Secretary Xi Jinping's 
Comments to Chinese and Foreign Reporters at the 19th Political Bureau 
Standing Committee of the Chinese Communist Party Central Committee'' 
[Xi jinping zongshuji zai shijiu jie zhonggong zhongyang zhengzhiju 
changwei tong zhongwai jizhe jianmian shi de jianghua], Xinhua, 25 
October 17.
    \52\ Tony Saich, Governance and Politics of China (New York: 
Palgrave Macmillan, 2015), 90; Wang Xiangwei, ``Analysis: How Xi 
Jinping Revived Old Methods by Abandoning Intraparty Democracy,'' South 
China Morning Post, 5 November 17.
    \53\ ``Xi Jinping in Charge: Key Takeaways From China's 19th 
Communist Party Congress,'' Albright Stonebridge Group, 27 October 17, 
2; Wang Xiangwei, ``Analysis: How Xi Jinping Revived Old Methods by 
Abandoning Intraparty Democracy,'' South China Morning Post, 5 November 
17; Zhao Cheng et al., ``Strong Collective Leadership That Leads in the 
New Era--Report of the Formation of the Party's New Institution of 
Central Leadership'' [Linghang xin shidai de jianqiang lingdao jiti--
dang de xin yi jie zhongyang lingdaojigou chansheng jishi], Xinhua, 26 
October 17. See also Alice L. Miller, ``The Road to the 19th Party 
Congress,'' Stanford University, Hoover Institution, China Leadership 
Monitor, No. 51 (Fall 2016), 30 August 16, 9-10.
    \54\ Zhao Cheng et al., ``Strong Collective Leadership That Leads 
in the New Era--Report of the Formation of the Party's New Institution 
of Central Leadership'' [Linghang xin shidai de jianqiang lingdao 
jiti--dang de xin yi jie zhongyang lingdaojigou chansheng jishi], 
Xinhua, 26 October 17.
    \55\ Wang Xiangwei, ``Analysis: How Xi Jinping Revived Old Methods 
by Abandoning Intraparty Democracy,'' South China Morning Post, 5 
November 17; Li Zhen et al., ``Explained by Party International Liaison 
Department's Cartoon: How Does Chinese Communist Party Select Party and 
Government Leaders and Cadres'' [Zhonglianbu manhua jiedu: zhonggong 
zenyang xuanba dangzheng lingdao ganbu], People's Daily, 10 May 16; Liu 
Siyang et al., ``Record of the Formation of a New Party Leadership 
Institution'' [Dang de xin yi jie zhongyang lingdao jigou chansheng 
jishi], People's Daily, 24 October 07.
    \56\ Committee for a Workers' International, ``Xi Jinping: How 
Strong Is China's Strongman?'' 17 November 17; Liu Siyang et al., 
``Record of the Formation of a New Party Leadership Institution'' [Dang 
de xin yi jie zhongyang lingdao jigou chansheng jishi], People's Daily, 
24 October 07; ``Highlights of Report Delivered to the General Assembly 
by Comrade Hu Jintao on Behalf of the 16th Central Committee'' [Hu 
jintao tongzhi daibiao di shiliu jie zhongyang weiyuanhui xiang dahui 
zuo de baogao zhai deng], People's Daily, 18 October 07.
    \57\ Joseph Fewsmith, ``The 19th Party Congress: Ringing in Xi 
Jinping's New Age,'' Stanford University, Hoover Institution, China 
Leadership Monitor, No. 55 (Winter 2018), 23 January 18, 16-17.
    \58\ Zhao Cheng et al., ``Strong Collective Leadership That Leads 
in the New Era--Report of the Formation of the Party's New Institution 
of Central Leadership'' [Linghang xin shidai de jianqiang lingdao 
jiti--dang de xin yi jie zhongyang lingdaojigou chansheng jishi], 
Xinhua, 26 October 17.
    \59\ Lu Bingquan, ``Is Xi Jinping Setting a Precedent or Breaking 
the Rules?'' [Xi jinping kaichuang xianhe haishi pohuai guiju?], Ming 
Pao, 7 November 17.
    \60\ Wang Xiangwei, ``Analysis: How Xi Jinping Revived Old Methods 
by Abandoning Intraparty Democracy,'' South China Morning Post, 5 
November 17.
    \61\ Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies'' [Zhongggong 
zhongyang guanyu shenhua dang he guojia jigou gaige de jueding], 
Xinhua, 4 March 18; ``Chinese Communist Party Central Committee Issues 
`Plan for Deepening Reform of Party and Government Agencies' '' 
[Zhonggong zhongyang yinfa ``shenhua dang he guojia jigou gaige 
fang'an''], Xinhua, 21 March 18; State Council, Institutional Reform 
Plan [Guowuyuan jigou gaige fang'an], 17 March 18; ``State Council 
Structural Reform Plan Passed at First Session of the 13th National 
People's Congress'' [Shisan jie quanguo renda yici huiyi pizhun 
guowuyuan jigou gaige fang'an], Xinhua, 17 March 18.
    \62\ Mercator Institute for China Studies, ``China Update 7/2018: 
23 March-12 April 18,'' 12 April 18.
    \63\ See, e.g., Keith Bradsher and Chris Buckley, ``China's 
Communist Party Centralizes Power Over Finance and Pollution Control,'' 
New York Times, 12 March 18; Chris Buckley and Keith Bradsher, ``When 
Xi Speaks, Chinese Officials Jump. Maybe Too High,'' New York Times, 16 
March 18; Chris Buckley, ``China Gives Communist Party More Control 
Over Policy and Media,'' New York Times, 21 March 18; Jun Mai, ``China 
Unveils Bold Overhaul To Tighten Communist Party Control,'' South China 
Morning Post, 22 March 18; ``China Unveils `Revolutionary' Plan to Give 
Communist Party Even More Power,'' Bloomberg, 12 March 18; Willy Wo-Lap 
Lam, ``At China's `Two Sessions,' Xi Jinping Restructures Party-State 
To Further Consolidate Power,'' Jamestown Foundation, China Brief, Vol. 
18, Issue 5, 26 March 18, 1-2.
    \64\ Shannon Tiezzi, ``Carl Minzner on China's Post-Reform Era,'' 
The Diplomat, 4 April 18; Council on Foreign Relations, ``Unrivaled 
Power: The Lifting of China's Presidential Term Limits,'' 22 March 18; 
Matthias Stepan and Sabine Muscat, ``In Xi's China, the Party Morphs 
Into the State,'' Mercator Institute for China Studies, MERICS Blog--
European Voices on China, 7 March 18.
    \65\ Shannon Tiezzi, ``Carl Minzner on China's Post-Reform Era,'' 
The Diplomat, 4 April 18.
    \66\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, secs. 1(6), (7); ``Head of Party Organization 
Department Chen Xi To Head Chinese Academy of Governance, Tuo Zhen 
Becomes Chief Editor of People's Daily'' [Zhongzu buzhang chen xi jian 
guojia xingzheng xueyuan yuanzhang tuo zhen ren renmin ribao 
zongbianji], Radio Free Asia, 4 April 18.
    \67\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, secs. 1(13), (14).
    \68\ Ibid., secs. 1(11)-(12), 3(35).
    \69\ Ibid., sec. 3(35)-(36); Anne-Marie Brady, Marketing 
Dictatorship: Propaganda and Thought Work in Contemporary China 
(Lanham, MD: Rowman & Littlefield, 2008), 17.
    \70\ ``Central Organization Department and Central Propaganda 
Department Issue `Notice on Initiating the `New Era of Promoting 
Patriotic Striving Spirit and Contributing Meritorious Service' 
Campaign That Deeply Penetrates the Large Number of Intellectuals' '' 
[Zhongyang zuzhi bu zhongyang xuanchuan bu yinfa ``guanyu zai guangda 
zhishi fenzi zhong shenru kaizhan `hongyang aiguo fendou jingshen, 
jiangong liye xin shidai' huodong de tongzhi''], Xinhua, 31 July 18; 
``Circular From Central Organization Department and Central Propaganda 
Department Regarding Thoroughly Carrying Out the `New Era of Promoting 
Patriotic Striving Spirit and Contributing Meritorious Service' 
Activities Among a Wide Range of Intellectuals'' [Zhonggong zhongyang 
zuzhi bu zhonggong zhongyang xuanchuanbu guanyu zai guangda zhishi 
fenzi zhong shenru kaizhan ``hongyang aiguo fendou jingshen, jiangong 
liye xin shidai'' huodong de tongzhi], Xinhua, 31 July 18, sec. II(2).
    \71\ ``Chinese Communist Party Issues Notice, Intellectuals Must Be 
Brainwashed and Patriotic'' [Zhonggong fa tongzhi zhishi fenzi xu 
xi'nao aiguo], Radio Free Asia, 2 August 18.
    \72\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 27 March 18.
    \73\ Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies [Zhongggong zhongyang 
guanyu shenhua dang he guojia jigou gaige de jueding], Xinhua, 4 March 
18; ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18.
    \74\ Jiang Jie and Zhu Jichai, ``Account of the National 
Supervisory Commission's Creation--Move To Build a System To Strengthen 
Supervision Over Party and State'' [Jianquan dang he guojia jiandu tixi 
de chuangzhi zhi ju--guojia jiancha weiyuanhui chansheng jishi], 
Xinhua, 24 March 18; Nectar Gan, ``Xi Jinping Thought--The Communist 
Party's Tighter Grip on China in 16 Characters,'' South China Morning 
Post, 25 October 17; ``Chinese Communist Party Amends Constitution To 
Create Supervisory Commission, Strengthens Anticorruption Detention 
Measures'' [Zhonggong xiuxian she jiancha wei qianghua fanfu juya 
cuoshi], Radio Free Asia, 27 February 18. The establishment of the 
National Supervisory Commission was done pursuant to the Party's 
recommendation. Chinese Communist Party Central Committee, Decision on 
Deepening Reform of Party and Government Agencies [Zhongggong zhongyang 
guanyu shenhua dang he guojia jigou gaige de jueding], Xinhua, 4 March 
18; ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18.
    \75\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed 20 March 18, art. 15.
    \76\ Ma Ling, ``Evaluating Institutional Robustness and Soundness 
of People's Congress Through the Establishment of the Supervisory 
Commission'' [Cong jiancha weiyuanhui de sheli kan renmin daibiao dahui 
zhidu de jianquan he wanshan], Journal of Soochow University, No. 4 
(2017), reprinted in Research Centre for Constitutional and 
Administrative Law, Calaw.cn Net, 1 December 2017.
    \77\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18.
    \78\ Dimitar Gueorguiev and Jonathan Stromseth, Brookings 
Institution, ``New Chinese Agency Could Undercut Other Anti-Corruption 
Efforts,'' Order From Chaos (blog), 6 March 18; Central Commission for 
Discipline Inspection and National Supervisory Commission, ``Why Do the 
Central Commission for Discipline Inspection and National Supervisory 
Commission Work Together?'' [Weishenme zhongyang jiwei yu guojia 
jiancha weiyuanhui yao heshu bangong?], 5 February 18; Central 
Commission for Discipline Inspection and National Supervisory 
Commission, ``Introduction of CCDI and NSC's Website'' [Zhongyang jiwei 
guojia jianwei wangzhan jianjie], 20 March 18.
    \79\ Liang Jun, ``Minister of Supervision Yang Xiaodu: National 
Supervisory Commission Led by Party and Supervised by NPC'' [Jianchabu 
buzhang yang xiaodu: jiancha wei jieshou dang de lingdao he renda de 
jiandu], People's Daily, 5 March 18.
    \80\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed 20 March 18, art. 15.
    \81\ Dimitar Gueorguiev and Jonathan Stromseth, Brookings 
Institution, ``New Chinese Agency Could Undercut Other Anti-Corruption 
Efforts,'' Order From Chaos (blog), 6 March 18; ``China's Anti-
Corruption Campaign Expands With New Agency,'' BBC, 20 March 18; Gordon 
Watts, ``Behind the Face of China's New Anti-Corruption Boss,'' Asia 
Times, 26 March 18; Josephine Ma, ``Revealed: The Far-Reaching Powers 
of China's New Super Anticorruption Agency,'' South China Morning Post, 
13 March 18.
    \82\ ``China's Supervisory Commission Director Yang Xiaodu Oversees 
More Than 100 Million People'' [Zhongguo jiancha wei zhuren yang xiaodu 
jiandu yiyi duo ren], Voice of America, 18 March 18.
    \83\ Amnesty International, ``China: New Supervision Law a Systemic 
Threat to Human Rights,'' 20 March 18.
    \84\ Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' 
China Information, Vol. 22, No. 1 (March 2008), 14-15.
    \85\ PRC Supervision Law [Zhonghua renmin gongheguo jiancha fa], 
passed 20 March 18, arts. 22, 43; Ma Shaomeng, ``Investigating Both 
Giving and Receipt of Bribe Requires Replacing `Double Designation 
(Lianggui)' With Confinement (Liuzhi)'' [Shouhui xinghui yiqi cha biran 
yaoqiu yong liuzhi qudai ``lianggui'' cuoshi], Chinese Social Sciences 
Net, 14 March 18; Mercator Institute for China Studies, ``China's 
National Supervision Commission,'' last visited 8 May 18.
    \86\ Samantha Hoffman, ``Managing the State: Social Credit, 
Surveillance and the CCP's Plan for China,'' Jamestown Foundation, 
China Brief, Vol. 17, No. 11, 17 August 17.
    \87\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14; ``China Outlines Its First Social Credit 
System,'' Xinhua, reprinted in Global Times, 27 June 14. For an 
unofficial English translation, see ``Planning Outline for the 
Construction of a Social Credit System (2014-2020),'' translated in 
China Copyright and Media (blog), 25 April 15.
    \88\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14; ``China Outlines Its First Social Credit 
System,'' Xinhua, reprinted in Global Times, 27 June 14; Marieke 
Ohlberg et al., ``Central Planning, Local Experiment: The Complex 
Implementation of China's Social Credit System,'' Mercator Institute 
for China Studies, MERICS China Monitor, 12 December 17, 6; Fokke 
Obbema et al., ``China Rates Its Own Citizens--Including Online 
Behaviour,'' de Volkskrant, 25 April 15; Celia Hatton, ``China `Social 
Credit': Beijing Sets Up Huge System,'' BBC, 26 October 15.
    \89\ Rogier Creemers, ``China's Social Credit System: An Evolving 
Practice of Control,'' Social Science Research Network, 9 May 18.
    \90\ Fokke Obbema et al., ``China Rates Its Own Citizens--Including 
Online Behaviour,'' de Volkskrant, 25 April 15; Celia Hatton, ``China 
`Social Credit': Beijing Sets Up Huge System,'' BBC, 26 October 15; 
Klaus Segbers, ``The Chinese Way--Our Model?'' Freie Universitat, 
Center of Global Politics, Global Matters, 8 December 17.
    \91\ Mirjam Meissner et al., ``Is Big Data Increasing Beijing's 
Capacity for Control?'' Asia Society, ChinaFile, 12 August 16; Julie 
Makinen, ``China Prepares To Rank Its Citizens on `Social Credit,' '' 
Los Angeles Times, 22 November 15; Fokke Obbema et al., ``China Rates 
Its Own Citizens--Including Online Behaviour,'' de Volkskrant, 25 April 
15; Jeremy Daum, ``China Through a Glass, Darkly,'' China Law Translate 
(blog), 24 December 17.
    \92\ Marianne von Blomberg, ``The Social Credit System's Greatest 
Leap Goes Unnoticed,'' Mapping China, 18 April 18.
    \93\ People's Bank of China, ``Public Notice: Table of Information 
Regarding Entities Granted Permission To Establish Personal Credit 
Service'' [Sheli jingying geren zhengxin yewu de jigou xuke xinxi 
gongshi biao], 22 February 18; State Council, Credit Reporting Industry 
Management Regulations [Zhengxin ye guanli tiaoli], issued 21 January 
13, effective 15 March 13, art. 2; People's Bank of China, ``Credit 
Reporting Organization Management Measures'' [Zhenxin jigou guanli 
banfa], effective 20 December 13, art. 5; Liu Jingfeng, ``Baihang 
Credit Service Opens for Business, Pilot Entities Seek Transformation'' 
[Baihang zhengxin ruchang yuan shidian jigou qiu zhuanxing], Beijing 
News, 31 May 18; Luo Ruixin, ``Baihang Opens for Business, Enters the 
First Market-Oriented Personal Data Collection Entity'' [Baihang 
zhengxin kaiye shoujia shichanghua geren zhengxin jigou ruchang], 
Caijing, 23 May 18.
    \94\ People's Bank of China, ``Public Notice Regarding Relevant 
Status of Baihang Credit Scoring Limited Liability Company 
(Preparatory)'' [Guanyu baihang zhengxin youxian gongsi (chou) 
xiangguan qingkuang de gongshi], 4 January 18; Marianne von Blomberg, 
``The Social Credit System's Greatest Leap Goes Unnoticed,'' Mapping 
China, 18 April 18.
    \95\ National Internet Finance Association of China, ``Introduction 
to the Association'' [Xiehui jianjie], last visited 3 April 18; 
People's Bank of China, ``Public Notice Regarding Relevant Status of 
Baihang Credit Scoring Limited Liability Company (Preparatory)'' 
[Guanyu baihang zhengxin youxian gongsi (chou) xiangguan qingkuang de 
gongshi], 4 January 18.
    \96\ Song Jie, ``How Did Alibaba and Tencent Give Away Data to 
`Credit Network?' '' [Ali tengxun ruhe ba shuju gongxian gei ``xin 
lian''?], China Economic Weekly, 5 March 18; Manya Koetse, ``Baihang 
and the Eight Personal Credit Programmes: A Credit Leap Forward,'' 
What's on Weibo, 10 June 18.
    \97\ Song Jie, ``How Did Alibaba and Tencent Give Away Data to 
`Credit Network' '' [Ali tengxun ruhe ba shuju gongxian gei ``xin 
lian''?], China Economic Weekly, 5 March 18.
    \98\ Zhang Junbin, ``Enabling the Implementation of Law Is the 
Biggest Step Forward'' [Rang falu keyi luodi shi zui zhongda de jinbu], 
China Youth Daily, 22 May 18; People's Bank of China, ``Public Notice: 
Table of Information Regarding Entities Granted Permission To Establish 
Personal Credit Service'' [Sheli jingying geren zhengxin yewu de jigou 
xuke xinxi gongshi biao], 22 February 18; ``Customers' Information 
Selected by Default, Company of `Alipay Annual Statement Incident' 
Called in for Interview'' [Moren gouxuan yonghu xinxi ``zhifubao niandu 
zhangdan shijian'' dangshi qiye bei yuetan], Xinhua, 10 January 18; PRC 
Law of Standardization [Zhonghua renmin gonghe guo biaozhun fa], passed 
29 December 88, amended 4 November 17, effective 1 January 18, art. 2.
    \99\ ``Customers' Information Selected by Default, Company of 
`Alipay Annual Statement Incident' Called in for Interview'' [Moren 
gouxuan yonghu xinxi ``zhifubao niandu zhangdan shijian'' dangshi qiye 
bei yuetan], Xinhua, 10 January 18; Standardization Administration and 
General Administration of Quality Supervision, Inspection and 
Quarantine, ``Information Security Technology--Personal Information 
Security Specification'' [Xinxi anquan jishu geren xinxi anquan 
guifan], issued 29 December 17, effective 1 May 18. According to Samm 
Sacks of the Center for Strategic & International Studies, the 
Information Security Technology--Personal Information Security 
Specification is meant to provide guidelines for implementing the PRC 
Cybersecurity Law. Samm Sacks, Center for Strategic & International 
Studies, ``New China Data Privacy Standard Looks More Far-Reaching Than 
GDPR,'' 29 January 18; Samm Sacks, Center for Strategic & International 
Studies, ``China's Emerging Data Privacy System and GDPR,'' 9 March 18.
    \100\ Zhang Junbin et al., `` `Credit Network' Comes Into 
Existence, Data Remains a Difficulty'' [``Xinlian'' luodi nandian 
haizai shuju], China Youth Daily, 6 March 18.
    \101\ Tracey Xiang, ``ChinaFintech--Consumer Credit Reporting 
Agency Baihang Signs up 120+ Data Partners,'' China Tech Biz, 30 June 
18.
    \102\ Manya Koetse, ``Baihang and the Eight Personal Credit 
Programmes: A Credit Leap Forward,'' What's on Weibo, 10 June 18. See 
also Samm Sacks, Center for Strategic & International Studies, ``New 
China Data Privacy Standard Looks More Far-Reaching Than GDPR,'' 29 
January 18.
    \103\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 9(4), 14(1), 12; Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of 10 December 48, arts. 10, 13.
    \104\ National Development and Reform Commission et al., Opinion on 
Appropriately Restricting Persons Specified To Have Lost Credit in 
Serious Ways From Taking the Train Within a Certain Time Period and on 
Promoting the Construction of a Social Credit System [Guanyu zai yiding 
qixian nei shidang xianzhi teding yanzhong shixinren chengzuo huoche 
tuidong shehui xinyong tixi jianshe de yijian], issued 2 March 18, 
effective 1 May 18, sec. 4(1).
    \105\ National Development and Reform Commission et al., Opinion on 
Appropriately Restricting Persons Specified To Have Lost Credit in 
Serious Ways From Taking Civilian Aircraft Within a Certain Time Period 
and on Promoting the Construction of a Social Credit System [Guanyu zai 
yiding qixian nei shidang xianzhi teding yanzhong shixinren chengzuo 
minyong hangkongqi tuidong shehui xinyong tixi jianshe de yijian], 
issued 2 March 18, effective 1 May 18, sec. 4(1).
    \106\ National Development and Reform Commission et al., Opinion on 
Appropriately Restricting Persons Specified To Have Lost Credit in 
Serious Ways From Taking the Train Within a Certain Time Period and on 
Promoting the Construction of a Social Credit System [Guanyu zai yiding 
qixian nei shidang xianzhi teding yanzhong shixinren chengzuo huoche 
tuidong shehui xinyong tixi jianshe de yijian], issued 2 March 18, 
effective 1 May 18, sec. 2(5); National Development and Reform 
Commission et al., Opinion on Appropriately Restricting Persons 
Specified To Have Lost Credit in Serious Ways From Taking Civilian 
Aircraft Within a Certain Time Period and on Promoting the Construction 
of a Social Credit System [Guanyu zai yiding qixian nei shidang xianzhi 
teding yanzhong shixinren chengzuo minyong hangkongqi tuidong shehui 
xinyong tixi jianshe de yijian], issued 2 March 18, effective 1 May 18, 
sec. 2(5).
    \107\ Maya Wang, Human Rights Watch, ``China's Chilling `Social 
Credit' Blacklist,' '' 12 December 17.
    \108\ Gong Peijia, ``National Development and Reform Commission 
Deputy Director Zhang Yong: People Who Lost Credit and Who Are 
Untrustworthy Restricted From Taking Planes and Trains'' [Guojia 
fagaiwei fuzhuren zhang yong: shixinzhe laolai xianzhi cheng feiji zuo 
huoche], China Times, 6 March 18.
    \109\ ``Some Worry That China's Skynet Surveillance Might Infringe 
Privacy'' [Zhongguo tianwang jiankong bei you huo qinhai geren yinsi], 
Voice of America, 26 September 17.
    \110\ ``Public Security Surveillance Systems Stride Toward Internet 
High Definition'' [Gong'an jiankong xitong xiang wangluo gaoqing hua 
maijin], HC360.com, reprinted in Procuratorate Daily, 1 August 12.
    \111\ ``Monitoring You With 20 Million Surveillance Cameras, Has 
the Skynet Project Infringed on Privacy?'' [2000 wan shexiangtou kanzhe 
ni de tianwang gongcheng qinfan yinsi le ma], China News Service, 
reprinted in CCTV, 29 September 17. For more information on ``stability 
maintenance,'' see Jason Todd, ``China's Rigid Stability--Yu Jianrong 
Analyses a Predicament,'' Australian Centre on China in the World, 
China Story, 27 January 13.
    \112\ ``Some Worry That China's Skynet Surveillance Might Infringe 
Privacy'' [Zhongguo tianwang jiankong bei you huo qinhai geren yinsi], 
Voice of America, 26 September 17.
    \113\ Chen Lei, ``How To Realize Complete Coverage for Public 
Safety Video Surveillance'' [Gonggong anquan shipin jiankong ruhe 
shixian quan fugai], Legal Daily, 13 February 18.
    \114\ Yang Xueyi, `` `Skynet': Installing a Pair of Sensitive 
`Magical Eyes' for Security and Defense Institutions'' [``Tianwang'': 
gei anfang zhuang le shuang minrui ``fayan''], Worker's Daily, 23 March 
18.
    \115\ Party Central Committee and State Council, Opinion on 
Implementing Strategy To Rejuvenate Villages [Zhonggong zhongyang 
guowuyuan guanyu shishi xiangcun zhenxing zhanlue de yijian], 2 January 
18, para. 6(5); Chen Lei, ``How To Realize Complete Coverage for Public 
Safety Video Surveillance'' [Gonggong anquan shipin jiankong ruhe 
shixian quan fugai], Legal Daily, 13 February 18.
    \116\ ``Yicai Research: Artificial Intelligence and Sharp Eyes 
Projects Moving Forward Together, Development in This Field Is Speeding 
Up!'' [Yicai yan xuan: zhinenghua he xueliang gongcheng shuanglun 
qudong, zhege hangye zheng jiasu fazhan!], Yicai, 5 March 18.
    \117\ Wenxin Fan et al., ``China Snares Innocent and Guilty Alike 
To Build World's Biggest DNA Database,'' Wall Street Journal, 26 
December 17.
    \118\ Ibid. See also Human Rights Watch, ``China: Minority Region 
Collects DNA From Millions,'' 13 December 17.
    \119\ Wenxin Fan et al., ``China Snares Innocent and Guilty Alike 
To Build World's Biggest DNA Database,'' Wall Street Journal, 26 
December 17.
    \120\ Ibid.
    \121\ Ibid.; Human Rights Watch, ``China: Minority Region Collects 
DNA From Millions,'' 13 December 17.
    \122\ ``Readers' Comments'' [Duzhe pinglun], Caijing, 5 February 
18; Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17. Commission staff verified that as of May 
11, 2018, the draft legislation that proposes to place certain 
restrictions on surveillance systems had not been enacted. Ministry of 
Public Security, Public Security Video and Image Data System Management 
Regulations (Draft for Solicitation of Public Comments) [``Gonggong 
anquan shipin tuxiang xinxi xitong guanli tiaoli (zhengqiu yijian 
gao)''], 28 November 16, art. 11. Commission staff further notes that 
the lack of an effective law protecting privacy in this context 
contradicts a claim made in an official news article. ``Facial 
Recognition, AI and Big Data Poised To Boost Chinese Public Safety,'' 
Global Times, reprinted in People's Daily, 17 October 17.
    \123\ UN Office of the High Commissioner for Human Rights, General 
Comment No. 25: The Right To Participate in Public Affairs, Voting 
Rights and the Right of Equal Access to Public Service, CCPR/C/21/
Rev.1/Add.7, 7 December 96, item 12.
    \124\ ``Many People Disappeared or Detained in China on `June 
Fourth' Sensitive Day, Internet Control Strengthened'' [``Liusi'' 
min'ganri zhongguo duoren shilian bei zhua wangkong jiaqiang], Radio 
Free Asia, 4 June 18; ``Strict Control on June Fourth Anniversary 
Successively Lifted, Two Rights Defenders in Guangdong Continued To Be 
Out of Contact'' [Liusi zhounian yankong luxu jiejin guangdong er 
weiquan renshi reng shilian], Radio Free Asia, 6 June 18; Rights 
Defense Network, ``Dissident Shen Liangqing Summoned by Hefei Police on 
Day of June Fourth, Xi'an Police Threatened Ma Xiaoming at His Home'' 
[Liusi dangri yiyi renshi shen liangqing zao hefei jingfang chuanhuan 
ma xiaoming zao xi'an jingfang shangmen weixie], 5 June 18; Rights 
Defense Network, ``Rights Defenders in Many Places Illegally Detained, 
Summoned, and Have Freedom Restricted on the Eve and Day of June 
Fourth'' [Liusi qianxi he dangri duodi weiquan renshi bei dang feifa 
jiya, chuanhuan huo bei xianzhi ziyou], 5 June 18.
    \125\ Rights Defense Network, ``Rights Defenders in Many Places 
Illegally Detained, Summoned, and Have Freedom Restricted on the Eve 
and Day of June Fourth'' [Liusi qianxi he dangri duodi weiquan renshi 
bei dang feifa jiya, chuanhuan huo bei xianzhi ziyou], 5 June 18.
    \126\ See, e.g., Rights Defense Network, ``Stability Maintenance 
During 19th Party Congress, Nanjing Democracy Advocate Wang Jian 
Detained on Suspicion of `Picking Quarrels and Provoking Trouble' 
Because of Speech, Administratively Detained for 15 Days'' [19 da 
weiwen nanjing minzhu renshi wang jian yinyan huozui bei shexian 
``xunxin zishi'' xingzheng juliu 15 tian], 20 October 17; ``Creators of 
Popular Rights Defense Songs, Xu Lin and Liu Sifang, Successively 
Detained'' [Chuangzuo weiquan gequ kuaizhi renkou xu lin he liu sifang 
xiangji beizhua], Radio Free Asia, 27 September 17; ``Participant in 
Sea Memorial for Liu Xiaobo Detained by `Facial Recognition' '' [Canyu 
liu xiaobo haiji renshi yi bei ``renlian shibie'' zao zhuabu], Radio 
Free Asia, 22 May 18.
    \127\ ``Participant in Sea Memorial for Liu Xiaobo Detained by 
`Facial Recognition' '' [Canyu liu xiaobo haiji renshi yi bei ``renlian 
shibie'' zao zhuabu], Radio Free Asia, 22 May 18.
    \128\ Ibid. For more information on Liu Xiaobo, see the 
Commission's Political Prisoner Database record 2004-03114.
    \129\ Ibid.
    \130\ Rights Defense Network, ``The Real Situation of Qin Yongmin's 
Trial'' [Qin yongmin an tingshen zhenshi qingkuang], 19 May 18; Rights 
Defense Network, ``Qin Yongmin's Indictment'' [Qin yongmin qisushu], 2 
July 16; ``Tight Security at Qin Yongmin's Trial, Onlooking Citizens 
Escorted Away'' [Qin yongmin an kaiting jiebei senyan weiguan gongmin 
bei daizou], Radio Free Asia, 11 May 18. For more information on Qin 
Yongmin, see the Commission's Political Prisoner Database record 2004-
02138.
    \131\ Rights Defense Network, ``The Real Situation of Qin Yongmin's 
Trial'' [Qin yongmin an tingshen zhenshi qingkuang], 19 May 18; Rights 
Defense Network, ``Qin Yongmin's Indictment'' [Qin yongmin qisushu], 2 
July 16; ``Over Three Years After Qin Yongmin Was Detained, Trial To Be 
Held Friday'' [Qin yongmin bei ya chaoguo san nian zhouwu kai shen], 
Radio Free Asia, 8 May 18.
    \132\ ``Over Three Years After Qin Yongmin Was Detained, Trial To 
Be Held on Friday,'' [Qin yongmin bei ya chaoguo san nian zhouwu kai 
shen], Radio Free Asia, 8 May 18.
    \133\ Rights Defense Network, ``Wuhan Dissident Qin Yongmin Heavily 
Sentenced to 13 Years in Prison'' [Wuhan yiyi renshi qin yongmin zao 
zhongpan 13 nian], 11 July 18.
    \134\ Rights Defense Network, ``Monthly Report on Detained 
Political Prisoners and Prisoners of Conscience in Mainland China (May 
31, 2018) Issue No. 32 (Total 761 Persons) (Part 1)'' [Zhongguo dalu 
zaiya zhengzhifan, liangxinfan yuedu baogao (2018 nian 5 yue 31 ri) di 
32 qi (gong 761 ren) (di 1 bufen)], 31 May 18; Nomaan Merchant, ``China 
Detains Editor of Human Rights Website for Subversion,'' Associated 
Press, 25 November 16.
    \135\ PRC Electoral Law of the National People's Congress and Local 
People's Congresses [Zhonghua renmin gongheguo quanguo renmin daibiao 
dahui he difang geji renmin daibiao dahui xuanju fa], passed 1 July 79, 
amended 10 December 82, 2 December 86, 28 February 95, 27 October 04, 
14 March 10, 29 August 15, art. 2.
    \136\ See, e.g., Qing Zu, ``Renewing the Scene, Renewing the 
Vitality'' [Huanchu xin qixiang huanchu xin huoli], Qinghai Daily, 18 
January 18; ``Training Held for Elections for New Village-Level `Two 
Committees' Across the Province'' [Quansheng cun ``liang wei'' huan jie 
xuanju peixunban juban], Shaanxi Daily, 28 January 18; ``Strengthen 
Party's Leadership Throughout the Entire Election Process'' [Ba 
jiaqiang dang de lingdao guanchuan huan jie gongzuo quan guocheng], 
Henan Daily, 2 April 18.
    \137\ ``Local People's Congress Elections in China: Independent 
Candidates Face Increasing Difficulties'' [Zhongguo jiceng renda 
xuanju: duli houxuanren chujing geng jiannan], Deutsche Welle, 1 
February 18.
    \138\ See, e.g., ``In Village Leader Election in Laizhou, Shandong, 
Former Elected Village Head Detained and Was Unable To Participate in 
Election'' [Shandong laizhou cun zhuren xuanju qian minxuan cunzhang 
bei ju wufa canxuan], Radio Free Asia, 15 January 18; Civil Rights & 
Livelihood Watch, ``Wan Xiaoyun, From Qianjiang, Hubei, To Be Released 
on Bail Soon, but Indicted by Procuratorate'' [Hubei qianjiang wan 
xiaoyun qubao qiman jiangzhi que bei jianchayuan qisu], 15 December 17; 
Yao Lifa, Rights Defense Network, ``Independent Candidate From Yongqing 
County, Gansu Province, Qu Mingxue Interrogated on Eve of `Two 
Sessions' in Beijing'' [Gansu sheng yongjing xian duli houxuanren qu 
mingxue zai beijing ``lianghui'' qianxi bei xunwen], 1 March 18; Rights 
Defense Network, ``Urgent Attention Needed: Lawyer Yu Wensheng Detained 
by Beijing Police This Morning'' [Jinji guanzhu: yu wensheng lushi jin 
zao bei beijing jingfang zhuabu], 19 January 18; ``Detained for 
Promoting Intraparty Election of General Secretary, Zi Su's Retirement 
Payment Cut off'' [Changyi dangnei xuanju zongshuji bei kou zi su zao 
tingfa tuixiujin], Radio Free Asia, 8 February 18.
    \139\ Universal Declaration of Human Rights (UDHR), adopted and 
proclaimed by UN General Assembly resolution 217A (III) on 10 December 
48, art. 21. Article 21 of the UDHR provides that, ``Everyone has the 
right to take part in the government of his country, directly or 
through freely chosen representatives . . .. The will of the people 
shall be the basis of the authority of government; this will shall be 
expressed in periodic and genuine elections which shall be by universal 
and equal suffrage and shall be held by secret vote or by equivalent 
free voting procedures.''
    \140\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \141\ ``In Laizhou, Shandong, Village Leader Election, Former 
Elected Village Head Detained and Was Unable To Participate in 
Election'' [Shandong laizhou cun zhuren xuanju qian minxuan cunzhang 
bei ju wufa canxuan], Radio Free Asia, 15 January 18.
    \142\ Ibid.
    \143\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18; 
State Council, Regulations on the Formulation Process of Rules 
[Guizhang zhiding chengxu tiaoli], issued 16 November 01, amended 22 
December 17, effective 1 May 18.
    \144\ ``Regulating Red-Letterhead Documents, Opening Up the `Last 
Mile' of Rule-Based Government'' [Guifan hongtou wenjian, datong fazhi 
zhengfu de ``zuihou yi gongli''], Southern Metropolitan Daily, 19 
January 18; Zhang Cong, ``Bringing `Red-Letterhead Documents' More in 
Line With Regulations'' [Rang ``hongtou wenjian'' gengjia guifan], 
People's Daily, 14 February 18; Zhu Hengshun, ``The Original Intention 
of Legislation Is To Rein in `Arbitrary Power' '' [Lifa de benyi zai 
yueshu quanli ``renxing''], Xinhua, 12 March 15.
    \145\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18, 
arts. 3, 9; State Council, Regulations on the Formulation Process of 
Rules [Guizhang zhiding chengxu tiaoli], issued 16 November 01, amended 
22 December 17, effective 1 May 18, art. 3. For a comparison with older 
versions of the regulations, see Regulations on the Formulation Process 
of Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, effective 1 January 02, art. 3; Regulations on 
the Formulation Process of Rules [Guizhang zhiding chengxu tiaoli], 
issued 16 November 01, effective 1 January 02, art. 3.
    \146\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18, art. 
13. See also National People's Congress, ``Chapter Four: Local Law or 
Autonomous Region Regulations, and Separate Regulations or Rules'' [Di 
si zhang difangxing fagui, zizhi tiaoli he danxing tiaoli, guizhang], 1 
August 01.
    \147\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18, art. 
13; State Council, Regulations on the Formulation Process of Rules 
[Guizhang zhiding chengxu tiaoli], issued 16 November 01, amended 22 
December 17, effective 1 May 18, art. 3. See also National People's 
Congress, ``Chapter Three: Administrative Regulations'' [Di san zhang 
xingzheng fagui], 1 August 01.
    \148\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18, art. 
13; State Council, Regulations on the Formulation Process of Rules 
[Guizhang zhiding chengxu tiaoli], issued 16 November 01, amended 22 
December 17, effective 1 May 18, art. 15.
    \149\ Shen Kui, ``Participatory Rulemaking in China Needs Even More 
Effort,'' Regulatory Review, 9 April 18; Jamie P. Horsley, Brookings 
Institution, ``China Implements More Participatory Rulemaking Under 
Communist Party,'' 15 March 18.
    \150\ State Council, Regulations on the Formulation Process of 
Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, amended 22 December 17, effective 1 May 18, 
arts. 3, 9; State Council, Regulations on the Formulation Process of 
Rules [Guizhang zhiding chengxu tiaoli], issued 16 November 01, amended 
22 December 17, effective 1 May 18, art. 3. For a comparison with older 
versions of the regulations, see Regulations on the Formulation Process 
of Administrative Regulations [Xingzheng fagui zhiding chengxu tiaoli], 
issued 16 November 01, effective 1 January 02, art. 3, 8; Regulations 
on the Formulation Process of Rules [Guizhang zhiding chengxu tiaoli], 
issued 16 November 01, effective 1 January 02, art. 3.
    \151\ Chinese Communist Party Central Committee, Regulations on 
Open Party Affairs of the Chinese Communist Party (Trial) [Zhongguo 
gongchandang dangwu gongkai tiaoli (shixing)], effective 20 December 
17, art. 8.
    \152\ State Council, PRC Open Government Information Regulations 
[Zhonghua renmin gongheguo zhengfu xinxi gongkai tiaoli], issued 5 
April 07, effective 1 May 08, art. 13.
    \153\ Chinese Communist Party Central Committee, Regulations on 
Open Party Affairs of the Chinese Communist Party (Trial) [Zhongguo 
gongchandang dangwu gongkai tiaoli (shixing)], effective 20 December 
17, arts. 20-23.
    \154\ Ibid., arts. 9-11.
    \155\ Gao Bo, ``Holding Corruption by the `Throat' '' [E'zhu fubai 
de ``yanhou''], People's Daily, 3 March 15; Dimitar Gueorguiev and 
Jonathan Stromseth, Brookings Institution, ``New Chinese Agency Could 
Undercut Other Anti-Corruption Efforts,'' Order From Chaos (blog), 6 
March 18; Dan Hough, ``Why Has China's Anti-Corruption Rating Barely 
Budged Despite Thousands of Arrests?'' South China Morning Post, 23 
February 18.
    \156\ Jamie P. Horsley, ``The Chinese Communist Party's Experiment 
With Transparency,'' The Diplomat, 1 February 18.
    \157\ See, e.g., Lily Kuo, ``37,000 Chinese Officials Punished for 
`Frugality Code' Breaches,'' Guardian, 31 July 18.
    \158\ Central Commission for Discipline Inspection, ``CCDI Circular 
on Status of Disciplinary Inspection by Discipline and Inspection 
Offices Nationwide in 2017'' [Zhongyang jiwei tongbao 2017 nian quanguo 
jijian jiancha jiguan jilu shencha qingkuang], 11 January 18.
    \159\ Javier C. Hernandez, ``The Propaganda I See on My Morning 
Commute,'' New York Times, 28 January 18. See also Transparency 
International, ``Corruption Perceptions Index 2017,'' 21 February 18.
    \160\ David Skidmore, ``Understanding Chinese President Xi's Anti-
Corruption Campaign,'' The Conversation, 27 October 17.
    \161\ Central Commission for Discipline Inspection, ``Communique of 
Central Commission for Discipline Inspection's Second Plenary Session 
During Chinese Communist Party 19th Party Congress'' [Zhongguo 
gongchandang dishijiu jie zhongyang jilu jiancha weiyuanhui di'er ci 
quanti huiyi gongbao], 13 January 18.
    \162\ ``Express News: Wang Qishan Elected To Become Vice President 
of the People's Republic of China'' [Kuaixun: wang qishan dangxuan wei 
zhonghua renmin gongheguo fu zhuxi], Xinhua, 17 March 18.
    \163\ ``Wang Qishan's Resume'' [Wang qishan jianli], Xinhua, 17 
March 18; ``Party's 19th Congress First Plenary Session Approves 
Candidates for Secretary, Deputy Secretary, and Standing Committee 
Members as Selected by CCDI's First Plenary Session, Zhao Leji 
Appointed as CCDI Secretary'' [Dang de shijiu jie yizhong quanhui 
pizhun le zhongyang jiwei diyi ci quanti huiyi xuanju chansheng shuji, 
fushuji he changwu weiyuanhui weiyuan renxuan, zhao leji ren zhongyang 
jiwei shuji], Xinhua, 25 October 17.
    \164\ Wang Qishan, ``Wang Qishan: Launching a New Era, Beginning a 
New Journey'' [Wang qishan: kaiqi xin shidai tashang xin zhengchen], 
People's Daily, 7 November 17.
    \165\ Ibid.; Nectar Gan, ``China's Graft-Busters Told To Zero in on 
Political Loyalty and Discipline,'' South China Morning Post, 13 
January 18.
    \166\ Dan Hough, ``Why Has China's Anti-Corruption Rating Barely 
Budged Despite Thousands of Arrests?'' South China Morning Post, 23 
February 18.
    \167\ For more information on Liu Yao, see the Commission's 
Political Prisoner Database record 2008-00408.
    \168\ Human Rights in China, ``Liu Yao & Wife Lai Wei'e Draft Case 
Timelines & Procedural Status,'' 19 March 18.
    \169\ Human Rights in China, ``Draft Case Summary of Liu Yao Lawyer 
and Whistleblower Sentenced to 20 Years in Prison for Exposing 
Corruption,'' 19 March 18.
    \170\ ``Li Jianxin, Anticorruption Hero in Guangdong, Possibly 
Framed, Accused of Extortion and Heavily Sentenced to 11 Years'' 
[Guangdong fantan xia li jianxin jietan yi zao gouxian bei zhi qiaozha 
zhongpan 11 nian], Radio Free Asia, 2 February 18. For more information 
on Li Jianxin, see the Commission's Political Prisoner Database record 
2016-00498.
    \171\ Ibid.; Rights Defense Network, ``Lawyer Lin Qilei: 
Development in the Case of `Huiyang Oubo' Li Jianxin--Investigation and 
Indictment Period Expires Soon'' [Lin qilei lushi: ``huiyang oubo'' li 
jian xin anqing jinzhan qingkuang--shencha qisu qixian jijiang jieman], 
22 November 16; Rights Defense Network, `` `Huizhou Oubo' Li Jianxin 
Indicted After Arrest'' [``Huizhou oubo'' li jianxin bei daibu hou yi 
bei qisu], 14 December 16; Zhu Yong, ``Professional Complainant in 
Huizhou Suffered Chopped Fingers and Acid Attack, Right Eye Blinded 
From Being Hacked'' [Huizhou zhiye jubao ren zao duan zhi po liusuan 
you yan bei kan shiming], Southern Metropolitan Daily, 9 July 13.


                                                Commercial Rule 
                                                    of Law and 
                                                   Human Rights
                                                Commercial Rule 
                                                of Law and 
                                                Human Rights

                Commercial Rule of Law and Human Rights


                              Introduction

    When acceding to the World Trade Organization (WTO) in 
2001,\1\ the Chinese government agreed to improve the rule of 
law vis-a-vis the commercial sector, committing to 
transparency, intellectual property rights enforcement, and the 
equal treatment of domestic and foreign firms. During the 
Commission's 2018 reporting year, concerns remained regarding 
the development of rule of law in these areas, particularly 
regarding forced technology transfers and unequal treatment of 
foreign firms. The commercial environment in China is further 
complicated by the role of the Chinese Communist Party and the 
government in commercial enterprises, and reports from this 
past year indicate that the Party is attempting to expand its 
role in the commercial sector. Moreover, amid what 
international human rights organizations describe as worsening 
government repression in China,\2\ domestic and international 
businesses are increasingly at risk of complicity in human 
rights abuses, including the repression of minority groups, 
mass data collection, surveillance of citizens, and censorship. 
Although the Chinese government requires companies to comply 
with domestic laws and regulations that infringe on 
internationally recognized rights such as the right to privacy 
and freedom of expression, the UN Guiding Principles on 
Business and Human Rights state that businesses have a 
responsibility to respect human rights and should seek to avoid 
``contributing to adverse human rights impacts . . ..'' \3\

                       Commercial Rule of Law \4\


                              TRANSPARENCY

    Since China's accession to the WTO, the government has made 
progress toward meeting requirements for improving transparency 
of trade-related laws, yet still falls short in several key 
areas.\5\ In acceding to the WTO, the Chinese government made 
commitments to improve transparency, including to publish all 
trade-related laws and regulations and translate them into one 
of the official WTO languages, and to allow for public comments 
on all draft trade-related laws and regulations.\6\ According 
to the Office of the U.S. Trade Representative (USTR), the 
European Union Chamber of Commerce in China (European Chamber), 
and a legal expert, although the government publishes many 
trade-related laws and administrative regulations, the 
government has in many cases failed to publish local 
regulations and other legal documents such as opinions, 
circulars, and subsidy measures.\7\ Furthermore, the government 
reportedly has failed to publish translations of many trade-
related laws and regulations.\8\ The central government has 
largely met its obligation to allow for public comments on 
national laws, yet incomplete implementation of the public 
comment system for lower level rules and regulations remains a 
barrier to citizen participation and an area of non-compliance 
with WTO commitments.\9\

                      INTELLECTUAL PROPERTY RIGHTS

    This past year, the Commission observed reports of improved 
enforcement of intellectual property rights (IPR) in some 
areas, though concerns remained about IPR infringement, 
including forced technology transfers. This past year, USTR, 
American Chamber of Commerce in the People's Republic of China 
(AmCham China), the US-China Business Council, and the European 
Chamber reported that the Chinese government had made some 
progress in IPR enforcement.\10\ Revisions to the PRC Anti-
Unfair Competition Law, which took effect in January 2018, 
reportedly may provide improved protections for trade 
secrets.\11\ In March and April 2018, government officials 
promised the creation of a system for seeking punitive damages 
over IPR infringements.\12\ Nevertheless, USTR and business 
groups continued to report deficiencies in the government's 
protection and enforcement of IPR.\13\ Specific IPR concerns 
this past year included online piracy and copyright 
infringement,\14\ as well as forced technology transfers.\15\ A 
March 2018 USTR report found that the government uses 
restrictions on foreign ownership in certain sectors of the 
economy to force technology transfers through the establishment 
of joint ventures with Chinese firms, and that authorities 
often demand technology transfers orally or informally to avoid 
the appearance of violating international trade 
obligations.\16\

                     EQUAL TREATMENT UNDER THE LAW

    This past year, the Chinese government took some steps 
toward meeting the WTO requirement for equal treatment of 
domestic and foreign companies, yet a significant percentage of 
U.S. and German companies reported feeling ``less welcome'' in 
China. When it joined the WTO, China committed to ensure non-
discrimination against foreign enterprises in the procurement 
of goods and services and enforcement of intellectual property 
rights.\17\ In October 2017, several central government 
agencies jointly issued a provisional document outlining rules 
for implementing a fair competition review system, stating that 
government agencies should--with some exceptions \18\--review 
all new regulations to ensure that they do not limit market 
competition.\19\ In June 2018, the government issued new rules 
allowing for increased foreign investment in certain financial 
sectors and lifting all restrictions on foreign ownership in 
those sectors in 2021.\20\ According to surveys of foreign 
businesses published by the American and German chambers of 
commerce this past year, 75 percent of American businesses 
surveyed and 39.1 percent of German businesses surveyed 
reported feeling ``less welcome in China than before,'' while 
54.7 percent of German businesses surveyed reported the 
situation had not changed.\21\
    Reports continued to emerge this past year of the favorable 
treatment of domestic firms over foreign firms through the 
blocking of foreign websites and other formal restrictions on 
foreign firms. This past year, the government reportedly 
blocked websites including Facebook, Twitter, and many of 
Google's services using censorship filters often referred to as 
the ``Great Firewall.'' \22\ In November 2017, many application 
(app) stores in China reportedly removed Skype for download 
from their stores, though Skype itself remained accessible at 
that time.\23\ Although some internet users in China--foreign 
firms in particular--have relied on virtual private networks 
(VPNs) to circumvent government internet restrictions,\24\ in 
January 2017, the Ministry of Industry and Information 
Technology announced that starting March 31, 2018, only 
government-approved VPNs would be allowed.\25\ Although app 
stores in China removed hundreds of VPNs,\26\ initial reports 
following the March 31, 2018, deadline suggested that some 
private VPNs remained accessible.\27\ [For more information on 
censorship in China, see Section II--Freedom of Expression.] In 
addition, the government continued to enforce quotas on foreign 
films, and as of July 2018, talks between U.S. and Chinese 
officials to raise the quota on U.S. films reportedly had 
stalled.\28\
    In addition to formal restrictions on foreign firms, the 
Commission observed reports of other forms of preferential 
treatment, both of domestic firms and of government- or Party-
connected firms. USTR, AmCham China, and the European Chamber 
reported that foreign firms face unequal treatment in the 
issuing of licenses and enforcement of regulations.\29\ State-
owned enterprises in China reportedly receive favorable 
treatment in obtaining loans from government-controlled banks, 
which has put both foreign and private domestic firms at a 
disadvantage.\30\ According to the international non-
governmental organization Freedom House, regulators and courts 
in China treat private firms with informal ties to the 
government and Party favorably compared to firms without such 
connections.\31\

 Role of the Chinese Communist Party and Government in the Commercial 
                                 Sector

    The Chinese Communist Party and government maintain a role 
in most enterprises that operate in mainland China, whether 
they are state-owned enterprises (SOEs), domestic private 
firms, foreign firms, or joint ventures. The PRC Company Law 
and the Chinese Communist Party Constitution require any firm 
with three or more Party members to allow the Party to 
establish a Party group within that firm.\32\ According to 
government data, as of the end of 2016, 93.2 percent of SOEs 
and 67.9 percent of private enterprises had Party groups, as 
did 70 percent of foreign-invested enterprises.\33\ In addition 
to Party groups,\34\ many firms have a branch of the Party-led 
All-China Federation of Trade Unions (ACFTU) on site.\35\ [For 
more information on the ACFTU, see Section II--Worker Rights.] 
Within a typical SOE, company executives are also members of 
the SOE's Party committee,\36\ and Party committee members 
serve on the board of directors.\37\ Scholar Yasheng Huang \38\ 
noted that state control in sectors of China's economy such as 
finance is another mechanism through which the government can 
exert power over the private sector.\39\ Private investors and 
firms also invest in SOEs; \40\ Director Xiao Yaqing of the 
State-Owned Assets Supervision and Administration Commission 
said in April 2018 that over 60 percent of SOEs had mixed 
ownership.\41\ Moreover, many executives of private firms in 
China are reportedly also members of Party-led organizations or 
delegates to China's legislature.\42\ In addition to these 
formal ties, Party and government officials have long 
maintained informal and often corrupt ties to the private 
sector.\43\ [For more information on the relationship between 
the Communist Party and the government, see Section III--
Institutions of Democratic Governance.]
    Reports from this past year indicate that the Party and 
government are attempting to expand their roles in commercial 
enterprises. In October 2017, the Party amended its 
constitution to stipulate that Party committees play a 
``leading role'' in the decisionmaking of SOEs.\44\ This 
followed reports of dozens of SOEs amending their articles of 
incorporation in the summer of 2017 to strengthen the role of 
the Party within their enterprises.\45\ The European Chamber 
and international media reported this past year that multiple 
SOEs engaged in joint ventures with foreign companies had 
proposed granting internal Party groups a greater 
decisionmaking role within those joint ventures.\46\ In June 
2018, the China Securities Regulatory Commission proposed 
revisions to stock market guidelines that would require all 
listed companies to establish Party groups.\47\ In addition, in 
October 2017, the Wall Street Journal reported that the Chinese 
news app Yidian Zixun had allowed the government to purchase 
shares in the firm in order to obtain licenses for online 
content distribution.\48\ The government is also reportedly 
exploring purchasing stakes in major technology firms including 
Alibaba and Tencent.\49\

                 Human Rights and the Commercial Sector


------------------------------------------------------------------------
        Role of Commercial Firms in Domestic Security in Xinjiang
-------------------------------------------------------------------------
  This past year, companies provided a wide range of equipment and
 services to the government in the Xinjiang Uyghur Autonomous Region
 (XUAR), despite reports of the suppression of ethnic and religious
 minorities. International human rights organizations report that human
 rights abuses in the XUAR are widespread, including severe restrictions
 on freedom of religion \50\ and the internment of hundreds of thousands
 to as many as 1.1 million individuals belonging to Muslim ethnic
 minority groups in a network of extrajudicial ``political reeducation''
 centers or camps.\51\ In an analysis for the Jamestown Foundation,
 scholar Adrian Zenz documented a 92.8 percent increase in domestic
 security spending in the XUAR from 2016 to 2017.\52\ The same scholar
 analyzed procurement documents from local governments in the XUAR and
 found bids for the construction and operation of ``political
 reeducation'' camps, including the purchases of surveillance equipment,
 furniture, and food delivery services.\53\ In one example, the
 government of Hotan (Hetian) city, Hotan prefecture, planned to
 purchase 900 specially designed smart phones from the state-owned China
 Telecom \54\ for use in ``political reeducation'' centers.\55\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Role of Commercial Firms in Domestic Security in Xinjiang--Continued
-------------------------------------------------------------------------
  According to a report in Foreign Policy, since 2016, the XUAR
 government has awarded contracts worth over US$1 billion to two of the
 world's largest security camera manufacturers,\56\ Chinese companies
 Hikvision and Dahua Technology for surveillance projects in the
 XUAR.\57\ In the spring of 2018, international media reported that the
 international security services company Frontier Services Group had
 partnered with the state-owned enterprise CITIC Group to invest in the
 Beijing municipality-based International Security Defense College.\58\
 According to the school's website, it specializes in counterterrorism
 and other security training courses for Chinese military, police,
 private security firms, and the general public.\59\ The school's
 founder told the Washington Post that it was building a branch in the
 XUAR to train military and police personnel in the region.\60\ [For
 more information on human rights abuses in the XUAR, see Section IV--
 Xinjiang.]
------------------------------------------------------------------------

 COMMERCIAL FIRMS' COMPLIANCE WITH DOMESTIC LAW RAISES PRIVACY CONCERNS

    Human rights groups warn that Chinese laws allow for 
collection of personal data from commercial firms without 
adequately protecting individuals' internationally recognized 
right to privacy.\61\ The PRC Cybersecurity Law took effect on 
June 1, 2017, requiring companies to store user data inside 
mainland China.\62\ The law provides some privacy protections, 
such as requiring businesses to obtain user consent before 
collecting data,\63\ though the law does not define 
consent.\64\ The Information Security Technology--Personal 
Information Security Specification,\65\ effective May 1, 2018, 
also requires consent to collect individual data,\66\ but 
provides eleven exemptions to this requirement,\67\ including 
when such information is ``directly relevant to public 
security, public health, or significant public interest.'' \68\ 
The PRC Cybersecurity Law further requires companies to provide 
technical support to authorities that are conducting criminal 
investigations or ``protecting state security,'' \69\ without 
specifying what such technical support entails.\70\ An expert 
in Chinese law noted that ``police have broad powers to collect 
evidence'' from companies without judicial review,\71\ and 
international human rights groups warned that Chinese laws 
governing authorities' collection of data do not adequately 
protect individuals' privacy rights.\72\ The Universal 
Declaration of Human Rights and the International Covenant on 
Civil and Political Rights provide for the right to 
privacy.\73\
    Despite these privacy concerns, reports from this past year 
indicate that international companies are increasingly storing 
Chinese user data inside mainland China to comply with the PRC 
Cybersecurity Law. In February 2018, Apple transferred 
operations of iCloud services for mainland Chinese accounts to 
the state-owned Chinese firm Guizhou-Cloud Big Data.\74\ Apple 
notified Chinese users of the change and allowed them to opt 
out of using iCloud services.\75\ Amnesty International warned 
that ``Chinese authorities now have potentially unfettered 
access to all Apple's Chinese customers' iCloud data.'' \76\ 
Even prior to passage of the Cybersecurity Law, Microsoft, 
Amazon, and IBM reportedly had partnered with local Chinese 
firms on cloud services in China starting in 2013.\77\ Chinese 
companies such as Alibaba and Tencent also collect large 
amounts of data from their users.\78\ It is unclear how much 
data these companies share with authorities, but reports from 
international news media indicate that domestic technology 
firms work closely with police and other government 
authorities.\79\
    In one example of how company data may be used by police, a 
November 2017 Human Rights Watch (HRW) report described the 
``Police Cloud'' (jing wu yun) system, which the Ministry of 
Public Security is developing to collect large amounts of data 
in order to surveil targeted individuals or groups of 
concern.\80\ Police in one locality reportedly purchased 
company data from third parties such as e-commerce 
companies,\81\ and police in another locality reportedly plan 
to collect usernames, IP addresses, and package delivery 
information.\82\ According to HRW, the Police Cloud system will 
target groups seen as a threat to stability, including 
petitioners seeking redress from the government and ethnic 
minority groups,\83\ potentially violating rights to the 
presumption of innocence and freedom of association.\84\

      ROLE OF COMMERCIAL FIRMS IN THE COLLECTION OF BIOMETRIC DATA

    Government and companies' large-scale collection of data in 
China includes the collection of biometric data such as faces, 
voice samples, and DNA, and raises concerns regarding the 
potential targeting of rights advocates and compliance with 
international standards protecting the right to privacy. In 
October 2017, HRW reported that national police databases 
contained over 1 billion faces and over 40 million DNA samples, 
and that the Ministry of Public Security began construction of 
a national voice recognition database in 2012.\85\ HRW further 
reported that police in Anhui province and the Xinjiang Uyghur 
Autonomous Region (XUAR) purchased voice pattern collection 
systems from the Anhui province-based technology company 
iFLYTEK, which provides speech recognition and text-to-speech 
applications (apps) for millions of mobile phones in China,\86\ 
and XUAR security personnel reportedly procured DNA sequencers 
from the U.S.-based firm Thermo Fisher Scientific.\87\ The PRC 
Criminal Procedure Law allows police to collect biometric data 
including fingerprints, urine, and blood samples from anyone 
suspected of committing a crime.\88\ Human rights organizations 
reported, however, that the Chinese government has brought 
criminal cases against individuals such as lawyers, 
journalists, human rights advocates, and religious believers 
for exercising their internationally recognized human 
rights.\89\ Moreover, reports this past year indicate that DNA 
collection is not limited to criminal suspects.\90\ For 
example, in the XUAR, authorities have reportedly been 
collecting DNA samples and other biometric data from all 
residents aged 12 to 65.\91\ According to HRW, the collection 
of biometric data should be ``comprehensively regulated'' and 
``narrow in scope'' in order to comply with international 
standards protecting the right to privacy.\92\

          ROLE OF COMMERCIAL FIRMS IN THE SOCIAL CREDIT SYSTEM

    During this reporting year, the Chinese government 
continued to work with Chinese companies to develop and 
implement a social credit system that aims to aggregate and 
monitor the data that the government and companies collect, 
which some observers warned could increase the government's 
capacity for social control. In 2014, the State Council 
released an outline for the creation of a national social 
credit system by 2020 to measure and improve the credibility of 
government agencies, organizations, and individuals.\93\ 
Scholars describe the social credit system as an ambitious 
project that will aggregate and monitor the large amounts of 
data that the state and companies collect on citizens in order 
to guide citizens' behavior through the use of incentives.\94\ 
The government has reportedly worked with Chinese companies on 
the technology needed to implement the program.\95\ In February 
2018, the People's Bank of China formally approved the first 
nationwide credit-scoring company, Baihang Credit Scoring, 
which is a joint venture between a state- and Party-organized 
entity and eight Chinese technology firms.\96\ Although the 
social credit system remained in the pilot stage this past 
year,\97\ human rights experts and other observers warned the 
system could be used to further tighten government control over 
citizens.\98\

   ROLE OF COMMERCIAL FIRMS IN THE EXPANSION OF SURVEILLANCE NETWORKS

    Chinese security authorities are working with companies not 
only to collect and monitor individuals' data, but also to 
integrate improved technology into China's expanding network of 
surveillance cameras, as human rights advocates raised concerns 
over the government's use of surveillance to target rights 
advocates and ethnic minorities. For example, the Chinese 
company Megvii makes software for commercial photo apps while 
also providing facial recognition software that the company 
claims has helped police make 4,000 arrests since the beginning 
of 2016.\99\ Major Chinese technology companies Alibaba and 
Tencent also reportedly work with Chinese authorities to equip 
Chinese cities with surveillance technology.\100\ The state-
owned technology firm Aebell is developing a nationwide system 
called ``Sharp Eyes,'' which would link surveillance cameras 
installed in rural areas to individuals' televisions and smart 
phones, allowing individuals to assist authorities in 
monitoring their villages.\101\ The Party-run news outlet Legal 
Daily reported that by the end of 2017, authorities in Sichuan 
province had completed Sharp Eyes projects in 14,087 villages, 
installing 41,695 new surveillance cameras.\102\ The consulting 
firm IHS Markit predicted China would account for 46 percent of 
the global video surveillance market in 2018.\103\ Discussing 
possible privacy concerns, the Chief Executive Officer of the 
Chinese company LLVision--which created glasses that Beijing 
police have tested that can match faces to a database of 
suspects in real time--told Reuters, ``We trust the 
government.'' \104\ Human rights advocates reported, however, 
that the government has used surveillance to target political 
dissidents and ethnic minority groups.\105\ [For more 
information on government surveillance, see Section III--
Institutions of Democratic Governance.]

            ROLE OF COMMERCIAL FIRMS IN INTERNET CENSORSHIP

    The Chinese government continued to restrict freedom of 
expression online by blocking and censoring content. Freedom 
House called China ``the world's worst abuser of internet 
freedom,'' \106\ and international human rights organizations 
have documented ongoing and increasing censorship this past 
year, particularly censorship of online content.\107\ The 
Chinese government is able to censor online speech both by 
preemptively blocking content and by censoring content after it 
appears online.\108\ Moreover, the government has detained 
social media users, bloggers, and the founders of rights 
advocacy websites in connection with their online speech.\109\ 
[For more information, see Section II--Freedom of Expression.]
    In addition to blocking or censoring content, Chinese 
authorities require companies to monitor content on their 
websites and apps, and in several cases this past year, 
authorities threatened or punished companies over online 
content. The PRC Cybersecurity Law requires companies to 
monitor content their customers create or share, censor content 
that violates laws and regulations, and report such content to 
authorities.\110\ For example, in late September 2017, the 
Cyberspace Administration of China fined technology companies 
Sina, Tencent, and Baidu for violating the Cybersecurity Law 
over content its users shared, which reportedly included 
political content.\111\ In January 2018, the Shanghai 
Cyberspace Administration forced the U.S.-based hotel chain 
Marriott to take its websites and apps in China offline for a 
week after it sent an email to Chinese customers that listed 
Tibet, Hong Kong, Macau, and Taiwan as countries.\112\ The 
company quickly issued a public apology and an eight-point 
``rectification plan.'' \113\ Radio Free Asia reported in March 
that the State Council Taiwan Affairs Office would not permit 
the screening of Taiwanese films in China if those films 
featured actors who had voiced support for Taiwan 
independence.\114\ In April, the State Administration of Radio 
and Television (SART) criticized a popular news app and a video 
app, both owned by the China-based company Bytedance (Jinri 
Toutiao), for ``violating social morality''; those apps, and 
several other popular news and video apps, temporarily 
disappeared from app stores.\115\ SART then ordered Bytedance 
to permanently close a popular joke-sharing app, calling the 
app ``vulgar.'' \116\ Although the International Covenant on 
Civil and Political Rights--which China has signed and 
committed to ratify \117\--allows governments to limit freedom 
of expression for the protection of ``morals,'' \118\ the 
Chinese government has in the past used campaigns against 
pornography and other ``unlawful information'' to restrict the 
legitimate exercise of freedom of expression.\119\
    Faced with the possibility of lost revenue and other forms 
of punishment, both domestic and international companies 
engaged in self-censorship. After authorities took disciplinary 
action against them, domestic technology companies Kuaishou and 
Bytedance reportedly announced plans to expand the number of 
employees who monitor and censor content on their 
platforms.\120\ In October 2017, the German academic publishing 
company Springer Nature agreed to censor its journal articles 
in mainland China.\121\ In congressional testimony in March, 
one media scholar described how film industry executives 
outside mainland China have invited Chinese content regulators 
to speak at conferences to provide guidance on how to create 
content that Chinese censors will allow.\122\ The Chinese 
microblog Weibo announced that in May 2018 it had blocked or 
deleted 141,000 posts containing ``harmful information about 
current politics.'' \123\ Weibo also closed or limited 
functionality for 5,450 accounts for sharing ``harmful'' 
political information, an increase of 355 percent from 
April.\124\ In the summer of 2018, dozens of international 
airline companies reportedly changed their international 
websites to comply with Chinese government demands to remove 
references to Taiwan as a country.\125\ Reports emerged in 
August 2018 that Google was developing a censored search app 
for the Chinese market.\126\


                                                Commercial Rule 
                                                    of Law and 
                                                   Human Rights
                                                Commercial Rule 
                                                of Law and 
                                                Human Rights
    Notes to Section III--Commercial Rule of Law and Human Rights

    \1\ World Trade Organization, ``Protocols of Accession for New 
Members Since 1995, Including Commitments in Goods and Services,'' last 
visited 28 April 18. China became a member of the World Trade 
Organization (WTO) on December 11, 2001. A list of members and their 
dates of membership is available on the WTO website.
    \2\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 16 April 18; Human Rights Watch, ``Submission to the Universal 
Periodic Review of China,'' 29 March 18; Amnesty International, ``China 
2017/2018,'' last visited 3 September 18.
    \3\ UN Office of the High Commissioner for Human Rights, Guiding 
Principles on Business and Human Rights: Implementing the United 
Nations ``Protect, Respect and Remedy'' Framework, HR/PUB/11/04, 16 
June 11, principle 13.
    \4\ This subsection analyzes the Chinese government's compliance 
with its World Trade Organization commitments vis-a-vis the rule of 
law. For in-depth analyses of the U.S.-China trade relationship, market 
access for U.S. businesses in China, and recent WTO disputes involving 
the United States and China, see U.S.-China Economic and Security 
Review Commission, 2017 Annual Report, 15 November 17, chap. 1, secs. 
1, 3.
    \5\ See, e.g., Henry Gao, ``The WTO Transparency Obligations and 
China,'' Journal of Comparative Law, Vol. 12, No. 2 (5 March 18), 1, 
13, 19-22; Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 23-24; European 
Union Chamber of Commerce in China, ``European Business in China 
Position Paper 2017/2018,'' 19 September 17, 126.
    \6\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(C)1-3; 
World Trade Organization, ``Report of the Working Party on the 
Accession of China,'' WT/ACC/CHN/49, 1 October 01, paras. 334-35; 
General Agreement on Tariffs and Trade (GATT 1947), 30 October 47, art. 
X; U.S. Government Accountability Office, ``World Trade Organization: 
Analysis of China's Commitments to Other Members,'' GAO-03-4, October 
2002, 31; Henry Gao, ``The WTO Transparency Obligations and China,'' 
Journal of Comparative Law, Vol. 12, No. 2 (5 March 18), 1, 3, 13, 19-
22.
    \7\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 23-24; European 
Union Chamber of Commerce in China, ``European Business in China 
Position Paper 2017/2018,'' 19 September 17, 126; Henry Gao, ``The WTO 
Transparency Obligations and China,'' Journal of Comparative Law, Vol. 
12, No. 2 (5 March 18), 14-15.
    \8\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 138; Henry Gao, 
``The WTO Transparency Obligations and China,'' Journal of Comparative 
Law, Vol. 12, No. 2 (5 March 18), 19-20, 22.
    \9\ Henry Gao, ``The WTO Transparency Obligations and China,'' 
Journal of Comparative Law, Vol. 12, No. 2 (5 March 18), 15-18; Office 
of the U.S. Trade Representative, ``2017 Report to Congress on China's 
WTO Compliance,'' January 2018, 24; European Union Chamber of Commerce 
in China, ``European Business in China Position Paper 2017/2018,'' 19 
September 17, 126.
    \10\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 18; American 
Chamber of Commerce in the People's Republic of China and Bain & 
Company, ``2018 China Business Climate Survey Report,'' January 2018, 
46; US-China Business Council, ``2017 Member Survey,'' 6 December 17, 
10; European Union Chamber of Commerce in China, ``European Business in 
China Position Paper 2017/2018,'' 19 September 17, 86.
    \11\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 16-17. See also PRC 
Anti-Unfair Competition Law [Zhonghua renmin gongheguo fan buzhengdang 
jingzheng fa], passed 2 September 93, amended 4 November 17, effective 
1 January 18.
    \12\ Mark Cohen, ``Updates March 6-12, 2018,'' China IPR (blog), 14 
March 18; ``Interview: China Calls for Better Protection for Chinese 
IPR,'' Xinhua, 12 April 18; State Council, ``Government Work Report'' 
[Zhengfu gongzuo baogao], 5 March 18, sec. 3(3).
    \13\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 16-17; US-China 
Business Council, ``2017 Member Survey,'' 6 December 17, 10; American 
Chamber of Commerce in the People's Republic of China and Bain & 
Company, ``2018 China Business Climate Survey Report,'' January 2018, 
41; European Union Chamber of Commerce in China, ``European Business in 
China Position Paper 2017/2018,'' 19 September 17, 37; German Chamber 
of Commerce in China, ``German Business in China: Business Confidence 
Survey 2017/18,'' 16 November 17, 20, 22, 24, 33.
    \14\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 18; European Union 
Chamber of Commerce in China, ``European Business in China Position 
Paper 2017/2018,'' 19 September 17, 89-90. For specific examples of 
online copyright infringement, see Office of the U.S. Trade 
Representative, ``2017 Out-of-Cycle Review of Notorious Markets,'' 
January 2018, 13-14, 20-22, 24.
    \15\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 3; US-China 
Business Council, ``2017 Member Survey,'' 6 December 17, 9; Julia 
Horowitz, ``Why Tech Secrets, Not Steel, Could Cause the Real Clash 
Between the U.S. and China,'' CNN, 21 February 18.
    \16\ Office of the U.S. Trade Representative, ``Findings of the 
Investigation Into China's Acts, Policies, and Practices Related to 
Technology Transfer, Intellectual Property, and Innovation Under 
Section 301 of the Trade Act of 1974,'' 22 March 18, 19-20, 22.
    \17\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)(2), 
3.
    \18\ National Development and Reform Commission et al., Fair 
Competition Review System Implementing Rules (Provisional) [Gongping 
jingzheng shencha zhidu shishi xize (zhanxing)], issued 23 October 17, 
art. 18. See also Office of the U.S. Trade Representative, ``2017 
Report to Congress on China's WTO Compliance,'' January 2018, 143.
    \19\ National Development and Reform Commission et al., Fair 
Competition Review System Implementing Rules (Provisional) [Gongping 
jingzheng shencha zhidu shishi xize (zhanxing)], issued 23 October 17, 
art. 2; Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 143.
    \20\ National Development and Reform Commission and Ministry of 
Commerce, Special Administrative Measures for Foreign Investment Access 
(Negative List) (2018 Edition) [Waishang touzi zhunru tebie guanli 
cuoshi (fumian qingdan) (2018 nian ban)], issued 28 June 18, effective 
28 July 18, 4; Issaku Harada, ``China To Abolish Foreign Ownership Caps 
in Finance in 2021,'' Nikkei Asian Review, 30 June 18; Dorcas Wong, 
``How To Read China's 2018 Negative List,'' Dezan Shira & Associates, 
China Briefing (blog), 7 July 18.
    \21\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2018 China Business Climate Survey Report,'' 
January 2018, 39; German Chamber of Commerce in China, ``German 
Business in China: Business Confidence Survey 2017/18,'' 16 November 
17, 17. Note that the AmCham China survey asked only if businesses felt 
``more'' or ``less welcome,'' while the German Chamber survey had an 
additional option of ``unchanged.''
    \22\ Jorg Brunsmann, ``Internet in China--No More Safe Havens? '' 
Deutsche Welle, 1 February 18; Paul Mozur, ``Skype Vanishes From App 
Stores in China, Including Apple's,'' New York Times, 21 November 17; 
Lucy Hornby, ``China's VPN Crackdown Is About Money as Much as 
Censorship,'' Financial Times, 22 January 18; Eva Pils, Human Rights in 
China (Medford: Polity Press, 2018), 89-90.
    \23\ Paul Mozur, ``Skype Vanishes From App Stores in China, 
Including Apple's,'' New York Times, 21 November 17; ``Skype Removed 
From China Apple and Android App Stores,'' BBC, 22 November 17.
    \24\ Josephine Wolff, ``The Internet Censor's Dilemma,'' Slate, 5 
March 18; ``China's Great Firewall Is Rising,'' Economist, 4 January 
18; Coco Liu, ``Guess What Chinese Travellers Are Bringing Back Home? 
VPNs, Lots of Them,'' South China Morning Post, 6 October 17.
    \25\ Ministry of Industry and Information Technology Circular on 
Rectifying and Regulating Internet Service Provider Markets [Gongye he 
xinxihua bu guanyu qingli guifan hulianwang wangluo jieru fuwu shichang 
de tongzhi], issued 22 January 17, preamble, 2(2)4; Jorg Brunsmann, 
``Internet in China--No More Safe Havens? '' Deutsche Welle, 1 February 
18; Lucy Hornby, ``China's VPN Crackdown Is About Money as Much as 
Censorship,'' Financial Times, 22 January 18.
    \26\ ``Timeline: Under Xi, Five Years of Tighter Controls Across 
Chinese Society,'' Reuters, 16 October 17; Letter from Cynthia C. 
Hogan, Vice President for Public Policy, Americas, Apple, to U.S. 
Senators Ted Cruz and Patrick Leahy, 21 November 17; Oiwan Lam and Jack 
Hu, ``China's Great Firewall Grows Ever-Stronger as Virtual Private 
Networks Disappear,'' Global Voices, 27 June 17.
    \27\ Asha McLean, ``VPNs Can Still Be Used in China Despite March 
31 Ban,'' ZDNet, 5 April 18; Ralph Jennings, ``How To Surf China's 
Internet Freely Despite the Latest Ban,'' Forbes, 23 April 18.
    \28\ Brent Lang and Patrick Frater, ``China Film Quota Talks Could 
Be a Casualty in Trump's Trade War,'' Variety, 29 March 18; Pei Li and 
Michael Martina, ``Hollywood's China Dreams Get Tangled in Trade 
Talks,'' Reuters, 19 May 18; ``Hollywood Braces for Collateral Damage 
From Trade War With China,'' Bloomberg, 19 July 18.
    \29\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 19, 142; European 
Union Chamber of Commerce in China, ``European Business in China 
Position Paper 2017/2018,'' 19 September 17, 168, 373; American Chamber 
of Commerce in the People's Republic of China and Bain & Company, 
``2018 China Business Climate Survey Report,'' January 2018, 40, 44.
    \30\ Eric Ng, ``China Must Shrink State-Owned Enterprises if It 
Wants Reforms To Succeed, Says Former WTO Chief,'' South China Morning 
Post, 11 April 18; Ke Baili, ``IMF Sounds Warning to China Over Loans 
to Unprofitable Firms,'' Caixin, 10 April 18; Benn Steil and Benjamin 
Della Rocca, ``China Is Heaping Debt on Its Least Productive 
Companies,'' Council on Foreign Relations, Geo-Graphics (blog), 11 
January 18.
    \31\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 16 April 18. See also Richard McGregor, ``China Takes On Its 
New Tycoons,'' Wall Street Journal, 13 October 17; Minxin Pei, China's 
Crony Capitalism (Cambridge: Harvard University Press, 2016).
    \32\ PRC Company Law [Zhonghua renmin gongheguo gongsi fa], passed 
29 December 93, amended 25 December 99, 28 August 04, 27 October 05, 28 
December 13, effective 1 March 14, art. 19; Chinese Communist Party 
Constitution [Zhongguo gongchandang zhangcheng], adopted 6 September 
82, amended 1 November 87, 18 October 92, 18 September 97, 14 November 
02, 21 October 07, 14 November 12, 24 October 17, art. 30. See also AHK 
Greater China, ``Press Statement: Increasing Business Challenges--
Delegations of German Industry & Commerce in China Concerned About 
Growing Influence of Chinese Communist Party on Foreign Business 
Operations,'' 24 November 17.
    \33\ Central Commission for Discipline Inspection, `` `Strengthen 
Party Building Work and Comprehensively Enforce Strict Party 
Discipline' Full Text of Press Reception'' [``Jiaqiang dangjian gongzuo 
he quanmian cong yan zhi dang'' jizhe zhaodai hui quanwen shilu], 19 
October 17; ``How To Succeed in China? Communist Party Groups in Your 
Company,'' Bloomberg, 19 October 17. Note that foreign-invested 
(waishang) enterprises are a subset of private (feigong) enterprises. 
For an explanation of the different types of enterprises in China, see 
National Bureau of Statistics of China, ``Regulations on Statistical 
Differentiation of Components of the Economy'' [Guanyu tongji shang 
huafen jingji chengfen de guiding], 10 October 01.
    \34\ Central Commission for Discipline Inspection, `` `Strengthen 
Party Building Work and Comprehensively Enforce Strict Party 
Discipline' Full Text of Press Reception'' [``Jiaqiang dangjian gongzuo 
he quanmian cong yan zhi dang'' jizhe zhaodai hui quanwen shilu], 19 
October 17; Simon Denyer, ``Command and Control: China's Communist 
Party Extends Reach Into Foreign Companies,'' Washington Post, 28 
January 18; AHK Greater China, ``Press Statement: Increasing Business 
Challenges--Delegations of German Industry & Commerce in China 
Concerned About Growing Influence of Chinese Communist Party on Foreign 
Business Operations,'' 24 November 17.
    \35\ Office of the U.S. Trade Representative, ``2017 Report to 
Congress on China's WTO Compliance,'' January 2018, 147; Lucy Hornby, 
``Communist Party Asserts Control Over China Inc,'' Financial Times, 3 
October 17; China Labour Bulletin, ``Employment and Wages,'' June 2018. 
See also Samuel Wrest, ``Evaluating Trade Union Law and Collective 
Bargaining in China: Key Considerations for Foreign Firms,'' Dezan 
Shira & Associates, China Briefing (blog), 8 March 17. Chinese 
Communist Party Constitution [Gongchandang zhangcheng], adopted 6 
September 82, amended 1 November 87, 18 October 92, 18 September 97, 14 
November 02, 21 October 07, 14 November 12, 24 October 17, art. 33. The 
Party Constitution states that Party groups shall lead unions within 
private enterprises.
    \36\ Houze Song, ``State-Owned Enterprise Reforms: Untangling 
Ownership, Control, and Corporate Governance,'' University of Chicago, 
Paulson Institute, MacroPolo, December 2017.
    \37\ Ibid.; Kjeld Erik Brodsgaard, ``Will Party Control Reign in 
China's Rogue SOEs? '' East Asia Forum, 27 February 18. For information 
on the evolution of Chinese Communist Party involvement in state-owned 
enterprises in the 1990s and 2000s, see Richard McGregor, ``China Inc.: 
The Party and Business,'' in The Party: The Secret World of China's 
Communist Rulers (New York: HarperCollins, 2010), 34-69.
    \38\ Massachusetts Institute of Technology, Sloan School of 
Management, ``Faculty & Research--Yasheng Huang,'' last visited 20 
April 18.
    \39\ Richard McGregor, ``China Takes On Its New Tycoons,'' Wall 
Street Journal, 13 October 17.
    \40\ ``China's Companies on Notice: State Preparing To Take 
Stakes,'' Bloomberg, 17 January 18; Xie Yu, ``Beijing's Rescue Fund To 
Shift Investments to Private Companies Now That It's Saved State 
Giants,'' South China Morning Post, 20 October 17; Henny Sender, 
``China's State-Owned Business Reform a Step in the Wrong Direction,'' 
Financial Times, 26 September 17.
    \41\ Xu Zhao, ``Enterprises' `Going Out' Mergers and Acquisitions 
May Not Mean 100 Percent Controlling Shares'' [Qiye ``zou chuqu'' 
binggou bu yiding 100% kong gu], China Securities Journal, 12 April 18; 
Eric Ng, ``China Must Shrink State-Owned Enterprises if It Wants 
Reforms To Succeed, Says Former WTO Chief,'' South China Morning Post, 
11 April 18.
    \42\ Rogier Creemers et al., ``Translation: China Federation of 
Internet Societies Launches With Call for Unified Action,'' New 
America, DigiChina (blog), 11 May 18; Mara Hvistendahl, ``Inside 
China's Vast New Experiment in Social Ranking,'' Wired, 14 December 17; 
Richard McGregor, ``China Takes On Its New Tycoons,'' Wall Street 
Journal, 13 October 17; Shunsuke Tabeta, ``Internet Executives Well 
Represented at China's National Congress,'' Nikkei Asian Review, 7 
March 18.
    \43\ Sebastian Heilmann, ``How the CCP Embraces and Co-Opts China's 
Private Sector,'' Mercator Institute for China Studies, MERICS Blog--
European Voices on China, 21 November 17; Richard McGregor, ``China 
Takes On Its New Tycoons,'' Wall Street Journal, 13 October 17. For 
more information on the opaque ties between Party and government 
officials and the private sector, see Bruce J. Dickson, Wealth Into 
Power: The Communist Party's Embrace of China's Private Sector 
(Cambridge: Cambridge University Press, 2008), 22-27; Minxin Pei, 
China's Crony Capitalism: The Dynamics of Regime Decay (Cambridge: 
Harvard University Press, 2016). Pei's book describes the mechanisms 
through which the political and business elites in China collude for 
personal gain. See in particular pages 21, 78-79, 116-17, 119-122, 126-
28, and 146-47.
    \44\ Chinese Communist Party Constitution [Zhongguo gongchandang 
zhangcheng], adopted 6 September 82, amended 1 November 87, 18 October 
92, 18 September 97, 14 November 02, 21 October 07, 14 November 12, 24 
October 17, art. 33; Houze Song, ``State-Owned Enterprise Reforms: 
Untangling Ownership, Control, and Corporate Governance,'' University 
of Chicago, Paulson Institute, MacroPolo, December 2017.
    \45\ Alexandra Stevenson, ``China's Communists Rewrite the Rules 
for Foreign Businesses,'' New York Times, 13 April 18; Jennifer Hughes, 
``China's Communist Party Writes Itself Into Company Law,'' Financial 
Times, 14 August 17.
    \46\ European Union Chamber of Commerce in China, ``Chamber Stance 
on the Governance of Joint Ventures and the Role of Party 
Organisations,'' 3 November 17; Simon Denyer, ``Command and Control: 
China's Communist Party Extends Reach Into Foreign Companies,'' 
Washington Post, 28 January 18; Alexandra Stevenson, ``China's 
Communists Rewrite the Rules for Foreign Businesses,'' New York Times, 
13 April 18.
    \47\ China Securities Regulatory Commission, Guidelines Governing 
Listed Companies (Draft for Solicitation of Comments) [Shangshi gongsi 
zhili zhunze (zhengqiu yijian gao)], 15 June 18, art. 5; ``Proposed 
Chinese Rule Change Seen as `Step Backward,' '' Taipei Times, 18 June 
18.
    \48\ Li Yuan, ``Beijing Pushes for a Direct Hand in China's Big 
Tech Firms,'' Wall Street Journal, 11 October 17.
    \49\ Ibid.; Richard McGregor, ``China Takes On Its New Tycoons,'' 
Wall Street Journal, 13 October 17.
    \50\ See, e.g., Freedom House, ``Freedom in the World 2018--
China,'' last visited 16 April 18; Human Rights in China, ``Stakeholder 
Submission by Human Rights in China,'' March 2018, para. 3. See also 
``Chinese Police Order Xinjiang's Muslims To Hand in All Copies of the 
Quran,'' Radio Free Asia, 27 September 17. For relevant international 
standards protecting freedom of religion, see Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of 10 December 48, art. 18; International Covenant on Civil 
and Political Rights (ICCPR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, art. 18; 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 17 
July 18. China has signed but not ratified the ICCPR.
    \51\ Rian Thum et al., ``How Should the World Respond to 
Intensifying Repression in Xinjiang? '' Asia Society, ChinaFile, 4 June 
18; ``Xinjiang Authorities Detain Uyghurs `Wanting To Travel Abroad,' 
'' Radio Free Asia, 27 March 18; Chinese Human Rights Defenders and 
Equal Rights Initiative, ``China: Massive Numbers of Uyghurs & Other 
Ethnic Minorities Forced Into Re-Education Programs,'' 3 August 18.
    \52\ Adrian Zenz, ``China's Domestic Security Spending: An Analysis 
of Available Data,'' Jamestown Foundation, China Brief, Vol. 18, Issue 
4, 12 March 18.
    \53\ Adrian Zenz, `` `Thoroughly Reforming Them Toward a Healthy 
Heart Attitude'--China's Political Re-Education Campaign in Xinjiang,'' 
Academia.edu, updated 15 May 18, 19-25.
    \54\ China Telecom, ``Company Overview'' [Gongsi gaikuang], last 
visited 7 June 18.
    \55\ Adrian Zenz, `` `Thoroughly Reforming Them Toward a Healthy 
Heart Attitude'--China's Political Re-Education Campaign in Xinjiang,'' 
Academia.edu, updated 15 May 18, 10, 23.
    \56\ Charles Rollet, ``In China's Far West, Companies Cash In on 
Surveillance Program That Targets Muslims,'' Foreign Policy, 13 June 
18; ``Security.World's Top 10 Vertical Leaders ,'' Security.World, last 
visited 14 June 18; ``Global Video Surveillance Market Report 2018: 
Market Is Expected To Reach an Estimated $39.3 Billion by 2023--
ResearchAndMarkets.com,'' Business Wire, 14 February 18; ``Global Video 
Surveillance Market 2017 Analysis, Segmentation, Competitors Analysis, 
Product Research, Trends and Forecast by 2022,'' Reuters, 15 June 17; 
Ron Alalouff, ``The Spectacular Rise of the Chinese Video Surveillance 
Industry,'' IFSEC Global, 7 March 18.
    \57\ Charles Rollet, ``In China's Far West, Companies Cash In on 
Surveillance Program That Targets Muslims,'' Foreign Policy, 13 June 
18; Charles Rollet, ``Dahua and Hikvision Win Over $1 Billion in 
Government-Backed Projects in Xinjiang,'' IVPM, 23 April 18.
    \58\ Marc Fisher et al., ``Behind Erik Prince's China Venture,'' 
Washington Post, 4 May 18; Don Weinland and Charles Clover, ``Citic 
Boosts Stake in Erik Prince's Security Group Frontier,'' Financial 
Times, 5 March 18. See also Frontier Services Group, ``CITIC and China 
Taiping Invest in FSG, Supporting the Belt & Road Initiativec [sic],'' 
8 March 18; Michael Martina, ``Blackwater Founder's FSG Buys Stake in 
Chinese Security School,'' Reuters, 30 May 17.
    \59\ International Security Defense College, ``Course 
Introduction'' [Kecheng jieshao], last visited 8 June 18.
    \60\ Marc Fisher et al., ``Behind Erik Prince's China Venture,'' 
Washington Post, 4 May 18. See also Don Weinland and Charles Clover, 
``Citic Boosts Stake in Erik Prince's Security Group Frontier,'' 
Financial Times, 5 March 18.
    \61\ For international standards protecting individuals' right to 
privacy, see Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of 10 December 
48, art. 12; International Covenant on Civil and Political Rights 
(ICCPR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 17; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 17 July 18. China has signed 
but not ratified the ICCPR. See also UN Human Rights Council, Report of 
the Special Rapporteur on the Right to Privacy, Joseph Cannataci, A/
HRC/37/62, Advance Unedited Version, 28 February 18, para. 4; UN 
General Assembly, Resolution Adopted by UN General Assembly on 18 
December 13: 68/167. The Right to Privacy in the Digital Age, A/RES/68/
167, 21 January 14.
    \62\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17, arts. 37, 79.
    \63\ Ibid., arts. 12, 41, 45; Samm Sacks, Center for Strategic & 
International Studies, ``China's Emerging Data Privacy System and 
GDPR,'' 9 March 18.
    \64\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17, arts. 12, 41, 
45; Samm Sacks, Center for Strategic & International Studies, ``China's 
Emerging Data Privacy System and GDPR,'' 9 March 18.
    \65\ General Administration of Quality Supervision, Inspection and 
Quarantine of the People's Republic of China and Standardization 
Administration of the People's Republic of China, Information Security 
Technology--Personal Information Security Specification [Xinxi anquan 
jishu--geren xinxi anquan guifan], issued 29 December 17, effective 1 
May 18, sec. 5.3; Samm Sacks, Center for Strategic & International 
Studies, ``New China Data Privacy Standard Looks More Far-Reaching Than 
GDPR,'' 29 January 18; Samm Sacks, Center for Strategic & International 
Studies, ``China's Emerging Data Privacy System and GDPR,'' 9 March 18. 
According to Samm Sacks of the Center for Strategic & Economic Studies, 
the Information Security Technology--Personal Information Security 
Specification is meant to provide guidelines for implementing the PRC 
Cybersecurity Law.
    \66\ General Administration of Quality Supervision, Inspection and 
Quarantine of the People's Republic of China and Standardization 
Administration of the People's Republic of China, Information Security 
Technology--Personal Information Security Specification [Xinxi anquan 
jishu--geren xinxi anquan guifan], issued 29 December 17, effective 1 
May 18, sec. 5.4.
    \67\ Ibid. See also Samm Sacks, Center for Strategic & 
International Studies, ``China's Emerging Data Privacy System and 
GDPR,'' 9 March 18.
    \68\ General Administration of Quality Supervision, Inspection and 
Quarantine of the People's Republic of China and Standardization 
Administration of the People's Republic of China, Information Security 
Technology--Personal Information Security Specification [Xinxi anquan 
jishu--geren xinxi anquan guifan], issued 29 December 17, effective 1 
May 18, sec. 5.4(b).
    \69\ For more information on the Chinese government's use of 
``state security'' charges to target rights advocates, see, e.g., Human 
Rights Watch, ``China: State Security, Terrorism Convictions Double,'' 
16 March 16; CECC, 2017 Annual Report, 5 October 17, 103-04; CECC, 2016 
Annual Report, 6 October 16, 101-02.
    \70\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17, art. 28; Amnesty 
International, ``When Profits Threaten Privacy--5 Things You Need To 
Know About Apple in China,'' 27 February 18; Human Rights Watch, 
``China: Voice Biometric Collection Threatens Privacy,'' 22 October 17.
    \71\ Stephen Nellis and Cate Cadell, ``Apple Moves To Store iCloud 
Keys in China, Raising Human Rights Fears,'' Reuters, 24 February 18. 
See also Liza Lin and Josh Chin, ``China's Tech Giants Have a Second 
Job: Helping Beijing Spy on Its People,'' Wall Street Journal, 30 
November 17.
    \72\ Amnesty International, ``Campaign Targets Apple Over Privacy 
Betrayal for Chinese iCloud Users,'' 22 March 18; Human Rights Watch, 
``China: Police `Big Data' Systems Violate Privacy, Target Dissent,'' 
19 November 17.
    \73\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
12; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 17; United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 17 July 18. China has signed but not 
ratified the ICCPR. See also UN Human Rights Council, Report of the 
Special Rapporteur on the Right to Privacy, Joseph Cannataci, A/HRC/37/
62, Advance Unedited Version, 28 February 18, para. 4; UN General 
Assembly, Resolution Adopted by UN General Assembly on 18 December 13: 
68/167. The Right to Privacy in the Digital Age, A/RES/68/167, 21 
January 14.
    \74\ ``Apple: Responsibility for Operations of Domestic Chinese 
iCloud Services Will Be Transferred to Domestic Company'' [Pingguo: 
zhongguo neidi de icloud fuwu jiang zhuan you guonei gongsi fuze 
yunying], People's Daily, 10 January 18; Stephen Nellis and Cate 
Cadell, ``Apple Moves To Store iCloud Keys in China, Raising Human 
Rights Fears,'' Reuters, 24 February 18; Amnesty International, ``When 
Profits Threaten Privacy--5 Things You Need To Know About Apple in 
China,'' 27 February 18.
    \75\ Stephen Nellis and Cate Cadell, ``Apple Moves To Store iCloud 
Keys in China, Raising Human Rights Fears,'' Reuters, 24 February 18; 
Josh Horwitz, ``Apple's iCloud Service in China Will Be Managed by a 
Data Firm Started by the Government,'' Quartz, 10 January 18; Jon 
Russel, ``Apple's China iCloud Data Migration Sweeps Up International 
User Accounts,'' TechCrunch, 11 January 18.
    \76\ Amnesty International, ``Campaign Targets Apple Over Privacy 
Betrayal for Chinese iCloud Users,'' 22 March 18.
    \77\ 21Vianet Group, Inc., ``21Vianet and Microsoft Reinforce Long-
term Cooperation on Cloud Services in China,'' reprinted in 
GlobeNewswire, 14 March 18; Cate Cadell, ``Amazon Sells Off China Cloud 
Assets as Tough New Rules Bite,'' Reuters, 14 November 17; ``Amazon 
Cuddles Up to Chinese Public Sector With AWS Rollout,'' Register, 18 
December 13; Jack Clark, ``IBM Follows Microsoft, Amazon Into China 
With New Cloud Doodad,'' Register, 18 December 13.
    \78\ Mara Hvistendahl, ``Inside China's Vast New Experiment in 
Social Ranking,'' Wired, 14 December 17; Liza Lin and Josh Chin, 
``China's Tech Giants Have a Second Job: Helping Beijing Spy on Its 
People,'' Wall Street Journal, 30 November 17.
    \79\ Simon Denyer, ``Beijing Bets on Facial Recognition in a Big 
Drive for Total Surveillance,'' Washington Post, 7 January 18; Mara 
Hvistendahl, ``Inside China's Vast New Experiment in Social Ranking,'' 
Wired, 14 December 17; Liza Lin and Josh Chin, ``China's Tech Giants 
Have a Second Job: Helping Beijing Spy on Its People,'' Wall Street 
Journal, 30 November 17.
    \80\ Human Rights Watch, ``China: Police `Big Data' Systems Violate 
Privacy, Target Dissent,'' 19 November 17.
    \81\ Tang Yu, ``Big Data Era, `Internet + Policing' Upgrades Social 
Governance Model'' [Da shuju shidai, ``hulianwang+jingwu'' shengji 
shehui zhili moshi], Democracy & Law, reprinted in China Big Data 
Industrial Observation, 4 January 17; Human Rights Watch, ``China: 
Police `Big Data' Systems Violate Privacy, Target Dissent,'' 19 
November 17.
    \82\ Human Rights Watch, ``China: Police `Big Data' Systems Violate 
Privacy, Target Dissent,'' 19 November 17.
    \83\ Ibid. For more information on petitioners, see Section III--
Access to Justice. For more information on Uyghurs, see Section IV--
Xinjiang.
    \84\ Ibid. See also Universal Declaration of Human Rights, adopted 
and proclaimed by UN General Assembly resolution 217A (III) of 10 
December 48, arts. 11(1), 20(1); International Covenant on Civil and 
Political Rights (ICCPR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 
14(2), 22(1); United Nations Treaty Collection, Chapter IV, Human 
Rights, International Covenant on Civil and Political Rights, last 
visited 17 July 18. China has signed but not ratified the ICCPR.
    \85\ Human Rights Watch, ``China: Voice Biometric Collection 
Threatens Privacy,'' 22 October 17. See also National Citizen 
Identification Number Inquiry Service Center, ``Why Won't the Citizen 
Identification Verification Service Reveal Individuals' Private 
[Information]? '' [Gongmin shenfen xinxi hecha fuwu weishenme bu hui 
xielou gongmin yinsi], last visited 8 June 18; Stephen Chen, ``China To 
Build Giant Facial Recognition Database To Identify Any Citizen Within 
Seconds,'' South China Morning Post, 13 October 17; Human Rights 
Watchs, ``China: Police DNA Database Threatens Privacy,'' 15 May 17; Ge 
Baichuan et al., ``The Tactics System and Capacity-Building of National 
DNA Database'' [DNA shujuku shizhan yingyong zhanfa tixi yu nengli 
jianshe yanjiu], Forensic Science and Technology, Vol. 41, No. 4 
(2016), 260.
    \86\ Human Rights Watch, ``China: Voice Biometric Collection 
Threatens Privacy,'' 22 October 17.
    \87\ Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17.
    \88\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 130. See also Human Rights Watch, ``China: 
Voice Biometric Collection Threatens Privacy,'' 22 October 17.
    \89\ Freedom House, ``Freedom in the World 2018--China,'' last 
visited 16 April 18; Amnesty International, ``China 2017/2018,'' last 
visited 3 September 18; Simon Denyer, ``Beijing Bets on Facial 
Recognition in a Big Drive for Total Surveillance,'' Washington Post, 7 
January 18.
    \90\ Wenxin Fan et al., ``China Snares Innocent and Guilty Alike To 
Build World's Biggest DNA Database,'' Wall Street Journal, 26 December 
17; Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17.
    \91\ Wenxin Fan et al., ``China Snares Innocent and Guilty Alike To 
Build World's Biggest DNA Database,'' Wall Street Journal, 26 December 
17; Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17.
    \92\ Human Rights Watch, ``China: Voice Biometric Collection 
Threatens Privacy,'' 22 October 17. See also Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of 10 December 48, art. 12; International Covenant on Civil 
and Political Rights (ICCPR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, art. 17; 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 17 
July 18. China has signed but not ratified the ICCPR. See also UN Human 
Rights Council, Report of the Special Rapporteur on the Right to 
Privacy, Joseph Cannataci, A/HRC/37/62, Advance Unedited Version, 28 
February 18, para. 4; UN General Assembly, The Right to Privacy in the 
Digital Age, A/RES/68/167, 21 January 14.
    \93\ State Council, ``Social Credit System Construction Program 
Outline (2014-2020)'' [Shehui xinyong tixi jianshe guihua gangyao 
(2014-2020 nian)], 14 June 14. For an unofficial English translation, 
see ``Planning Outline for the Construction of a Social Credit System 
(2014-2020),'' translated in China Copyright and Media (blog), 25 April 
15. For more information on the social credit system, see, e.g., Jeremy 
Daum, ``China Through a Glass, Darkly,'' China Law Translate (blog), 24 
December 17; Mareike Ohlberg et al., Mercator Institute for China 
Studies, ``Central Planning, Local Experiments: The Complex 
Implementation of China's Social Credit System,'' MERICS China Monitor, 
12 December 17; Rogier Creemers, ``China's Social Credit System: An 
Evolving Practice of Control,'' Social Science Research Network, 9 May 
18.
    \94\ Jeremy Daum, ``China Through a Glass, Darkly,'' China Law 
Translate (blog), 24 December 17; Mareike Ohlberg et al., Mercator 
Institute for China Studies, ``Central Planning, Local Experiments: The 
Complex Implementation of China's Social Credit System,'' MERICS China 
Monitor, 12 December 17, 2, 4.
    \95\ Mareike Ohlberg et al., Mercator Institute for China Studies, 
``Central Planning, Local Experiments: The Complex Implementation of 
China's Social Credit System,'' MERICS China Monitor, 12 December 17, 
2; Mara Hvistendahl, ``Inside China's Vast New Experiment in Social 
Ranking,'' Wired, 14 December 17.
    \96\ Li Dandan, ``First License Formally Issued for Personal 
Credit, Baihang Credit Scoring Received License'' [Shou zhang geren 
zhengxin paizhao zhengshi xia fa baihang zhengxin huo pai], Shanghai 
Securities News, 24 February 18; Rogier Creemers, ``China's Social 
Credit System: An Evolving Practice of Control,'' Social Science 
Research Network, 9 May 18, 24-25; Chuin-Wei Yap, ``Tencent Calls Off 
China-Wide Test of Credit-Scoring System,'' Wall Street Journal, 1 
February 18; National Internet Finance Association of China, 
``Introduction to the Association'' [Xiehui jianjie], last visited 3 
April 18.
    \97\ For information on the various pilot programs, see Mareike 
Ohlberg et al., Mercator Institute for China Studies, ``Central 
Planning, Local Experiments: The Complex Implementation of China's 
Social Credit System,'' MERICS China Monitor, 12 December 17, 3, 9-12; 
Simina Mistreanu, ``Life Inside China's Social Credit Laboratory,'' 
Foreign Policy, 3 April 18.
    \98\ Mara Hvistendahl, ``A Revered Rocket Scientist Set in Motion 
China's Mass Surveillance of Its Citizens,'' Science, 14 March 18; Eva 
Pils, Human Rights in China (Medford: Polity Press, 2018), 97; Simina 
Mistreanu, ``Life Inside China's Social Credit Laboratory,'' Foreign 
Policy, 3 April 18.
    \99\ Simon Denyer, ``Beijing Bets on Facial Recognition in a Big 
Drive for Total Surveillance,'' Washington Post, 7 January 18.
    \100\ Liza Lin and Josh Chin, ``China's Tech Giants Have a Second 
Job: Helping Beijing Spy on Its People,'' Wall Street Journal, 30 
November 17.
    \101\ ``China Aims for Near-Total Surveillance, Including in 
People's Homes,'' Radio Free Asia, 30 March 18; `` `Sharp Eyes Project' 
Video Surveillance Totally Covers Countryside, Eyes Include Appliances 
and Cell Phones'' [``Xueliang gongcheng'' nongcun quan fugai shipin 
jiankong jiadian shouji jun zhang yan], Radio Free Asia, 30 March 18; 
Liu Caiyu, ``Villages Gain Public Security Systems,'' Global Times, 2 
April 18. See also AEBELL, ``About AEBELL'' [Guanyu meidian bei'er], 
last visited 8 June 18; Ministry of Commerce, ``China Commodities--
Guangzhou Aebell Electrical Technology Co., Ltd.,'' last visited 18 
July 18.
    \102\ Chen Lei, ``How To Realize Total Coverage of Public Security 
Surveillance'' [Gonggong anquan shipin jiankong ruhe shixian quan 
fugai], Legal Daily, 13 February 18.
    \103\ IHS Markit, ``Deep Learning and Privacy Protection Lead Top 
Video Surveillance Trends for 2018, IHS Markit Says,'' 10 January 18.
    \104\ Pei Li and Cate Cadell, ``China Eyes `Black Tech' To Boost 
Security as Parliament Meets,'' Reuters, 10 March 18.
    \105\ Simon Denyer, ``Beijing Bets on Facial Recognition in a Big 
Drive for Total Surveillance,'' Washington Post, 7 January 18; Human 
Rights Watch, ``China: Police `Big Data' Systems Violate Privacy, 
Target Dissent,'' 19 November 17; Freedom House, ``Freedom in the World 
2018--China,'' last visited 16 April 18.
    \106\ Freedom House, ``Freedom on the Net 2017,'' November 2017, 
221.
    \107\ Freedom House, ``Attacks on the Record: The State of Global 
Press Freedom,'' 25 April 18; Amnesty International, ``China 2017/
2018,'' last visited 3 September 18; Human Rights Watch, ``Submission 
to the Universal Periodic Review of China,'' 29 March 18.
    \108\ See, e.g., Eva Pils, Human Rights in China (Medford: Polity 
Press, 2018), 89-90; Freedom House, ``Freedom on the Net 2017,'' 
November 2017, 221; Xiao Qiang, ``The Rise of China as a Digital 
Totalitarian State,'' Washington Post, 21 February 18.
    \109\ Freedom House, ``Attacks on the Record: The State of Global 
Press Freedom,'' 25 April 18; Amnesty International, ``China 2017/
2018,'' last visited 3 September 18; Human Rights Watch, ``Submission 
to the Universal Periodic Review of China,'' 29 March 18.
    \110\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17, art. 47. See 
also Amnesty International, ``China 2017/2018,'' last visited 3 
September 18; Chiang Ling Li et al., ``China's New Cybersecurity Law 
Brings Enforcement Crackdown,'' Jones Day, October 2017.
    \111\ ``China's Weibo Looks To Reward Citizen Censors With iPhones, 
Tablets,'' Reuters, 27 September 17; Chiang Ling Li et al., ``China's 
New Cybersecurity Law Brings Enforcement Crackdown,'' Jones Day, 
October 2017; Liza Lin and Josh Chin, ``China's Tech Giants Have a 
Second Job: Helping Beijing Spy on Its People,'' Wall Street Journal, 
30 November 17.
    \112\ Chen Aiping, ``Shanghai Cyberspace Administration: Marriott 
International Group Introduces Eight Rectification Measures'' [Shanghai 
wangxinban: wanhao guoji jituan tuichu ba xiang zhenggai cuoshi], 
Xinhua, 17 January 18; Catherine Lai, ``Hurt Feelings: How Foreign 
Brands Are Proving To Be a Soft Target as China Wields Its Power,'' 
Hong Kong Free Press, 25 February 18; Abha Bhattarai and Steven Mufson, 
``Marriot and Other Firms Bow to China To Protect Business Interests,'' 
Washington Post, 19 January 18.
    \113\ Chen Aiping, ``Shanghai Cyberspace Administration: Marriott 
International Group Introduces Eight Rectification Measures'' [Shanghai 
wangxinban: wanhao guoji jituan tuichu ba xiang zhenggai cuoshi], 
Xinhua, 17 January 18; Catherine Lai, ``Hurt Feelings: How Foreign 
Brands Are Proving To Be a Soft Target as China Wields Its Power,'' 
Hong Kong Free Press, 25 February 18; Abha Bhattarai and Steven Mufson, 
``Marriot and Other Firms Bow to China To Protect Business Interests,'' 
Washington Post, 19 January 18.
    \114\ ``Mainland Kills Taiwan Film, Taiwan Affairs Office Prohibits 
Artists [Supporting] Taiwan Independence'' [Tai dianying dalu zao 
fengsha guotaiban yao jin taidu yiren], Radio Free Asia, 28 March 18.
    \115\ State Administration of Radio and Television, ``State 
Administration of Radio and Television Severely Deals With the Problem 
of Sharing Programs Violating Social Morality on `Jinri Toutiao' [and] 
`Kuaishou' '' [Guojia guangbo dianshi zongju yansu chuli ``jinri 
toutiao'' ``kuaishou'' chuanbo you wei shehui daode jiemu deng wenti], 
4 April 18; Wang Meng, ``Android App Store Takes Down Four Apps: 
Toutiao, Netease News, Phoenix News, and Daily Express'' [Anzhuo 
yingyong shangdian yi xia jia jinri toutiao, wangyi xinwen, fenghuang 
xinwen, tiantian kuaibao si kuan yingyong], Caijing, 9 April 18; 
Raymond Zhong, ``It Built an Empire of GIFs, Buzzy News and Jokes. 
China Isn't Amused,'' New York Times, 11 April 18.
    \116\ State Administration of Radio and Television, ``State 
Administration of Radio and Television Orders `Jinri Toutiao' Website 
To Permanently Close `Neihan Duanzi' and Other Vulgar Audiovisual 
Products'' [Guojia guangbo dianshi zongju zeling ``jinri toutiao'' 
wangzhan yongjiu guanting ``neihan duanzi'' deng disu shiting chanpin], 
10 April 18; ``Bad Humour: China Watchdog Shuts Toutiao Joke App Over 
Vulgar Content,'' Reuters, 10 April 18; Raymond Zhong, ``It Built an 
Empire of GIFs, Buzzy News and Jokes. China Isn't Amused,'' New York 
Times, 11 April 18.
    \117\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 15 
June 17; State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 5.
    \118\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19.
    \119\ See, e.g., Roseann Rife, Amnesty International, ``Opinion: 
The Chilling Reality of China's Cyberwar on Free Speech,'' CNN, 25 
March 15; Rebecca MacKinnon, ``China's Internet Censorship and 
Controls: The Context of Google's Approach in China,'' Human Rights in 
China, 16 July 10; Henry Sanderson, ``China Targets Google in 
Pornography Crackdown,'' Associated Press, reprinted in Washington 
Post, 5 January 09.
    \120\ Raymond Zhong, ``It Built an Empire of GIFs, Buzzy News and 
Jokes. China Isn't Amused,'' New York Times, 11 April 18; Jinri Toutiao 
(Headline--today), ``Apology and Reflection'' [Zhiqian he fansi], 
WeChat post, 11 April 18.
    \121\ Ben Bland, ``Outcry as Latest Global Publisher Bows to China 
Censors,'' Financial Times, 1 November 17.
    \122\ U.S. Responses to China's Foreign Influence Operations, 
Hearing of the Subcommittee on Asia and the Pacific, Committee on 
Foreign Affairs, U.S. House of Representatives, 21 March 18, Testimony 
of Aynne Kokas, Fellow, Kissinger Institute on China and the United 
States, The Woodrow Wilson Center for International Scholars, and 
Assistant Professor of Media Studies, University of Virginia.
    \123\ Weibo, ``Weibo May 2018 Community Management Work 
Announcement'' [Weibo 2018 nian 5 yue shequ guanli gongzuo gonggao], 11 
June 18, sec. 1. See also Xu Hailin, ``Sina Weibo Removes 141,000 
Harmful Posts on Politics,'' Global Times, 12 June 18.
    \124\ Weibo, ``Weibo May 2018 Community Management Work 
Announcement'' [Weibo 2018 nian 5 yue shequ guanli gongzuo gonggao], 11 
June 18, sec. 1.
    \125\ ``U.S. Airlines Say Further Amending Websites To Change 
Taiwan References,'' Reuters, 9 August 18; Daniel Shane, ``US Airlines 
Give In to China's Demands Over Taiwan,'' CNN, 25 July 18; Bill 
Birtles, ``Last Remaining US Airlines Give in to Chinese Pressure on 
Taiwan,'' ABC News, 25 July 18.
    \126\ Kate Conger and Daisuke Wakabayashi, ``Google Employees 
Protest Secret Work on Censored Search Engine for China,'' New York 
Times, 16 August 18; Douglas MacMillan, Shan Li, and Liza Lin, ``Google 
Woos Partners for Potential China Expansion,'' Wall Street Journal, 12 
August 18; Ryan Gallagher, ``Google Plans To Launch Censored Search 
Engine in China, Leaked Documents Reveal,'' 1 August 18.


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice

                           Access to Justice


               Party's Control Over the Judicial Process

    Central authorities of the Chinese Communist Party 
continued to exert control over the judicial process in 
violation of international standards.\1\ Although it is not 
formally part of the Party,\2\ the judiciary's first priority 
in 2018 was to defend ``the Party's centralized and unified 
leadership, with [Party General Secretary] Xi Jinping as the 
core leader,'' according to the March 2018 Supreme People's 
Court (SPC) work report \3\ delivered by senior Party official 
and SPC President Zhou Qiang.\4\ Zhou affirmed that the 
adjudication process should be improved through Party 
building,\5\ which included ideological conformity,\6\ and 
advocated for absolute loyalty and obedience to the Party.\7\ 
Zhou further saw it as the court's imperative to take part in a 
political initiative called ``eliminate darkness and evil'' 
that aims to ``further strengthen the foundation of the Party's 
power.'' \8\ According to announcements by local authorities, 
targeted ``dark forces'' included persons involved in organized 
crime as well as individuals who ``threaten political 
security'' and those who ``have a grip on political power at 
the local level.'' \9\ State-run media Xinhua explained that 
this campaign ``is primarily aimed at consolidating the 
[Communist Party's] ruling foundation,'' \10\ and some 
commentators drew comparisons with earlier anti-crime campaigns 
such as ``Strike Hard'' and ``Strike Black'' in terms of the 
potential for serious human rights abuses.\11\
    In February 2018, Xiong Xuanguo, a vice minister at the 
Ministry of Justice, urged lawyers to ``conform their thoughts 
and actions with the Party's plan'' and to join the ``eliminate 
darkness and evil'' campaign.\12\ He also announced that the 
All China Lawyers Association had established a ``defense 
lawyer guidance committee'' to ``strengthen guidance on cases'' 
relating to the campaign.\13\ Some lawyers expressed concern 
that the unprecedented efforts to coordinate defense lawyers 
was actually a ``stability maintenance'' measure and would 
undermine lawyers' independence in defending their clients.\14\

    Persecution and Harassment of Human Rights Lawyers and Advocates


                          CRIMINAL PROSECUTION

    Chinese authorities continued to criminally prosecute 
rights lawyers and advocates detained during the nationwide, 
coordinated crackdown that began in and around July 2015 (July 
2015 crackdown),\15\ which affected over 300 individuals and 
led to a total of 14 criminal convictions.\16\ This past year, 
authorities sentenced three individuals and continued to hold 
one person under incommunicado pretrial detention.\17\ 
International human rights groups, in anticipation of the 
November 2018 session of the UN Human Rights Council's 
Universal Periodic Review of the Chinese government's human 
rights record,\18\ expressed in their reports concerns about 
persecution of rights lawyers.\19\

        <bullet> On November 21, 2017, a court sentenced 
        disbarred rights lawyer Jiang Tianyong \20\ to two 
        years' imprisonment on the charge of ``inciting to 
        subvert state power.'' \21\ Authorities alleged that 
        Jiang counseled Xie Yang's wife to fabricate torture 
        allegations.\22\ Rights lawyer Xie Yang \23\ reportedly 
        told his lawyers in January 2017 that authorities had 
        tortured him,\24\ but he later retracted that claim at 
        trial.\25\ On December 26, 2017, a court convicted Xie 
        of ``inciting to subvert state power'' and decided not 
        to impose criminal punishment.\26\ After releasing Xie 
        from detention, authorities restricted his freedom of 
        movement \27\ and photocopied his case files, a step 
        that suggests authorities were preparing to revoke 
        Xie's law license as retaliation against his resuming 
        rights defense work, according to his wife.\28\
        <bullet> On December 26, 2017, a court sentenced rights 
        advocate Wu Gan \29\ to eight years in prison for 
        ``subverting state power.'' \30\ On April 17, 2018, the 
        court of second instance affirmed the original 
        sentence.\31\ Shortly before the second instance court 
        issued the decision, authorities reportedly prevented 
        citizens from attending the hearing and detained Wu's 
        father in a hotel located in Guilin municipality, 
        Guangxi Zhuang Autonomous Region.\32\
        <bullet> Authorities took rights lawyer Wang Quanzhang 
        \33\ into custody around July 2015 and continued to 
        hold him under incommunicado detention \34\ on the 
        charge of ``subverting state power.'' \35\ In April 
        2018, Wang's wife Li Wenzu said authorities never 
        informed her of Wang's whereabouts, and she started a 
        symbolic march from her home in Beijing municipality to 
        Wang's presumed detention location in Tianjin 
        municipality.\36\ Authorities intercepted Li in 
        Tianjin, returned her to Beijing, and placed her under 
        ``soft detention'' in her apartment, during which 
        individuals believed to be working for government 
        officials blocked and assaulted Li's visitors.\37\

    Authorities likewise criminally detained other lawyers 
subsequent to the July 2015 crackdown:

        <bullet> In October 2017, authorities detained rights 
        lawyer Li Yuhan\38\ on the charge of ``picking quarrels 
        and provoking trouble.'' \39\ Staff at the detention 
        center reportedly denied her hot water for showers, 
        denied her medical treatment, and threatened to beat 
        her to death.\40\ At the age of 60, Li suffered from 
        health conditions including heart disease, 
        hypertension, and hyperthyroidism.\41\ Previously, Li 
        represented lawyer Wang Yu,\42\ whom authorities 
        detained during the July 2015 crackdown.\43\
        <bullet> In January 2018, authorities detained rights 
        lawyer Yu Wensheng \44\ and in April formally arrested 
        him on the charges of ``obstructing official business'' 
        and ``inciting subversion of state power.'' \45\ 
        Earlier, the Beijing Municipal Justice Bureau revoked 
        Yu's law license reportedly because he had represented 
        rights lawyer Wang Quanzhang.\46\ Yu's detention came 
        shortly after he made a Twitter post advocating 
        constitutional reform.\47\ In April, police showed Yu's 
        defense lawyers a declaration in which Yu allegedly 
        terminated their representation.\48\ Yu's wife, Xu Yan, 
        refused to terminate the lawyers because the 
        declaration contradicted an earlier declaration that Yu 
        wrote, in which he stated that he would not voluntarily 
        terminate his lawyers were he to be detained.\49\ In 
        February, authorities restricted Xu Yan's ability to 
        travel to Hong Kong and in April pressured her not to 
        discuss her husband's case.\50\

          RESTRICTION, PERSECUTION, AND HARASSMENT OF LAWYERS

    Beside criminal prosecution, authorities persecuted, 
harassed, and imposed restrictions on rights lawyers by means 
including revocation \51\ and suspension \52\ of licenses, 
delay in the annual license renewal process,\53\ exclusion from 
courthouses,\54\ restriction of movement,\55\ restriction on 
speech,\56\ and physical assault.\57\ Authorities also 
conducted intrusive ``inspections'' in a number of law 
firms.\58\ In September 2017, for example, at least seven law 
firms were subjected to inspection, with some on-site 
inspections reportedly lasting for days.\59\ Observers said 
these inspections targeted law firms that engaged in rights 
defense work.\60\

                          Citizen Petitioning

    The petitioning system (xinfang), also known as the 
``letters and visits system,'' has been a popular mechanism 
outside of the formal legal system for citizens to present 
their grievances to authorities, either in writing or in 
person.\61\ The petitioning system reportedly has been 
ineffective in addressing citizens' grievances due to factors 
such as the large number of petitions,\62\ the limited 
authority of local xinfang offices,\63\ shortcomings in the 
accountability system,\64\ and corruption.\65\
    Chinese authorities experimented with measures to 
streamline the petitioning system that one scholar said may 
produce limited benefits. The State Bureau of Letters and 
Visits (the central-level government agency responsible for 
overseeing the petitioning system) expanded the online 
petitioning platform,\66\ and central and local authorities 
formalized the reform of categorizing petition matters for the 
purpose of diverting certain cases to administrative or 
judicial resolution mechanisms.\67\ One China-based scholar 
pointed out, however, that many petitioners from rural areas 
are unfamiliar with the online interface, and that adding a way 
of submitting petitions does not in itself enhance the 
petitioning system's capacity to resolve disputes.\68\ In 
addition, the scholar noted that petitioners are not legally 
bound to use other methods to seek remedies, particularly when 
doing so would require increased cost and time.\69\
    During this reporting year, petitioners continued to face 
official repression. Authorities detained petitioners, alleging 
criminal or administrative offenses including ``disrupting 
order in a public place,'' \70\ ``picking quarrels and 
provoking trouble,'' \71\ and ``obstructing official 
business.'' \72\ In addition, authorities reportedly detained 
petitioners in the period leading up to and during the 19th 
National Congress of the Chinese Communist Party in October 
2017,\73\ and the annual meetings of the National People's 
Congress and Chinese People's Political Consultative Conference 
in March 2018.\74\

                               Legal Aid

    The legal aid system remained a state-controlled 
institution. State Council regulations specify that justice 
bureaus of local governments appoint legal aid organizations 
and administer legal aid programs through them.\75\ Legal aid 
organizations may assign eligible applicants to in-house 
lawyers or make referrals to law firms, grassroots legal 
services, or other social organizations.\76\ Lawyers are 
legally obligated to provide legal aid services and may be 
disciplined or fined for refusing to do so.\77\
    While the government continued to expand the legal aid 
system, it further tightened the space for legal aid services 
not administered by the government. The Ministry of Justice 
spent 2.12 billion yuan (approximately US$320 million) on legal 
aid programs during 2016, representing a 12.1 percent annual 
increase.\78\ It further stated that the majority of 
provincial-level governments lowered the eligibility standard 
and expanded the scope of legal aid by covering civil matters, 
such as employment, family, food and drugs, education, and 
healthcare.\79\ In January 2018, the All China Lawyers 
Association (ACLA), which is the national bar association \80\ 
that works under the Ministry of Justice's direction,\81\ 
issued a set of trial rules prohibiting lawyers from accepting 
cases at discounted rates or without fees, except for legal aid 
cases.\82\ A China-based lawyer said he was concerned that the 
provision would prevent lawyers from providing pro bono legal 
services to disadvantaged individuals in cases of significant 
interest to the public.\83\

                        Judicial Reform Efforts

    Government and Party-directed reform efforts \84\ have 
focused on improving the judiciary's capacity to process cases, 
while requiring that the judiciary remain an instrument of the 
Chinese Communist Party. In November 2017, Supreme People's 
Court (SPC) President Zhou Qiang reported to the National 
People's Congress Standing Committee that the judiciary made 
progress in completing or setting into motion judicial reform 
objectives--such as judicial responsibility and case opening 
reforms--laid out by the 18th Central Committee in 2013 and in 
the Third and Fourth Plenum Decisions in 2014.\85\ Some legal 
experts observed that, rather than removing obstacles to 
delivering justice,\86\ judicial reform efforts have focused on 
technically improving the efficiency \87\ of the legal system, 
which central authorities continue to use as ``a mechanism to 
constrain local-level functionaries . . . and repress dissent . 
. ..'' \88\

                  JUDICIAL APPOINTMENT AND MANAGEMENT

    This past year, Chinese lawmakers deliberated legislative 
amendments in an effort to formalize reforms of the judicial 
appointment and management system.\89\ The draft amendment of 
the PRC Organic Law of People's Courts provides that 
appointment of judges is subject to a quota assigned by the SPC 
based on the locality's population size, caseload, and other 
measurable factors.\90\ Candidates would also undergo a merit-
based selection process to qualify as judges.\91\ The draft 
amendment of the PRC Judges Law raises the education threshold 
and generally requires prior judicial experience for promotion 
to higher courts.\92\ Despite emphasis on merit-based 
considerations, ``high political quality'' remained a selection 
requirement.\93\

                           PEOPLE'S ASSESSORS

    The National People's Congress Standing Committee (NPCSC) 
passed new legislation to improve lay participation in courts 
during this reporting year, though some observers said that 
pilot versions of this reform had been ineffective. People's 
assessors, who do not need to be legally trained, participate 
in case adjudication alongside judges.\94\ The previous system 
reportedly suffered from problems such as insufficient rotation 
of people's assessors and lack of genuine participation, with 
one expert referring to people's assessors as ``decoration.'' 
\95\ In April 2018, the NPCSC passed the PRC People's Assessors 
Law,\96\ following nearly three years of pilot programs in 10 
jurisdictions.\97\ The new law requires that most people's 
assessors be randomly selected, and it expands the current 
three-person panels to seven-person panels in certain types of 
cases, such as those involving food and drug safety, land 
expropriation, and environmental protection.\98\ Some China-
based scholars said that the random selection mechanism was the 
right step forward; some observed, however, that the pilot 
programs did not improve actual participation by people's 
assessors in case adjudication.\99\

                           USE OF TECHNOLOGY

    The judiciary used technology to facilitate court 
proceedings and enforcement, which are elements of access to 
justice.\100\ In November 2017, Zhou Qiang reported that over 
2,200 courts across China established Web-based litigation 
services, enabling litigants to complete transactions online, 
for example, to open a case, pay fees, examine evidence, and 
make court appearances.\101\ In addition, in August 2017, the 
Supreme People's Court implemented a Party-
approved plan to establish the first ``internet court'' to 
handle litigation entirely online in certain internet-related 
disputes.\102\ Zhu Shenyuan, Vice President of the Zhejiang 
Province High People's Court, explained that the cross-
jurisdictional and decentralized nature of online transactions 
presented challenges to the judicial system.\103\ A scholar 
observed that the internet court could help litigants save on 
travel expenses and reduce overall litigation costs.\104\ In 
July 2018, Zhou Qiang convened a Supreme People's Court 
Judicial Reform Leading Small Group meeting during which an 
agenda for establishing additional internet courts in Beijing 
municipality and Guangdong province was passed.\105\
    Zhou Qiang further reported that the judiciary's online 
enforcement system was linked to the databases of over 10 
government bodies, enabling it to track down judgment debtors' 
property for the purpose of enforcement.\106\ According to 
Zhou, judgment debtors' information also was shared with the 
developing social credit system, which authorities could use to 
tighten social control, according to some observers.\107\ [For 
more information on potential abuses of the social credit 
system, see Section III--Institutions of Democratic Governance 
and Commercial Rule of Law and Human Rights.]
    In February 2018, the Supreme People's Court issued 
provisions requiring courts, beginning in September, to use a 
unified online platform to disclose various stages of the 
litigation process, including case opening, process service, 
hearing date, and issuance of court documents.\108\ Other 
aspects of the Supreme People's Court's efforts to improve 
disclosure of information included new online platforms for 
judicial documents and status of enforcement.\109\


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice
    Notes to Section III--Access to Justice

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2, 14, 26; Universal Declaration of Human 
Rights, adopted and proclaimed by UN General Assembly resolution 217A 
(III) of 10 December 48, arts. 7-8; Basic Principles on the 
Independence of the Judiciary, adopted by the Seventh United Nations 
Congress on the Prevention of Crime and the Treatment of Offenders held 
at Milan from 26 August to 6 September 1985 and endorsed by General 
Assembly resolutions 40/32 of 29 November 1985 and 40/146 of 13 
December 1985, arts. 1, 4; Basic Principles on the Role of Lawyers, 
Adopted by the Eighth United Nations Congress on the Prevention of 
Crime and the Treatment of Offenders, Havana, Cuba, 27 August to 7 
September 1990, preamble.
    \2\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, 11 March 18, art. 128.
    \3\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 9 March 18.
    \4\ ``Resume of Supreme People's Court President'' [Zuigao renmin 
fayuan yuanzhang jianli], Xinhua, 18 March 18.
    \5\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 9 March 18, sec. 8.
    \6\ Chen Zhong, ``Thoughts on Strengthening and Improving 
Organizational Party Building Work'' [Jiaqiang he gaijin jiguan 
dangjian gongzuo de sikao], People's Daily, 26 October 11; Chinese 
Communist Party Constitution, adopted 6 September 82, amended 1 
November 87, 18 October 92, 18 September 97, 14 November 02, 21 October 
07, 14 November 12, 24 October 17, art. 18. Zhou also stated in the 
2017 SPC work report the judiciary's submission to the Party's direct 
supervision for ideological conformity. ``Supreme People's Court Work 
Report'' [Zuigao renmin fayuan gongzuo baogao], 9 March 18, sec. 8.
    \7\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 9 March 18, sec. 8; Zhang Hao, ``Firmly Upholding 
Party's Absolute Leadership Over People's Courts'' [Jianchi dang dui 
renmin fayuan de juedui lingdao], Legal Daily, 4 January 18.
    \8\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 9 March 18; ``CCP Central Committee and State Council 
Issued `Circular on Specialized Struggle To Eliminate Darkness and 
Evil' '' [Zhonggong zhongyang guowuyuan fachu ``guanyu kaizhan saohei 
chu'e zhuanxiang douzheng de tongzhi''], Xinhua, 24 January 18.
    \9\ See, e.g., Lin Yuanqin and Su Gongxin, ``Jiangsu Acts Upon 
Hearing Order To Eliminate Darkness and Evil'' [Saohei chu'e jiangsu 
wenling erdong], Xinhua Daily, 15 February 18; Du Yuquan, ``Sichuan 
Announced Ten Main Targets in Elimination of Darkness and Evil'' 
[Sichuan gongbu shi lei saohei chu'e zhongdian daji duixiang], Chengdu 
Economic Daily, 14 February 18; ``Political Security Tops List of 12 
Targeted Groups in `Elimination of Darkness and Evil' '' [``Dahei 
chu'e'' 12 lei zhongdian zhengquan anquan jushou], Radio Free Asia, 21 
February 18.
    \10\ ``China Focus: Fight Against Organized Crime Reflects Xi's 
Governance Thought,'' Xinhua, 27 January 18.
    \11\ `` `Elimination of Darkness and Evil' Campaign Well Underway, 
Huge Disparity Between Recovered Ill-Gotten Money and Number of People 
Detained Raises Suspicion'' [``Sao hei chu e'' yundong ruhuo rutu 
zangkuan yu bei bu renshu xuanshu shou zhiyi], Radio Free Asia, 7 
February 18; ``New China `Crime' Crackdown Targets Threats to Party 
Rule,'' Associated Press, reprinted in Voice of America, 15 March 18; 
``Thousands Arrested in Elimination of Darkness and Evil Struggle in 
China, Shandong's Order to Local Authorities Raises Controversy'' 
[Zhongguo saohei chu'e douzheng shuqian ren beibu shandong gei jiceng 
xia zhibiao yin zhengyi], BBC, 9 February 18. See also James T. Areddy, 
``Xinjiang Arrests Nearly Doubled in '14, Year of `Strike-Hard' 
Campaign,'' Wall Street Journal, China Real Time Report (blog), 23 
January 15; Sharon LaFraniere and Jonathan Ansfield, ``Crime Crackdown 
Adds to Scandal Surrounding Former Chinese Official,'' New York Times, 
26 March 12; Philip P. Pan, ``China Strikes Hard at Criminals, 
Dissidents,'' Washington Post, 11 May 01.
    \12\ Cai Changchun, ``Lawyers Must Actively Participate in Struggle 
To Eliminate Darkness and Evil and To Lawfully Commence Defense 
Representation Work in Cases Involving Dark Forces'' [Lushi yao jiji 
canyu saohei chu'e zhuanxiang douzheng yifa kaizhan shexian hei'e shili 
fanzui anjian bianhu daili], Legal Daily, 1 February 18.
    \13\ Ibid.
    \14\ ``All China Lawyers Association Established Elimination of 
Darkness and Evil Committee, Profession Worries Officials Will Control 
Defense'' [Quanguo luxie chengli saohei yewu weiyuanhui yejie you 
guanfang caokong bianhu], Radio Free Asia, 5 February 18.
    \15\ See, e.g., Josh Chin and Te-Ping Chen, ``China Targets Human-
Rights Lawyers in Crackdown,'' Wall Street Journal, 12 July 15; Human 
Rights Watch, ``China: Secretly Detained Lawyers at Risk of Torture,'' 
20 July 15; Huang Qingchang and Zou Wei, ``Revealing the Dark Secrets 
of `Rights Defense' Incidents'' [Jiekai ``weiquan'' shijian de heimu], 
Xinhua, 11 July 15.
    \16\ China Human Rights Lawyers Concern Group, ``List of 42 Lawyers 
and Citizens Whose Cases Entered Criminal Prosecution Process'' [42 ge 
jinru xingshi susong chengxu de lushi ji gongmin liebiao], 21 February 
18.
    \17\ Ibid.; Lawyers' Rights and Interests Concern Net, ``Lawyers 
Xie Yang and Lin Qilei's Request To Meet Wang Quanzhang Denied'' [Xie 
yang he lin qilei lushi yaoqiu huijian wang quanzhang bei jujue], 20 
April 18.
    \18\ UN Human Rights Council, ``Tentative Timetable for the 31st 
Session of the UPR Working Group (5-16 November 2018),'' last visited 
on 18 May 18.
    \19\ See, e.g., Human Rights in China, ``Stakeholder Submission by 
Human Rights in China,'' March 2018, para. 3; Lawyers' Rights Watch 
Canada, ``Joint Submission to the 31st Session of the Universal 
Periodic Review of China,'' March 2018, paras. 12-22; Front Line 
Defenders, ``Submission for Universal Periodic Review for the 31st 
session (November 2018),'' 1 April 18.
    \20\ Guo Baosheng, ``Guo Baosheng: Lawyer Jiang Tianyong as I Know 
Him'' [Guo baosheng: wo suo renshi de jiang tianyong lushi], Human 
Rights in China Biweekly, No. 205, 17 March 17. For more information on 
Jiang Tianyong, see the Commission's Political Prisoner Database record 
2011-00179.
    \21\ Cai Changchun, ``Jiang Tianyong Publicly Sentenced at Changsha 
Intermediate Court in Inciting Subversion of State Power Case'' [Jiang 
tianyong shandong dianfu guojia zhengquan an zai changsha zhong yuan 
yishen gongkai xuanpan], Legal Daily, 21 November 17.
    \22\ Ibid.
    \23\ Chinese Human Rights Defenders, ``Xie Yang,'' 6 September 16. 
For more information on Xie Yang, see the Commission's Political 
Prisoner Database record 2015-00295.
    \24\ Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie Yang 
(One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in Rights 
Defense Network, 19 January 17; Chen Jian'gang, ``Record of Meeting 
With Hunan Lawyer Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu 
(er)], reprinted in Rights Defense Network, 19 January 17.
    \25\ Josh Chin, ``China Court Says Lawyer Retracts Torture Charge; 
Wife Calls Trial a Farce,'' Wall Street Journal, 8 May 17.
    \26\ Zeng Yan, ``Public Announcement of First Instance Trial 
Judgment in Case of Inciting To Subvert State Power Charge Against Xie 
Yang'' [Xie yang shandong dianfu guojia zhengquan an yishen gongkai 
xuanpan], People's Court Daily, 27 December 17.
    \27\ Rights Defense Network, ``Lawyer Xie Yang's Wife Chen Guiqiu: 
Reporting to President Xi Jinping--Lawyer Xie Yang Illegally Prevented 
From Crossing Border, Hope You Will Give Him Special Help'' [Xie yang 
lushi qizi chen guiqiu: xiang xi jinping zhuxi huibao--xie yang lushi 
bei feifa bianjing kongzhi qidai nin de tebie bangzhu], 1 May 18.
    \28\ ChinaAid, ``Case File Handled by Lawyer Xie Yang Photocopied, 
Chen Guiqiu Intends To Establish Hunan Overseas Report Center'' [Lushi 
xie yang daili anjuan bei kaobei chen guiqiu ni chengli hunan haiwai 
jubao zhongxin], 9 May 18.
    \29\ Chinese Human Rights Defenders, ``Wu Gan,'' 11 March 16. For 
more information on Wu Gan, see the Commission's Political Prisoner 
Database record 2010-00348.
    \30\ Liu Lan, ``Public Announcement of First Instance Judgment in 
Case of Inciting To Subvert State Power Charge Against Wu Gan'' [Wu gan 
dianfu guojia zhengquan an yishen gongkai xuanpan], People's Court 
Daily, 27 December 17.
    \31\ ``Court of Second Instance in Tufu's Case Upholds Original 
Decision of Eight-Year Sentence'' [Tufu ershen weichi banian tuxing 
yuanshen caijue], Radio Free Asia, 17 April 18.
    \32\ ``Second Instance Hearing on Wu Gan's Case Soon To Be Held, 
Father Xu Xiaoshun Placed Under Soft Detention'' [Wu gan an er shen 
jiang kaiting fuqin xu xiaoshun bei ruanjin], Radio Free Asia, 16 April 
18; ``Court of Second Instance in Tufu's Case Upholds Original Decision 
of Eight-Year Sentence'' [Tufu ershen weichi banian tuxing yuanshen 
caijue], Radio Free Asia, 17 April 18.
    \33\ Chinese Human Rights Defenders, ``Wang Quanzhang,'' 22 January 
16. For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \34\ Lawyers' Rights and Interests Concern Net, ``Lawyers Xie Yang 
and Lin Qilei's Request To Meet Wang Quanzhang Denied'' [Xie yang he 
lin qilei lushi yaoqiu huijian wang quanzhang bei jujue], 20 April 18.
    \35\ Rights Defense Network, ``Fengrui Director Lawyer Zhou 
Shifeng, Lawyer Wang Quanzhang, and Intern Lawyer Li Shuyun of the 709 
Crackdown Arrested on Suspicion of `Subverting State Power' '' [709 
dazhuabu shijian zhong fengrui suo zhuren zhou shifeng lushi, wang 
quanzhang lushi, shixi lushi li shuyun bei yi shexian ``dianfu guojia 
zhengquan zui'' pizhun daibu], 12 January 16.
    \36\ Lawyers' Rights and Interests Concern Net, ``Lawyers Xie Yang 
and Lin Qilei's Request To Meet Wang Quanzhang Denied'' [Xie yang he 
lin qilei lushi yaoqiu huijian wang quanzhang bei jujue], 20 April 18; 
Joanna Chiu, ``1,000 Days on, Wife of `Vanished' Chinese Lawyer Wang 
Quanzhang Marches 100 km for Answers,'' Agence France-Presse, reprinted 
in Hong Kong Free Press, 5 April 18; Xiao Shan, ``New Episode in 
Stability Maintenance: Chaoyang Aunties Participate in the Stability 
Maintenance Surveillance and Confinement of Li Wenzu'' [Weiwen xin 
xianxiang: chaoyang dama canyu jiankong weiwen li wenzu], Radio France 
Internationale, 11 April 18.
    \37\ Xiao Shan, ``New Episode in Stability Maintenance: Chaoyang 
Aunties Participate in the Stability Maintenance Surveillance and 
Confinement of Li Wenzu'' [Weiwen xin xianxiang: chaoyang dama canyu 
jiankong weiwen li wenzu], Radio France Internationale, 11 April 18; 
Rights Defense Network, ``Li Wenzu: Situation Bulletin on My Second Day 
of Soft Detention (April 11, 2018)'' [Li wenzu: wo zao ruanjin dier 
tian qingkuang tongbao (2018 nian 4 yue 11 ri)], 11 April 18.
    \38\ For more information on Li Yuhan, see the Commission's 
Political Prisoner Database record 2017-00361.
    \39\ Chinese Human Rights Defenders, ``Li Yuhan,'' 6 December 17.
    \40\ ``Arrest for `709 Case' Lawyer Li Yuhan Approved, What on 
Earth Is `Picking Quarrels and Provoking Trouble?' '' [``709 an'' lushi 
li yuhan bei pibu ``xunxin zishi'' shige shenme gui?], Radio Free Asia, 
16 November 17; ``China Rights Lawyer Arrested, Outside World Suspects 
Deliberate Retaliation'' [Zhongguo weiquan lushi beidaibu waijie zhiyi 
xuyi baofu], Voice of America, 16 November 17; Human Rights Campaign in 
China, ``Detained for Picking Quarrels and Provoking Trouble by the 
Heping Branch of the Shenyang Public Security Bureau, Lawyer Li Yuhan 
Tortured by Police Handling the Case'' [Bei shenyang shi gong'anju 
heping fenju yi xunxin zishi zui jiya de li yuhan lushi zao ban'an 
jingcha nuedai], 10 November 17; Rights Defense Network, ``Li Yuhan's 
Lawyers Li Boguang and Lin Qilei File Complaint for Subjecting Her to 
Torture and Abuse in Prison'' [Li yuhan daili lushi li boguang lin 
qilei jiu bei qi bei xingxun bigong yu zhong nuedai tiqi konggao], 11 
December 17.
    \41\ ``Arrest for `709 Case' Lawyer Li Yuhan Approved, What on 
Earth Is `Picking Quarrels and Provoking Trouble?' '' [``709 an'' lushi 
li yuhan bei pibu ``xunxin zishi'' shige shenme gui?], Radio Free Asia, 
16 November 17; ``China Rights Lawyer Arrested, Outside World Suspects 
Deliberate Retaliation'' [Zhongguo weiquan lushi beidaibu waijie zhiyi 
xuyi baofu], Voice of America, 16 November 17; Human Rights Campaign in 
China, ``Detained for Picking Quarrels and Provoking Trouble by the 
Heping Branch of the Shenyang Public Security Bureau, Lawyer Li Yuhan 
Tortured by Police Handling the Case'' [Bei shenyang shi gong'anju 
heping fenju yi xunxin zishi zui jiya de li yuhan lushi zao ban'an 
jingcha nuedai], 10 November 17.
    \42\ For more information on Wang Yu, see the Commission's 
Political Prisoner Database record 2015-00252.
    \43\ ``Fraud Charge Added Against Li Yuhan, Son Criticizes Move as 
Attempt To Use Different Ways To Imprison Mother'' [Li yuhan bei 
jiakong zhapian zui er pi xiangfang shefa yao mu ruyu], Radio Free 
Asia, 15 March 18.
    \44\ Ma Xiao, ``Ma Xiao: Investigation on the Lives of Mainland 
China Political Prisoners: Human Rights Lawyer Yu Wensheng (1 of 2)'' 
[Ma xiao: zhongguo dalu zhengzhifan beiqiu shengya jishi diaocha: 
renquan lushi yu wensheng (shang)], Minzhu Zhongguo, 27 August 15; Ma 
Xiao, ``Ma Xiao: Investigation on the Lives of Mainland China Political 
Prisoners: Human Rights Lawyer Yu Wensheng (2 of 2)'' [Ma xiao: 
zhongguo dalu zhengzhifan beiqiu shengya jishi diaocha: renquan lushi 
yu wensheng (xia)], Minzhu Zhongguo, 6 September 15. For more 
information on Yu Wensheng, see the Commission's Political Prisoner 
Database record 2014-00387.
    \45\ Civil Rights & Livelihood Watch, ``Beijing Lawyer Yu Wensheng 
Formally Criminally Detained Today'' [Beijing lushi yu wensheng jin 
zhengshi bei xingshi juliu], 20 January 18; Lawyers' Rights and 
Interests Concern Net, ``Police Says Yu Wensheng Terminated 
Representation by Two Defense Lawyers Xie Yang and Chang Boyang, Xu Yan 
Meets With Yu Wensheng'' [Jingcha chuanchu yu wensheng jiechu xie yang 
he chang boyang er wei bianhuren xu yan jianguo yu wensheng], 23 April 
18.
    \46\ ``Yu Wensheng, Lawyer in `709 Case,' Had License Revoked by 
Beijing Municipal Justice Bureau'' [``709 an'' daili lushi yu wensheng 
zao beijingshi sifa ju diaoxiao zhizhao], Radio Free Asia, 16 January 
18.
    \47\ Yu Wensheng (yuwensheng), Twitter post, 17 January 18, 10:50 
a.m.
    \48\ Lawyers' Rights and Interests Concern Net, ``Police Says Yu 
Wensheng Terminated Representation by Two Defense Lawyers Xie Yang and 
Chang Boyang, Xu Yan Meets With Yu Wensheng'' [Jingcha chuanchu yu 
wensheng jiechu xie yang he chang boyang er wei bianhuren xu yan 
jianguo yu wensheng], 23 April 18.
    \49\ Lawyers' Rights and Interests Concern Net, ``Police Says Yu 
Wensheng Terminated Representation by Two Defense Lawyers Xie Yang and 
Chang Boyang, Xu Yan Meets With Yu Wensheng'' [Jingcha chuanchu yu 
wensheng jiechu xie yang he chang boyang er wei bianhuren xu yan 
jianguo yu wensheng], 23 April 18.
    \50\ ``Yu Wensheng's Family Affected by His Matter, Wife Xu Yan 
Planned To Visit Hong Kong but Denied Exit'' [Yu wensheng shijian 
zhulian jiaren qi xu yan ni dao xianggang zaoju chujing], Radio Free 
Asia, 24 February 18; ``Yu Wensheng's Wife Xu Yan Summoned Again on 
Grounds of `Inciting Subversion Crime' '' [Yu wensheng qizi xu yan zai 
bei yi shexian ``shan dian zui'' chuanhuan], Radio Free Asia, 1 April 
18.
    \51\ ``Lawyer Zhu Shengwu's License Revoked, Law Firm Faces 
Closure'' [Zhu shengwu lushi bei chupai lusuo mianlin guanbi], Radio 
Free Asia, 22 November 17; ``Guangdong Justice Bureau Attacks Without 
Warning, Rights Lawyer Sui Muqing's License Revoked'' [Guangdong 
sifating wu yujing tuxi weiquan lushi sui muqing zao diaozhao], Radio 
Free Asia, 23 January 18.
    \52\ ``License Revoked, Rights Lawyer Chen Jiahong Not Optimistic 
About License Reinstatement'' [Zao tingpai weiquan lushi chen jiahong 
dui fupai bu leguan], Radio Free Asia, 30 November 17; Guangxi Lawyers 
Association, ``Circular Concerning the Implementation of Administrative 
Punishment on Guangxi Baijuming Law Firm and Its Lawyer, Chen Jiahong'' 
[Guanyu dui guangxi baijuming lushi shiwusuo ji gai suo chen jiahong 
lushi shishi xingzheng chufa de qingkuang tongbao], 15 September 17.
    \53\ Liu Xiaoyuan, Rights Defense Network, ``Lawyer Liu Xiaoyuan: I 
Have Been Unemployed for Over 2 Years Because of the 709 Case'' [Liu 
xiaoyuan lushi: yin 709 an wo bei shiye 2 nian duo le!], 8 September 
17.
    \54\ ``Defense Lawyers Expelled From Shenzhen Courthouse, 
`Protecting Lawyers' Rights' Becomes Empty Talk'' [Bianhu lushi zao 
zhuchu shenzhen fayuan ``baozhang lushi quanyi'' cheng kongtan], Radio 
Free Asia, 21 September 17; Rights Defense Network, ``Ganzhou 
Intermediate People's Court in Jiangxi Barred Retained Lawyer Chi 
Susheng From Making Appearance in Ming Jingguo Case'' [Jiangxi 
ganzhoushi zhongji fayuan jing bu yunxu ming jingguo an weituo lushi 
chi susheng chuting], 16 November 17.
    \55\ ``Chen Jian'gang Under [Authorities'] Control While in Xiamen 
Handling Case, Movement Again Restricted After Release'' [Chen 
jian'gang dao xiamen ban'an shoukong huoshi hou xingdong zai shou 
zu'nao], Radio Free Asia, 5 September 17; ``Disbarred Lawyer Tang 
Jitian Prohibited From Leaving Country En Route to Hong Kong for 
Medical Treatment'' [Bei diaoxiao zhizhao lushi tang jitian fu gang 
zhibing bei jinzhi chujing], Radio Free Asia, 12 November 17.
    \56\ ``Guangdong Lawyers Association Issues New Rule To Restrict 
Lawyers' Online Speech'' [Guangdong luxie xin gui xianzhi lushi wangluo 
yanlun], Radio Free Asia, 3 August 18.
    \57\ Lawyers' Rights and Interests Concern Net, ``Experienced 
Female Attorney Assaulted and Injured by Court Police When Handling 
Case in Xi'an Court, No Results After Six Months of Rights Defense'' 
[Zishen nu lushi zai xi'an fayuan luzhi bei fajing dashang weiquan 
liuge duo yue wu guo], 21 November 17; Civil Rights & Livelihood Watch, 
``Rights Defense Lawyer Lu Tingge Assaulted by Court Police in Huili 
County, Sichuan, Hospitalized'' [Weiquan lushi lu tingge zai sichuan 
huili xian zao fajing ouda ruyuan], 17 November 17.
    \58\ See, e.g., ``[Prelude to Crackdown?] Law Firm of Well-Known 
Rights Lawyer Mo Shaoping Subjected to Thorough PSB-Led Inspection'' 
[[Daya qianzou?] zhuming weiquan lushi mo shaoping shiwusuo zao gong'an 
daidui checha], Apple Daily, 18 September 17; ``Law Firm of Rights 
Lawyer Mo Shaoping, Who Previously Represented Liu Xiaobo and Pu 
Zhiqiang, Suddenly Subjected to `Special Inspection' '' [Ceng wei liu 
xiaobo, pu zhiqiang bianhu weiquan lushi mo shaoping shiwusuo tuzao 
``zhuanxiang jiancha''], Stand News, 19 September 17; ``Multiple 
Beijing Agencies Formally Station [Themselves] in Daoheng Law Firm To 
Conduct Special Inspection'' [Beijing duoge bumen zhengshi jinzhu 
daoheng lusuo zhankai zhuanxiang jiancha], Radio Free Asia, 19 
September 17.
    \59\ Human Rights Watch, ``China: Justice Ministry Pressures Law 
Firms,'' 19 September 17; ``Many Law Firms in China Inspected, Might Be 
Linked to Stability Maintenance for the 19th Party Congress'' [Zhongguo 
duojia lusuo bei cha, yi yu 19 da weiwen youguan], Voice of America, 22 
September 17; ``Multiple Beijing Agencies Formally Station [Themselves] 
in Daoheng Law Firm To Conduct Special Inspection'' [Beijing duoge 
bumen zhengshi jinzhu daoheng lusuo zhankai zhuanxiang jiancha], Radio 
Free Asia, 19 September 17.
    \60\ ``Many Law Firms in China Inspected, Might Be Linked to 
Stability Maintenance for the 19th Party Congress'' [Zhongguo duojia 
lusuo bei cha, yi yu 19 da weiwen youguan], Voice of America, 22 
September 17; ``Multiple Beijing Agencies Formally Station [Themselves] 
in Daoheng Law Firm To Conduct Special Inspection'' [Beijing duoge 
bumen zhengshi jinzhu daoheng lusuo zhankai zhuanxiang jiancha], Radio 
Free Asia, 19 September 17; Human Rights Watch, ``China: Justice 
Ministry Pressures Law Firms,'' 19 September 17; ``Law Firms in 
Guangdong, Guangxi, Chongqing, and Yunnan Forced To Suspend Operations 
Due to Inspections, Rights Defense Lawyers Worry Another Wave of 
Suppression'' [Yue gui yu dian lusuo shoucha yao tingye weiquan lushi 
you lingyi bo daya], Radio Free Asia, 22 September 17; ``Law Firm of 
Well-Known Chinese Rights Lawyer Mo Shaoping Searched Unexpectedly'' 
[Zhongguo zhiming weiquan lushi mo shaoping shiwusuo tu zao sousuo], 
Apple Daily, 18 September 17.
    \61\ State Council, Regulations on Letters and Visits [Xinfang 
tiaoli], issued 5 January 05, effective 1 May 05; Benjamin L. Liebman, 
``A Populist Threat to China's Courts? '' in Chinese Justice: Civil 
Dispute Resolution in Contemporary China, eds. Margaret Y.K. Woo and 
Mary E. Gallagher (Cambridge: Cambridge University Press, 2011), 269-
313; Liang Shibin, ``Resolutely Fight To Win the Battle on Clearing 
Backlog of Petitioning Cases'' [Jianjue da ying huajie xinfang ji'an 
gong jian zhan], Legal Daily, 27 April 16. Such grievances reportedly 
include cases concerning demolition or expropriation of property, 
social security, agriculture, land and resources, and environmental 
protection.
    \62\ See, e.g., Civil Rights & Livelihood Watch, ``Beijing's State 
Bureau of Letters and Visits Surrounded by Tens of Thousands of 
Petitioners'' [Beijing guojia xinfangju bei shuwan shangfang minzhong 
baowei], 26 February 18; ``Over Ten Thousand Temporary Teachers From 29 
Provinces and Municipalities Caused Another National Group Petitioning 
Movement'' [29 shengshi yu wan ming minban jiaoshi zai xian quanguo 
jiti shangfang chao], Radio Free Asia, 19 October 16; ``Two Thousand 
Petitioners From Shaanxi Went Petitioning at Provincial Letters and 
Visits Bureau, Ask for Release of Rights Defense Representative'' 
[Shaanxi liangqian min shi sheng xinfangju shangfang yaoqiu shifang 
weiquan daibiao], Radio Free Asia, 13 April 17.
    \63\ See, e.g., Liu Yuguo, ``Chengdu Establishes a New Platform for 
`Sunshine Petitioning' '' [Chengdu dazao ``yangguang xinfang'' xin 
pingtai], People's Daily, 4 May 16; Liu Guiying, ``Problems and 
Improvements of the Grassroots Petitioning System'' [Jiceng xinfang 
zhidu cunzai de wenti ji wanshan], People's Tribune, 23 March 16; Xu 
Dandan, ``Discussion of Shortcomings of China's Petitioning System and 
Their Solutions'' [Qiantan zhongguo xinfang zhidu de biduan ji qi 
jiejue tujing], Feiyang Net, 27 February 16.
    \64\ State Bureau of Letters and Visits, ``State Bureau of Letters 
and Visits Convenes Press Conference To Explain `Implementing Measures 
on Letters and Visits Accountability System' '' [Guojia xinfang ju 
zhaokai xinwen tongqi hui jiedu ``xinfang gongzuo zerenzhi shishi 
banfa''], 26 October 16.
    \65\ See, e.g., ``Recording From Meeting To Maintain Social 
Stability Leaked, Identifies Petitioners as `Opposing the Party and 
Government' '' [Weiwen huiyi luyin waixie dingxing shangfang shi ``fan 
dang fan zhengfu'' xingwei], Radio Free Asia, 15 May 18; ``China's 
Ruling Party in Nationwide Operation To Stop People Complaining About 
It,'' Radio Free Asia, 5 March 18; Guo Hongmin, ``Record-Deleting 
`Money-Hoarding Syndicate' of State Bureau of Letters and Visits'' 
[Guojia xinfangju de xiaohao ``liancai tuan''], Prosecutorial View, 2 
May 17.
    \66\ Bai Yang, ``Nationwide Online Petitioning in 2017 Increased by 
Nearly 80 Percent in 2017'' [2017 nian quanguo wangshang xinfang tongbi 
shangsheng jin 8 cheng], Xinhua, 24 January 18.
    \67\ Liang Shibin, ``Handling Petition Matters by Categories 
Completely Rolled Out'' [Fenlei chuli xinfang jizhi quanmian luodi], 
Legal Daily, 9 January 18; Liang Shibin, ``27 Provinces Issues Rules 
for Handling Petitions by Categories'' [27 sheng chutai xinfang suqiu 
fenlei chuli guicheng], Legal Daily, 10 September 17; State Bureau of 
Letters and Visits, Workflow Procedures for Lawfully Handling Petition 
Matters by Categories [Yifa fenlei chuli xinfang suqiu gongzuo guize], 
issued and effective 12 July 17.
    \68\ Lu Chao, ``Paradox of Reform on Formalizing the Administrative 
Petition System'' [Xingzheng xinfang fazhi hua gaige ji qi zhidu 
beilun], East China University of Political Science and Law Journal, 
No. 2 (2018), 108-09.
    \69\ Ibid., 109-10.
    \70\ See, e.g., ``Detained After Being Reprimanded Three Times for 
Going to Beijing To Petition, Luoyang Zhao Lingzhou Sues Gaoxin Public 
Security'' [Fu jing shangfang xunjie sanci bei juliu, luoyang zhao 
lingzhou qisu gaoxin gong'an], Boxun, 16 September 17.
    \71\ See, e.g., Civil Rights & Livelihood Watch, ``Shandong 
Petitioner Li Yanxian Sentenced to Two and a Half Years for `Picking 
Quarrels and Provoking Trouble' '' [Shandong fangmin li yanxiang 
``xunxin zishi'' panxing liangnian ban], 10 February 18.
    \72\ See, e.g., Rights Defense Network, ``Guo Hongying Detained on 
`Obstructing Official Business' Charge for Seeking Justice for Family, 
Father Guo Yinqi Has Freedom Restricted After Going to Beijing To File 
Complaint'' [Guo hongying ti qinren shenyuan bei ``fanghai gongwu zui'' 
daibu, fuqin guo yinqi jinjing konggao bei xianzhi renshen ziyou], 5 
April 18.
    \73\ See, e.g., ``Petitioners in Beijing Face Examination and 
Detention Before 19th Party Congress'' [Shijiuda qian zai jing fangmin 
zao qingcha zhuabu], Radio Free Asia, 7 September 17; ``Impeccably 
Tight Stability Maintenance in Beijing, Thousand Petitioners Detained 
in One Night'' [Beijing weiwen dishui bulou yiye zhua qianming 
fangmin], Radio Free Asia, 9 October 17; ``High Pressure Stability 
Maintenance During 19th Party Congress, Locating and Detaining 
Petitioners Using Advanced Technology'' [Shijiu da qijian gaoya weiwen 
gaokeji dingwei zhuabu fangmin], Radio Free Asia, 23 October 17.
    \74\ See, e.g., Rights Defense Network, ``Bulletin on Status of 
Rights Defenders From Different Localities Forcibly Disappeared and 
Detained During Two Sessions'' [Lianghui qijian gedi weiquan renshi zao 
qiangpo shizong, juliu qingkuang tongbao], 18 March 18.
    \75\ State Council, Legal Aid Regulations [Falu yuanzhu tiaoli], 
issued 16 July 03, effective 1 September 03, arts. 4-5.
    \76\ State Council, Regulations on the Procedure of Handling Legal 
Aid Cases [Banli falu yuanzhu anjian chengxu guiding], issued 21 
February 12, effective 1 July 12, arts. 8, 13, 20.
    \77\ PRC Lawyers Law [Zhonghua renmin gongheguo lushi fa], passed 
15 May 96, amended 29 December 01, 28 October 07, 26 October 12, 1 
September 17, effective 1 January 18, art. 47(5); State Council, Legal 
Aid Regulations [Falu yuanzhu tiaoli], issued 16 July 03, effective 1 
September 03, art. 28(1); Xiao Xianfu, ``Thoughts on Our Nation's Legal 
Aid System'' [Wo guo falu yuanzhu zhidu yu sikao], Institute of 
International Law, Chinese Academy of Social Sciences, last visited 10 
July 18.
    \78\ Ministry of Justice, ``30 Provinces Cover Civil Matters in 
Legal Aid Services'' [30 ge shengfen jiang minsheng shixiang naru fa 
yuan fanwei], 28 September 17.
    \79\ Ibid.
    \80\ PRC Lawyers Law [Zhonghua renmin gongheguo lushi fa], passed 
28 October 07, effective 1 June 08, amended 26 October 12, 1 September 
17, effective 1 January 18, art. 43.
    \81\ Ibid., art. 4; All China Lawyers Association, ``Introduction 
to the Association,'' [Xiehui jieshao], last visited 5 December 17.
    \82\ All China Lawyers Association, ``Rules on Lawyer Advertising 
(Trial)'' [Zhonghua quanguo lushi xiehui lushi yewu tuiguang xingwei 
guize (shixing)], issued 6 January 18, effective 31 January 18, art. 
10(8). See also Wang Lei, Nanjing Lawyers Association, ``Comprehensive 
Interpretation of Rules on Lawyer Advertising (Trial)'' [``Lushi yewu 
tuiguang xingwei guize (shixing)'' quan jiedu], reprinted in All China 
Lawyers Association, 9 March 18. The article indicates that the 
regulations became effective on January 31, 2018.
    \83\ ``New ACLA Regulation: Lawyers May Not Provide Free Legal 
Service'' [Quanguo lu xie xin gui lushi bude tigong mianfei falu fuwu], 
Radio Free Asia, 12 March 18.
    \84\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, sec. 4; ``Xi 
Stresses Boosting Public Confidence in Judicial System,'' Xinhua, 25 
March 15; Luo Shuzhen, ``Have Strength To Reform and Innovate, Continue 
To Improve Judicial Credibility, Allow the People in Each Judicial Case 
To Have the Feeling of Fair Justice'' [Yongyu gaige chuangxin buduan 
tigao sifa gongxinli rang renmin qunzhong zai mei yi ge sifa anjian 
zhong dou ganshou dao gongping zhengyi], China Court Net, 8 May 15; 
State Council Information Office, ``Progress in China's Human Rights in 
2014,'' reprinted in Xinhua, 8 June 15, sec. IV. Chinese Communist 
Party Central Committee, Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms [Zhonggong zhongyang guanyu quanmian 
shenhua gaige ruogan zhongda wenti de jueding], issued 12 November 13 
sec. 9(31)-(34); Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued October 2013, sec. 
4(1)-(6). For further discussion on the Party's Third and Fourth Plenum 
Decisions, see CECC, 2014 Annual Report, 9 October 14, 157-58; CECC, 
2015 Annual Report, 8 October 15, 267-69.
    \85\ Zhou Qiang, ``Supreme People's Court's Report on Status of 
Comprehensive Deepening of Judicial Reform by People's Court'' [Zuigao 
renmin fayuan guanyu renmin fayuan quanmian shenhua sifa gaige 
qingkuang de baogao], National People's Congress, 1 November 17; 
Chinese Communist Party Central Committee, Decision on Several Major 
Issues in Comprehensively Advancing Governance of the Country According 
to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa zhiguo ruogan 
zhongda wenti de jueding], 28 October 14, sec. 4; Chinese Communist 
Party Central Committee, Decision on Certain Major Issues Regarding 
Comprehensively Deepening Reforms [Zhonggong zhongyang guanyu quanmian 
shenhua gaige ruogan zhongda wenti de jueding], issued 15 November 13 
sec. 9(32)-(34); Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 28 October 13, 
sec. 4(1)-(6). For further discussion on the Party's Third and Fourth 
Plenum Decisions, see CECC, 2014 Annual Report, 9 October 14, 157-158; 
CECC, 2015 Annual Report, 8 October 15, 267-69.
    \86\ Dui Hua Foundation, ``The `Hidden Rules' of China's Criminal 
Justice System,'' Dui Hua Human Rights Journal, 6 July 17; Stanley 
Lubman, ``China's `New Achievements' in Legal Reform Exist More in 
Policy Than in Practice,'' Asia Society, ChinaFile, 3 August 17.
    \87\ Zheping Huang, ``Xi Jinping Promised Legal Reform in China, 
but Forget About Judicial Independence,'' Quartz, 18 January 17.
    \88\ Susan Trevaskes, ``China's Party-Led Rule-of-Law Regime,'' 
East Asia Forum, 2 October 17.
    \89\ National People's Congress, ``Authoritative Interpretation: 
Perfecting Organization of the `Two Institutions' To Protect Judicial 
Justice'' [Quanwei jiedu: wanshan ``liangyuan'' zuzhi tixi, baozhang 
sifa gongzheng], 1 September 17, item 4; Ding Xiaoxi and Luo Sha, ``Our 
National Plans To Amend Judges Law To Specify Establishment of Judicial 
Selection Committees'' [Woguo ni xiugai faguan fa mingque sheli faguan 
linxuan weiyuanhui], Xinhua, 22 December 17.
    \90\ National People's Congress, ``Authoritative Interpretation: 
Perfecting Organization of the `Two Institutions' To Protect Judicial 
Justice'' [Quanwei jiedu: wanshan ``liangyuan'' zuzhi tixi, baozhang 
sifa gongzheng], 1 September 17, item 4; Supreme People's Court, 
``Judicial Reform of Chinese Courts,'' 3 March 16, sec. VIII.
    \91\ Supreme People's Court, ``Judicial Reform of Chinese Courts,'' 
3 March 16.
    \92\ Ding Xiaoxi and Luo Sha, ``Our Nation Plans To Amend Judges 
Law To Specify Establishment of Judicial Selection Committees'' [Woguo 
ni xiugai faguan fa mingque sheli faguan linxuan weiyuanhui], Xinhua, 
22 December 17.
    \93\ Li Zongcheng, ``Correctly Understanding the Deep Meaning of 
Judicial Appointment Quota System Reform'' [Zhunque bawo faguan yuan'e 
zhi gaige de shenke neihan], People's Court Daily, 10 April 18.
    \94\ PRC People's Assessors Law [Zhonghua renmin gongheguo renmin 
peishenyuan fa], passed and effective 27 April 18, arts. 2, 5; ``China 
Plans To Give `People's Assessors' Bigger Role in Court,'' Xinhua, 26 
April 18. See also Wendy Zeldin, Law Library of Congress, ``China: 
Revisions to Laws on Judges and Prosecutors Proposed,'' Library of 
Congress, Global Legal Monitor, 1 January 18.
    \95\ Wang Qi and Xiong Feng, ``Our Nation's Highest Legislative 
Body Considers for the First Time Draft People's Assessors Law To 
Promote Judicial Democracy'' [Woguo zuigao lifa jiguan shouci shenyi 
renmin peishenyuan fa cao'an tuijin sifa minzhu], Xinhua, 22 December 
17; Centre for Chinese & Comparative Law (RCCL), School of Law, City 
University of Hong Kong, ``Lay Participation in the Chinese Courts,'' 
RCCL Policy Brief Series: No. 1 (January 2017), 1-4.
    \96\ PRC People's Assessors Law [Zhonghua renmin gongheguo renmin 
peishenyuan fa], passed and effective 27 April 18. Yang Buguo, 
``Legislation on People's Assessors System: Let People's Assessors Go 
Beyond Being `Onlooking Assessors' '' [Peishenyuan zhidu lifa: rang 
peishen buzhi ``pei zhao shen''], Beijing News, 24 December 17.
    \97\ National People's Congress Standing Committee, Decision To 
Authorize the Launching of People's Assessors System Reform Pilot 
Programs in Certain Localities [Quanguo renmin daibiao dahui changwu 
weiyuanhui guanyu shouquan zai bufen diqu kaizhan renmin peishenyuan 
zhidu gaige shidian gongzuo de jueding], issued 24 April 15; National 
People's Congress Standing Committee, Decision on Extending the 
People's Assessors System Reform Pilot Program [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu yanchang renmin peishenyuan zhidu gaige 
shidian qixian de jueding], issued 27 April 17.
    \98\ Political Department, Supreme People's Court, ``Expanding 
Judicial Democracy, Promoting Judicial Justice, Actually Combining 
Professional Judgment of Judicial Officers and Straightforward 
Understanding of Common People'' [Kuoda sifa minzhu cujin sifa 
gongzheng shixian sifa zhuanye panduan yu qunzhong pusu renzhi de youji 
tongyi], National People's Congress, 27 December 17. See also Wendy 
Zeldin, Law Library of Congress, ``China: Revisions to Laws on Judges 
and Prosecutors Proposed,'' Library of Congress, Global Legal Monitor, 
1 January 18.
    \99\ Liu Siwei, ``Lack of Actual Adjudication Participation Still 
Needs To Be Solved Two Years After Start of People's Assessors Reform 
Pilot Program'' [Peishen zhidu shidian gaige yi liangnian, pei er bu 
shen nanti rengjiu dai po], Caijing, 10 November 17.
    \100\ Asia-Pacific Rights and Justice Initiative, United Nations 
Development Programme, ``Programming for Justice: Access for All,'' 
2005, 71, 88.
    \101\ Zhou Qiang, ``Supreme People's Court's Report on Status of 
Comprehensive Deepening of Judicial Reform by People's Court'' [Zuigao 
renmin fayuan guanyu renmin fayuan quanmian shenhua sifa gaige 
qingkuang de baogao], National People's Congress, 1 November 17. See 
also He Xin, ``First Attempt by Beijing Court System, Portable Smart 
Platform Enables Handling of Entire Litigation Process Online'' 
[Beijing fayuan xitong de shouci changshi zhang shang zhihui pingtai 
zaixian quan liucheng ban'an], Beijing Morning Post, 11 January 18; Liu 
Xian, ``The Entire Litigation Process Can Be Carried Out Online, 
Chongqing Court's `Easy Litigation' Platform Goes Online'' [Da guansi 
quan liucheng ke wangshang jinxing chongqing fayuan ``yi su'' pingtai 
shangxian], China News, 22 January 18; Ding Xiaoxi, ``SPC's `Smart 
Court Navigation System' Is Online and Operating'' [Zuigao fa ``zhihui 
fayuan daohang xitong'' shangxian yunxing], Xinhua, 5 January 18; Zhang 
Yu and Yin Shen, ``Creating `Internet+' Litigation Service, 
Informatization Shows Distinguished Results'' [Dazao ``hulianwang+'' 
susong fuwu xinxihua yingyong xiaoguo zhuozhu], People's Daily, 7 
February 18; Lu Junyu, ``Three Trends in Informatization in Chinese 
Courts, Smart Court Prototype Completed'' [Zhongguo fayuan xinxihua 
jianshe cheng san ge xin taishi zhihui fayuan chubu jiancheng], Xinhua, 
7 February 18.
    \102\ Xu Juan, ``Internet Court: Litigating `Key to Key' '' 
[Hulianwang fayuan: ``jian dui jian'' da guansi], People's Daily, 6 
September 17; Zhou Qiang, ``Supreme People's Court's Report on Status 
of Comprehensive Deepening of Judicial Reform by People's Court'' 
[Zuigao renmin fayuan guanyu renmin fayuan quanmian shenhua sifa gaige 
qingkuang de baogao], National People's Congress, 1 November 17.
    \103\ Xu Juan, ``Internet Court: Litigating `Key to Key' '' 
[Hulianwang fayuan: ``jian dui jian'' da guansi], People's Daily, 6 
September 17.
    \104\ Ibid.
    \105\ Zhou Bin, ``Conscientiously Perform Preparatory Work for 
Adding Beijing and Guangzhou Internet Courts'' [Qieshi zuo hao zengshe 
beijing guangzhou hulianwang fayuan gongzuo], Legal Daily, 19 July 18.
    \106\ Zhou Qiang, ``Supreme People's Court's Report on Status of 
Comprehensive Deepening of Judicial Reform by People's Court'' [Zuigao 
renmin fayuan guanyu renmin fayuan quanmian shenhua sifa gaige 
qingkuang de baogao], National People's Congress, 1 November 17.
    \107\ Ibid.; Mara Hvistendahl, ``A Revered Rocket Scientist Set in 
Motion China's Mass Surveillance of Its Citizens,'' Science, 14 March 
18; Eva Pils, Human Rights in China (Medford: Polity Press, 2018), 97; 
Simina Mistreanu, ``Life Inside China's Social Credit Laboratory,'' 
Foreign Policy, 3 April 18.
    \108\ Supreme People's Court Provisions on People's Courts' 
Disclosure of Judicial Process Information on the Internet [Zuigao 
renmin fayuan guanyu renmin fayuan tongguo hulianwang gongkai shenpan 
liucheng xinxi de guiding], issued 12 February 18, effective 1 
September 18, arts. 3, 7. See also Laney Zhang, Law Library of 
Congress, ``China: Courts Required To Provide Judicial Process 
Information Through One Online Platform,'' Library of Congress, Global 
Legal Monitor, 31 July 18.
    \109\ Yan Shuai and Song Xinrui, ``Liu Guixiang: Expedite 
Construction of Smart Courts, Promote Modernization of Adjudication 
System and Capabilities'' [Liu guixiang: jiakuai jianshe zhihui fayuan, 
chujin shenpan tixi he shenpan nengli xiandaihua], People's Daily, 23 
April 18.


                                                       Xinjiang
                                                Xinjiang

                              IV. Xinjiang


          Mass Internment in ``Political Reeducation'' Centers

    During the Commission's 2018 reporting year, authorities in 
the Xinjiang Uyghur Autonomous Region (XUAR) intensified an 
integrated state surveillance and security apparatus that 
reportedly targeted members of the region's predominantly 
Muslim ethnic minority populations, resulting in detention and 
severe limits on their freedom of movement,\1\ expression,\2\ 
and religion.\3\ XUAR officials reportedly arbitrarily detained 
Uyghurs, Kazakhs, Kyrgyz, Hui, and others in extrajudicial 
facilities known as ``political reeducation'' centers or 
camps.\4\ Reports from international rights groups, scholars, 
and media organizations indicated that as many as 800,000 to 
1.1 million individuals had been or remained detained at such 
facilities since around April 2017,\5\ after the XUAR People's 
Congress adopted the region's first anti-extremism 
regulations.\6\ U.S.-based scholar Rian Thum noted in August 
2018 that initial estimates of over 1 million detainees were 
based on information observers obtained in early 2018, but that 
Uyghurs, Kazakhs, and others ``have continued to disappear,'' 
and officials have continued to plan the construction of 
additional ``political reeducation'' facilities, making current 
figures potentially higher.\7\ Security personnel reportedly 
detained people in ``reeducation'' facilities based on factors 
such as praying in a certain way or engaging in ``religious 
extremism''; \8\ having ``politically incorrect'' views; \9\ 
wanting to travel abroad; \10\ or having foreign connections, 
such as previous travel abroad or relatives living in another 
country.\11\ Security personnel at these facilities reportedly 
subjected detainees to political indoctrination and forced 
marching; \12\ overcrowding; \13\ poor quality food; \14\ and 
torture,\15\ including in the forms of medical neglect and 
maltreatment,\16\ waterboarding,\17\ sleep deprivation,\18\ 
lack of adequate clothing in cold temperatures,\19\ and other 
forms of abuse.\20\ Extralegal and extrajudicial forms of 
detention violate Article 9 of the Universal Declaration of 
Human Rights \21\ and Article 9(1) of the International 
Covenant on Civil and Political Rights.\22\
    In May 2018, Germany-based scholar Adrian Zenz published 
research documenting the existence of online information posted 
by the Chinese government, including government procurement 
documents and construction bids for ``political reeducation'' 
centers in the XUAR valued at about 680 million yuan 
(approximately US$108 million).\23\ Zenz described how the mass 
detentions of Uyghurs, Kazakhs, and Kyrgyz in ``political 
reeducation'' centers began soon after Chen Quanguo took office 
as XUAR Party Secretary in August 2016, although 
``reeducation'' facilities existed in the XUAR beginning in 
2014.\24\ The bids are for projects involving both the 
construction of new facilities and the addition of security 
elements such as walls, fences, barbed wire, watchtowers, and 
guard rooms to existing facilities; several planned facilities 
were to exceed 10,000 square meters in size.\25\ In August 
2018, Zenz estimated that ``up to 1,300'' ``political 
reeducation'' centers existed throughout the XUAR.\26\ An 
American scholar noted in May 2018 that a bid invitation posted 
on the XUAR Development and Reform Commission website on April 
27 indicated that additional ``reeducation'' facilities were 
being built.\27\ In August, the Wall Street Journal reported it 
had analyzed satellite images, with the help of an expert in 
satellite imagery analysis, which revealed ongoing construction 
of ``reeducation'' facilities in the XUAR, and that one 
facility in Turpan municipality had expanded within the 
previous month.\28\ A Canada-based law student also analyzed 
satellite images that he said showed the existence and 
continued construction of ``political reeducation'' camps.\29\
    International observers expressed alarm over the scope and 
nature of ``political reeducation'' facilities. In written 
testimony presented at a July 2018 Commission hearing, U.S.-
based scholar Rian Thum stated that ``[t]he situation of the 
Uyghurs and Kazakhs in China is an emergency that calls for 
immediate action.'' \30\ At an August review of China's 
compliance with the International Convention on the Elimination 
of All Forms of Racial Discrimination (ICERD) \31\ by the UN 
Committee on the Elimination of Racial Discrimination, 
committee member Gay McDougall said Chinese officials had 
turned the XUAR into ``something resembling a massive 
internment camp, shrouded in secrecy, a sort of no-rights 
zone.'' \32\ The Chinese government has publicly denied the 
existence of facilities used for arbitrary detention in the 
XUAR, with senior Communist Party official Hu Lianhe telling 
the committee: ``The argument that 1 million Uighurs are 
detained in re-education centres is completely untrue . . . 
[t]here are no such things as re-education centers.'' \33\
    A Western researcher and rights advocate presented a case 
that the severity and extent of ``political reeducation'' 
detentions and other rights abuses in the XUAR are consistent 
with ``crimes against humanity,'' as defined by the Rome 
Statute of the International Criminal Court. In a CNN opinion 
piece, the researcher argued that the situation in the XUAR 
``fits the textbook definition of crimes against humanity.'' 
\34\ Article 7 of the Rome Statute provides a list of 11 acts 
that may constitute ``crimes against humanity,'' ``when 
committed as part of a widespread or systematic attack directed 
against any civilian population, with knowledge of the 
attack.'' \35\
    Regional government authorities reportedly ordered 
officials in some XUAR jurisdictions to meet quotas to detain a 
certain percentage or number of the local population in 
``political reeducation'' camps.\36\ Officials in Qaraqash 
(Moyu) county, Hotan prefecture, told Radio Free Asia (RFA) 
that they had received orders to detain 40 percent of local 
residents in ``political reeducation'' centers, but they were 
having difficulties meeting this quota.\37\ XUAR authorities 
reportedly placed the children of individuals detained in 
``political reeducation'' centers in orphanages in some 
jurisdictions in such high numbers that the orphanages became 
overcrowded, and in some instances officials responded by 
sending some children to facilities in provinces outside of the 
XUAR.\38\
    In addition to ``reeducation'' facilities detaining inmates 
24 hours a day, reports from rights groups and media documented 
other types of ``reeducation'' facilities and programs.\39\ In 
August 2018, international non-governmental organization (NGO) 
Chinese Human Rights Defenders (CHRD) reported the findings of 
a survey it conducted with the China-based NGO Equal Rights 
Initiative (ERI) on ``reeducation'' programs in the XUAR, 
including information on both detentions and forced attendance 
of ``education sessions'' during the day or evening.\40\ 
According to the report, based partly on interviews conducted 
with Uyghurs living in rural areas in southern XUAR, county or 
municipal authorities administered ``reeducation'' camps, and 
township or village government officials administered day and 
evening ``study sessions'' or ``open camps.'' \41\ CHRD and ERI 
estimated that as of June 2018, authorities may have forced 
around 2.2 million XUAR residents to attend day or evening 
``education sessions.'' \42\ The groups reported that ``study 
session'' attendees consisted mostly of women and elderly 
individuals whose family members had been detained or had 
traveled abroad.\43\
    The Commission observed numerous reports regarding 
individuals detained at ``political reeducation'' centers, some 
of which are described below.

        <bullet> Detention-related deaths; detentions of the 
        elderly, minors, and the ill. Elderly people,\44\ 
        minors,\45\ and ill individuals \46\ were reportedly 
        among those detained in the centers. Renowned Uyghur 
        Islamic scholar, 82-year-old Muhammad Salih Hajim, 
        reportedly died in January 2018, either in a 
        ``political reeducation'' camp or another type of 
        detention facility.\47\ In May, Ayhan Memet, the 
        elderly mother of World Uyghur Congress president 
        Dolkun Isa, died in a ``political reeducation'' camp, 
        following years of official harassment in connection 
        with her son's rights advocacy.\48\ In November 2017, 
        88-year-old Uyghur religious scholar Abdulnehed Mehsum 
        died in a ``political reeducation'' center in Hotan 
        prefecture.\49\ In June 2018, Radio Free Asia (RFA) 
        reported that more than two dozen Uyghurs had died in 
        ``political reeducation'' centers in Qaraqash county, 
        Hotan, most of whom were elderly individuals who had 
        suffered complications from high blood pressure.\50\ 
        RFA reported that four people died in ``political 
        reeducation'' centers in Yengisar (Yingjisha) county, 
        Kashgar prefecture, between August and October 2017, 
        including 71-year-old Hesen Imin \51\ and Sawut 
        Raxman,\52\ who was in his 60s.\53\ The four deaths 
        were reportedly due in part to the ``poor conditions 
        and psychological pressure'' at the ``political 
        reeducation'' centers.\54\ Uyghur teenager Yaqupjan 
        Naman reportedly died in a ``political reeducation'' 
        center in or around late February 2018.\55\ A 34-year-
        old Uyghur cook in Ili (Yili) Kazakh Autonomous 
        Prefecture (KAP), Abdughappar Abdujappar, reportedly 
        died in a hospital in late 2017 after he became ill 
        while detained for nearly six months in a ``political 
        reeducation'' center.\56\ An elderly Uyghur woman 
        reportedly died in March 2018 due to being ``unable to 
        cope with the pressure and terrible conditions'' at a 
        ``political reeducation'' center in Ghulja (Yining) 
        county, Ili KAP, where she was detained in connection 
        with having relatives living in Egypt.\57\ A 65-year-
        old Uyghur businessman from Ghulja (Yining) 
        municipality, Ili KAP, Abdulreshit Seley Hajim, 
        reportedly died in or around June 2018 after being 
        detained for nine months in a ``political reeducation'' 
        center, and his brother told RFA those who saw his body 
        said ``he was hit with a blunt object on his head.'' 
        \58\ Additional deaths reported to have occurred in or 
        after detention at ``political reeducation'' camps 
        included 24-year-old Nurimangul Memet, in Bayangol 
        (Bayinguoleng) Mongol Autonomous Prefecture,\59\ and 
        Adalet Teyip, the mother of Canada-based Uyghur 
        Abdulaziz Sattar.\60\
        <bullet> Detentions of Uyghur officials, their family 
        members, and other prominent Uyghur individuals. Uyghur 
        officials and their family members \61\ were among 
        those whom authorities held in ``political 
        reeducation'' centers or detained in relation to 
        ``political reeducation'' efforts, as were other 
        prominent members of Uyghur society. In January 2018, 
        authorities reportedly detained Pezilet Bekri, the 
        Party Secretary of a subdistrict committee in Kashgar 
        prefecture, in a ``political reeducation'' center, 
        after she had expressed sympathy toward people detained 
        in the centers.\62\ Bekri's responsibilities as Party 
        Secretary had included overseeing the detention of 
        individuals and their transfer to ``political 
        reeducation'' centers.\63\ In May 2017, authorities 
        sentenced two officials in Hotan, Omerjan Hesen and 
        Elijan Ehmet, to 11 years in prison, reportedly in 
        large part for failing to send Uyghurs to ``political 
        reeducation'' centers.\64\ In August 2018, the New York 
        Times reported that Rahile Dawut, a Uyghur scholar well 
        regarded for her research on traditional Uyghur 
        culture, had disappeared in December 2017, and her 
        family and friends expressed the belief that 
        authorities had detained her in a ``reeducation'' camp 
        or another type of detention facility.\65\ Authorities 
        also targeted other prominent Uyghur individuals for 
        detention in ``political reeducation'' centers,\66\ 
        including Kashgar city-based Uyghur businessmen 
        Abdujelil Hajim,\67\ Gheni Haji,\68\ Memet Tursun 
        Haji,\69\ and Imin Hajim \70\ for displaying signs of 
        ``religious extremism''; hotelier Obulkasim Haji, whom 
        authorities took into custody in December while he was 
        undergoing treatment at a hospital in Urumqi 
        municipality; \71\ Urumqi-based Uyghur scholar and poet 
        Abduqadir Jalalidin; \72\ Uyghur pop singer Ablajan 
        Ayup; \73\ and Uyghur soccer player Erfan Hezimjan 
        (also known as Erfan Hezim)--formerly a member of 
        China's national youth soccer team--reportedly for 
        ``visiting foreign countries,'' after he trained and 
        competed abroad.\74\
        <bullet> Detentions in the XUAR of family members of 
        U.S.-based Uyghurs. XUAR authorities detained dozens of 
        XUAR-based family members of six U.S.-based Uyghur RFA 
        journalists in ``political reeducation'' camps and 
        other locations, and otherwise harassed their family 
        members.\75\ Authorities reportedly sentenced some of 
        the family members to prison terms; subjected some 
        elderly and other family members to medical 
        maltreatment and neglect; and refused to provide 
        information on the whereabouts and health conditions of 
        some family members.\76\ In written testimony submitted 
        at a July 2018 Commission hearing, RFA journalist 
        Gulchehra Hoja stated that ``more than two dozen of my 
        relatives in China are missing.'' \77\ XUAR authorities 
        reportedly also detained dozens of family members of 
        U.S.-based rights advocate Rebiya Kadeer, including her 
        children and grandchildren, and possibly detained at 
        least some of them in ``political reeducation'' 
        centers.\78\ Those detained reportedly included sons 
        Ablikim and Alim Abdureyim, whom authorities have 
        previously detained and subjected to torture.\79\ In 
        addition, U.S.-based Uyghur poet and filmmaker Tahir 
        Hamut told the Wall Street Journal that Chinese 
        authorities had detained his brother in the XUAR after 
        the newspaper published an article in late 2017 that 
        included comments from Hamut.\80\
        <bullet> Detentions of Kazakh citizens; testimony of an 
        ethnic Kazakh forced to teach at a ``political 
        reeducation'' camp. XUAR authorities also detained 
        Kazakh citizens who had previously held Chinese 
        citizenship in ``political reeducation'' centers when 
        they traveled back to the XUAR. In one such case, 
        authorities detained Kayrat Samarkan from October 2017 
        to February 2018, during which authorities subjected 
        him to severe maltreatment.\81\ Samarkan said 
        authorities forced detainees to study political 
        subjects, sing Communist songs, and participate in 
        military-style training.\82\ According to Samarkan, 
        authorities punished rule-breakers, people who were 
        late for studies, and others by placing them in 
        handcuffs and ankle cuffs, subjecting them to 
        waterboarding, or strapping them into a ``tiger 
        chair.'' \83\ In another case, authorities detained 
        Omir Bekali in both a prison and a ``political 
        reeducation'' center for a total of more than seven 
        months without charge, initially shackling him to a bed 
        and refusing to provide him with medication for his 
        high blood pressure.\84\ In the ``political 
        reeducation'' center, where he was detained for several 
        weeks, authorities placed him in solitary confinement 
        for part of the time, and deprived him of food for 24 
        hours.\85\ According to Bekali, authorities punished 
        detainees with ``solitary confinement, beatings and 
        food deprivation'' for refusing to ``criticize the 
        people and things they love.'' \86\ Bekali said 
        authorities also punished some detainees by forcing 
        them to eat pork in spite of their Muslim faith, and 
        likewise forced detainees accused of being ``religious 
        extremists'' to drink alcohol.\87\ In July 2018, a 
        court in Kazakhstan tried Chinese citizen Sayragul 
        Sauytbay (also known as Sairagul Sawytbai), an ethnic 
        Kazakh, on the charge of ``illegally crossing the 
        border'' after she fled China in April 2018.\88\ 
        Sauytbay told the court that in 2018, Chinese 
        authorities sent her to work ``in a political 
        reeducation camp in the mountains,'' which she said 
        held over 2,500 ethnic Kazakhs.\89\ She also told the 
        court that Chinese authorities would consider her 
        public discussion of XUAR ``reeducation'' facilities as 
        ``revealing state secrets,'' and that they would 
        sentence her to death if Kazakh government officials 
        deported her to China.\90\ On August 1, the court 
        released Sauytbay from custody, giving her a six-month 
        suspended sentence, but lawyers expressed concern that 
        Chinese officials could still ask the government of 
        Kazakhstan to extradite her.\91\

                     Intensified Security Measures

    During this reporting year, central and regional government 
authorities implemented intense security measures throughout 
the XUAR, using security personnel, surveillance technology, 
mass detentions, and other methods to tighten state control 
over predominantly Muslim ethnic minority groups in the XUAR. 
International observers highlighted the leading role of XUAR 
Party Secretary Chen Quanguo in heightening repressive security 
measures.\92\ In October 2017, Chen was selected as a member of 
the Communist Party Central Committee Political Bureau 
(Politburo),\93\ likely a signal that high-level officials 
approved his work in the XUAR and previously in the Tibet 
Autonomous Region.\94\
    XUAR authorities carried out the mass, involuntary 
collection of DNA and other biometric information from XUAR 
residents; \95\ conducted widespread and frequent checks of 
residents' cell phones and required residents to install 
monitoring applications on their cell phones; \96\ maintained 
checkpoints and facial recognition cameras in neighborhoods, on 
roads, and in train stations; \97\ operated ``convenience 
police stations,'' a form of street-level management that 
enhances authorities' ability to closely surveil and police 
local communities; \98\ and installed cameras in and around 
mosques and homes, in order to monitor residents' religious and 
private activities.\99\ Rights advocates indicated that 
officials appeared to be focused on using much of the 
surveillance and data collection to monitor and repress 
Uyghurs.\100\ XUAR authorities reportedly use a centralized 
system called the ``Integrated Joint Operations Platform'' 
(IJOP) to gather and analyze data from closed-circuit cameras, 
computers, smartphones, license plates, and identification 
cards, as well as individuals' family planning, banking, and 
travel records.\101\ Authorities used such data to identify 
individuals they would later subject to investigation and 
detention, including in ``political reeducation'' camps.\102\ 
[For more information on authorities' use of surveillance 
technology in the XUAR, see Section III--Commercial Rule of Law 
and Human Rights.]
    Both XUAR and central government officials increased 
spending on security in the region. According to research into 
official data on security expenditures compiled by Germany-
based scholar Adrian Zenz, XUAR authorities increased their 
spending on security measures by nearly 93 percent in 2017 
compared to 2016; a sample of 18 Chinese provinces and regions 
saw an average increase of just under 12 percent in 2017.\103\ 
Zenz also detailed evidence showing that central government 
authorities likely spent billions of yuan to fund the 
deployment of People's Armed Police in the XUAR in recent 
years.\104\
    Analysis of Chinese government data that was published by 
international non-governmental organization (NGO) Chinese Human 
Rights Defenders (CHRD) in July 2018 showed that 21 percent of 
all criminal arrests in China in 2017 took place in the XUAR, 
which is home to only 1.5 percent of China's population.\105\ 
CHRD reported that, according to the research it conducted with 
the China-based NGO Equal Rights Initiative, the number of 
criminal arrests in the XUAR increased by 731 percent in 2017 
over 2016, coinciding with policies implemented by XUAR Party 
Secretary Chen Quanguo to enhance regional security following 
his appointment to the XUAR in August 2016.\106\ These figures 
do not include detentions in ``reeducation'' camps, which are 
carried out extrajudicially, though authorities reportedly 
transferred some ``reeducation'' camp detainees to prison after 
a period of time.\107\
    XUAR authorities implemented security measures at the 
grassroots level in order to combat ``separatism.'' In January 
2018, XUAR government chairperson Shohrat Zakir stated that 
continued ``terrorist'' activity and ``an intense struggle 
against separatists'' in the XUAR necessitated an extended 
security crackdown.\108\ He said authorities would continue to 
carry out measures to guarantee security in the XUAR, including 
the fang hui ju program, in which officials conduct mandated 
visits to rural ethnic minority families, as well as measures 
to combat ``double-faced'' people, referring to those who 
``pretend to support national unity but secretly spread 
separatism and extremism.'' \109\ Under the fang hui ju 
program, teams of police officers or officials visit Uyghurs' 
homes to compile dossiers of their personal information, 
reporting on ``extremist'' behavior such as fasting during 
Ramadan or abstaining from alcohol.\110\

------------------------------------------------------------------------
                       Intrusive Homestay Programs
-------------------------------------------------------------------------
  Under programs similar to the fang hui ju program, such as ``pairing
 relatives'' (jiedui renqin) and ``pairing assistance'' (jiedui bangfu
 or jiedui fubang), authorities assign cadres and government workers
 (usually of Han ethnicity) to live with ethnic minority families in
 their homes for certain periods of time, in part, according to official
 rhetoric, to contribute to stability and security in the XUAR.\111\
 According to a December 2017 report in the Party-run newspaper Xinjiang
 Daily, under one such program, begun in 2017, XUAR officials sent
 nearly 1 million cadres and workers to live with local families from
 targeted ethnic groups.\112\ In April 2018, international rights NGO
 ChinaAid Association reported that authorities had sent male ``working
 group personnel'' between the ages of 25 and 45 to live with Kazakh
 women and children in the XUAR while officials detained the men in
 these families in ``political reeducation'' centers.\113\ According to
 an April Agence France-Presse report, authorities sent a ``work team''
 comprised of staff members from a university in the XUAR on a similar
 program, to a village in Qaraqash (Moyu) county, Hotan prefecture.\114\
 Officials sent more than 100 people, one-fifth of the village's adult
 population, to ``political reeducation'' centers, after compiling
 dossiers identifying them as having engaged in ``religious extremism''
 or other types of ``untrustworthy'' behavior.\115\ According to a May
 Human Rights Watch report, under the ``pairing relatives'' program,
 cadres spend at least five days every two months in families' homes,
 during which they carry out political indoctrination, make the families
 participate in activities such as singing the Chinese national anthem,
 and document online the families' domestic activities.\116\
------------------------------------------------------------------------

    XUAR authorities undertook additional efforts to collect 
residents' information during this reporting year. Officials in 
the XUAR, including from the Urumqi Municipal Public Security 
Bureau, reportedly issued a registration form requiring 
individuals working in Urumqi who were not in possession of an 
Urumqi household registration permit (hukou) \117\ to provide 
information on their personal details, such as whether they had 
visited any of 26 countries officials had linked to 
terrorism.\118\ According to one of these forms, which an 
exiled Uyghur provided to the Wall Street Journal, certain 
sections on the form ask officials to rate individuals on a 
six-point scale, and to classify them as ```safe,' `average,' 
or `unsafe.' '' \119\ According to Human Rights Watch, one 
Urumqi resident said authorities required him to submit a 
similar form to the IJOP system in 2017, including information 
about travel to the 26 ``sensitive'' countries, how many times 
he prayed each day, and the name of his regular mosque.\120\

                          Freedom of Religion

    XUAR officials continued to use measures that narrowed the 
scope of Muslim residents' ability to peacefully practice their 
religious faith and express their Muslim cultural identity, 
including through the following actions:

        <bullet> Restrictions on the Quran. Authorities in the 
        XUAR imposed restrictions on the Quran, including 
        through confiscations and prohibitions on the study of 
        the Quran. In early 2018, in Sa'ertamu township, Qaba 
        (Habahe) county, Ili (Yili) Kazakh Autonomous 
        Prefecture (KAP), local officials reportedly asked 
        residents to sign a pledge stating that neither they 
        nor their family members would study the Quran or learn 
        Arabic.\121\ In September 2017, officials in locations 
        throughout the XUAR reportedly confiscated Qurans, 
        prayer mats, and other items of Islamic significance 
        from local Uyghur, Kazakh, and Kyrgyz residents.\122\ 
        In November, Radio Free Asia (RFA) reported that a 
        court in Burultokay (Fuhai) county, Altay (Aletai) 
        prefecture, sentenced ethnic Kazakh Manat Hamit, a 
        government employee, to 16 years and 6 months in prison 
        in May 2017 on charges related to ``disseminating 
        terrorism-related audiovisual material'' and ``inciting 
        ethnic hatred,'' after authorities found files 
        containing Quranic recitations on his computer.\123\ In 
        December, RFA reported that the Ministry of Public 
        Security had designated the storage of Quranic 
        audiovisual material on cell phones as ``terrorist'' in 
        nature.\124\
        <bullet> Targeting religious leaders. Officials 
        throughout the XUAR detained individuals for violating 
        laws and regulations regarding religion. According to a 
        January 2018 RFA report, the number of imams detained 
        in ``political reeducation'' camps and other locations 
        was so large that in some locations, no imams were 
        available to preside over funerals.\125\ In November 
        2017, public security officials in Sa'ertamu criminally 
        detained ethnic Kazakh imam Salheti Haribek, allegedly 
        because he had carried out religious activities without 
        a required government permit.\126\
        <bullet> Obstructing burial and other religious 
        practices. In April 2018, RFA reported that authorities 
        in two counties in Hotan prefecture had set up ``burial 
        management centers'' that Uyghur exiles believed would 
        prevent Uyghurs from performing religious funerary 
        rites.\127\ Reports emerging in recent months also 
        indicated that officials in the XUAR were building 
        crematoria in order to eliminate Uyghurs' funerary and 
        burial traditions.\128\ In February 2018, RFA reported 
        that officials in Kashgar prefecture had launched a 
        campaign about two months earlier through local police 
        stations to urge local Muslim residents not to believe 
        in religion.\129\
        <bullet> Controlling the observance of Ramadan. As in 
        previous reporting years,\130\ XUAR officials 
        reportedly imposed controls on Muslims' observance of 
        Ramadan. In Ili KAP and Changji Hui Autonomous 
        Prefecture, authorities reportedly forced restaurants 
        to stay open and students to eat at school during 
        Ramadan.\131\ In Peyziwat (Jiashi) county, Kashgar, a 
        student told RFA that officials at his school had 
        required all students to sign agreements stating that 
        they would not fast during the Ramadan period.\132\

                         Freedom of Expression


                     MOBILE PHONE AND INTERNET USE

    Central and regional officials placed restrictions on 
communication tools and implemented strict controls on internet 
activity. Officials in multiple XUAR jurisdictions reportedly 
continued to order residents to install an application (app) 
called ``Web-Cleansing Guard'' (jingwang weishi) on their cell 
phones that enables the government to surveil their online 
activities, monitoring ``terrorist'' and ``illegal religious'' 
content.\133\ The app reportedly served as one of the 
mechanisms of the integrated surveillance and security network 
police operated to monitor residents, with the capacity to send 
all of the file names from a mobile device to a government 
server.\134\ [For more information on internet restrictions in 
China, see Section II--Freedom of Expression.]
    Members of predominantly Muslim ethnic minority groups in 
the XUAR were at risk of detention for sharing or storing 
``extremist'' or other types of online content, or for 
possessing a certain type of communications device. Security 
personnel manning checkpoints reportedly detained Kazakhs, 
Uyghurs, and other ethnic minority individuals throughout the 
XUAR if they carried an iPhone, holding them in custody for up 
to several weeks.\135\ Authorities reportedly detained Uyghurs, 
Kazakhs, and others for storing and sharing items on mobile 
devices that officials said promoted terrorism or 
extremism.\136\ Measures aimed at countering ``extremism'' in 
the XUAR in recent years reportedly have often threatened to 
criminalize Uyghurs' peaceful practice of religious faith and 
other peaceful activities.\137\ In November 2017, state media, 
citing official figures, reported that officials in various 
locations in the XUAR had detained 15 people, including 9 
Uyghurs, a Hui individual, a Kazakh individual, and 4 Han 
Chinese individuals, on suspicion of using the internet to 
promote, store, and transmit material involving terrorism and 
violence, religious extremism, ethnic separatism, and 
fabricating rumors.\138\ Among the laws and regulations 
authorities said those detained had violated were regulations 
the XUAR People's Congress issued in December 2016 that 
provided for punishment for residents who spread ``false'' or 
``harmful'' information on the internet.\139\ In addition, in 
September 2017, a U.S.-based news and commentary website 
reported that authorities had sentenced the 25-year-old niece 
of imprisoned Uyghur scholar Ilham Tohti to 10 years in prison 
after security personnel inspecting her cell phone in early 
2016 found photographs of Tohti and two RFA articles about 
him.\140\

               FOREIGN JOURNALISTS OBSTRUCTED IN THE XUAR

    Foreign journalists reported facing increased official 
restrictions on reporting from the XUAR in 2017. According to a 
report published by the Foreign Correspondents' Club of China 
(FCCC) in January 2018,\141\ 73 percent of journalists 
completing an FCCC survey who traveled to the XUAR in 2017 said 
officials and security personnel told them their work was 
``prohibited or restricted,'' an increase of 31 percent over 
the previous year's responses.\142\ The FCCC report noted the 
detention of a Globe and Mail correspondent whom security 
officials held for three hours in the XUAR in August 2017, 
after he tried to interview residents of a township in Yarkand 
(Shache) county, Kashgar prefecture.\143\ The FCCC reported 
that XUAR authorities detained an anonymous American journalist 
for 11 hours.\144\ [For more information on obstruction of 
foreign journalists in China, see Section II--Freedom of 
Expression.]

                          Freedom of Movement

    As in past reporting years,\145\ XUAR officials continued 
to restrict Uyghurs' and Kazakhs' ability to travel freely, in 
violation of Chinese law and international legal 
standards.\146\ Beginning in October 2016, authorities in many 
locations throughout the XUAR reportedly ordered residents to 
turn their passports in to police, with varying deadlines of up 
to four months.\147\ In October 2017, authorities reportedly 
broadened the passport recall to include Uyghurs living in 
areas of China outside the XUAR, requiring them to submit their 
passports to the nearest police station or to their 
school.\148\ Officials also reportedly required XUAR residents 
and those with a household registration permit (hukou) 
registered in the XUAR to submit to the collection of their 
biometric information prior to applying for passports or 
conducting other ``hukou-related business.'' \149\

                                 Labor

    According to an October 2017 RFA report, in recent months, 
government authorities had sent hundreds of women and children 
from Qaraqash (Moyu) county, Hotan prefecture, to Aksu 
prefecture, to engage in forced agricultural labor and other 
heavy labor.\150\ A police officer in Qaraqash reportedly said 
authorities had detained the men from these families in 
``political reeducation'' centers, and that if the women and 
children refused to participate in the forced labor, 
authorities could detain some of them in the ``political 
reeducation'' centers as well.\151\ Forced labor violates the 
International Labour Organization's Convention Concerning 
Forced or Compulsory Labour.\152\ [For more information on 
forced labor in China, see Section II--Human Trafficking.]

              Language Policy and ``Bilingual Education''

    XUAR government authorities continued to expand Mandarin-
focused ``bilingual education'' in the region, a policy that 
contravenes international law.\153\ Under ``bilingual 
education,'' class instruction takes place primarily in 
Mandarin, largely replacing instruction in languages spoken by 
ethnic minority groups.\154\ In October 2017, the Chinese 
Communist Party's United Front Work Department reported that 
the total number of ethnic minority students at all levels in 
the XUAR who had received ``bilingual education'' had increased 
from 1.22 million in 2012 to 1.92 million in 2016, and between 
2013 and 2016, authorities had invested 6 billion yuan 
(approximately US$954.98 million) to build 3,075 rural 
``bilingual kindergartens'' in the XUAR.\155\ Official media 
reported in April 2018 that XUAR authorities planned to 
construct additional kindergartens during the year, in order to 
improve students' Mandarin skills.\156\ The plans continued a 
regional government initiative to expand ``bilingual 
education'' at the preschool level between 2016 and 2020 using 
central government funds.\157\ [For more on language policy 
toward ethnic minority populations, as well as information on 
the United Front Work Department and ethnic policy, see Section 
II--Ethnic Minority Rights.]


                                                       Xinjiang
                                                Xinjiang
    Notes to Section IV--Xinjiang

    \1\ See, e.g., ``Xinjiang Authorities Detain Uyghurs `Wanting To 
Travel Abroad,' '' Radio Free Asia, 27 March 18; ``China Expands Recall 
of Passports to Uyghurs Outside of Xinjiang,'' Radio Free Asia, 8 
December 17; Mercy A. Kuo, ``Uyghur Biodata Collection in China,'' The 
Diplomat, 28 December 17.
    \2\ See, e.g., PEN America, ``Forbidden Feeds: Government Controls 
on Social Media in China,'' 13 March 18; ``China Detains Five More 
Ethnic Kazakhs Over `Ethnic Hatred,' `Terrorist' Content,'' Radio Free 
Asia, 19 December 17; Nithin Coca, ``China's Xinjiang Surveillance Is 
the Dystopian Future Nobody Wants,'' Engadget, 22 February 18.
    \3\ See, e.g., ``China Detains Five More Ethnic Kazakhs Over 
`Ethnic Hatred,' `Terrorist' Content,'' Radio Free Asia, 19 December 
17; Joyce Huang, ``Stepped-up Surveillance of Uighurs Sends `Relatives' 
Into Homes,'' Voice of America, 26 December 17; ``Chinese Police Order 
Xinjiang's Muslims To Hand in All Copies of the Quran,'' Radio Free 
Asia, 27 September 17.
    \4\ Human Rights Watch, ``China: Free Xinjiang `Political 
Education' Detainees,'' 10 September 17; Gerry Shih, ``China's Mass 
Indoctrination Camps Evoke Cultural Revolution,'' Associated Press, 18 
May 18; Adrian Zenz, ``New Evidence for China's Political Re-Education 
Campaign in Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 10, 15 May 18; Bruce Pannier, ``Kazakhstan Confronts China Over 
Disappearances,'' Radio Free Europe/Radio Liberty, 1 June 18. For 
examples of the various terms that official and unofficial sources have 
used to refer to ``political education'' centers or camps, see, e.g., 
Adrian Zenz, ``New Evidence for China's Political Re-Education Campaign 
in Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, Issue 10, 15 
May 18 (``anti-extremism education training centers'' (qu jiduanhua 
jiaoyu peixun zhongxin) and ``educational training centers'' (jiaoyu 
peixun zhongxin)); ``Uyghur Businessman Flees Abroad, Family Members 
Suffer Abuse in [Training Center]'' [Weiwu'er shangren tao wang haiwai 
jiaren guan ``peixun zhongxin'' canzao nuedai], Radio Free Asia, 19 
January 18 (``training centers'' (peixun zhongxin)); Human Rights 
Watch, ``China: Free Xinjiang `Political Education' Detainees,'' 10 
September 17 (``anti-extremism training classes'' (qu jiduanhua peixun 
ban) and ``education and transformation training centers'' (jiaoyu 
zhuanhua peixun zhongxin)); ``Ten Ethnic Kazakhs Detained in Karamay, 
Xinjiang, Nearly 100 Uyghurs Fined for Refusing To Stop Fasting'' 
[Xinjiang kelamayi 10 ming hasake zu ren bei bu jin bai weiwu'er zu ren 
ju fengzhai bei fakuan], Radio Free Asia, 16 June 17 (``anti-extremism 
training schools'' (qu jiduanhua peixun xuexiao)); ``Ethnic Cleansing 
in Xinjiang, a Large Number of Uyghurs Are Detained in `Reform Centers' 
'' [Xinjiang zhongzu qingxi daliang weizu ren bei guan ``gaizao 
zhongxin''], Radio Free Asia, 28 March 18 (``education and reform 
centers'' (jiaoyu gaizao zhongxin)); Qiao Nong, ChinaAid, ``Over a 
Hundred Ethnic Minority Christians in Xinjiang Sent to `Training 
Center' '' [Xinjiang yu bai ming shaoshu minzu jidu tu bei song 
``peixun zhongxin''], 3 February 18 (``vocational skills training 
centers'' (zhiye jineng peixun zhongxin), ``political study centers'' 
(zhengzhi xuexi zhongxin), and ``study centers'' (xuexi zhongxin)); 
Qiao Nong, ChinaAid, ``90-Year-Old Man Exposes `Training Center' 
Torture Beyond Human Imagination'' [Jiu xun laoren pu ``peixun 
zhongxin'' kuxing chaochu renlei xiangxiang], 24 March 18 (``wild imam 
training centers'' (ye ahong peixun zhongxin)); ``Islamic Imams in 
Xinjiang Are Gradually Disappearing, There Is a Lack of Imams To 
Preside Over Funerals When Muslims Pass Away'' [Xinjiang yisilan jiao 
ahong zhujian xiaoshi musilin qushi que ahong zhuchi zangli], Radio 
Free Asia, 6 January 18. (``wild imam education centers'' (ye ahong 
jiaoyu zhongxin)). See also Jeremy Daum, ``XJ Education Centers Exist, 
but Does Their Legal Basis? '' China Law Translate (blog), 14 August 
18.
    \5\ ``Xinjiang Authorities Detain Uyghurs `Wanting To Travel 
Abroad,' '' Radio Free Asia, 27 March 18; ``A Summer Vacation in 
China's Muslim Gulag,'' Foreign Policy, 28 February 18; Adrian Zenz, 
``New Evidence for China's Political Re-Education Campaign in 
Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, Issue 10, 15 
May 18; Chinese Human Rights Defenders and Equal Rights Initiative, 
``China: Massive Numbers of Uyghurs & Other Ethnic Minorities Forced 
Into Re-Education Programs,'' 3 August 18.
    \6\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Anti-Extremism Regulations 
[Xinjiang weiwu'er zizhiqu qu jiduanhua tiaoli], issued 29 March 17, 
effective 1 April 17; ``Xinjiang Rolls Out China's First Law To Purge 
Religious Extremism,'' Xinhua, 30 March 17. See also Eva Dou, Jeremy 
Page, and Josh Chin, ``China's Uighur Camps Swell as Beijing Widens the 
Dragnet,'' Wall Street Journal, 17 August 18. For more information on 
the XUAR Anti-Extremism Regulations, see CECC, 2017 Annual Report, 5 
October 17, 283, 286.
    \7\ Rian Thum, ``China's Mass Internment Camps Have No Clear End in 
Sight,'' Foreign Policy, 22 August 18.
    \8\ ``New Guidelines on Uyghur `Signs of Extremism' Issued to 
Xinjiang Authorities,'' Radio Free Asia, 7 November 17; ``Elderly Among 
Thousands of Uyghurs Held in Xinjiang Re-Education Camps,'' Radio Free 
Asia, 26 October 17.
    \9\ ``Xinjiang Authorities Detain Uyghurs `Wanting To Travel 
Abroad,' '' Radio Free Asia, 27 March 18.
    \10\ Ibid.
    \11\ ``Uyghur Teenager Dies in Custody at Political Re-Education 
Camp,'' Radio Free Asia, 14 March 18; Gohar Abbas and Ben Dooley, 
``Pakistanis Distressed as Uighur Wives Vanish Into China's Shadowy 
Network of `Reeducation Centres,' '' Hong Kong Free Press, 26 March 18; 
``Chinese Police Detain Kazakhs With Overseas Ties, Send Them for `Re-
education,' '' Radio Free Asia, 30 October 17.
    \12\ ``A Summer Vacation in China's Muslim Gulag,'' Foreign Policy, 
28 February 18; ``Interview: `I Lost All Hope of Surviving,' '' Radio 
Free Asia, 30 January 18; Human Rights Watch, ``China: Free Xinjiang 
`Political Education' Detainees,'' 10 September 17.
    \13\ See, e.g., ``Overcrowded Political Re-Education Camps in Hotan 
Relocate Hundreds of Uyghur Detainees,'' Radio Free Asia, 26 January 
18; ``Uyghur Inmates in Xinjiang's Korla City Endure Overcrowded Re-
Education Camps,'' Radio Free Asia, 3 January 18; ``Children of 
Detained Uyghurs Face `Terrible' Conditions in Overcrowded Xinjiang 
Orphanages,'' Radio Free Asia, 18 October 17.
    \14\ See, e.g., ``A Summer Vacation in China's Muslim Gulag,'' 
Foreign Policy, 28 February 18; ChinaAid, ``90-Year-Old Man Exposes 
`Training Center' Torture Beyond Human Imagination'' [Jiu xun laoren pu 
``peixun zhongxin'' kuxing chaochu renlei xiangxiang], 24 March 18.
    \15\ See, e.g., ChinaAid, ``90-Year-Old Man Exposes `Training 
Center' Torture Beyond Human Imagination'' [Jiu xun laoren pu ``peixun 
zhongxin'' kuxing chaochu renlei xiangxiang], 24 March 18; ``Interview: 
`I Lost All Hope of Surviving,' '' Radio Free Asia, 30 January 18.
    \16\ See, e.g., ``Uyghur Inmates Suffer Health Complications Due to 
Neglect in Xinjiang Detention Centers,'' Radio Free Asia, 18 January 
18; ``Interview: `I Lost All Hope of Surviving,' '' Radio Free Asia, 30 
January 18; Amnesty International, ``Separated Souls: Uighur 
Journalist's Unbreakable Resolve To Help Her Detained Family,'' 16 
March 18.
    \17\ Emily Rauhala, ``New Evidence Emerges of China Forcing Muslims 
Into `Reeducation' Camps,'' Washington Post, 10 August 18.
    \18\ See, e.g., ``Interview: `I Lost All Hope of Surviving,' '' 
Radio Free Asia, 30 January 18; ChinaAid, ``90-Year-Old Man Exposes 
`Training Center' Torture Beyond Human Imagination'' [Jiu xun laoren pu 
``peixun zhongxin'' kuxing chaochu renlei xiangxiang], 24 March 18.
    \19\ See, e.g., ``Uyghur Inmates in Xinjiang's Korla City Endure 
Overcrowded Re-Education Camps,'' Radio Free Asia, 3 January 18; 
``Uyghur Inmates Suffer Health Complications Due to Neglect in Xinjiang 
Detention Centers,'' Radio Free Asia, 18 January 18.
    \20\ See, e.g., Human Rights Watch, ``China: Free Xinjiang 
`Political Education' Detainees,'' 10 September 17; ``A Summer Vacation 
in China's Muslim Gulag,'' Foreign Policy, 28 February 18.
    \21\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9.
    \22\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 9(1). See also CECC, 2014 Annual 
Report, 9 October 14, 81; United Nations Treaty Collection, Chapter IV, 
Human Rights, International Covenant on Civil and Political Rights, 
last visited 17 June 18. China has signed but not ratified the ICCPR. 
See also Body of Principles for the Protection of All Persons Under Any 
Form of Detention or Imprisonment, adopted by UN General Assembly 
resolution 43/173 of December 9, 1988, principle 4; International 
Justice Resource Center, ``Increased Oppression of Chinese Human Rights 
Defenders Draws International Criticism,'' 22 February 16.
    \23\ Adrian Zenz, ``New Evidence for China's Political Re-Education 
Campaign in Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 10, 15 May 18; Adrian Zenz, `` `Thoroughly Reforming Them Toward 
a Healthy Heart Attitude'--China's Political Re-Education Campaign in 
Xinjiang,'' Academia.edu, updated 15 May 18, 11.
    \24\ Adrian Zenz, ``New Evidence for China's Political Re-Education 
Campaign in Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 10, 15 May 18; Adrian Zenz, `` `Thoroughly Reforming Them Toward 
a Healthy Heart Attitude'--China's Political Re-Education Campaign in 
Xinjiang,'' Academia.edu, updated 15 May 18, 3, 4, 6.
    \25\ Adrian Zenz, ``New Evidence for China's Political Re-Education 
Campaign in Xinjiang,'' Jamestown Foundation, China Brief, Vol. 18, 
Issue 10, 15 May 18.
    \26\ Eva Dou, Jeremy Page, and Josh Chin, ``China's Uighur Camps 
Swell as Beijing Widens the Dragnet,'' Wall Street Journal, 17 August 
18.
    \27\ Rian Thum, ``What Really Happens in China's `Re-Education' 
Camps,'' New York Times, 15 May 18.
    \28\ Eva Dou, Jeremy Page, and Josh Chin, ``China's Uighur Camps 
Swell as Beijing Widens the Dragnet,'' Wall Street Journal, 17 August 
18.
    \29\ Jessica Batke, ``What Satellite Images Can Show Us About `Re-
education' Camps in Xinjiang: A Q&A With Shawn Zhang,'' Asia Society, 
ChinaFile, 23 August 18; Shawn Zhang, ``List of Re-Education Camps in 
Xinjiang,'' Medium (blog), last visited 19 August 18.
    \30\ Surveillance, Suppression, and Mass Detention: Xinjiang's 
Human Rights Crisis, Hearing of the Congressional-Executive Commission 
on China, 26 July 18, Written Statement Submitted by Rian Thum, 
Associate Professor, Loyola University New Orleans, 1.
    \31\ International Convention on the Elimination of All Forms of 
Racial Discrimination, adopted by UN General Assembly resolution 2106 
(XX) of 21 December 65, entry into force 4 January 69.
    \32\ Nick Cumming-Bruce, ``U.N. Panel Confronts China Over Reports 
That It Holds a Million Uighurs in Camps,'' New York Times, 10 August 
18. See also UN Office of the High Commissioner for Human Rights, 
``Committee on the Elimination of Racial Discrimination Reviews the 
Report of China,'' 13 August 18.
    \33\ Stephanie Nebehay, ``China Rejects Allegations of Detaining 
Million Uighurs in Camps in Xinjiang,'' Reuters, 13 August 18. 
According to the Reuters article, Hu described the existence of 
``vocational education and employment training centres'' and 
``education'' programs for ``criminals,'' telling the committee 
``[t]hose deceived by religious extremism . . . shall be assisted by 
resettlement and education.'' UN Office of the High Commissioner for 
Human Rights, ``Committee on the Elimination of Racial Discrimination 
Reviews the Report of China,'' 13 August 18.
    \34\ Michael Caster, ``China's Crimes Against Humanity You've Never 
Heard Of,'' CNN, 26 July 18. See also China Digital Times, `` `Crimes 
Against Humanity' in Xinjiang Draw Attention,'' 30 July 18; Rome 
Statute of the International Criminal Court, adopted by the United 
Nations Diplomatic Conference of Plenipotentiaries on the Establishment 
of an International Criminal Court, A/CONF.183/9, 17 July 98, entry 
into force 1 July 02, art. 7.
    \35\ Rome Statute of the International Criminal Court, adopted by 
the United Nations Diplomatic Conference of Plenipotentiaries on the 
Establishment of an International Criminal Court, A/CONF.183/9, 17 July 
98, entry into force 1 July 02, art. 7. According to Article 7 of the 
Rome Statute, any of the following acts may constitute a ``crime 
against humanity'' when committed as part of a widespread or systematic 
attack directed against any civilian population, with knowledge of the 
attack: murder; extermination; enslavement; deportation or forcible 
transfer of population; imprisonment or other severe deprivation of 
physical liberty in violation of fundamental rules of international 
law; torture; rape, sexual slavery, enforced prostitution, forced 
pregnancy, enforced sterilization, or any other form of sexual violence 
of comparable gravity; persecution against any identifiable group or 
collectivity on political, racial, national, ethnic, cultural, 
religious, gender as defined in paragraph 3, or other grounds that are 
universally recognized as impermissible under international law, in 
connection with any act described herein or any crime within the 
jurisdiction of the International Criminal Court; enforced 
disappearance of persons; the crime of apartheid; and other inhumane 
acts of a similar character intentionally causing great suffering, or 
serious injury to body or to mental or physical health. See also 
Michael Caster, ``China's Crimes Against Humanity You've Never Heard 
Of,'' CNN, 26 July 18; China Digital Times, `` `Crimes Against 
Humanity' in Xinjiang Draw Attention,'' 30 July 18.
    \36\ ``Nearly 10 Percent of Residents of a Xinjiang Township 
Detained by Chinese Authorities,'' Radio Free Asia, 14 December 17; 
``Xinjiang Authorities Up Detentions in Uyghur Majority Areas of Ghulja 
City,'' Radio Free Asia, 19 March 18; Adrian Zenz, `` `Thoroughly 
Reforming Them Toward a Healthy Heart Attitude'--China's Political Re-
Education Campaign in Xinjiang,'' Academia.edu, updated 15 May 18, 6, 
15; Rian Thum, ``What Really Happens in China's `Re-Education' Camps,'' 
New York Times, 15 May 18; Mercy A. Kuo, ``Uyghur Biodata Collection in 
China,'' The Diplomat, 28 December 17.
    \37\ ``Nearly 10 Percent of Residents of a Xinjiang Township 
Detained by Chinese Authorities,'' Radio Free Asia, 14 December 17.
    \38\ ``Children of Detained Uyghurs Face `Terrible' Conditions in 
Overcrowded Xinjiang Orphanages,'' Radio Free Asia, 18 October 17; 
James A. Millward, ``What It's Like To Live in a Surveillance State,'' 
New York Times, 3 February 18.
    \39\ See, e.g., ``Authorities in Xinjiang's Kashgar Detain Uyghurs 
at `Open Political Re-Education Camps,' '' Radio Free Asia, 9 May 18.
    \40\ Chinese Human Rights Defenders and Equal Rights Initiative, 
``China: Massive Numbers of Uyghurs & Other Ethnic Minorities Forced 
Into Re-Education Programs,'' 3 August 18.
    \41\ Ibid.
    \42\ Ibid.
    \43\ Ibid.
    \44\ ``Elderly Among Thousands of Uyghurs Held in Xinjiang Re-
Education Camps,'' Radio Free Asia, 26 October 17.
    \45\ ``Uyghur Teenager Dies in Custody at Political Re-Education 
Camp,'' Radio Free Asia, 14 March 18.
    \46\ Amnesty International, ``Separated Souls: Uighur Journalist's 
Unbreakable Resolve To Help Her Detained Family,'' 16 March 18.
    \47\ ``Uyghur Muslim Scholar Dies in Chinese Police Custody,'' 
Radio Free Asia, 29 January 18; Uyghur Human Rights Project, ``Uyghur 
Human Rights Project Condemns Death in Custody of Scholar Muhammad 
Salih Hajim,'' 29 January 18. For more information on Muhammad Salih 
Hajim, see the Commission's Political Prisoner Database record 2018-
00107.
    \48\ ``Uyghur Exile Group Leader's Mother Died in Xinjiang 
Detention Center,'' Radio Free Asia, 2 July 18; ``Interview: `The Most 
Painful Part of Losing My Mother,' '' Radio Free Asia, 13 June 18.
    \49\ World Uyghur Congress, ``Press Release: WUC Confirms Death in 
Custody of Yet Another Uyghur Religious Scholar Abdulehed Mehsum,'' 29 
May 18.
    \50\ ``More Than Two Dozen Uyghurs From One Xinjiang County 
Perished in Re-Education Camps,'' Radio Free Asia, 27 June 18.
    \51\ For more information on Hesen Imin, see the Commission's 
Political Prisoner Database record 2018-00153.
    \52\ For more information on Sawut Raxman, see the Commission's 
Political Prisoner Database record 2018-00154.
    \53\ ``In Saghan, Yengisar, Reports of 4 Deaths in `Education 
Centers' Emerge'' [Yengisar saghanda az degende 4 kishining 
``terbiyelesh merkizi'' de olgenliki ashkarilandi], Radio Free Asia, 30 
October 17.
    \54\ Ibid.
    \55\ ``Uyghur Teenager Dies in Custody at Political Re-Education 
Camp,'' Radio Free Asia, 14 March 18; ``In Yopurgha, `Education Center' 
Death of 17-Year-Old Yaqupjan Naman Confirmed'' [Yopurghida 17 yashliq 
yaqupjan namanning ``terbiyilesh merkizi'' deolgenliki ashkarilandi], 
Radio Free Asia, 9 March 18. For more information on Yaqupjan Naman, 
see the Commission's Political Prisoner Database record 2018-00267.
    \56\ ``Uyghur Father of Two Dies After Falling Ill in Xinjiang Re-
Education Camp,'' Radio Free Asia, 12 April 18. For more information on 
Abdughappar Abdujappar, see the Commission's Political Prisoner 
Database record 2018-00175.
    \57\ ``Elderly Uyghur Woman Dies in Detention in Xinjiang 
`Political Re-Education Camp,' '' Radio Free Asia, 24 May 18.
    \58\ ``Uyghur Man Buried Amid Strict Security After Latest Xinjiang 
Reeducation Camp Death,'' Radio Free Asia, 8 June 18.
    \59\ ``24-Year-Old Nurimangul Memet Dies in `Education Center' in 
Bugur'' [24 yashliq nuriman'gul memet bugurdiki ``terbiyelesh merkizi'' 
de olup ketken], Radio Free Asia, 4 June 18. For more information on 
Nurimangul Memet, see the Commission's Political Prisoner Database 
record 2018-00395.
    \60\ Nathan VanderKlippe, ``Exporting Persecution: Uyghur Diaspora 
Haunted by Anxiety, Guilt as Family Held in Chinese Camps,'' Globe and 
Mail, 12 August 18. For more information on Adalet Teyip, see the 
Commission's Political Prisoner Database record 2018-00431.
    \61\ See, e.g., ``Interview: `I Thought I Had Completed My Duty as 
a Father,' '' Radio Free Asia, 3 January 18. See also ``Families of 
Uyghur Police Officers Among Those Detained in Xinjiang's Kashgar,'' 
Radio Free Asia, 6 November 17.
    \62\ ``Uyghur Official Arrested for Sympathizing With Political 
`Re-Education Camp' Detainees,'' Radio Free Asia, 3 April 18. For more 
information on Pezilet Bekri, see the Commission's Political Prisoner 
Database record 2018-00160.
    \63\ Ibid.
    \64\ ``Xinjiang Jails Uyghur Civil Servants Over Lack of Enthusiasm 
for Anti-Extremist Campaigns,'' Radio Free Asia, 30 May 18. For more 
information, see the Commission's Political Prisoner Database records 
2018-00264 on Omerjan Hesen and 2018-00265 on Elijan Ehmet.
    \65\ Chris Buckley and Austin Ramzy, ``Star Scholar Disappears as 
Crackdown Engulfs Western China,'' New York Times, 10 August 18. See 
also PEN America, ``Disappearance of Uyghur Scholar an Example of 
Attempts To Erase Uyghur Culture,'' 10 August 18; Nick Holdstock, 
``Where Is Rahile Dawut? '' London Review of Books, LRB Blog, 16 August 
18.
    \66\ See, e.g., ``Chinese Authorities Jail Four Wealthiest Uyghurs 
in Xinjiang's Kashgar in New Purge,'' Radio Free Asia, 5 January 18.
    \67\ For more information on Abdujelil Hajim, see the Commission's 
Political Prisoner Database record 2018-00093.
    \68\ For more information on Gheni Haji, see the Commission's 
Political Prisoner Database record 2018-00090.
    \69\ For more information on Memet Tursun Haji, see the 
Commission's Political Prisoner Database record 2018-00091.
    \70\ For more information on Imin Hajim, see the Commission's 
Political Prisoner Database record 2018-00092.
    \71\ ``Chinese Authorities Detain Uyghur Hotelier in Xinjiang's 
Kashgar City,'' Radio Free Asia, 7 May 18.
    \72\ ``Prominent Uyghur Scholar Detained in Xinjiang Capital 
Urumqi: Official,'' Radio Free Asia, 25 April 18. For more information 
on Abduqadir Jalalidin, see the Commission's Political Prisoner 
Database record 2018-00268.
    \73\ Rachel Harris and Aziz Isa Elkun, ``Uyghur Pop Star Detained 
in China,'' Freemuse, 11 June 18; ``Popular Uyghur Singer's Whereabouts 
Unknown, Believed Detained in Xinjiang Re-Education Camp,'' Radio Free 
Asia, 18 May 18.
    \74\ ``Xinjiang Authorities Detain Uyghur Pro Footballer for 
`Visiting Foreign Countries,' '' Radio Free Asia, 13 April 18. See also 
FIFPro, ``FIFPro Statement: Chinese Player `Detained,' '' 13 June 18. 
For more information on Erfan Hezimjan, see the Commission's Political 
Prisoner Database record 2018-00313.
    \75\ ``The Families Left Behind: RFA's Uyghur Reporters Tell the 
Stories of Their Family Members' Detentions,'' Radio Free Asia, last 
visited 15 June 18; Josh Chin and Clement Burge, ``Beijing Squeezes 
Exiles in U.S. by Detaining Family Back Home,'' Wall Street Journal, 30 
March 18; Amnesty International, ``Separated Souls: Uighur Journalist's 
Unbreakable Resolve To Help Her Detained Family,'' 16 March 18; Ben 
Dooley, ``US Journalists Fear China Detained Their Families,'' Agence-
France Presse, 5 March 18; Srinivas Mazumdaru, ``Uighur Journalist 
Gulchehra Hoja: `I Have My Own Sad Story To Tell,' '' Deutsche Welle, 5 
March 18; Austin Ramzy, ``After U.S.-Based Reporters Exposed Abuses, 
China Seized Their Relatives,'' New York Times, 1 March 18; ``Rights 
Groups Condemn China's Detention of RFA Reporters' Relatives,'' Radio 
Free Asia, 1 March 18; Simon Denyer, ``China Detains Relatives of U.S. 
Reporters in Apparent Punishment for Xinjiang Coverage,'' Washington 
Post, 28 February 18. For more information on the detained family 
members of RFA Uyghur Service journalist Gulchehra Hoja, see the 
following records in the Commission's Political Prisoner Database: 
2018-00373 on Elshat Abduweli, 2018-00382 on Gheyret Abdurahman, 2018-
00383 on Daniyar Abdukerim, 2018-00384 on Gulpiya Almas, 2018-00385 on 
Izhar Almas, 2018-00386 on Madina Mutalip, 2018-00387 on Mirzat 
Mutalip, 2018-00388 on Mehray Kahar, 2018-00392 on Kaisar Keyum, 2018-
00393 on Chimangul Zikri, and 2018-00394 on Abduqeyum Hoja. For more 
information on the detained family members of RFA Uyghur Service 
journalist Shohret Hoshur, see the following records in the 
Commission's Political Prisoner Database: 2015-00471 on Tudaxun Hoshur, 
2016-00002 on Shawket Hoshur, 2016-00003 on Rexim Hoshur, 2018-00367 on 
Arzigul, 2018-00369 on Ilshat Shawket, 2018-00370 on Ilyar Shawket, 
2018-00371 on Tursun, and 2018-00372 on Saniye. For more information on 
the detained family members of RFA Uyghur Service journalist Jilil 
Kashgary, see the following records in the Commission's Political 
Prisoner Database: 2018-00352 on Seidiehmet Yunus, 2018-00354 on 
Tursunmemet Yunus, 2018-00355 on Kerim Yunus, 2018-00356 on Nurmemet, 
2018-00357 on Asiya Yasin, 2018-00358 on Abduhamit Ablet, and 2018-
00359 on Abdurusul Ablet. For more information on the detained brother 
of RFA Uyghur Service journalist Kurban Niyaz, see the following record 
in the Commission's Political Prisoner Database: 2018-00360 on Hasanjan 
Niyaz. For more information on the detained family members of RFA 
Uyghur Service journalist Mamatjan Juma, see the following records in 
the Commission's Political Prisoner Database: 2018-00361 on Abduqadir 
Juma and 2018-00362 on Ahmetjan Juma. For more information on the 
detained family members of RFA Uyghur Service journalist Eset Sulaiman, 
see the following records in the Commission's Political Prisoner 
Database: 2018-00363 on Ehet Sulaiman, 2018-00364 on Saadet Kichik, and 
2018-00365 on Memteli Sopi.
    \76\ ``The Families Left Behind: RFA's Uyghur Reporters Tell the 
Stories of Their Family Members' Detentions,'' Radio Free Asia, last 
visited 21 May 18; Josh Chin and Clement Burge, ``Beijing Squeezes 
Exiles in U.S. by Detaining Family Back Home,'' Wall Street Journal, 30 
March 18; Amnesty International, ``Separated Souls: Uighur Journalist's 
Unbreakable Resolve To Help Her Detained Family,'' 16 March 18; 
Srinivas Mazumdaru, ``Uighur Journalist Gulchehra Hoja: `I Have My Own 
Sad Story To Tell,' '' Deutsche Welle, 5 March 18.
    \77\ Surveillance, Suppression, and Mass Detention: Xinjiang's 
Human Rights Crisis, Hearing of the Congressional-Executive Commission 
on China, 26 July 18, Written Testimony of Gulchehra Hoja, Uyghur 
Service Journalist, Radio Free Asia, 1.
    \78\ `` `More Than 30' Relatives of Uyghur Exile Leader Rebiya 
Kadeer Detained in Xinjiang,'' Radio Free Asia, 27 October 17; Ben 
Blanchard, ``Amnesty Says China Detains 30 Relatives of Exiled Uighur 
Leader,'' Reuters, 14 November 17; Amnesty International, ``Urgent 
Action: 30 Relatives of Uighur Activist Arbitrarily Detained,'' 14 
November 17. For more information on the detained family members of 
Rebiya Kadeer, see the following records in the Commission's Political 
Prisoner Database: 2006-00071 on Alim Abdureyim, 2006-00084 on Ablikim 
Abdureyim, 2006-00091 on Kahar Abdureyim, 2018-00028 on Aygul, 2018-
00035 on Aydidar Kahar, 2018-00036 Zulpikar Kahar, and 2018-00037 on 
Dildar Kahar.
    \79\ `` `More Than 30' Relatives of Uyghur Exile Leader Rebiya 
Kadeer Detained in Xinjiang,'' Radio Free Asia, 27 October 17; Amnesty 
International, ``Urgent Action: 30 Relatives of Uighur Activist 
Arbitrarily Detained,'' 14 November 17.
    \80\ Josh Chin and Clement Burge, ``Beijing Squeezes Exiles in U.S. 
by Detaining Family Back Home,'' Wall Street Journal, 30 March 18. See 
also Jonathan Hiskes, Simpson Center for the Humanities, University of 
Washington, ``Ethnography of a Surveillance State,'' reprinted in 
Medium, 5 June 18; Darren Byler, ``Another Scene in the Fight Against 
Islamophobia,'' anthro(dendum) (blog), 14 March 18.
    \81\ Bruce Pannier, ``Kazakh Man Recounts `Reeducation' in Western 
Chinese Camp,'' Radio Free Europe/Radio Liberty, 26 April 18. For more 
information on Kayrat Samarkan, see the Commission's Political Prisoner 
Database record 2018-00453.
    \82\ Simon Denyer, ``Former Inmates of China's Muslim `Reeducation' 
Camps Tell of Brainwashing, Torture,'' Washington Post, 17 May 18.
    \83\ Ibid.
    \84\ ``Interview: `I Lost All Hope of Surviving,' '' Radio Free 
Asia, 30 January 18; Gerry Shih, ``China's Mass Indoctrination Camps 
Evoke Cultural Revolution,'' Associated Press, 18 May 18. Media 
organizations have also rendered Omir Bekali's name as Omurbek Eli. For 
more information on Omir Bekali, see the Commission's Political 
Prisoner Database record 2018-00449.
    \85\ Gerry Shih, ``China's Mass Indoctrination Camps Evoke Cultural 
Revolution,'' Associated Press, 18 May 18.
    \86\ Ibid.
    \87\ Simon Denyer, ``Former Inmates of China's Muslim `Reeducation' 
Camps Tell of Brainwashing, Torture,'' Washington Post, 17 May 18.
    \88\ Almaz Kumenov, ``Ethnic Kazakh's Life in Balance as 
Deportation to China Looms,'' Eurasianet, 17 July 18.
    \89\ Ibid.
    \90\ ``China's `Prison-Like Re-Education Camps' Strain Relations 
With Kazakhstan as Woman Asks Kazakh Court Not To Send Her Back,'' 
Agence France-Presse, reprinted in South China Morning Post, 17 July 
18; Almaz Kumenov, ``Ethnic Kazakh's Life in Balance as Deportation to 
China Looms,'' Eurasianet, 17 July 18.
    \91\ Emily Rauhala, ``New Evidence Emerges of China Forcing Muslims 
Into `Reeducation' Camps,'' Washington Post, 10 August 18. See also 
Gene A. Bunin, ``Central Asia Struggles With Fallout From China's 
Internment of Minorities,'' Foreign Policy, 15 August 18.
    \92\ See, e.g., Jessica Batke, ``Central and Regional Leadership 
for Xinjiang Policy in Xi's Second Term,'' Asia Society, ChinaFile, 11 
May 18; ``China Has Turned Xinjiang Into a Police State Like No 
Other,'' Economist, 31 May 18.
    \93\ ``Chen Quanguo--Member of Political Bureau of CPC Central 
Committee,'' Xinhua, 25 October 17.
    \94\ China Digital Times, ``Qurans, Prayer Mats Confiscated in 
Xinjiang,'' 28 September 17; Adrian Zenz and James Leibold, ``Chen 
Quanguo: The Strongman Behind Beijing's Securitization Strategy in 
Tibet and Xinjiang,'' Jamestown Foundation, China Brief, Vol. 17, Issue 
12, 21 September 17.
    \95\ Human Rights Watch, ``China: Minority Region Collects DNA From 
Millions,'' 13 December 17; Megha Rajagopalan, ``This Is What a 21st-
Century Police State Really Looks Like,'' BuzzFeed, 17 October 17; Josh 
Chin and Clement Burge, ``Twelve Days in Xinjiang: How China's 
Surveillance State Overwhelms Daily Life,'' Wall Street Journal, 19 
December 17; Mercy A. Kuo, ``Uyghur Biodata Collection in China,'' The 
Diplomat, 28 December 17.
    \96\ Adam Lynn, Open Technology Fund, ``App Targeting Uyghur 
Population Censors Content, Lacks Basic Security,'' 9 April 18; Joseph 
Cox, ``Chinese Government Forces Residents To Install Surveillance App 
With Awful Security,'' Vice, Motherboard, 9 April 18; Roseanne Gerin, 
``Report: Uyghurs in China Forced To Install Surveillance App That 
Leaves Their Data Unsecured,'' Radio Free Asia, 10 April 18; Nithin 
Coca, ``China's Xinjiang Surveillance Is the Dystopian Future Nobody 
Wants,'' Engadget, 22 February 18; Josh Chin and Clement Burge, 
``Twelve Days in Xinjiang: How China's Surveillance State Overwhelms 
Daily Life,'' Wall Street Journal, 19 December 17; Gerry Shih, ``AP 
Exclusive: Digital Police State Shackles Chinese Minority,'' Associated 
Press, 17 December 17; Emily Feng, ``Security Clampdown Bites in 
China's Xinjiang Region,'' Financial Times, 13 November 17.
    \97\ ``Uyghurs Left Waiting While Han Chinese Bypass Checkpoints in 
Xinjiang's Hotan City,'' Radio Free Asia, 4 October 17; Megha 
Rajagopalan, ``This Is What a 21st-Century Police State Really Looks 
Like,'' BuzzFeed, 17 October 17; Josh Chin and Clement Burge, ``Twelve 
Days in Xinjiang: How China's Surveillance State Overwhelms Daily 
Life,'' Wall Street Journal, 19 December 17; James A. Millward, ``What 
It's Like to Live in a Surveillance State,'' New York Times, 3 February 
18; Josh Chin, ``About To Break the Law? Chinese Police Are Already On 
To You,'' Wall Street Journal, 27 February 18.
    \98\ Nithin Coca, ``China's Xinjiang Surveillance Is the Dystopian 
Future Nobody Wants,'' Engadget, 22 February 18; Josh Chin and Clement 
Burge, ``Twelve Days in Xinjiang: How China's Surveillance State 
Overwhelms Daily Life,'' Wall Street Journal, 19 December 17.
    \99\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18; Josh Chin and Clement Burge, 
``Twelve Days in Xinjiang: How China's Surveillance State Overwhelms 
Daily Life,'' Wall Street Journal, 19 December 17; Simon Denyer, 
``Beijing Bets on Facial Recognition in a Big Drive for Total 
Surveillance,'' Washington Post, 7 January 18; Peter Apps, 
``Commentary: China's Muslim Minority Faces a Modern Orwellian 
Nightmare,'' Reuters, 14 May 18.
    \100\ Josh Chin, ``About To Break the Law? Chinese Police Are 
Already On To You,'' Wall Street Journal, 27 February 18; Roseanne 
Gerin, ``Report: Uyghurs in China Forced To Install Surveillance App 
That Leaves Their Data Unsecured,'' Radio Free Asia, 10 April 18.
    \101\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18.
    \102\ Ibid.
    \103\ Adrian Zenz, ``China's Domestic Security Spending: An 
Analysis of Available Data,'' Jamestown Foundation, China Brief, Vol. 
18, Issue 4, 12 March 18. The average increase of 11.9 percent for 
security expenditures was based on budgeted figures for 5 provinces or 
regions and on actual spending in the other 13 provinces and regions. 
See also CECC, 2017 Annual Report, 5 October 17, 282.
    \104\ Adrian Zenz, ``Corralling the People's Armed Police: 
Centralizing Control To Reflect Centralized Budgets,'' Jamestown 
Foundation, China Brief, Vol. 18, Issue 7, 24 April 18.
    \105\ Chinese Human Rights Defenders and Equal Rights Initiative, 
``China's Counter-Terror Campaign Indiscriminately Targets Ethnic & 
Religious Minorities in Xinjiang,'' 25 July 18.
    \106\ Ibid.
    \107\ Ibid; China Digital Times, ``Xinjiang Arrests Account for 21% 
of Total in China in 2017,'' 25 July 18.
    \108\ ``Government Work Report--January 22, 2018, First Session of 
the Thirteenth People's Congress in the XUAR, Regional Chairman Shohrat 
Zakir'' [Zhengfu gongzuo baogao--2018 nian 1 yue 22 ri zai xinjiang 
weiwu'er zizhiqu di shisan jie renmin daibiao dahui di yi ci huiyi 
shang zizhiqu zhuxi xuekelaiti zhake'er], Xinjiang Daily, 28 January 
18; ``China Says `Terror' Risks in Xinjiang Remains Serious Despite 
Security Push,'' Reuters, 29 January 18; China Digital Times, 
``Xinjiang To Continue Terror Crackdown,'' 1 February 18.
    \109\ ``Government Work Report--January 22, 2018, First Session of 
the Thirteenth People's Congress in the XUAR, Regional Chairman Shohrat 
Zakir'' [Zhengfu gongzuo baogao--2018 nian 1 yue 22 ri zai xinjiang 
weiwu'er zizhiqu di shisan jie renmin daibiao dahui di yi ci huiyi 
shang zizhiqu zhuxi xuekelaiti zhake'er], Xinjiang Daily, 28 January 
18; ``China Has Turned Xinjiang Into a Police State Like No Other,'' 
Economist, 31 May 18; Leng Shumei, ``Uyghur Teachers Caught Spreading 
Religious Extremism,'' Global Times, 17 April 17. According to the 
Party-run media outlet Global Times, which used the term ``two-faced,'' 
`` `[t]wo-faced' teachers refer to those who pretend to support 
national unity but secretly spread separatism and extremism.''
    \110\ ``China Has Turned Xinjiang Into a Police State Like No 
Other,'' Economist, 31 May 18.
    \111\ Zhang Hui, ``Xinjiang Officials Assigned as Relatives to 
Uyghur Villagers for Ethnic Unity Campaign,'' Global Times, 11 January 
18; Shang Lucun et al., ``The Roots of Tianshan Cedars Link Together, 
Ethnic Unity Links Hearts Together, Xinjiang PSB Science and Technology 
Corps Links Relatives Together Across Thousands of Miles in Southern 
Xinjiang'' [Tianshan xuesong gen lian gen minzu tuanjie xin lian xin 
xinjiang gong'an ting kexin zongdui nanjiang qianli jieqin], China News 
Agency, 6 July 17; ``China Detains Kazakhs During `Unity Week' in 
Troubled Xinjiang Region,'' Radio Free Asia, 18 December 17; Joyce 
Huang, ``Stepped-Up Surveillance of Uighurs Sends `Relatives' Into 
Homes,'' Voice of America, 26 December 17; ``Xinjiang Towns, Villages 
Celebrate Party Spirit on Loudspeaker Systems,'' Global Times, 4 
January 18; Qiao Nong, ChinaAid, ``Xinjiang Closes Ethnic Minority 
Schools, Xinyuan No. 4 High School Changed Into Political Study Base'' 
[Xinjiang guanbi shaoshu minzu xuexiao xinyuan si zhong biangeng wei 
zhengzhi xuexi jidi], 4 April 18.
    \112\ ``Bring All Ethnic Groups Together in an Excellent Manner'' 
[Yi youliang zuofeng ba ge zu qunzhong ningju zai yiqi], Xinjiang 
Daily, 31 December 17. See also Zhang Hui, ``Xinjiang Officials 
Assigned as Relatives to Uyghur Villagers for Ethnic Unity Campaign,'' 
Global Times, 11 January 18; ``Taking `Relatives' Some Spiritual 
Nourishment'' [Gei qinqi song qu jingshen shiliang], Xinjiang Daily, 12 
December 17.
    \113\ Qiao Nong, ChinaAid, ``Xinjiang Closes Ethnic Minority 
Schools, Xinyuan No. 4 High School Changed Into Political Study Base'' 
[Xinjiang guanbi shaoshu minzu xuexiao xinyuan si zhong biangeng wei 
zhengzhi xuexi jidi], 4 April 18. See also ChinaAid, ``Family of Child 
Bride Imprisoned for Murder,'' 4 April 18.
    \114\ Ben Dooley, `` `Eradicate the Tumours': Chinese Civilians 
Drive Xinjiang Crackdown,'' Agence-France Presse, 26 April 18.
    \115\ Ibid.
    \116\ Human Rights Watch, ``China: Visiting Officials Occupy Homes 
in Muslim Region,'' 13 May 18. See also ``China Has Turned Xinjiang 
Into a Police State Like No Other,'' Economist, 31 May 18.
    \117\ For more information on China's hukou system, see, e.g., 
Priyanka Juneja, ``China's Hukou System,'' The Diplomat, 14 July 17.
    \118\ Josh Chin and Clement Burge, ``Twelve Days in Xinjiang: How 
China's Surveillance State Overwhelms Daily Life,'' Wall Street 
Journal, 19 December 17; Rights Defense Network, ``26 Countries Put 
Onto an Involved-With-Terrorism List, More Than 10 Muslims Sentenced in 
Xinjiang'' [26 guo bei lie she kong mingdan xinjiang 10 duo ming 
musilin bei panxing], 10 December 17. The 26 countries reportedly 
included Algeria, Afghanistan, Azerbaijan, Egypt, Pakistan, Kazakhstan, 
Kyrgyzstan, Kenya, Libya, South Sudan, Nigeria, Saudi Arabia, Iran, 
Malaysia, Indonesia, Thailand, Russia, and Turkey.
    \119\ Josh Chin and Clement Burge, ``Twelve Days in Xinjiang: How 
China's Surveillance State Overwhelms Daily Life,'' Wall Street 
Journal, 19 December 17.
    \120\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' 26 February 18.
    \121\ Qiao Nong, ChinaAid, ``Xinjiang Officials Ban the `Quran,' 
Habahe County Forces Muslims To Sign Pledge'' [Xinjiang guanfang jin 
``gulanjing'' habahe xian po musilin qian chengnuo shu], 3 March 18.
    \122\ ``Chinese Police Order Xinjiang's Muslims To Hand in All 
Copies of the Quran,'' Radio Free Asia, 27 September 17; ``RFA 
Exclusive: Large-Scale Seizure of `Qurans' in Xinjiang, Ban on the Sale 
of Goods Related to Kazakhstan'' [RFA dujia: xinjiang da guimo shouyao 
``gulanjing'' jin shou she ha shangpin], Radio Free Asia, 27 September 
17; ``Xinjiang's Korla City Seizes Qurans, Prayer Mats From Uyghur 
Muslims,'' Radio Free Asia, 2 October 17; Uyghur Human Rights Project, 
``UHRP Expresses Concern About Reports of Quran Confiscations in East 
Turkestan,'' 29 September 17.
    \123\ ``China Jails Ethnic Kazakh Man Over Quranic Recitation 
Audio,'' Radio Free Asia, 30 November 17. For more information on Manat 
Hamit, see the Commission's Political Prisoner Database record 2018-
00176.
    \124\ `` `Storing and Sharing Audiovisual Content From the `Quran' 
Can Be' `Punished' as Class Three Terrorist Violence'' [``Chucun 
fenxiang `gulanjing' yin shi neirong, kebei'' san ji baokong 
``lunchu''], Radio Free Asia, 22 November 17.
    \125\ ``Islamic Imams in Xinjiang Are Gradually Disappearing, There 
Is a Lack of Imams To Preside Over Funerals When Muslims Pass Away'' 
[Xinjiang yisilan jiao ahong zhujian xiaoshi musilin qushi que ahong 
zhuchi zangli], Radio Free Asia, 6 January 18. See also ``China 
Detains, Brainwashes `Wild' Imams Who Step Out of Line in Xinjiang,'' 
Radio Free Asia, 16 October 17.
    \126\ Qiao Nong, ChinaAid, ``Xinjiang Officials Ban the `Quran,' 
Habahe County Forces Muslims To Sign Pledge'' [Xinjiang guanfang jin 
``gulanjing'' habahe xian po musilin qian chengnuo shu], 3 March 18. 
For more information on Salheti Haribek, see the Commission's Political 
Prisoner Database record 2018-00205.
    \127\ ``Xinjiang Authorities Use `Burial Management Centers' To 
Subvert Uyghur Funeral Traditions,'' Radio Free Asia, 19 April 18.
    \128\ See, e.g., ``Xinjiang Rapidly Building Crematoria To 
Extinguish Uyghur Funeral Traditions,'' Radio Free Asia, 26 June 18; 
Josh Rogin, ``Ethnic Cleansing Makes a Comeback--In China,'' Washington 
Post, 2 August 18.
    \129\ ``Xinjiang Authorities Launch Anti-Religion Campaign Through 
Local Police Stations,'' Radio Free Asia, 12 February 18.
    \130\ For information on official religious restrictions enforced 
during Ramadan in previous reporting years, see, e.g., CECC, 2017 
Annual Report, 5 October 17, 287; CECC, 2016 Annual Report, 6 October 
16, 287; CECC, 2015 Annual Report, 8 October 15, 126, 286.
    \131\ ChinaAid, ``Xinjiang Authorities Force Muslims To Break 
Ramadan Fast,'' 23 May 18.
    \132\ ``Uyghur Schoolchildren, Parents Forced To Abstain From 
Fasting During Ramadan,'' Radio Free Asia, 21 May 18.
    \133\ Adam Lynn, Open Technology Fund, ``App Targeting Uyghur 
Population Censors Content, Lacks Basic Security,'' 9 April 18; Megha 
Rajagopalan, ``China Is Forcing People To Download an App That Tells 
Them To Delete `Dangerous' Photos,'' BuzzFeed, 9 April 18; Joseph Cox, 
``Chinese Government Forces Residents To Install Surveillance App With 
Awful Security,'' Vice, Motherboard, 9 April 18; Roseanne Gerin, 
``Report: Uyghurs in China Forced To Install Surveillance App That 
Leaves Their Data Unsecured,'' Radio Free Asia, 10 April 18; CECC, 2017 
Annual Report, 5 October 17, 288.
    \134\ Adam Lynn, Open Technology Fund, ``App Targeting Uyghur 
Population Censors Content, Lacks Basic Security,'' 9 April 18. See 
also Megha Rajagopalan, ``China Is Forcing People To Download an App 
That Tells Them To Delete `Dangerous' Photos,'' BuzzFeed, 9 April 18; 
Joseph Cox, ``Chinese Government Forces Residents To Install 
Surveillance App With Awful Security,'' Vice, Motherboard, 9 April 18; 
Roseanne Gerin, ``Report: Uyghurs in China Forced To Install 
Surveillance App That Leaves Their Data Unsecured,'' Radio Free Asia, 
10 April 18.
    \135\ ``Xinjiang Minorities Using Apple Phones Are Blocked'' 
[Xinjiang shaoshu minzu shiyong pingguo shouji shouzu], Radio Free 
Asia, 18 January 18. See also Pei Li and Cate Cadell, ``At Beijing 
Security Fair, an Arms Race for Surveillance Tech,'' Reuters, 30 May 
18.
    \136\ Darren Byler, ``Perspectives: Navigating Xinjiang's Security 
Checkpoints,'' Eurasianet, 30 April 18; ``Xinjiang Minorities Using 
Apple Phones Are Blocked'' [Xinjiang shaoshu minzu shiyong pingguo 
shouji shouzu], Radio Free Asia, 18 January 18. See also ``China Jails 
Ethnic Kazakh Man Over Quranic Recitation Audio,'' Radio Free Asia, 30 
November 17.
    \137\ See, e.g., Human Rights Watch, ``China: Big Data Fuels 
Crackdown in Minority Region,'' 26 February 18; Uyghur Human Rights 
Project, ``Briefing: China's New Counter-Terrorism Law and Its Human 
Rights Implications for the Uyghur People,'' 1 February 16; ``Chinese 
Authorities Ban Muslim Names Among Uyghurs in Hotan,'' Radio Free Asia, 
24 September 15.
    \138\ ``Xinjiang Internet Information Office and Other Relevant 
Departments Investigate and Handle Fifteen Model Cases of the 
Dissemination of Illegal Information'' [Xinjiang hulian wang xinxi 
bangongshi deng youguan bumen chachu shiwu qi chuanbo weifa xinxi 
dianxing anli], Tianshan Net, 5 November 17. See also ``11 Uyghurs and 
Kazakhs Criminally Detained for Involvement in `Terrorism and Extremist 
Religion' '' [11 ming weizu he hazu she ``kong yu jiduan zongjiao'' bei 
xingju], Radio Free Asia, 6 November 17; ``China Holds 9 Uyghurs, 2 
Others Over `Terrorist, Extremist' Videos,'' Radio Free Asia, 7 
November 17.
    \139\ ``Xinjiang Internet Information Office and Other Relevant 
Departments Investigate and Handle Fifteen Model Cases of the 
Dissemination of Illegal Information'' [Xinjiang hulian wang xinxi 
bangongshi deng youguan bumen chachu shiwu qi chuanbo weifa xinxi 
dianxing anli], Tianshan Net, 5 November 17. For information on the 
regulations, see Xinjiang Uyghur Autonomous Region People's Congress 
Standing Committee, Xinjiang Uyghur Autonomous Region Regulations To 
Prevent and Punish the Spread of False Information on the Internet 
[Xinjiang weiwu'er zizhiqu fangfan he chengzhi wangluo chuanbo xujia 
xinxi tiaoli], issued 1 December 16, effective 10 December 16; Edward 
Wong, ``Xinjiang, Tense Chinese Region, Adopts Strict Internet 
Controls,'' New York Times, 10 December 16; Christian Shepherd and 
Michael Martina, ``China Imposes Hefty Fines for Fake or Harmful News 
in Xinjiang,'' Reuters, 8 December 16; ``Xinjiang Passes New 
Regulations To Prevent and Punish `False' and `Harmful' Information on 
the Internet'' [Xinjiang tongguo fangzhi wangluo ``xujia'' he 
``youhai'' xinxi de tiaoli], Radio Free Asia, 12 December 16. See also 
CECC, 2017 Annual Report, 5 October 17, 289.
    \140\ ``News About Uighur Scholar Ilham Tohti on the Third 
Anniversary of His Sentencing: No News,'' China Change, 22 September 
17. See also ``Ilham Tohti's Niece Sentenced to 10 Years for Storing 
Picture on Cell Phone, Kazakh Businessman Suddenly Dies After Being 
Detained for 7 Months'' [Yilihamu zhinu shouji cun tu mi pan 10 nian 
hazu shangren bei bu qi yue hou turan siwang], Radio Free Asia, 25 
December 17; ``Rights Groups Demand Uyghur Scholar's Freedom on 
Anniversary of Life Sentence,'' Radio Free Asia, 25 September 17. For 
more information on Ilham Tohti, see CECC, 2016 Annual Report, 6 
October 16, 284; CECC, 2015 Annual Report, 8 October 15, 284. See also 
the Commission's Political Prisoner Database record 2009-00315.
    \141\ Steven Butler, Committee to Protect Journalists, ``Conditions 
Deteriorate for Foreign Press in China, FCCC Finds,'' 31 January 18.
    \142\ Foreign Correspondents' Club of China, ``Access Denied: 
Surveillance, Harassment and Intimidation as Reporting Conditions in 
China Deteriorate,'' January 2018, 2, 5.
    \143\ Ibid., 5, 12; Ann Hui, ``Globe and Mail Journalist Detained 
by Chinese Police in Xinjiang Region,'' Globe and Mail, 24 August 17.
    \144\ Foreign Correspondents' Club of China, ``Access Denied: 
Surveillance, Harassment and Intimidation as Reporting Conditions in 
China Deteriorate,'' January 2018, 6, 12.
    \145\ See, e.g., CECC, 2017 Annual Report, 5 October 17, 289-90; 
CECC, 2016 Annual Report, 6 October 16, 172, 289.
    \146\ See, e.g., PRC Passport Law [Zhonghua renmin gongheguo huzhao 
fa], passed 29 April 06, effective 1 January 07, arts. 2, 15; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2); United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 31 August 18. China has signed but not ratified 
the ICCPR.
    \147\ Edward Wong, ``Police Confiscate Passports in Parts of 
Xinjiang, in Western China,'' New York Times, 1 December 16; ``China 
Recalls Passports Across Xinjiang Amid Ongoing Security Crackdown,'' 
Radio Free Asia, 20 October 16; Yu Mengtong, ``Shihezi, Xinjiang, 
Tightens Border Controls Again, Public Security Requires Residents To 
Turn in Passports'' [Xinjiang shihezi biankong zai shoujin gong'an yao 
jumin shangjiao huzhao], Voice of America, 21 October 16.
    \148\ ``China Expands Recall of Passports to Uyghurs Outside of 
Xinjiang,'' Radio Free Asia, 8 December 17.
    \149\ Human Rights Watch, ``China: Minority Region Collects DNA 
from Millions,'' 13 December 17.
    \150\ ``Uyghur Women and Children Endure Heavy Labor Amid 
Detentions in Xinjiang's Hotan,'' Radio Free Asia, 16 October 17.
    \151\ Ibid.
    \152\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30.
    \153\ Declaration on the Rights of Persons Belonging to National or 
Ethnic, Religious and Linguistic Minorities, adopted by UN General 
Assembly resolution 47/135 of 18 December 92, art. 4.
    \154\ ``Tongue-Tied: Teaching Uighur Children Mandarin Will Not 
Bring Stability to Xinjiang,'' Economist, 27 June 15; Uyghur Human 
Rights Project, ``Uyghur Voices on Education: China's Assimilative 
`Bilingual Education' Policy in East Turkestan,'' May 2015, 3-4, 10, 
12, 16, 18, 21, 26-28. For Commission analysis, see ``Xinjiang 
Authorities Accelerate Promotion of Mandarin-Focused Bilingual 
Education,'' Congressional-Executive Commission on China, 10 May 11.
    \155\ United Front Work Department, ``(Under the Microscope: Five 
Years of Encouragement) Xinjiang's Economic and Social Standards Have 
Developed Steadily and Healthily, People's Sense of Achievement Has 
Continuously Risen'' [(Weiguan: dili wu nian jian) xinjiang jingji 
shehui pingwen jiankang fazhan, renmin qunzhong huode gan buduan 
zengqiang], 10 October 17.
    \156\ Jiang Fu'er, ``Xinjiang: Expanding Inclusive Kindergarten 
Coverage This Year'' [Xinjiang: jinnian jiang kuoda pu hui xing you'er 
yuan fugai mian], China Education Daily, 2 April 18; Zhao Yusha, 
``Xinjiang To Build More Preschools for Mandarin Fluency,'' Global 
Times, 2 April 18.
    \157\ ``Xinjiang To Strengthen Preschool Bilingual Education,'' 
Xinhua, 6 May 16.


                                                          Tibet
                                                Tibet

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    There has been no formal dialogue between the Dalai Lama's 
representatives and Chinese Communist Party and government 
officials since the ninth round of dialogue was held in January 
2010.\1\ In its 2017 Report on Tibet Negotiations, the U.S. 
State Department reiterated the policy of the U.S. Government 
``to encourage meaningful and direct dialogue between Chinese 
authorities and the Dalai Lama or his representatives, without 
preconditions, to lead to a settlement that resolves 
differences.'' \2\ In keeping with the Chinese government's 
longstanding policy,\3\ executive deputy head of the Party's 
United Front Work Department Zhang Yijiong stated on October 
21, 2017, that the Chinese government opposes meetings between 
foreign officials and the Dalai Lama, calling him ``a leader of 
a separatist group that is engaging in separatist activities.'' 
\4\ At a November 23, 2017, meeting of the Indian Chamber of 
Commerce in Kolkata, the Dalai Lama reaffirmed the Middle Way 
Approach of seeking autonomy for Tibet within the People's 
Republic of China,\5\ stating that the Tibetan people ``are not 
seeking independence'' and that they ``want to stay with 
China.'' \6\ On April 3, 2018, Central Tibetan Administration 
(CTA) President Lobsang Sangay stated that ``back channel 
talks'' continue between the Chinese government and the CTA.\7\

                 Reincarnation and the 14th Dalai Lama

    The Chinese central government maintains that only it has 
the right to decide the Dalai Lama's successor,\8\ a policy at 
odds with international standards of religious freedom.\9\ The 
14th Dalai Lama, Tenzin Gyatso, who reached the age of 83 in 
July 2018,\10\ has stated that he will ``consult the high Lamas 
of the Tibetan Buddhist traditions, the Tibetan public, and 
other concerned people who follow Tibetan Buddhism, and re-
evaluate whether the institution of the Dalai Lama should 
continue or not,'' \11\ and has hinted that he may select a 
successor while he is still alive.\12\
    The Chinese government continues to suppress expression of 
devotion to or support for the Dalai Lama. In February 2018, 
the Tibet Autonomous Region (TAR) Public Security Department 
issued a circular encouraging people to report illegal 
activities of ``criminal groups connected to the Dalai 
clique.'' \13\ Despite these and other measures attempting to 
undermine the stature of the Dalai Lama, Tibetan Buddhists 
continue to revere him as their spiritual leader and take great 
risks to access his teachings, possess an image of him, or 
express their devotion in other ways.\14\ For example, on May 
8, 2018, public security officials in Chiduo (Trido) township, 
Suo (Sog) county, Naqu (Nagchu) municipality, TAR, detained a 
father of two for possession of books and audio recordings of 
the Dalai Lama.\15\
    Chinese authorities also continued to expand the public 
profile of their chosen Panchen Lama, Gyaltsen Norbu, whom 
Party and government officials selected as the 11th Panchen 
Lama in 1995, shortly after declaring the Dalai Lama's 
recognition of then six-year-old Gedun Choekyi Nyima to be 
``illegal and invalid.'' \16\ According to observers, Gyaltsen 
Norbu is likely to play a significant role in the Party and 
government's selection of their endorsed successor to the 14th 
Dalai Lama.\17\ Chinese authorities abducted Gedun Choekyi 
Nyima and his parents on May 17, 1995, three days after the 
Dalai Lama recognized him as the reincarnation of the 10th 
Panchen Lama, and have refused to permit an independent expert 
to visit him.\18\ The Panchen Lama and his parents' whereabouts 
remain unknown.\19\

                Religious Freedom for Tibetan Buddhists

    The Party and government continued to regulate Tibetan 
Buddhism and its practices in an effort to strengthen their 
control over Tibetan Buddhists.\20\ During Saga Dawa, a month-
long celebration of the Buddha's life and enlightenment that 
fell between May 15 and June 15, 2018, TAR authorities set up 
``service centers'' \21\ for worshippers and barred current and 
retired government employees from participating in religious 
activities.\22\ Authorities in Chengguan (Chamdo) township, 
Changdu (Chamdo) municipality, TAR, forbade students attending 
the Second Kindergarten School, as well as their parents, from 
participating in religious activities or visiting monasteries 
during Saga Dawa.\23\ [For information on relevant laws 
relating to religious freedom in China, see Section II--Freedom 
of Religion.]

------------------------------------------------------------------------
                     Further Clampdown on Larung Gar
-------------------------------------------------------------------------
  In July 2016, provincial authorities in Ganzi Tibetan Autonomous
 Prefecture (TAP), Sichuan province, began the process of demolishing
 dwellings and expelling monks and nuns at Larung Gar Buddhist Institute
 (Larung Gar), in Seda (Serthar) county, Ganzi TAP, Sichuan.\24\
 Government control of Larung Gar continued during the Commission's 2018
 reporting year.\25\ An October 2017 report by Free Tibet and Tibet
 Watch shows that by the end of May 2017 authorities had leveled at
 least 4,725 homes and forced at least 4,828 residents to leave Larung
 Gar since July 2016.\26\ Human Rights Watch (HRW) obtained a brochure
 that authorities issued in August 2017, which laid out
 ``standardization'' procedures at Larung Gar in the name of
 security.\27\ According to the brochure, the government will install
 cadres at every level and section of the monastery, many in top-level
 roles, while officials will surveil the monastery as a whole using a
 grid management system,\28\ instituting real-name registration for all
 visitors and residents, and requiring monks, nuns, and laypeople to
 wear colored tags indicating their status within the institute.\29\
 According to HRW's January 2018 report, 40 percent of the monastery's
 curriculum must include politics and other non-religious subjects.\30\
 On October 29, 2017, authorities in Sichuan abruptly cancelled
 observance of the prayer festival Dechen Shedrub at Larung Gar for the
 second consecutive year, reversing an earlier decision to permit
 celebrations.\31\ HRW China Director Sophie Richardson said the
 government's actions ``show a pernicious intent to exercise extreme
 control over religious practice.'' \32\ According to the International
 Campaign for Tibet and the Tibetan Centre for Human Rights and
 Democracy, the expulsions and demolitions at Larung Gar are also driven
 by the Chinese government's plans to increase business and tourism in
 the area.\33\
------------------------------------------------------------------------

                            Self-Immolations

    Self-immolations by Tibetans as a form of protest continued 
during this past year,\34\ including three known self-
immolations in Tibetan autonomous areas \35\ of China. All 
three were confirmed to be fatal, bringing the total number of 
such self-immolations by Tibetans living in China to 147 since 
2009, 130 of which were reportedly fatal.\36\ Since 2009, many 
Tibetan self-immolators have called for the long life of the 
Dalai Lama, his return from exile, and freedom for Tibet.\37\

        <bullet> Tenga, a 63-year-old monk, self-immolated in 
        Ganzi (Kardze) county, Ganzi TAP, Sichuan, on November 
        26, 2017, while calling for freedom for Tibet.\38\ 
        Armed police quickly came and confiscated his body.\39\ 
        Authorities cut off telephone lines and social media 
        services in Ganzi TAP following Tenga's death, while 
        police were stationed at Tenga's family home.\40\
        <bullet> Konpe, a former monk in his thirties, set 
        himself on fire on December 23, 2017, near Kirti 
        Monastery in Aba (Ngaba) Tibetan and Qiang Autonomous 
        Prefecture (T&QAP), Sichuan.\41\ The police quickly 
        extinguished the fire and brought Konpe to a hospital 
        in Maerkang (Barkham) county, Aba T&QAP.\42\ Konpe died 
        of his injuries on December 24.\43\ Around that time, 
        authorities detained his father, Gyakyab, on unknown 
        charges.\44\ According to the International Campaign 
        for Tibet, 24 current and former Kirti monks have self-
        immolated since 2009.\45\
        <bullet> Tsekho Tugchag (Tsekho Tugchak), a former monk 
        at No. 4 (Namtsoma) village, Mai'erma (Me'uruma) 
        township, Aba, self-immolated and died on March 7, 
        2018, in Aba.\46\

    Tibetans have also faced detention for sharing information 
about self-immolations. For instance, in October 2017, 
authorities in Yushu (Yulshul) TAP, Qinghai province, detained 
seven Tibetans \47\ for posting to the messaging service WeChat 
a two-year-old video about the lives of self-immolators.\48\

                Security, Surveillance, and Party Policy

    The government and Party continued implementing repressive 
policies in Tibetan autonomous areas of China through the use 
of extensive and intrusive surveillance, stringent measures 
that restrict Tibetans' fundamental rights, and pervasive 
displays of police and military force.\49\ Domestic security 
spending in two Tibetan prefectures in Sichuan increased nearly 
300 percent between 2007 and 2016, while the TAR's domestic 
security spending grew 404 percent over the same time period, 
compared to a 215 percent increase nationwide.\50\ Under 
Chinese President and Party General Secretary Xi Jinping, the 
Chinese Communist Party's United Front Work Department (UFWD) 
has assumed the primary role of administering religious and 
ethnic affairs, making it the locus of management of Tibetans 
within China as well as of relations with overseas 
Tibetans.\51\
    Security measures markedly increased around the 19th 
National Congress of the Chinese Communist Party (19th Party 
Congress) in October 2017.\52\ The central government 
reportedly banned foreigners from visiting the TAR between 
October 18 and 28 \53\ and deployed security forces to the TAR 
and other Tibetan areas as the 19th Party Congress began, with 
public military drills reported in the TAR and in Guoluo 
(Golog) Tibetan Autonomous Prefecture (TAP), Qinghai 
province.\54\ In Shannan (Lhokha) municipality, TAR, ``temple 
management cadres'' went to monks' quarters to conduct ``one-
on-one study'' of the ``19th Party Congress spirit.'' \55\ 
After the congress concluded, reports emerged of mandatory 
``patriotic reeducation'' in Tibetan areas, with abbots and 
monastery teachers told to organize ``training courses'' on the 
``19th Party Congress spirit.'' \56\
    In a report submitted for the November 2018 session of the 
UN Human Rights Council's Universal Periodic Review (UPR) of 
the Chinese government's human rights record, the International 
Federation for Human Rights and International Campaign for 
Tibet warned that ``the human rights situation in the Tibetan 
areas of China has significantly worsened'' since the UN Human 
Rights Council's last UPR of China in 2013.\57\ The TAR 
government has reportedly constructed a ``mass surveillance'' 
system powered by humans and technology,\58\ posting security 
officials to ``convenience police stations'' and Party cadres 
to villages and monasteries,\59\ while also incentivizing 
Tibetans to police each other. The Naqu (Nagchu) Municipal 
Public Security Bureau in Naqu municipality, TAR, issued a 
circular on March 13, 2018, promising cash rewards for tips on 
a number of alleged offenses, from illegal possession of 
firearms to ``the abuse of religion, power, and family 
connections to illegally encroach on property.'' \60\ The 
circular, reprinted in Radio Free Asia (RFA), indicates that 
public security officers will offer 50,000 yuan (US$7,300) for 
certain tips, and up to 100,000 yuan (US$14,700) for tips on 
``criminal gangs'' advocating for ``separatism,'' \61\ which 
RFA reported may implicate the promotion of Tibetan cultural 
and religious practices or support for the Dalai Lama's Middle 
Way Approach.\62\

                       Status of Tibetan Culture

    China's 2016-2020 National Human Rights Action Plan (HRAP) 
provides both that ``the cultural rights of ethnic minorities 
shall be guaranteed'' and that ``[t]he right of ethnic 
minorities to learn, use and develop their own spoken and 
written languages shall be respected and guaranteed,'' echoing 
provisions of China's Constitution, the PRC Regional Ethnic 
Autonomy Law, and the PRC Education Law.\63\ Tibetan culture 
and language face increasing marginalization, however, 
particularly as the Chinese government and Party continue to 
promote Mandarin Chinese as the main language of instruction in 
Tibetan areas.\64\
    Nearly two years after the New York Times interviewed him 
and published a short film about his advocacy for Tibetan 
language education, Tashi Wangchug (Tashi Wangchuk) stood trial 
at the Yushu (Yulshul) Prefecture Intermediate People's Court 
in Qinghai province on January 4, 2018.\65\ Tashi Wangchug 
denied the charge of ``inciting separatism,'' arguing that he 
was ``exercising his right as a citizen to criticize'' the 
local government concerning the preservation of Tibetan culture 
and language.\66\ Authorities permitted only three of his 
relatives into the courtroom, and denied entry to diplomats 
from the United States, the European Union, the United Kingdom, 
Germany, and Canada.\67\ On May 22, the court found Tashi 
Wangchug guilty and sentenced him to five years in prison.\68\ 
The Qinghai High People's Court reportedly rejected his appeal 
in August 2018.\69\

                         Freedom of Expression

    This past year, Tenzin Tethong, Tibetan Service Director 
for Radio Free Asia, testified before the U.S. Congress that 
the Tibet Autonomous Region (TAR) ``ranks among the world's 
worst media environments after North Korea.'' \70\ In certain 
Tibetan areas, censorship further tightened around the 19th 
Party Congress in October 2017,\71\ including a digital 
communications blackout imposed by the TAR government during 
the Party Congress.\72\
    Public security bureaus (PSB) in some Tibetan areas of 
China introduced local directives to control and censor social 
media groups, operationalizing features of the PRC 
Cybersecurity Law as well as the Provisions on the 
Administration of Internet Group Information Services, which 
took effect on October 8, 2017.\73\ The provisions hold social 
group creators and administrators responsible for content 
shared among public and private groups.\74\ Selected examples 
follow.

        <bullet> In Gannan (Kanlho) Tibetan Autonomous 
        Prefecture (TAP), Gansu province, the Machu County PSB 
        issued directives forbidding chat group administrators 
        and WeChat public account owners from sharing nine 
        different categories of information, from ``state 
        secrets'' and ``rumors'' to ``other illegal 
        information,'' noting that violators ``will be dealt 
        with by the relevant departments in accordance with 
        relevant laws and regulations.'' \75\
        <bullet> In advance of the 19th Party Congress in 
        October 2017, PSB officials in Zeku (Zekog) county, 
        Huangnan TAP, Qinghai province, forced 248 Tibetan 
        WeChat group administrators to undergo legal training 
        and write statements of responsibility for group chat 
        content as part of an effort to resist ``illegal 
        criminal activity'' and ``harmful information.'' \76\
        <bullet> Authorities reportedly forced monks at Tsang 
        Monastery in Tongde (Gepasumdo) county, Hainan (Tsolho) 
        TAP, Qinghai, to attend a March 2018 ``legal 
        education'' session during which monks received 
        instruction on the PRC Cybersecurity Law's provisions 
        against sharing ``illegal content'' online.\77\ On 
        April 16, 2018, local PSB officials reportedly detained 
        two of the monks at Tsang Monastery.\78\ Reports only 
        named one monk, Oechung Gyatso, whom authorities 
        detained in connection with the unauthorized sharing of 
        politically ``sensitive'' photos and writings on 
        WeChat.\79\

    The Commission observed one significant case of a high-
profile political prisoner whose detention contravened 
international standards of freedom of expression.\80\ On 
January 10, 2018, the Haibei Intermediate People's Court in 
Haibei (Tsojang) TAP, Qinghai, sentenced Tsegon Gyal \81\ to 
three years in prison for ``inciting separatism.'' \82\ 
According to a February 18 statement by the Tibetan Centre for 
Human Rights and Democracy, authorities detained Tsegon Gyal on 
December 9, 2016,\83\ apparently in connection to a blog post 
he wrote criticizing the Chinese government for failing to 
truly support its policy of ``ethnic unity.'' \84\
    Authorities released at least four political prisoners 
during the reporting year.\85\ On March 19, 2018, popular 
Tibetan writer and intellectual Drukar Gyal \86\ (pen name 
Shogjang) completed a three-year prison sentence for ``inciting 
separatism'' in connection to his writing.\87\ Around August 2, 
authorities released popular singer Gonpo Tenzin upon 
completing a sentence of three years and six months.\88\ 
Authorities detained him in 2013, apparently in connection with 
his hit song ``How Can We Have New Year's Celebrations in 
Tibet? '' which encouraged Tibetans to preserve their culture 
and language.\89\ On August 10, Namkha Jam finished a nearly 
six-year \90\ sentence for ``inciting separatism.'' \91\ The 
Huangnan Intermediate People's Court of Huangnan (Malho) TAP, 
Qinghai, convicted him and three other Tibetans in connection 
with the sharing of information about self-immolations and 
protests with allegedly ``separatist'' Tibetan 
organizations.\92\ Authorities also released Gonpo Tseten on 
August 13, one year and six months before the end of his 12-
year sentence for ``inciting separatism'' for leading a protest 
in Awangcan (Bhelpan) township, Maqu (Machu) county, Gannan 
(Kanlho) TAP, Gansu province in March 2008.\93\ All four men 
still face from two to four years' deprivation of political 
rights.\94\
    Filmmaker Dondrub Wangchen (Dhondup Wangchen), who had 
served six years in prison and three years' deprivation of 
political rights \95\ for ``inciting separatism,'' \96\ fled 
China in fall 2017 and reunited with his family in San 
Francisco on December 25, 2017.\97\ Authorities detained 
Dondrub Wangchen in March 2008 for his role in making the 
documentary ``Leaving Fear Behind,'' in which ordinary Tibetans 
in China shared their feelings about a range of issues, 
including the Dalai Lama and the August 2008 Summer Olympics in 
Beijing municipality.\98\

------------------------------------------------------------------------
        Censorship of Social Media and Reporting on Jokhang Fire
-------------------------------------------------------------------------
  Limited access to information about a fire that broke out at the
 Jokhang temple complex in Lhasa municipality, Tibet Autonomous Region
 (TAR), on February 17, 2018, raised concerns among Tibetan communities
 and experts about the extent of the damage at the site.\99\ Tibetans
 posted distressed messages and video of the fire to the messaging
 service WeChat, including some messages questioning why the fire
 department did not immediately arrive.\100\ Within hours, the TAR
 government reportedly imposed a ban on discussion of the fire on social
 media,\101\ while the state-run media outlet Xinhua reported that the
 fire had been extinguished.\102\ A leaked document later revealed that
 the authorities took 30 minutes to respond, even though in December
 2017 China reported to the UN Educational, Scientific and Cultural
 Organization (UNESCO) World Heritage Committee that the temple had a
 fire brigade stationed on premises ``for the safety and protection of
 cultural relics.'' \103\ The temple remained open on February 18, but
 drapes covered the site of the central Jowo Shakyamuni statue,\104\ the
 namesake of the temple and one of the most sacred statues in Tibetan
 Buddhism.\105\ The State Administration of Cultural Heritage reported
 that the fire did not damage the Jowo Shakyumuni statue.\106\
  According to scholar Robert Barnett, ``almost total suppression of
 information'' \107\ quickly followed the fire at the 1,300-year-old
 Jokhang temple complex,\108\ which is a sacred site for Tibetans,
 Mongolians, and other Buddhists in the Himalayas and Central Asia.\109\
 Barnett indicated that the restriction of information about the fire
 caused many Tibetans to fear that the damage was far worse than had
 been reported.\110\ In June, the advocacy organization Free Tibet
 published satellite images showing damage to the Jowo Rinpoche Chapel,
 which houses the Jowo Shakyamuni statue.\111\
------------------------------------------------------------------------

                          Freedom of Movement

    The Chinese government severely restricts the ability of 
Tibetans to travel abroad, often in relation to religious 
pilgrimage.\112\ For example, this past year Radio Free Asia 
reported that Chinese authorities threatened the families of 
Tibetans traveling to attend the Dalai Lama's teachings in Bodh 
Gaya, India, and that Chinese immigration authorities destroyed 
some of their passports upon their return to China and failed 
to reissue new passports.\113\ According to international 
advocacy organization Free Tibet, in March 2018, Chinese 
authorities detained 60 Tibetans upon their return from 
pilgrimage to India and Nepal, and reportedly sent them to a 
``reeducation'' program.\114\
    Authorities also continued to restrict movement of Tibetans 
within Tibetan areas of China. This past year, Tibetans making 
pilgrimage to Lhasa on foot reportedly faced a fine of 3,000 
yuan (US$440) per day.\115\ In April 2018, plainclothes 
officers in Dali (Darlag) county, Guoluo (Golog) TAP, Qinghai 
province, detained and interrogated a 60-year-old pilgrim on 
her way to Lhasa.\116\ The pilgrim, Lhamo Drolma (Lhamo 
Dolkar), from Bora village, Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, remained missing as of April 13, 
2018.\117\
    Chinese officials increasingly seek to restrict the freedom 
of movement of Tibetans in neighboring Nepal with the 
cooperation of Nepalese authorities. The Chinese government has 
stationed Chinese police on the Nepali side of the border to 
capture Tibetan refugees.\118\ The Chinese government 
reportedly provided funding for a new training academy for the 
Nepal Armed Police Force, which allegedly plays an important 
role in preventing Tibetan refugees from entering Nepal.\119\ 
Nepal has hosted Tibetan refugees since the 1950s \120\ and 
currently has a population of around 20,000 Tibetans.\121\

                 Economy, Environment, and Development

    The Commission observed no evidence during its 2018 
reporting year that the Party or government solicited 
systematic or representative input from the Tibetan population 
on economic development in Tibetan autonomous areas of 
China.\122\ Chinese officials reportedly used environmental 
protection regulations to restrict the land use of Tibetan 
herders \123\ and in one instance detained at least 30 people 
who protested a mining project located on a mountain considered 
a sacred site, while one protester went missing.\124\ Other 
infrastructure projects may threaten environmental damage and 
the livelihood and safety of Tibetans.\125\
    On November 27, 2017, Chinese authorities announced that 
only security and other authorized officials would have access 
to the Hoh Xil Nature Reserve, which spans Qinghai province, 
the TAR, and the Xinjiang Uyghur Autonomous Region (XUAR); 
Qiangtang (Chang Tang) National Nature Reserve in the TAR; and 
Altun Shan Nature Reserve in the XUAR.\126\ UNESCO approved the 
nomination of Hoh Xil as a World Heritage site in July 
2017,\127\ the highest and largest plateau in the world \128\ 
and China's largest World Heritage site at 3.74 million 
hectares (14,423.35 square miles), with a buffer zone of 2.29 
million hectares (8,845.23 square miles).\129\ The Chinese 
government estimated that 50,000 people herd in the reserve's 
buffer zone,\130\ and stated that it would ``fully respect the 
will of the local herders and their traditional culture, 
religious beliefs, and lifestyle.'' \131\ A white paper 
released by the State Council Information Office in June 2018, 
however, claimed that Hoh Xil is ``free of human activity.'' 
\132\
    Infrastructure projects in the TAR could further impact the 
local people and the environment, as well as communities beyond 
the TAR. For example, a proposed 1,000-kilometer (621.37-mile) 
water tunnel from the TAR to the XUAR \133\ would divert the 
Yarlung Tsangpo River, which becomes the Brahmaputra downstream 
in Bangladesh and India.\134\ Some observers fear this is a 
sign that the Chinese government is attempting to expand its 
influence over neighboring countries.\135\ Fan Xiao, a senior 
engineer at the Sichuan Bureau of Geological Exploration,\136\ 
warned that the scheme willfully ignores the environmental, 
social, and cultural costs of diverting a major water source, 
including flooding and displacement of local residents.\137\
    This past year, TAR officials continued to promote tourism, 
efforts allegedly connected to the demolition of Tibetan 
religious and cultural centers.\138\ According to the state-run 
Xinhua news agency, the TAR received 1.2 million tourists 
during the National Day holiday in October 2017, up 16.5 
percent from the previous year, in part as the result of the 
opening of a new highway connecting Lhasa municipality and 
Linzhi (Nyingchi) municipality.\139\ In May 2018, about 60 
Tibetan nomad families in the village of Lhadul in Nimu (Nyemo) 
county, Lhasa, TAR, made a video that circulated online 
appealing to officials beyond their township to regain access 
to pastureland which Chinese authorities had designated for 
tourism.\140\


                                                          Tibet
                                                Tibet
    Notes to Section V--Tibet

    \1\ U.S. Department of State, ``Report to Congress on Tibet 
Negotiations, Department of State Authorities Act, Fiscal Year 2017, 
Improvements Act P.L. 115-94, Sec. 13,'' attached to letter from Mary 
K. Waters, Assistant Secretary, Legislative Affairs, U.S. Department of 
State, to House of Representatives, Committee on Foreign Affairs, 21 
May 18, 1; U.S. Department of State, ``Report on Tibet Negotiations, 
P.L. 107-228 Section 613(b), of the Foreign Relations Authorization Act 
of Fiscal Year 2003,'' attached to letter from Julia Frifield, 
Assistant Secretary, Legislative Affairs, U.S. Department of State, to 
the Senate Committee on Foreign Relations, 19 August 16, 1.
    \2\ U.S. Department of State, ``Report to Congress on Tibet 
Negotiations, Department of State Authorities Act, Fiscal Year 2017, 
Improvements Act P.L. 115-94, Sec. 13,'' attached to letter from Mary 
K. Waters, Assistant Secretary, Legislative Affairs, U.S. Department of 
State, to House of Representatives, Committee on Foreign Affairs, 21 
May 18, 1. See also International Campaign for Tibet, ``Trump 
Administration's First Tibet Negotiations Report to Congress Reflects 
the Absence of a Special Coordinator for Tibetan Issues,'' 6 June 18.
    \3\ Cui Jia, ``China Strongly Opposes Any Meeting With Dalai 
Lama,'' China Daily, 21 October 17. See also ``China Reiterates 
Opposition to Dalai Lama's Botswana Visit Next Month,'' Tibetan Review, 
16 July 17; Robert J. Barnett and Deborah Jerome, ``U.S.-China: Dalai 
Lama Drama,'' Council on Foreign Relations (blog), 17 February 10.
    \4\ Stuart Lau, ``Senior Chinese Official Attacks Foreign Leaders 
for Meeting Dalai Lama as He Promises To Crack Down on Religious 
Separatists,'' South China Morning Post, 21 October 17; Bhuchung K. 
Tsering, ``Analyzing Chinese Official Zhang Yijiong's Remarks on Dalai 
Lama and Tibet,'' International Campaign for Tibet (blog), 26 October 
17.
    \5\ Central Tibetan Administration, ``The Middle-Way Policy,'' last 
visited 14 July 18; ``Tibet Wants To Stay With China, Says Dalai 
Lama,'' Times of India, 24 November 17; `` `Past Is Past': Dalai Lama 
Says Tibet Wants To Stay With China, Wants Development,'' Hindustan 
Times, 23 November 17.
    \6\ `` `Past Is Past': Dalai Lama Says Tibet Wants To Stay With 
China, Wants Development,'' Hindustan Times, 23 November 17; ``Tibet 
Wants To Stay With China, Seeks Development, Says Spiritual Leader 
Dalai Lama,'' Indian Express, 23 November 17.
    \7\ Tenzin Dharpo, ``No Official Communication With Beijing but 
`Back Channel Talks' Happen, Says CTA President,'' Phayul, 4 April 18; 
Aishwarya Kumar, ``No Official Communication, but Back Channel Talks On 
With China, Says Tibetan Govt-in-Exile,'' News18, 3 April 18.
    \8\ Takeshi Narabe, ``Discussions on Dalai Lama's Succession Could 
Begin This Year,'' Asahi Shimbun, 16 March 18; Matthew Gindin, ``US 
Senate Backs Tibet in Battle Over the Dalai Lama's Reincarnation,'' 
Tricycle, 11 May 18. See also CECC, 2017 Annual Report, 5 October 17, 
299; CECC, 2008 Annual Report, 31 October 08, 189; ``Special Topic 
Paper: Tibet 2008-2009,'' Congressional-Executive Commission on China, 
22 October 09, 38-39.
    \9\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(g). Article 6(g) of 
the Declaration includes the right to ``train, appoint, elect or 
designate by succession appropriate leaders called for by the 
requirements and standards of any religion or belief.''
    \10\ Office of His Holiness the Dalai Lama, ``Brief Biography,'' 
last visited 14 July 18. According to biographical information on the 
Dalai Lama's official website, he was born on July 6, 1935.
    \11\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 24 
September 11.
    \12\ Takeshi Narabe, ``Discussions on Dalai Lama's Succession Could 
Begin This Year,'' Asahi Shimbun, 16 March 18; Ellen Barry, ``Dalai 
Lama's Journey Provokes China, and Hints at His Heir,'' New York Times, 
6 April 17.
    \13\ Tibetan Autonomous Region Public Security Department, 
``Bulletin on Reporting Leads on Crimes and Violations of Evil Forces'' 
[Guanyu jubao hei'e shili weifa fanzui xiansuo de tonggao], issued 12 
February 18, sec. 1(2); ``CCP Cracks Down on Tibet--Preservation of 
Mother Tongue Called `Reactionary Ideology' '' [Zhonggong yu xizang 
kaizhan yanda--baohu muyu chengwei ``fandong sixiang''], Voice of 
Tibet, 12 February 18; Liu Caiyu, ``Police Asks Tibetans for Dalai Lama 
Tips,'' Global Times, 11 February 18; International Campaign for Tibet, 
``Chinese Police Circular Urges Public To Report on Loyalty to `Evil 
Forces' of Dalai Lama,'' 13 February 18.
    \14\ See, e.g., ``Two Tibetans Arrested for Keeping Dalai Lama 
Photos,'' Tibetan Journal, 28 June 18; Tibetan Centre for Human Rights 
and Democracy, ``Annual Report 2017: Human Rights Situation in Tibet,'' 
7 May 18, 49; Freedom House, ``Freedom in the World 2018--Tibet,'' last 
visited 3 September 18.
    \15\ Free Tibet, ``China Arbitrarily Arrests Elderly Tibetan Man,'' 
18 May 18; ``Tibetan Detained, Disappears in Suo (Sog) County, Naqu 
(Nagchu) Prefecture, TAR'' [Xizang naqu suo xian yi zangren bei bu 
shizong], Radio Free Asia, 21 May 18. For more information on Ganggye, 
see the Commission's Political Prisoner database record 2018-00279.
    \16\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report for 2017--China 
(Includes Tibet, Hong Kong, and Macau),'' 29 May 18, 47; Guo Xin, ``It 
Is Both Illegal and Invalid for the Dalai Lama To Universally Identify 
the Reincarnated Soul Boy of the Panchen Lama,'' People's Daily, 1 
December 95 (translated in Open Source Center, 1 December 95); 
``China's Panchen Lama Calls for Patriotism, Says Greed Taints Tibetan 
Buddhism,'' Reuters, 14 March 17; ``Dalai Lama Rejects Communist Party 
`Brazen Meddling' in Tibetan Buddhist Reincarnation,'' CECC China Human 
Rights and Rule of Law Update, No. 1, 24 January 12, 3. See also Lilit 
Mohan, ``Tibetans Decry Disappearance of 11th Panchen Lama,'' Tribune, 
18 May 18; Yangchen Dolma, ``Tibetans and Tibet Support Groups Urge 
World Leaders To Act Over Missing Panchen Lama,'' Tibet Post 
International, 18 May 18.
    \17\ Greg C. Bruno, Blessings From Beijing: Inside China's Soft-
Power War on Tibet (Lebanon, NH: ForeEdge, 2018), 92; John Powers, The 
Buddha Party: How the People's Republic of China Works To Define and 
Control Tibetan Buddhism (New York: Oxford University Press, 2017), 
125. See also CECC, 2016 Annual Report, 6 October 16, 301-02. For more 
information on the Panchen Lama and China's likely model for selecting 
the next Dalai Lama, see CECC, 2008 Annual Report, 31 October 08, 189.
    \18\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report for 2017--China 
(Includes Tibet, Hong Kong, and Macau),'' 29 May 18, 42; Tibetan Centre 
for Human Rights and Democracy, ``China: Allow Independent 
International Bodies To Verify Fate of Gedhun Choekyi Nyima, the 11th 
Panchen Lama of Tibet,'' 17 May 18.
    \19\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2017--China 
(Includes Tibet, Hong Kong, and Macau),'' 20 April 18, 76; ``Tibet's 
Exile Community Observes the 23rd-Year Anniversary of the Panchen 
Lama's Disappearance'' [Xizang liuwang shequ jinian banchan lama 
shizong ershisan nian], Voice of Tibet, 17 May 18. For more information 
on Gedun Choekyi Nyima, see the Commission's Political Prisoner 
database record 2004-00835.
    \20\ Tibetan Centre for Human Rights and Democracy, ``Annual Report 
2017: Human Rights Situation in Tibet,'' 7 May 18, 52-53; Tshering 
Chonzom, ``Tibet, the 19th Party Congress and China's United Front 
Work,'' Institute of Chinese Studies, Delhi, ICS Delhi Blog, 1 November 
17. See also Sarah Cook, Freedom House, ``The Battle for China's 
Spirit: Religious Revival, Repression, and Resistance Under Xi 
Jinping,'' February 2017, 86-101; CECC, 2016 Annual Report, 6 October 
16, 300-04.
    \21\ ``Tibetans in Lhasa Celebrate Holy Month of Saga Dawa,'' 
Xinhua, 16 May 18; Liu Xuanzun, ``Tibet Celebrates Saga Dawa Festival, 
Stresses Social Order,'' Global Times, 24 May 18.
    \22\ ``Tibetan Officials Warned Against Participating in Religious 
Activities During Holy Month,'' Phayul, 31 May 18.
    \23\ Free Tibet, ``Schoolchildren Blocked From Joining Buddhist 
Festivities,'' 16 May 18.
    \24\ Roseanne Gerin, ``Report Details Destruction at Sichuan's 
Larung Gar Buddhist Academy,'' Radio Free Asia, 19 October 17. For more 
information on the demolitions and expulsions at Larung Gar that took 
place during the previous reporting year, see CECC, 2017 Annual Report, 
5 October 17, 303-04.
    \25\ Human Rights Watch, ``China: New Controls on Tibetan 
Monastery,'' 24 January 18; U.S. Policy Toward Tibet: Access, Religious 
Freedom, and Human Rights, Hearing of the Subcommittee on Asia and the 
Pacific, Committee on Foreign Affairs, U.S. House of Representatives, 6 
December 17, Testimony of Tenzin Tethong, Director of the Tibetan 
Service, Radio Free Asia, 3.
    \26\ Free Tibet and Tibet Watch, ``Destroying Heaven: China's 
Campaign of Destruction at Larung Gar'' 20 October 17, 11.
    \27\ Human Rights Watch, ``China: New Controls on Tibetan 
Monastery,'' 24 January 18.
    \28\ Ibid. ``Grid-style social management''--a central government 
``securitization'' policy first deployed in the Tibet Autonomous Region 
in 2012--divides urban and rural areas into smaller units for the 
purpose of intensifying surveillance, policing, and control at the 
community level. See Human Rights Watch, ``China: Alarming New 
Surveillance, Security in Tibet,'' 20 March 13; Tibetan Centre for 
Human Rights and Democracy, ``Annual Report 2017: Human Rights 
Situation in Tibet,'' 7 May 18, 8; Adrian Zenz and James Leibold, 
``Chen Quanguo: The Strongman Behind Beijing's Securitization Strategy 
in Tibet and Xinjiang,'' Jamestown Foundation, China Brief, Vol. 17 
Issue 12, 21 September 17. See also ``Grid Locked,'' Economist, 22 June 
13.
    \29\ According to the official brochure, released in Chinese and 
Tibetan, monks must now wear red tags, nuns yellow tags, and laypeople 
green tags. Human Rights Watch, ``China: New Controls on Tibetan 
Monastery,'' 24 January 18.
    \30\ Human Rights Watch, ``China: New Controls on Tibetan 
Monastery,'' 24 January 18.
    \31\ International Campaign for Tibet, ``Major Religious Festival 
Cancelled and New Police Checkpoints at Larung Gar,'' 3 November 17; 
``China Bans Major Prayer Festival at Larung Gar,'' Radio Free Asia, 1 
November 17.
    \32\ Human Rights Watch, ``China: New Controls on Tibetan 
Monastery,'' 24 January 18.
    \33\ Tibetan Centre for Human Rights and Democracy, ``Annual Report 
2017: Human Rights Situation in Tibet,'' 7 May 18, 55; International 
Campaign for Tibet, ``Major Religious Festival Cancelled and New Police 
Checkpoints at Larung Gar,'' 3 November 17.
    \34\ International Campaign for Tibet, ``Self-Immolations by 
Tibetans,'' last visited 13 August 18; Free Tibet, ``Self-Immolation 
Protests,'' last visited 13 August 18; Tibet Centre for Human Rights 
and Democracy, ``2017 Annual Report on Human Rights Situation in 
Tibet,'' 7 May 18, 24-26.
    \35\ For more information on the Tibetan autonomous areas of China, 
see ``Special Topic Paper: Tibet 2008-2009,'' Congressional-Executive 
Commission on China, 22 October 09, 22-24.
    \36\ International Campaign for Tibet, ``Tibetan Man Dies After 
Self-Immolation; Oppressive Measures Intensified in March 10 
Anniversary Week,'' 7 March 18; International Campaign for Tibet, 
``Young Tibetan Man Dies After Self-Immolation in Ngaba,'' 27 December 
17; ``Tibetan Monk Burns to Death in Sichuan Calling for Tibetan 
Freedom,'' Radio Free Asia, 29 November 17; CECC, 2017 Annual Report, 5 
October 17, 301-02.
    \37\ Tibetan Centre for Human Rights and Democracy, ``2017 Annual 
Report on Human Rights Situation in Tibet,'' 7 May 18, 24-26.
    \38\ International Campaign for Tibet, ``Respected Tibetan Monk 
Sets Fire to Himself in Eastern Tibet,'' 30 November 17; ``Tibetan Monk 
Burns to Death in Sichuan Calling for Tibetan Freedom,'' Radio Free 
Asia, 29 November 17.
    \39\ International Campaign for Tibet, ``Respected Tibetan Monk 
Sets Fire to Himself in Eastern Tibet,'' 30 November 17.
    \40\ ``Tibetan Monk Burns to Death in Sichuan Calling for Tibetan 
Freedom,'' Radio Free Asia, 29 November 17.
    \41\ International Campaign for Tibet, ``Young Tibetan Man Dies 
After Self-Immolation in Ngaba,'' 27 December 17.
    \42\ ``Tibetan Self-Immolator, a Former Kirti Monk, Dies of His 
Burns,'' Radio Free Asia, 26 December 17.
    \43\ Jamphel Shonu, ``Update: Latest Self-immolator Konpe Passed 
Away,'' Central Tibetan Administration, 26 December 17; International 
Campaign for Tibet, ``Young Tibetan Man Dies After Self-Immolation in 
Ngaba,'' 27 December 17.
    \44\ Tibetan Centre for Human Rights and Democracy, ``Chinese 
Authorities Detain Father of Tibetan Man Who Died of Self-Immolation 
Protest on Christmas Eve,'' 26 December 17; International Campaign for 
Tibet, ``Young Tibetan Man Dies After Self-Immolation in Ngaba,'' 27 
December 17. For more information on Gyakyab, see the Commission's 
Political Prisoner Database record 2018-00029.
    \45\ International Campaign for Tibet, ``Self-Immolations by 
Tibetans,'' 7 March 18.
    \46\ International Campaign for Tibet, ``Tibetan Man Dies After 
Self-Immolation; Oppressive Measures Intensified in March 10 
Anniversary Week,'' 7 March 18. The source spells Tsekho Tugchag's name 
``Tsekho Tugchak.'' See also ``Tibetan Dies Wednesday in Self-
Immolation Protest in Tibetan Region of China'' [Zhongguo zangqu zhou 
san fasheng zangren zifen kangyi shenwang shijian] Radio Free Asia, 7 
March 18.
    \47\ For more information on the seven cases, see the following 
records in the Commission's Political Prisoner Database: 2017-00335 on 
Tashi Dradul, 2017-00336 on Kalsang Gyatso, 2017-00337 on Tsering 
Choephel, 2017-00338 on Tenzin Namgyal, 2017-00339 on Choephel, 2017-
00340 on Tsering Norbu, and 2017-00341 on Tsegyam.
    \48\ ``China Detains Seven Tibetans in Yushul Over Self-Immolation 
Videos,'' Radio Free Asia, 23 October 17.
    \49\ Tibetan Centre for Human Rights and Democracy, ``2017 Annual 
Report on Human Rights Situation in Tibet,'' 7 May 18, 8-13; Freedom 
House, ``Freedom in the World 2018--Tibet,'' last visited 3 September 
18; International Campaign for Tibet, ``Tibet Brief--Edition 61,'' 
October-November 2017, 2. See also Adrian Zenz, ``China's Domestic 
Security Spending: An Analysis of Available Data,'' Jamestown 
Foundation, China Brief, Vol. 18, Issue 4, 12 March 18.
    \50\ Adrian Zenz, ``China's Domestic Security Spending: An Analysis 
of Available Data,'' Jamestown Foundation, China Brief, Vol. 18, Issue 
4, 12 March 18.
    \51\ ``Chinese Communist Party Central Committee Issues `Plan for 
Deepening Reform of Party and Government Agencies' '' [Zhonggong 
zhongyang yinfa ``shenhua dang he guojia jigou gaige fang'an''], 
Xinhua, 21 March 18, sec. 1(13)-(14). The United Front Work Department 
will lead the State Ethnic Affairs Commission and manage religious 
affairs. See also Tshering Chonzom, ``Tibet, the 19th Party Congress 
and China's United Front Work,'' Institute of Chinese Studies, ICS 
Delhi (blog), 1 November 17; ``October 21 Press Conference on `Party's 
United Front Work and Party's Foreign Exchange' '' [10 yue 21 ri ``dang 
de tongyi zhanxian he dang de duiwai jiaowang'' jizhe zhaodaihui], 
People's Daily, 21 October 17.
    \52\ International Campaign for Tibet, ``Inside Tibet: New 
Crackdown on `Hostile Forces' in Tibet in Buildup to Party Congress,'' 
11 August 17; International Campaign for Tibet, ``New Developments in 
China's Tibet Policy as Communist Party's 19th Congress Begins,'' 17 
October 17.
    \53\ Christian Shepherd and Ben Blanchard, ``Leaving Nothing to 
Chance, China Increases Security, Social Control Before Congress,'' 
Reuters, 28 September 17.
    \54\ ``Chinese Police Make Show of Force in Tibetan Areas as Party 
Congress Opens,'' Radio Free Asia, 18 October 17.
    \55\ Duan Min, ``All Levels and Departments of Shannan Municipality 
Seriously Study, Publicize, and Implement the Spirit of the 19th Party 
Congress'' [Shannan shi ge ji ge bumen renzhen xuexi xuanchuan guanche 
shijiuda jingshen], Tibet News, 28 October 17.
    \56\ See, e.g., Molly Lortie, ``CPC Starts Mandatory Training on 
19th Congress Party in Tibet,'' Tibet Post, 28 November 17; Liu Caiyu, 
``Tibetan Buddhist Monks Study 19th Party Congress,'' Global Times, 28 
November 17.
    \57\ International Federation for Human Rights and International 
Campaign for Tibet, ``Universal Periodic Review of the People's 
Republic of China, United Nations Human Rights Council, November 2018, 
Joint Submission,'' 29 March 18, item 2. See also Human Rights in 
China, ``Stakeholder Submission,'' March 2018, item 3.
    \58\ Tibetan Centre for Human Rights and Democracy, ``2017 Annual 
Report on Human Rights Situation in Tibet,'' 7 May 18, 8.
    \59\ Ibid., 8-9.
    \60\ ``Police in Tibet Offer Cash Rewards for Tips on Crime, 
Disloyal Behavior,'' Radio Free Asia, 4 April 18; Zhen Dan, ``Nagchu 
Authorities Restrict Tibetans' International Communications'' [Naqu 
dangju yanjin zangren yu jingwai lianxi], Radio Free Asia, 3 April 18.
    \61\ ``Police in Tibet Offer Cash Rewards for Tips on Crime, 
Disloyal Behavior,'' Radio Free Asia, 4 April 18.
    \62\ Ibid.
    \63\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
29 September 16, sec. III(1); Clemence Henry, ``The Chinese Education 
System as a Source of Conflict in Tibetan Areas,'' in Ethnic Conflict 
and Protest in Tibet and Xinjiang: Unrest in China's West, eds. Ben 
Hillman and Gray Tuttle (New York: Columbia University Press, 2016), 
100; PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, 11 March 18, arts. 4, 121; PRC 
Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo minzu quyu 
zizhi fa], passed 31 May 84, amended and effective 28 February 01, 
arts. 10, 21, 37; State Council, Certain Provisions on Implementing the 
``PRC Regional Ethnic Autonomy Law'' [Guowuyuan shishi ``zhonghua 
renmin gongheguo minzu quyu zizhi fa'' ruogan guiding], passed 19 May 
05, effective 31 May 05, art. 22; PRC Education Law [Zhonghua renmin 
gongheguo jiaoyu fa], passed 18 March 95, amended 27 August 09, 27 
December 15, effective 1 June 16, art. 12. China's Constitution and the 
PRC Regional Ethnic Autonomy Law provide nominal protection for the use 
of minority languages. The State Council Provisions on Implementing the 
PRC Regional Ethnic Autonomy Law affirm the freedom to use and develop 
minority languages, but also place emphasis on the use of Mandarin by 
promoting ``bilingual'' education and bilingual teaching staff.
    \64\ Nikhil Sonnad, ``Taiwan's Laws on Language Are Showing China 
What It Means To Be a Modern, Inclusive Country,'' Quartz, 9 May 18; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
``Country Reports on Human Rights Practices for 2017--China (Includes 
Tibet, Hong Kong and Macau),'' 20 April 18, 90.
    \65\ Chris Buckley, ``A Tibetan Tried To Save His Language. China 
Handed Him 5 Years in Prison,'' New York Times, 22 May 18; Amnesty 
International, ``China: Sham Trial Exposes Absurd Charge Against 
Tibetan Activist,'' 4 January 18. For more information on Tashi 
Wangchug, see the Commission's Political Prisoner Database record 2016-
00077.
    \66\ Chris Buckley, ``Tibetan Businessman Battles Separatism 
Charges in Chinese Court,'' New York Times, 4 January 18.
    \67\ Ibid.
    \68\ Chris Buckley, ``A Tibetan Tried To Save His Language. China 
Handed Him 5 Years in Prison,'' New York Times, 22 May 18; Lucas 
Niewenhuis, ``China Sentences Tibetan Language Activist to Five Years 
in Prison,'' SupChina, 22 May 18.
    \69\ ``Group: China Denies Tibet Activist's Appeal of Jail 
Sentence,'' Associated Press, 23 August 18; Voice of Tibet 
(VOT_Tibetan), Twitter post, 22 August 18, 10:52 p.m.; Tenzin Dharpo, 
``Tibetan Language Rights Advocate Tashi Wangchuk Appeals Against 5-
Year Prison Term,'' Phayul, 20 June 18; Free Tibet, ``Tashi Wangchuk in 
Good Health and Appealing His Prison Sentence,'' 19 June 18.
    \70\ U.S. Policy Toward Tibet: Access, Religious Freedom, and Human 
Rights, Hearing of the Subcommittee on Asia and the Pacific, House 
Foreign Affairs Committee, 6 December 17, Testimony of Tenzin Tethong, 
Director of the Tibetan Service, Radio Free Asia, 1.
    \71\ ``248 WeChat Group Organizers Forced To Go Through Trainings 
in Zeku County, Qinghai'' [Qinghai zeku xian 248 ming weixin qunzhu bei 
qiangzhi jieshou jiaoyu], Radio Free Asia, 2 October 17; Freedom House, 
``Freedom in the World 2018--Tibet,'' last visited 3 September 18.
    \72\ Masashi Crete-Nishihata et al., ``Managing the Message: What 
You Can't Say About the 19th National Communist Party Congress on 
WeChat,'' University of Toronto, Munk School of Global Affairs, Citizen 
Lab, 6 November 17; ``248 WeChat Group Administrators Forced To Go 
Through Trainings in Zeku County, Qinghai'' [Qinghai zeku xian 248 ming 
weixin qunzhu bei qiangzhi jieshou jiaoyu], Radio Free Asia, 2 October 
17; Freedom House, ``Freedom in the World 2018--Tibet,'' last visited 3 
September 18.
    \73\ Tibetan Centre for Human Rights and Democracy, ``China Issues 
Vague and Overbroad Rules on Internet Censorship in Tibet,'' 17 
November 17; Cyberspace Administration of China, Provisions on the 
Administration of Internet Group Information Services [Hulianwang qunzu 
xinxi fuwu guanli guiding], issued 7 September 17, effective 8 October 
17.
    \74\ Cyberspace Administration of China, Provisions on the 
Administration of Internet Group Information Services [Hulianwang qunzu 
xinxi fuwu guanli guiding], issued 7 September 17, effective 8 October 
17, art. 11; Lulu Yilun Chen and Keith Zhai, ``China's Latest Crackdown 
on Message Groups Chills WeChat Users,'' Bloomberg, 12 September 17.
    \75\ Tibetan Centre for Human Rights and Democracy, ``China Issues 
Vague and Overbroad Rules on Internet Censorship in Tibet,'' 17 
November 17; Tenzin Monlam, ``China Issues Localized Internet 
Censorship Rules in Tibet,'' Phayul, 18 November 17.
    \76\ ``248 WeChat Group Administrators Forced To Go Through 
Trainings in Zeku County, Qinghai'' [Qinghai zeku xian 248 ming weixin 
qunzhu bei qiangzhi jieshou jiaoyu], Radio Free Asia, 2 October 17.
    \77\ Tibetan Centre for Human Rights and Democracy, ``Chinese 
Authorities Detain Two Tibetan Monks for Sharing `Illegal' Contents on 
Social Media,'' 18 April 18; ``Two Monks From Tongde County, Qinghai's 
Tsang Monastery Detained'' [Qinghai tongde xian shizang si liang seng 
bei bu], Radio Free Asia, 18 April 18; ``Tsang Monastery Monk Oechung 
Gyatso Detained by Chinese [Authorities]'' [Gtsang dgon-pa'i dge-`dun 
pa `od-chung rgya-mtsho rgya-nag gis `dzin-bzung byas-`dug], Radio Free 
Asia, 18 April 18.
    \78\ Tibetan Centre for Human Rights and Democracy, ``Chinese 
Authorities Detain Two Tibetan Monks for Sharing `Illegal' Contents on 
Social Media,'' 18 April 18; ``Two Monks From Tongde County, Qinghai's 
Tsang Monastery Detained'' [Qinghai tongde xian shizang si liang seng 
bei bu], Radio Free Asia, 18 April 18; ``Tsang Monastery Monk Oechung 
Gyatso Detained by Chinese [Authorities]'' [Gtsang dgon-pa'i dge-`dun 
pa `od-chung rgya-mtsho rgya-nag gis `dzin-bzung byas-`dug], Radio Free 
Asia, 18 April 18.
    \79\ Tibetan Centre for Human Rights and Democracy, ``Chinese 
Authorities Detain Two Tibetan Monks for Sharing `Illegal' Contents on 
Social Media,'' 18 April 18; ``Two Monks From Tongde County, Qinghai's 
Tsang Monastery Detained'' [Qinghai tongde xian shizang si liang seng 
bei bu], Radio Free Asia, 18 April 18; ``Tsang Monastery Monk Oechung 
Gyatso Detained by Chinese [Authorities]'' [Gtsang dgon-pa'i dge-`dun 
pa `od-chung rgya-mtsho rgya-nag gis `dzin-bzung byas-`dug], Radio Free 
Asia, 18 April 18. For more information on Oechung Gyatso, see the 
Commission's Political Prisoner Database record 2018-00167.
    \80\ The International Covenant on Civil and Political Rights 
(ICCPR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 19(2). Article 19 of 
the ICCPR holds that freedom of expression includes ``freedom to seek, 
receive and impart information and ideas of all kinds, regardless of 
frontiers, either orally, in writing or in print, in the form of art, 
or through any other media of his choice.''
    \81\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinion No. 4/2017 on Tsegon Gyal (China), A/HRC/WGAD/2017/4, 11 August 
17. For more information on Tsegon Gyal, see the Commission's Political 
Prisoner Database record 2004-01163.
    \82\ ``Tibetan Writer Handed Three-Year Prison Term for `Inciting 
Separatism,' '' Radio Free Asia, 20 February 18.
    \83\ Tibetan Centre for Human Rights and Democracy, ``Charged of 
Inciting Separatism, Detained Former Tibetan Political Prisoner Tsegon 
Gyal on `Silent Protest,' '' 29 December 16.
    \84\ Tibetan Centre for Human Rights and Democracy, ``Prominent 
Former Political Prisoner Tsegon Gyal Sentenced to Three Years on 
Charge of `Inciting Separatism,' '' 18 February 18. For more 
information on Tsegon Gyal, see the Commission's Political Prisoner 
Database record 2004-01163.
    \85\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 19(2). Article 19 of the ICCPR 
holds that freedom of expression includes ``freedom to seek, receive 
and impart information and ideas of all kinds, regardless of frontiers, 
either orally, in writing or in print, in the form of art, or through 
any other media of his choice.''
    \86\ Tenzin Dharpo, ``Noted Writer Shogjang Released After Three 
Years in Chinese Prison,'' Phayul, 20 March 18; PEN America, ``Shokjang 
(Druklo),'' last visited 2 July 18. For more information on Drukar Gyal 
(pen name Shogjang; also known as Druglo), see the Commission's 
Political Prisoner Database record 2010-00153.
    \87\ PEN America, ``Shokjang (Druklo),'' last visited 16 July 18; 
Independent Chinese PEN Center, ``218: Shogjang'' [218: Xuejiang], 21 
March 18; ``Tibetan Author Druglo Sentenced to Three Years'' [Zangren 
zuojia zhuluo panjian 3 nian], Radio Free Asia, 20 February 16; 
International Campaign for Tibet, ``Popular Tibetan Blogger Asserts His 
Innocence in Letter From Prison,'' 4 April 16; Tibetan Centre for Human 
Rights and Democracy, ``Revoke Discriminatory, Unjust Verdict Against 
Tibetan Writer Shokjang,'' 7 April 16.
    \88\ ``Tibetan Protest Singer Freed After Serving More Than Three 
Years in Prison,'' Radio Free Asia, 3 August 18; For more information 
on Gonpo Tenzin, see the Commission's Political Prisoner Database 
record 2014-00012.
    \89\ Ibid.; ``China Detains Two Tibetan Singers from Driru,'' Radio 
Free Asia, 16 December 13; ``China Arrests Tibetan Monk in Tawu, 
Sentences Popular Singer from Driru,'' Voice of America, 21 May 15.
    \90\ Dui Hua Foundation, ``Dui Hua Digest, March 2016,'' 16 March 
16. According to the US-based Dui Hua Foundation, in December 2015, the 
Huangnan Intermediate People's Court commuted Namkha Jam's sentence 
from six years to five years and eight months.
    \91\ ``Tibetan Freed After Serving Six Years on `Separatism' 
Charge,'' Radio Free Asia, 14 August 18; ``Tibetan in Qinghai Leaves 
Prison After Finishing Sentence for Observing Self-Immolations'' 
[Guanzhu zifen huozui qinghai zangren xingman chuyu], Radio Free Asia, 
16 August 18; Free Tibet, ``Tibetan Political Prisoner Released After 
Completing a Six Year Prison Term,'' 14 August 18. For more information 
on Namkha Jam, see the Commission's Political Prisoner Database record 
2013-00141.
    \92\ Richard Finney, ``Chinese Court Jails Four Tibetans on 
`Separatism' Charge,'' Radio Free Asia, 15 April 13; Tibetan Centre for 
Human Rights and Democracy, ``Two Tibetans Convicted for `Inciting 
Separatism' Released After Serving Long Prison Terms,'' 17 August 18. 
For more information on the three other men detained at the same time 
as Namkha Jam, see the Commission's Political Prisoner database records 
2013-00139 on Choepa Gyal, 2013-00142 on Chagthar, and 2013-00143 on 
Gonpo.
    \93\ Tibetan Centre for Human Rights and Democracy, ``Two Tibetans 
Convicted for `Inciting Separatism' Released After Serving Long Prison 
Terms,'' 17 August 18; Free Tibet, ``Tibetan Political Prisoner 
Released After 10 Years,'' 17 August 18.
    \94\ Federal Foreign Office of the Federal Republic of Germany, 
``Statement by Human Rights Commissioner Kofler on Shokjang's 
Release,'' 21 March 18; Tibetan Centre for Human Rights and Democracy, 
``Tibetan Singer Sentenced to Prison After Prolonged Secret 
Detention,'' 21 May 15; ``Tibetan Freed After Serving Six Years on 
`Separatism' Charge,'' Radio Free Asia, 14 August 18; Free Tibet, 
``Tibetan Political Prisoner Released After 10 Years,'' 17 August 18; 
PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, 4 November 17, art. 55. 
Drukar Gyal's sentence included two years of deprivation of political 
rights; Gonpo Tenzin's included four; and Namkha Jam's, three. The 
sources available to the Commission state that Gonpo Tseten faces an 
unknown amount of time under deprivation of political rights; Article 
55 of the PRC Criminal Law stipulates that the term can last from one 
to five years.
    \95\ Dui Hua Foundation, ``Dui Hua Welcomes Arrival of Dhondup 
Wangchen in the United States,'' 27 December 17.
    \96\ Dondrub Wangchen, ``Putting Tibet Back on the Agenda,'' 
Project Syndicate, 15 May 18; Tibet ``From All Angles'': Protecting 
Human Rights, Defending Strategic Access, and Challenging China's 
Export of Censorship Globally, Hearing of the Congressional-Executive 
Commission on China, 14 February 18, Testimony of Dhondup Wangchen, 
Tibetan filmmaker and recently escaped political prisoner. For more 
information on Dondrub Wangchen's case, see the Commission's Political 
Prisoner Database record 2008-00586.
    \97\ International Campaign for Tibet, ``International Campaign for 
Tibet Welcomes Former Political Prisoner Dhondup Wangchen to Freedom 
and Safety,'' 27 December 17.
    \98\ CECC, 2010 Annual Report, 10 October 10, 225-26.
    \99\ Tom Phillips, ``Jokhang Temple: Fire Engulfs Ancient `Heart' 
of Tibetan Buddhism,'' Guardian, 17 February 18; Francoise Robin, 
``Guest Post: `The Silence of the State: The Jokhang Fire and the 
Response of the Chinese Government,' '' High Peaks Pure Earth (blog), 
21 March 18; China Digital Times, `` `Almost Total Suppression of 
Information' After Tibet Fire,'' 20 February 18.
    \100\ Francoise Robin, ``Guest Post: `The Silence of the State: The 
Jokhang Fire and the Response of the Chinese Government,' '' High Peaks 
Pure Earth (blog), 21 March 18.
    \101\ Ibid.
    \102\ ``Fire Put Out in Jokhang Temple in China's Tibet,'' Xinhua, 
17 February 18.
    \103\ International Campaign for Tibet, ``New Fears for Historic 
Structure of Jokhang Temple After Major Fire, as China Covers up Extent 
of Damage,'' 12 March 18.
    \104\ ``Tibet's Jokhang Temple Closes for Three Days, Raising 
Concerns Over Damage,'' Radio Free Asia, 20 February 18.
    \105\ Francoise Robin, ``Guest Post: `The Silence of the State: The 
Jokhang Fire and the Response of the Chinese Government,' '' High Peaks 
Pure Earth (blog), 21 March 18; International Campaign for Tibet, ``New 
Fears for Historic Structure of Jokhang Temple After Major Fire, as 
China Covers Up Extent of Damage,'' 12 March 18; Jonathan Kaiman, ``A 
Fire May Have Damaged Precious Relics at Tibet's Holiest Temple. China 
Says No--But Experts Aren't Sure,'' Los Angeles Times, 22 February 18; 
``China Rules Out Arson in Fire at Tibetan Buddhism's Holiest Temple, 
as Authorities Accused of Cover-up,'' Agence France-Presse, reprinted 
in Hong Kong Free Press, 22 February 18.
    \106\ State Administration of Cultural Heritage, ``World Heritage: 
Historic Ensemble of the Potala Palace, Lhasa (C 707) State of 
Conservation 2017--Appendix: Report on the Local Fire Accident 
Happening to Jokhang Monastery, Lhasa Presented by the People's 
Government of Tibet Autonomous Region,'' November 2017, 5. The report 
does not state when the appendix was added.
    \107\ Tom Phillips, ``Jokhang Temple: Fire Engulfs Ancient `Heart' 
of Tibetan Buddhism,'' Guardian, 17 February 18.
    \108\ Francoise Robin, ``Guest Post: `The Silence of the State: The 
Jokhang Fire and the Response of the Chinese Government,' '' High Peaks 
Pure Earth (blog), 21 March 18. The Jokhang is the central chapel of 
the Tsuglakhang temple complex. The term ``Jokhang temple'' refers to 
Tsuglakhang, not the Jokhang chapel.
    \109\ Ibid.
    \110\ Tom Phillips, ``Jokhang Temple: Fire Engulfs Ancient `Heart' 
of Tibetan Buddhism,'' Guardian, 17 February 18.
    \111\ Free Tibet, ``The Jokhang Fire Four Months On,'' 22 June 18.
    \112\ Freedom House, ``Freedom in the World 2018--Tibet,'' last 
visited 3 September 18; Human Rights Watch, ``Submission to the CERD 
Review of China,'' 21 June 18.
    \113\ ``Authorities in China's Qinghai Province Block Tibetans From 
Travel Amid Dalai Lama Teachings,'' Radio Free Asia, 24 January 18.
    \114\ Free Tibet, ``China Detains Tibetan Pilgrims,'' 22 March 18. 
The source does not specify the nature of the reeducation program the 
Tibetans were believed to be undergoing.
    \115\ Ibid.
    \116\ ``Tibetan Pilgrim Disappears After Chinese Police 
Interrogation on Her Way to Lhasa,'' Radio Free Asia, 13 April 18.
    \117\ Ibid. The source gives the pilgrim's name as Lhamo Dolkar, 
while the Commission's Political Prisoner Database lists her under the 
name Lhamo Drolma. Her detention is reportedly connected to her visit 
to an imprisoned Tibetan monk, Sanggyal Gyatso. For information about 
these cases, see the Commission's Political Prisoner Database records 
2018-00168 on Lhamo Drolma and 2012-00127 on Sanggyal Gyatso.
    \118\ Brad Adams, ``An Election in Nepal, Decades in the Making,'' 
Foreign Affairs, 7 December 17.
    \119\ Debasish Roy Chowdhury, ``Driven by India Into China's Arms, 
Is Nepal the New Sri Lanka? '' South China Morning Post, 25 February 
18.
    \120\ Sapana Phuyal, ``Helping People on the Move,'' Kathmandu 
Post, 8 April 18.
    \121\ Sudha Ramachandran, ``Sino-Nepali Relations: Scaling New 
Heights,'' Jamestown Foundation, China Brief, Vol. 18, Issue 6, 9 April 
18.
    \122\ See, e.g., Unrepresented Nations and Peoples Organization, 
``New UPR Report Gives Damning Indictment on Chinese Treatment of Tibet 
Civil Society,'' 4 April 18.
    \123\ International Campaign for Tibet, ``Ban on Access to Nature 
Reserves in Tibet Raises Concern About Tibetan Nomads at UNESCO Site,'' 
11 December 17. See also Freedom House, ``Freedom in the World 2018--
Tibet,'' last visited 3 September 18.
    \124\ ``30 Tibetans Detained for Mining Protest, One Missing,'' 
Phayul, 15 May 18. For information on some of the detained protesters, 
see the Commission's Political Prisoner Database records 2018-00132 on 
Karma, 2018-00197 on Khyenrab, 2018-00198 on Rinchen Namdrol, 2018-
00199 on Tsultrim Gonpo, 2018-00200 on Jangchub Ngodrub, 2018-00201 on 
Dongye, 2018-00202 on Sogru Abu, and 2018-00203 on Namse.
    \125\ ``Tibetan Villagers Tear-Gassed, Beaten for Mine Protest,'' 
Radio Free Asia, 11 July 18; International Campaign for Tibet, ``ICT 
Inside Tibet: Safety Fears Over Tibet Railway Raised Amid Concern Over 
Mega-Projects,'' 21 November 17; International Campaign for Tibet, 
``Ban on Access to Nature Reserves in Tibet Raises Concern About 
Tibetan Nomads at UNESCO Site,'' 11 December 17.
    \126\ International Campaign for Tibet, ``Ban on Access to Nature 
Reserves in Tibet Raises Concern About Tibetan Nomads at UNESCO Site,'' 
11 December 17.
    \127\ UN Educational, Scientific, and Cultural Organization, World 
Heritage Convention, ``World Heritage Committee Inscribes Three Natural 
Sites and One Extension on UNESCO's World Heritage List,'' 7 July 17.
    \128\ UN Educational, Scientific, and Cultural Organization, World 
Heritage Convention, ``Qinghai Hoh Xil,'' last visited 1 June 18.
    \129\ Ibid.
    \130\ ``Unesco Heritage Listing Sparks Tibetan Resettlement 
Fears,'' BBC, 10 July 17.
    \131\ International Campaign for Tibet, ``UNESCO Approves 
Controversial World Heritage Tibet Nomination Despite Concerns,'' 7 
July 17.
    \132\ State Council Information Office, White Paper on ``Ecological 
Progress on the Qinghai Tibet Plateau,'' July 2018, sec. VI; 
International Union for Conservation of Nature, ``Qinghai Hoh Xil--
Wilderness in the Heights,'' last visited 24 July 18. Section VI of the 
White Paper states, ``In its assessment report, the World Conservation 
Union took note of Hol Xil's expansive natural beauty--free of human 
activity--describing it as `an amazing scene to behold.' '' The World 
Conservation Union, which is also called the International Union for 
Conservation of Nature, stated that the ``World Heritage listing 
unequivocally supports the rights of the Tibetan pastoralists in the 
area,'' thus acknowledging human activity there.
    \133\ Stephen Chen, ``Chinese Engineers Plan 1,000km Tunnel To Make 
Xinjiang Desert Bloom,'' South China Morning Post, 30 October 17.
    \134\ Yarlung Tsangpo, ``An Ongoing `Quake Lake' Scare in India 
(With Images From Planet Labs),'' American Geophysical Union, Landslide 
Blog, 2 January 18; ``China Says Earthquake Behind Turbidity of 
Brahmaputra Waters,'' Indo-Asian News Service, reprinted in New Indian 
Express, 2 January 18; Fan Xiao, ``Opinion: The Madcap Scheme To Divert 
the Brahmaputra,'' China Dialogue (blog), 17 January 18.
    \135\ Stephen Chen, ``Chinese Engineers Plan 1,000km Tunnel To Make 
Xinjiang Desert Bloom,'' South China Morning Post, 30 October 17; Atul 
Aneja, ``China Bets on Mega Projects in Tibet,'' Hindu, 25 November 17.
    \136\ ``Author: Fan Xiao,'' China Dialogue (blog), last visited 6 
July 18.
    \137\ Fan Xiao, ``Opinion: The Madcap Scheme To Divert the 
Brahmaputra,'' China Dialogue (blog), 17 January 18.
    \138\ International Campaign for Tibet, ``ICT Inside Tibet: Safety 
Fears Over Tibet Railway Raised Amid Concern Over Mega-Projects,'' 21 
November 17.
    \139\ ``Tibet Receives 1.2 Mln Tourists During Holiday,'' Xinhua, 9 
October 17.
    \140\ ``Tibetan Nomads Appeal for Return of Land Seized for Tourist 
Project,'' Radio Free Asia, 14 May 18.


                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    During its 2018 reporting year, the Commission observed a 
continued erosion of Hong Kong's autonomy,\1\ as guaranteed 
under the ``one country, two systems'' policy enshrined in the 
Basic Law in accordance with the principles of the 1984 Sino-
British Joint Declaration.\2\ Reports showed diminishing space 
for political action by pro-democracy groups and individuals in 
Hong Kong's democratic institutions.\3\ Observers also 
expressed concerns regarding the erosion of universal human 
rights protected by international instruments applicable under 
the Hong Kong Basic Law.\4\

         CHINESE CENTRAL GOVERNMENT'S POLICY TOWARDS HONG KONG

    At the 19th National Congress of the Chinese Communist 
Party in October 2017, Party General Secretary and Chinese 
President Xi Jinping reiterated that the central government 
must maintain ``overall'' or ``comprehensive'' jurisdiction 
over Hong Kong and Macau while ensuring a ``high degree of 
autonomy.'' \5\ Government officials emphasized the importance 
of Hong Kong's economic integration with mainland China and 
joint cooperation through the Belt and Road Initiative.\6\ 
After a meeting with Party General Secretary Xi in December 
2017, Hong Kong Chief Executive Carrie Lam Cheng Yuet-ngor said 
that it is the Hong Kong government's responsibility to create 
a ``suitable environment'' for enacting a national security law 
as obligated by Article 23 of the Basic Law, emphasizing that 
every person who ``loves [the] nation and loves Hong Kong'' 
should protect national security.\7\ At the annual meetings of 
the National People's Congress and Chinese People's Political 
Consultative Conference in March 2018, top Party officials 
warned that the central government has ``zero tolerance'' for 
calls for Hong Kong independence.\8\ The University of Hong 
Kong surveyed 500 Hong Kong residents and found that 70.6 
percent of young people (aged 18 to 35) in Hong Kong felt that 
``democracy is equally or more important than economic 
development.'' \9\

  MARCH 2018 LEGISLATIVE COUNCIL BY-ELECTION SUBJECTED TO ``POLITICAL 
                              SCREENING''

    In March 2018, a Legislative Council (LegCo) by-election 
was held to replace legislative seats vacated by four out of 
six disqualified pro-democracy legislators.\10\ The Hong Kong 
High Court disqualified six legislators in 2016 and 2017,\11\ 
citing the interpretation on oath-taking issued by the National 
People's Congress Standing Committee in November 2016 \12\ and 
deeming the legislators' oaths invalid.\13\ Candidates from 
both the pro-democracy and pro-establishment camps won two 
seats each.\14\ The LegCo consists of 70 total seats--35 of 
which are elected by functional constituencies representing 
different professional sectors, while the other 35 are directly 
elected by Hong Kong geographical constituencies.\15\ After the 
March by-election, the pro-democracy camp held a total of 16 
seats in geographical constituencies, which is not enough to 
veto bills, while the pro-establishment camp maintained a 
majority of 17 seats.\16\
    During the nomination period preceding the March by-
elections, the government of Hong Kong carried out what 
observers called ``political screening'' of prospective 
election candidates for the LegCo based on their political 
party or political beliefs.\17\ Government officials from the 
Electoral Affairs Commission (EAC) who review nomination 
applications (``returning officers'') \18\ rejected the 
nomination of several candidates,\19\ including Demosisto Party 
candidate Agnes Chow on grounds that her affiliated party's 
platform promoting ``self-determination'' contradicts the Basic 
Law.\20\ The EAC also rejected the nominations of ``localist'' 
candidates Ventus Lau Wing-hong and James Chan Kwok-keung who 
previously voiced support for Hong Kong independence.\21\ Hong 
Kong's Chief Executive Carrie Lam defended the rejection of 
Chow, saying that ``self-determination,'' similar to ``Hong 
Kong independence'' and ``self-autonomy,'' is not consistent 
with the Basic Law and ``deviates from the important principle 
of `one country, two systems.' '' \22\ In February 2018, the 
Hong Kong High Court ruled in the election petition of Andy 
Chan Ho-tin, an advocate of Hong Kong independence whose 
nomination for candidacy in the September 2016 LegCo General 
Election was rejected, that ``returning officers'' have the 
power to bar candidates based on the candidates' political 
views.\23\
    The U.K. government and the European Union expressed 
concern that the rejection of Chow based on her political 
beliefs constituted a violation of the right to stand for 
election enshrined in Hong Kong's Basic Law, Hong Kong's Bill 
of Rights Ordinance, and the International Covenant on Civil 
and Political Rights (ICCPR).\24\ The Hong Kong Bar Association 
criticized the court ruling against Chan as ``an introduction 
of a political screening process for any prospective 
candidate,'' which lacks ``fair, open, and clear procedure to 
regulate this process'' and relies on a civil servant's 
interpretation of the unspecified requirement of ``upholding 
the Basic Law.'' \25\

          GOVERNMENT LEGAL ACTION AGAINST POLITICAL OPPOSITION

    This past year, the Hong Kong government continued to 
pursue cases against leaders and participants of the 2014 pro-
democracy protests (Occupy Central) and activists from the 
political opposition. As of April 2018, the government 
reportedly brought a total of 40 court cases against 26 pro-
democracy leaders since 2014, resulting in 13 convictions among 
22 concluded cases.\26\ In October 2017, a Hong Kong court 
found 9 people guilty of criminal contempt for refusing to 
leave when a court ordered the clearance of protest sites in 
November 2014; 11 others who also had refused to leave the 
protest site pleaded guilty to contempt of court.\27\ As of 
February 2018, nine democracy protest leaders faced pending 
charges of ``inciting people to incite others to create a 
public nuisance'' and ``inciting others to incite more people 
to create a public nuisance,'' with Occupy Central protest 
leaders Benny Tai, Chan Kin-man, and Chu Yiu-ming facing an 
additional charge of ``conspiring to create a public 
nuisance.'' \28\ In June 2018, the Hong Kong High Court 
sentenced localist Edward Leung Tin-kei to six years in prison 
on the charges of ``assaulting a police officer,'' which he 
pleaded guilty to, and ``rioting'' for a February 2016 clash 
with the police sparked by a crackdown on unregistered local 
street food stands in Mong Kok.\29\ Foreign observers such as 
Chris Patten, former governor of Hong Kong under British 
colonial rule, criticized the charges under the Public Order 
Ordinance \30\ as ``vague,'' ``open to abuse,'' and used to 
``place extreme sentences on the pan-democrats and other 
activists.'' \31\ International lawyers and Hong Kong judges 
reportedly expressed concerns about the impact of political 
pressure exerted by the central government on the 
judiciary.\32\

------------------------------------------------------------------------
   Cases of Democracy Activists Joshua Wong, Nathan Law, and Alex Chow
-------------------------------------------------------------------------
  In October 2017, authorities released on bail democracy activists and
 Nobel Peace Prize nominees \33\ Joshua Wong Chi-fung, Nathan Law Kwun-
 chung, and Alex Chow Yong-kang, after their imprisonment in August
 2017,\34\ allowing them to appeal their prison sentences of six to
 eight months ordered by the Court of Appeal on charges related to
 ``unlawful assembly.'' \35\ A lower court had previously sentenced Wong
 and Law to community service, which the two had completed, and had
 ordered Chow to serve a suspended sentence.\36\ In February 2018, the
 Court of Final Appeal overturned the sentences of imprisonment for
 Wong, Law, and Chow, holding that the original sentences imposed by the
 magistrate were ``not manifestly inadequate,'' \37\ while recognizing
 that the Court of Appeal appropriately issued sentence guidelines for
 future cases of unlawful assemblies involving violence.\38\ Wong
 criticized the judgment as endorsing ``a very narrow definition of non-
 violent civil disobedience actions'' for future cases.\39\
------------------------------------------------------------------------

       ``CO-LOCATION'' OF HIGH-SPEED RAIL STATION IN WEST KOWLOON

    This past year, Hong Kong and mainland Chinese officials 
continued negotiations and finalized ``co-location'' plans for 
the Hong Kong section of the Guangzhou-Shenzhen-Hong Kong 
Express Rail Link in West Kowloon.\40\ In November 2017, 
Guangdong provincial governor Ma Xingrui and Hong Kong's Chief 
Executive Carrie Lam signed a cooperation agreement to allow 
the enforcement of mainland Chinese law by mainland officials 
in a designated ``Mainland Port Area'' within the West Kowloon 
railway station.\41\ The National People's Congress Standing 
Committee (NPCSC) approved the ``co-location'' plan in 
December,\42\ which was projected for completion in the third 
quarter of 2018.\43\ In January 2018, the Hong Kong government 
introduced the co-location bill in LegCo,\44\ which passed in 
June despite opposition from pro-democracy LegCo members and 
supporters.\45\ The Hong Kong Bar Association (HKBA) criticized 
the NPCSC approval of the co-location plan as a serious 
violation of the Basic Law, asserting that it undermines the 
rule of law and the ``one country, two systems'' framework in 
Hong Kong.\46\ The HKBA argued that the arrangement constitutes 
``the most retrograde step to date in the implementation of the 
Basic Law'' and that it ``severely undermines public confidence 
in `one country, two systems.' '' \47\

                 FREEDOM OF EXPRESSION AND ASSOCIATION

    This past year, the Commission observed reports of 
restrictions on the freedom of expression and association in 
Hong Kong against academics and politicians who hold views the 
government deems unfavorable. In a report released in January 
2018, the human rights monitoring organization Hong Kong Watch 
highlighted the government's political considerations in the 
removal from post and obstruction of promotions of several 
academic figures since 2015, including pro-democracy professors 
Chin Wan-kan, Johannes Chan, Benny Tai, and Cheng Chung-
tai.\48\ The study noted that while academic freedom in Hong 
Kong remained relatively free compared to mainland China, 
``elements of academic control'' in mainland China are 
``gradually being incorporated into the Hong Kong system.'' 
\49\ Pro-democracy scholars and activists also said that the 
environment for academic freedom is deteriorating in Hong 
Kong.\50\ In March 2018, Benny Tai, one of the conveners of the 
pro-democracy protests in 2014, attended an academic forum in 
Taiwan, during which he hypothesized future political options 
for Hong Kong, including independence if the mainland were to 
become democratic.\51\ The Hong Kong government subsequently 
issued a statement that ``strongly condemned'' Tai's 
remarks.\52\ Civil society groups and pro-democracy politicians 
condemned the government's statement as breaching the right to 
freedom of expression.\53\ In July 2017, the government of Hong 
Kong began considering banning a political party that advocates 
for independence,\54\ and subsequently opposed an August event 
hosted by the Foreign Correspondents' Club of Hong Kong 
featuring the party's founder, Andy Chan.\55\ The U.K. 
government issued a statement of concern showing support for 
Hong Kong's ``rights and freedoms'' under the Basic Law and 
Hong Kong Bill of Rights and ``its way of life.'' \56\ A Hong 
Kong Journalists Association survey from April 2018 cited 
pressure from the Chinese central government as a key 
obstruction to press freedom in Hong Kong in connection with 
self-censorship of criticisms of the central government.\57\ In 
advance of the UN Human Rights Council's Universal Periodic 
Review of the Chinese government's human rights record, 
including compliance with the ICCPR, 53 Hong Kong non-
governmental organizations raised concerns about the narrowing 
space for lawful dissent and expression in Hong Kong and the 
future of democratic development.\58\
    Chinese authorities reportedly used intimidation tactics 
against members of a pro-democracy group and played a role in 
barring a foreign rights advocate's entry into Hong Kong. In 
August 2018, pro-democracy group Demosisto reported that 
mainland officials detained and extensively questioned two of 
its members on their political associations and activities in 
Hong Kong when they attempted to return to Hong Kong from 
mainland China.\59\ In October 2017, Hong Kong authorities 
barred British human rights advocate Benedict Rogers from 
entering Hong Kong after the Chinese embassy in London 
reportedly warned against his visit.\60\

------------------------------------------------------------------------
             Hong Kong Bookseller Gui Minhai Detained Again
-------------------------------------------------------------------------
  This past year, Chinese authorities first released and then detained
 Swedish citizen Gui Minhai, one of the five Hong Kong booksellers
 abducted and brought to mainland China in late 2015.\61\ In October
 2017, authorities reportedly released Gui from custody after two years
 of detention for an alleged ``traffic offense'' \62\ and placed him
 under surveillance at a rented home in Ningbo municipality, Zhejiang
 province.\63\ In January 2018, Gui was forcibly detained by
 plainclothes Chinese authorities while he was traveling with two
 Swedish diplomats to Beijing municipality, reportedly to seek a medical
 examination for neurological symptoms.\64\ The Swedish foreign minister
 condemned the Chinese government's acts as a ``brutal intervention''
 against a Swedish citizen,\65\ while the European Union condemned
 China's actions as violations of international rules on consular
 support and protections against deprivation of liberty.\66\ Chinese
 authorities confirmed that Gui was detained and facing additional
 criminal charges \67\ for ``endangering state security,'' which
 included allegations of ``illegally providing national secrets and
 intelligence to overseas groups.'' \68\
  On February 10, Gui appeared in an interview with the South China
 Morning Post (SCMP), among other news media outlets, reportedly
 arranged by the Ministry of Public Security,\69\ during which he said
 Sweden was ``hyping up'' his case for political reasons and using him
 as a ``chess piece.'' \70\ Gui has appeared in at least three televised
 confessions in mainland and Hong Kong media outlets,\71\ which the
 international NGO Safeguard Defenders believes are typically extracted
 through threats and torture, and used for both domestic and overseas
 propaganda.\72\ Journalists \73\ and advocates \74\--including Gui
 Minhai's daughter Angela Gui \75\--questioned the journalistic
 integrity of SCMP, which Safeguard Defenders called ``the first English-
 language, non-state media that collaborated with the Chinese police to
 circulate a televised confession.'' \76\
------------------------------------------------------------------------

                                 Macau

    Macau's Basic Law does not provide for elections by 
``universal suffrage,'' \77\ though its provisions ensure the 
applicability of the International Covenant on Civil and 
Political Rights (ICCPR) in Macau \78\ and guarantee Macau a 
``high degree of autonomy'' within China.\79\ During its 2018 
reporting year, the Commission did not observe progress in 
Macau toward ``an electoral system based on universal and equal 
suffrage'' in line with the ICCPR,\80\ as recommended by the UN 
Human Rights Committee.\81\ In advance of the November 2018 
session of the UN Human Rights Council's Universal Periodic 
Review (UPR) of China, pro-democracy group New Macau 
Association submitted a report calling for direct elections for 
the Chief Executive, Legislative Assembly, and members of a 
newly proposed municipal administration body that would replace 
the Civic and Municipal Affairs Bureau.\82\
    This past year, proposed legislative amendments raised 
concerns regarding Macau's autonomy and rule of law. In March 
2018, the government completed a draft law amending Macau's 
Judicial Framework Law to bar foreign judges from hearing 
national security and defense cases.\83\ Portuguese lawyers 
were alarmed by the proposal and feared that it may violate 
Macau's Basic Law and further erode the independence of the 
city's judiciary.\84\ In December 2017, the government 
completed a draft cybersecurity law and released the draft for 
public comment.\85\ While the government reportedly stated that 
the draft law would not compromise freedom of expression,\86\ 
cyber analysts said that based on the low level of cyber 
attacks in Macau the legislation is not warranted, raising 
concerns from cyber industries about the interpretation and 
impact of the law.\87\
    In December 2017, Macau's legislature suspended 26-year-old 
legislator Sulu Sou Ka Hou \88\--one of four pro-democracy 
legislators elected in September 2017 to the Macau Legislative 
Assembly (AL), a body composed of 33 total seats, 14 of which 
are directly elected.\89\ The AL voted by secret ballot to 
suspend Sou 48 days after he took office, a move that lifted 
his immunity from being prosecuted in court under the charge of 
``aggravated disobedience'' for his role in a 2016 protest \90\ 
and stripped him of his right to legislate.\91\ This marked the 
first time that a legislator has been suspended from his duties 
since Macau's 1999 handover from Portugal to China.\92\ In May 
2018, a Macau court found Sou guilty of organizing an unlawful 
protest and fined him 40,800 patacas (US$5,100); \93\ Sou 
appealed the sentence in June,\94\ which he later withdrew in 
order to have his suspension at the AL lifted.\95\
    Access and travel to Macau were reportedly limited for 
certain events and individuals this past year. In March 2018, 
the China Liaison Office in Macau reportedly warned organizers 
of a literary festival in Macau that the government could not 
guarantee entry to several book authors,\96\ including U.K.-
based writer and Mao Zedong biographer Jung Chang.\97\ In a 
March 2018 statement, PEN Hong Kong, an international advocacy 
organization for freedom of expression, said that the lack of 
assurance for the entry of authors ``infringes directly on the 
right of freedom of expression'' in Macau.\98\ Immigration 
authorities denied pro-democracy and centrist Hong Kong 
politicians entry to Macau this past year, citing concerns over 
their participation in activities ``which may jeopardize the 
public security . . . of the Macao SAR.'' \99\ In response to 
an inquiry about the denial of Hong Kong politician Casper Wong 
Chun-long from entry, a Macau official cited the prevention of 
``chaos'' for the city.\100\


                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ See, e.g., Hong Kong Watch, ``Major EU Parliament Report 
Condemns Chinese Interference in Hong Kong's Internal Affairs,'' 16 
December 17; Hong Kong Watch, ``Hong Kong 20 Years On: Freedom, Human 
Rights and Autonomy Under Fire,'' 15 January 18, 4.
    \2\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 2; Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted 19 December 84, 
item 3.
    \3\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2017--China 
(includes Tibet, Hong Kong, and Macau)--Hong Kong,'' 20 April 18, 109. 
See, e.g., Benjamin Haas, ``Enemy of the State? Agnes Chow, the 21-
Year-Old Activist Who Has China Worried,'' Guardian, 3 February 18; 
Venus Wu, ``Hong Kong Lawyers Say Court Affirms `Political Screening' 
in Elections,'' Reuters, 14 February 18.
    \4\ Hong Kong Watch, ``Hong Kong 20 Years On: Freedom, Human Rights 
and Autonomy Under Fire,'' 15 January 18; Freedom House, ``Freedom in 
the World 2018--Hong Kong,'' last visited 18 July 18, secs. D-E; Basic 
Law of the Hong Kong Special Administrative Region of the People's 
Republic of China, passed 4 April 90, effective 1 July 97, arts. 25-39. 
Articles 25 to 38 of the Basic Law list specific protected rights. 
Article 39 says that the provisions of the International Covenant on 
Civil and Political Rights, the International Covenant on Economic, 
Social and Cultural Rights, and international labor conventions shall 
remain in force in Hong Kong.
    \5\ Xi Jinping, ``Secure a Decisive Victory in Building a 
Moderately Prosperous Society in All Respects and Strive for the Great 
Success of Socialism With Chinese Characteristics for a New Era,'' 18 
October 17, Xinhua, 3 November 17, 21; Suzanne Pepper, ``Hong Kong's 
Future in the Words of Xi Jinping,'' Hong Kong Focus (blog), 23 October 
17.
    \6\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], 5 March 18; Chen Lijun, `` `Integrating With National 
Development Situation' Is the Road That Hong Kong Development Must 
Take'' [``Rongru guojia fazhan daju'' shi xianggang fazhan de biyou zhi 
lu], Overseas Net, 6 March 18; Office of the Commissioner, Ministry of 
Foreign Affairs of the People's Republic of China in Hong Kong Special 
Administrative Region, ``A New Model of `Mainland Plus Hong Kong Plus 
X' and a New Platform for Belt and Road Cooperation,'' 31 August 17.
    \7\ Hong Kong Information Services Department, ``Full Text of Chief 
Executive's Interview With Media in Beijing (Part Two)'' [Xingzheng 
zhangguan zai beijing huijian chuanmei tanhua quanwen (er)], 15 
December 17.
    \8\ Charlotte Gao, ``Beijing Sets a Harsh Tone for Hong Kong in Two 
Sessions,'' The Diplomat, 9 March 18.
    \9\ ``Future Directions in Hong Kong's Governance: Youth 
Perspectives,'' University of Hong Kong, Center for Comparative and 
Public Law, April 2018, 1, 3, 7.
    \10\ Electoral Affairs Commission, ``By-Election Brief,'' 8 March 
18; ``Contentious By-Elections Disappoint Hong Kong's Democrats,'' 
Economist, 12 March 18; Legislative Council of the Hong Kong Special 
Administrative Region, ``Changes in Membership of the Sixth Legislative 
Council (2016-2020),'' 21 March 18.
    \11\ Joyce Ng et al., ``Barred Hong Kong Localists Vow To Keep 
Fighting After High Court Decision,'' South China Morning Post, 16 
November 16; Elson Tong, ``4 More Elected Pro-Democracy Lawmakers To Be 
Ousted Following Hong Kong Court Ruling,'' Hong Kong Free Press, 14 
July 17.
    \12\ National People's Congress Standing Committee, Interpretation 
of Article 104 of the ``Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China'' [Quanguo 
renmin daibiao dahui changwu weiyuanhui guanyu ``zhonghua renmin 
gongheguo xianggang tebie xingzheng qu jiben fa'' di yibailingsi tiao 
de jieshi], issued 7 November 16.
    \13\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, No 
185 of 2016, HCAL 185/2016 and Miscellaneous Proceedings, No 2819 of 
2016, HCMP 2819/2016, 15 November 16, paras. 19, 108; In the High Court 
of the Hong Kong Special Administrative Region, Court of First 
Instance, Constitutional and Administrative Law List, No 223 of 2016, 
HCAL 223-26/2016, and Miscellaneous Proceedings, No 3378-79 and 3381-82 
of 2016, HCMP 3378-79/2016, 3381-82/2016, 14 July 17, paras. 19, 22, 
34, 95-96, 113, 141-42, 165, 182-83, 229.
    \14\ Laignee Barron, ``Hong Kong's Democracy Movement Suffers a 
Blow as Pro-Beijing Rivals Gain Ground in Election,'' Time, 12 March 
18.
    \15\ Legislative Council of the Hong Kong Special Administrative 
Region, ``Composition of the Legislative Council,'' last visited 6 June 
18. See also Secretariat Education Service Team, Legislative Council of 
the Hong Kong Special Administrative Region, ``Composition of the 
Legislative Council,'' March 2017; Cal Wong, ``What Exactly Is Hong 
Kong's Legislative Council? '' The Diplomat, 6 September 16.
    \16\ Jeffie Lam, ``What Happened to the Disqualifications Backlash? 
Five Takeaways From Hong Kong's Legco By-Election,'' South China 
Morning Post, 12 March 18.
    \17\ Hong Kong Bar Association, ``Statement of the Hong Kong Bar 
Association on Disqualification,'' 14 February 18; Hong Kong Watch, `` 
`Political Screening in Hong Kong': The Disqualification of Candidates 
and Lawmakers Ahead of the March By-Elections,'' 8 March 18, 5.
    \18\ Government of the Hong Kong Special Administrative Region, 
``Transcript of Media Session by Secretary for Justice,'' 29 January 
18.
    \19\ Benjamin Haas, ``Enemy of the State? Agnes Chow, the 21-Year-
Old Activist Who Has China Worried,'' Guardian, 3 February 18; ``(LegCo 
By-Election) Another Candidate Barred From Running,'' The Standard, 1 
February 18; Jeffie Lam, ``Why Is Hong Kong Having Its Quietest 
Election Ever?'' South China Morning Post, 8 March 18.
    \20\ Benjamin Haas, ``Enemy of the State? Agnes Chow, the 21-Year-
Old Activist Who Has China Worried,'' Guardian, 3 February 18; Tony 
Cheung, ``Demosisto Party Candidate Agnes Chow Launches High Court Bid 
To Have Hong Kong Election Ban Overturned on Bill of Rights Grounds,'' 
South China Morning Post, 8 May 18.
    \21\ Maya Wang, Human Rights Watch, ``Hong Kong's Great Leap 
Backward on Political Rights,'' 1 February 18; Kris Cheng, ``James Chan 
Third Citizen To Be Barred From Election by Hong Kong Gov't Over 
Political Beliefs,'' Hong Kong Free Press, 1 February 18.
    \22\ Kimmy Chung and Tony Cheung, ``Political Storm in Hong Kong as 
Activist Agnes Chow Banned From By-Election Over Party's Call for 
City's `Self Determination,' '' South China Morning Post, 28 January 
18. See also Government of Hong Kong Special Administrative Region, 
``Transcript of Media Session by Secretary for Justice,'' 29 January 
18.
    \23\ In the High Court of the Hong Kong Special Administrative 
Region, Court of First Instance, Constitutional and Administrative Law 
List, No 162 of 2016, HCAL 162/2016, 13 February 18, sec. 118; Venus Wu 
and Pak Yiu, ``Hong Kong Court Rules Pro-Independence Stance Must Bar 
Standing for Election,'' Reuters, 13 February 18.
    \24\ European Union Office to Hong Kong and Macao, ``Statement by 
the Spokesperson on the Decision To Bar Agnes Chow from Running for a 
Legislative Council By-Election,'' 29 January 18; United Kingdom 
Foreign & Commonwealth Office, ``FCO Statement on Forthcoming 
Legislative Council By-Election in Hong Kong,'' 31 January 18.
    \25\ Hong Kong Bar Association, ``Statement of the Hong Kong Bar 
Association on Disqualification,'' 14 February 18; Ernest Kao and Tony 
Cheung, ``Hong Kong Bar Association Laments `Political Screening' of 
Election Candidates,'' South China Morning Post, 14 February 18; Venus 
Wu, ``Hong Kong Lawyers Say Court Affirms `Political Screening' in 
Elections,'' Reuters, 14 February 18.
    \26\ Kong Tsung-gan, ``Overview of Prosecutions and Lawsuits 
Brought by the Hong Kong Government Against Pro-Democracy Leaders,'' 
Medium, 13 April 18.
    \27\ Chris Lau, ``Hong Kong Student Leaders Joshua Wong, Lester 
Shum and Five Others Admit to Contempt of Court in Occupy Case,'' South 
China Morning Post, 6 July 17; Chris Lau, ``20 Hong Kong Protestors To 
Face Punishment for Contempt of Court in Occupy Case,'' South China 
Morning Post, 13 October 17.
    \28\ Ellie Ng, ``Defence Says Hong Kong Democracy Activists Face 
`Unconstitutional, Unnecessary' Charges in Umbrella Movement Trial,'' 
Hong Kong Free Press, 9 January 18; Kris Cheng, ``Hong Kong Umbrella 
Movement Trial: Court Refuses To Scrap `Inciting Others To Incite 
Public Nuisance' Charge,'' Hong Kong Free Press, 13 February 18.
    \29\ In the High Court of the Hong Kong Special Administrative 
Region, Court of First Instance, High Court Criminal Case No 408 of 
2016 [Xianggang tebie xingzheng qu, gaodeng fayuan yuan song fating 
gaoyuan xingshi anjian 2016 nian di 408 hao], HCCC 408/2016, 11 June 
18, secs. 69-71; Austin Ramzy, ``Hong Kong Activist Edward Leung Given 
6 Years for Police Clash,'' New York Times, 11 June 18; Ben Westcott 
and Divya Gopalan, ``Hong Kong Independence Activist Edward Leung 
Jailed for Six Years,'' CNN, 11 June 18; ``Hong Kong Jails Independence 
Leader Edward Leung for Six Years,'' Agence France-Presse, reprinted in 
Guardian, 10 June 18. See also Jeffie Lam, ``Edward Leung Riot 
Sentence: Too Harsh, or Necessary as Deterrent? Legal Scholars, 
Politicians Split Over Jail Term for Hong Kong Independence Activist,'' 
South China Morning Post, 26 June 18.
    \30\ Legislative Council of the Hong Kong Special Administrative 
Region, Public Order Ordinance (Cap. 245) [Di 245 zhang gong'an 
tiaoli], issued 17 November 67, amended 29 June 17. See also UN Human 
Rights Committee, Concluding Observations on the Third Periodic Report 
of Hong Kong, China, adopted by the Committee at its 107th Session (11-
28 March 2013), CCPR/C/CHN-HKG/CO/3, 29 April 13, para. 10. The UN 
Human Rights Committee noted in its 2013 review of the Hong Kong 
government's compliance with the International Covenant on Civil and 
Political Rights that provisions within the Public Order Ordinance 
``may facilitate excessive restriction to the Covenant rights.''
    \31\ Hong Kong Watch, ``Lord Patten Criticises Public Order 
Ordinance Following Sentencing of Edward Leung,'' 11 June 18.
    \32\ Hong Kong Watch, ``Twelve Top International Lawyers Warn of 
Grave Threats to Rule of Law, Judicial Independence and Human Rights in 
Hong Kong,'' 16 October 17; Greg Torode and James Pomfret, ``Hong 
Kong's Judges Voice Fears Over China Influence in Judiciary,'' Reuters, 
15 March 18. See also Karen Cheung, ``UK Watchdog Urges Fair Trials for 
Hong Kong Activists; Suggests Stripping Justice Sec. of Prosecution 
Power,'' Hong Kong Free Press, 1 March 18.
    \33\ See, e.g., ``Nobel Peace Prize Nomination for Hong Kong 
Protest Leaders Angers Beijing,'' Radio Free Asia, 2 February 18; Venus 
Wu, ``U.S. Congress Members Nominate Hong Kong's Joshua Wong for Nobel 
Peace Prize,'' Reuters, 1 February 18; Tom Phillips, ``Nobel Peace 
Prize: US Lawmakers Nominate Hong Kong Protesters,'' Guardian, 1 
February 18; Eli Meixler, ``Hong Kong's `Umbrella Movement' Has Been 
Nominated for the Nobel Peace Prize,'' Time, 1 February 18. See also 
``Chairs Release 2017 Annual Report--Announce New Initiatives on Hong 
Kong & Commemoration of Liu Xiaobo,'' Congressional-Executive 
Commission on China, 5 October 17. At the release of the Commission's 
2017 Annual Report, Senator Marco Rubio and Representative Chris Smith, 
the Commission's Chair and Cochair, respectively, announced their 
intention to nominate Joshua Wong, Nathan Law, and Alex Chow and the 
entire Umbrella Movement for the Nobel Peace Prize. The Chairs, along 
with 10 other members of the U.S. Congress, subsequently made the 
nomination in February 2018 to the Nobel Peace Prize Committee.
    \34\ ``Hong Kong Activist Joshua Wong Jailed for Six Months,'' BBC, 
17 August 17; Alan Wong, ``Hong Kong Protest Leaders Are Freed on Bail 
To Pursue Appeal,'' New York Times, 24 October 17.
    \35\ In the High Court of the Hong Kong Special Administrative 
Region, Court of Appeal, Criminal Jurisdiction, Application for Review 
No. 4 of 2016 (On Appeal From ESCC No. 2791 of 2015) [Xianggang tebie 
xingzheng qu, gaodeng fayuan shangsu fating, xingshi sifa guanxia quan, 
fuhe shenqing, fuhe shenqing anjian 2016 nian di 4 hao (yuan dongqu 
caipan fayuan xingshi anjian 2015 nian di 2791 hao), CAAR 4/2016, 17 
August 17, paras. 7, 19-21, 174; Jasmine Siu, ``Joshua Wong and Other 
Jailed Hong Kong Student Leaders See Political Careers Halted,'' South 
China Morning Post, 18 August 17. See also Legislative Council of the 
Hong Kong Special Administrative Region, Public Order Ordinance (Cap. 
245) [Di 245 zhang gong'an tiaoli], issued 17 November 67, amended 29 
June 17, sec. 18.
    \36\ James Griffiths, ``Joshua Wong and Two Other Umbrella Movement 
Leaders Jailed in Hong Kong,'' CNN, 17 August 17; Jasmine Siu, ``Joshua 
Wong and Other Jailed Hong Kong Student Leaders See Political Careers 
Halted,'' South China Morning Post, 18 August 17.
    \37\ In the Court of Final Appeal of the Hong Kong Special 
Administrative Region, Final Appeal No. 8 of 2017 (Criminal) (On Appeal 
From CAAR No. 4 of 2016), FACC 9/2017, 6 February 18, paras. 105, 120, 
126.
    \38\ Ibid.
    \39\ Karen Cheung, ``Hong Kong Democracy Activists Joshua Wong, 
Alex Chow, Nathan Law Free To Go After Occupy Sentence Appeal,'' Hong 
Kong Free Press, 6 February 18.
    \40\ Legislative Council, Bills Committee on Guangzhou-Shenzhen-
Hong Kong Express Rail Link (Co-location) Bill, ``Background Brief 
Prepared by the Legislative Council Secretariat,'' 9 February 18, last 
updated 24 April 18, items 6-13.
    \41\ ``Cooperation Plan for Mainland and Hong Kong Special 
Administrative Region Regarding the Implementation of `Co-Location' at 
the Guangzhou-Shenzhen-Hong Kong High Speed Rail West Kowloon Station'' 
[Neidi yu xianggang tebie xingzhengqu guanyu zai guangshengang gaotie 
jiulong zhan sheli kou'an shishi ``yidi liangjian'' de hezuo anpai], 18 
November 17, reprinted in National People's Congress, 28 December 17.
    \42\ Shadow Li and Cao Yin, ``Top Legislature Endorses Joint 
Checkpoint for Express Rail Linking HK and Mainland,'' China Daily, 28 
December 17. See also Shi Longhong, ``National's People's Congress 
Standing Committee Approved `Regarding the Implementation of `Co-
Location' at the Guangzhou-Shenzhen-Hong Kong High Speed Rail West 
Kowloon Station' '' [Quanguo renda changweihui pizhun ``neidi yu 
xianggang tebie xingzhengqu guanyu zai guangshengang gaotie xi jiulong 
zhan sheli kou'an shishi `yidi liangjian' de hezuo anpai''], Xinhua, 27 
December 17.
    \43\ Hong Kong Special Administrative Region Government, ``Customs, 
Immigration and Quarantine Arrangements of the Hong Kong Section of the 
Guangzhou-Shenzhen-Hong Kong Express Rail Link,'' 3.
    \44\ Legislative Council of the Hong Kong Special Administrative 
Region, Bills Committee on Guangzhou-Shenzhen-Hong Kong Express Rail 
Link (Co-location) Bill, ``Background Brief Prepared by the Legislative 
Council Secretariat,'' 9 February 18, last updated 24 April 18, items 
11-13; Legislative Council of the Hong Kong Special Administrative 
Region of the People's Republic of China, Guangzhou-Shenzhen-Hong Kong 
Express Rail Link (Co-Location) Bill, 26 January 18.
    \45\ ``Co-Location Bill Passed,'' Hong Kong Government News, 14 
June 18; Kimmy Chung et al., ``Hong Kong's Controversial China Rail 
Checkpoint Bill Finally Passed by Lawmakers Amid Protests, Delays and 
Expulsions,'' South China Morning Post, 14 June 18.
    \46\ Statement of the Hong Kong Bar Association on the Decision of 
the NPCSC of 27 December 2017 on the Co-operation Agreement Between the 
Mainland and the HKSAR on the Establishment of the Port at the West 
Kowloon Station of the Guangzhou-Shenzhen-Hong Kong Express Rail Link 
for Implementing Co-location Arrangement,'' 28 December 17, items 5, 6, 
11. See also Elizabeth Cheung, ``Hong Kong Bar Association `Appalled' 
by Approval of Joint Checkpoint Plan, Saying It `Irreparably' Breaches 
Basic Law,'' South China Morning Post, 29 December 17.
    \47\ Hong Kong Bar Association, ``Statement of the Hong Kong Bar 
Association on the Decision of the NPCSC of 27 December 2017 on the Co-
operation Agreement Between the Mainland and the HKSAR on the 
Establishment of the Port at the West Kowloon Station of the Guangzhou-
Shenzhen-Hong Kong Express Rail Link for Implementing Co-location 
Arrangement,'' 28 December 17, item 7.
    \48\ Kevin Carrico, Hong Kong Watch, ``Academic Freedom in Hong 
Kong Since 2015: Between Two Systems,'' January 2018, 1, 3-6.
    \49\ Ibid., 4.
    \50\ Jeffie Lam, ``Why Beijing Came Down So Hard on Pro-democracy 
Academic Benny Tai Over Hong Kong Independence Comments,'' South China 
Morning Post, 13 April 18; Kevin Carrico, Hong Kong Watch, ``Academic 
Freedom in Hong Kong Since 2015: Between Two Systems,'' January 2018, 
4.
    \51\ ``Dismissal Call Piles Pressure on Hong Kong Academic Over 
Independence Remarks,'' Reuters, 3 April 18; ``Row Over Law Scholar's 
Independence Remarks Sparks Concern in Hong Kong,'' Radio Free Asia, 5 
April 18. See also Liu Lulu, ``Hong Kong Must Enact Basic Law Article 
23 To Rein In Secession,'' Global Times, 2 April 18.
    \52\ Hong Kong Special Administrative Region Government, ``Response 
by HKSAR Government to Media Enquiries,'' 30 March 18; ``Row Over Law 
Scholar's Independence Remarks Sparks Concern in Hong Kong,'' Radio 
Free Asia, 5 April 18.
    \53\ ``Row Over Law Scholar's Independence Remarks Sparks Concern 
in Hong Kong,'' Radio Free Asia, 5 April 18; International Federation 
of Journalists, ``Hong Kong Independence Comments Lead to Freedom of 
Speech Row,'' 4 June 18; Kris Cheng, ``Attacks Against Academic Benny 
Tai May Be Paving Way for Controversial National Security Law, Scholars 
Warn,'' Hong Kong Free Press, 6 April 18.
    \54\ Austin Ramzy, ``Hong Kong May Ban Political Party That Seeks 
Independence From China,'' New York Times, 17 July 18.
    \55\ Austin Ramzy, ``As Hong Kong Clamps Down, a Tiny Political 
Party Finds Itself in the Spotlight,'' New York Times, 6 August 18.
    \56\ U.K. Foreign & Commonwealth Office, ``FCO Statement on the 
Hong Kong National Party,'' 17 July 18.
    \57\ Hong Kong Journalists Association, ``Public Evaluation of Hong 
Kong Press Freedom Drops to New Low,'' 11 April 18.
    \58\ Centre for Comparative and Public Law, University of Hong 
Kong, Hong Kong Human Rights Monitor, Hong Kong Union, et al., ``Joint 
Submission of NGOs for the Universal Periodic Review (3rd Cycle): Hong 
Kong Special Administrative Region (HKSAR) China,'' March 2018, item 
12.
    \59\ Demosisto, ``Statement To Condemn the Ministry of State 
Security's Decision To Detain Demosisto Members,'' 27 August 18, 1-2.
    \60\ Tom Phillips and Benjamin Haas, ``British Conservative Party 
Activist Barred From Entering Hong Kong,'' Guardian, 11 October 17. See 
also Benedict Rogers, ``Why the World Must Wake Up to China's Threat to 
Freedom in Hong Kong,'' Guardian, 12 October 17.
    \61\ Te-Ping Chen, ``China Defends Detention of Swedish Bookseller 
Gui Minhai,'' Wall Street Journal, 25 February 18; Tom Phillips, `` `A 
Very Scary Movie': How China Snatched Gui Minhai on the 11.10 Train to 
Beijing,'' Guardian, 21 February 18. See also CECC, 2016 Annual Report, 
6 October 16, 329-31. For more information on Gui Minhai, see the 
Commission's Political Prisoner Database record 2016-00090.
    \62\ Danny Lee and Phila Siu, ``Missing Hong Kong Bookseller Gui 
Minhai `Released,' but Family Cannot Find Him,'' South China Morning 
Post, 24 October 17; Austin Ramzy, ``China Is Said To Free Hong Kong 
Bookseller, but Family Says He's Missing,'' New York Times, 24 October 
17; ``Sweden Demands Immediate Release of Citizen Detained in China,'' 
Reuters, 23 January 18.
    \63\ Tom Phillips, `` `A Very Scary Movie': How China Snatched Gui 
Minhai on the 11.10 Train to Beijing,'' Guardian, 21 February 18; Mu 
Xuequan, ``China Focus: Gui Minhai Detained Over Allegedly Endangering 
State Security,'' Xinhua, 10 February 18; Phila Siu, ``Transcript of 
Gui Minhai's Government-Arranged Interview: `Swedish Government Used 
Me,' '' South China Morning Post, 10 February 18.
    \64\ Chris Buckley, ``Chinese Police Seize Publisher From Train in 
Front of Diplomats,'' New York Times, 22 January 18; ``Sweden Condemns 
China's `Brutal' Seizure of Bookseller Gui Minhai,'' Agence France-
Presse, reprinted in The Local, 6 February 18.
    \65\ Government Offices of Sweden, ``Statement by Margot Wallstrom 
Regarding the Detention of Swedish Citizen Gui Minhai,'' 5 February 18; 
``Sweden Condemns China's `Brutal' Seizure of Bookseller Gui Minhai,'' 
Agence France-Presse, reprinted in The Local, 6 February 18. See also 
Government Offices of Sweden, ``Statement on Swedish Citizen Gui 
Minhai,'' 8 March 18; Government Offices of Sweden, ``Statement in 
Connection With the Detention of Swedish Citizen Gui Minhai,'' 23 
January 18.
    \66\ European Union, ``Statement by High Representative/Vice-
President Federica Mogherini on the Continued Detention of Gui Minhai 
in China,'' 15 February 18.
    \67\ Mu Xuequan, ``China Focus: Gui Minhai Detained Over Allegedly 
Endangering State Security,'' Xinhua, 10 February 18; Ministry of 
Foreign Affairs, ``Foreign Ministry Spokesperson Geng Shuang's Regular 
Press Conference on February 12, 2018,'' 12 February 18; ``China 
Confirms Arrest of Bookseller Gui Minhai,'' Al Jazeera, 6 February 18.
    \68\ Bai Yunyi, ``HK Bookseller Confesses to Truth About So-called 
`Disappearance,' Says Sweden `Manipulated' Him,'' Global Times, 10 
February 18.
    \69\ Phila Siu, ``Transcript of Gui Minhai's Government-Arranged 
Interview: `Swedish Government Used Me,' '' South China Morning Post, 
10 February 18. See also Javier C. Hernandez, ``A Hong Kong Newspaper 
on a Mission To Promote China's Soft Power,'' New York Times, 31 March 
18.
    \70\ Phila Siu, ``Transcript of Gui Minhai's Government-Arranged 
Interview: `Swedish Government Used Me' '' South China Morning Post, 10 
February 18; ``Detained Bookseller Gui Minhai Slams Sweden for `Hyping 
Up Case' for Political Reasons,'' People's Daily, 11 February 18; Te-
Ping Chen, ``Bookseller Detained in China Says Sweden Is Using Him as a 
`Chess Piece' '' Wall Street Journal, 11 February 18.
    \71\ Safeguard Defenders, ``Scripted and Staged: Behind the Scenes 
of China's Forced TV Confessions,'' April 2018, 25-27.
    \72\ Ibid., 4-5.
    \73\ China Digital Times, ``SCMP Confronted Over Forced Confession 
Coverage,'' 18 April 18.
    \74\ Ibid. See also Safeguard Defenders, ``Scripted and Staged: 
Behind the Scenes of China's Forced TV Confessions,'' April 2018, 71.
    \75\ ``An Exchange Between Gui Minhai's Daughter and the Post's 
Editor-in-Chief,'' South China Morning Post, 18 April 18. See also the 
Long Arm of China: Global Efforts To Silence Critics from Tiananmen to 
Today, Hearing of the Congressional-Executive Commission on China, 24 
May 16, Testimony of Angela Gui, Daughter of Gui Minhai.
    \76\ Safeguard Defenders, ``Scripted and Staged: Behind the Scenes 
of China's Forced TV Confessions,'' 10 April 18, 71.
    \77\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzheng qu jiben fa], passed 31 March 93, effective 20 December 99, 
arts. 47, 68 and annexes I, II.
    \78\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzheng qu jiben fa], passed 31 March 93, effective 20 December 99, 
art. 40.
    \79\ Ibid., arts. 12, 16, 22.
    \80\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25(b). Article 25(b) of the 
ICCPR guarantees the right ``to vote and to be elected at genuine 
periodic elections which shall be by universal and equal suffrage . . 
..''
    \81\ UN Human Rights Committee, Concluding Observations on the 
Initial Report of Macao, China, adopted by the Committee at its 107th 
session (11-28 March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7; 
UN Human Rights Committee, Report on Follow-up to the Concluding 
Observations of the Human Rights Committee, CCPR/C/112/2, 8 December 
14, 23.
    \82\ New Macau Association, ``Submission of the New Macau 
Association to the United Nations Human Rights Council for the 31st 
Session of Universal Periodic Review on Macau, China,'' 28 March 18, 1-
3. See also Nelson Moura, ``Municipal Body Public Consultation Report 
Without Clear Data on Opposing Views,'' Macau News Agency, 2 March 18.
    \83\ Farah Master, ``Macau Move To Curtail Foreign Judges Sparks 
Concerns Over China's Growing Control,'' Reuters, 7 March 18.
    \84\ Ibid.
    \85\ ``Public Consultation on Cyber Security Law Runs Until Jan 
24,'' Macau Daily Times, 12 December 17.
    \86\ Ibid.
    \87\ Cross-Border Chinese Q&A, Culture & Media Education 
Foundation, ``What Is the Macau Government's `Cybersecurity Law' Aimed 
At?'' [Aomen zhengfu de ``wangluo anquan fa'' jian zhi hefang?], In 
Media HK, 24 January 18.
    \88\ ``Person of the Year: Sulu Sou: An Inconvenient Voice,'' Macau 
Daily Times, 29 December 17.
    \89\ Kris Cheng, ``Macau Election: Pro-Democracy Camp Maintains 4 
of 33 Seats, With Youngest Ever Lawmaker Elected at 26,'' Hong Kong 
Free Press, 18 September 17; Kelvin Chan, ``Young Democracy Activist 
Among Macau Election Winners,'' Associated Press, 18 September 17.
    \90\ ``Person of the Year: Sulu Sou: An Inconvenient Voice,'' Macau 
Daily Times, 29 December 17.
    \91\ Kris Cheng, ``Macau's Youngest Ever Pro-Democracy Lawmaker 
Suspended Over `Aggravated Disobedience' Charge,'' Hong Kong Free 
Press, 4 December 17.
    \92\ Raquel Carvalho, ``Macau's Youngest Lawmaker Sulu Sou, 
Suspended From Office and Found Guilty Over 2016 Protest, Hopes To 
Retake His Seat,'' South China Morning Post, 2 June 18.
    \93\ Ibid.; Macau Special Administrative Region Court of First 
Instance, Fourth Criminal Court, Independent Court Basic Law Criminal 
Case No. CR4-17-0194-PCS, Judgment [Aomen tebie xingzheng qu chuji 
fayuan, di si xingshi fating, duren ting putong xingshi an di CR4-17-
0194-PCS hao, panjue shu], 29 May 18.
    \94\ Sheyla Zandonai, ``Sulu Sou Confirms Appeal of Sentence For 
Illegal Protest,'' Macau News Agency, 26 June 18.
    \95\ Cecilia U, ``Breaking News: Sulu Sou Withdraws Appeal To Cease 
Suspension,'' Macau News Agency, 27 June 18.
    \96\ ``The Central Government's Liaison Office in Macau Suggests 
Cancelation of Writer's Presence in the Macau Literary Festival,'' 
Macau News, 12 March 18; ``Writer Jung Chang Entry in Macau Not 
Guaranteed by Authorities,'' Macau News, 5 March 18.
    \97\ ``The Central Government's Liaison Office in Macau Suggests 
Cancelation of Writer's Presence in the Macau Literary Festival,'' 
Macau News, 12 March 18.
    \98\ PEN Hong Kong, ``Statement on International Authors Being 
Denied Access to Macau,'' 7 March 18.
    \99\ See e.g., Kris Cheng, ``Macau Denies Entry to Member of 
Centrist Hong Kong Party, Citing `Intention' To Jeopardise Public 
Security,'' Hong Kong Free Press, 19 December 17; Ng Kang-chung, ``Hong 
Kong Politician Barred From Macau Ahead of 18th Handover Anniversary 
Over Security Concerns,'' South China Morning Post, 20 December 17; 
Karen Cheung, ``Macau Denies Entry to Pro-democracy District 
Councillor, Citing `Intention' To Jeopardise Public Security,'' Hong 
Kong Free Press, 4 September 17.
    \100\ ``Macau Denied People's Entry To Avoid Chaos,'' Macau Daily 
Times, 22 December 17.
</pre></body></html>
